<html>
<title> - S. 159 - A BILL TO ELEVATE THE ENVIRONMENTAL PROTECTION AGENCY TO A CABINET-LEVEL DEPARTMENT</title>
<body><pre>[Senate Hearing 109-827]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-827, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2766

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2007 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                     MARCH 7, 29, APRIL 4, 6, 2006


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2007--Part 7

                            STRATEGIC FORCES

                                                 S. Hrg. 109-827, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2766

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2007 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                     MARCH 7, 29, APRIL 4, 6, 2006


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
30-353 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    JEFF SESSIONS, Alabama, Chairman

JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
LINDSEY O. GRAHAM, South Carolina    JACK REED, Rhode Island
JOHN CORNYN, Texas                   E. BENJAMIN NELSON, Nebraska
JOHN THUNE, South Dakota             MARK DAYTON, Minnesota

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
  Nuclear Weapons and Defense Environmental Cleanup Activities of the 
Department of Energy in Review of the Defense Authorization Request for 
     Fiscal Year 2007 and the Future Years Nuclear Security Program
                             march 7, 2006

                                                                   Page

Brooks, Ambassador Linton F., Under Secretary for Nuclear 
  Security and Administrator, National Nuclear Security 
  Administration, U.S. Department of Energy......................     4
Rispoli, James A., Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................    25

                    Global Strike Plans and Programs
                             march 29, 2006

Flory, Hon. Peter C.W., Assistant Secretary of Defense for 
  International Security Policy..................................    83
Cartwright, Gen. James E., USMC, Commander, U.S. Strategic 
  Command........................................................    93
Young, RADM Charles B., USN, Director, Strategic Systems Programs   102
Gorenc, Maj. Gen. Stanley, USAF, Director, Operational Capability 
  Requirements, Deputy Chief of Staff for Air and Space 
  Operations, Headquarters.......................................   105

                        Missile Defense Programs
                             april 4, 2006

Flory, Hon. Peter C.W., Assistant Secretary of Defense for 
  International Security Policy..................................   139
Obering, Lt. Gen. Henry A., III, USAF, Director, Missile Defense 
  Agency.........................................................   145
Dodgen, LTG Larry J., USA, Commander, U.S. Army Space and Missile 
  Defense Command, U.S. Army Forces Strategic Command............   158
Duma, David W., Acting Director, Operational Test and Evaluation, 
  Department of Defense..........................................   166

                        Military Space Programs
                             april 6, 2006

Sega, Hon. Ronald M., Under Secretary of the Air Force...........   211
Chilton, Lt. Gen. Kevin P., USAF, Joint Functional Component 
  Commander for Space and Global Strike, U.S. Strategic Command..   224
Hamel, Lt. Gen. Michael A., USAF, Commander, Space and Missile 
  Systems Center, Air Force Space Command........................   230
Chaplain, Cristina T., Acting Director, Acquisition and Sourcing 
  Management Team, Government Accountability Office..............   235

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                         TUESDAY, MARCH 7, 2006

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

  NUCLEAR WEAPONS AND DEFENSE ENVIRONMENTAL CLEANUP ACTIVITIES OF THE 
DEPARTMENT OF ENERGY IN REVIEW OF THE DEFENSE AUTHORIZATION REQUEST FOR 
     FISCAL YEAR 2007 AND THE FUTURE YEARS NUCLEAR SECURITY PROGRAM

    The subcommittee met, pursuant to notice, at 2:47 p.m. in 
room SR-232A, Senator Jeff Sessions (chairman of the 
subcommittee) presiding.
    Committee members present: Senators Sessions, Graham, and 
Bill Nelson.
    Majority staff members present: Robert M. Soofer, 
professional staff member; Scott W. Stucky, general counsel; 
and Kristine L. Svinicki, professional staff member.
    Minority staff member present: Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Micah H. Harris and Jill L. 
Simodejka.
    Committee members' assistants present: Meredith Beck and 
Matthew R. Rimkunas, assistants to Senator Graham; Stuart C. 
Mallory, assistant to Senator Thune; and William K. Sutey, 
assistant to Senator Bill Nelson.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The subcommittee will come to order. 
Senator Nelson has some conflicts in schedule and I know he is 
trying to get here, but I think it would be best for us to go 
ahead and get started and he can join us when he can. He is 
interested in being here. He is the ranking Democratic member 
of the committee.
    The Subcommittee on Strategic Forces meets this afternoon 
to receive testimony on the President's request for fiscal year 
2007 for the Department of Energy (DOE) activities under the 
jurisdiction of this subcommittee. I'm pleased to welcome our 
witnesses today, Linton F. Brooks, Administrator of National 
Nuclear Security Administration (NNSA) and Under Secretary of 
Energy. Mr. Brooks, good to have you here, and James A. 
Rispoli, Assistant Secretary of Energy for Environmental 
Management (EM). We are glad to have you. I thank you for your 
service to our country and for taking the time and effort to 
join us today.
    We will begin this hearing in open session. Should it 
become necessary to discuss any classified nuclear weapons or 
other security matters, this hearing will move to Russell Room 
222 for a closed session at an appropriate time. The 
subcommittee will address as many matters as possible here in 
this open setting.
    The Subcommittee on Strategic Forces has jurisdiction over 
approximately 60 percent of the entire DOE budget, which is 
remarkable, amounting to $14.1 billion in the fiscal year 2007 
budget request. Today we will receive testimony on the largest 
programs which comprise the DOE activities as they have been 
associated with the Department of Defense (DOD).
    Specifically, we will examine the nuclear weapons 
activities of the NNSA and the Defense EM program. Within the 
context of the President's fiscal year 2007 budget request for 
these programs, we will examine the current state of health of 
these programs as well as some notable challenges and apparent 
impediments to success.
    A critical task for this subcommittee is to exercise its 
oversight functions with respect to U.S. nuclear forces. 
Nuclear weapons are the most formidable weapons in our arsenal 
and under the Quadrennial Defense Review (QDR) just released, 
nuclear weapons continue to play the central role in our 
posture. We must be confident, therefore, that we are investing 
the taxpayers' dollars in a nuclear weapons program that will 
deliver the results expected.
    Administrator Brooks, the subcommittee is interested in 
hearing your assessment of the Stockpile Stewardship Program 
(SSP) which is charged with maintaining the safety, security, 
and reliability and effectiveness of our current nuclear 
stockpile, as well as the progress towards development of the 
responsive infrastructure called for in the Nuclear Posture 
Review (NPR) of 2001.
    The subcommittee is also interested in your views on the 
potential future transformation of the nuclear weapons 
stockpile, including the Reliable Replacement Warhead (RRW), as 
well as your reaction to the Secretary of Energy advisory board 
report titled ``Recommendations for the Nuclear Weapons Complex 
of the Future.''
    Mr. Rispoli, the subcommittee is interested in your 
perspective as the Assistant Secretary of Energy for EM on the 
progress to date and the outlook when tackling their main 
challenges in addressing the environmental legacy of the 
Department's atomic energy program. You have only been there 
since last August, but probably been there just enough to know 
what the problems are. We would like to talk about those.
    The environmental cleanup program is currently experiencing 
some spectacular failures, some of which I have discussed with 
the Secretary of Energy during his appearance before the full 
Armed Services Committee. We will explore these issues in 
greater detail today.
    In your invitation to appear, you were also asked to 
address as a component of your testimony a number of policies 
and issues in the EM program which you were not able to address 
during your confirmation last year, but which you had committed 
to address upon assuming duties as assistant secretary.
    Senator Nelson, it's great to have you. Thank you for your 
commitment to our Nation's defense and your expertise that you 
bring to this subcommittee and to the full Armed Services 
Committee. You're a valued member. So this subcommittee looks 
forward to receiving that testimony as part of your written 
statement.
    During his appearance before the full committee 3 weeks 
ago, I asked Secretary Bodman and expressed to him in plain 
terms my concerns about the efficiency with which DOE is 
carrying out its responsibilities as authorized by this 
committee. This country finds itself in a budget environment in 
which not a dollar can be wasted. Congress must have confidence 
that the funds are prudently expended and that programs are 
well managed.
    I stated to the Secretary of Energy and I will say the same 
today that I am unconvinced that we are getting all we can for 
every dollar. While not accepting every aspect of my 
characterization of DOE programs, the Secretary in general 
agreed that DOE should do better, must do better. He stated 
that he considers it his job to find efficiencies and to fix 
them. However, it's not a job he can do alone.
    I have pledged to the Secretary that through the execution 
of this subcommittee's oversight responsibilities, we are going 
to help him focus on those efforts and certainly you will be 
key persons in helping the Secretary achieve those goals. So 
these are some of the issues that we will explore in our 
hearing today and let me now recognize my distinguished ranking 
member, Senator Nelson of Florida, for any remarks he has.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman. Just to 
highlight a couple of issues. The first is the RRW. That 
program and its relationship to the overall SSP. This 
relatively new effort, if successful, should enable maintenance 
of a reliable nuclear deterrent without nuclear weapons testing 
and with a significantly smaller stockpile of nuclear weapons 
than we have currently.
    But the RRW program is a challenging program and at the 
same time that the Department is getting the RRW program, you 
are also continuing to work on the life extension programs for 
the legacy nuclear warheads, particularly the W-76 and the W-
80.
    In addition, you are working on modernizing and hopefully 
consolidating some aspects of the nuclear weapons 
infrastructure. That's a significant task in itself. So I'm 
concerned, is there too much going on to get accomplished? Last 
week, the Secretary of the Air Force and the Chief of Staff of 
the Air Force talked about putting 6 pounds of work in a 5-
pound bag.
    Mr. Ambassador, I think you might be considering trying to 
put too much into the same pound bag. If the RRW is to achieve 
its goals, the DOD has to be a willing partner and look 
seriously at all of the requirements it has developed for you. 
Without the direct budgetary responsibility, perhaps DOD is 
asking too much and money is being spent on projects that we 
will eventually not need. DOD is stretched too far and without 
relief from some of what is probably not needed, the RRW may be 
then running out of money for what it needs, or you don't have 
time if you're working on these other things to get the RRW. So 
we want to explore this.
    Mr. Secretary, you're the manager of the largest 
construction project in the United States. At the moment, there 
are significant cost, schedule, and technological issues with 
this facility that is needed to treat millions of gallons of 
high-level radioactive waste stored in increasingly fragile 
underground storage tanks at the Hanford site. How we meet the 
commitments to Washington State and other States to complete 
the cleanup begun in the early 1990s is of serious concern to 
this committee.
    I want you to discuss the plans for the EM program and tell 
us how to ensure that the cleanup is completed and that the 
health and safety of the work force and the community are 
protected. Thank you.
    Senator Sessions. Thank you, Senator Nelson. You make some 
excellent points and I think there is a concern that's been 
recognized for sometime, as Senator Nelson said, that perhaps 
DOD incorrectly thinking it's really not their money, has asked 
for more out of DOE than is necessary.
    I think that is perhaps true or has some truth to it. 
Likewise, I think that there is a possibility that another 
factor is at work, and it goes back to my days as United States 
attorney when I worked with probably 8 or 10 different Federal 
agencies and you learn how to work together or compete with one 
another. When they sign what they call memorandums of 
understanding (MOUs) which are very much like treaties between 
two sovereign powers, it really causes some difficulties.
    I think there is also a danger that since DOE gets the 
money they get and any money that they save does not really go 
back to DOE programs, that they don't have the same incentive 
to cut costs and to manage efficiently as an agency, that they 
at least have an opportunity to save some money and use it for 
other things they give higher priority to.
    So those are some of the things we'll be asking about here, 
about how this system is working. This is an awful lot of money 
that's involved and I think the taxpayers just want to give 
oversight to it. Mr. Ambassador, would you give us your 
thoughts.

 STATEMENT OF AMBASSADOR LINTON F. BROOKS, UNDER SECRETARY FOR 
 NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Ambassador Brooks. Thank you, sir. I welcome the 
opportunity to discuss our budget request and I appreciate the 
committee's past strong support. I have submitted a statement 
for the record and I'd like to just summarize a few quick 
points.
    Before I do that, I'd also like to note for the committee 
the presence of the new Deputy Administrator for Defense 
Programs, Tom D'Agostino. Mr. D'Agostino was confirmed by the 
Senate 2 weeks ago and sworn in last week, and I'm very 
grateful for the committee's very prompt action on him and I 
think you will enjoy working with him. He is an outstanding 
public servant.
    The President's budget supports three main NNSA objectives, 
nuclear weapons stockpile, nuclear weapons nonproliferation, 
and nuclear reactors. My written statement talks about 
nonproliferation and reactors. I'd like to speak about where we 
are in the weapons program.
    First of all, it's very important for the committee to 
understand that the stockpile remains safe and reliable. We 
base this assessment on experiments, computation, analysis, 
laboratory tests of component warheads and systems, and the 
Secretary of Defense and the Secretary of Energy make an annual 
certification to this effect.
    But as we draw down the stockpile, we have to consider the 
long-term implications of successive warhead refurbishments. 
Each refurbishment takes us a little further away from the 
configuration that we had when we tested, and that raises 
concerns not this month, not this year, probably not this 
decade, but it raises concerns sooner or later about our 
ability to ensure stockpile reliability and safety without 
testing.
    So to manage that risk, we need to transform the stockpile 
and we need to transform the supporting infrastructure. Our 
concept for doing so depends, as Senator Nelson and, Mr. 
Chairman, you both mentioned, on the RRW. The idea here, as the 
committee understands, is to relax the Cold War design 
constraints, constraints that were perfectly sensible in the 
military situation of 20 years ago, but are not sensible for 
the military situation today. Those constraints maximize yield 
to weight ratios.
    By relaxing them, we can design replacement components that 
are easier to manufacture, safer and more secure, eliminate 
environmentally dangerous materials which also saves money and 
increases design margins. This both ensures long-term 
reliability and reduces the chance that any future 
administration and any future Congress will be faced with the 
question of having to consider testing again.
    We have two independent design teams from nuclear weapons 
laboratories exploring specific options. In addition to the 
benefit that we will get from the RRW, the design itself is 
important because it gives us the opportunity to train the next 
generation of weapons designers and engineers. Most of those 
who actually were involved in the design of nuclear weapons are 
nearing the end of their careers.
    Both teams are confident in their design. Both teams are 
confident that they will meet requirements and their designs 
will be certifiable without nuclear testing. We'll get 
preliminary designs this month, and then there will be a fairly 
intense peer review process. In the fall, we'll select one of 
those two designs for further effort.
    It is going to be important, however, if we are to get the 
benefits of the RRW that we pay great attention to the weapons 
complex. Now, it's important to understand the weapons complex 
of today is significantly different from the weapons complex 
that helped win the Cold War. We've seen dramatic reductions 
both in size and funding. In 1990 our weapons complex employed 
nearly 60,000 people. Today we have about half that number. The 
footprint of our facilities is reduced from 70 million square 
feet to 40 million square feet and we closed four facilities as 
shown in the chart which I believe you have copies of, 
including major Cold War facilities like the Rocky Flats plant 
in Colorado and Pinellas plant in Florida.
    But the complex still isn't right and I think we have to 
implement what the President outlined in his NPR, a modern 
responsive infrastructure that can sustain the Nation's nuclear 
deterrent while being able to respond to DOD needs quickly and 
effectively. I think right now we can respond effectively but 
nobody would say that we can respond quickly.
    We are carrying out an intensive effort to establish 
exactly what that complex should look like. Last summer, we 
received the report of the Secretary of Energy Advisory Board 
Task Force, sometimes called the Overskei Report. Our challenge 
is to gain the advantages that that report set forth in a way 
that's affordable.
    Mr. Chairman, you mentioned the importance of being wise 
stewards of the taxpayers' money. The vision set forth in that 
report is a compelling vision. It's a very thoughtful job, but 
in the near term it's also an expensive process. What we are 
looking to do is gain the advantages of that vision without 
that expense and we will report to the committee in more detail 
on our thinking later this spring.
    Let me mention a couple of other challenges that you and we 
are faced with in this budget. In the long term, the United 
States needs the ability to manufacture plutonium pits, the 
triggers for nuclear weapons. Last year, although supported by 
the authorizers, Congress declined to appropriate planning 
funds for a modern pit facility.
    As a result, we are not seeking any funds in this year's 
budget. Instead, we are focusing on an interim capability at 
Los Alamos. We will work with Congress over the coming years as 
part of this overall infrastructure plan to identify an 
approach to the long-term pit requirements.
    As Senator Nelson mentioned, we have DOD requirements for 
life extension programs. Last year, reductions in the life 
extension programs of the W-76 increased the risk of meeting 
the DOD schedules in 2007. A reduction in the W-80 cruise 
missile warhead will in fact delay deployment, and will 
increase costs and delay introduction. So this committee has 
always been a strong supporter of life extension programs which 
provide the most direct support of the DOD and I hope you will 
continue to be.
    Last year, Congress significantly reduced funds for the 
facilities and infrastructure recapitalization program. That's 
a program to revitalize the fiscal infrastructure of the 
weapons complex and to basically get us out of the hole we got 
ourselves into in the '90s by underfunding maintenance.
    We have agreed that we would terminate that program in 
2011, but the program was reduced last year. I no longer 
believe that is possible to meet the 2011 deadline, and we will 
seek a 2-year extension. We are, however, committed to the idea 
that this is a temporary program to get us well after which it 
will be our responsibility to keep ourselves well.
    Senator Sessions. This is an existing program?
    Ambassador Brooks. A program to work off the backlog in 
deferred maintenance. We inherited a fairly substantial 
backlog. Our goal is to stabilize that backlog and then reduce 
it to within industry standards and then thereafter to maintain 
it.
    We are, as the Chairman said, conscious of the need to be 
wise stewards of the public money. As a result of that, 
compared to the projections we gave this committee 2 years ago, 
we have reduced our weapons program by about $860 million, 
about half of that for deficit reduction, the other half 
redirected primarily to nonproliferation.
    Our request this year I believe to be balanced and 
responsible and if approved by Congress, it will let us 
continue transforming the stockpile structure, increase 
nonproliferation measures, and enhance Navy force projection. I 
hope the committee will support it. Thank you, sir, and I look 
forward to your questions.
    [The prepared statement of Ambassador Brooks follows:]

           Prepared Statement by Ambassador Linton F. Brooks

    Thank you for the opportunity to discuss the President's fiscal 
year 2007 budget request for the National Nuclear Security 
Administration (NNSA). This is my fourth appearance before this 
committee as the Under Secretary for Nuclear Security, and I want to 
thank all of the Members for their strong support for our important 
national security responsibilities.

                                OVERVIEW

    In the sixth year of this administration, with the strong support 
of Congress, NNSA has achieved a level of stability that is required 
for accomplishing our long-term missions. Our fundamental 
responsibilities for the United States include three national security 
missions:

         assure the safety and reliability of the U.S. nuclear weapons 
        stockpile while at the same time transforming that stockpile 
        and the infrastructure that supports it;
         reduce the threat posed by nuclear proliferation; and
         provide reliable and safe nuclear reactor propulsion systems 
        for the U.S. Navy.

    The budget request for $9.3 billion, an increase of $211 million, 
supports these NNSA missions.
Weapons Activities
    The NNSA is committed to ensuring the long-term reliability, safety 
and security of the Nation's nuclear deterrent. Stockpile Stewardship 
is working; the stockpile remains safe and reliable. This assessment is 
based not on nuclear tests, but on cutting-edge scientific and 
engineering experiments and analysis, including extensive laboratory 
and flight tests of warhead components and subsystems. Each year, we 
are gaining a more complete understanding of the complex physical 
processes underlying the performance of our aging nuclear stockpile. 
However, as we continue to draw down the stockpile to the levels 
established in the Treaty of Moscow--between 1,700 and 2,200 deployed 
strategic nuclear weapons. We must consider the long-term implications 
of successive warhead refurbishments for the weapons remaining in the 
stockpile. Successive refurbishments will take us further from the 
tested configurations and it is becoming more difficult and costly to 
certify warhead remanufacture despite the extraordinary success of the 
Stockpile Stewardship Program (SSP).
    If we were starting to build the stockpile from scratch today we 
would take a much different approach than we took during the Cold War. 
Most of today's warheads were designed to maximize explosive yield with 
minimum size and weight so that many warheads could be carried on a 
single delivery vehicle. As a result, weapons designers designed closer 
to the so-called ``cliffs'' in performance. If we were designing the 
stockpile today, we would manage risk differently, trading size and 
weight for increased performance margins and ease of manufacture and 
maintenance.
    Second, the legacy stockpile was not designed for longevity. During 
the Cold War we introduced new weapons routinely, turning over most of 
the stockpile every 15-20 years. Today, our weapons are aging and now 
are being rebuilt in life extension programs that are both difficult 
and costly. Rebuilding nuclear weapons will never be cheap, but Cold 
War decisions to use certain hazardous materials mean that, in today's 
health and safety culture, warheads are much more costly to 
remanufacture.
    Furthermore, we continue to evolve our deterrent posture from its 
Cold War origins to one that requires far fewer weapons. Decisions the 
President announced in 2004 will result, by 2012, in the smallest total 
stockpile since the Eisenhower administration. Even with these 
unprecedented reductions, however, the stockpile--especially the 
components we keep in reserve--is probably too large.
    Finally, with regard to physical security, we must consider new 
technology to ensure these weapons can never be used by those who wish 
to harm us. During the Cold War the main security threat to our nuclear 
forces was from espionage. Today, that threat remains, but to it has 
been added a post-September 11 threat of well-armed and competent 
terrorist suicide teams seeking to gain access to a warhead or to 
special nuclear materials in order to cause a nuclear detonation in 
place. This change has dramatically increased security costs. If we 
were designing the stockpile today, we would apply new technologies and 
approaches to warhead design as a means to reduce physical security 
costs.
    Fortunately, we know how to address all of these problems.
    The administration's Nuclear Posture Review (NPR), completed in 
December 2001, called for a transition from a threat-based nuclear 
deterrent with large numbers of deployed and Reserve weapons to a 
deterrent based on capabilities, with a smaller nuclear weapons 
stockpile and greater reliance on the capability and responsiveness of 
the Department of Defense (DOD) and NNSA infrastructure to respond to 
threats. Success in realizing this vision for transformation will 
enable us to achieve over the long term a smaller stockpile, one that 
is safer and more secure, one that offers a reduced likelihood that we 
will ever again need to conduct an underground nuclear test, and one 
that enables a much more responsive nuclear weapons infrastructure. 
Most importantly, this effort can go far to ensure a credible deterrent 
for the 21st century that will reduce the likelihood we will ever have 
to employ our nuclear capabilities in defense of the Nation--through 
demonstration of responsiveness in design and production, demonstration 
of confidence in our abilities, cleanup of portions of the Cold War 
legacy and demonstration of America's will to maintain nuclear 
preeminence. We have worked closely with the DOD to identify initial 
steps on the path to a responsive nuclear infrastructure.
    What do we mean by ``responsive nuclear weapons infrastructure?'' 
By ``responsive'' we refer to the resilience of the nuclear enterprise 
to unanticipated events or emerging threats, and the ability to 
anticipate innovations by an adversary and to counter them before our 
deterrent is degraded. Unanticipated events could include complete 
failure of a deployed warhead type or the need to respond to new and 
emerging geopolitical threats. The elements of a responsive 
infrastructure include the people, the science and technology base, and 
the facilities and equipment to support a right-sized nuclear weapons 
enterprise. But more than that, it involves a transformation in 
engineering and production practices that will enable us to respond 
rapidly and flexibly to emerging needs. Specifically, a responsive 
infrastructure must provide capabilities, on appropriate timescales and 
in support of DOD requirements, to:

         Dismantle warheads;
         Ensure warheads are available to augment the operationally 
        deployed force;
         Identify, understand, and fix stockpile problems;
         Design, develop, certify, and begin production of refurbished 
        or replacement warheads;
         Maintain capability to design, develop, and begin production 
        of new or adapted warheads, if required;
         Produce required quantities of warheads; and
         Sustain underground nuclear test readiness.

    As we and the DOD take the first steps down this path, we clearly 
recognize that the ``enabler'' for transformation is our concept for 
the Reliable Replacement Warhead (RRW). The RRW would relax Cold War 
design constraints that maximized yield to weight ratios and thereby 
allow us to design replacement components that are easier to 
manufacture, are safer and more secure, eliminate environmentally 
dangerous materials, and increase design margins, thus ensuring long-
term confidence in reliability and a correspondingly reduced chance we 
will ever need to resort to nuclear testing.
    The combination of the RRW and a responsive infrastructure--each 
enabled by the other--may be genuinely transformational. The reduced 
stockpile the President approved in 2004 still retains a significant 
non-deployed nuclear stockpile as a hedge against technical problems or 
geopolitical changes. Once we demonstrate that we can produce warheads 
on a timescale in which geopolitical threats could emerge, we would no 
longer need to retain extra warheads to hedge against unexpected 
geopolitical changes.
    In addition to the mission of continuously maintaining the safety, 
security, reliability, and operational readiness of the Nation's 
nuclear deterrent, establishing the capabilities to achieve and sustain 
this transformation is a central focus of our activities. 
Transformation will, of course, take time. We are starting now with 
improving business and operating practices, both in the Federal 
workforce and across the nuclear weapons complex, and through restoring 
and modernizing key production capabilities. Full infrastructure 
changes, however, will take a couple of decades. I believe by 2030 we 
can achieve a responsive infrastructure that will provide capabilities, 
if required, to produce weapons with different or modified military 
capabilities. As important, through the RRW program we will revitalize 
our weapons design community to meet the challenge of being able to 
adapt an existing weapon within 18 months and design, develop, and 
begin production of a new design within 3-4 years of a decision to 
enter engineering development--goals that were established in 2004.
    As part of the transformation process we are also actively 
reviewing the recommendations of the Secretary of Energy Advisory Board 
Nuclear Weapons Complex Infrastructure Task Force to prepare a 
comprehensive plan for transforming the nuclear weapons complex. Many 
of the recommendations are consistent with initiatives that NNSA was 
already considering or is implementing (design of a RRW, consolidation 
of Special Nuclear Materials, accelerating dismantlement of retired 
weapons, managing the evolving complex to enhance responsiveness and 
sustainability, and establishing an Office of Transformation). The 
analysis of this report and its recommendations is underway and should 
be completed and presented to Congress by this spring.
    Transformation presents some significant near term challenges, one 
of which is pit production. The NNSA considers an appropriate pit 
production capacity to be essential to its long-term evolution to a 
more responsive nuclear weapons infrastructure. We are disappointed, 
therefore, that Congress declined to fund planning for a modern pit 
production facility in fiscal year 2006. As a result, we did not seek 
funding for this facility in fiscal year 2007; although we remain 
convinced that increased pit production capacity is essential to our 
long-term evolution to a more responsive nuclear weapons 
infrastructure. In coming months, we will work with Congress to 
identify an agreed approach to fund long-term pit production capacity. 
In the meantime, we plan to increase the Los Alamos National Laboratory 
(LANL) pit manufacturing capacity to 30-40 pits per year by the end of 
fiscal year 2012 in order to support the RRW. This production rate, 
however, will be insufficient to meet our assessed long-term pit 
production needs.
    Another significant near term challenge is ensuring the security of 
our people, our nuclear weapons, our weapons-usable materials, our 
information, and our infrastructure from harm, theft or compromise. The 
job has become more difficult and costly as a result of two factors: 
the increased post-September 11 threat to nuclear warheads and 
associated fissile materials coupled with the primacy of ``denying 
access'' to these key assets--a much more rigorous security standard 
than ``containment'' of the asset. We will meet the requirements of the 
2003 Design Basis Threat (DBT) by the end of this fiscal year. We 
expect to be compliant with the 2005 DBT revisions at the two most 
sensitive locations, the Secure Transportation Asset and the Pantex 
Weapons Plant by the end of fiscal year 2008 as required by 
Departmental policy.
    The world in 2030 will not be more predictable than it is today, 
but this vision of our future nuclear weapons posture is enabled by 
what we have learned from 10 years of experience with science-based 
Stockpile Stewardship, from planning for and carrying out life 
extension programs for our legacy stockpile, and from coming to grips 
with national security needs of the 21st century as laid out in the 
NPR. A world of a successful responsive infrastructure isn't the only 
plausible future of course. But it is one we should strive for. It 
offers the best hope of achieving the President's vision of the 
smallest stockpile consistent with our Nation's security. That's why we 
are embracing this vision of stockpile and infrastructure 
transformation. We should not underestimate the challenge of 
transforming the enterprise, but it is clearly the right path for us to 
take.
Defense Nuclear Nonproliferation
    Let me now turn to our nuclear nonproliferation and threat 
reduction programs. Acquisition of nuclear weapons, weapons of mass 
destruction (WMD) capabilities, technologies, and expertise by rogue 
states or terrorists poses a grave threat to the United States and 
international security. The pursuit of nuclear weapons by terrorists 
and states of concern makes it clear that our threat detection programs 
are urgently required, must be successful, and must proceed on an 
accelerated basis. The NNSA budget request addresses this urgency and 
demonstrates the President's commitment to prevent, contain, and roll 
back the proliferation of nuclear weapons-usable materials, technology, 
and expertise.
    Our programs are structured around a comprehensive and multi-
layered approach to threat reduction and nuclear nonproliferation. We 
work with more than 70 countries to secure dangerous nuclear and 
radioactive materials, halt the production of fissile material, detect 
the illegal trafficking or diversion of nuclear material, and 
ultimately dispose of surplus weapons-usable materials. We also work 
with multilateral institutions including the International Atomic 
Energy Agency (IAEA) and the Nuclear Suppliers Group to strengthen 
nuclear safeguards and improve the nuclear export control regulatory 
infrastructure in other countries. This multi-layered approach is 
intended to identify and address potential vulnerabilities within the 
international nonproliferation regime, reduce the incentive for 
terrorists and rogue states to obtain WMD, and limit terrorists' access 
to deadly weapons and materials.
    A significant amount of our work falls at the intersection of 
nonproliferation and peaceful use of nuclear materials. The United 
States is setting an example by making a firm commitment to reducing 
its nuclear arsenal and recycling substantial quantities of weapons-
usable highly enriched uranium for peaceful, civilian, energy-
generating purposes. In 1994, the United States declared 174 tons of 
highly enriched uranium (HEU) to be in excess of our national security 
needs. The great bulk of that material is now in the process of being 
downblended for use in civilian nuclear power reactors. Last year, we 
announced that 17.4 metric tons (MT) of this material will be 
downblended and set aside to establish a fuel bank in support of our 
efforts to develop an international reliable fuel supply mechanism, an 
issue I will return to later in my statement.
    In addition, in May 2004, President Bush announced plans to reduce 
our Nation's nuclear weapons stockpile by nearly half, to its smallest 
size since the Eisenhower administration. This decision enables us to 
begin to dispose of a significant amount of weapons-grade nuclear 
material. Last year, the administration committed to remove an 
additional 200 MT of HEU--enough material for approximately 8,000 
nuclear warheads--from any further use as fissile material in U.S. 
nuclear weapons. This represents the largest amount of special nuclear 
material ever removed from the stockpile in the history of the U.S. 
nuclear weapons program. The bulk of this material will be retained for 
use in propulsion systems for our Nation's nuclear Navy--a step that 
will allow us to postpone the need to construct a new uranium high-
enrichment facility for at least 50 years. Twenty MT of this HEU will 
be down-blended to LEU for use in civilian nuclear power reactors or 
research reactors.
    We are also working with the Russian Federation to eliminate 34 MT 
of weapons-usable plutonium in each country that will be converted into 
mixed oxide (MOX) fuel and burned in nuclear power reactors. We believe 
we have now resolved the impasse over liability that has long delayed 
the plutonium disposition program and the construction of the MOX plant 
at our Savannah River Site.
    Much of our work focuses on emerging issues such as detecting 
clandestine nuclear supply networks, monitoring efforts by more 
countries to acquire nuclear weapons, and preventing the spread of 
nuclear fuel cycle technology. We have taken a number of steps to shut 
down illicit supply networks and keep nuclear materials out of the 
hands of terrorists as reflected in U.S. leadership in support of the 
Proliferation Security Initiative, Security Council Resolution 1540, 
criminalizing proliferation, and in strengthening international export 
control regimes.
    We have worked to expand our programs designed to stop nuclear 
smuggling and nuclear terrorism by cooperatively developing and 
employing radiological and nuclear detection equipment at key border 
crossings, airports, and major seaports, or ``megaports,'' worldwide. 
NNSA also assists and trains customs officials at home and abroad to 
detect the illicit trafficking of nuclear and radiological materials, 
as well as dual-use commodities that might be useful in weapons of mass 
destruction programs. We are also expanding our efforts to secure and 
transform global inventories of weapons-usable materials. Our programs 
include the Global Threat Reduction Initiative (GTRI) to reduce and 
secure fissile and radioactive material worldwide; our International 
Material Protection and Cooperation (MPC&A) program which has 
accelerated efforts to improve the security of weapons usable material 
in Russia and elsewhere; and our efforts to complete the conversion of 
research reactors throughout the world to the use of low enriched 
uranium within the next decade. There are also two complementary 
programs that address the repatriation of fresh and spent HEU material 
from Russian-supplied research reactors and U.S.-origin material from 
research reactors around the world
    Cooperation with Russia on nonproliferation is nothing new for the 
United States, but this cooperation has been heightened following the 
rise of global terrorism and the events of September 11, 2001. The 
Joint Statement on Nuclear Security Cooperation issued by Presidents 
Bush and Putin at their Bratislava meeting last year is but one example 
of the significant progress we have made over the last 5 years. This 
joint statement has helped expedite our cooperative work with Russia. 
For example, as a result of the Bush-Putin Bratislava joint statement, 
we were able to make the return of fresh and spent HEU fuel from U.S. 
and Russian-design research reactors in third countries a top priority, 
as well as a plan for joint work to develop low-enriched uranium fuel 
for use in these reactors. As a result, we were able to complete the 
conversion of a Russian-supplied research reactor located in the Czech 
Republic to low-enriched fuel and to airlift a significant amount of 
HEU from the Czech Technical University reactor located near Prague for 
safe and secure storage in Russia. We have also made significant 
progress on the other Bratislava joint statement items, and we expect 
this cooperation and success will continue.
    Beyond the threat of nuclear terrorism, illicit networks engaging 
in nuclear trade, and additional states seeking nuclear weapons 
capability, the nonproliferation community also faces another 
significant challenge--revitalizing nuclear energy throughout the globe 
in a manner that also advances our nonproliferation interests. We have 
the opportunity to reshape our collective approach to ensure that 
nonproliferation is the cornerstone of the next evolution of civilian 
nuclear power and fuel cycle technology. The challenge before us is to 
make sure we design--from the very beginning--technologies and 
political arrangements that limit the spread of sensitive fuel cycle 
capabilities and ensure that rogue states do not use civilian nuclear 
power as cover for a covert nuclear weapons program.
    Last month, the administration announced the Global Nuclear Energy 
Partnership (GNEP) as part of President Bush's Advanced Energy 
Initiative. GNEP is a comprehensive strategy to enable an expansion of 
nuclear power in the U.S. and around the world, to promote nuclear 
nonproliferation goals; and to help resolve nuclear waste disposal 
issues. Fundamental to GNEP is a new approach to fuel cycle technology. 
Under this proposed new approach, countries with secure, advanced 
nuclear fuel cycle capabilities would offer commercially competitive 
and reliable access to nuclear fuel services--fresh fuel and recovery 
of used fuel--to other countries in exchange for their commitment to 
forgo the development of enrichment and recycling technology.
    Over the next year, we will work with other elements of the 
Department to establish GNEP, paying special attention to developing 
advanced safeguards and developing the parameters for international 
cooperation. Since the signing of the Nuclear Non-Proliferation Treaty, 
the world has sought to prevent the proliferation of nuclear weapons 
while expanding the benefits of nuclear technology. I believe that GNEP 
takes us closer to that goal. By allowing us to move beyond abstract 
discussions to tangible actions that will benefit directly those who 
join us in this partnership. GNEP will offer us the opportunity to take 
the international lead in making nonproliferation an integral part of 
our global nuclear safety and security culture.
Naval Reactors
    Also contributing to the Department's national security mission is 
the Department's Naval Reactors Program, whose mission is to provide 
the U.S. Navy with safe, militarily-effective nuclear propulsion plants 
and ensure their continued safe, reliable and long-lived operation. 
Nuclear propulsion enhances our warship capabilities by providing the 
ability to sprint where needed and arrive on station; ready to conduct 
sustained combat operations when America's interests are threatened. 
Nuclear propulsion plays a vital role in ensuring the Navy's forward 
presence and its ability to project power anywhere in the world.
    The Naval Reactors Program has a broad mandate, maintaining 
responsibility for nuclear propulsion from cradle to grave. Over 40 
percent of the Navy's major combatants are nuclear-powered, including 
aircraft carriers, attack submarines, and strategic submarines, which 
provide the Nation's most survivable deterrent.

               FISCAL YEAR 2007 BUDGET REQUEST BY PROGRAM

    The President's fiscal year 2007 budget request totals $9.3 
billion, an increase of $211 million or 2.3 percent. We are managing 
our program activities within a disciplined 5-year budget and planning 
envelope. We are doing it successfully enough to be able to address the 
administration's high priority initiatives to reduce global nuclear 
danger in Defense Nuclear Nonproliferation, and provide for needed 
funding increases in some of our programs within an overall modest 
growth rate.
Weapons Activities
    The fiscal year 2007 budget request for the programs funded within 
the Weapons Activities appropriation is $6.41 billion, less than a 1-
percent increase over fiscal year 2006. This request supports the 
requirements of the Stockpile Stewardship Program consistent with the 
administration's Nuclear Posture Review (NPR) and the revised stockpile 
plan submitted to Congress in June 2004. Our request places a high 
priority on accomplishing the near-term workload and supporting 
technologies for the stockpile along with the long-term science and 
technology investments to ensure the design and production capability 
and capacity to support ongoing missions. This request also supports 
the facilities and infrastructure that must be responsive to new or 
emerging threats.
    Directed Stockpile Work (DSW) is an area of special emphasis this 
year with a fiscal year 2007 request of $1.41 billion, a 3-percent 
increase over fiscal year 2006. In fiscal year 2007, we will be 
accelerating efforts for dismantlement of retired warheads and 
consolidation of special nuclear materials across the nuclear weapons 
complex. Both of these efforts will contribute to increasing the 
overall security at NNSA sites. DSW also supports routine maintenance 
and repair of the stockpile; refurbishes warheads through the Life 
Extension Programs; and, maintains the capability to design, 
manufacture, and certify new warheads, for the foreseeable future. DSW 
also supports managing the strategy, driving the change, and performing 
the crosscutting initiatives required to achieve responsiveness 
objectives envisioned in the NPR. Our focus remains on the stockpile, 
to ensure that the nuclear warheads and bombs in the U.S. nuclear 
weapons stockpile are safe, secure, and reliable.
    Progress in other parts of the Stockpile Stewardship Program (SSP) 
continues. The fiscal year 2007 request for the six Campaigns is $1.94 
billion, a 9 percent decrease from fiscal year 2006. The Campaigns 
focus on scientific and technical efforts and capabilities essential 
for assessment, certification, maintenance, and life extension of the 
stockpile and have allowed NNSA to move to ``science-based'' 
stewardship. These campaigns are evidence of NNSA excellence and 
innovation in science, engineering and computing that, though focused 
on the nuclear weapons mission, have much broader application.
    Specifically, $425 million for the Science and Engineering 
Campaigns provides the basic scientific understanding and the 
technologies required to support the workload and the completion of new 
scientific and experimental facilities. We will continue to maintain 
the ability to conduct underground nuclear tests at the Nevada Test 
Site if required, but let me be clear, nothing at this time indicates 
the need for resumption of underground testing for the foreseeable 
future.
    The Readiness Campaign, with a request of $206 million, develops 
and delivers design-to-manufacture capabilities to meet the evolving 
and urgent needs of the stockpile and supports the transformation of 
the nuclear weapons complex into an agile and more responsive 
enterprise.
    The request of $618 million for the Advanced Simulation and 
Computing Campaign supports the schedule to enhance the computational 
tools and technologies necessary to support the continued assessment 
and certification of the refurbished weapons, aging weapons components, 
and a RRW program without underground nuclear tests. As we enhance 
these tools to link the historical test base of more than 1,000 nuclear 
tests to computer simulations, we can continue to assess whether the 
stockpile is safe, secure, reliable, and performs as required.
    The $451 million request for the Inertial Confinement Fusion 
Ignition and High Yield Campaign is focused on the execution of the 
first ignition experiment at the National Ignition Facility (NIF) in 
2010 and provides facilities and capabilities for high-energy-density 
physics experiments in support of the SSP. To achieve the ignition 
milestone, $255 million will support construction of NIF and the NIF 
Demonstration Program and $168 million will support the National 
Ignition Campaign. The ability of NIF to assess the thermonuclear burn 
regime in nuclear weapons via ignition experiments is of particular 
importance. NIF will be the only facility capable of probing in the 
laboratory the extreme conditions of density and temperature found in 
exploding nuclear weapons.
    The Pit Manufacturing and Certification Campaign request of $238 
million continues work to manufacture and certify the W88 pit in 2007 
and to address issues associated with manufacturing future pit types 
including the RRW and increasing pit production capacity at Los Alamos 
National Laboratory.
    Readiness in Technical Base and Facilities (RTBF) and Facilities 
        and Infrastructure Recapitalization Program (FIRP)
    In fiscal year 2007 we are requesting $1.98 billion for the 
maintenance and operation of existing facilities, remediation and 
disposition of excess facilities, and construction of new facilities. 
This is of critical importance to enable NNSA to move toward a more 
supportable and responsive infrastructure.
    Of this amount, $1.69 billion is requested for Readiness in 
Technical Base and Facilities (RTBF), an increase of 3 percent from 
fiscal year 2006, with $1.4 billion in Operations and Maintenance and 
$281 million for RTBF Construction. RTBF operates and maintains current 
facilities, and ensures the long-term vitality of the NNSA complex 
through a multi-year program of infrastructure construction.
    This request also includes $291 million for the Facilities and 
Infrastructure Recapitalization Program (FIRP), a separate and distinct 
program that is complementary to the ongoing RTBF efforts. The FIRP 
mission is to restore, rebuild and revitalize the physical 
infrastructure of the nuclear weapons complex. FIRP works in 
partnership with RTBF to assure that facilities and infrastructure are 
restored to an appropriate condition to support the mission, and to 
institutionalize responsible and accountable facility management 
practices. FIRP activities include reducing deferred maintenance, 
recapitalizing the infrastructure, and reducing the maintenance base by 
eliminating excess real property. The FIRP recapitalization projects 
are key to restoring the facilities that house the people, equipment, 
and material necessary to the SSP, the primary NNSA mission. FIRP 
Facility Disposition activities reduce Environment, Safety and Health 
(ES&H) and safeguards and security liabilities, address footprint 
reduction of the complex, and reduce long-term costs and risks. The 
primary objective of FIRP Infrastructure Planning is to ensure that 
projects are adequately planned in advance of project start.
    Last year, Congress significantly reduced funds for the FIRP 
program. This reduction, coming on reductions in planned levels 
dictated by fiscal constraints, means that the original (and 
Congressionally mandated) goal of eliminating the maintenance backlog 
and terminating the FIRP program by 2011 is no longer attainable. This 
matter may require legislation extending the FIRP program to 2013. We 
remain committed to the concept of FIRP as a temporary, ``get well'' 
program and to the long-term, sustained funding of maintenance within 
the RTBF program.
    Secure Transportation Asset
    In fiscal year 2007, the budget requests $209 million for Secure 
Transportation Asset (STA), a minor decrease from fiscal year 2006 
levels, for meeting the Department's transportation requirements for 
nuclear weapons, components, and special nuclear materials shipments. 
The workload requirements for this program will escalate significantly 
in the future to support the dismantlement and maintenance schedule for 
the nuclear weapons stockpile and the Secretarial initiative to 
consolidate the storage of nuclear material. The challenge to increase 
secure transport capacity is coupled with and impacted by increasingly 
complex national security concerns. To support the escalating workload 
while maintaining the safety and security of shipments, STA is 
increasing the cumulative number of Safeguard Transporters in operation 
by 3 per year, with a target total of 51 in fiscal year 2011.
    Environmental Projects and Operations
    We are requesting $17.2 million for Environmental Projects and 
Operations. The $17.2 million request is for a new function, Long Term 
Response Actions/Long-Term Stewardship, which covers continuing 
environmental stewardship at NNSA sites after the completion of 
Environmental Management (EM) activities. This new program at each site 
begins when EM cleanup activities are completed, and will continue for 
several years. Activities comprise routine inspections of landfill 
covers/caps, and maintenance of pump and treatment systems, and 
starting in fiscal year 2007, will be performed at three NNSA sites: 
Lawrence Livermore National Laboratory, Kansas City Plant, and Sandia 
National Laboratories.
    The fiscal year 2007-2011 budget request does not include the 
transfer of legacy environmental management activities at NNSA sites 
that was proposed in the fiscal year 2006 budget request. However, the 
responsibility for newly generated waste at the Lawrence Livermore 
National Laboratory and the Y-12 National Security Complex was 
transferred to the NNSA in fiscal year 2006, and is managed in the 
Readiness in Technical Base and Facilities GPRA unit.
    Nuclear Weapons Incident Response
    The fiscal year 2007 request for Nuclear Weapons Incident Response 
is $135 million, an increase of 15 percent over fiscal year 2006. The 
NNSA Emergency Operations remains the U.S. government's primary 
capability for radiological and nuclear emergency response in support 
of homeland security. The program is continuing efforts to enhance 
emergency response capabilities, and the budget request supports all 
assets as planned, with emphasis on recruitment and training of 
personnel called into action during emergency situations. The fiscal 
year 2007 increase is primarily associated with the research and 
development efforts of the Render Safe Research and Development 
program. This budget realigns this research and development funding to 
emergency response where the program is managed.
    Safeguards and Security
    The fiscal year 2007 request for Safeguards and Security is $754 
million. This budget supports two security-related activities. The 
budget request proposes that the physical security portion of NNSA's 
Safeguards and Security GPRA Unit be renamed ``Defense Nuclear 
Security'', consistent with the responsible NNSA organization. This 
program is responding to a revision in threat guidance affecting 
physical security at all NNSA sites. Meeting the Design Basis Threat 
will require further upgrades to equipment, personnel and facilities, 
and NNSA is committed to completing these activities. The Cyber 
Security program activities, managed by the NNSA Chief Information 
Officer, comprise the rest of this account, and the fiscal year 2007 
request is essentially level with the fiscal year 2006 funding level. 
The Request includes funding for the DOE Diskless Conversion 
initiative. Meeting the post-September 11 security requirements has 
required a significant long-term investment, reflecting DOE's 
continuing commitment to meet these requirements.
Defense Nuclear Nonproliferation
    The Defense Nuclear Nonproliferation program goal is to detect, 
prevent, and reverse the proliferation of WMDs while mitigating nuclear 
risk worldwide. Our programs address the danger that hostile nations or 
terrorist groups may acquire weapons of mass destruction or weapons-
usable material, dual-use production or technology, or WMD 
capabilities. Our primary focus in this regard is securing or disposing 
of vulnerable stockpiles of weapon-usable materials, technology, and 
expertise in Russia and other countries of concern. The 
administration's request of $1.73 billion to support NNSA activities to 
reduce the global weapons of mass destruction proliferation threat 
represents almost a 7-percent increase over the budget for comparable 
fiscal year 2006 activities.
    The administration's fiscal year 2007 Fissile Material Disposition 
budget request is $638 million, an increase of $169 million over fiscal 
year 2006. This increase reflects the progress in implementing the 
plutonium disposition program in the past year. Of this amount, $551 
million will be allocated toward disposing of surplus U.S. and Russian 
plutonium and $87 million will be allocated toward the disposition of 
surplus U.S. highly enriched uranium. The plutonium disposition 
program, the Department's largest nonproliferation program, plans to 
dispose of 68 MT of surplus Russian and U.S. weapons-grade plutonium by 
fabricating it into MOX fuel for use in civilian nuclear power-
generating reactors. The United States and Russia successfully 
completed negotiations of a liability protocol for the program, and 
senior Russian government officials have assured the United States that 
this protocol will be signed in the near future. DOE has also been 
working to validate the U.S. MOX project cost and schedule baseline as 
part of our project management process, and we will have a validated 
baseline in place before construction begins. DOE received 
authorization to begin construction of the MOX facility from the 
Nuclear Regulatory Commission, began site preparation work for the MOX 
facility at the Savannah River Site, and implemented a number of 
improvements to strengthen the management of the MOX project. Current 
plans call for construction of the U.S. MOX facility to start in 2006, 
with operations to start in 2015. The administration's budget request 
is essential for continuing this work in fiscal year 2007, which will 
be a peak construction year. Now that the liability issue is nearing 
resolution, high-level U.S.-Russian discussions are taking place to 
confirm the technical and financial details for the Russian 
construction program.
    The administration's fiscal year 2007 budget request of $107 
million for the GTRI is a 10-percent increase over fiscal year 2006 and 
supports the urgency carried in ambitious completion dates and 
objectives set by the program. GTRI represents the Department's latest 
effort to identify, secure, recover, and/or facilitate the disposition 
of the vulnerable nuclear and radioactive materials worldwide that pose 
a threat to the United States and the international community. Since 
the creation of GTRI, we have enjoyed a number of successes. Under our 
radiological threat reduction program, we have completed security 
upgrades at more than 340 facilities around the world. As a result of 
the Bush-Putin Bratislava joint statement on enhanced nuclear security 
cooperation, we have established a prioritized schedule for the 
repatriation of U.S.-origin and Russian-origin research reactor nuclear 
fuel located in third countries. As part of our nuclear materials 
threat reduction efforts under GTRI, three successful shipments in 
fiscal year 2005 to repatriate Russian-origin fresh HEU from the Czech 
Republic (two shipments) and Latvia.
    In accordance with the President's Bratislava commitment, we have 
also begun working with the Russian Federation to repatriate Russian-
origin spent fuel. We have also conducted several successful shipments 
to repatriate U.S.-origin spent nuclear fuel from Japan, the 
Netherlands, Sweden, Greece, and Austria. We have converted three 
research reactors in the Netherlands, Libya, and the Czech Republic 
from the use of HEU to the use of low-enriched uranium (LEU) fuel so 
far in 2006, and we have completed physical security upgrades at three 
priority sites housing dangerous materials in Ukraine, Kazakhstan, and 
Uzbekistan.
    The International Material Protection and Cooperation fiscal year 
2007 budget request of $413 million is a 2 percent decrease from fiscal 
year 2006. For more than a decade, the United States has worked 
cooperatively with the Russian Federation and other former Soviet 
republics to secure nuclear weapons and weapons material that may be at 
risk of theft or diversion. As part of the Bush-Putin Bratislava joint 
statement, we agreed to accelerate security upgrades at Russian sites 
holding weapons-usable materials and warheads. The Bratislava joint 
statement also provided for a comprehensive joint action plan for 
cooperation on security upgrades of Russian nuclear facilities at 
Rosatom and Ministry of Defense sites. In addition, this statement 
called for enhanced cooperation in the areas of nuclear regulatory 
development, sustainability, secure transportation, MPC&A expertise 
training, and protective force equipment. A number of major milestones 
for this cooperative program are on the horizon, and the fiscal year 
2007 budget ensures that sufficient funding will be available to meet 
these milestones. Security upgrades for Russian Rosatom facilities will 
be completed by the end of 2008--2 years ahead of schedule. By the end 
of 2008 we will also complete cooperative upgrades at the nuclear 
warhead storage sites of the Russian Strategic Rocket Forces and the 
Russian Ministry of Defense sites. By the end of fiscal year 2007, we 
will have provided security upgrades at more than 80 percent of all the 
nuclear sites in Russia at which we now plan cooperative work.
    The administration's budget request will enable us to expand and 
accelerate the deployment of radiation detection systems at key transit 
points within Russia and accelerate installation of such equipment in 
five other priority countries to prevent attempts to smuggle nuclear or 
radiological materials across land borders. Through our Megaports 
initiative, we plan to deploy radiation detection capabilities at three 
additional major seaports in fiscal year 2007 to pre-screen cargo 
containers destined for the United States for nuclear and radiological 
materials, thereby increasing the number of completed ports to 13.
    The fiscal year 2007 budget request of $207 million for the 
Elimination of Weapons Grade Plutonium Production (EWGPP) is an 
increase of 18 percent from fiscal year 2006. The EWGPP program is 
working toward completing the permanent shut down of the three 
remaining weapons grade plutonium production reactors in Russia at 
Seversk and Zheleznogorsk. Every week, these reactors currently produce 
enough fissile material for several nuclear weapons. The overall EWGPP 
plan is to shutdown these reactors permanently and replace the heat and 
electricity these reactors supply to local communities with energy 
generated by fossil fuel plants by December 2008 in Seversk and 
December 2010 in Zheleznogorsk. The reactors will shut down immediately 
when the fossil plants are completed. The first validated estimate of 
total program cost--$1.2 billion--was determined in January 2004. After 
extensive negotiations with Russia, we achieved $200 million in cost 
savings. Also, under the authority to accept international funding as 
provided in the Ronald W. Reagan Defense Authorization Act for Fiscal 
Year 2005, we have received pledges of $30 million from six Global 
Partnership participants. Construction of the fossil fuel plant at 
Seversk started in late 2004, and the start of construction of the 
fossil fuel plant at Zheleznogorsk was recently approved. The increased 
funding as part of the fiscal year 2007 budget request allows for both 
construction projects to remain on schedule and thereby hold the line 
on cost.
    The fiscal year 2007 budget requests $269 million for 
Nonproliferation and Verification Research and Development. This effort 
includes a number of programs that make unique contributions to 
national security by researching the technological advancements 
necessary to detect and prevent the illicit diversion of nuclear 
materials. The Proliferation Detection program advances basic and 
applied technologies for the nonproliferation community with dual-use 
benefit to national counterproliferation and counterterrorism missions. 
Specifically, this program develops the tools, technologies, 
techniques, and expertise for the identification, location, and 
analysis of the facilities, materials, and processes of undeclared and 
proliferant WMD programs. The Proliferation Detection program conducts 
fundamental research in fields such as radiation detection, providing 
support to the Department of Homeland Security (DHS) and the 
Intelligence Community. The Nuclear Explosion Monitoring program builds 
the Nation's operational sensors that monitor from space the entire 
planet to detect and report surface, atmospheric, or space nuclear 
detonations. This program also produces and updates the regional 
geophysical datasets enabling operation of the Nation's ground-based 
seismic monitoring networks to detect and report underground 
detonations.
    The fiscal year 2007 budget request for Nonproliferation and 
International Security is $127 million. This figure cannot be directly 
compared to fiscal year 2006 because of a budget structure change that 
has realigned the Global Initiatives for Proliferation Prevention and 
HEU Transparency programs to this GPRA unit. Through this program the 
Department provides technical and policy expertise in support of U.S. 
efforts to strengthen international nonproliferation institutions and 
arrangements, fosters implementation of nonproliferation requirements 
through engagement with foreign partners, and helps develop the 
mechanisms necessary for transparent and verifiable nuclear reductions 
worldwide. This budget request addresses our need to tackle key policy 
challenges including efforts to strengthen the IAEA safeguards system, 
attempts to block and reverse proliferation in Iran and North Korea, 
attention to augmenting U.S. cooperation with China, India, and Russia, 
and our plan to build-up the nonproliferation component of the Global 
Nuclear Energy Partnership.
Naval Reactors
    The Naval Reactors fiscal year 2007 budget request of $795 million 
is an increase of $13.5 million from fiscal year 2006. The program's 
development work ensures that nuclear propulsion technology provides 
options for maintaining and upgrading current capabilities, as well as 
for meeting future threats to U.S. security.
    The majority of funding supports the program's number-one priority 
of ensuring the safety and reliability of the 104 operating naval 
nuclear propulsion plants. This work involves continual testing, 
analysis, and monitoring of plant and core performance, which becomes 
more critical as the reactor plants age. The nature of this business 
demands a careful, measured approach to developing and verifying 
nuclear technology; designing needed components, systems, and 
processes; and implementing them in existing and future plant designs. 
Most of this work is accomplished at Naval Reactors' DOE laboratories. 
These laboratories have made significant advancements in extending core 
lifetime, developing robust materials and components, and creating an 
array of predictive capabilities.
    Long-term program goals have been to increase core energy, to 
achieve life-of-the-ship cores, and to eliminate the need to refuel 
nuclear powered ships. Efforts associated with this objective have 
resulted in planned core lives that are sufficient for the 30-plus year 
submarine (based on past usage rates) and an extended core life planned 
for CVN 21 (the next generation aircraft carrier). The need for nuclear 
propulsion will only increase over time as the uncertainty of 
conventional fuel cost and availability grows.
    Naval Reactors' Operations and Maintenance budget request is 
categorized into six areas: Reactor Technology and Analysis; Plant 
Technology; Materials Development and Verification; Evaluation and 
Servicing; Advanced Test Reactor (ATR) Operations and Test Support; and 
Facility Operations.
    The $212 million requested for Reactor Technology and Analysis will 
support continued work on the design for the new reactor plant for the 
next generation of aircraft carriers, CVN-21. These efforts also 
support the design of the Transformational Technology Core (TTC), a new 
high-energy core that is a direct outgrowth of the Program's advanced 
reactor technology and materials development and verification work.
    Reactor Technology and Analysis also develops and improves the 
analysis tools, which can be used to safely extend service life beyond 
our previous experience base. The increasing average age of our Navy's 
existing reactor plants, along with future extended service lives, a 
higher pace of operation and reduced maintenance periods, place a 
greater emphasis on our work in thermal-hydraulics, structural 
mechanics, fluid mechanics, and vibration analysis. These factors, 
along with longer-life cores, mean that for years to come, these 
reactors will be operating beyond our previously proven experience 
base.
    The $131 million requested for Plant Technology provides funding to 
develop, test, and analyze components and systems that transfer, 
convert, control, and measure reactor power in a ship's power plant. 
Reactor plant performance, reliability, and safety are maintained 
through a full understanding of component performance and system 
condition over the life of each ship. Naval Reactors is developing 
components to address known limitations and to improve reliability of 
instrumentation and power distribution equipment to replace aging, 
technologically obsolete equipment. Additional technology development 
in the areas of chemistry, energy conversion, instrumentation and 
control, plant arrangement, and component design will continue to 
support the Navy's operational requirements.
    The $118 million requested for Materials Development and 
Verification funds material analyses and testing to provide the high-
performance materials necessary to ensure that naval nuclear propulsion 
plants meet Navy goals for extended warship operation and greater power 
capability. More explicitly, materials in the reactor core and reactor 
plant must perform safely and reliably for the extended life of the 
ship.
    The $179 million requested for Evaluation and Servicing sustains 
the operation, maintenance, and servicing of Naval Reactors' operating 
prototype reactor plants. Reactor core and reactor plant materials, 
components, and systems in these plants provide important research and 
development data and experience under actual operating conditions. 
These data aid in predicting and subsequently preventing problems that 
could develop in Fleet reactors. With proper maintenance, upgrades, and 
servicing, the two prototype plants will continue to meet testing needs 
for at least the next decade.
    Evaluation and Servicing funds also support the implementation of a 
dry spent fuel storage production line that will put naval spent fuel 
currently stored in water pits at the Idaho Nuclear Technology and 
Engineering Center and at the Expended Core Facility (ECF) on the Naval 
Reactors facility in Idaho into dry storage. Additionally, these funds 
support ongoing decontamination and decommissioning of inactive nuclear 
facilities at all Naval Reactors sites to address their ``cradle to 
grave'' stewardship responsibility for these legacies, and minimize the 
potential for any environmental releases.
    The $64.6 million requested for Advanced Test Reactor Operations 
and Test Support sustains the ongoing activities of the INL ATR 
facility, owned and operated by the Office of Nuclear Energy, Science, 
and Technology.
    In addition to the budget request for the important technical work 
discussed above, program direction and facilities funding is required 
for continued support of the Program's operations and infrastructure. 
The $57 million requested for facilities operations will maintain and 
modernize the Program's facilities, including the Bettis and Knolls 
laboratories as well as ECF and Kesselring Site Operations (KSO), 
through capital equipment purchases and general plant projects. The 
$2.8 million requested for construction funds will be used to complete 
construction of a materials development facility and to support the 
design of a materials research technology complex. Finally, the $31.2 
million requested for program direction will support Naval Reactors' 
DOE personnel at headquarters and the Program's field offices, 
including salaries, benefits, travel, and other expenses.
Office of the Administrator
    The fiscal year 2007 budget request of $387 million is an increase 
of 14.2 percent over the fiscal year 2006 appropriation. NNSA completed 
the reengineering of its Federal workforce last year and has begun to 
recruit to fill critical skill gaps in safety, security, facilities, 
and business positions, in addition to the Future Leaders Intern 
program initiated in fiscal year 2005. The fiscal year 2007 request 
increases to provide additional personnel and support for mission 
growth in the Defense Nuclear Nonproliferation area, as well as in 
safety and security functions. The remainder of the increase reflects 
functional transfers to NNSA of 18 people from other Departmental 
elements, and fact of life changes including pay adjustments, increased 
space and occupancy charges, and cost of living increases in pay and 
benefits. We plan to support a slightly higher workforce level than in 
previous years, reflecting support for mission growth areas and skill 
gap closures.
    Historically Black Colleges and Universities Support
    A research and education partnership program with the Historically 
Black Colleges and Universities (HBCU) and the Massie Chairs of 
Excellence was initiated by Congress in the Office of the Administrator 
appropriation in fiscal year 2005 and fiscal year 2006. NNSA has 
established an effective program to target national security research 
opportunities for these institutions to increase their participation in 
national security-related research and to train and recruit HBCU 
graduates for employment within NNSA. The NNSA's goal is a stable $10 
million effort annually. The majority of the efforts directly support 
program activities, and it is expected that programs funded by the 
Weapons Activities, Defense Nuclear Nonproliferation and Naval Reactors 
appropriations will fund research with the HBCUs in areas including 
engineering, radiochemistry, material and computational sciences and 
sensor development. A targeted effort in education and curriculum 
development, and support for the Massie Chairs, will also be continued.

                           MANAGEMENT ISSUES

    NNSA has fully embraced the President's Management Agenda through 
the completion of the NNSA re-engineering initiative by creating a more 
robust and effective NNSA organization. Additionally, NNSA's success 
has been recognized with consistently ``Green'' ratings from the DOE, 
including Budget and Performance Integration. NNSA's Planning, 
Programming, Budgeting and Evaluation (PPBE) process was implemented 
simultaneously with the standup of the new NNSA organization, and is 
now the established management construct that integrates management, 
financial data and performance information in a multi-year context.
    The PPBE process is in its fifth year of implementation, and 
provides a fully integrated, multi-year perspective. The linkages 
within NNSA mirror the Headquarters and field organization structures, 
and are supported by management processes, contracting, funds control 
and accounting documentation. The cascade and linkages are quite 
evident in our updated NNSA Strategic Plan, issued last November.
    We take very seriously the responsibility to manage the resources 
of the American people effectively and I am glad that our management 
efforts are achieving such results.
    Finally, to provide more effective supervision of high-hazard 
nuclear operations, I have established a Chief, Defense Nuclear Safety 
position and appointed an experienced safety professional to the 
position. I believe this will help us balance the need for consistent 
standards with my stress on the authority and responsibility of the 
local site managers.

                               CONCLUSION

    In conclusion, I am confident that we are headed in the right 
direction. Our budget request will support continuing our progress in 
protecting and certifying our nuclear deterrent, transforming our 
stockpile and infrastructure, reducing the global danger from 
proliferation and weapons of mass destruction, and enhancing the force 
projection capabilities of the U.S. nuclear Navy. It will enable us to 
continue to maintain the safety and security of our people, 
information, materials, and infrastructure. Above all, it will meet the 
national security needs of the United States in the 21st century.
    Mr. Chairman, this concludes my statement. A statistical appendix 
follows that contains the budget figures supporting our request. My 
colleagues and I would be pleased to answer any questions on the 
justification for the requested budget.
                                 ______
                                 
                National Nuclear Security Administration
                appropriation and program summary tables
                  outyear appropriation summary tables
                     fiscal year 2007 budget tables
      

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. Thank you.
    Secretary Rispoli.

    STATEMENT OF JAMES A. RISPOLI, ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Rispoli. Good afternoon, Chairman Sessions, Senator 
Nelson, Senator Graham, other members of the subcommittee. I'm 
pleased to be here today to answer your questions on the fiscal 
year 2007 budget request in EM. I want to thank you and this 
subcommittee for your support. Over the last 4 years, we have 
made major strides in achieving results. We have made 
significant progress in shifting focus from risk management to 
real risk reduction and cleanup, an achievement not possible 
without the strong leadership and support of this subcommittee.
    During 2006 we expect to complete regulatory actions 
associated with closure of the Rocky Flats site and to complete 
cleanup at up to eight other sites, including Fernald, Mound, 
Columbus and Ashtabula in Ohio--I would note that as of now, we 
have a congressional add from last year that added some scope 
to the work at Mound which will be done during 2007--the 
Lawrence Livermore National Lab main site, Lawrence Berkeley 
National Lab in California, the Kansas City plant in Missouri, 
and the Sandia National Laboratory site in New Mexico.
    With this 2007 budget request, achieving our short-term 
completion goals for risk reduction and cleanup are achievable 
with the intention to complete cleanup of eight more sites by 
2009. Just a few examples of these are the contamination issues 
of the Pantex Plant in Texas, the East Tennessee Technology 
Park in Tennessee, the Lawrence Livermore National Lab Site 300 
in California, and the Energy Technology Engineering Center in 
California.
    As with many complex and diversified programs, challenges 
are not always apparent. The challenges that we face in the 
cleanup are not always attractive. EM foresaw some of these 
challenges, but others were not foreseen or were unexpected. We 
have taken steps to regain momentum on these projects, but we 
are realistic and recognize that overly optimistic assumptions, 
statutory and legal issues, and some unrealized technology 
advancement have led us to setbacks.
    One of the most visible projects on which our progress has 
slowed is the Waste Treatment Plant at Hanford which was 
mentioned earlier. We believe the Waste Treatment Plant project 
you referred to is the largest and most complex construction 
project in the Nation. It has encountered significant design 
and construction setbacks.
    As we know, the Department has received, and this was 
mentioned as well, the report from the After Action Review 
team. With the help of that report, we have identified problems 
specific to this project and also some problems that we 
recognize could be systemic problems in the national program. 
We remain committed to fix these problems and complete the 
project and begin operations to treat the significant tank 
waste issues there at the Hanford site.
    The investment we have requested in our 2007 budget for 
Defense EM activities totals $5.4 billion and consists of one 
Defense appropriation, that of Defense environmental cleanup. 
With that investment, we will focus and emphasize on the 
following three areas. First, ensure that safety is number one. 
I don't mean safety for just the workers. I mean safety for the 
site and for the community around the site.
    We place a premium on protecting the workers and the 
environment, and we are introducing an integration of safety 
and project management. What I'm getting to there is that 
safety has to be included in all of the design aspects for 
these projects, not just the operational aspect, that has begun 
at the earliest stages of design aspects. It's absolutely 
essential to superior performance.
    Second, we need to ensure the appropriate levels of 
safeguards and security. It's crucial that we maintain 
vigilance in our security to protect our citizens. The EM 
program is responsible for tons of surplus nuclear material. 
There is an overall increase in the safeguards and security 
budget for EM in 2007.
    Third, we need to ensure risk reduction and cleanup 
completion. Risk reduction requires a pragmatic approach to 
cleanup and occurs in various stages which involve the 
elimination, prevention, or mitigation of risk. Our major focus 
of risk reduction is stabilization of high risk materials 
through validation and adherence to cost and schedule targets, 
effective identification and management of risk, and the design 
of contracts that drive outstanding performance.
    A small selection of planned activity and milestones at two 
of our largest sites in 2007 are at Hanford, to ramp up 
construction of the waste treatment plant that's been referred 
to, to maintain radioactive waste forms in a safe, compliant 
condition, and continue on with single shell tank waste 
retrievals and complete containerization and consolidation of 
the K-West Basin and sludge at the K-West Basin.
    At the Savannah River Site (SRS), we will complete 
consolidation of on-site plutonium, continue to stabilize 
radioactive liquid-based underground storage tanks, and 
complete the shipment of drum legacy transuranic waste to the 
Waste Isolation Pilot Plant (WIPP). In particular, I'm pleased 
to thank this subcommittee for section 3116 from the National 
Defense Authorization Act for Fiscal Year 2005 that enables us 
to dispose of low level waste at SRS and other sites in a 
prudent, safe, and compliant way.
    The first determination using this statutory authority was 
made by the Secretary in January 2006 and we have two more 
wastes in the pipeline right now for similar action. 
Significant results and emerging challenges went hand in hand 
last year. The fiscal year 2007 budget request supports a 
critical portion of the Department's environmental stewardship 
responsibilities. We will build on our successes in EM missions 
in a manner that is protecting the environment.
    I'm committed to working with all interested parties to 
resolve these issues and work with this subcommittee and 
Congress to address any of your concerns. The Senate Armed 
Services Committee, and this subcommittee in particular, are 
key supporters of our Nation's cleanup efforts. I look forward 
to a continuing dialogue with you on this subcommittee.
    This concludes my formal statement and my full statement is 
submitted for the record. I'd be pleased to answer any 
questions.
    [The prepared statement of Mr. Rispoli follows:]

                 Prepared Statement by James A. Rispoli

    Good Afternoon, Chairman Sessions and members of the subcommittee. 
I am pleased to be here today to answer your questions on the fiscal 
year 2007 budget request for the Environmental Management (EM) program. 
I want to thank you and your subcommittee for your support of the EM 
program.
    Since my appointment in August 2005, I have been visiting 
Department of Energy (DOE) sites and familiarizing myself with the 
breadth of work that EM has the crucial mission to accomplish. I have 
been impressed with the dedication and focus of the workforce to remedy 
the environmental legacy of the Cold War, a task that is both 
inherently challenging and innately beneficial to our country. As I 
have become more informed on the sheer immensity of the challenges that 
face the program, I have a greater understanding of the progress we 
have made and the significant challenges that lie before us.
    Over the last 4 years, EM has made major strides in achieving 
results. To our credit, the program has made significant progress in 
shifting focus from risk management to risk reduction and cleanup 
completion, an achievement not possible without the strong leadership 
and support of this committee. In fact, in 2005, we physically 
completed the cleanup of the Rocky Flats site, Colorado, produced 257 
canisters of vitrified high level waste at the Savannah River Site 
(SRS), South Carolina, ready for repository disposal, and completed the 
Melton Valley legacy waste cleanup at the Oak Ridge Reservation, 
Tennessee, while beginning the decontamination and decommissioning of 
the last remaining gaseous diffusion plant facilities at Oak Ridge. 
During 2006, we expect to complete regulatory actions associated with 
Rocky Flats closure and complete cleanup at up to eight other sites. 
The eight other sites targeted for cleanup completion and/or closure 
are:

        <bullet> Fernald, Ohio
        <bullet> Mound, Ohio \1\
---------------------------------------------------------------------------
    \1\ With the possible exception of OU-1, which is being addressed 
now as a result of fiscal year 2006 Appropriations Act direction.
---------------------------------------------------------------------------
        <bullet> Kansas City Plant, Missouri
        <bullet> Lawrence Livermore National Laboratory Main Site, 
        California
        <bullet> Lawrence Berkeley National Laboratory, California
        <bullet> Ashtabula Environmental Management Project, Ohio
        <bullet> Sandia National Laboratories, New Mexico
        <bullet> Columbus Environmental Management Project, Ohio

    The fiscal year 2007 budget request builds on the past success of 
cleanup and closure and sets our course for accomplishing our cleanup 
responsibilities. The fiscal year 2007 EM budget request is $5.39 
billion for defense activities, a decrease of $760 million from the 
fiscal year 2006 appropriation, an indicator of our anticipated success 
with completion and closure of Rocky Flats in Colorado and several 
other sites in 2006. The fiscal year 2007 budget request reflects a 
balance of reducing risk and completing cleanup with other Departmental 
and national priorities. Overall, our request puts a high priority on 
tank waste treatment and radioactive waste disposition while preserving 
our site completion and closure impetus.
    This budget request will make possible a ramp up in construction of 
key components of the Waste Treatment Plant at Hanford, Washington, 
which had been slowed in 2005 and 2006, and continues safe management 
and retrieval of waste from single shell tanks at Hanford, in pace with 
the Waste Treatment Plant delays. This request increases funding for 
the Advanced Mixed Waste Treatment Project in Idaho to support 
shipments of transuranic waste to the Waste Isolation Pilot Plant and 
the construction of the Sodium Bearing Waste Facility to treat liquid 
tank waste. This request reflects an increase to support the critical 
path to closure for the East Tennessee Technology Park in Oak Ridge.
    At the SRS, this request will support ongoing stabilization of the 
site's stored nuclear materials, including funding for a container 
surveillance capability and consolidating the site's own plutonium into 
a single location. The request also provides for management and 
disposition of liquid tank waste, including funding for design and 
construction of the Salt Waste Processing Facility.
    In addition, the request supports ongoing cleanup at National 
Nuclear Security Administration (NNSA) sites, such as the Nevada Test 
Site, Pantex Plant, and Lawrence Livermore-Site 300. It also supports 
the first full year of remote-handled transuranic waste disposal at the 
Waste Isolation Pilot Plant in New Mexico.
    With this budget request, our short-term completion goals for risk 
reduction and cleanup are achievable, with the intention to complete 
cleanup of eight more sites by 2009. They are:

        <bullet> Argonne National Laboratory-East, Illinois
        <bullet> Pantex Plant, Texas
        <bullet> East Tennessee Technology Park, Tennessee
        <bullet> Lawrence Livermore National Laboratory-Site 300, 
        California
        <bullet> Stanford Linear Accelerator Center, California
        <bullet> Energy Technology Engineering Center, California
        <bullet> Brookhaven National Laboratory, New York
        <bullet> Inhalation Toxicology Laboratory, New Mexico

    The structure of fiscal year 2007 congressional budget request 
focuses on each site. This structure has three appropriations: Defense, 
Non-Defense, and Uranium Enrichment Decontamination and 
Decommissioning. This structure will allow the consolidation of all 
site activities for visibility, accountability and performance. With 
this fiscal year 2007 budget request, we are proposing several shifts 
between program offices with the completion of cleanup.

        <bullet> With the completion of cleanup at Rocky Flats in 
        fiscal year 2006, this request transfers site responsibility 
        from EM to the Office of Legacy Management. However, EM's 
        request does include funding for Rocky Flats for the final 
        Comprehensive Environmental Response, Compensation and 
        Liability Act Record of Decision.
        <bullet> With the physical completion of cleanup work at 
        Fernald, this request transfers responsibility from EM to the 
        Office of Legacy Management for Fernald.
        <bullet> This request transfers the work scope associated with 
        the Nevada Offsites (Project Chariot, Amchitka Island, and the 
        Salmon Site; Central Nevada Test Area, Gasbuggy Site, Gnome 
        Coach Site, Project Shoal Area, Rio Blanco Site, and the 
        Rulison Site) from EM to the Office of Legacy Management.
        <bullet> This request transfers long-term response actions at 
        the Lawrence Berkeley National Laboratory from EM to the Office 
        of Science.
        <bullet> With completion of active remediation work planned in 
        fiscal year 2006 at Sandia National Laboratory, Kansas City 
        Plant, and Lawrence Livermore National Laboratory-Main Site, 
        this request transfers long-term response actions from EM to 
        the NNSA.

    EM envisions that as cleanup work is completed at sites with 
continuing missions, EM will transfer long-term surveillance and 
monitoring activities to the cognizant program office or, for those 
sites without a continuing mission, to the Office of Legacy Management.
    Your support of this request will keep the cleanup program on track 
to meet the commitments and produce results worthy of the investment of 
the American people. We have shown we can deliver meaningful results 
important to accomplishing a technically complex mission. With your 
support, we will continue to show results important for today as well 
as far into the future.

                         RESULTS AND CHALLENGES

    The risk reduction, cleanup completion strategy has borne key 
results. We will build on this success and commit our efforts to refine 
our processes, taking advantage of opportunities and breakthroughs to 
meet or exceed past expectations of performance. For instance, as of 
the end of last year EM had cumulatively accomplished the following:

        <bullet> Packaged and certified 5,541 containers of enriched 
        uranium (out of 9,110 containers required over the cleanup 
        lifecycle) for long-term storage.
        <bullet> Packaged 11,307 metric tons of depleted uranium (out 
        of 685,161 metric tons required over the cleanup lifecycle) in 
        a suitable form for disposition.
        <bullet> Disposed of 960,143 cubic meters of legacy low-level 
        waste and mixed low-level waste (contaminated with hazardous 
        chemicals), out of 1,532,871 cubic meters required over the 
        cleanup lifecycle.
        <bullet> Eliminated 9 out of the 13 highly secure and costly 
        special nuclear materials storage areas, or Material Access 
        Areas.
        <bullet> Completed decommissioning, deactivation, dismantlement 
        and/or demolition of 1,106 out of 3,113 industrial facilities.
        <bullet> Completed remediation of a total of 5,858 release 
        sites (that is, discrete areas of contamination), out of 10,516 
        release sites required over the cleanup lifecycle.

    In addition, on a site-specific level, we have:

        <bullet> Consulted with the Nuclear Regulatory Commission under 
        section 3116 of the National Defense Authorization Act for 
        Fiscal Year 2005 and made the first waste determination to 
        allow certain low-level waste from reprocessing to be disposed 
        of onsite at the SRS in South Carolina, thereby reducing the 
        risks associated with the approximately 36.4 million gallons of 
        radioactive waste stored in the underground tanks there.
        <bullet> Retrieved the first 13,000 of 75,000 drum equivalents 
        of suspect transuranic waste 5 months ahead of the Tri-Party 
        Agreement (TPA) regulatory milestone at Hanford in Washington.
        <bullet> Completed the first ``wet to dry'' spent nuclear fuel 
        transfer campaign at the Idaho National Laboratory, with 
        Training Research and Isotope Production, General Atomics 
        (TRIGA) spent nuclear fuel now being held in dry storage.
        <bullet> Completed disposal of all low-level waste generated 
        during the Cold War era (>12,000 cubic meters) 1 year early at 
        the Savannah River Site.
        <bullet> Disposed of over 8,000 tons of scrap metal from 
        Portsmouth, Ohio.
        <bullet> Completed disposal of the remaining inventory of 
        hazardous waste generated during the Cold War era and over 
        8,000 cubic meters of polychlorinated biphenyl (PCB)--
        contaminated low-level waste from Oak Ridge, Tennessee.

    These results provide only one perspective or ``snapshot'' of the 
progress EM has made in risk reduction and cleanup. As with a photo, 
these accomplishments present only a limited view of the total program. 
With EM, as with many complex and diversified programs, the challenges 
behind achieving these results are not always apparent. EM foresaw some 
of these challenges, but other challenges were unexpected. Some 
challenges assail us from the technology perspective as we face some of 
the most difficult issues in environmental cleanup. Other challenges do 
not necessarily manifest themselves until we experience poor 
performance or missed milestones. More recently, due to poor 
performance and inadequate oversight, we have been challenged with 
losing ground in completing design and construction on some key 
projects. We are taking steps to regain momentum we have lost on these 
projects, but we are realistic and recognize that overly optimistic 
assumptions, statutory and legal issues, and unrealized technology 
advancements have led us to setbacks we are now experiencing within 
several key projects across the program.
    One of the most visible projects on which our progress has slowed 
is the Waste Treatment Plant at Hanford. The Waste Treatment Plant 
project perhaps the largest, most complex environmental construction 
project in the Nation has encountered design and construction setbacks. 
We remain committed to fix the problems, complete the project, and 
begin operations to treat the radioactive tank waste at the site. We 
have both internal and independent external reviews underway to 
evaluate the major project management, project control, business, and 
technical systems and processes, to ensure we fully understand what is 
required to complete the project and begin operations. An After Action 
Review by an external independent firm to assess the causes of the 
issues surrounding the project was recently completed. Actions are 
currently being implemented as appropriate to ensure the project is 
being planned and executed responsibly, to bring it back to acceptable 
performance.
    Other examples of challenges to cleanup progress include delays in 
facility design and construction in South Carolina to address 
protection of workers under certain accident scenarios associated with 
postulated seismic events, delays in sludge cleanup from spent nuclear 
fuel basins in Washington to address more difficult conditions than 
foreseen and allocation of cleanup resources to allow us to implement 
security upgrades to safely store our special nuclear materials. We are 
establishing realistic project baselines to account for these 
developments and to refocus our efforts.
    We are addressing these challenges while strengthening our ability 
to address future challenges. For example, we have had performance 
issues with EM work at Los Alamos and have not had an integrated 
baseline yet that we are able to validate. But we are making 
significant progress toward a new baseline. Additionally, we have a new 
contract in place that is focused on finding new ways of doing business 
in all areas of site operations, including cleanup and waste 
disposition. We believe the new contract and a successful baseline 
validation will offer us new opportunities to continue significant risk 
reduction and cleanup with our fiscal year 2007 funding.
    We have demonstrated that we can deliver. We will not falter in our 
responsibilities to meet our mission objectives. We have and are taking 
immediate steps to strengthen our performance by refining processes to 
emphasize safety, project management, acquisitions, contract execution 
and human capital.

                            RENEWED EMPHASIS

    First and paramount to our success is safety--it is our top 
priority. Safety affects all involved--Federal employees, contractors, 
the site, and the community. We will continue to maintain and demand 
the highest safety performance in all that we do. We have taken steps 
to fully integrate safety into our project designs earlier than ever, 
assure our line project teams have the necessary experience, expertise, 
and training, and utilize a constant real-time feedback of lessons 
learned. Every worker deserves to go home as healthy as she or he was 
when they came to the job in the morning. No schedule, no milestone, is 
worth any injury to our workforce. Safety is a cornerstone in the 
execution of good project management.
    In order to successfully execute our portfolio of projects, we are 
instilling a rigorous project management mindset that will be ingrained 
in all projects. Our performance has not been acceptable on several key 
projects. My goal over the next couple of years is that at least 90 
percent of our projectized portfolio will perform on or better than our 
cost and schedule targets. The management tools used to plan, execute, 
and monitor projects must be integrated into our business processes. 
Our success will depend on our ability to build in this rigor. We will 
target the shortcomings in our project management by using both DOE and 
industry standard project management and business management tools. I 
am personally conducting Quarterly Performance Reviews of all EM 
projects, and have directed my senior staff to carry out monthly 
project reviews. This includes fully implementing our management 
systems, following through on corrective actions, and better applying 
risk management principles--that is, identifying project uncertainties, 
developing mitigation measures and contingency, and holding responsible 
managers accountable for their resolution. I believe that this 
approach, strong and effective project management will be the key to 
our success.
    To ensure effective project management, we must also apply the 
proper procurement vehicles to meet our acquisition strategy. Clearly, 
opportunities exist to improve our acquisition practices.
    EM is an ``Acquisition'' organization. We accomplish our mission 
through procurement and execution of our projects. It is vital that EM 
acquire the best services and attract the best the contractor 
community, including small business, has to offer. I have recently 
proposed and will shortly implement a new organizational structure, 
including a new Deputy Assistant Secretary (DAS) for Acquisition and 
Project Management. This new organization will integrate the two 
functions of procurement planning and project management, a significant 
step in building up the expertise to carry out our responsibilities. We 
will sharpen our skills through training and refocus our enterprise to 
reflect our acquisition responsibilities. With this organizational 
integration of project management and contract acquisition/
administration, EM will be positioned to provide technical excellence 
commensurate with the responsibilities with which we have been 
entrusted.
    Complementing these refinements, we must ensure that our projects 
are managed by highly skilled, competent and dedicated leaders and 
staff, both Federal and contractor, who have the responsibility and the 
authority to meet the EM program's objectives. We have in place a 
rigorous certification program for our project managers. Our goal is to 
certify all EM Federal project managers for each project by May 2006.
    We want to assure ourselves that we have the right skills mix to 
get the job done. We will provide our employees career development, 
rewards, and support. I firmly believe that an organization is never 
better than its people. Our employees, both Federal and contractor, 
hold the key to our success as an agency.
    Our desire is that at Headquarters and each site, our key 
acquisition and technical personnel have knowledge of technical issues, 
project management, and business management at an equivalent level of 
expertise as their contractor counterparts to promote meaningful, 
cogent dialogue on substantive issues. Our job as a Federal agency is 
management and oversight, to be responsible stewards of the public's 
trust and resources. Therefore, we must have a highly qualified and 
technically proficient management team and staff. My aim is to have a 
high performing organization, sustained by a career oriented workforce, 
driven to produce results that are important now and into the future.

                  THE FISCAL YEAR 2007 BUDGET REQUEST

    The investment we have requested in our fiscal year 2007 budget 
will continue the Department's success in achieving its mission of risk 
reduction and cleanup completion. The Department's fiscal year 2007 
budget request for defense EM activities totals $5,390 million. The 
request consists of one defense appropriation, Defense Environmental 
Cleanup.
    Ensure safety is number one: The budget request continues to place 
the highest priority on protecting workers, the public, and the 
environment. EM is introducing new fervor in the integration of safety 
and project management, validation and adherence to cost and schedule 
baselines, effective identification and management of risks, and the 
design of contracts that drive outstanding performance. Safety is 
central to superior performance.
    Ensure the appropriate levels of safeguards and security: It is 
crucial that we maintain vigilance in our security to protect our 
citizens. The EM program is responsible for tons of surplus nuclear 
material. There is an overall increase in the safeguards and security 
budget in fiscal year 2007 due to additional security requirements at 
Savannah River, as a result of revisions to the Department's Design 
Basis Threat (DBT) policy--the performance based standard, which each 
of our sites must meet to ensure an acceptable level of protection. 
Hanford has fully met the 2003 DBT policy, and will be reviewing the 
2005 DBT policy as the Department is considering options for 
consolidation of special nuclear material throughout the complex.
    Risk reduction and cleanup completion: Risk reduction requires a 
pragmatic approach to cleanup and occurs in various stages, which 
involve the elimination, prevention, or mitigation of risk. Because 
safe disposal of many materials will take a number of years to 
complete, our major focus of risk reduction is stabilization of high-
risk materials:

        <bullet> High-curie, long-lived isotope liquid waste;
        <bullet> Special nuclear materials;
        <bullet> Sodium bearing liquid and other radioactive waste in 
        tanks;
        <bullet> Deteriorating spent nuclear fuel in leaky or poor 
        integrity basins;
        <bullet> Remote-handled transuranic waste and high transuranic 
        content solid waste stored on the surface;
        <bullet> Decommissioning of highly-contaminated facilities.

    Although these items are to be considered when setting priorities, 
their relative ranking may vary from site to site. Risk reduction is a 
major consideration in the development of the site baselines. Examples 
of planned activities and milestones for fiscal year 2007 that 
correspond to site-specific risk categories are:
    Hanford
        <bullet> Ramp up construction of the Waste Treatment and 
        Immobilization Plant (WTP) Pretreatment and High-Level Waste 
        facilities.

                <bullet> The WTP is the primary facility to immobilize 
                (vitrify) the radioactive tank waste at the Hanford 
                Site. The WTP complex includes five major components: 
                Pretreatment facility, Low-Activity Waste facility, 
                High-Level Waste facility, Analytical Laboratory, and 
                the Balance of Facilities. In fiscal year 2007, 
                construction will ramp up on the two facilities slowed 
                in 2006 to address revised seismic criteria: the 
                Pretreatment facility, which will separate the 
                radioactive tank waste into low-activity and high-level 
                fractions, and the High-Level Waste facility which will 
                vitrify the high-level fraction into glass, ready for 
                disposal at a Federal repository.

        <bullet> Maintain tank farms in safe, compliant condition and 
        continue single-shell tank waste retrievals to maintain 
        adequate double-shell tank space.

                <bullet> The double-shell tank system has limited 
                capacity to receive wastes from the single-shell tanks 
                and that is anticipated to continue to be the case 
                until the WTP can provide tank waste treatment. The 
                fiscal year 2007 budget request supports a reduced rate 
                of single-shell tank waste retrievals that can be 
                sustained with the available double-shell tank capacity 
                until tank waste treatment can commence.

        <bullet> Complete containerization and consolidation of K-East 
        and K-West Basin sludge in the K-West Basin.

                <bullet> The K-Basins are located about one quarter 
                mile from the Columbia River. This project involves 
                removing radioactive sludge, debris, and water from wet 
                storage in the K-Basins to safe, interim storage or 
                final disposition away from the Columbia River. The K-
                Basin facilities are well past their design lives and 
                are a major threat to the environment due to the 
                potential for basin leakage to the surrounding soil and 
                the Columbia River. The request is an increase over 
                fiscal year 2006 and reflects additional work scope due 
                to more challenging, as-found conditions of sludge and 
                debris; implementation of improved techniques for 
                sludge containerization; and application of a 
                systematic approach to design, testing, and operation 
                of sludge transfer activities.

        <bullet> Continue retrieval of suspect transuranic waste and 
        shipments to the Waste Isolation Pilot Plant.

                <bullet> Hanford has several thousand containers of 
                previously generated suspect transuranic waste stored 
                in the ground in a retrievable configuration. 
                Approximately 2,400 cubic meters of suspect transuranic 
                waste will be retrieved, an increase of approximately 
                600 cubic meters over fiscal year 2006. 
                Characterization and shipment of confirmed transuranic 
                waste to the Waste Isolation Pilot Plant for final 
                disposal will reduce the risks to facility workers as 
                well as reduce the safeguard and security vulnerability 
                associated with this waste. This action represents 
                final disposal of this waste in an environmentally 
                protective repository.

        <bullet> Increase River Corridor remedial action activities for 
        Reactor Areas D, F, and H; and complete three high priority 
        waste site interim remedial actions in the 300 area.

                <bullet> The River Corridor Closure Project focuses on 
                areas and facilities adjacent to the Columbia River and 
                includes remediation of contaminated waste sites; 
                decontamination, decommissioning, and demolition of 
                facilities; and placing eight reactors into interim 
                safe storage condition. This also includes digging up 
                contaminated soil and disposing of waste in the onsite 
                Environmental Restoration Disposal Facility, an 
                engineered landfill away from the river.

        <bullet> Maintain Plutonium Finishing Plant (PFP) complex 
        facilities, including vaults.

                <bullet> The PFP Complex consists of several buildings 
                that were used for defense production of plutonium 
                nitrates, oxides, and metal from 1950 through 1989. The 
                end state for the PFP is the dismantlement of all 
                facilities to slab-on-grade. The continuing presence of 
                special nuclear materials has caused a delay in 
                decommissioning and decontamination of PFP facilities. 
                However, safe, secure maintenance of the existing 
                facility continues as we finalize plans for 
                consolidation of the material, as does dismantlement 
                and demolition of ancillary PFP facilities.
Idaho
        <bullet> Continue transuranic waste shipments to the Waste 
        Isolation Pilot Plant.

                <bullet> These actions will serve to reduce operating, 
                surveillance, and maintenance costs while at the same 
                time reducing risk and enhancing long-term safety and 
                security.

        <bullet> Complete design and initiate construction of the 
        Sodium Bearing Waste Treatment facility to treat tank 
        radioactive wastes.

                <bullet> This project supports the EM goal of reducing 
                the risk of stored liquid radioactive waste. This 
                action will reduce the potential risk to human health 
                by preventing the potential migration of contamination 
                into the Snake River Plain Aquifer which is a sole 
                source aquifer used to supply water to the people of 
                southeastern Idaho.

        <bullet> Close the first three emptied underground storage 
        tanks at Idaho.

                <bullet> Removing the liquid waste decreases the risks 
                they pose to human health and the environment, 
                including the underlying Snake River Plain Aquifer.

        <bullet> Initiate final demolition of the Loss of Fluid Test 
        Reactor.

                <bullet> This will be the first of four high-risk 
                reactor dispositions under the current cleanup 
                contract. These actions will reduce potential risk by 
                deactivating high risk excess nuclear buildings at the 
                Idaho National Laboratory that have reached the end of 
                their useful lives.
Oak Ridge
        <bullet> Ship 75 percent of stored contact-handled transuranic 
        waste to the Waste Isolation Pilot Plant.

                <bullet> This waste is stored in above grade-storage 
                trenches and in earthen trenches. Processing and off-
                site disposal of the waste prevents the risk of release 
                to the environment and the continued cost of waste 
                storage and monitoring.

        <bullet> Initiate remediation field work at David Witherspoon 
        1630 Site.

                <bullet> This action will reduce the risks posed to 
                workers and the surrounding community from uranium and 
                polychlorinated biphenyls contamination in the soil.

        <bullet> Perform surveillance and maintenance of Building 3019.

                <bullet> This action will provide storage of the 
                Uranium-233 inventory in Building 3019 while we 
                evaluate alternatives to disposition the Uranium-233 
                inventory.
Los Alamos National Laboratory
        <bullet> Characterize 1,800 cubic meters of contact-handled 
        transuranic waste and prepare oversized transuranic waste items 
        for disposal at the Waste Isolation Pilot Plant.

                <bullet> Characterization and shipment of this waste to 
                the Waste Isolation Pilot Project for final disposal 
                will reduce the risks to facility workers as well as 
                reduce the safeguard and security vulnerability 
                associated with this waste. This action represents 
                final disposal of this waste in an environmentally 
                protective repository.
Savannah River Site
        <bullet> Complete consolidation of on-site plutonium to K Area.

                <bullet> This action will consolidate Savannah River's 
                own plutonium from various on-site storage locations 
                into one existing Category 1 Special Nuclear Materials 
                Storage Facility to meet Design Basis Threat criteria.

        <bullet> Continue to stabilize liquid waste from underground 
        storage tanks.

                <bullet> Complete design and initiate site preparation, 
                long lead procurement, and construction of Salt Waste 
                Processing Facility.
                <bullet> Produce 250 canisters of vitrified high-level 
                waste.
                <bullet> Use the Interim Salt Processing System to 
                develop cesium removal capability.

        <bullet> Complete treatment of legacy mixed low-level waste and 
        complete shipment of drummed legacy transuranic waste to the 
        Waste Isolation Pilot Plant.

                <bullet> Characterization and shipment of this waste to 
                the Waste Isolation Pilot Project for final disposal 
                will reduce the risks to facility workers as well as 
                reduce the safeguard and security vulnerability 
                associated with this waste.
Waste Isolation Pilot Plant
        <bullet> Complete first full year of remote-handled transuranic 
        waste receipt and disposal.

                <bullet> The Waste Isolation Pilot Plant in Carlsbad, 
                New Mexico, is the Nation's mined geologic repository 
                for the permanent disposal of defense-generated 
                transuranic waste. All retrievably stored transuranic 
                waste comes to the Waste Isolation Pilot Plant for 
                receipt, handling, and disposal. This will remove these 
                wastes from around the complex where they constitute a 
                major health and safety risk, into a centralized, safe 
                disposal configuration in New Mexico.

                               CONCLUSION

    Significant results and emerging challenges went hand in hand this 
last year. We will build on our successes in completing the EM mission 
in a manner that is protective of the environment and public while 
demonstrating fiscal responsibility. This fiscal year 2007 budget 
request supports a critical portion of the Department's environmental 
stewardship responsibilities. It will enable the next steps in 
accomplishing the cleanup mission from past operations in support of 
the Cold War while balancing the effective implementation of other 
departmental and national priorities for the American people.
    I am committed to work with all interested parties to resolve 
issues and will work with this committee and Congress to address any of 
your concerns or interests. DOE, our regulators, the communities and 
our contractors are partners in this effort. Our success relies on this 
partnership. As a partnership, we all succeed or we all fail together.
    The Senate Armed Services Committee and this subcommittee in 
particular, are key supporters of the Nation's cleanup efforts. I look 
forward to a continuing dialog with you and the subcommittee. This 
concludes my formal statement for the record. I will be pleased to 
answer any questions at this time.

    Senator Sessions. Thank you, Mr. Secretary. Senator Nelson, 
I know, has another appointment he must keep and I'd be glad to 
let you at this time go forward, Senator Nelson, if you'd like 
to proceed.
    Senator Bill Nelson. Thank you, Mr. Chairman. I will confer 
with the Secretary with regard to that subject matter for you, 
and we can follow up on the record if we need any additional. 
Let me concentrate on the Ambassador, though. The National 
Ignition Facility (NIF), what is being changed in the baseline? 
What impact will these changes have on the cost of this caper?
    Ambassador Brooks. The baseline for the NIF is remaining on 
schedule. We continue to be on track to conduct an ignition 
experiment in 2010. What we have done in order to remain on 
track is reduce other expenditures, for example, at the Sandia 
Z Machine and the Omega Machine in Rochester, New York.
    Although in the 1990s, the NIF had some project management 
problems, over the last 5 years, it has been consistently on 
schedule and on budget. I see it has a remarkable safety record 
and I see no reason that any of that will change. I expect that 
we will conduct the first ignition experiment on schedule in 
2010.
    Senator Bill Nelson. So you see no technological challenges 
that will not allow you to do the ignition in 2010?
    Ambassador Brooks. I want to be very careful. I know the 
Secretary doesn't like us to promise things we can't deliver. 
We can promise we are going to do an ignition experiment in 
2010. It's never been done before. Whether or not it will work 
the first time is something we are just not going to know, but 
I am confident that we are on track with the budget we have 
submitted and support we have had in the past for 2010. Yes, 
sir.
    Senator Bill Nelson. How about your funding profile? Have 
you got enough in order to complete the construction in 2008?
    Ambassador Brooks. Yes, sir.
    Senator Bill Nelson. To ignite in 2010?
    Ambassador Brooks. Yes, sir.
    Senator Bill Nelson. Let's talk about the RRW. Will there 
be several RRW types in the stockpile?
    Ambassador Brooks. I think so. Here's what I think will 
happen, and I need to make it clear, some of these are 
decisions that have not been made yet and shouldn't be made 
yet.
    We are concentrating first on a warhead that will be 
suitable for use on several launched ballistic missiles. The 
reason for that is that the W-76, which is the most numerous 
warhead on our launched ballistic missiles, is the largest 
single warhead type in the inventory. Although we have no 
reason to believe there is a problem with it, were there a 
problem, we will lack a good deal of flexibility. So what we 
want to do is give ourselves greater diversity so we want to 
concentrate on that first.
    Ultimately, and ultimately probably means 15 years, maybe 
18 years, maybe 20 years, we will need to have more than one 
type of RRW because we never want to put the United States in a 
position where a single failure could invalidate the deterrent. 
But exactly when we start on a second design, I don't think we 
know, and I don't think we are really going to know until we 
see the results of this design competition.
    Senator Bill Nelson. Is the new nuclear weapon going to use 
the traditional nuclear weapons acquisition process or is it 
going to be a modified nuclear weapon process?
    Ambassador Brooks. We are still wrestling with that. The 
traditional nuclear weapons acquisition process is cumbersome. 
I think that we believe, consistent with the need to have 
efficiency, that we need to find a way to streamline that while 
still providing adequate opportunity for congressional 
oversight.
    I don't want to try and circumvent congressional 
involvement, but we spend a fair amount of the time within the 
building that we are going to try and find ways to shorten it. 
But we have not focused on the details of that yet, other than 
acknowledging to each other that we need a process. We have a 
very ambitious goal for responsive infrastructure and those 
goals will need more efficient management as well as more 
efficient infrastructure.
    Senator Bill Nelson. Would you develop an RRW if you and 
the laboratory directors determined that it was necessary to 
conduct a nuclear weapons test?
    Ambassador Brooks. No. But I don't think that's going to 
come up. In fact, the whole concept of increasing design margin 
is to decrease the chance of that ever being anything other 
than a hypothetical question. But in the same way, we are 
specifying that this first design fit in a particular artillery 
shell and have the same military characteristics as the 
existing warheads, we are specifying that it be developed 
without nuclear testing.
    Senator Bill Nelson. The goal of the RRW is to meet the new 
military requirements?
    Ambassador Brooks. No, sir. Same military requirements. 
Same military characteristics. Same delivery systems aimed at 
the same target. The goal is that when my counterparts from the 
DOD are sitting before this committee in 15 years, they have 
the same confidence in the stockpile that we have today, even 
though in those 15 years, nobody has done any testing and 
everything has gotten older.
    Senator Bill Nelson. Okay. My final line of questioning is 
that you all are planning a life extension for the full 
complement of W-76, and the full complement of W-80, while both 
weapons design laboratories are also working on the designs for 
the RRW. As you said, it could replace some or part of the W-76 
life extension.
    Now, General Cartwright has recommended that the Air Force 
and the Navy cruise missiles that carry the W-80 be retired. 
Between now and the first production of the W-80 warhead in 
2010, the NNSA is going to spend a half million dollars getting 
ready to conduct the life extension program.
    So the obvious question is, why not postpone the W-80 work 
until a final decision is made on whether it's needed or not. 
If you did not, it would have the result of slowing down the 
work on the W-76, which you want to have ready.
    Ambassador Brooks. Yes, sir. First, I prefer not to comment 
on what the senior officer in another department may or may not 
have recommended, but accepting your characterization for a 
moment, at the present time, the DOD continues to support and 
the President has continued to approve the long-term retention 
of the W-80. Our planning is based on those requirements.
    Obviously, if those requirements change, it would be silly 
to spend money to extend the life of a system with no delivery 
platform, but I think that's a decision that is now premature. 
Senator, a lot of things get considered in government. I think 
that it is not in the interest of good management to prejudge 
decisions that have to get made by cabinet officers and the 
President. I can see my responsibility as meeting the 
requirements set by the DOD. Right now those requirements 
require us to do a W-80 life extension. I'm certainly aware 
that discussions go on, and if things change, we'll change.
    Senator Bill Nelson. Thank you, Mr. Chairman. We are 
concerned that you can't get it all done.
    Ambassador Brooks. Mr. Chairman, can I take just a moment?
    Senator Sessions. Please.
    Ambassador Brooks. First of all, there are financial 
issues. These things cost money. The laboratory effort on the 
RRW does not draw on the same people and skills as life 
extension programs. I think there are issues of the life 
extension program which we are working on. Those issues are 
primarily on the production side, rather than the laboratory 
side.
    I think frankly, the reason to be worried about the number 
of things we are trying to do is not our fiscal ability, but 
our physical ability. Right now, the RRW is a relatively small 
number--sort of frightening to use $27 million as a small 
number, but is a relatively small fraction of our budget.
    If it has the promise it's going to have, the resources for 
it will grow. The most logical place to get those resources is 
from truncating life extension programs. The question that we 
are wrestling with is how certain do we have to be that the RRW 
concept is really going to: (A) work, and (B) fit in with the 
country's priorities before we start shifting resources away. 
That's a constant discussion. My guess is that in the next year 
or 2, you will see us walk away from some of the life 
extension, but that's assuming decisions that have not been 
made yet.
    Senator Sessions. Thank you. Senator Nelson, I think that 
comes back to the point of view that, in many ways, your work 
at DOE is similar to a contractor producing what DOD says it 
needs, is that correct?
    Ambassador Brooks. Yes. That's correct.
    Senator Sessions. In general, you're reluctant to start 
opining contrary to what the DOD says?
    Ambassador Brooks. It's not just the DOD. The stockpile 
that we maintain is approved by the President of the United 
States and I conceive of my job of doing what the President 
tells me to do.
    Senator Sessions. He probably has not personally examined 
it all and probably based on recommendations of DOD. My only 
point is that sometimes if the two of you got together, we 
could both save some money it seems.
    Ambassador Brooks. Yes, sir. Some of the new leadership in 
the weapons area in DOD are General Cartwright, who was 
mentioned, and Under Secretary Krieg and I are wrestling with 
that. We are all very conscious that we can do anything but we 
can't do everything.
    Senator Sessions. That's what I said. Senator Graham, it's 
great to have you with us. I would yield to you at this time. 
Maybe if you would give us a little history lesson and how it 
was that you and the people of South Carolina were able to 
speed up your cleanup and save the taxpayers money at the same 
time. It's a story too seldom replicated in our Nation.
    Senator Graham. What a great lead in. One, you helped us. 
It was a 48-48 vote and just to make a complete record here, 
South Carolina was willing to work with the DOE to take 50 
tanks that had been filled with waste winning the Cold War, and 
you come up with a logical way to clean those tanks up, leaving 
some of the stream behind in a way that was environmentally 
sound that would speed up cleanup by 23 years and save $16 
billion.
    Senator Sessions. $16 billion.
    Senator Graham. $16 billion.
    Senator Sessions. That's eight DDG ships.
    Senator Graham. That could be done throughout the whole 
system if people would just use common sense. The heel of the 
tank you could scrape it forever and what comes out of the heel 
could be sent to Yucca Mountain, clogging it up or you could 
treat what was left behind and make it low level waste and 
close these tanks up 23 years ahead of schedule and save $16 
billion. The reason I wanted to do it is the biggest threat to 
South Carolina is for the tanks to leak.
    As soon as you get the material out of the tanks and treat 
what is left in the heel, you're good to go. I wouldn't ask my 
State to jeopardize its environment, but I did ask my State to 
negotiate an agreement that makes sense to allow accelerated 
cleanup and save money that need not be spent.
    Unfortunately, this leads me to my first line of inquiry. 
The political heat was unbelievable and because of Senator 
Sessions and others we were able to win the day. What has 
happened, Mr. Chairman, is that as we get ready to implement 
the plan that we passed, DOE changed its seismic standards and 
we are 2 years behind schedule and we really weren't consulted.
    I went out on a limb with my governor to allow new 
standards to be created that would leave a small portion behind 
that we can stand to have behind. Now we are 2 years behind and 
it was sort of we were blindsided and the whole effort to get 
the tanks cleaned up and the waste out has run into problems. 
Mr. Secretary, where are we and how are we going to get back on 
schedule?
    Mr. Rispoli. Thank you for that question, Senator. 
Obviously, we have a very good rapport we believe with the 
State of South Carolina.
    Senator Graham. In all honesty, Mr. Secretary, they were 
blindsided by the change of seismic standards and it created a 
lot of problems back home.
    Mr. Rispoli. Yes, sir. We obviously did not do as good as 
we should have done in coordinating the seismic issue that has 
been pending for years now. We had to bring it to closure. 
You're absolutely correct. We did not do a good job of 
coordinating that seismic standard with the regulatory people 
of South Carolina.
    For clarification for the members of the committee, the 
issue is not really the seismic standard. The issue is the 
degree of protection that you provide to the workers in the 
facility and the site and the community should there be a 
seismic event. The seismic standard itself was not at issue. 
It's really the degree of protection, and the decision that was 
eventually and finally made shortly after I was sworn in was to 
go with a higher degree of protection for the workers for the 
site and for the community because we see that safety has to 
override any other consideration.
    Senator Graham. If I may interrupt, Mr. Secretary, we agree 
with that. But I don't think I was taking a risk. I thought I 
was doing something good for South Carolina by agreeing to a 
plan to get the waste out of the tanks so they won't leak, and 
I rejected the extreme environmentalist argument that the 
footprint left cannot be treated because it can. Mr. Chairman, 
what was left behind is no threat to South Carolina. Why spend 
$16 billion cleaning up something that doesn't need to be 
cleaned up?
    But now, we are off track and you're saying that we are 
worried about our safety. We should have known that before we 
did this deal.
    Mr. Rispoli. I don't disagree with you. I would point out 
that we have other steps. Since it's a phased program, we have 
two other treatment processes that will come on line to begin 
retrieving tank waste. This is the lower activity tank waste 
that can be treated through other processes that will begin 
sooner, so that we don't wait from now until 2011 when the 
major project is operational to begin to treat.
    Senator Graham. So you feel comfortable we are going to get 
back on schedule?
    Mr. Rispoli. I feel comfortable we will begin treating tank 
waste with these other processes. We have the waste 
determination by the Secretary using the 3116 authority that 
will enable us to close tanks. We want them, just as you do, to 
get on with closing tanks by removing the waste, treating the 
waste through these interim processes through the salt waste 
processing facility when it's built and operational. I believe 
we have the same exact objectives.
    I note again that we felt we had to make the facility safe. 
Why would we build a facility knowing that it was not meeting 
technical requirements of the Department?
    Senator Graham. Will new tanks be required because of this 
delay?
    Mr. Rispoli. We do not foresee the need for new tanks. We 
recognize that we have a tank waste management issue. We 
believe that by bringing the new facilities, the interim 
facilities on line, we can deal with the tank waste that will 
be processed in those and avoid an issue where we would have 
tank waste and stop it.
    Senator Graham. Mr. Chairman, I think this would be good 
for the committee to hear if you would indulge me. I want to 
thank the administration in this regard and applaud you. I have 
been representing SRS in Congress and the Senate for over a 
decade now. All we did was talk about cleaning up. We spent 
billions of dollars talking and nothing ever gets cleaned up.
    This administration has come along and set some reasonable 
standards and we are actually beginning to clean things up and 
South Carolina will be better off if we can neutralize this 
waste. If we can do it in a common sense way, the taxpayer will 
be better off, the environment will be better off. I don't want 
to spend 23 years doing something that doesn't take 23 years 
and spend $16 billion for really no gain.
    Now, I want to turn to another topic. South Carolina, Mr. 
Chairman, several years ago, agreed to accept 34 tons of 
weapons grade plutonium that has been deemed to be excess of 
our defense needs. We took plutonium from Rocky Flats to South 
Carolina so they could close Rocky Flats up earlier and save 
hundreds of millions of dollars in storage.
    The deal was you send it to South Carolina and we will 
convert this excess plutonium, weapons grade plutonium into 
mixed oxide (MOX) fuel, which is commercial grade fuel. It will 
take this off the market, it can never be captured by 
terrorists and used to do bad things because the Russians were 
going to do the same thing with 34 tons of excess plutonium in 
their inventory.
    I don't worry much about our inventory in terms of being 
guarded and safe, but I worry a lot about what goes on in 
Russia. Mr. Chairman, South Carolina stepped up to the plate 
again and we took plutonium that we did not generate with the 
hope and the idea, the promise that it would be turned into 
something. Guess what? It was supposed to start in 2009. Now 
it's 2015.
    So I have 34 tons of weapons grade plutonium. We are way 
behind schedule. The cost of the MOX program has over doubled 
and I mention this, Ambassador Brooks, because I think you're 
bringing some solutions to the table. If you can reassure my 
chairman and me that we are going to get on with this, South 
Carolina is not going to be stuck with this plutonium and the 
world would be safer, I would appreciate it.
    Ambassador Brooks. Yes, sir. Senator, we are going to break 
ground and begin construction on a MOX fuel vitrification 
facility later this year, sometime in the early fall. We are 
working with the Russian Federation to try and find ways to 
accelerate their elimination of plutonium through using a 
different approach than we have looked at which would start 
early use through reactors called the BN-600.
    We have, since I was last before this committee, put lead 
test assemblies into reactors. We have the technical data to 
confirm that MOX fuel, as the process will manufacture at this 
particular site and is manufactured in France, will in fact 
work.
    We have Nuclear Regulatory Commission (NRC) licenses so we 
are going to go ahead. We have been delayed for a variety of 
reasons, primarily a somewhat arcane and now resolved issue 
with the Russian Federation over the liability of their 
program.
    We are absolutely committed to eliminating this material 
for a whole bunch of reasons. Principally because it's part of 
an agreement with the Russian Federation to eliminate theirs. 
It frees up space so that I can further consolidate and improve 
security, and frankly, this is awful stuff we don't need 
anymore and we need to get rid of it.
    We are committed to do that and I think we are going to be 
showing you tangible proof of that commitment with the 
construction later this year.
    Senator Graham. Thank you, Mr. Ambassador. Thank you both. 
I know these problems are hard to solve, but I think South 
Carolina has done its fair share and then some of doing it the 
right way and economical way and smart way. Mr. Chairman, thank 
you for your support because without it we could not have 
gotten this done. I just think it's important for this 
committee to provide the oversight. Promises made are promises 
kept.
    Senator Sessions. Thank you, Senator Graham. Having been 
through some of that same type issue with regard to poison 
gases, sarin at Anniston, people are just not very reasonable 
in accepting stuff from outside the State. They just don't want 
to hear it, even though you might be defending them. I was 
surprised that we won. But it's a problem. South Carolina did 
the right thing, and it is a commitment that I think you should 
follow through on.
    I also believe that we need to consider further the 
techniques of cleanups that you did in South Carolina at other 
sites. Mr. Rispoli, subsequent to their decision, I understand 
that there was a NRC report that was affirming that procedure. 
Would you share with us what happened? That was after we had 
this tight vote that we had in the Senate.
    Mr. Rispoli. Mr. Chairman, I believe you're referring to 
the consultation that we did with the NRC? The way that that is 
set up and the way that it's working, we submitted our first 
consultation in February 2005, following the October passage of 
the law.
    The NRC concluded their consultation which was a back and 
forth process on December 28, so it was about a 10-month 
process because I mentioned we have two more in the pipeline 
with the NRC. One is for tanks 18 and 19. It's a matter for the 
site in South Carolina. The other is for a similar issue in the 
State of Idaho.
    The report when it was finally concluded was favorable, 
basically supported the determination that we made. I have been 
in direct dialogue with the senior executive that works 
directly for the commission to begin a process to try to 
improve and streamline it. It took us 10 months to do the first 
one. It will likely take us 9 months to do the next two.
    The NRC has agreed that we need to streamline that process 
so that we can do this better, faster, and more efficiently. We 
see this authority that you have supported for us as being 
absolutely key to prudent solutions of these problems. I just 
want to make it go smoother because we don't expect this to be 
the end. We expect this to be the front edge of what we need to 
do.
    Senator Sessions. Are these the same kind of tanks and same 
kind of waste that we are looking at at Hanford?
    Mr. Rispoli. We have single and double shell tanks in both 
places. The waste is varied at each place. The wastes are quite 
different depending upon tank height.
    Senator Graham. If you were able to get such an agreement 
at Idaho and Washington, how much sooner could you clean up the 
tanks at those places and how much money could you save?
    Mr. Rispoli. I think the key to what this statutory 
authority gave us is the tremendous amount of savings to the 
American taxpayer by being able to dispose of larger volume, 
much lower radioactivity content waste in that way, either in 
the tanks or in the first case, the first one that went 
through, the salt stone disposal facility where it will be 
actually put into a repository right onsite. So that the real 
savings I believe is the monetary savings. In both phases, we 
run a vitrification plant at Savannah River.
    Senator Graham. We saved $16 billion in South Carolina. Do 
you have any reason to believe it will be lesser at other 
sites?
    Mr. Rispoli. No, sir. If you look at volumes of waste, 
Hanford is a very, very significant challenge for the Nation 
because of the tank waste we need to deal with there as well.
    Senator Sessions. Is there a bigger site than Hanford?
    Mr. Rispoli. Mr. Chairman, I would hesitate to speculate 
because I don't know how much of the waste would be applicable 
for that type of disposition. Clearly it's a sizable amount. 
Well over 100 tanks there. Certainly it would be a sizable 
savings to be able to go through with a similar process.
    Senator Graham. Fifty tanks in South Carolina.
    Senator Sessions. This is a matter we would rather 
confront. I don't know whether this is a matter of regulation, 
statute, or consent decree or just an agreement between the 
State of Washington and DOE. How precisely has the plan been 
established to go forward in a way different from the South 
Carolina plant? What is the legal authority for that?
    Mr. Rispoli. If I may explain that the Department initially 
had the intention of disposing of waste in a way like this. It 
was being done under departmental directives that were 
challenged in court, and the initial rulings went against the 
Department in that case.
    The Department appealed, the appeals court found 
differently than the court that made the initial judgment, and 
just yesterday, the 6th of March, the initial court set aside 
its ruling because the argument is that since the Department 
did not actually propose to do it at Hanford, therefore, the 
case was not ripe for a judgment, so that was set aside.
    The Department is left with its own directive which in many 
ways parallels Section 3116 authority that you had given to us. 
What we do not know is if we were to progress on that path 
again, whether there would once again be third party 
intervention in bringing the lawsuit against our intention to 
do that.
    Senator Graham. If I may, I think the way it happened, the 
importance of the legislation that you have passed was it gave 
legal authority for the DOE in South Carolina to negotiate a 
deal. It was very much similar to what they had proposed to 
begin with, and that's where the savings in accelerated cleanup 
came from.
    South Carolina is a huge beneficiary in the sense that we 
are getting 50 tanks cleaned up 23 years ahead of time, and 
what is left behind in my opinion presents no danger to the 
site and does save $16 billion and we could do this throughout 
the whole complex.
    Mr. Rispoli. Clearly, the three places this is most 
applicable would be Savannah River, Idaho, and the Hanford site 
in Washington State. By the way, the court case was specific to 
the State of Idaho, as I believe you know.
    Senator Sessions. So the court case has been set aside, a 
judgment has been set aside in Idaho. What about the legal 
status in the State of Washington?
    Mr. Rispoli. The best way I can answer that is that the 
Department does have its own directive that would permit us to 
do something very similar and very parallel in the absence of 
3116 authority. Obviously, the way that we would like to 
proceed is to use a prudent, safe and reliable method of doing 
that since we are talking about disposing in those tanks on 
site a very low portion of radioactivity, even though the 
volume is higher. Clearly that's the way that we would like to 
proceed with that type of a determination.
    Senator Sessions. Does it take legislation to allow you to 
do that or are you saying if do you it you expect someone will 
file a lawsuit? You think you have the authority today?
    Mr. Rispoli. We have our departmental authority today. We 
do not have the legal coverage of section 3116 that you 
provided in the two States that it was specific to.
    Senator Graham. South Carolina was willing to be bound by 
this.
    Senator Sessions. So the State of Washington perhaps is 
not.
    Mr. Rispoli. That would be my understanding.
    Senator Graham. Yes.
    Mr. Rispoli. I was not in this position at that time, but 
that would be my understanding.
    Senator Sessions. I want to just ask this so I get it 
straight. If you decided that the process utilized in South 
Carolina is safe and the NRC agrees and you'd like to use it in 
Idaho, I believe you have the authority to do that. What would 
be the situation in Washington if you decide to do it there?
    Mr. Rispoli. We would clearly have to work with the State 
regulatory body, which we, by the way, I believe have very good 
relations with. We have many significant issues in the State of 
Washington, primarily caused by the delay in the large Waste 
Treatment Plant project. We work very well with the State in 
working our way through those. Clearly we would have to work 
with the State to propose a path forward to close those tanks 
at the appropriate time.
    Senator Sessions. But at this time, is there any agreement 
in place that says you have to complete or remove the tanks, a 
commitment on behalf of the DOE?
    Mr. Rispoli. Not that I'm aware of, Mr. Chairman, but I 
would like to confirm that for the record. Not that I'm aware 
of.
    [The information referred to follows:]

    The Department of Energy (DOE) had agreed to several enforceable 
milestones that relate to tank closures in the Federal Facility 
Compliance Agreement with State of Washington and Environmental 
Protection Agency regulators. These milestones set expectations for 
retrieval of more than 99 percent of the waste preparatory to tank 
closure. They also recognize that some waste may remain in the tanks. 
Our current plans are to conduct a waste incidental to reprocessing 
determination pursuant to DOE Order 435.1, Radioactive Waste 
Management, and obtain any necessary State approvals prior to closing 
these tanks. We have informed the State that we will not meet some of 
the tank closure milestone dates, and we anticipate renegotiation of 
these milestones in connection with other milestones relating to delays 
on the completion of the Waste Treatment and Immobilization Plant.
    In parallel, the DOE is engaging the public and the State in 
preparing an environmental impact statement (EIS) which will analyze 
the environmental implications of alternative means of cleanup of the 
tanks and residues. A selection of the cleanup alternative will be made 
available only after public comment on the analysis per the National 
Environmental Policy Act. Additionally, the single-shell tank closure 
plan has been submitted to State of Washington regulators in compliance 
with the Resource Conservation and Recovery Act. The State has informed 
DOE that it will defer approval of that plan until the EIS is issued.

    Senator Sessions. I don't want to rush into anything like 
that and affect people's lives and people who have ideas about 
it. But this is a great nation and we do not have an unlimited 
amount of money, and we have to use reasonable judgment on some 
of these matters.
    Some of the lawsuits that are being filed are being filed 
by people who do not want us to have any nuclear weapons at all 
and always oppose nuclear weapons, nuclear power and anything 
related to it, which is not the consensus of the Nation and 
never has been the consensus of the Nation. So we have to be 
careful that somehow we just feel like we have to spend more 
than we have to. So I hope that you will review that.
    With regard to Hanford, let me proceed and discuss some of 
the details there that concern me. The Waste Treatment Plant 
project under construction now has been examined lately as an 
extreme example, and therefore, some might say is not 
representative of the program. But we are at the point where 
DOE and Congress are beginning to receive some very thoughtful 
analysis of what went wrong or is wrong with the project. I 
would like to quote from some of the recent review findings and 
ask for your opinion.
    I would first note that the panel of outside experts which 
was chartered by DOE to conduct an after action review 
described a waste treatment project in this fashion--I would 
note, Mr. Rispoli, that was before you took office.
    So they describe it this way, ``the largest and most 
complex chemical plant design and construction project ever 
undertaken in the United States and possibly the world.'' Given 
that this is the largest DOE project currently under 
construction, I was surprised to read the following, again 
quoting from the after action review, ``DOE headquarters was 
not given copies of the weekly reports nor did they attend the 
project quarterly reviews. No EM staff at headquarters 
monitored the status or issues of the Waste Treatment 
project.''
    Now, it's important to note that this is a project whose 
cost baseline during this time was increasing from an estimate 
of about $6 billion to over $10 billion, as well as an 
accompanying schedule delay of approximately 4 years from 
original plans.
    There are over 300 Federal employees at DOE headquarters in 
the EM program office, as well as additional employees in the 
DOE's Office of Engineering and Construction Management. The 
employees in the Office of Engineering and Construction 
Management, who were receiving information about the project 
for over 2 years, accepted project status reports that 
continually indicated nearly flawless performance of the 
project against its costs and schedule baseline.
    Again, according to the action report, ``such reporting 
should have alerted reviewers that something was amiss. The 
likelihood of a multibillion dollar project remaining perfectly 
on schedule and budget month after month is exceptionally low, 
especially with the technology issues regularly raised in 
correlated briefing charts available to headquarters.''
    My question is what is your understanding of how this 
reporting situation was allowed to occur and persist? What are 
the DOE's guidelines on schedule reporting on projects of this 
magnitude? In your view, do the systems which are in place on 
cost and schedule reporting give the DOE an accurate picture of 
the current project status?
    Mr. Rispoli. Mr. Chairman, I think that report has been 
very helpful to us. I think that having read it yourself, you 
would agree that it's pretty straight from the shoulder and 
easy to understand what went wrong. I can summarize it this 
way. There were technical issues at that plant. The cost and 
schedule targets, the base lines, as we call them, were set 
very early in the engineering cycle and the technical issue 
because of its size and complexity were not fully appreciated. 
I think the report certainly reflects that.
    Senator Sessions. I don't want to interrupt your thought, 
having asked you a whole bunch of questions and now I interrupt 
you. But, I think the implication of the report and review is, 
my goodness, this was a $6 billion project that you have, it 
seemed like there was enough intensity of concern in oversight 
of it. Would you agree that's one of the thrusts of that 
report?
    Mr. Rispoli. Yes, sir. I agree that is certainly a thrust 
of the report.
    Senator Sessions. Huge.
    Mr. Rispoli. The quotes that you gave, we concur with those 
findings. I would mention that I've been in the engineering and 
construction business for over 35 years. It's absolutely 
essential that when you're running any project, whether it be 
modest or large or complex or simple, you must simply have 
monthly reviews to know what is going on. You have to have good 
data and you have to have monthly reviews and face to face 
reviews. As that report indicated, those basic tenets of good 
management of a project were not apparently being reported. We 
have corrected that.
    I, myself, since having been sworn in in August, just 
finished our second round of quarterly project reviews of all 
of our projects, of the Waste Treatment Plant. I now get bi-
weekly reports on that project, but we have completed face to 
face quarterly reviews where the site managers come in and we 
don't keep our staff out of the room.
    In fact, we welcome the staff into the room so that they 
can challenge the information that's being presented and 
question whether or not we are doing things the best way and 
whether or not the data is valid. Obviously I mentioned the 
technical, but the way the project needs to be managed, I can 
assure you we're managing it that way now. I can think of no 
other thing we could be doing that we are not doing to manage 
this project the way it's being managed given its size and 
complexity.
    Third, the report indicated what I would call institutional 
problems. You would have noted that the staff out there to 
manage this was like 100 people. There was one contracting 
officer. We have ordered that more contracting people be hired. 
We ordered that a contracting attorney be hired. We recognize 
that we had staff shortfalls so we had difficulties that 
covered the gamut from technical to project management which 
most of what you quoted was related to project management, and 
also institutional issues and we are addressing all of those 
issues.
    Senator Sessions. It does sound like you've gotten this 
under control. The way you explained it is impressive. From 
what I understand, you understand these kind of project 
management requirements from the previous experience and that 
you are bringing some order to that for which we are grateful.
    I have to tell you, the taxpayers get tired of it. I don't 
know how many billion dollars has been misappropriated here or 
could have been saved with top flight management from the 
beginning, but this is pretty tiresome. This is a lot of money 
and we may have to take--they were discussing maybe taking $3 
billion out of the defense budget. That's going to be very 
painful this year because we have to spend the money somewhere 
else, somebody says. The point of the matter is as big as this 
government is, there is not one dollar to waste and I am glad 
you're moving on top of that and we want to help you.
    Mr. Rispoli. Mr. Chairman, if I may, I would just like to 
point out, noting that Senator Graham is not with us at this 
moment, but there is a major difference between the State of 
South Carolina and the State of Washington, and that is in the 
State of South Carolina, we have already been vitrifying waste 
for a number of years. We have already been accomplishing 
actual processing of tank waste and given the significance of 
the volume and the nature of the waste at Hanford and the fact 
that we have not yet built this plant to begin processing 
waste, I understand why the people of the State of Washington, 
why we need to work with them so closely because they perceive 
the same type of thing that you do that we set out to do 
something. We have not yet succeeded, and I will assure you we 
are determined to succeed. We are absolutely committed to 
succeeding in this effort.
    Senator Sessions. One of the other things I have to ask you 
because I think the American people are entitled to an answer, 
the after action review says ``the approach''--they talk about 
lack of staff oversight that ``precluded consideration of 
potentially costly high-risk issues until they came to a head 
in 2004.''
    They said the management approach precluded consideration 
of some of these high risk issues until they came to a head in 
2004. ``The approach seems intended to allow the waste 
treatment project to proceed unimpeded long enough so that by 
the time the cost increases surfaced, senior leaders had little 
choice but to find the funds to complete the project.''
    How do you respond to that?
    Mr. Rispoli. I understand what the statement is meant to 
imply, Mr. Chairman. I think most of us would agree that's 
speculation. I don't know that anyone can conclusively state 
that that was the case. Certainly that was the speculation made 
by the review team that did that after action review.
    Senator Sessions. Have you taken any steps to take 
disciplinary action against any contractor or any DOE employees 
who presumably held positions of high trust who allowed this 
matter to get to the state it got to? Again, I know this was 
all before you took office.
    Mr. Rispoli. Yes, sir. I will tell you that when this 
problem came to the Secretary of Energy's attention, he became 
personally engaged and we began having regulatory meetings with 
Mr. Riley Bechtel, the actual owner and name giver to the 
company that we are dealing with. I can assure you that neither 
we nor they are happy with our subsequent performance on this 
effort. Some of the people that were involved are already gone. 
For example, the reviews that were not appearing at 
headquarters, the people engaged with that, many of them have 
already moved on to other things.
    There have been several changes of personnel both among the 
Federal side and on the contractor side at the site. It is my 
belief that the problems were not isolated to the site or the 
feds or the contractor at the site. I think as you can read 
about it, it was a basic failure of our ability to manage a 
project of this size.
    I again assure you that the Secretary immediately put some 
actions in place back last July when he was briefed on this 
subject. He put some very significant actions in place. Then 
after the first draft of that report where it came to be, we 
likewise did similar types of things to improve management both 
at the site and at the headquarters.
    Senator Sessions. It looks like you began to get control on 
that. We have some major decisions to make in the future. I 
hope that you will not be hesitant to speak up on the policy 
questions to the extent of the cleanup required, the issues 
that South Carolina has dealt with, and whether or not those 
same principles could be applied there, and do so in a way that 
certainly does not shut off or deny people in Washington and 
Idaho the right to be consulted and discuss it, but 
fundamentally it's our problem, I say our, Federal 
Government's, United States. Surely, if we work at it, with 
good science and care, we will make some progress.
    Mr. Ambassador, the Secretary of Energy Advisory Board 
recently issued a report titled ``Recommendations for Nuclear 
Weapons Complex of the Future.'' This report, conducted at the 
direction of Congress and completed by a panel of experts from 
outside the DOE, envisioned a vastly changed nuclear weapons 
complex.
    The report recommended shutting down current facilities and 
creating one large ``consolidated'' new location. A report was 
prepared at the direction of Congress and attempted to take a 
fresh look at the nuclear weapons complex as it exists and 
compared it to the nuclear weapons complex we need now. Among 
the principal findings of the reports were the following: ``The 
DOD does not provide DOE with unified integrated weapons 
requirements and the DOD does not appear to trust DOE's ability 
to respond with predictability.''
    I guess that's a lot like what Senator Nelson talked about 
at the beginning. Then it goes on another one: ``The DOE has 
burdened the nuclear weapons complex with rules and regulations 
that focus on process rather than mission safety.'' It goes on: 
``Cost benefit analysis and risk informed decisions are absent, 
resulting in a risk averse posture at all management levels.''
    Then in summary, they say this: ``The task force found a 
nuclear weapons complex neither robust nor agile nor responsive 
with little evidence of a master plan.''
    This report was issued in July 2005 and was presented to 
the Secretary of Energy shortly thereafter. It describes a 
nuclear weapons complex that functions minimally and that as 
currently configured will not be able to support us in the 
future, that got an apparently bad grade. Maybe you can call it 
an F. Why has the DOE not yet put forward a response or a 
rebuttal of some kind to react to this report? I would think 
that being criticized in this fashion DOE would feel compelled 
to respond at least in some way. That's pretty dramatic 
criticism, I think. Do you share any of the concerns of this 
report and can we expect a response?
    Ambassador Brooks. Yes, sir. I think we share most of the 
concerns of the report. I don't think we disagree in any major 
way on the assessment of some of the problems. What we are 
trying to do is figure out a fiscally responsive, responsible 
way to deal with the solutions. Let me take a couple of the 
points.
    With the new assignment of General Cartwright, with Under 
Secretary Krieg and Under Secretary Edelman and I, we are 
working to get greater clarity in DOD requirements. You see 
this in the very close way the two departments are working 
together on the RRW. Although this sounds like it's old news, 
it was actually after much of the analysis was done that the 
two departments worked together on the very large stockpile 
reductions announced by the President in the summer of 2004.
    We are not yet perfect in this regard, but we are 
substantially better. The issue of the internal operation of 
DOE facilities is something that the Secretary and the Deputy 
Secretary and I are personally working on. We are working on a 
formal methodology for risk, making risk informed decisions 
rather than trying to make decisions that are zero risk. I 
think the criticism that the Department has become risk averse 
is true.
    I think that fixing that while not letting the pendulum 
swing too far, if you go far enough back in history of this 
Department and predecessor organizations, you'll find 
spectacular examples of hurting people. We have not done that 
in the last 5 years. We want to improve our performance, but we 
don't want to hurt anybody. So getting that exact balance is 
something that we are still working on.
    There has been no rebuttal to this report because largely 
we agree. We agree with the report's conclusion that the RRW 
should be central. We agree with the report's conclusion that 
there should be accelerated dismantlements and we have been 
asked in this year's budget for additional funding to 
dismantle. I expect dismantlement to go up by roughly 50 
percent between 2006 and 2007. We agree with the report's 
requirement or recommendation for the consolidation of nuclear 
material.
    Where the problem comes for us is in this single complex. 
The report would take facilities at the Pantex plant in Texas, 
the Y-12 plant in Tennessee, and the plutonium-related work at 
the Los Alamos National Lab (LANL) and put it all together in a 
single facility. The report does not specify where that 
facility might be. The problem is that whatever the merits of 
doing that, it would require substantially more money than I 
think we are likely to see in the near term.
    Senator Sessions. The DOD has been through those things, 
they call them Base Realignment and Closure Commission (BRAC) 
and they claim that if you analyze it correctly, you can 
ascertain whether your savings will be worth it. A lot of times 
people say it's easier to consolidate, but consolidation may 
cost more than it's worth. But there are ways, are there not, 
to analyze whether or not you could improve efficiency and save 
by some consolidation?
    Ambassador Brooks. Yes, sir. I think the Overskei panel 
itself has some views, which I think are estimates of potential 
savings. All of their estimates are only valid to one 
significant figure. As they look over 25 years in the future, 
they believe their recommendations would save a certain amount 
of money. The problem is you save it in the last 15 years but 
you spend it in the next 10.
    Senator Sessions. That is true. Perhaps not that big a 
deal. DOD's base closures were supposed to pay for themselves 
in 5 years, or they were not going to close the base. I'm not 
sure they were accurate. Let me just follow then. But let's ask 
you this. DOD did not provide you with unified integrated 
weapons requirements. You've taken steps to make that happen?
    Ambassador Brooks. Yes, sir. We have.
    Senator Sessions. You should. If there are not sufficient 
responses there, then I think this Congress can pass 
legislation that we require the kind of consultation that's 
necessary.
    With regard to the DOE rules that focus on process rather 
than mission safety, what steps have you taken with regard to 
that?
    Ambassador Brooks. We are in the process of an extensive 
internal look to try and decide how we move beyond the present 
situation of very cumbersome safety rules without moving away 
from fundamental safety. We are looking at a variety of things. 
I met with all my Federal site managers on this subject about 
10 days ago.
    We have had a couple of additional looks, the Secretary and 
the Deputy Secretary and I met.
    Senator Sessions. You and the Secretary personally conveyed 
to your employees that you agree with the report that says that 
the risk informed decisions are absent and resulting in a risk 
averse posture?
    Ambassador Brooks. Yes, sir.
    Senator Sessions. You want that to end?
    Ambassador Brooks. Yes, sir. We have done things to fix 
that.
    Senator Sessions. It would take you a while with 
bureaucracy.
    Ambassador Brooks. I need to be candid with Congress. It 
has taken us a while to get to where we are and it's going to 
take us a while to get where we need to be, but we are 
committed to getting there.
    Senator Sessions. I'll ask both of you this. We are 
concerned that DOE has started an effort to make use of 
alternatively financed construction projects. NNSA already has 
within it a project that was started without notifying this 
committee. Apparently it has two additional projects under 
review that are ready to begin. Ambassador Brooks, how many 
projects has NNSA started? How many are under review, and how 
many are planned to begin in fiscal year 2006?
    Ambassador Brooks. There are two projects at Y-12 which are 
the two where, to be blunt, we screwed up. We notified the 
appropriators and failed to notify the authorizers. We will not 
make that mistake again.
    The projects, had we properly notified the committee, you 
would be pleased with because we are saving the taxpayers' 
money through private financing and we are going to get things 
that will help consolidate 1,200 people and get us out of a lot 
of old and expensive and poor facilities. But we should have 
notified the committee and we did not.
    There are those two. There is a project at Los Alamos. I am 
not aware of anything that is under consideration that has been 
discussed with me. That doesn't mean I won't have people 
wandering around the complex thinking of these ideas and I will 
provide to the committee anything that is under active 
consideration. I am not aware of anything new.
    I am aware that there is a general belief that where it is 
appropriate, these kind of alternate financing approaches can 
be beneficial to the taxpayer.
    Senator Sessions. Congress has to understand what is going 
on in our oversight capacity.
    Ambassador Brooks. Yes, sir.
    Senator Sessions. Really, we have some concerns here. I 
think we want to be more engaged perhaps than we have been in 
the past in how your plans are going.
    Ambassador Brooks. Certainly, sir. I do not believe there 
is anything active right now, but I will provide either 
confirmation of that fact or correction for the record.
    [The information referred to follows:]

    The process for developing an alternative for financing 
construction is as follows: The contractor develops (with oversight 
from the NNSA site office) a proposal that is submitted to the DOE 
Office of Engineering and Construction Management (OECM) for review. If 
OECM and the NNSA program believe the proposal has merit, it is 
submitted to the Office of Management and Budget (OMB) for review and 
approval. If approved, the contractor will engage a private development 
firm to secure the financing and land needed for construction. In some 
cases land is obtained via a lease or deed from NNSA or DOE. If the 
Department does not provide the land, the commitment of the government 
is generally limited to reimbursing the contractor for the reasonable 
cost of leasing the building. This commitment is usually limited at one 
year's lease cost subject to review each year if the contractor decides 
to continue to lease the building.
    Status of Current Defense Programs Projects:
Los Alamos Science Complex
    What was proposed:Bioscience Building proposed to provide LANL with 
a multipurpose facility, ``for responsive research and development and 
industrial infrastructure needed to develop, build, and maintain 
nuclear offensive forces and defensive systems.''
    Status: Disapproved the analysis found a bias towards the lease 
alternative and the total rent far exceeded total project cost. Not 
pursued.
Albuquerque Transportation and Technology Center
    What was proposed: Project provides physical facilities to be used 
in support of the Secure Transportation Asset (STA) program, including 
capabilities for STA fleet storage.
    Status: OMB approval was received and presented to Congress as an 
alternative lease under GSA. Congress approved. Contractor is seeking 
financing.
Y-12 Administrative and Technical Support Facilities
    What was proposed: Project will provide technical and 
administrative offices, cafeteria, occupational health clinic, human 
resources, administrative purchasing, visitors center and badging 
office, technical computing, and small laboratories for use by the 
contractor.
    Status: Was originally submitted as the Oak Ridge National Security 
Complex. OECM rejected the proposal, which was reworked by the 
contractor and resubmitted. The analyses confirmed a valid business 
case for choosing to proceed with the alternative of private 
development with operating lease. Reviewed and approved by OMB. 
Construction is presently underway.

    Senator Sessions. Secretary Rispoli, how many projects has 
EM started, how many are under review, and how many are planned 
for fiscal year 2006?
    Mr. Rispoli. Mr. Chairman, do you mean in the sense of 
private financing?
    Senator Sessions. Yes.
    Mr. Rispoli. I'm not aware of any, Mr. Chairman.
    Senator Sessions. Gentlemen, there may be some more 
questions that I will submit to you for the record and we'll 
keep the record open for 2 days for questions. I'm calling on 
you and I think our full committee would call on you to 
reaffirm, reestablish your relationship with the Senate to the 
extent that we know that you are focused on representing the 
taxpayers' interest in the defense of the United States, that 
you're prepared to challenge the employees and contractors, 
most of which are contract employees, in an aggressive way to 
ensure that the taxpayers are being well-served by the work.
    It's a difficult thing. Government works in ways that will 
never be perfectly efficient. They are just not going to 
happen. But a good management kind of lead can break down some 
of the barriers and can be effective. I think many of the 
problems that we have seen that clearly cost billions of 
dollars and if not dealt with have cost us billions more in the 
future represent a lack of will at the management level. With 
good, strong will and determination, you see what the problems 
are, how they can be fixed, not take surface answers, dig 
deeply and challenge some of the ideas that may be percolating 
can be real helpful to us. I thank you for your work.
    Mr. Rispoli, you have a big challenge, I think, with this 
cleanup. You know it's something we have to do. We will 
probably spend a billion dollars in Anniston cleaning up poison 
gas. I can't help but believe we could have done it for less, 
but we would have done it safely or carefully and we will 
probably spend $17 billion cleaning up poison gas facilities 
around the country. Then we have the nuclear sites.
    When you consider the flesh and bone that we need to have a 
strong national defense, this is money draining away from us. 
So if we can keep those costs at a level all the time while 
getting the same results that we need to maintain safety, you 
will make all of us over here happy. Anything else you would 
like to add before we dismiss? Any responses or anything you'd 
like to say?
    Ambassador Brooks. No.
    Mr. Rispoli. Just in closing, again, Mr. Chairman, thank 
you for your continued support and we look forward to working 
with you.
    Senator Sessions. You have a critical role in our Nation's 
defense and we look forward to working with you. Thank you. We 
are adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                DEFENSE NUCLEAR FACILITIES SAFETY BOARD

    1. Senator Sessions. Ambassador Brooks and Secretary Rispoli, in 
1988, Congress established an external oversight board--the Defense 
Nuclear Facilities Safety Board (DNFSB)--to review the safety aspects 
of Department of Energy (DOE) defense nuclear activities. In recent 
experience, however, failure to resolve technical issues raised by the 
DNFSB has resulted in the need for very costly interruptions in 
projects while construction was already underway or has required 
expensive retrofitting or redesign. The most notable examples have been 
differences over the appropriate seismic standards at the Hanford Waste 
Treatment Project, as well as the Salt Waste Processing Facility at 
Savannah River in South Carolina. There have also been differences of 
opinion between DOE and the Board regarding the appropriate safety 
classification for a plutonium facility at Los Alamos National 
Laboratory (LANL). What is the process, if one exists, for resolving 
technical issues between DOE and the DNFSB?
    Ambassador Brooks. The DOE guidelines, processes, functions, and 
responsibilities for interfacing with the DNFSB are delineated in the 
Department's Manual 140.1-1B, Interfacing with the DNFSB. This is 
derived from the DNFSB's enabling legislation which specifies the 
processes for accepting, rejecting, and implementing a DNFSB 
recommendation. The DNFSB communicates issues with the Department 
through a variety of mechanisms including formal recommendations, 
formal reporting requirements, letters requesting action and 
information, and letters providing information. The Department's 
process used to resolve a technical issue is based on the DNFSB's 
mechanism used to communicate it to the Department. In general the 
action officer develops the strategy and obtains approval from the 
responsible line manager. The Department's process encourages close 
communication with the DNFSB and its staff through briefings, 
discussions, site visits, and other informal interactions.
    With respect to safety classification of the ventilation system for 
the plutonium facility at LANL, National Nuclear Security 
Administration (NNSA) is conducting specific studies to understand the 
effectiveness of existing safety systems at LANL and to determine what 
modifications are needed to improve safety. The NNSA and LANL's 
approach for addressing the safety classification of the ventilation 
system and the status of analytical studies have been discussed with 
the DNFSB.
    Mr. Rispoli. The DOE processes, functions, and responsibilities for 
interfacing with the DNFSB are delineated in DOE's Manual 140.1-1B, 
Interfacing with the DNFSB. Usually, matters are resolved at the staff 
level. Occasionally, issues must be vetted at the executive level to be 
resolved. Ultimately, the DOE is the arbiter of the safety bases for 
its facilities.

    2. Senator Sessions. Ambassador Brooks and Secretary Rispoli, is 
there a process which allows DOE to either accept or reject the DNFSB 
recommendations prior to the need for these costly interventions?
    Ambassador Brooks. The Department's Manual 140.1-1B, Interfacing 
with the DNFSB, establishes a process for accepting and rejecting 
formal DNFSB recommendations. This process is specified in the DNSFB's 
enabling legislation. The Department's process encourages issues to be 
resolved early with the DNFSB and its staff through briefings, 
discussions, site visits, and other informal interactions.
    Mr. Rispoli. Yes, section 315 of the Atomic Energy Act sets forth 
the process by which the Secretary can either accept or reject a DNFSB 
recommendation.

    3. Senator Sessions. Ambassador Brooks and Secretary Rispoli, if 
there were a more formalized process within which the DNFSB could raise 
concerns, such as at the completion of preliminary design and final 
design, and then DOE could react to those reviews by the DNFSB--would 
that be a better system for containing the costs on these projects?
    Ambassador Brooks. The DNFSB's enabling legislation establishes a 
formal process that requires the DNFSB to review the design of a new 
defense nuclear facility before construction begins and to recommend to 
the Secretary, within a reasonable time, such modifications of the 
design as the DNFSB considers necessary to ensure adequate protection 
of public health and safety. The legislation also requires that during 
the construction of any defense nuclear facility, the DNFSB is to 
periodically review and monitor the construction and submit to the 
Secretary recommendations relating to the construction of that 
facility, as the DNFSB considers necessary to ensure adequate 
protection of public health and safety. The DNFSB and its staff are 
encouraged to participate in the Department's own review of the design 
and especially in the development of the preliminary documented safety 
analysis to avoid having significant changes identified later. The NNSA 
encourages the DNFSB site representatives to participate in the daily 
developmental activities, such as meetings to resolve design issues, 
for the same purpose.
    Mr. Rispoli. The DOE is revising its specific processes for 
improving how safety is incorporated into design of new nuclear defense 
facilities, especially in the early project planning phases. As part of 
that improvement process, the DOE is revising Order 413.3, Project 
Management for the Acquisition of Capital Assets, originally issued in 
October 2000. Based on experience and feedback, we have identified a 
number of potential improvements to clarify and strengthen the order to 
facilitate early integration of safety in the design, and the continued 
focus on safety during the construction, testing, and turnover of 
projects. A public meeting was conducted on December 7, 2005, where the 
DNFSB concerns and DOE efforts were discussed. The public meeting 
focused on the timely incorporation of safety into the design and 
construction of defense nuclear facilities, and thus DOE is improving 
its directive in this regard.

          HEALTH AND PENSION BENEFITS FOR DOE CONTRACT WORKERS

    4. Senator Sessions. Ambassador Brooks and Secretary Rispoli, in 
debate on the defense authorization bill last year, there were a number 
of proposed amendments dealing with the health and pension benefits of 
DOE contract workers. Most notably, the Senate defeated an amendment 
which would have enhanced the benefits of contractor employees at the 
DOE Rocky Flats Site by crediting them with additional service time 
against the contract. There were other amendments filed to the bill 
that seemed to be intended to ``lock in'' the health and pension 
benefits of contractor employees at other DOE sites. One amendment was 
structured to prohibit DOE from entering into any contract for work at 
a DOE site if the contract would have resulted in benefits for contract 
workers which were less lucrative than those provided to current 
contract workers. Why does DOE play such an intimate role in the 
establishment of the benefits packages offered by its contractors?
    Ambassador Brooks. NNSA accomplishes its mission primarily through 
its contractors and their highly skilled and specialized workforce. 
Because of the rather unique skills these employees possess they 
generally work for the NNSA contractor throughout their careers. Even 
when the government competes its management and operating (M&O) 
contracts the majority of the employees simply transfer to the new M&O 
contractor. In this way the government retains the benefit of the 
skilled workforce and the flexibility afforded by the workers being 
employees of the contractor rather than the Federal Government. In many 
instances, the critical skills necessary to accomplish the NNSA mission 
can be found only in a limited number of places, e.g. the scientists 
and engineers at our national laboratories.
    Virtually all of the costs incurred by the M&O contractor, 
including the costs associated with pensions and benefits, are 
reimbursed to the contractor by the government. So, while the NNSA does 
not treat contractor employees as its own, the long-term relationship 
and the reimbursement of virtually all costs has led to NNSA working 
closely with its contractors on the design of the pension and benefits. 
Contracts typically require approval by the contracting officer of the 
pension and benefit plan documents, and of any changes to those plans 
that increase the costs reimbursed by the government.
    Mr. Rispoli. The DOE requires all prime contractors to meet 
Employee Retirement Income Security Act, U.S. Department of Labor, and 
U.S. Internal Revenue Service requirements as pension and benefit plan 
sponsors, while assuring judicious expenditure of public funds. 
Additional requirements are outlined in the DOE Acquisition Regulation 
(Code of Federal Regulations, Title 48, Chapter 9) and in the DOE Order 
350.1 Chg 1, Contractor Human Resource Management Programs. Because 
these benefits represent considerable costs to the Department and are 
reflected in the terms and conditions of our contracts, the DOE 
provides oversight to ensure appropriate pension and health plans are 
developed and administered. The DOE does not manage or administer any 
contractor pension or health plans, nor do we have representatives on 
any governing boards.
    The DOE is committed to fulfilling its obligations under its 
contracts regarding the reimbursement of contractor employee pension 
and health benefit costs, but is focusing on methods to mitigate the 
cost volatility and liability growth and to improve the predictability 
of the DOE annual cost reimbursement obligations for contractor pension 
costs.

    5. Ambassador Brooks and Secretary Rispoli, is this approach 
unique, compared with the contracting approaches of other Federal 
departments?
    Ambassador Brooks. While I believe that the National Aeronautics 
and Space Administration (NASA) utilizes a similar approach to the 
management and operation of its facilities, I cannot speak with 
certainty about the approach other agencies use.
    Mr. Rispoli. The DOE is one of nine agencies that use Federally 
Funded Research and Development Centers (FFRDCs) to conduct its 
research and scientific work. According to the Congressional Research 
Service (CRS), these centers were developed during and after World War 
II as hybrid organizations to meet a Federal need through the use of 
private organizations. At that time, there was recognition of a 
national emergency requirement to recruit and retain scientific and 
engineering talent for the war effort. DOE's Oak Ridge and LANL were 
established at that time as government-owned, contractor-operated 
(GOCO) facilities, with hiring and employee pension and benefits 
programs developed and put in place by the contractor operator/
employer, not the Federal Government. This system of GOCO facilities, 
with a contractor workforce, has been used by the DOE since that time 
to carry out many of the DOE's major mission efforts, including weapons 
production, scientific research and environmental cleanup.
    The DOE is unique among Federal agencies with respect to the extent 
it utilizes the GOCO approach to accomplishing the agency's missions. 
However, the Department of Defense (DOD) and other agencies, including 
the NASA (the Jet Propulsion Laboratory, operated by Caltech), the 
Federal Aviation Administration, the National Institutes of Health, the 
Nuclear Regulatory Commission, and Department of Homeland Security also 
have FFRDCs operated by contractors with contractor employees. In all 
agencies, Federal contracting officers are responsible for making 
determinations of allowable human resource management contractor costs, 
consistent with the Federal Acquisition Regulation and applicable 
contract terms and conditions.

    6. Ambassador Brooks and Secretary Rispoli, can you provide 
examples of other Federal agencies that have a similar level of 
involvement in managing workforce issues associated with the employees 
of its contractors?
    Ambassador Brooks. I do not have detailed insight into other 
Federal agencies to sufficiently address this question.
    Mr. Rispoli. The DOE and eight other Federal agencies use FFRDCs to 
conduct scientific research and development work. The DOE has 16 large 
research laboratories which are FFRDCs. The FFRDCs are operated by 
contractors (e.g., educational institutions, nonprofit entities, or 
for-profit entities), with non-Federal workforces and non-Federal pay 
and benefits systems. In all agencies, Federal contracting officers are 
responsible for making determinations of allowable human resource 
management contractor costs, consistent with the Federal Acquisition 
Regulation and applicable contract terms and conditions.
    In response to rapidly increasing costs for employee pension and 
benefits, most of these FFRDC contractors have restructured their 
benefits programs. According to the Government Accountability Office 
(GAO) and the CRS, FFRDCs at other agencies are using defined 
contribution pension plans (e.g., 401k type plans) and like most 
employers, do not provide supplemental medical care coverage for those 
retirees who qualify for Medicare. On April 27, 2006, DOE issued DOE 
Notice 351.1, Contractor Employee Pension and Medical Benefits Policy 
that sets forth the DOE's policy on reimbursement of costs for 
contractor employee benefits. Under this policy, new employees will be 
offered market-based pension and medical plans.

               SECURITY COSTS AND MATERIALS CONSOLIDATION

    7. Senator Sessions. Ambassador Brooks and Secretary Rispoli, a 
number of committees of Congress, including this one, have urged DOE in 
the strongest possible terms to move forward on the consolidation of 
the storage of nuclear materials across the DOE complex. Congress has 
urged this consolidation in the face of escalating costs to secure 
these materials against the threats that we now realize exist since the 
attacks of September 11. What is DOE doing to address the cost of 
security?
    Ambassador Brooks. The NNSA has been moving aggressively to improve 
the security of nuclear materials, while continuing our stewardship of 
the nuclear weapons stockpile. The NNSA has recently completed the 
relocation of Category I/II nuclear materials from the Criticality 
Experiments Facility at LANL to more secure facilities within LANL and 
at the Y-12 National Security Complex and the Nevada Test Site. Current 
consolidation efforts include eliminating the need for a Category I/II 
materials at Sandia National Laboratories site in Albuquerque, and 
construction of new facilities at the Y-12 National Security Complex 
(Y-12). The new facilities will allow the consolidation of highly 
enriched uranium into facilities that are easier to protect and more 
efficient to operate.
    To date, over 90 metric tons of surplus highly enriched uranium 
have been eliminated as part of the fissile materials disposition 
program. Disposition of additional excess materials is necessary to 
support the Y-12 onsite consolidation effort, and to support the future 
de-inventory of Lawrence Livermore National Laboratory. The NNSA is 
working with other departmental elements to establish disposition paths 
for materials that are excess to national security requirements. Each 
of these actions enhances our security posture, reduces security costs, 
or allows us to avoid unnecessary security upgrades at existing 
facilities.
    Mr. Rispoli. Consolidation of nuclear materials to fewer sites and 
disposition of nuclear materials are two strategies that will do the 
most to reduce the future cost of security. Also, EM continues to 
evaluate the application of new technologies to reduce the recurring 
costs associated with manpower intensive operations. Since 2001, EM has 
consolidated special nuclear materials from 14 material access areas 
(MAAs) to 3 MAAs, which are facilities that store Category I materials. 
Additionally, the DOE has established the Nuclear Materials Disposition 
and Consolidation Coordination Committee (NMDCCC) of which EM is an 
active member. The purpose of the NMDCCC is to ensure integration of 
individual program disposition and consolidation efforts thus 
identifying opportunities for resource sharing.

    8. Senator Sessions. Ambassador Brooks and Secretary Rispoli, 
specifically, what are you doing within your program to bring about the 
consolidation of materials and activities which will drive down program 
costs?
    Ambassador Brooks. The NNSA has taken action to eliminate Category 
I/II nuclear materials from multiple facilities in the nuclear weapons 
complex and we are making progress in consolidation and disposition of 
nuclear materials. However, materials consolidation is a complex issue 
requiring consideration of site mission requirements, the availability 
of materials processing, storage, transportation, and disposition 
capabilities, and negotiation with State governments. The NNSA holds a 
large inventory of excess nuclear materials. For some of these 
materials, we have the programs and processes in place to disposition 
them. Our programs to blend down highly enriched uranium (HEU) have 
resulted in eliminating over 90 metric tons of HEU.
    To continue our progress, additional disposition capabilities are 
needed. We are constructing facilities at the SRS to convert excess 
plutonium to nuclear fuel for use in electric power generation. 
However, there are many materials that cannot be converted to nuclear 
fuel and until disposition pathways are established, consolidation 
options are limited. Consolidation to a site without disposition 
capabilities would be counterproductive, consuming limited packaging, 
secure transportation, and security resources, but without leading to 
the elimination of the material. The NNSA is working to establish new 
disposition and consolidation capabilities, such as the highly enriched 
uranium facilities at the Y-12 National Security Complex, and plutonium 
disposition facilities at the SRS. Meanwhile, we are working with other 
departmental elements to optimize the use of existing disposition 
capabilities. For example, the NNSA has identified approximately 7.5 
tons of nuclear materials that can be processed at SRS, using currently 
available capabilities.
    Mr. Rispoli. The DOE has established the NMDCCC to address these 
issues. The Under Secretary for Energy, Science, and Environment, the 
Administrator of the NNSA, and the Principal Deputy Assistant Secretary 
for EM comprise the executive steering committee and report to the 
Deputy Secretary. This committee's initial focus is on establishing a 
path forward for surplus plutonium at the Hanford Site to avoid 
significant funding expenditures at Hanford to meet the latest security 
requirements.

    9. Senator Sessions. Ambassador Brooks and Secretary Rispoli, the 
DOE NMDCCC is, as I understand it, the third manifestation of a 
committee established by DOE to address this issue, under different 
names and different chairmen, and yet none of these committees have yet 
issued or implemented any recommendations resulting in actual 
consolidation of nuclear material between DOE sites. When will we see 
any results from these efforts?
    Ambassador Brooks. Nuclear material management within the DOE has 
been very fragmented, with each program setting its own priorities, 
leaving a legacy of orphaned materials. We recognize the consequences 
of this stovepipe style of management. Communication among programs has 
improved significantly, partly as a result of Department-wide 
consolidation committees. The strategic plan, under development by the 
NMDCCC, will address the issue of departmental management of nuclear 
materials. The strategic plan will create a framework for resolving 
some of the more complex material disposition and consolidation 
problems faced by the Department. In conjunction with the development 
of the strategic plan, the NMDCCC is working to develop, in priority 
order, implementation plans to address specific consolidation/
disposition initiatives. The first priority is development of an 
implementation plan for consolidation of plutonium from the Hanford 
Site in Washington, and excess plutonium from the national 
laboratories.
    Mr. Rispoli. The DOE's NMDCCC does have a new chairman with an 
extensive background in nuclear materials management. This committee is 
making progress on a variety of issues, and is undertaking to 
thoroughly evaluate consolidation and disposition issues and thereafter 
to include recommendations to the Department as appropriate. Both the 
NNSA and the Office of EM are active members of the NMDCCC. The 
principal mission of this committee is to provide a forum to perform 
cross-cutting nuclear materials disposition and consolidation planning 
with the objective of developing implementation plans for consolidation 
and/or disposition as appropriate, so that out-year programmatic and 
security costs to the Department are minimized.

            CONSTRUCTION IRREGULARITIES AT Y-12 IN TENNESSEE

    10. Senator Sessions. Ambassador Brooks, at its Y-12 Site in 
Tennessee, DOE is constructing the Highly Enriched Uranium Materials 
Facility. The principal purpose of this facility is to provide a 
consolidated location for the receipt and storage of this Nation's 
stockpile of highly enriched uranium. The new facility will meet all 
safety and environmental requirements--which current storage locations 
do not--and will provide a substantially more hardened and secure 
facility for enriched uranium storage. DOE recently had to halt 
construction of this facility, however, when it was discovered that the 
reinforcing steel called for in the approved facility design was not 
being installed. What is the status of this project?
    Ambassador Brooks. Construction activity is gradually resuming at 
the Highly Enriched Uranium Materials Facility, with the intention to 
resume full construction activities by early April depending on the 
rate at which workers can be recalled or rehired. As of March 7, 2006, 
about a third of the project's work force had returned to the site to 
restart steel placements and some non-building structure construction, 
such as utility accesses and concrete pads that are required for the 
project but not part of the building itself. The contractor is also 
putting up structural steel in the mechanical support areas of the 
building. This setback was indicative of a quality-control problem that 
required a number of fixes. The contractor has taken aggressive steps 
to improve the systems, processes, and procedures for project 
management, quality control/assurance, and line management oversight 
for this project. In parallel, the NNSA has increased its oversight of 
the project to ensure that the contractor's assurance systems, 
processes, and procedures are achieving the necessary changes in the 
project's performance.

    11. Senator Sessions. Ambassador Brooks, what is your evaluation of 
the extent of the problem and what corrective actions are being 
implemented?
    Ambassador Brooks. Although peer reviews of the technical solutions 
are not complete, it appears likely that all the non-compliant 
conditions can be corrected without tearing out the existing 
construction and starting anew (the large margins in the initial design 
plus the quality of the conforming work are large contributors to this 
likely outcome). Normal construction activity will resume during the 
week of April 3, 2006.
    The quality assurance problems have been given personal attention 
by the senior corporate executives of all contractors and all involved 
have reviewed and strengthened their oversight systems, processes, and 
procedures for this project. This includes many changes in personnel 
including: (1) the replacement of the quality assurance inspector who 
failed to identify the missing reinforcing steel bars prior to concrete 
placement, (2) the addition of numerous oversight and quality control/
assurance personnel, and (3) the addition and replacement of project 
and construction management personnel. With respect to the NNSA, the 
Federal Project Director has assigned a dedicated team of five 
personnel to oversee all aspects of this project to replace the matrix 
support he had before these issues surfaced. Numerous changes have been 
made to reflect the Federal and contractor oversight procedures used at 
Tritium Extraction Facility (TEF) at the SRS, which have proved to be 
successful.

    12. Senator Sessions. Ambassador Brooks, how are the contractor and 
project managers being held accountable for this interruption in 
construction activities and any associated costs arising from it?
    Ambassador Brooks. The NNSA has formally notified the Y-12 Site 
Office of NNSA's intention to reflect this poor performance and the 
effectiveness of corrective actions in the fiscal year 2006 award fee 
determination for BWXT Y-12, the management and operating contractor. 
Implicit in this notification is that we will evaluate BWXT Y-12 in 
part on the effectiveness of its efforts to hold accountable and to 
recover costs to the greatest extent possible from the construction 
subcontractor (with whom the Federal Government has no privity of 
contract). A multi-year Performance Based Incentive is in place with a 
primary focus on project baseline cost and schedule performance. Once 
the upcoming Baseline Change Proposal is submitted and approved the 
Performance Baseline Incentive will be adjusted accordingly to 
establish the correct incentive and work to complete the newly 
established baseline on or before the baseline schedule and within or 
under the cost baseline. Finally, the contractor has implemented 
personnel actions including replacing senior project and construction 
management personnel.

             PRICE ANDERSON ACT VIOLATIONS AT LIVERMORE LAB

    13. Senator Sessions. Ambassador Brooks, last week the DOE issued a 
notice of violation to LLNL for nuclear safety violations. 
Specifically, the notice of violation stated that the lab ``did not 
appropriately respond to observed and changing radiological conditions; 
and radioactive material was allowed to be removed from the site 
without fully understanding the contamination levels and without the 
appropriate controls.'' The events cited in the notice took place in 
2004. Can you explain why the process of issuing this safety citation 
took so long?
    Ambassador Brooks. The recent LLNL safety citation had a longer 
timeline than most enforcement actions due to some unique circumstances 
surrounding the case. Specifically, this enforcement case was extended 
over time to include an initial key event in August 2004, a second key 
event in April 2005, and several ongoing and longstanding programmatic 
compliance issues.
    In June 2004, a routine DOE/NNSA Price-Anderson Enforcement Program 
Review identified that LLNL was not effectively implementing key 
aspects of its own Price-Anderson self-regulatory program that the 
Department relies on for applying enforcement discretion. Specifically, 
if a contractor is effective at identifying and aggressively fixing 
nuclear safety noncompliances before any real consequences, the 
Department will typically refrain from issuing a citation.
    Following this review DOE/NNSA decided to allow LLNL a 6-month 
period (June 2004 to January 2005) to improve its self-regulating 
performance partly due to the limited immediate consequences of the 
identified issues. A January-February 2005 follow-up review indicated 
LLNL had made limited progress in addressing the identified issues. In 
addition, an investigation into an August 2004 radiological event 
involving a Mobile Waste Characterization Facility (MOVER) indicated 
that LLNL's ineffective performance was now resulting in undesirable 
consequences. In March 2005, DOE/NNSA representatives decided to expand 
the scope of the MOVER investigation and include other longstanding 
nuclear safety performance issues. This investigation was completed in 
August 2005 and included an April 2005 LLNL event involving the 
unauthorized removal of radioactive contamination from the site.
    In late October 2005, an informal enforcement conference was held 
with LLNL senior management consistent with DOE/NNSA protocols. This 
informal hearing allows the contractor to comment on the factual 
accuracy of the investigation, discuss underlying causes and corrective 
actions, and request mitigation towards any pending citation. A 
proposed citation was completed in December 2005. In February 2006, the 
citation was issued under my signature.

    14. Senator Sessions. Ambassador Brooks, your letter to the 
Director of Livermore, conveying the notice stated the following:

          ``I am also disappointed by the longstanding and recurring 
        nature of many of the deficiencies associated with the 
        violations. This recurring aspect casts significant doubt on 
        the Laboratory's ability to effectively analyze and correct 
        performance problems.''

    What measures are you putting in place to address this larger 
issue?
    Ambassador Brooks. In my letter to the LLNL Director, I conveyed my 
disappointment in the Laboratory's track record of failing to correct 
identified deficiencies in a timely manner. Senior Laboratory managers 
acknowledged the need for significant improvements in the Laboratory's 
safety culture. We are committed to addressing identified concerns and 
have been working aggressively over the past year on corrective actions 
to prevent reoccurrence and ensure that high-quality safety programs 
are in place at LLNL.
    Our actions to date have included:

        <bullet> A thorough causal analysis of both the MOVER and 
        Phosphorous spill events has determined the underlying root 
        causes resulting in the implementation of new radiation 
        protection procedures, employee training, incident response 
        communication, and quality assurance processes.
        <bullet> Strengthening senior Laboratory management 
        accountability and instituting safety contracts with senior 
        managers to hold individuals personally accountable. These 
        contracts, required by the Director of the Laboratory, 
        stipulate that senior managers personally certify safety 
        practices within their organizations. This includes conducting 
        senior management walk-downs and detailed physical reviews of 
        Laboratory-wide hazard activities. Laboratory managers are 
        working to develop and implement a culture that encourages all 
        employees to stop work at any time if safety could possibly be 
        compromised.
        <bullet> Instituted a new Laboratory Office of Institutional 
        Performance Analysis (OIPA) that now tracks all external 
        assessments and required closeout dates. OIPA also analyzes 
        performance data to identify potential issues and applies a 
        ``lessons learned'' strategy systemically across the 
        laboratory. A new senior management council regularly reviews 
        the work of OIPA, providing additional quality assurance. The 
        Lab's internal Price-Anderson Amendments Act (PAAA) office 
        structure and program expectations have been aggressively 
        strengthened. PAAA personnel have implemented new causal 
        analysis, verification, and validation procedures.
        <bullet> Specific improvements in other areas such as 
        configuration management, the formality of operations within 
        our nuclear facilities, incident response and safety 
        procedures, and radiation protection program staffing to 
        enhance and strengthen nuclear safety at LLNL.
        <bullet> From the DOE and NNSA perspective, I have increased 
        the level of Federal oversight at the Livermore Site Office, 
        assisted by nuclear safety experts from the NNSA Chief of 
        Defense Nuclear Safety Office, to monitor and assess LLNL 
        implementation of nuclear safety requirements. I will evaluate 
        Laboratory performance in complying with nuclear safety 
        requirements and the effectiveness of corrective actions as 
        part of the annual contractor performance review.

                             TEST READINESS

    15. Senator Sessions. Ambassador Brooks, the National Defense 
Authorization Act for Fiscal Year 2004 requires DOE to achieve a level 
of ``test readiness'' which would allow the resumption of underground 
nuclear testing within 18 months of a Presidential decision to conduct 
a test. Under the law, DOE is to achieve this level of readiness no 
later than October 1, 2006. I understand, however, that Congress has 
not appropriated sufficient funds to allow the NNSA to support this 
deadline. Is it true that DOE forecasts it cannot meet the statutory 
deadline?
    Ambassador Brooks. While the NNSA has made considerable progress in 
improving its test readiness posture over the last 4 years, reducing 
the readiness time from 36 months to 24, Congress did not provide the 
funding requested by the President to achieve an 18-month test 
readiness posture by the end of fiscal year 2006, as required by 
section 3113 of the National Defense Authorization Act for Fiscal Year 
2004. Therefore, test readiness posture at October 1, 2006, will be 
about 24 months.

    16. Senator Sessions. Ambassador Brooks, in your view, does a 
readiness posture of 24 months represent an acceptable level of 
technical risk?
    Ambassador Brooks. Yes, we believe that this significant 
improvement to 24 months is adequate for meeting our national security 
needs.

    17. Senator Sessions. Ambassador Brooks, in other words, since a 
problem would likely have to be severe for this country to debate a 
return to nuclear testing, when faced with a serious problem such as 
this, in your technical judgment is it prudent to have to wait 2 
additional years until we are ready to conduct a test to diagnose the 
problem?
    Ambassador Brooks. As previously discussed, Congress did not fully 
provide the funds requested by the President to achieve an 18-month 
test readiness posture by the end of fiscal year 2006. However, we do 
believe that 24 months is adequate for meeting our national security 
needs.

                      RELIABLE REPLACEMENT WARHEAD

    18. Senator Sessions. Ambassador Brooks, at the direction of 
Congress, DOE is currently conducting a joint feasibility study--with 
the DOD--on a RRW. This study will analyze a technical approach to 
warhead design and maintenance which could potentially eliminate many 
of the most costly and hazardous materials which are used in the 
current nuclear stockpile. The nuclear weapons experts at the national 
laboratories appear to be confident that it will be possible to field a 
RRW without needing to resume underground nuclear weapons testing. Do 
you share their confidence and why?
    Ambassador Brooks. Yes, I do share the confidence of those who 
believe that we will be able to field a RRW without needing to resume 
underground nuclear testing. While I am not a nuclear weapon designer, 
I trust the judgment of expert nuclear weapon designers who inform me 
that it is possible to field a warhead without underground testing, 
especially if that warhead has ties to a previously tested 
configuration. The intent of the RRW program is to identify nuclear and 
non-nuclear replacement components that could be fielded without 
nuclear testing. Feasible RRW options will be based on our database of 
historical nuclear tests as well as from the experience of the 
remaining designers and engineers who have successfully fielded our 
current stockpile. The advances of our Stockpile Stewardship Program 
(SSP) enable us to better understand nuclear explosive performance 
through modeling, simulation, and experiments. The RRW designs are 
explicitly chosen for higher margin in primary performance so that 
certification analysis based on quantification of margins and 
uncertainties will provide greater confidence than that provided by 
today's high yield-to-weight designs as they continue to age or are 
modified as part of the refurbishment program. That combination of 
historical test information, modern SSP tools (e.g., high energy 
density physics and the Advanced Simulation & Computing program), 
improved margins, experienced designers and engineers, along with 
relaxed military requirements for yield-to-weight ratios, will enable 
us to design and certify nuclear components with high confidence. As a 
result, fielding RRW systems will likely reduce the possibility that 
the U.S. will need to conduct a nuclear test for certification or to 
diagnose or remedy a stockpile reliability problem.

                   PIT PRODUCTION AND PLUTONIUM AGING

    19. Senator Sessions. Ambassador Brooks, the United States ceased 
production of plutonium pits when Rocky Flats was closed in 1989 and is 
now trying to reconstitute a modest production line for pits at LANL. 
What challenges--technical, operational, or cultural--is DOE 
encountering in trying to increase the rate of production of pits at 
Los Alamos?
    Ambassador Brooks. There are many challenges confronting the DOE 
and the LANL in increasing the rate of production of pits at the 
plutonium facility at TA-55/PF-4. The PF-4 facility was designed over 
30 years ago to support plutonium research and development instead of 
the current multiple missions that include pit production. Major 
challenges to improve the pit production capacity of PF-4 include the 
physical limitations of the facility, equipment configuration and 
installation, personnel qualification and retention, and continued 
support of multiple plutonium missions. The TA-55/PF-4 facility 
supports a number of important national missions in addition to pit 
production. For example, continuing Pu-238 missions supporting the 
NASA, both conventional and enhanced surveillance activities for pits, 
special recovery activities, non-proliferation activities, and small-
scale physics testing. All of these activities use TA-55/PF-4 space 
that limits the ability to expand the pit manufacturing mission. The 
NNSA and LANL are working to resolve these challenges, and are 
committed to establishing a pit production capacity of 10 W88 pits per 
year in fiscal year 2007.

    20. Senator Sessions. Ambassador Brooks, will the production at Los 
Alamos be sufficient to sustain the stockpile over the long-term?
    Ambassador Brooks. The NNSA plans to increase the LANL pit 
manufacturing capacity to 30-40 pits per year by the end of fiscal year 
2012. This production rate, however, is insufficient to meet DOD 
projected requirements. The NNSA submitted a report to Congress in 
January 2005 that identified the need for at least a 125-pit per year 
capacity starting in 2021. This is based on a 60-year pit lifetime and 
a stockpile based on the planned 2012 stockpile size approved by the 
President and provided to Congress in a June 2004 report. Although we 
expect more refined pit lifetime estimates by the end of fiscal year 
2006, future pit production capacity requirements are likely to be 
driven more by stockpile transformation than legacy pit lifetimes. We 
are currently working with the DOD to develop long-term stockpile 
quantities and transformation rates that would provide the requirement 
basis for a long-term pit production capacity. Once we validate those 
requirements through the Nuclear Weapons Council, we will work with 
Congress to establish a plan for an infrastructure that can support the 
longer-term need for pits.

    21. Senator Sessions. Ambassador Brooks, in 2005, Congress directed 
DOE to initiate more detailed study of the aging of plutonium pits used 
in nuclear weapons to determine how long we might expect the current 
pits to last. What is the status of this investigation?
    Ambassador Brooks. By the end of fiscal year 2006, we will have 
system-specific pit lifetime estimates that have been subject to peer 
review between the weapons physics laboratories (LLNL and LANL) and 
external review by a panel of scientific experts known as JASON.

                       SETTING BUDGET PRIORITIES

    22. Senator Sessions. Secretary Rispoli, I am concerned that DOE 
spending plans are influenced by the most vocal outside groups, or by 
compliance agreements made years ago, and not through a careful 
analysis of what environmental situations pose the greatest risk, and 
how much cleanup is needed at each site in relation to the future use 
of the site. Under the current program, is the DOE focused on cleaning 
up the worst problems?
    Mr. Rispoli. The fiscal year 2007 budget request reflects a crucial 
balance of reducing risk and completing cleanup--an integrated strategy 
to meet the program's objectives. Overall, our request puts a high 
priority on safely dealing with tank waste, special nuclear materials, 
and spent nuclear fuel disposition--our highest risk materials--while 
preserving our commitments to site completion and closure.

    23. Senator Sessions. Secretary Rispoli, is the DOE cleanup budget 
prioritized by risk or are budgets set by the deadlines in the cleanup 
agreements?
    Mr. Rispoli. In formulating the budget request, we prioritize 
cleanup work based on a judicious integration of risk, statutory and 
regulatory requirements (including cleanup agreements), 
interdependencies with communities and other DOE locations, and 
contract and workforce efficiencies. Our aim is to forecast the needs 
of the program in meeting the mission objectives of risk reduction and 
cleanup completion while being good stewards of the U.S. taxpayer's 
funds.

    24. Senator Sessions. Secretary Rispoli, the cleanup agreement 
between DOE, the EPA, and Washington State--called the Tri-Party 
Agreement--was originally signed in 1989. A panel of outside experts 
reviewing the Hanford cleanup characterized this agreement as follows: 
``the milestones (in the agreement) were established well before all 
the underlying science and technology had been developed.'' In 
addition, according to reports, Under Secretary of Energy David Garman 
made the following statement in a speech on February 16, 2006:

          ``Let's just be honest here; we're going to be in the legacy 
        cleanup business for a while. I think it's important for us to 
        get honest about that. To get honest about what our 
        capabilities are. To be honest about what kinds of timeframes 
        we're looking at.''

    In your view, does it make sense to review the regulatory 
agreements in place governing these cleanups--either on a periodic 
basis or in cases where substantial new data or science is now 
available?
    Mr. Rispoli. The Hanford TPA Action Plan contains a process and a 
form by which changes can be made to the TPA as the Hanford cleanup 
progresses. Processes for changes to milestones are contained in all of 
our regulatory agreements. The DOE and its regulators continuously 
review these agreements for needed changes to milestones that may 
result from technological advances and other issues.
    Under the terms of the Hanford TPA, there have been approximately 
440 approved change requests, six amendments, and three modifications 
known as ``Directors Determinations.'' Within these changes, the 
parties have agreed to add approximately 860 new milestones, delete 
approximately 160 milestones, and extend approximately 200 milestones. 
Essentially, these agreements in particular (and others in general) are 
revised as situations warrant.

    25. Senator Sessions. Secretary Rispoli, if the drive to execute 
these cleanups on their original schedules is causing a substantial 
upward pressure on the cost of cleanup, does DOE have an obligation to 
revisit the existing commitments?
    Mr. Rispoli. We are obligated to look at any opportunity that would 
provide a similar or increased level of cleanup and risk reduction at 
an improved schedule or lower cost to the U.S. public. We invite input 
from our cleanup partners and other stakeholders that would enhance the 
cost-effective completion of our mission objectives while meeting their 
expectations.

                    WASTE INCIDENTAL TO REPROCESSING

    26. Senator Sessions. Secretary Rispoli, 2 years ago, Congress 
conducted substantial debate on the issue of residues or ``heels'' left 
in nuclear waste storage tanks. Congress ultimately granted DOE the 
authority to leave some small amount of this residue in place, after 
DOE had physically emptied as much nuclear waste from each tank as 
possible. This waste was defined as ``waste incidental to 
reprocessing.'' How has DOE used this new authority?
    Mr. Rispoli. The DOE is implementing Section 3116 of the Ronald W. 
Reagan National Defense Authorization Act (NDAA) for Fiscal Year 2005 
at the SRS and the Idaho National Laboratory (INL), the two sites 
covered by the legislation.
    On January 17, 2006, the Secretary made the first waste 
determination under section 3116 for salt waste disposal at SRS, after 
an approximately 10-month long consultation with the NRC. DOE is now 
pursuing the necessary permits from the State of South Carolina.
    DOE is currently consulting with the NRC on two other waste 
determinations involving stabilized residual waste. The first concerns 
INL tank residual waste, tanks, and associated components. The second 
concerns residual waste in tanks at SRS.

    27. Senator Sessions. Secretary Rispoli, the new authority requires 
DOE to consult with the NRC in these matters. Has the NRC found this 
approach to tank cleanup to be protective of public health?
    Mr. Rispoli. In late December 2005, the NRC issued a Technical 
Evaluation Report (TER) for the DOE draft waste determination for salt 
waste disposal at the SRS. This NRC assessment was limited to the salt 
waste disposal determination prepared by DOE. The NRC concluded that 
there is reasonable assurance that DOE can meet the criteria provided 
in the Ronald W. Reagan NDAA for Fiscal Year 2005 in section 3116 
(a)(1), (a)(2), and (a)(3)(A)(i), provided that certain assumptions 
made in DOE's analyses are verified via monitoring. The NRC reached 
this conclusion based on information provided by DOE to the NRC in 
letters dated March 31, June 30, September 15, and September 30, 2005.
    There are three applicable criteria for determining that certain 
wastes from reprocessing are not high-level waste. NRC's position on 
each criterion follows:

        <bullet> ``Given that there is reasonable assurance that DOE's 
        proposed approach can meet the other criteria in the NDAA, 
        including the performance objectives of 10 Code of Federal 
        Regulations (CFR) 61, Subpart C [Licensing Requirements for 
        Land Disposal of Radioactive Waste], and that there appears to 
        be no other properties of the waste that would require deep 
        geologic disposal, the NRC finds that there is reasonable 
        assurance that Criterion One [that the waste does not require 
        permanent isolation in a deep geologic repository for spent 
        fuel or high-level radioactive waste] of the NDAA can be met.''
        <bullet> ``[T]he NRC has concluded that there is reasonable 
        assurance that DOE can meet Criterion Two [that the waste has 
        had highly radioactive radionuclides removed to the maximum 
        extent practical] with its proposed approach.''
        <bullet> ``[T]he NRC has concluded that there is reasonable 
        assurance that DOE can meet Criterion Three, which by reference 
        incorporates the performance objectives of 10 CFR 61, Subpart 
        C.''

    The NRC's conclusions presented in the TER are based on the 
information provided by DOE. The NRC asserted, ``If, in the future, DOE 
determines it is necessary to revise its assumptions, analysis, design 
or waste management approach and those changes are important to meeting 
the criteria of the NDAA, DOE should consult once again with the NRC 
regarding the enclosed TER.''

    28. Senator Sessions. Secretary Rispoli, this authority does not 
apply to the waste tanks at Hanford in Washington. Is there something 
unique about the chemistry of the waste in those tanks or could the 
extension of this authority to Hanford tank waste result in an improved 
and more cost effective cleanup for the Hanford tanks?
    Mr. Rispoli. While different reprocessing technologies and unique 
radionuclide removal programs were employed at Hanford, the SRS, and 
the INL, the chemical make-up of the waste does not preclude extension 
of this authority to Hanford tank waste. In fact, with the exception of 
the final waste form for some of the wastes, the strategy for 
retrieval, treatment, and disposal of tank wastes at the Hanford Site 
is consistent with that of the SRS.

     BUDGET PROPOSAL TO HIRE A PROJECT MANAGEMENT AGENT AT HANFORD

    29. Senator Sessions. Secretary Rispoli, the fiscal year 2007 
budget request includes a proposal to hire a contractor--referred to as 
a ``project management agent''--to oversee or manage the work that is 
being done by another contractor (Bechtel) at the Hanford Waste 
Treatment Plant (WTP). This reads like an unusual proposal to hire one 
government contractor to manage another government contractor. Could 
you please explain the proposal that is contained in the budget request 
for the hiring of this new ``project management agent'' at Hanford?
    Mr. Rispoli. The project management agent would be what is termed 
in the commercial construction industry as the owner's representative, 
with the DOE being the owner. During peak construction and 
commissioning of the WTP, this agent will have up to five full-time 
senior personnel, each with expertise in managing large projects of 
similar complexity. The agent will serve in an advisory role to the DOE 
and will not direct Bechtel National, Inc., the Hanford WTP contractor. 
The agent would advise DOE on: design conformance with contract 
requirements; cost containment, quality assurance, and safety 
compliance; effectiveness of management processes such as change 
control and invoice reviews; and contingency issue anticipation. The 
goal is for the agent to provide a broad range of experience and advice 
to the DOE's Federal Project Director overseeing the WTP project.
    This type of service is common in the engineering and construction 
industry, and DOE has successfully employed this type of service on 
several past projects.

    30. Senator Sessions. Secretary Rispoli, what is Congress being 
asked to fund and, if funded, what organizational structure would 
result?
    Mr. Rispoli. The DOE's fiscal year 2007 budget request for the 
major construction of the WTP, Subproject 01-D-416, includes proposed 
funding to obtain project management oversight assistance and personnel 
to serve in an advisory role to the DOE's Federal Project Director for 
the WTP project. The Federal Project Director reports to the Manager, 
Office of River Protection. The goal is for the advisor(s) to provide a 
broad range of experience and advice to the Federal Project Director 
and to the Headquarters office dedicated to oversight of this project, 
to help assure successful completion of the WTP.

    31. Senator Sessions. Secretary Rispoli, DOE is also requesting 
funds to hire additional Federal staff to manage the WTP project. Will 
the Federal staff then oversee both contractors?
    Mr. Rispoli. The DOE Federal Project Director and other senior 
Federal staff will oversee both the WTP contractor, Bechtel National 
Inc., and the project management agent.

    32. Senator Sessions. Secretary Rispoli, DOE has now put in place a 
number of review teams and senior management teams, as part of the 
``recovery'' plan at the WTP. Could you please provide a diagram or 
narrative explaining the current reporting and organizational structure 
in place for this project?
    Mr. Rispoli. The DOE's accountability for the Hanford Waste 
Treatment and Immobilization Plant project flows from the Deputy 
Secretary, as the Secretarial Acquisition Executive, to the Assistant 
Secretary for EM, to the Chief Operating Officer for EM, to the 
Manager, Office of River Protection, to the Federal Project Director. 
The Office of Project Recovery serves in an oversight and advocacy role 
at the Headquarters' Office of EM. The Director for the Office of 
Project Recovery reports directly to the Assistant Secretary for EM.

                       REEXAMINATION OF RESPONSES

    33. Senator Sessions. Secretary Rispoli, in your invitation to 
appear, you were asked to address, as a component of your testimony, a 
number of policies and issues confronting the EM program which you were 
not able to address during your confirmation last year, but which you 
had committed to address upon assuming your duties as Assistant 
Secretary. Since you did not provide those views as part of your 
testimony for the hearing, I am renewing the subcommittee's request for 
this information by resubmitting these questions, originally asked of 
you during your confirmation proceedings. Please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: The 
Assistant Secretary for EM is responsible for cleanup activities 
occurring at DOE sites across the country. What are your views on the 
roles and responsibilities of field managers relative to those of EM 
headquarters managers?
    Mr. Rispoli. The field managers are responsible for ensuring that 
the cleanup work is done in a safe and effective manner, and in 
compliance with applicable laws and regulations. They are responsible 
for managing the projects imbedded in the contracts through which the 
Office of EM accomplishes its work. Headquarters managers are 
responsible for developing policy and providing guidance that affects 
field operations. Headquarters managers also provide oversight of the 
field activities to ensure the work is carried out consistent with DOE 
and EM policies.

    34. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What 
is your view of EM's organizational structure?
    Mr. Rispoli. The Office of EM is currently in the process of 
modifying its headquarters organizational structure to place greater 
emphasis on acquisition and project management, safety, and technical 
expertise. Our primary goal is to manage our projectized portfolio with 
90 percent of our projects performing on, or better than, cost and 
schedule targets. We must do this safely, for the protection of the 
workers, the site, and the communities where our sites are located. The 
proposed organizational structure better supports these goals by 
establishing clear lines of responsibility and accountability to 
improve overall program performance.

    35. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Is 
there a well-delineated and consistent chain of command and reporting 
structure from the field staff to headquarters staff, from the 
contractors to DOE officials, and from the Office of EM to the 
Secretary of Energy and other DOE officials?
    Mr. Rispoli. The Office of EM is in the process of modifying its 
headquarters structure to improve program performance. One method of 
accomplishing this is to establish clear lines of responsibility and 
accountability at the most appropriate level within programs and 
projects. Our proposed organizational structure solidifies roles and 
responsibilities of each office in EM. Clearly understood roles and 
responsibilities will improve interaction between field and 
headquarters staff, and between Federal and contractor personnel. 
Unchanged will be the line chain of command, which is exercised by the 
Chief Operating Officer at Headquarters, directly to each EM site 
manager. I intend to ensure all staff know their decisionmaking 
authority and understand the chain of command for elevating issues when 
necessary.

    36. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Do the 
field offices have enough autonomy and flexibility to work with the 
contractors at the sites to get the cleanup finished in a safe and 
efficient manner? In your opinion, should the field offices have more 
autonomy than they currently have?
    Mr. Rispoli. I believe sufficient autonomy and flexibility exist 
within field offices to enable Federal staff to work with site 
contractors effectively in completing cleanup activities in an 
efficient manner. We are focusing on improving the understanding that 
field office staff and headquarters staff have of their roles and 
responsibilities within this process to maximize the effective use of 
their capabilities. The entire focus is based upon the fundamental 
principle that headquarters staff exist to assist the Chief Operating 
Officer and the line organization to get the job done safely and 
effectively.

    37. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: The EM 
program has used a variety of contracting methods, including management 
and operating cost plus award fee contracts, cost plus incentive fee 
contracts, and performance-based, fix-priced contracts. What is your 
view of the role of these, or other, contracting methods, and what 
principles do you believe DOE should follow when entering into EM 
contracts in the future?
    Mr. Rispoli. As I stated to the Senate Armed Services Committee in 
June 2005, there should be a common, disciplined approach to our 
acquisitions and contract management for the Department's EM projects. 
This approach should offer the necessary latitude for tailoring each 
contract to suit the individual challenges and risks associated with 
each situation.
    Since most of EM's cleanup activities are accomplished through the 
use of a contract workforce, our acquisition strategies, contract 
usage, and contract management are of paramount importance. That is why 
EM's headquarters reorganized structure includes a Deputy Assistant 
Secretary for Acquisition and Project Management, whose function will 
be to lead development of acquisition strategies and contract vehicles 
that set clear responsibilities, specific tasks, and facilitate 
improved contract management by commercial contractors as well as by 
Federal onsite officials.
    When entering into contracts in the future, I expect the type of 
contract to be selected on a case-by-case basis considering the scope 
and complexity of the work, the uncertainties and risks involved, the 
period of performance, and the incentive arrangement. This includes 
appropriate use of management and operations arrangements, cost-plus-
incentive-fee contracts, performance-based contracts, and fixed-price 
contracts for projects with well-defined work scope.
    I expect to continue aggressive contracting strategies to clean up 
and close sites that have clearly defined scopes of work and end 
states. The goal is to write solicitations that incentivize safety, 
innovation, cost savings, and schedule acceleration, where appropriate, 
and to complement our emphasis on a strengthened project management 
program.

    38. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: The 
DOE has offered changing views, over the lifetime of the EM program, as 
to whether the program should focus on cleaning up the sites now within 
its purview or whether the program should have an ongoing mission of 
cleaning up all surplus DOE facilities, as the facilities become 
excess, over time. Do you believe there is a point at which the EM 
program should stop taking surplus buildings, facilities, or waste 
streams from other components of the DOE into the EM program for 
decommissioning, decontamination, and disposal?
    Mr. Rispoli. The DOE recognizes that it has significant 
environmental liabilities that are not currently the responsibility of 
any program. The DOE is currently in the process of evaluating options 
for handling these unassigned and unfunded environmental liabilities.

    39. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What 
requirements would you place on the other DOE programs before you would 
take additional buildings, facilities, or waste into the EM program?
    Mr. Rispoli. The DOE is currently in the process of evaluating 
options for handling unassigned and unfunded environmental liabilities 
and expects to identify a path forward by the end of fiscal year 2006. 
As part of the transfer of any facility from one program to another 
program for decontamination and decommissioning, I would envision that 
the transferring program would be required to stabilize that facility 
so that any immediate risk would be mitigated. A complete set of 
transfer requirements will be developed as part of the process of 
resolving this issue.

    40. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Do you 
believe it is an appropriate policy for the EM program to ``go out of 
business'' at some point and leave the remainder of newly generated 
waste as the responsibility of existing DOE programs? If not, how 
should newly generated wastes be managed and which program (EM or the 
program generating the waste) should budget for these activities?
    Mr. Rispoli. Yes, I believe it is the appropriate policy that the 
DOE program that generates the waste is responsible for its management 
and disposal. This is standard industry practice, since it provides an 
internal driver for the generator to develop a cost-effective waste 
management program that incorporates waste minimization approaches. As 
a result, over the last several years, responsibility for management of 
newly generated waste has been transferred to the generator or landlord 
program at the various sites. The Office of EM maintains responsibility 
for the management of newly generated waste at sites where it is the 
landlord program.

    41. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: In 
developing the National Defense Authorization Act for Fiscal Year 2006, 
this committee did not adopt the proposal in the President's budget 
request of transferring certain EM activities from the EM program into 
the NNSA. In the committee's view, such a transfer would not comply 
with the legislation which established the NNSA. What is the DOE's 
interpretation of these provisions of the NNSA Act which relate to the 
possible transfer of cleanup activities into the NNSA? What is your 
interpretation?
    Mr. Rispoli. Title XXXII of the National Defense Authorization Act 
for Fiscal Year 2000 (Public Law 106-65 as amended, the ``Act'') 
established the NNSA as a separately organized agency within the DOE. 
The Act provides that the Under Secretary for Nuclear Security serves 
as the Administrator of NNSA. The Secretary of Energy may transfer to 
NNSA ``any . . . mission or function that the Secretary, in 
consultation with the Administrator and Congress, determines to be 
consistent with the mission of the [NNSA].'' (NNSA Act Sec. 3291(b)). 
(Section 3291(c) of the Act allows, but does not require, the Secretary 
to ``transfer responsibility for'' any environmental remediation or 
waste management activity to another non NNSA element of the DOE.) 
Furthermore, the Act provides that the Administrator shall ensure that 
the NNSA complies with all applicable environmental statutes and 
requirements, and requires that the operations and activities of NNSA 
are carried out in a manner that protects public health, safety, and 
the environment. (NNSA Act Sec. Sec. 3261, 3211). In light of the 
Secretary's authority to transfer functions to NNSA that are consistent 
with NNSA's mission and the Administrator's responsibility for ensuring 
that NNSA complies with environmental requirements and protects the 
environment, the DOE's interpretation is that the NNSA Act allows the 
Secretary to transfer these functions to NNSA after consulting with the 
Administrator and Congress, and that the Administrator would have the 
authority and responsibility for carrying them out. My interpretation 
is the same as the DOE's.

    42. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: During 
her confirmation hearing before this committee on June 7, 2001, Ms. 
Jessie Hill Roberson, your predecessor in this position, testified that 
it was her goal to ``make changes that have lasting and permanent 
impact on this program.'' Do you believe that the EM program is best 
served, at this point in time, by a continuation of the focus on 
accelerated cleanup begun under Assistant Secretary Roberson?
    Mr. Rispoli. Yes. As has been demonstrated in the past, EM's 
cleanup philosophy has proven to deliver results. Cleanup at as many as 
nine sites will be completed by the end of 2006, including Rocky Flats, 
Fernald, Miamisburg, Columbus, Ashtabula, Lawrence Berkeley National 
Laboratory, Lawrence Livermore National Laboratory--Main Site, Sandia 
National Laboratories, and Kansas City Plant. In addition to these 
important site completions, EM has completed many of the activities 
focused on addressing the highest risks in tank waste management and 
nuclear material stabilization. EM will continue to maintain a focus on 
completion of site cleanup, which eliminates so-called ``hotel costs'' 
in order to optimize cost savings, with an additional eight sites or 
areas (Argonne National Laboratory--East, Brookhaven National 
Laboratory, East Tennessee Technology Park at Oak Ridge, Energy 
Technology Engineering Center, Lawrence Livermore National Laboratory-
Site 300, Inhalation Toxicology Laboratory, Pantex Plant, and the 
Stanford Linear Accelerator Center) projected to be completed in the 
2007 to 2009 timeframe.

    43. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: One of 
the initiatives undertaken by Assistant Secretary Roberson was the 
development of end states documents for each major site in the EM 
program, depicting the residual contamination levels remaining at each 
site after the completion of cleanup. What is the status of the 
development of end states for each major site?
    Mr. Rispoli. End state vision documents have been developed for 
almost all of the major sites. The Hanford end state document is 
nearing completion, and all other major sites have completed their 
final draft end state documentation. Some sites have been exempt from 
the process because the sites are scheduled to close in 2006 or 2007. 
Each end state document takes into account residual contamination 
levels and the appropriate alternatives for remediation. The process of 
evaluating and refining end states will continue as new information 
becomes available, new remediation technologies are developed, and 
alternatives for future land use emerge. These documents will be used 
to inform the applicable regulatory processes in determining ultimate 
cleanup goals and associated remediation activities.

    44. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Were 
these documents intended to receive the concurrence of State and 
Federal environmental regulators at each site, and if so, which sites 
received such concurrence?
    Mr. Rispoli. The end state documents reflect consultation among DOE 
and State and Federal environmental regulators. They were formulated in 
cooperation with the regulators and in consultation with affected 
governments, including Tribal nations, as well as stakeholders. The 
existing regulatory process, i.e., the Comprehensive Environmental 
Response, Compensation, and Liability Act, is the appropriate vehicle 
to provide for such consultation. The purpose of the consultative and 
iterative processes is to provide that the final end state vision for 
each site will have consultation with all affected parties.

    45. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What 
is the status of these documents at sites which did not receive 
concurrence?
    Mr. Rispoli. No sites have received concurrence on their end states 
vision documents. The end state documents are intended to reflect a 
consultation among DOE, and State and Federal environmental regulators. 
DOE continues to work with the regulators to develop end states that 
are protective, sustainable, and appropriate for the future use of the 
site and surrounding areas.

    46. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Did 
the EM program intend for the end states documents to be the starting 
point of a discussion with regulators about changes to the existing 
regulations and compliance agreements that guide cleanup? If so, would 
you pursue such discussions with regulators?
    Mr. Rispoli. The end state documents are intended to be the product 
of a consultative process involving regulators and stakeholders that 
uses risk-informed decisionmaking to ensure that sites are remediated 
to a level that is protective, sustainable, and appropriate for the 
future use of the site and surrounding areas. The development of these 
documents is one way in which the DOE continues to work with its 
regulators and stakeholders to achieve the best, mutually beneficial 
cleanup. The DOE has cleanup agreements in place at most of its sites; 
these agreements were developed in accordance with laws governing 
cleanup, such as the Comprehensive Environmental Response, 
Compensation, and Liability Act, the Resource Conservation and Recovery 
Act, and the Atomic Energy Act. DOE, in cooperation with the regulators 
and stakeholders, may consider revising existing cleanup agreements if 
the parties agree that such changes substantially improve the 
effectiveness of the cleanup.

    47. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: One of 
the promises of accelerated cleanup was that by applying additional 
funds in the near-term to achieve the early completion of cleanup at 
certain sites, more funds would be available for the remaining sites 
where cleanup is expected to take longer. In other words, if DOE got a 
few sites done and out of the way, there would be more room in the 
budget to tackle other sites. Do you believe this promise of 
accelerated cleanup has yet been realized, and if not, why not?
    Mr. Rispoli. The DOE has achieved several successes in its 
accelerated cleanup efforts, including the physical cleanup of the 
Rocky Flats Site along with up to eight additional sites planned for 
completion in 2006 and as many as another nine sites by 2009. There 
remains a strong focus on cleanup and closure.

    48. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Do you 
believe that the EM program has conducted sufficient technology 
development so that a treatment and disposition pathway exists for all 
identified waste streams under the program?
    Mr. Rispoli. The Office of EM conducts selected technology 
development and deployment activities to support the treatment and 
disposition pathways for most of the identified waste streams under the 
program. EM will continue developing new or improved technologies that 
address limitations in current characterization and treatment 
capabilities. Further, because of the long time frame associated with 
cleaning up and closing the sites, EM will be conducting technology 
development activities well into the future, including those for wastes 
currently without disposition pathways. The technology development 
focus is on treating and disposing of high-level tank wastes, stored 
transuranic waste, deactivation and decommissioning, and groundwater 
and soils.

    49. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: If any 
orphan waste streams--those for which there is no identified 
disposition pathway--exist within the EM program, what technology 
development or other efforts would you undertake to address them?
    Mr. Rispoli. To directly support the Office of EM's accelerated 
cleanup, the EM Technology Development and Deployment (TD&D) Program is 
aligned and driven by site cleanup priorities. The technology 
development focus is on treating and disposing of high-level tank 
wastes, stored transuranic waste, deactivation and decommissioning, and 
groundwater and soils. The field sites and headquarters staff identify, 
select, and fund higher-risk, higher-cost technology alternative 
projects that are outside of a site's prime contract and/or baseline 
scope/schedule. If an orphan waste stream(s) project meets the 
selection criteria, then one or more alternative project(s) would be 
funded to resolve it. But, since orphan streams are those of unique or 
unusual compositions, and tend to be site-specific and of limited 
quantities, they might not meet the criteria for funding through the 
mechanism of TD&D alternative projects. Instead, technology development 
projects to address the orphan waste streams, when identified and 
requested by the sites, are then addressed on a case-by-case basis, and 
if approved, are funded through the Technical Assistance Program. This 
includes two closely related programs: quick-response technical 
consulting (Technical Expertise) and short-duration technology projects 
(Technical Solutions Projects). As designed, the direct assistance is 
provided by EM Headquarters to develop lower-cost, lower-risk technical 
improvements to accelerate closure of the sites. I believe it is 
essential for our complex cleanups to have a TD&D program. This is an 
essential component of our ability to address limitations, for example, 
in current radioactive waste characterization and treatment 
capabilities.

    50. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What, 
in your view, are the continuing requirements for developing and 
fielding new technologies, and what are the highest priorities?
    Mr. Rispoli. The Office of EM program's technology investment 
strategy is linked specifically to site Performance Management Plans 
and life-cycle baselines, site end states, and corporate performance 
measures. The strategy is based upon eliminating technology gaps or 
deficiencies in capabilities, reducing technological risk in current 
site baselines, improving performance, and lowering costs of current 
operations. Technology investments are selected using criteria focused 
on integrating the resulting product with site operations to ensure the 
greatest impact to the EM mission in terms of risk and cost reductions. 
The technology development focus is on treating and disposing of high-
level tank wastes, stored transuranic waste, deactivation and 
decommissioning, and groundwater and soils.

    51. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: During 
fiscal year 2006, the EM program is scheduled to complete cleanup at 
the following closure sites: Rocky Flats, Mound, and Fernald. In each 
case, DOE must decide how to administer or transfer the post-closure 
pension and medical benefits for cleanup workers at these sites. DOE 
has indicated that it intends to keep the responsibility for 
administering these benefits with the cleanup contractors, post-
closure. Has DOE evaluated any cost efficiencies that would be gained 
by pooling the sponsorship and functional management of post-closure 
benefits into a single purpose contract; one that could be competed for 
and awarded to one of a number of companies that specialize in the 
administration of such benefits?
    Mr. Rispoli. Physical work was completed at the Rocky Flats site 
last October. Sponsorship and management and administration for the 
pension and welfare benefit plans for retirees are in the process of 
being transferred from the Rocky Flats contractor, Kaiser-Hill Company, 
L.L.C (K-H) to a K-H corporate affiliate, CH2M Hill Hanford Group, Inc. 
Work at the Mound site is due to be completed in September 2006 and at 
Fernald in September 2006 or sooner. Prior to that time, the Department 
will determine what direction to provide to the contractors regarding 
the disposition of the pension and retiree benefit plans at those 
sites.
    In instances where a site is closed without a successor contractor, 
in the near-term, DOE intends to budget sufficient funds to settle 
pension plan obligations at the earliest practicable date. DOE is 
analyzing alternative vehicles to provide long-term contractor retiree 
medical benefits.
    DOE has not evaluated the costs of pooling the sponsorship and 
functional management of post-closure pension benefits into a single 
contract. The Department has not pursued this because the pension 
benefit plans still will require appropriate legal sponsors. The 
Department neither can legally sponsor qualified pension plans for 
private sector employees nor assign sponsorship authority it does not 
have to an entity that has no corporate relationship to contractor 
employees.

    52. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: 
Assuming the EM program is funded at the level of the fiscal year 2006 
budget request, will there be any sites under the EM program where 
sufficient funding will not be available to make payments to employee 
pension plans at the levels mandated under the Employee Retirement 
Income Security Act (ERISA)?
    Mr. Rispoli. The Office of EM's fiscal year 2006 budget request and 
subsequent fiscal year 2006 congressional appropriations provide 
sufficient funding to make payments to employee pension plans at the 
levels mandated under the ERISA.

    53. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Are 
you aware of any sites under the EM program where making ERISA-mandated 
pension plan payments will result in such a drain on available funding 
that the furlough or involuntary separation of employees at the site 
will be necessary?
    Mr. Rispoli. The Office of EM's fiscal year 2006 budget request and 
subsequent fiscal year 2006 congressional appropriations provide 
sufficient funding to make payments to employee pension plans at the 
levels mandated under the ERISA without work force impacts.

    54. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Your 
duties will involve the review and approval of workforce restructuring 
plans at sites under the EM program. Please describe your general 
approach and philosophy in reviewing workforce restructuring plans. 
Given the nature of their work, cleanup workers are fundamentally in a 
position of ``working themselves out of a job.'' How do you believe 
this particular challenge is best handled from both a corporate 
perspective and as a manager of these workers?
    Mr. Rispoli. The Office of EM reviews workforce restructuring plans 
to ensure that activities are conducted in accordance with DOE policies 
and directives. EM's objective is to ensure that the contractor's 
strategy effectively accomplishes the site's mission by retaining 
employees with the skills, knowledge, and abilities necessary to 
effectively and safely meet current and future missions within budget. 
As a result of cleanup progress and the subsequent reprioritization of 
work scope, workforce restructurings will continue, as we strive to use 
skills efficiently and in a way that minimizes involuntary separations. 
Individuals involuntarily separated from positions performing cleanup 
work for DOE contractors may qualify for preferences in hiring at DOE 
facilities and additional recall or bumping rights under applicable 
collective bargaining agreements.

    55. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: The 
Federal Government and the State of Idaho have been in dispute 
regarding whether and to what extent DOE is obligated to remediate 
substantial quantities of buried waste that underlie the INL. What is 
the status of any pending litigation involving this dispute and what is 
the DOE position regarding its cleanup obligations for this waste?
    Mr. Rispoli. This issue of the proper interpretation of provisions 
of the 1995 Settlement Agreement with regard to buried waste dispute 
has been tried before the Idaho District Court and the parties are 
awaiting that court's decision. The DOE's position is that the cleanup 
of buried waste is governed by the three party cleanup agreement among 
DOE, the EPA, and the State of Idaho (the 1991 Federal Facility 
Agreement and Consent Order) and not by the 1995 Settlement Agreement.

    56. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: How is 
DOE addressing any environmental risks associated with this waste?
    Mr. Rispoli. The DOE is addressing environmental risks associated 
with buried waste under the three-party cleanup agreement among DOE, 
the EPA, and the State of Idaho (the 1991 Federal Facility Agreement 
and Consent Order). DOE completed a draft Remedial Investigation and 
Baseline Risk Assessment for the buried waste and submitted it to the 
regulators in December 2005. DOE is also conducting certain waste 
retrieval activities and plans to complete additional studies and 
develop a remedial decision by 2008. All of these activities are being 
conducted according to processes established under the Comprehensive 
Environmental Response, Compensation, and Liability Act and the 
National Contingency Plan.

    57. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: 
Completion of cleanup at a number of EM sites depends on the timely 
shipment of quantities of transuranic waste to the Waste Isolation 
Pilot Plant (WIPP) in New Mexico for disposal. In some cases, DOE is 
under regulatory deadlines for completing shipments to WIPP. What 
regulatory deadlines does the EM program currently face related to WIPP 
shipments and what is the current progress against those deadlines?
    Mr. Rispoli. The DOE currently faces regulatory deadlines related 
to shipments of transuranic (TRU) waste to the WIPP at the INL and the 
LANL.
    INL must comply with milestones contained in the Idaho Settlement 
Agreement. The milestones in this agreement that DOE currently faces 
are:

        <bullet> After January 1, 2003, a running average of no fewer 
        than 2,000 cubic meters per year shall be shipped out of the 
        State of Idaho over 3-year period intervals (thus 6,000 cubic 
        meters by December 31, 2005). INL shipped 6,000 cubic meters of 
        TRU waste to the WIPP by February 21, 2006, and as of April 1, 
        2006, INL had shipped over 6,500 cubic meters of TRU waste to 
        WIPP since January 2003. DOE will need to ship an additional 
        6,000 cubic meters by December 31, 2008.
        <bullet> Additionally, a milestone requires that DOE shall ship 
        all TRU waste now located at the INL, currently estimated at 
        65,000 cubic meters in volume, to the WIPP or other such 
        facility by a target date of December 31, 2015, and in no event 
        later than December 31, 2018. In total, as of April 2006, INL 
        has made over 1,300 shipments and disposed of more than 10,400 
        cubic meters of TRU waste at the WIPP.

    The Los Alamos Compliance Order on Consent signed on March 1, 2005 
with the State of New Mexico, states that LANL's environmental 
restoration will occur by fiscal year 2015. This is tied to a DOE 
planning commitment that all legacy TRU waste will be removed by 2012. 
As of April 2006, LANL has shipped more than 140 shipments consisting 
of more than 800 cubic meters of TRU waste to the WIPP and continues to 
consistently make three to four shipments per week to the WIPP. It is 
estimated that LANL has approximately 10,000 cubic meters of TRU waste 
remaining to be shipped to WIPP.

    58. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Are 
you aware of any issues that jeopardize DOE's ability to meet these 
deadlines? If so, what is DOE doing to address these issues?
    Mr. Rispoli. I am not aware of any issues that would affect the 
remaining two Idaho Settlement Agreement Milestones regarding shipment 
to the WIPP of certain stored waste from the State of Idaho. These 
milestones involve meeting deadlines for waste movement, including 
shipping 2,000 cubic meters per year out of the State of Idaho and 
shipping all stored TRU waste at the INL to WIPP by December 31, 2015, 
or not later than December 31, 2018.
    The commitment in the Los Alamos Consent Order to complete 
environmental restoration by fiscal year 2015 is tied to a DOE planning 
commitment to complete legacy waste disposition by 2012. We believe 
that the new contract we have with Los Alamos National Security LLC (a 
limited liability corporation made up of Bechtel National, Inc., the 
University of California, BWX Technologies, Inc., and the Washington 
Group International, Inc.) will address these performance issues, offer 
us new opportunities to continue significant cleanup and risk 
reduction, and deliver progress towards a new baseline. To that end, 
senior officials within the DOE have asked for the involvement of 
senior executives of the parent companies of the new contractor to 
deliver efficiencies and a baseline that can withstand scrutiny and can 
be validated by the DOE. We assure you that we remain committed to the 
Los Alamos Compliance Order on Consent with the State of New Mexico 
(March 2005) and its environmental milestones.

    59. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What, 
if any, additional permits or permit modifications are needed for WIPP 
in order to meet these deadlines?
    Mr. Rispoli. The INL and the LANL have contact-handled transuranic 
(CH-TRU) waste and waste which may be determined to be remote-handled 
transuranic (RH-TRU) waste that need to be disposed of at the WIPP. 
Getting CH-TRU and RH-TRU from INL and LANL to WIPP contributes to 
meeting the Idaho Settlement Agreement and the LANL Consent Order 
deadlines.
    Currently, WIPP is only authorized to receive CH-TRU. DOE is in the 
process of seeking a permit modification from the New Mexico 
Environment Department (NMED) to allow for disposal of RH-TRU at WIPP, 
as well as changes in requirements for the disposal of CH-TRU as 
required by section 311 of Public Law 108-137.

    60. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: 
Cleanup under the EM program occurs not only at closure sites, but at 
DOE national laboratories and other sites with ongoing missions. These 
locations are sometimes distinguished from the closure sites by use of 
the term enduring sites. Does the EM program approach cleanup 
differently at closure sites than at enduring sites?
    Mr. Rispoli. No. The Office of EM's approach is the same at both 
closure sites and enduring sites. The operating principles for EM are 
to reduce risk and environmental liabilities, in accordance with 
applicable statutes and regulations. The EM program continues to 
eliminate significant environmental, health, and safety risks at all of 
its sites. At all of its sites, EM performs risk reduction and site 
closure or cleanup completion (in the case of sites with enduring 
missions) with its regulators and stakeholders to determine the most 
appropriate remediation schedules and approaches. EM continues to stay 
focused on its cleanup mission across the DOE complex and is working 
aggressively to enhance and refine project management approaches and to 
address the challenges inherent in this multifaceted environmental 
cleanup program.

    61. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: How 
should the EM program best manage the interfaces between its cleanup 
operations and other ongoing missions at the enduring sites?
    Mr. Rispoli. The Office of EM works closely with the Field Office 
Managers, who have responsibility for all of the missions that are 
conducted at the site, and the other Program Secretarial Offices in the 
DOE to ensure that the cleanup mission is conducted safely and remains 
focused on reducing both risk and environmental liabilities. When it 
has been necessary, Memoranda of Understanding have been put in place 
for issues at several sites that clarify responsibilities for complex 
situations.

    62. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Does 
the EM program prioritize work differently at enduring sites, and if 
so, in what way?
    Mr. Rispoli. No. The Office of EM's approach is the same at both 
closure sites and enduring sites. The operating principles for EM are 
to reduce risk and environmental liabilities, in accordance with 
applicable statutes and regulations. The EM program continues to 
eliminate significant environmental, health, and safety risks at all of 
its sites. At all of its sites, EM performs risk reduction and site 
closure or cleanup completion (in the case of sites with enduring 
missions) with its regulators and stakeholders to determine the most 
appropriate remediation schedules and approaches. EM continues to stay 
focused on its cleanup mission across the DOE complex and is working 
aggressively to enhance and refine project management approaches and to 
address the challenges inherent in this multifaceted environmental 
cleanup program.

    63. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: 
Secretary Bodman testified before this committee that DOE sites will 
not achieve compliance with the current design basis threat until 2008. 
Given the seriousness of the need to secure nuclear materials, both 
abroad and at home, do you believe that this is a sufficiently rapid 
response to the threats currently outlined by the intelligence 
community, and against which DOE has agreed it must defend at its 
nuclear sites?
    Mr. Rispoli. The DOE continually assesses information from the 
Intelligence Community as it relates to protection strategies employed 
at our facilities. While DOE has continued to strengthen the 
capabilities to defend against potential threat levels at our Category 
I quantity nuclear facilities, these facilities and our critical 
nuclear materials are at low risk based upon today's required 
protection criteria. We are continuing implementation of security 
enhancements through changes in tactics, manpower, and technology. Some 
of the security-effective and cost-effective solutions to design basis 
threat changes rely on capital improvements that require several years 
to design, procure, install, and/or construct. These active and passive 
technological capabilities, coupled with the sites' protective forces, 
provide a robust security posture ensuring our critical facilities and 
materials do not become an elevated risk overnight. Likewise, this 
robustness enables us to take immediate compensatory measures should 
there be an unexpected, sudden change to the actual threat.
    Periodic assessments, enhancement plans, and plans to eliminate 
targets provide an appropriate security posture at our facilities to 
ensure low risk. We are proceeding at the appropriate pace to ensure 
threats will be met in an effective, timely, and efficient manner.

    64. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: What 
actions would you undertake to consolidate and more rapidly secure any 
special nuclear material existing within the EM program?
    Mr. Rispoli. The Office of EM is focused on the disposition of 
special nuclear materials. Our consolidation decisions are closely 
connected to the ultimate disposition of these materials.
    Additionally, the Principal Deputy Assistant Secretary for EM, is 
Chairman of the DOE's NMDCCC. Identifying a path forward for the 
plutonium-239 at our Hanford Site is EM's highest priority for the 
NMDCCC chiefly because of the urgency associated with removal of this 
material in order to avoid the expenditure of significant funding at 
Hanford to meet the latest security requirements.

    65. Senator Sessions. Secretary Rispoli, please reexamine your 
response to the Senate Armed Services Committee provided on June 24, 
2005, and provide your informed views on the following question: Do you 
agree that, even with a primary focus on accelerating cleanup, it is 
still an essential responsibility of the EM program to secure these 
materials against the threats existing now?
    Mr. Rispoli. The protection of weapons-usable nuclear materials is 
an essential responsibility of the Office of EM. As we clean up the 
former nuclear weapons complex, we are meeting this responsibility at 
our sites with appropriate safeguards and security systems, equipment, 
and manpower.
    Through the NMDCCC, the DOE is evaluating consolidation options to 
further secure these critical nuclear materials and minimize costs to 
maximize cleanup resources.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                        COMPLEX RECONFIGURATION

    66. Senator Bill Nelson. Ambassador Brooks, the 2001 Nuclear 
Posture Review (NPR) calls for a transition from a threat-based nuclear 
deterrent with large numbers of nuclear weapons to a deterrent based on 
capabilities with a smaller nuclear weapons stockpile and ``greater 
reliance on the capability and responsiveness of the DOD and the NNSA 
infrastructure to respond to threats.'' Last June, the Energy Advisory 
Board issued a report, also known as the Overskei Report, suggesting a 
variety of ways to make the complex more responsive and more efficient. 
The Overskei Report concludes that the current NNSA plan to modernize 
the production complex in place was not effective and that the current 
complex ``is neither robust, nor agile, nor responsive, with little 
evidence of a master plan.'' Neither DOE nor NNSA has responded to this 
report. What is the responsive infrastructure required by the NPR?
    Ambassador Brooks. The NNSA responsive infrastructure required by 
the NPR is the industrial capability for weapon design, certification, 
manufacturing, surveillance, maintenance, and disposition required to 
support our nuclear deterrent in an uncertain world. A responsive 
infrastructure provides a national security capability to respond to a 
major technical stockpile issue or a geopolitical change before an 
adversary could gain an advantage. Specifically, it allows us to 
replace large numbers of deployed and reserve weapons so that the 
augmentation or hedge component of the stockpile would not need to be 
maintained at current levels.
    The NPR established responsive infrastructure as the third leg of 
the ``New Triad,'' making it equally important to strike and defensive 
forces as part of our nuclear security strategy. The NNSA 
infrastructure vision is a responsive set of national laboratories 
complemented by modern production centers of excellence. This 
responsive infrastructure includes the people, the science and 
technology base, the facilities, and equipment to support a right-sized 
nuclear weapons enterprise as well as practical and streamlined 
business practices that will enable us to be agile and respond rapidly 
to emerging needs. This responsive infrastructure must provide proven 
and demonstrable capabilities, on appropriate timescales, and in 
support of DOD requirements, to:

        <bullet> Ensure needed warheads are available to augment the 
        operationally deployed force;
        <bullet> Identify, understand, and fix stockpile problems;
        <bullet> Design, develop, certify, and begin production of 
        refurbished or replacement warheads;
        <bullet> Maintain capability to design, develop, and begin 
        production of new or adapted warheads, if required;
        <bullet> Produce required quantities of warheads;
        <bullet> Dismantle warheads; and
        <bullet> Sustain adequate underground nuclear test readiness.

    67. Senator Bill Nelson. Ambassador Brooks, what steps has NNSA 
taken to implement all or any of the recommendations in the Overskei 
Report?
    Ambassador Brooks. The DOE has been actively reviewing the 
recommendations of the Secretary of Energy Advisory Board (SEAB) 
Nuclear Weapons Complex Infrastructure Task Force to prepare a 
comprehensive plan for transforming the nuclear weapons complex. Many 
of the recommendations are consistent with initiatives that the NNSA 
was already considering or is implementing. These initiatives include 
design of a RRW, consolidation of Special Nuclear Materials (SNM), 
accelerating dismantlement of retired weapons, managing the evolving 
complex to enhance responsiveness and sustainability, and establishing 
an Office of Transformation. With respect to the Consolidated Nuclear 
Production Complex (CNPC), the Complex 2030 preferred scenario 
consolidates production activities to distributed centers of excellence 
that minimize the number of facilities and size of the total and 
security footprint at each site. The cost profile and risk of 
implementation to ongoing activities are reduced compared to a CNPC 
implementation. For example, the CNPC option offers significant 
challenges in the selection of a location that would accept the large 
quantities of SNM and production activities, and how to minimize costs 
particularly during the construction of the CNPC. The concept of 
consolidated production centers of excellence allows NNSA to maintain 
expertise developed over decades of meeting stockpile deliverables, 
and, at the same time, allow us to more effectively manage costs and 
risks over the long-term. The NNSA seriously evaluated the CNPC 
alternative but found it to be both more costly in the near-term and 
risky to implement (e.g., adverse impact to ongoing activities like 
life extension programs). However, as we proceed with the scoping 
process for a potential programmatic environmental impact statement, we 
expect that a CNPC will be considered as an alternative.

    68. Senator Bill Nelson. Ambassador Brooks, in your statement, you 
mention that NNSA has established an Office of Transformation. What is 
the job of this office?
    Ambassador Brooks. The Office of Transformation has not yet been, 
but will be, established in 2006. The function of this office is to 
drive change and to transform the nuclear weapons complex by 
establishing the path forward to our 2030 vision and managing execution 
of the Responsive Infrastructure Strategy Implementation Plan (RISIP), 
as well as all subordinate plans. The RISIP defines how the NNSA will 
achieve its 2030 vision and includes implementing strategies, goals, 
actions, and metrics. The Director of the Office of Transformation will 
be a senior NNSA Federal leader reporting to the Deputy Administrator 
for Defense Programs.

    69. Senator Bill Nelson. Ambassador Brooks, when the NNSA begins to 
develop plans for the responsive infrastructure, what are the 
requirements that the infrastructure must meet?
    Ambassador Brooks. As required by the NPR, the infrastructure must 
be responsive to unanticipated stockpile issues, technological 
surprise, adverse geopolitical change, and it must enable increased 
reliance on deterrence measured by capability. To assist in our 
planning process, we have worked with the DOD to develop quantitative 
metrics to measure our progress towards ``responsiveness.'' Following 
the NPR and the 2003 Stockpile Stewardship Conference, an initial set 
of these metrics was negotiated. These metrics provide quantified 
targets, e.g., resolve a new stockpile issue within 18 months. We have 
since updated these metrics and now anticipate monitoring our progress 
towards responsiveness in nine specific areas related to requirements 
for cost, dismantlement, augmentation, addressing stockpile problems, 
developing and producing warheads, demonstrating nuclear competencies, 
and sustaining underground test readiness. The Nuclear Weapons Council 
is expected to consider these responsive infrastructure metrics in June 
2006.

    70. Senator Bill Nelson. Ambassador Brooks, for instance, what is 
the planning assumption for the size of the stockpile, how many weapons 
should be assembled and dismantled each year, and how many pits and 
secondaries should be manufactured each year?
    Ambassador Brooks. [Deleted.]

                          DESIGN BASIS THREAT

    71. Senator Bill Nelson. Ambassador Brooks and Secretary Rispoli, 
in 2003 the DOE issued a new Design Basis Threat (DBT) for which DOE 
installations must establish their security posture. This DBT was 
revised in December 2005. The goal is to have all installations and 
facilities meet the 2003 DBT by the end of 2006 and meet the 2005 DBT 
by the end of 2008. Could each of you identify any issues with any 
sites or facilities that would prevent reaching these goals?
    Ambassador Brooks. The NNSA is on-track to meet its commitment to 
implement the 2003 DBT upgrades by the end of this fiscal year, which 
has been a tremendous endeavor on the part of our sites. Regarding the 
2005 DBT, the Department has requested that each site provide a 
detailed vulnerability analysis to validate the upgrades and resources 
required. The results of the site vulnerability analysis are being 
evaluated and we are looking closely at the options and impacts 
associated with the various upgrades so that risk management decisions 
can be made. We will achieve compliance with the November 2005 DBT at 
our two most critical activities (Pantex and our transportation 
safeguards asset) by the end of fiscal year 2008 and we are continuing 
diligently to identify requirements and funding at our other nuclear 
sites in order to achieve compliance as soon as possible.
    Mr. Rispoli. The Office of EM sites are implementing appropriate 
security measures to meet the 2003 DBT levels. The DOE has approved an 
exception to implementation of the 2005 DBT at Hanford to accommodate 
continued storage of surplus plutonium at the site pending an EM 
decision on off-site consolidation of the surplus plutonium. EM 
facilities with an enduring mission are expected to fully implement the 
2005 DBT requirements by the end of 2008.

    72. Senator Bill Nelson. Ambassador Brooks and Secretary Rispoli, 
do each of you have sufficient money in your budgets to meet the DBT 
goals?
    Ambassador Brooks. The 2007 budget has sufficient resources to 
accomplish the security upgrades to meet the new DBT at our two most 
critical operations, Pantex and the Office of Secure Transportation. 
For the remaining four sites, the budgets and schedules will be 
determined by the results of the ongoing vulnerability analyses and 
next year's budgeting process. NNSA is committed to doing as much as 
possible in the near-term to meet the DBT compliance requirements, and 
will maintain effective and robust security at all of its nuclear 
sites.
    Mr. Rispoli. The fiscal year 2007 budget request fully supports 
EM's goals and departmental decisions for the DBT implementation.

    73. Senator Bill Nelson. Ambassador Brooks and Secretary Rispoli, 
in reviewing the 2007 budget request, there seems to be a number of 
projects with increased costs as a result of the revised DBT. Have each 
of you been able to identify ways to meet the DBT with technology, as 
opposed to more guards and guns, that will save money?
    Ambassador Brooks. The NNSA has been working tirelessly at finding 
innovative solutions to meet the challenges of the new security 
regimen. We have found that by maintaining our focus on the basics the 
Department can dramatically curtail the growth of protective forces. 
The basics include: hardening our facilities, creating vehicle standoff 
distances, increasing delay times, and improving the training, 
lethality, and survivability of the protective forces. The combination 
of these techniques, with innovative technologies such as remotely 
fired weapons and enhanced detection and assessment systems has given 
NNSA greater advantage in defending our nuclear sites. As NNSA plans 
for upgrades to meet the 2005 DBT, we continue to focus our efforts in 
the use of physical barriers and technology solutions rather than 
simply increasing the size of the protective force.
    Mr. Rispoli. Technology innovations, such as enhanced detection and 
assessment equipment, passive barriers, and upgraded weaponry, are 
being actively employed at the SRS and the Hanford Site to meet DBT 
requirements. These technologies enhance system protection 
effectiveness and minimize protective force-level increases.

    74. Senator Bill Nelson. Ambassador Brooks, the DBT is designed to 
ensure that nuclear weapons and materials are secure. Does the DOD use 
the same DBT for developing security at its facilities where nuclear 
weapons are stored?
    Ambassador Brooks. The DOD and DOE use different approaches to 
providing a security foundational document (DBT), but we use the same 
intelligence and techniques in providing onsite protection. The two 
departments are working very closely on building common threat analyses 
modeling tools and security strategy development approaches. NNSA is 
confident that in the coming months and years you will see us working 
closer with our colleagues in the DOD on this very important topic.

    75. Senator Bill Nelson. Ambassador Brooks, does it have the same 
time lines as DOE to come into compliance with the DBT?
    Ambassador Brooks. I would defer to the DOD to answer questions 
regarding any timelines it may have in meeting compliance requirements. 
In the DOE, we will be compliant with the May 2003 DBT by the end of 
this fiscal year.

               CONSOLIDATION OF SPECIAL NUCLEAR MATERIALS

    76. Senator Bill Nelson. Ambassador Brooks and Secretary Rispoli, 
one of the key recommendations of the Overskei Report was to 
consolidate all Category I and II special nuclear materials and weapons 
components at one site. Do you believe that it is possible to 
consolidate all of these materials into one site? If not one site, then 
how many?
    Ambassador Brooks. We take the recommendations of the Secretary of 
Energy Advisory Board Nuclear Weapons Complex Infrastructure Task Force 
very seriously and have been evaluating options to consolidate Category 
I and II quantities of special nuclear materials (SNM). Currently, 
seven of the eight locations that are part of the nuclear weapons 
complex have Category I/II quantities of SNM on their site. 
Consolidation to a single site would be extremely challenging. Our 
preferred approach is to significantly reduce the number of sites and 
the number of locations within any given site that have these materials 
(e.g., separate centers of excellence for uranium operations, plutonium 
operations, weapons assembly/disassembly, and testing).
    Mr. Rispoli. Consolidation to a single site would be extremely 
challenging. One of the primary objectives of the NMDCCC is to 
determine how to consolidate materials most effectively and to minimize 
the number of sites.

    77. Senator Bill Nelson. Ambassador Brooks and Secretary Rispoli, 
what Category I and II materials do each of your programs have and what 
are each of you doing to consolidate materials?
    Ambassador Brooks. The NNSA sites that have Category I and II 
materials are the Y-12 National Security Complex, Pantex Plant, Nevada 
Test Site, Los Alamos, Lawrence Livermore, and Sandia National 
Laboratories. Office of EM materials are located primarily at the SRS 
and at Hanford, but there are also relatively small quantities at Los 
Alamos and Lawrence Livermore National Laboratories. EM is also 
assuming responsibility for disposition of U-233 materials consolidated 
at Oak Ridge National Laboratory.
    The NNSA has construction projects to improve nuclear materials 
storage, security, and processing capabilities at Y-12 and Los Alamos 
National Laboratory, and disposition capabilities at the SRS. Materials 
at Hanford, Sandia National Laboratories, and Lawrence Livermore 
National Laboratory and excess materials at Los Alamos National 
Laboratory will be relocated to sites with appropriate disposition 
capabilities, or where the material is needed in support of 
prograrnmatic requirements.
    Mr. Rispoli. Within EM, the majority of our Category I materials 
are in a form of plutonium or uranium. The majority of the EM Category 
II materials are in a form of spent fuel, smaller quantities of 
plutonium or uranium, and solutions or residues in process systems. 
Onsite consolidation to a single-protected area has been completed at 
the Hanford Site and is scheduled to be complete at the SRS by the end 
of 2006. EM is working to clarify and finalize our disposition pathways 
and to determine a site to remove the SNM from Hanford, subject to 
compliance with applicable law including the National Environmental 
Policy Act. Additionally, the DOE has established the NMDCCC, of which 
EM is an active member. The purpose of the NMDCCC is to ensure 
integration of individual program disposition and consolidation efforts 
thus identifying opportunities for resource sharing.

    78. Senator Bill Nelson. Ambassador Brooks, do you anticipate the 
NNSA will declare additional material excess in the next 10 years?
    Ambassador Brooks. In October 2005 the DOE announced a decision to 
restrict up to 200 metric tons of HEU from any further use as fissile 
material in nuclear weapons. Of that amount, approximately 20 metric 
tons was declared excess to programmatic requirements, and will be 
blended down to low enriched uranium for civilian power reactors or 
other uses. Approximately 20 metric tons was reserved for space and 
research reactors, and approximately 160 metric tons was reserved for 
naval reactors. Most of this material is in the form of assembled 
weapons components. As these weapon assemblies are disassembled, the 
materials will be evaluated to determine the appropriate disposition. 
Materials that do not meet the specification for use in the naval 
reactors program will be declared excess, and will be blended down to 
low enriched uranium. There are no current plans to declare additional 
plutonium excess.

    79. Senator Bill Nelson. Mr. Rispoli, is the EM program ready to 
take responsibility for all excess category I and II material and begin 
to consolidate that material?
    Mr. Rispoli. The DOE currently is evaluating how best to manage the 
excess Category I and II nuclear material within the DOE complex. 
Surplus nuclear material associated with nonproliferation commitments 
is managed by the Office of Fissile Material Disposition in the NNSA.

    80. Senator Bill Nelson. Mr. Rispoli, one of the key sites that 
could be used to consolidate materials is the SRS. Could additional 
materials be stored at SRS? What are you doing to work with the State 
of South Carolina to bring more materials to SRS?
    Mr. Rispoli. The Office of EM is focused on the disposition of SNM. 
Our consolidation decisions are closely connected to the ultimate 
disposition of these materials. Although the SRS has the capacity to 
store additional SNM, no final decision has been reached on shipping 
this material to a receiver site. The Secretary of Energy established 
the NMDCCC. This DOE-wide committee is chaired by the Principal Deputy 
Assistant Secretary for EM who reports to the Deputy Secretary of 
Energy for this purpose. The NMDCCC is in the process of evaluating 
this issue and expects to prepare a series of recommendations on 
consolidation. Meeting security requirements in a timely manner is a 
primary consideration. Other factors being considered include initial 
and life-cycle cost, transportation, National Environmental Policy Act 
analysis, timing, and equity issues.

                              RENDER SAFE

    81. Senator Bill Nelson. Ambassador Brooks, the new Quadrennial 
Defense Review mentions on several occasions the need to be able to 
``render-safe'' WMD. The NNSA has for years been responsible for the 
technical aspects of rendering safe nuclear devices. Is DOD expanding 
the render safe mission for nuclear devices and what is NNSA doing to 
support this expanded mission?
    Ambassador Brooks. NNSA continues to work very closely with the 
DOD. Presently, DOD has communicated the desire to enhance the 
capability of its generic (Tier 3) Explosive Ordnance Disposal 
capability. We do not expect this to add NNSA requirements, however. 
The DOD is still evaluating whether there is a need to develop any 
additional render-safe capability beyond the Tier 3 enhancement. NNSA 
nevertheless will continue to work closely with DOD to provide the 
support DOD requires.

                DEFENSE NUCLEAR FACILITIES SAFETY BOARD

    82. Senator Bill Nelson. Ambassador Brooks and Mr. Rispoli, at 
times the DNFSB raises issues of operational safety in the design and 
construction of new buildings. Failure to resolve promptly the seismic 
concerns raised by the DNFSB at the Hanford Waste Treatment Plant has 
lead in part to the cost growth at that facility. Currently, the NNSA 
and the DNFSB are unable to resolve a nuclear safety issue associated 
with ventilation concerns at the new nuclear materials complex at Los 
Alamos National Lab, the Chemistry and Metallurgy Research Facility 
Replacement (CMRR) project. The DNFSB doesn't develop safety 
regulations, it identifies the appropriate regulations and is tasked 
with overseeing the DOE's proper implementation of the safety 
regulations. Is there a clear process to resolve the issues raised by 
the DNFSB?
    Ambassador Brooks. The DOE processes, functions, and 
responsibilities for interfacing with the DNFSB are delineated in the 
Department's Manual 140.1-1B, Interfacing with the Defense Nuclear 
Facilities Safety Board. This is derived from the DNFSB's enabling 
legislation which specifies the processes for accepting, rejecting, and 
implementing a DNFSB recommendation. The DNFSB communicates issues with 
the Department through a variety of mechanisms including formal 
recommendations, formal reporting requirements, letters requesting 
action and information, and letters providing information. The process 
used to resolve a technical issue is based on the mechanism used to 
communicate it to the Department. The Department's process encourages 
close communication with the DNFSB and its staff through briefings, 
discussions, site visits, and other informal interactions.
    With respect to the specific classification of the ventilation 
system for the CMRR nuclear facility, the NNSA has performed 
preliminary analyses of the facility based on the conceptual design and 
concludes that the ventilation system will likely be classified as a 
safety system; however, verification of the safety classification 
properly awaits completion of the Preliminary Design and the 
Preliminary Documented Safety Analysis, activities which are just 
recently started. The designation of safety classification follows 
current protocols and procedures.
    Mr. Rispoli. The DOE processes, functions, and responsibilities for 
interfacing with the DNFSB are delineated in DOE Manual 140.1-1B, 
Interfacing with the Defense Nuclear Facilities Safety Board. The 
processes for the Secretary of Energy include rejecting a DNFSB 
recommendation and reporting that implementation is impracticable. 
Further, the DNFSB enabling legislation requires the DOE to notify the 
President and Congress if implementation is not possible due to 
funding. While not addressed specifically in the manual, the processes 
used for correspondence from the DNFSB are the same. To date, the DOE's 
interfacings with the DNFSB have provided an agreed upon solution to 
safety issues.

    83. Senator Bill Nelson. Ambassador Brooks, what is the process to 
resolve the safety issues at the CMRR while that facility is still in 
the design phase?
    Ambassador Brooks. DOE Order 413.3, Project Management for the 
Acquisition of Capital Assets, and DOE Order 420.1, Facility Safety, 
provide design phase processes for the Department. The Department's 
Manual 140.1-1B, Interfacing with the Defense Nuclear Facilities Satety 
Board, establishes processes for interfacing with the DNFSB. The 
process is specified in the DNSFB's enabling legislation. The 
Department's process encourages early resolution of issues with the 
DNFSB and its staff through briefings, discussion, site visits, and 
other informal interactions. Where technical differences of opinion 
cannot be resolved informally and the DNFSB determines the issue 
requires formal resolution or more formal discussion, the DNFSB 
communicates to the Department through a variety of mechanisms 
including formal recommendations, formal reporting requirements or 
letters requesting action. DOE then determines how best to address the 
issue and interacts with the DNFSB and its staff to determine an 
agreeable path forward to resolution. In the case of the CMRR, 
discussions regarding technical differences are ongoing.

                     HANFORD WASTE TREATMENT PLANT

    84. Senator Bill Nelson. Mr. Rispoli, your organization is in the 
process of building the WTP in Hanford, Washington, to vitrify the 
millions of gallons of high-level radioactive waste stored there in 
underground tanks. There have been many issues with the construction of 
that facility and the related management of the storage tanks. These 
include multiple process and design changes, funding issues, an 
inability to resolve issues with respect to the appropriate seismic and 
other technical criteria, and substantial increases in the cost of 
concrete and steel. Early indications are that the cost of the facility 
may be on the order of $10 to $15 billion. Ironically the very first 
cost estimates for the WTP was in this range. How will the seismic 
issue be resolved and on what time schedule?
    Mr. Rispoli. Since your question refers to earlier estimates for 
the Hanford WTP, I would first like to point out that all prior planned 
designs for the WTP would have provided only one-fourth of the high-
level waste immobilization capacity. The current plant is sized to 
treat and immobilize 100 percent of the high-level waste, thus 
eliminating the need for a second, very sizable plant that the DOE's 
prior plan envisioned. In addition, major advancements in technology 
have been recognized that will improve WTP performance. These 
advancements include development of an ion exchange material to more 
effectively and less expensively remove radioactive cesium from tank 
waste liquids; improvement of the throughput capacity for the large 
glass furnaces making glass out of radioactive waste; and enhanced 
blending ability of pumps to maintain a consistent mix of the waste. We 
anticipate that the benefits from these improvements will avoid the 
necessity of building a second plant for high-level waste, improve 
turnaround time, reduce personnel exposure, reduce performance risk, 
reduce operating cost, and reduce the total number of canisters 
produced, thereby decreasing the volume of material ultimately sent to 
a repository for permanent disposal.
    With respect to the seismic issue, the DNFSB has been concerned 
with DOE's seismic assumptions used for WTP design. Last year, DOE 
developed interim seismic criteria based on agreement with the DNFSB on 
ground motion values. The WTP prime contractor, Bechtel National, Inc., 
used the interim seismic criteria to check the engineering calculations 
for the designs already completed and the structures already built. 
Bechtel National, Inc., submitted to the DOE a revision to the 
structural design criteria which incorporates the DOE's current best 
understanding of the seismic hazard at Hanford, and the WTP, as well as 
the assumptions from the interim seismic criteria. The DOE is reviewing 
this revision to the structural design criteria. The DOE has also 
engaged the U.S. Army Corps of Engineers to independently review this 
latest revision to the structural design criteria. The DOE will discuss 
this latest revision to the structural design criteria with the DNFSB 
and carefully consider its recommendation regarding the criteria, if 
any. The DOE expects the reviews and discussions to be completed by 
late summer 2006, to permit proceeding with construction of those 
portions of the facilities affected by the concern with the seismic 
criteria.

    85. Senator Bill Nelson. Mr. Rispoli, how will a real cost estimate 
be completed and on what time scale?
    Mr. Rispoli. The WTP prime contractor, Bechtel National, Inc., 
provided to the DOE an updated Estimate-at-Completion (EAC) for the 
project in December 2005. DOE completed two independent expert reviews 
in March 2006 and provided to Congress: 1) an evaluation of the 
technical adequacy of the design to meet the contract performance 
rates; and 2) an assessment of the confidence in the cost and schedule 
as submitted by Bechtel in the December 2005 EAC. In addition, the 
contractor will deliver an updated EAC to reflect available funding for 
fiscal year 2006 and impacts of results of the independent technical 
and cost reviews. The contractor is to provide this revision to DOE by 
May 31, 2006.
    DOE has also engaged the U.S. Army Corps of Engineers to perform an 
independent expert review of the EAC, and, if acceptable, to validate 
the EAC. The U.S. Army Corps of Engineers has retained a number of 
recognized industry experts working with its own senior staff. The U.S. 
Army Corps of Engineers' report is scheduled to be completed by late 
summer 2006.
    Based on the results from the reviews, the DOE expects to establish 
a sound cost and schedule to complete the Hanford WTP. The objective is 
to ensure this project will be well-managed. We owe it to Congress, 
regional stakeholders, and the U.S. taxpayers that the substantial 
investment in the WTP is receiving the highest level of talent and 
attention the DOE can provide.

    86. Senator Bill Nelson. Mr. Rispoli, will there be any independent 
validation of the cost, the design, and the vitrification process?
    Mr. Rispoli.
Cost
    The WTP prime contractor, Bechtel National, Inc., provided the DOE 
an updated detailed EAC for the project in December 2005. Several 
actions are occurring to develop a realistic project estimate and 
schedule. The DOE has implemented and received an independent expert 
cost review by senior industry professionals to assess the confidence 
in the cost and schedule as submitted in December 2005. This review was 
completed in March 2006. In late May 2006, the contractor will deliver 
an updated EAC based on the available funding for fiscal year 2006 and 
the impacts of results of the best and brightest technical and cost 
reviews. DOE also engaged the U.S. Army Corps of Engineers to perform 
an independent expert review of the EAC and to validate the EAC. The 
U.S. Army Corps of Engineers has retained a number of recognized 
industry experts working alongside its own senior staff. The U.S. Army 
Corps of Engineers' report is scheduled to be completed by late summer 
2006.
Design
    DOE completed an independent expert review in March 2006 and 
provided to Congress an evaluation of the technical adequacy of the 
design. The report indicated the WTP will work as designed, but 
identified 28 issues which needed to be resolved in order for the WTP 
to meet the contract performance rates. The review indicated all these 
issues can be resolved with existing technology. The contractor has 
begun incorporating the fix for a number of these issues and working 
with the DOE on alternatives for the remainder of these issues.
Vitrification
    DOE has had an in-depth technology development program for 
vitrification systems over the past 20 years, to include the joule 
heated melter being designed for the Hanford WTP. The DOE has also had 
several vitrification systems in-use over the past 10 years: one at the 
West Valley Demonstration Project, New York, and two at the SRS, South 
Carolina (Defense Waste Processing Facility, and M-Area Vitrification 
Facility). In addition, there has been extensive testing of glass 
making in pilot facilities at the Duratek Inc., laboratory in Columbia, 
Maryland, and at the Catholic University's Vitreous State Laboratory in 
Washington, DC.
    Based on the results from the professional reviews and years of 
experience and testing, the DOE has a high-level of assurance in the 
design, vitrification process, and the development of a sound cost and 
schedule to complete the Hanford WTP.

    87. Senator Bill Nelson. Mr. Rispoli, what is the current status of 
construction at the WTP?
    Mr. Rispoli. The Hanford WTP consists of five subproject 
facilities: Pretreatment Facility, High-Level Waste Facility, Low-
Activity Waste Facility, Analytical Laboratory, and Balance of 
Facilities. As of the end of fiscal year 2005, approximately $2.9 
billion had been spent on design, procurement, and construction 
activities. Based on the contractor's December 2005 EAC, the percent 
completion for the three elements (design, procurement and 
construction) of the project, as of the end of fiscal year 2005, are: 
design--68 percent; procurement/materials--44 percent; and 
construction--28 percent.

    88. Senator Bill Nelson. Mr. Rispoli, the delays at the WTP will 
cause the DOE to miss many of the commitments to the State of 
Washington. One of the commitments that will not be met is pumping the 
waste from the single shell tanks. How many single shell tanks will be 
pumped out with the fiscal year 2007 budget request?
    Mr. Rispoli. Waste retrieval is anticipated to be completed on four 
single-shell tanks in fiscal year 2006 (C-204, C-103, C-201, and S-
112). Waste retrieval will be initiated and completed on two single-
shell tanks, C-108 and C-109, in fiscal year 2007. Retrieval on single-
shell tank Tank S-102 is also anticipated to be completed in late 
fiscal year 2007 or early fiscal year 2008.

    89. Senator Bill Nelson. Mr. Rispoli, no funding is provided for 
the bulk vitrification project in fiscal year 2007. Does this mean the 
DOE is cancelling the project?
    Mr. Rispoli. No. The DOE anticipates analyzing the bulk 
vitrification alternative in the upcoming Tank Closure and Waste 
Management Environmental Impact Statement pursuant to the National 
Environmental Policy Act. In addition, DOE would develop a 
Demonstration Bulk Vitrification System (DBVS) Project baseline that 
can be used to determine the path forward for the full DBVS Project 
tests. Substantial work has been performed to improve the basis for 
estimating project costs in accordance with DOE Order 413.3, Project 
Management for the Acquisition of Capital Assets. Using funding 
requested through fiscal year 2006, in fiscal year 2006-2007, DOE plans 
to complete the DBVS design; validate project costs; complete full-
scale cold tests at the vendor's Richland, Washington, site; conduct an 
independent review by a senior professional team from private industry, 
and academia; conduct an External Independent Review; complete a 
project baseline; and progress through the critical decision process 
for the DBVS required by DOE Order 413.3.

    90. Senator Bill Nelson. Mr. Rispoli, if the project is terminated 
for 2007 and reconstituted at a later date, what is the increased cost, 
how much time will be lost, and what plans have been made to recover 
the workforce or hire and retrain a new workforce for the project?
    Mr. Rispoli. There is no plan to terminate the project. Rather, 
extensive activities are planned or are underway to develop a cost and 
schedule baseline and other information required to proceed through the 
critical decision process required by DOE Order 413.3, Project 
Management for the Acquisition of Capital Assets. In order to establish 
a baseline, there must be a valid basis to measure costs and schedules 
against. Until a valid baseline is in place, DOE cannot know what 
impacts there might be to the contractor workforce, if any.

    91. Senator Bill Nelson. Mr. Rispoli, will cancellation of the bulk 
vitrification result in a failure to meet commitments to the State of 
Washington?
    Mr. Rispoli. There is no plan to terminate the project. Rather, 
extensive activities are planned or are underway to develop a cost and 
schedule baseline and other information required to proceed through the 
critical decision process required by DOE Order 413.3, Project 
Management for the Acquisition of Capital Assets. In order to establish 
a baseline, there must be a valid basis to measure costs and schedules 
against. Until a valid baseline is in place, DOE cannot know what 
impacts there might be to the contractor workforce, if any.

    92. Senator Bill Nelson. Mr. Rispoli, how many commitments to the 
State of Washington will not be met in fiscal year 2007 or beyond given 
the fiscal year 2007 budget request?
    Mr. Rispoli. There are no TPA milestones that will be missed due to 
the fiscal year 2007 budget. However, some milestones are at risk 
because of other issues, such as overly optimistic assumptions that 
were in place when the milestones were established (e.g., failure to 
anticipate various technical issues that have since come to light), 
risk prioritization, bringing certain projects into line with the DOE's 
Project Management for the Acquisition of Capital Assets directive, 
further waste site characterization, increased volume projections, and 
prioritizing field data collection activities over paper generation 
activities. The DOE plans to manage these risks and to use its best 
efforts to meet the milestones. At this time, completion of hot 
commissioning of the WTP, Milestone M-62-10, remains the only milestone 
beyond fiscal year 2007 at risk because of the aforementioned issues.

    93. Senator Bill Nelson. Mr. Rispoli, has DOE started any 
discussions with the State of Washington to modify the various 
commitments under the TPA?
    Mr. Rispoli. Currently, the Richland Operations Office is 
discussing changes in Central Plateau Cleanup and Waste Management. 
These discussions involve adjusting milestones to allow for further 
characterization of waste sites and adjusting waste treatment 
milestones to reflect revised retrieval volume projections. The TPA 
parties recognized changes would be necessary and included a formal 
change control process in the TPA. The DOE uses its best efforts to 
initiate discussions or notify the document signatories of potential 
milestone impacts in a timely manner. For example, the Office of River 
Protection notified the Washington State Department of Ecology and the 
Region 10 Offices of the TPA milestones impacted by the delays in the 
construction and operation of the WTP on January 31, 2006. 
Additionally, the Office of River Protection initiated discussions in 
February 2006 with the Washington State Department of Ecology regarding 
other near-term TPA milestones that were impacted by the WTP delays or 
other performance and technical issues.

                   ENVIRONMENTAL TECHNICAL EXPERTISE

    94. Senator Bill Nelson. Mr. Rispoli, what additional steps could 
you take to utilize the DOE national laboratories to ensure that 
shortfalls in EM technical expertise are addressed?
    Mr. Rispoli. I consider the DOE's national laboratories an 
important resource to assist the DOE environmental cleanup mission. As 
such, continued use of the national laboratory technical experts in the 
Office of EM technical projects and activities is vital. EM is in 
partnership with four national laboratories to obtain assistance in 
identifying emerging issues and providing more technical assistance 
across the EM complex. The labs can provide rapid response to address 
current technical problems impeding site cleanup by evaluating new and 
innovative approaches that result in cost savings or improvements to 
waste disposition pathways. In addition, national laboratory technical 
experts participate in longer duration evaluations to develop 
alternatives to the larger site baselines in order to decrease life-
cycle schedule and costs. National laboratories also conduct research 
in collaboration with Russian scientists and engineers to develop high-
level waste treatment technologies, for example.
    EM is placing an increased emphasis on strengthening the technical 
competencies of its Federal workforce through a multi-pronged approach. 
This evolving approach includes the certification and qualification of 
employees, development and sponsorship of training courses in specific 
EM technical competencies, increased recruitment of mid-level and 
career intern employees with technical experience and education, and 
encouragement of employee participation in technical and professional 
societies.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                      NUCLEAR STOCKPILE REDUCTIONS

    95. Senator Reed. Ambassador Brooks, many times in your prepared 
statement you talk about reductions, significant reductions, in the 
nuclear weapons stockpile and you state that the 2001 NPR called for a 
``transition from a threat-based nuclear deterrent with large numbers 
of deployed and reserve weapons to a deterrent based on capabilities, 
with a smaller nuclear weapons stockpile.'' What dismantlement 
decisions have been made and implemented since 2001 to achieve the 
reductions?
    Ambassador Brooks. [Deleted.]

    96. Senator Reed. Ambassador Brooks, in what way is the stockpile 
smaller today than it was in 2000?
    Ambassador Brooks. [Deleted.]

    97. Senator Reed. Ambassador Brooks, what part of the transition 
discussed in the 2001 NPR has occurred and what is planned?
    Ambassador Brooks. [Deleted.]

    98. Senator Reed. Ambassador Brooks, how many dismantlements are 
planned for fiscal year 2006 and for fiscal year 2007 and which weapons 
will be dismantled in each year?
    Ambassador Brooks. [Deleted.]

    99. Senator Reed. Ambassador Brooks, currently there are roughly 
four weapons in reserve or inactive or other status in the stockpile 
for every weapon deployed. Under the 2001 NPR, is there a goal to 
reduce this ratio?
    Ambassador Brooks. [Deleted.]

    100. Senator Reed. Ambassador Brooks, will the RRW program allow a 
reduction in this ratio? What is the goal and what is a reasonable 
ratio?
    Ambassador Brooks. Last April, before this committee, I provided a 
statement indicating that the RRW, if ongoing studies validated the 
feasibility of RRW designs, will be the ``enabler'' to achieve the 
infrastructure and stockpile transformation that is needed for the 
Nation's future nuclear deterrent. Once we establish a responsive 
infrastructure, can demonstrate that we can produce RRWs on a timescale 
in which geopolitical threats could emerge, and can respond in a timely 
way to technical problems in the stockpile, then I believe we can go 
much further in reducing non-deployed warheads.
    If we can demonstrate feasibility of higher margin replacement 
warheads and components that increase confidence in the stockpile, we 
believe this will allow further reductions in the stockpile. 
Additionally, we believe these more easily manufactured replacement 
warheads will provide an opportunity to transform to a more responsive, 
cost effective, and efficient infrastructure that will then provide 
more opportunities for additional stockpile reductions. A more 
responsive infrastructure will allow less reliance on the non-deployed 
stockpile for risk reduction, and lead to more reliance on the 
infrastructure (i.e., ability to produce additional or repair warheads 
in sufficient quantity) in responding to technical failures or new and 
emerging threats of the 21st century. Our ability to reduce the 
stockpile in the years beyond 2012 will depend critically on continued 
progress in achieving the RRW and responsive infrastructure goals.

    101. Senator Reed. Ambassador Brooks, you state in your testimony 
that by 2012 the stockpile will be ``the smallest stockpile since the 
Eisenhower administration.'' What is the annual dismantlement plan to 
achieve this reduction?
    Ambassador Brooks. [Deleted.]

    102. Senator Reed. Ambassador Brooks, how do you quantify this 
reduction based on the total number of weapons in the stockpile today--
50 percent, 25 percent, 10 percent?
    Ambassador Brooks. [Deleted.]

    [Whereupon, at 4:22 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                     Washington DC.

                    GLOBAL STRIKE PLANS AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions and Bill 
Nelson.
    Other Senators present: Senator Byron L. Dorgan
    Majority staff members present: Stanley R. O'Connor, Jr., 
professional staff member; Lynn F. Rusten, professional staff 
member; Robert M. Soofer, professional staff member; and 
Kristine L. Svinicki, professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Richard W. Fieldhouse, professional staff 
member.
    Staff assistants present: Jill L. Simodejka and Pendred K. 
Wilson.
    Committee members' assistants present: Arch Galloway II, 
assistant to Senator Sessions; and William K. Sutey, assistant 
to Senator Bill Nelson.

          STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The meeting will come to order. I'm 
pleased to welcome our witnesses today--General James 
Cartwright, Commander of the U.S. Strategic Command 
(USSTRATCOM); Peter Flory, Assistant Secretary of Defense for 
International Security Policy; Rear Admiral Charles Young, 
Director of the Navy's Strategic Systems Programs; and Major 
General Stanley Gorenc, Director for the Air Force Operational 
Capabilities Requirements. That's a mouthful.
    General Gorenc. It is a mouthful.
    Senator Sessions. Gentlemen, I thank you for your service 
to your Nation. Many good things have occurred, and I know you 
are thinking creatively and long range and to try to configure 
us in a way we need to be for the short-term future and the 
long-term future, and we're glad to have you join us today. We 
will receive testimony today on the Department of Defense's 
(DOD) policy plans and programs for global or strategic strike. 
During the Cold War, the term ``strategic strike'' was 
associated with the use of long-range nuclear forces to deter 
the former Soviet Union. Today, strategic forces must provide 
the President and the warfighter a range of capabilities to 
address a new global security environment where rogue states 
armed with weapons of mass destruction (WMD) and violent 
extremists have to be added to the list of strategic 
challenges. This new concept for strategic strike, now commonly 
referred to as global strike, was codified in the 2001 Nuclear 
Posture Review (NPR) conducted by the DOD.
    Oh, Senator Nelson, great to have you with us. One of the 
principal tenets of the NPR was a greater emphasis on advanced 
conventional weapons as a means to reduce dependency on nuclear 
forces to provide an offensive deterrent. While the United 
States is well on its way toward reducing the nuclear forces of 
some 2,200 operationally deployed warheads, by 2012, it is less 
clear that our improved conventional strike capabilities are 
maturing as quickly as they should be. For example, the June 
2005 Prompt Global Strike Plan submitted to Congress noted, 
``For the near future, in the event of a rapidly-developing 
crisis, the DOD will not have non-nuclear, long-range precision 
strike options for consideration by the national leadership.'' 
The budget request before us includes $127 million in fiscal 
year 2007 to address this gap in the near-term by modifying 24 
of the existing nuclear-armed Trident D-5 Submarine-Launched 
Ballistic Missiles (SLBMs) that carry conventional warheads, 
not nuclear. The capability to strike virtually anywhere on the 
face of the Earth within 60 minutes could provide the President 
with the means to preempt dangerous threats to the United 
States and its allies and could well become one of the more 
important deterrent tools in our Nation's strategic arsenal. 
One example that might serve to illustrate the potential 
importance of this capability is that at the outset of the 
March 2003 campaign in Iraq, the United States launched an 
attack with F-117 fighters and sea-launched cruise missiles in 
an attempt to decapitate the Iraqi leadership.
    According to the press reports, this strike took 4 hours to 
execute. Despite the fact that U.S. forces were already 
deployed in the region. Wouldn't it be in our interest to have 
the capability to launch our strike within 30 or 60 minutes? We 
are mindful, however, that there may be risks associated with 
plans to collocate conventional and nuclear Trident missiles on 
the same submarine. How, for example, would other nuclear 
powers interpret U.S. intentions during a launch? In 
determining whether to go forward with this program, we will 
need to weigh carefully the potential benefits of this new 
capability against the perceived risks. To help us make this 
determination, the committee also needs to be aware of other 
prompt global strike capabilities to include land-based options 
available to the Department in the near-term and over time.
    While addressing non-nuclear strike options, we must bear 
in mind that nuclear weapons are uniquely capable of holding 
certain critical targets at risk and that the size and 
structure of our nuclear deterrent forces will continue to play 
an important role in our national security posture. It is in 
this context that we will consider the Department's plans to 
reduce the number of operationally-deployed Minuteman III 
Intercontinental Ballistic Missiles (ICBMs) from 500 to 450. 
These are just some of the issues we intend to explore in our 
hearing today. Let me now recognize my distinguished ranking 
member, Senator Nelson of Florida. I appreciate his partnership 
and his interest in matters relating to our Nation's defense.
    Senator Nelson, we welcome any remarks you have.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman. We have three 
issues to discuss today--(1) the proposal to convert the 24 
Trident D-5 Sea-Launched Ballistic Missiles to carry 4 non-
nuclear warheads each and replace 2 of the 24 nuclear D-5 
missiles on 12 Trident submarines with 2 non-nuclear D-5 
missiles; (2) the proposal to retire 38 B-52H bombers by 2008. 
The most immediate issue, however, is the decision to terminate 
the two B-52 upgrade programs by the end of this month, 
effectively foreclosing the consideration of this proposal by 
Congress; and (3) the lack of a decision with respect to the 
nuclear cruise missiles--should they be retired or retained? 
While this discussion is going on within the DOD, the 
Department of Energy (DOE) is spending $100 million per year to 
begin a life extension program on the W-80 Nuclear Warhead in 
2010, the nuclear warhead that is flown by all three cruise 
missiles. The decision needs to be made quickly on the 
missiles. If the W-80 is to be retired, then we shouldn't waste 
the $100 million per year.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you. Senator Dorgan, we are 
delighted to have you as a guest of our committee. Do you want 
to say something before we begin with our guests?
    Senator Dorgan. Mr. Chairman, thanks for inviting me. I'm 
anxious to hear the testimony today, and I appreciate your 
willingness to allow me to sit in.
    Senator Sessions. Thank you very much. Then we'll start 
with Secretary Flory. Each of you that desire to make an 
opening statement, we'd be delighted to hear you. If you'd like 
to give abbreviated remarks and submit full remarks for the 
record, we'll accept that also.
    Secretary Flory.

  STATEMENT OF HON. PETER C.W. FLORY, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Flory. Thank you, Mr. Chairman. With your permission, 
I'll do just that. I will give a shorter opening statement and 
ask that my entire statement please be included in the record.
    Senator Sessions. Very well.
    Mr. Flory. Chairman Sessions, Senator Nelson, Senator 
Dorgan, I welcome the opportunity to testify before the 
subcommittee today to describe our progress in transforming the 
Nation's strategic capabilities. I want to thank you and the 
other members of the subcommittee for your continued support in 
this important endeavor. The successful transformation of our 
capabilities will require a sustained partnership between the 
DOD and Congress.
    As the recently published National Security Strategy (NSS) 
notes, the new strategic environment requires new approaches to 
deterrence and defense. Our deterrence strategy, as the 
chairman pointed out in his opening remarks, no longer rests 
solely on our ability to inflict devastating consequences on 
potential foes. Today, a more discriminate approach and a 
broader range of options and capabilities--including both 
offenses and defenses--contribute to the deterrence of state 
and non-state actors by denying them their objectives and, if 
necessary, by responding with overwhelming force.
    Our strategy for transforming U.S. strategic forces is 
contained in the NPR of December 2001. The NPR was written in 
response to congressional direction, and reflected Presidential 
guidance to reduce U.S. reliance on nuclear weapons to the 
lowest levels consistent with U.S. national security and our 
commitments to allies.
    The NPR called for an overhaul of U.S. strategic forces and 
concepts and provided a framework to guide their future 
development in a new and uncertain environment that we found 
ourselves in following the attacks of September 11, 2001. The 
NPR did a number of things. Notably, it directed reductions in 
the number of operationally-deployed strategic nuclear warheads 
from around 6,000 to levels between 1,700 and 2,200 by 2012. 
The NPR also established a so-called New Triad composed of 
offensive strike systems to include nuclear, non-nuclear, and 
non-kinetic capabilities that can generate strategic effects 
promptly and precisely and at great range. It also included 
defenses, both active and passive, as well as a responsive 
defense infrastructure which includes the U.S. nuclear weapons 
complex to provide new capabilities in a timely fashion to meet 
emerging threats.
    When fully implemented, the New Triad can provide the range 
of capabilities and options needed for a credible deterrent 
against a wide range of potential adversaries whose values and 
calculations of risk, gain, and loss may be very different from 
and, in many ways, harder to discern than those of past 
adversaries. These capabilities will also be important should 
deterrence fail. The New Triad is designed to transform our 
strategic capabilities to deal with an uncertain future, and it 
reflects new thinking about the meaning and purpose of U.S. 
strategic capabilities.
    For example, during the Cold War, the term strategic strike 
was virtually synonymous with the employment of nuclear 
weapons. This is no longer so. The development of precision 
targeting, flexible and collaborative planning, and improved 
intelligence and surveillance capabilities now enables us to 
envision using highly precise and responsive conventional 
systems to achieve strategic effects. So today, in appropriate 
areas, we are adding and need to continue to add conventional 
global strike to the mix of our capabilities.
    During the Cold War, we also designed our strategic nuclear 
forces to deter a single foe, the Soviet Union, and generally 
treated all others as lesser-included cases.
    Today, a one-size-fits-all approach to deterrence is no 
longer appropriate. Today, we must tailor deterrence to fulfill 
a number of functions: to assure our allies and friends; to 
achieve specific effects against a wide range of potential 
adversaries and circumstances, such as advanced military 
competitors or nuclear competitors, regional WMD states, and 
non-state terrorist networks.
    We cannot predict with confidence which nations or nation, 
which non-state actors, or which combination of the above may 
pose a threat to our vital interest or those of our friends and 
allies and how such a threat might materialize and what form 
and attack it might take. As the NPR noted, the September 11 
attacks dramatically illustrated the unparalleled extremism, 
hostility, and unpredictability of some foes.
    The NPR was only a starting point for the transformation of 
our strategic capabilities and concepts. Since December 2001, 
the Office of the Secretary of Defense (OSD), the Joint Staff, 
USSTRATCOM, and the Services have been working together to 
develop detailed implementation plans and operational concepts. 
I would like to highlight some examples of our progress to 
date. New missions have been assigned to USSTRATCOM to General 
Cartwright here and his crew out in Omaha beyond their 
continuing responsibility for strategic nuclear forces. These 
include global strike, integration of missile defense, space 
operations, integration of command, control, communications, 
and intelligence, offensive information operations, and 
integrating and synchronizing DOD's role in combating WMDs. I 
know General Cartwright will have more to say on his response 
to these many challenging tasks.
    We have made significant progress in a number of areas. For 
example, we have fielded an initial ballistic missile defense 
capability at Fort Greely, Alaska, and Vandenberg Air Force 
Base, and we have initiated additional cooperation and 
participation in our missile defense program. We are reducing 
U.S. nuclear forces to between 1,700 and 2,200 operationally-
deployed strategic nuclear warheads by 2012 and are on track to 
meet our interim goal of 3,800 warheads by 2007.
    We are also making progress in developing non-kinetic 
strike capabilities and improving planning, intelligence, and 
command and control capabilities to integrate our New Triad 
effectively.
    There are some areas, however, as you pointed out, Mr. 
Chairman, where we have made less progress. These include 
fielding prompt conventional capabilities for global strike, 
transforming a Cold War nuclear arsenal to meet new challenges, 
and revitalizing our nuclear infrastructure.
    We are working hard to make greater progress in these areas 
to realize the full potential and the broad mix of capabilities 
called for in the NPR. For example, we need the systems to be 
in a position where in a regional crisis against an adversary 
armed with WMD, the credibility of our deterrent may turn on 
our ability to threaten highly-valued assets of importance to 
that state's leadership while minimizing collateral damage. 
These assets may include WMD, missiles, command and control 
facilities, or leadership bunkers, any one of which may be 
protected in hard or deeply-buried facilities. Conventional 
global strike capabilities are needed to augment our existing 
military options for holding such targets at risk, and we need 
to expand the range of prompt, long-range strike options 
available to the President, options which are currently limited 
to nuclear weapons.
    Fielding this New Triad will strengthen the overall 
credibility of our deterrent posture and maintain the nuclear 
threshold at an appropriately high level and reduce our 
reliance on nuclear weapons.
    At the same time, this more flexible and capable strategic 
posture can help address all four pillars of our defense 
strategy. I mentioned earlier the capability to assure our 
allies and friends to help dissuade potential adversaries from 
investing in capabilities to challenge the United States and to 
help deter and, if necessary, defeat aggression.
    While our national strategy calls for reduced reliance on 
nuclear weapons, these weapons will continue to play a critical 
role. Nuclear weapons provide credible military options to 
deter a wide range of threats, including chemical, biological, 
radiological, and nuclear weapons as well as large-scale 
aggression. Nuclear weapons possess unique properties that give 
the United States options to hold at risk target classes that 
cannot be countered through non-nuclear means.
    What we need here is not a smaller version of a Cold War-
era nuclear stockpile, we need capabilities that are 
appropriate for the 21st century.
    To accomplish the transformation of our nuclear stockpile, 
it will be necessary to restore the Nation's nuclear 
infrastructure. Revitalizing and restoring the nuclear weapons 
infrastructure is essential to assure the long-term safety and 
reliability of U.S. nuclear warheads and to provide a hedge 
against an unforeseen, catastrophic technical failure and any 
element of our nuclear force or against adverse geopolitical 
changes.
    To assist in transforming the stockpile and to help place 
the nuclear infrastructure on a sound footing, one important 
near-term initiative is the Reliable Replacement Warhead (RRW). 
The RRW program will ensure the long-term sustainability of a 
stockpile by, among other things, eliminating hazardous 
materials and simplifying warhead manufacturing--all of this to 
be done without nuclear testing. If successful, the RRW may 
enable further reductions in the size of the stockpile by 
demonstrating a real capability to manufacture highly RRWs. In 
this respect, the RRW may be a first step towards the 
responsive nuclear weapons infrastructure called for by the 
NPR.
    The Quadrennial Defense Review (QDR) that was completed in 
February was another extensive review of all of the 
Department's capabilities that took a very close look at 
deterrence and the capabilities that we need to maintain our 
deterrence.
    Among other things leading into the QDR, we had a another 
study in 2004-2005, which reviewed the fundamental assumptions 
of the NPR. This was the Strategic Capabilities Assessment. In 
the course of that, the Defense Intelligence Agency (DIA) 
reviewed our original planning assumptions, the original 
planning assumptions that had guided the decisions we made, 
both to reduce our nuclear warheads and to develop the New 
Triad and noted that those assumptions were still valid. 
However, DIA pointed out that to the extent that conditions 
were changing, to the extend that the trend was different from 
what was predicted, it was trending, if anything, toward a 
more-stressing rather than a less-stressing strategic 
landscape--for example, with respect to developments in North 
Korea, Iran, and general nuclear proliferation. These same 
assumptions were reviewed and revalidated in the 2006 QDR when, 
as I mentioned earlier, the senior civilian and military 
leadership of the Department reviewed areas associated with 
implementation of the NPR and development of the New Triad and 
our overall defensive posture. As I noted earlier, the U.S. 
needs to tailor its strategy of deterrence to each potential 
adversary across a wide range of scenarios.
    Specifically, the QDR concluded that the U.S. needs to 
tailor its strategy of deterrence to each potential adversary, 
that we need to make greater progress in fielding prompt, 
accurate, non-nuclear global strike capabilities and that we 
can also make further modest reductions in the strategic 
nuclear force structure with minimal risk. I will touch briefly 
on each of these QDR conclusions. First, with respect to 
tailored deterrence, the U.S. needs to tailor its deterrence to 
each potential adversary across a wide range of scenarios. This 
means having the capability to create specific and appropriate 
effects to influence the decisionmaking of each potential 
adversary. Tailored deterrence will require that we understand 
each potential adversary to a greater degree than in the past. 
As I noted earlier, this may actually be harder to do than it 
was in the past. Tailored deterrence also means that our 
declaratory statements will need to be tailored so that our 
policy statements and our operational capabilities work 
together to send the same message and to strengthen deterrence.
    Second, with respect to global strike and the need to 
deploy a conventional global strike capability, as an element 
of a more-tailored, deterrent posture, we need to deploy, 
within 2 years, an initial capability that will allow us to 
promptly engage targets globally with precision-guided 
conventional weapons. This is the conventional Trident missile 
system, Mr. Chairman, Senator Nelson, that you mentioned in 
your opening remarks. The way we plan to achieve this is by 
arming a small number of long-range Trident missiles with 
accurate, non-nuclear warheads. This system would represent a 
near-term, affordable, relatively off-the-shelf and low-risk 
option for providing the President of the United States with an 
important capability that he does not have today. By deploying 
conventional Trident, we close a longstanding gap in our 
conventional strike capability for engaging an adversary 
promptly and precisely anywhere in the world.
    I understand there is concern, and this was mentioned in 
your opening remarks, Mr. Chairman and Senator Nelson, that 
there is a risk that the operational launch of a non-nuclear 
Trident missile might cause other nations--for example, Russia 
or China, to mistake such a launch for a nuclear attack. The 
U.S. has employed dual-role weapon systems in many years, and 
in fact, has done a number of missile tests from Trident and 
other submarines. But we recognize that a non-nuclear Trident 
missile aboard an SSBN will, in fact, represent a significant 
new development, and this is a concern that we take very 
seriously. I should point out that for the near-term, only 
Russia will have the ability to detect and respond promptly to 
ballistic missile launches of any kind. I think it's important 
to note that we already have in place, both with respect to 
Russian leaders--and is also concerned about the Chinese 
leadership--we have, with respect to the Russian and Chinese 
leaders, hotlines and other means for emergency communications 
that would be an important part of our strategy for mitigating 
any potential risk of misperception here.
    In addition to hotlines and the potential for advanced 
notification of a launch, we have other means for creating 
transparency and building confidence. One of those would 
include military-to-military talks between our respective 
forces so that others would understand our concept of 
operations for this new capability. Other options would include 
ways in which we could structure and operate the system to 
provide a notably different launch phenomenology, for example, 
different tasking and authorization procedures so that a launch 
of one of these systems would not, in fact, look just like a 
launch of a nuclear system.
    Again, we take seriously the risks that have been expressed 
about the possibility of a misperception. We think we have 
measures in place that would be able to mitigate this risk, and 
we think that it's on balance. The benefits that could be 
gained from this system are substantial, and the risks, while 
are there things that need to be taken seriously, they are 
things that we can confidently manage.
    In this context, it is important to remember that while any 
military action involves risks, there may also be risks and 
sometimes, very serious regrets in not acting. By developing 
and deploying this system, what we intend to do is to provide 
the President with one more option with which he can choose to 
act or not act or however he wants to proceed with respect to 
threats against the United States. It's a question of filling 
in a range of options that is not fully filled in right now.
    My last point, with respect to the further reductions in 
the ICBM force, we have made considerable progress in reducing 
our operationally-deployed strategic weapons, as I noted 
earlier. In light of this progress, the QDR has reevaluated our 
strategic nuclear force posture and determined that with 
minimal and acceptable risk, we could make further modest 
reductions and retire 50 Minuteman IIIs. This represents a 10-
percent reduction in the size of the Minuteman III force as 
envisioned by the NPR in 2001.
    Mr. Chairman, once again, in conclusion, we need a 
sustained partnership between the DOD and Congress if we are to 
transform our Nation's strategic capabilities to meet the 
uncertainties and challenges ahead. The Department will require 
your and the subcommittee's and the chairman's and the full 
committee's and the entire Congress's support as we continue to 
replace the legacy Cold War force posture with a New Triad that 
will protect our Nation in the new security environment.
    I look forward to answering your questions. Thank you.
    [The prepared statement of Mr. Flory follows:]

                 Prepared Statement by Peter C.W. Flory

                           I. OPENING REMARKS

    Chairman Sessions, Senator Nelson, and distinguished members of the 
subcommittee: I welcome the opportunity to testify before the 
subcommittee to describe our progress in transforming the Nation's 
strategic capabilities. I know that you understand the importance of 
this effort and that you recognize the need to replace a force posture 
configured for the Cold War with a New Triad that is better suited to 
the new security environment. I want to thank the members of the 
committee for your continued support in this effort. Successful 
transformation of our capabilities will require a sustained partnership 
between the Department of Defense (DOD) and Congress.

         II. THE NUCLEAR POSTURE REVIEW: A CATALYST FOR CHANGE

    As the recently published National Security Strategy (NSS) notes, 
the new strategic environment requires new approaches to deterrence and 
defense. Our deterrence strategy no longer rests solely on an ability 
to inflict devastating consequences on potential foes. Today, a more 
discriminate approach and a broader range of capabilities--including 
both offenses and defenses--contribute to deterrence of state and non-
state actors, by denying them their objectives and, if necessary, by 
responding with overwhelming force.
    Our strategy for transforming U.S. strategic forces is contained in 
the Nuclear Posture Review (NPR) of December 2001. The NPR was written 
in response to congressional direction, and reflected Presidential 
guidance to reduce U.S. reliance on nuclear weapons to the lowest 
levels consistent with U.S. national security and our commitments to 
allies.
    The NPR called for an overhaul of U.S. strategic forces and 
concepts, and provided a framework to guide the future development of 
these forces in the new and uncertain environment we found following 
the attacks of September 11, 2001. The NPR directed reductions in the 
number of operationally deployed strategic nuclear warheads from around 
6,000 to levels between 1,700 and 2,200 by 2012. The NPR also 
established a New Triad composed of:

        <bullet> Offensive strike systems--to include nuclear, non-
        nuclear, and non-kinetic capabilities that can generate 
        strategic effects promptly and precisely, and at great range;
        <bullet> Defenses--both active and passive; and
        <bullet> A responsive defense infrastructure--including the 
        U.S. nuclear weapons complex--to provide new capabilities in a 
        timely fashion to meet emerging threats.

    These New Triad capabilities will be integrated by improved 
planning, intelligence, and command and control.
    When fully implemented, the New Triad can provide the range of 
capabilities and options needed for a credible deterrent against a 
range of potential adversaries whose values and calculations of risk, 
gain and loss may be very different from--and more difficult to discern 
than--those of past adversaries. These capabilities will also be 
important should deterrence fail. This New Triad is designed to 
transform our strategic capabilities to deal with an uncertain future, 
and reflects new thinking about the meaning and purpose of U.S. 
strategic capabilities.
    For example, during the Cold War the term ``strategic strike'' was 
virtually synonymous with the employment of nuclear weapons. This is no 
longer so. The development of precision targeting capabilities, 
flexible and collaborative planning systems, net-centric national 
command and control systems, and improved intelligence and surveillance 
capabilities now enable us to envision using highly precise and 
responsive conventional weaponry to achieve strategic effects that once 
required nuclear weapons. Today, in appropriate areas, we can add 
conventional Global Strike to the mix of capabilities able to achieve 
strategic effects.
    During the Cold War, the main challenge facing the United States 
was deterring the former Soviet Union from using weapons of mass 
destruction against the United States and its allies. At that time we 
designed our strategic nuclear forces to deter a single foe, and 
generally treated all others as ``lesser included cases.''
    The new security environment is much-changed, however. As noted in 
the Quadrennial Defense Review (QDR) released last month, Russia is 
unlikely to pose a military threat to the United States or its allies 
on the same scale or intensity as the Soviet Union during the Cold War, 
although it remains a country in transition. It is no longer an 
adversary but not a traditional ally. Of the major and emerging powers, 
China has the greatest potential to compete militarily with the United 
States, and there are potential flash points with which we must be 
concerned, such as Taiwan.
    At the same time the United States faces a threat from an expanding 
number of hostile regimes and terrorist groups that seek to acquire and 
use weapons of mass destruction (WMD). Even when they do not pose a 
direct threat to the United States, these States may threaten the U.S. 
or its allies indirectly by transferring weapons or expertise to 
terrorists. The United States cannot predict with confidence which 
nation, nations, non-state actors, or a combination of the above may 
pose a threat to its vital interests, or those of its friends and 
allies, in the decades ahead. As the NPR noted: ``The September 11 
attacks dramatically illustrated the unparalleled extremism, hostility, 
and unpredictability of some foes. . . .''
    In this new and uncertain environment, a ``one size fits all'' 
approach to deterrence is no longer appropriate; we must re-think our 
approach to 21st century threats and tailor deterrence to assure our 
allies and friends, and achieve specific effects against a wide array 
of potential adversaries and circumstances, such as advanced military 
competitors, regional WMD states, and non-state terrorist networks. To 
do this we must have a broad range of credible strategic capabilities--
including a mix of nuclear and non-nuclear Global Strike capabilities, 
defenses, and a revitalized and responsive infrastructure.
    The NPR of 2001 set forth, and was based on, the following 
assumptions:

        <bullet> Expect Surprise;
        <bullet> Unpredictable Future;
        <bullet> Deterrence continues to be important, but uncertain;
        <bullet> Future adversaries (e.g., rogue states) possess WMD; 
        Denial and deception complicate characterization of WMD 
        facilities;
        <bullet> Terrorists and non-state actors seek WMD;
        <bullet> China modernizing conventional and nuclear forces; 
        Taiwan a potential flash point; and
        <bullet> Russia no longer an adversary, but uncertain future.

    Since its publication in December 2001, the logic, strategy, and 
the fundamental assumptions of the NPR have been reviewed periodically 
and subjected to rigorous internal scrutiny, for example, in the 2004-
2005 Strategic Capabilities Assessment. Based on the Defense 
Intelligence Agency's assessment, the 2004-2005 Strategic Capabilities 
Assessment concluded that the NPR's planning assumptions remain valid, 
although conditions are trending toward--if anything--a more stressing 
strategic landscape, for example, with respect to North Korea, Iran and 
nuclear proliferation. Additionally, we are increasingly concerned over 
the sale to others of disruptive weapons technologies by Russia--a 
country in transition--as well as by others. These same assumptions 
were revalidated by the 2006 QDR.
    But the NPR was only a starting point for the transformation of 
U.S. strategic capabilities and concepts. Since December 2001 the 
Office of the Secretary of Defense, the Joint Staff, U.S. Strategic 
Command (USSTRATCOM), and the Services have been working together to 
develop detailed implementation plans and operational concepts. I would 
like to highlight some examples of our progress to date:

          1. New missions have been assigned to USSTRATCOM beyond its 
        continuing responsibility for strategic nuclear forces. These 
        include:

                <bullet> Global Strike--to include nuclear, non-nuclear 
                and non-kinetic effects;
                <bullet> Integration of Missile Defense;
                <bullet> Space Operations;
                <bullet> Integration of Command, Control, 
                Communications, and Intelligence;
                <bullet> Offensive Information Operations; and
                <bullet> Integrating and synchronizing DOD's role in 
                Combating WMD.

          2. We have made significant progress in several areas, for 
        example:

                  a. We have fielded an initial ballistic missile 
                defense capability at Ft. Greely, Alaska; and expanded 
                international cooperation and participation in our 
                missile defense program.
                  b. We are reducing U.S. nuclear forces to 1,700-2,200 
                operationally deployed strategic nuclear warheads by 
                2012. We are on-track to meet our interim goal of 3,800 
                warheads by 2007.

                        <bullet> We removed the last Peacekeeper 
                        Intercontinental Ballistic Missile (ICBM) from 
                        its silo in September 2005;
                        <bullet> We completed the conversion to 
                        Nuclear-Powered Cruise Missile Attack 
                        Submarines (SSGNs) of two of the four Nuclear-
                        Powered Ballistic Missile Submarines (SSBNs) 
                        that are being retired from strategic service; 
                        and
                        <bullet> We implemented a new plan for the 
                        nuclear stockpile that will cut the total 
                        number of active and inactive warheads nearly 
                        in half by 2012.

                  c. We also are making progress in developing non-
                kinetic strike capabilities and improving planning, 
                intelligence, and command and control capabilities that 
                are needed to integrate New Triad capabilities 
                effectively.

          3. There are, however, areas where we have made only limited 
        progress; these include:

                <bullet> fielding prompt conventional capabilities for 
                Global Strike;
                <bullet> transforming a Cold War nuclear arsenal to 
                meet new challenges; and
                <bullet> revitalizing the nuclear infrastructure.

    We are working to make greater progress in these three areas in 
order to realize the broad mix of capabilities called for by the NPR. 
Instead of the legacy Cold War strategic posture, with its reliance on 
high-yield, nuclear weapons delivered by ICBMs, SLBMs, and heavy 
bombers to deter the Soviet Union, we need to transform and strengthen 
our posture to enable us to tailor deterrence against the full spectrum 
of post-Cold War threats. This, in turn, will require delivering on new 
capabilities that are credible and useful in affecting the 
decisionmaking of potential adversaries, and are effective against 
high-value, strategic targets.
    For example, in a regional crisis against an adversary armed with 
WMD, the credibility of our deterrent may turn on our ability to 
threaten highly-valued assets of importance to that state's leadership, 
while minimizing collateral damage. These assets may include WMD, 
missiles, command and control, or leadership bunkers protected in hard 
and deeply buried facilities. Conventional Global Strike capabilities 
are meant to augment the existing military options for holding such 
targets at risk, and expand the range of prompt, long-range strike 
options available to the President--currently limited to nuclear 
weapons. Thus, rather than rejecting deterrence, prompt, conventional 
Global Strike capabilities are intended to strengthen deterrence in the 
changed and evolving strategic environment.
    As Secretary Rumsfeld emphasized in the Foreword to the NPR, our 
direction is designed to ``improve our ability to deter attack,'' while 
``reducing our dependence on nuclear weapons'' to do so. The NPR does 
not reject deterrence in favor of ``nuclear warfighting,'' nor does it 
``lower the nuclear threshold.'' By fielding a New Triad of 
capabilities that includes conventional Global Strike assets, and 
defenses, and a responsive infrastructure, we strengthen the overall 
credibility of our deterrent posture and maintain the nuclear threshold 
at an appropriately high level.
    By placing greater emphasis on advanced non-nuclear and defensive 
capabilities, we seek to increase the credibility of our deterrent 
posture for many contingencies, while reducing the emphasis on nuclear 
weapons in our strategic posture. The broad array of New Triad 
capabilities can better assure our allies and friends that they should 
continue their reliance on the U.S. strategic deterrent--that they need 
not seek an alternative or independent nuclear capability for their 
security--thereby strengthening our alliances and supporting our 
nonproliferation goals. At the same time, the more flexible and capable 
strategic posture that the New Triad represents will help dissuade 
potential adversaries from investing in capabilities to challenge the 
United States, and help deter aggression.
    While our national strategy calls for reduced reliance on nuclear 
weapons, these weapons will continue to play a critical role in the 
defense capabilities of the United States, its allies and friends. 
Nuclear weapons provide credible military options to deter a wide range 
of threats, including chemical, biological, radiological, and nuclear 
weapons, and large-scale conventional military forces. Nuclear weapons 
possess unique properties that give the United States options to hold 
at risk a wide variety of target classes--some of which cannot be held 
at risk in any other fashion. Nuclear weapons will retain a vital role 
in deterring WMD threats, assuring allies of U.S. security commitments, 
holding at risk an adversary's assets and capabilities that cannot be 
countered through non-nuclear means, and dissuading potential 
adversaries from developing large-scale nuclear or conventional 
threats.
    To achieve that goal we need to sustain flexible and credible 
nuclear forces. Sustaining such a force will help mitigate the risks 
associated with the drawdown of nuclear forces, provide a broader range 
of options to the President, and offer the means necessary to tailor 
deterrence against a range of potential adversaries and circumstances.
    However, to maintain a credible nuclear deterrent we need to 
transform the nuclear stockpile so that the weapons we retain are 
appropriate for the challenges and uncertainties we will face in the 
coming decades. What we need is not a smaller version of the Cold War-
era nuclear stockpile; we need capabilities appropriate for 21st 
century threats.
    To accomplish the transformation of our nuclear stockpile it will 
be necessary to restore the Nation's nuclear infrastructure. The 
National Nuclear Security Administration has a plan for revitalizing 
this essential leg of the New Triad. Revitalization is essential in 
order to assure the long-term safety and reliability of U.S. nuclear 
warheads, strengthen deterrence for the new security environment, and 
provide a hedge against an unforeseen, catastrophic technical failure 
of any element of the nuclear force, or adverse geopolitical changes.
    To assist in transforming the composition of the nuclear stockpile, 
and to help place the Nation's nuclear infrastructure on a sound 
footing, it is imperative that we continue, without delay, to field a 
Reliable Replacement Warhead (RRW). The purpose of the RRW program is 
to ensure the long-term sustainability of a nuclear weapon stockpile 
for U.S. national security by, among other things, eliminating 
hazardous materials, and simplifying warhead manufacturing--all without 
nuclear testing. If successful, RRW may enable further reductions in 
the size of the stockpile by demonstrating a real capability to 
manufacture highly reliable, certified replacement warheads. In this 
respect, the RRW is a first step towards the responsive nuclear weapons 
infrastructure called for in the NPR.

                  III. THE QUADRENNIAL DEFENSE REVIEW

    As noted earlier, DOD has periodically reviewed the fundamental 
assumptions of the NPR and subjected them to rigorous scrutiny. In the 
recent Quadrennial Defense Review (QDR), for example, senior civilian 
and military leaders reviewed several areas associated with the 
implementation of the NPR and development of the New Triad, and 
concluded that:

          1. The U.S. needs to tailor its strategy of deterrence to 
        each potential adversary;
          2. The U.S. needs to make greater progress in fielding 
        prompt, accurate, non-nuclear Global Strike capabilities; and
          3. The U.S. can make further, modest reductions in the 
        strategic nuclear force structure with minimal risk.

    I would like to discuss each of these QDR conclusions in turn.
Tailored Deterrence
    As I noted earlier, the U.S. needs to tailor its strategy of 
deterrence to each potential adversary across a wide range of 
scenarios. Tailored deterrence will require that we understand each 
potential adversary to a greater degree than in the past. We must 
constantly ask ourselves who we may need to deter, and what we may need 
to deter them from doing. It also means having the capability to create 
the specific and appropriate effects needed to influence the 
decisionmaking of each potential adversary. Together with transforming 
DOD operational capabilities, U.S. declaratory statements will also 
need to be tailored so that our policy statements and our operational 
capabilities work together to underpin our deterrence strategy.
Global Strike and the Conventional Trident Missile
    As an element of a more tailored deterrent posture, the Department 
seeks to deploy, within 2 years, an initial capability to promptly 
engage targets globally with precision guided conventional weapons. 
This initial prompt Global Strike capability will be achieved by arming 
a small number of long-range Trident missiles with accurate, non-
nuclear warheads. The rationale for focusing on ballistic missiles, in 
general, and on a non-nuclear Trident missile in particular, is that 
Conventional Trident represents a near-term, affordable, relatively 
off-the-shelf and low-risk option for providing the President of the 
United States with an important, new capability. By deploying SSBNs 
armed with Conventional Trident missiles we will close a longstanding 
gap in our strike capability for engaging an adversary promptly and 
precisely, any where in the world, without having to resort to nuclear 
weapons.
    I understand that there is a concern about the possibility that the 
operational launch of a non-nuclear Trident missile might cause other 
nations, like China and Russia, to mistake it for a nuclear attack. The 
U.S. has employed dual-role weapon systems for many years, but we 
recognize that a non-nuclear Trident missile aboard an SSBN will 
represent a significant new development. I should point out that, for 
the near-term, only Russia will have the ability to both detect and 
respond promptly to ballistic missile launches. Fortunately, we already 
have in place links between U.S. senior leaders and their Russian and 
Chinese counterparts.
    To mitigate the risk of misperception we are exploring a variety of 
additional transparency and confidence-building measures. These 
measures include advance notification and military-to-military talks so 
that others understand our concept of operation for this new 
capability. We are also exploring the proper command and control 
procedures and release authority issues associated with deploying SSBNs 
with conventionally-armed Trident missiles. Our experience with 
hundreds of at-sea test launches over the past four decades, without 
incident, demonstrates that appropriate transparency measures can 
greatly reduce the potential for misunderstanding. We believe the 
benefits to be gained from Conventional Trident are important and the 
potential risks manageable.
    In this context, it is important to remember that while every 
military action involves risks, there may also be risks--and sometimes 
regrets--in not acting. By developing and deploying a Conventional 
Trident we will provide the President with one more option with which 
to defend against threats to the United States.
    We also are studying other, longer-term solutions, both sea- and 
land-based, in order to broaden our portfolio of non-nuclear Global 
Strike capabilities and provide even greater flexibility in our 
strategic posture. The initiatives underway include assessing options 
for kinetic and non-kinetic non-nuclear capabilities. For example, the 
Air Force's Land Based Strategic Deterrent Analysis of Alternatives 
study is seeking to identify a cost-effective set of global strike 
solutions; the Army is studying a concept for fielding an Advanced 
Hypersonic Weapon; and the Navy is studying the development of a 
conventionally-armed Submarine Launched Ballistic Missile with a range 
of about 1,500 nautical miles to increase the versatility of the cruise 
missile-armed submarine (SSGN). In addition, there are other 
initiatives underway across DOD that support the Prompt Global Strike 
mission; these include major enabling capabilities such as the 
transition to a net-centric based command, control, communications 
architecture, and improved global situation awareness with enhanced 
intelligence, surveillance, and reconnaissance tools.
Further Reductions in the ICBM Force
    As I noted earlier, we have made considerable progress to date in 
drawing down our operationally-deployed strategic nuclear weapons to 
the 1,700-2,200 level; this includes the withdrawal of all 50 
Peacekeeper ICBMs from their silos, and the withdrawal of 4 SSBNs from 
strategic service and conversion to SSGNs. In light of our progress in 
making these reductions and fielding New Triad capabilities, the QDR 
re-evaluated our strategic nuclear force posture. As a result, DOD's 
senior leaders determined that--with minimal risk--we could make a 
further, modest reduction in the number of nuclear-armed ICBMs by 
retiring 50 Minuteman Ills. This represents a 10-percent reduction in 
the size of the Minuteman III force as envisioned by the NPR in 2001, 
but it will not affect the number of operationally deployed strategic 
nuclear warheads we are planning to deploy by 2012.

                         IV. CONCLUDING REMARKS

    A sustained partnership between the DOD and Congress will be needed 
if we are to succeed in transforming our Nation's strategic 
capabilities to meet the uncertainties and challenges ahead. The 
Department will require your continued support to replace the legacy 
Cold War force posture with a New Triad that is better suited to the 
new security environment. In closing, I would like to summarize my main 
points.

          1. Conventional Trident Missile is a near-term means of 
        addressing the current lack of capability for prompt, 
        conventional Global Strike. The longer-term goal is to develop 
        a range of prompt Global Strike capabilities that can provide 
        the President with a wider range of options for addressing the 
        dangers of the new security environment.
          2. Continued progress on ballistic missile defense is 
        essential. The Department has made great strides since the 
        President's decision in 2002 to field missile defenses, and we 
        appreciate the continued support of this committee as we field 
        this important capability.
          3. Transformation of the nuclear force is not only a matter 
        of making reductions in operationally deployed strategic 
        nuclear weapons. Making tailored deterrence a reality, and 
        fielding a strategic force that is properly configured for the 
        21st century, will require us to make adjustments in our force 
        posture, in our residual nuclear stockpile, and in our 
        thinking.

    Finally, as we transform U.S. strategic forces to deal with new 
security challenges, we must also rethink important issues and ideas--
especially our understanding of deterrence. We cannot contend with 21st 
century uncertainties with a Cold War-force posture, a Cold War nuclear 
stockpile, or Cold War thinking.

    Senator Sessions. Thank you, Secretary Flory. General 
Cartwright, we'd be pleased to hear your opening comments at 
this time.

 STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Cartwright. Thank you, Mr. Chairman, Senator 
Nelson. I'm not going to go back over the threat and some of 
the things that I think have been very clearly laid out by 
Secretary Flory, but I would like to cover, starting with the 
Triad and the construct of the New Triad, the offense, defense, 
the infrastructure piece. Remember that this is underpinned by 
a robust command and control system, the intelligence, 
surveillance, and reconnaissance capabilities and the planning 
capabilities that allow the use of this Triad and the 
integration of its capabilities in a more holistic fashion than 
maybe has been the case in the past.
    When you look at the Triad, the offensive piece, and that's 
what we're here to address today, a subset of the offensive 
piece is global strike, and that subset really is to hold at 
risk important targets such as those that are associated with 
WMD, missiles, command and control, hard and also the deeply-
buried-type targets. These are the types of targets that we are 
focusing in on with global strike. A subset of global strike is 
the Prompt Global Strike, which really starts to get at the 
issue of those targets that will not necessarily emerge next to 
where we're based or where our normal patrol routes are. It can 
appear anyplace globally. It does not necessarily pay attention 
to borders or overfly rights and things like that, for which 
the significant regret factors of, say, a WMD or a type of 
target that represents a WMD--can cause great regret factors 
for the country. For these types of targets, we're trying to 
create a set of choices for the Nation on how to address them.
    Today, we hold prompt global targets of this type at risk 
with our strategic or nuclear forces, and the question is, can 
we expand because of the advances that we have made in 
precision, because of the advances that we have made in command 
and control, because of the advances that we're making in our 
ISR intelligence capabilities. Are there a further set of 
opportunities that we can use to hold at risk. Not all of these 
targets will present themselves in a way that is necessarily 
appropriate for a nuclear weapon, and that's just the diversity 
of the threat, the realities of where we are moving in the 
world. A nuclear weapon is still a viable part of our 
inventory, but it is, as the Secretary said, one-size-does-not-
fit-all. What we would like to do is create an opportunity here 
to field a weapon that will give us a broader and potentially 
more appropriate choice for the Nation.
    In looking at the construct of 24 of these weapons, 2 per 
boat across the population, the intent here is to provide a 
credible choice that will hold these unanticipated targets, 
these fleeting targets, targets that don't stay in one place 
for very long, don't give us a lot of indications and warning 
that they're going to be there, to hold them at risk in a way 
that we have not been able to do in the past with something 
other than a nuclear weapon. We are asking to proceed on a path 
that will field on the Trident missile a conventional warhead. 
This warhead, by the way, is not explosive. It is inert. 
Because of the energy that is associated with a Trident reentry 
vehicle, the explosive, at least for this initial capability, 
is not necessary, given the precision that we believe that we 
can obtain.
    I think that it's important to understand that over the 
next 2 years, as we field this initial capability, the command 
and control, the planning, the supporting ISR structure will be 
developed along with the capability, and we are working now to 
realize those gains. Included will be the surety measures, the 
assurance that we are launching the right weapon at the right 
target 100 percent of the time from the submarine. The 
political and the military dialogue between governments that 
must occur so that we understand what it is we're trying to 
accomplish here, how we're going to use it, how it's going to 
appear to the adversary and to allies and friends or 
disinterested parties, if they are just merely watching, how 
this will look.
    These are critical. This will be accomplished through 
tests, through exercises, through mil-to-mil dialogue, 
political dialogue. All of these things are absolutely critical 
to demonstrate clearly the capability. You'll also note that in 
this dialogue, we have chosen to do this in an unclassified 
form. This is an open hearing. We are talking about this 
because it is important to have transparency in what we want to 
do in the future in this capability, to not leave ambiguity in 
the equation.
    This is not a new capability. Since 1968, we have launched 
433 of these warheads on these missiles without ambiguity 
through notification processes, talking to the Russians and the 
Chinese. You can imagine that in a period since 1968, with 433 
plus launches, that we have had bad weather days, we have had 
maintenance, we have had issues. The system that is in place to 
keep people informed about what we are doing has worked well 
for us, and we will continue to improve that system and improve 
the dialogue through training and exercises. This conventional 
Prompt Global Strike capability will be a credible choice that 
will offer the Nation a broader set of tools to confront the 
enemies that we face today and in the future, and we believe 
it's essential to offer this choice to the Nation.
    Let me go back and pick up just a couple of the questions 
that Senator Nelson highlighted. The Minuteman reductions from 
500 to 450. The dialogue there is an acknowledgment that we 
would like this system to last well into the future, and we 
have expectations on the life of the system. We have to match 
that with test assets to ensure that as the system ages, we 
understand the character of that aging, that we know what to 
expect out of that system, given that it carries the weapons 
that we carry on our Minuteman system. We have to have surety 
in that system and only can do that through testing. We have to 
keep a robust test program all the way through the life of the 
program. When we looked at the three wings associated with the 
Minuteman, there is a wing of 150, a wing of 200, and a wing of 
150. It just seemed to be logical that we would create three 
wings of 150, take the 50 assets, use them both for tests and 
also, to some extent, for R&D, we have money in this budget 
that is addressing the next generation system. We have to start 
looking at the risk reduction activities, the test activities 
that will allow us to understand where we want to go in the 
future. This is not a reduction in the number of warheads 
deployed. They will just merely be redistributed on the 
missiles. So, there is not a reduction in warheads. This is a 
reduction in the number of launch vehicles, and it allows us to 
move forward into the future.
    Senator Sessions. Probably not, it would be multiple 
warheads?
    General Cartwright. Right now, we're at a strategy that 
would put 500 on 500, so one warhead each. Now 50 of the 
missiles will have more than one warhead, and that would still 
leave us with the ability to say that our crystal ball wasn't 
perfect. We may find in the future that we have an adversary 
that emerges. It still leaves empty slots and the capability to 
quickly reconfigure appropriately for the adversaries that we 
might face in the future that we didn't anticipate. So it 
leaves flexibility to understand that we don't know everything 
we need to know about the future.
    On the cruise missile side of the equation, and Senator, I 
believe you referred to the cruise missile study and the 
tension that that causes with the desire to move forward on the 
RRW. The study is essentially complete. We jointly, inside the 
DOD, between policy and USSTRATCOM, have worked that study. 
It's in the briefing phase. It will move it up through the 
decision process. We understand the desire. There is only so 
much resource out there. That resource is not only the dollars, 
but it's also the intellectual capital associated with the 
labs, it is the production capacity associated with the labs. 
There are a lot of resources tied up in a smart and quick 
decision, but there is also the consideration of the risks 
associated with moving from one capability to the next, should 
we decide that, or retaining a capability to ensure that we 
have that into the future. We're trying to capture all of that, 
do it as quickly as we can and make sure that we are well-
informed before we announce that decision, and that will be 
something that will be brought up through the Department.
    The last question I think that you brought up, that I'll 
quickly address, is the question on the B-52s and the number of 
B-52s. You'll also note in this budget the resources associated 
with and the acceleration of the next generation of bomber. We 
think that that's important. We think it's important to start 
to accelerate that capability. There are several attributes 
that are being discussed as we look at the next generation 
capability. Certainly survivability has always been a big 
issue, but also the difference between prompt--which means 
something that goes fast and gets there quickly, versus 
something that can get out there and have long loiter and be 
able to stay and persist with large payloads on station--
understanding the tradeoffs associated with that. Are we 
dealing with one asset, are we dealing with a family, how do we 
bring those attributes to a common platform, what's the right 
balance between that platform and the ballistic missile family 
that we're fielding and will field in the next generation? 
Those are all the things that are being discussed as we work 
our way through this.
    Again, there are limited resources. We are starting to move 
in a direction that would free up the resources to accelerate 
the fielding of the next generation bomber. I think it still 
puts us, from a USSTRATCOM perspective, with sufficient bombers 
to exercise those missions that have been assigned to 
USSTRATCOM for the bombers, both in the B-2 and the B-52.
    I'll stand ready for your questions, sir.
    [The prepared statement of General Cartwright follows:]

          Prepared Statement by Gen. James E. Cartwright, USMC

    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to review U.S. Strategic Command's (USSTRATCOM) progress 
during the past year and to present our plan for the future. I will 
discuss the Quadrennial Defense Review (QDR) role in validating and 
updating our transformational approach, and request your continued 
support for specific actions necessary to ensure our strategic 
capabilities are correctly postured to meet the challenges of today and 
tomorrow. 2006 is a year of unprecedented change. Our ultimate goals 
are driving the pace of change: building strategic advantage, ensuring 
the security of the American people and strengthening the community of 
free nations.

      ADAPTING TO THE NEW ENVIRONMENT--TRANSFORMING WHILE WE FIGHT

    One year ago, we spoke of global interdependence and its impact on 
how we organize, plan and operate. We emphasized developing strong 
links between U.S. strategic objectives and regional operations, as our 
adversaries were employing asymmetric means to strike well beyond the 
battlefields of Iraq and Afghanistan. We also spoke of USSTRATCOM's new 
mission assignments and the steps we had undertaken to transform our 
command into an agile 21st century organization capable of deterring 
our adversaries and bringing the full range of global strike, 
defensive, command and control (C2), and intelligence, surveillance, 
and reconnaissance (ISR) capabilities to bear against them if 
necessary. We outlined an enormous transformational effort that had to 
be accomplished in the context of an ongoing global conflict with 
active combat operations and without the luxury of an operational 
pause.
    Throughout the last year, the men and women of USSTRATCOM have 
engaged in that global conflict, often employing means not visible 
either to the average American or to our adversaries. They met this 
day-to-day challenge with professionalism and commitment while they 
were also restructuring our organization to focus our efforts, conserve 
our resources, and streamline support to other combatant commanders 
around the world. I come to you today gratified by the progress these 
fine men and women have made and energized to complete the task before 
us.

                   USSTRATCOM TRANSFORMATION VECTORS

    The Department of Defense (DOD) budget you enacted for 2006 enabled 
a string of organizational and operational successes along all of our 
transformation vectors.
    We changed the way we are organized and operate. We implemented, 
and by the end of 2006 will refine, the redistributed and functionally 
aligned command structure described last year. This new structure is 
already paying off in terms of decentralized operational employment and 
increased operational speed. Our efforts resulted in:

        <bullet> A flattened, streamlined, and focused headquarters 
        staff charged with maintaining command and control of the 
        Nation's nuclear forces, providing strategic guidance and 
        advocacy for essential mission capabilities, and conducting 
        integrated and synchronized strategic-level planning necessary 
        for mission accomplishment in all mission areas.
        <bullet> Four interdependent Joint Functional Component 
        Commands (JFCCs): Intelligence, Surveillance and Reconnaissance 
        (ISR); Network-Warfare (NW); Integrated Missile Defense (IMD) 
        and Space and Global Strike (S&GS). Day-to-day operational 
        planning and execution of specialized global capabilities now 
        reside at the component level, where commanders are able to 
        maintain focus on their primary mission and not be distracted 
        by staff support activities.
        <bullet> Integrated Information Operations (IO) support through 
        the Joint Information Operations Center (JIOC). The JIOC is the 
        focal point for all operational and tactical IO planning 
        support to DOD users around the globe.
        <bullet> Improved security for DOD information systems through 
        the aggressive efforts of Joint Task Force--Global Network 
        Operations (JTF-GNO). JTF-GNO instituted stringent use controls 
        and trained system users to reduce vulnerabilities.
        <bullet> A collaborative, Joint Space Operations Center 
        (JSpOC), to deliver select DOD space capability to U.S., 
        Allied, and other national users. When fully operational, JSpOC 
        will provide the full range of DOD space capabilities.
        <bullet> A new USSTRATCOM Center for Combating Weapons of Mass 
        Destruction (SCC-WMD) and a new Global Innovation and Strategy 
        Center (GISC) that recently completed their formative 
        processes, joining the fight with specialized technical skills 
        and solutions to unique mission challenges.

    By making this unique organizational transformation we also 
strengthened our operational relationships with the Defense 
Intelligence Agency (DIA), Defense Threat Reduction Agency (DTRA), 
Defense Information Systems Agency (DISA), and National Security Agency 
(NSA) in order to leverage the tremendous resources and capabilities 
resident in these organizations. Now we effectively bridge many 
artificial barriers to communications and information sharing, and 
bring enhanced combat power to the regional combatant commanders.
    We made progress in our drive toward a New Triad of capabilities. 
The New Triad is comprised of offensive and defensive capabilities 
enabled by persistent global command and control (C2), intelligence, an 
agile planning system, and a responsive defense infrastructure. The New 
Triad provides improved flexibility in dealing with a wider range of 
contingencies, while reducing our dependence on nuclear weapons, in 
order to assure our allies, dissuade competitors, and deter those who 
plan to harm us, particularly with WMD.
    Efforts to improve conventional global strike capability focused on 
generating effects without being hindered by factors of time, distance, 
basing rights, over-flight considerations or undue risk to American 
service men and women. Recently the Department:

        <bullet> Bolstered the number of Joint Direct Attack Munitions 
        (JDAM) in the inventory, providing all weather, precision 
        strike in a smaller weapon footprint.
        <bullet> Fielded Tactical Tomahawk (TACTCOM) and the Joint Air 
        to Surface Stand-off Missile (JASSM), providing strike weapons 
        that operate from ranges outside enemy point defenses.

    During the past year non-kinetic capabilities became an 
increasingly important tool to deny our adversaries the opportunity to 
communicate easily or to manipulate information in ways that further 
their efforts to undermine stability around the world. We seek better 
non-kinetic capabilities to improve our freedom of action at the lowest 
level of conflict; to enhance deterrence; and support the sustained 
ability to use our networks while denying the adversary a similar 
capability. In this area we:

        <bullet> Expanded development of the applicable tactics, 
        techniques, and procedures to support use of information and 
        networks--cyberspace--as an environment for integrated 
        exploitation, offensive, and defensive operations.
        <bullet> Improved integration of non-kinetic effects into 
        operational planning, on a limited basis, in support of forces 
        involved in the global war on terrorism.

    The President has committed the United States to sustaining a 
credible nuclear deterrence capability with the lowest possible number 
of nuclear weapons consistent with national security. USSTRATCOM's task 
is to ensure our nuclear force remains ready to meet any contingency 
while the nuclear stockpile remains safe, secure, and reliable as we 
prudently achieve the thresholds specified in the Moscow Treaty. To 
this end we:

        <bullet> Sustained a safe and reliable nuclear stockpile in 
        cooperation with the National laboratories and the National 
        Nuclear Security Administration (NNSA).
        <bullet> Took steps to improve the security and safety of the 
        deployed nuclear force.
        <bullet> Retired the last Peacekeeper Inter-Continental 
        Ballistic Missiles (ICBM) from service.
        <bullet> Reduced the number of operationally deployed strategic 
        nuclear warheads on the Minuteman III ICBM force.
        <bullet> Transferred the final ballistic missile submarine 
        scheduled for reconfiguration to carry conventionally armed 
        cruise missiles.

    We continued pursuit of both active and passive defenses as a means 
of deterring our adversaries by demonstrating our ability to deny their 
attempts to coerce or harm the United States. During 2006 we will:

        <bullet> Conduct additional tests of a Standard Missile 3 
        (SM3), which is designed to engage mid and short range 
        ballistic missiles early in flight.
        <bullet> Conduct tests of a Terminal High Altitude Area Defense 
        (THAAD) missile, which is designed to engage mid to short-range 
        ballistic missiles late in flight.
        <bullet> Increase the number of emplaced Ground-Based 
        Interceptors (GBIs) in Alaska and California. GBIs are designed 
        to engage long-range ballistic missiles in the midcourse of 
        their flight. We plan on an interceptor demonstration this 
        spring and up to two more interceptor tests by the end of 2006.
        <bullet> Refine our missile engagement tracking capability by 
        deploying sea-based and forward-based X-Band radars to 
        operational locations in the Pacific region, where, by the end 
        of 2006, they will join a global network of radars.
        <bullet> Upgrade the Command, Control, Battle Management, and 
        Communications System (C2BMC) to extend situational awareness 
        capability to Pacific Command and European Command by the end 
        of 2006.
        <bullet> Promote expanded interagency support and participation 
        in the Proliferation Security Initiative to further global 
        efforts to combat the spread of WMD.

    At the heart of the New Triad are the key enablers of command and 
control, intelligence, and planning. Through these enablers, and our 
broad array of space capability, we create the agility to respond to a 
wide range of global challenges. During 2006 we will:

        <bullet> Evolve the renovated USSTRATCOM Global Operations 
        Center to enhance collaboration among all geographically 
        distributed USSTRATCOM elements--defining the first step toward 
        a Global C2 capability for all New Triad forces.
        <bullet> Complete preparations for opening the first node in a 
        network of ground entry points designed to serve a nationally 
        distributed ground, air and sea network capable of providing 
        the diverse connectivity requirements of the New Triad and DOD 
        support to a broader national command capability using all 
        elements of national power.
        <bullet> Codify the output of the department-wide process 
        review designed to modify historically inefficient ISR force 
        apportionment practices to globally manage low-density, high-
        demand ISR assets such as unmanned aerial vehicles and 
        reconnaissance aircraft.
        <bullet> Extrapolate the results of an exercise in which we 
        demonstrated the ability to achieve persistence through the 
        combination/integration of different intelligence, 
        surveillance, and reconnaissance (ISR) phenomenology, to better 
        fulfill combatant commander's intelligence requirements.
        <bullet> Capitalize on the longer dwell time of unmanned and 
        unattended sensors to produce greater persistence in global war 
        on terrorism operations.
        <bullet> Initiate a pilot program to determine essential global 
        strike command and control services with an explicit objective 
        of delivering a distributed, collaborative product. The pilot 
        program will take advantage of the Department's Data Strategy, 
        which calls for visible, accessible and understandable data, 
        and uses Services Oriented Architectures (SOA) to promote 
        flexibility and agility.
        <bullet> Initiate efforts to transition from a limited space 
        surveillance architecture to a more fully integrated 
        terrestrial and space-based approach to situational awareness.

                A NATION AT WAR--CONTINUING TO TRANSFORM

    When I came before you last year, it was clear the pace of change 
and nature of the threats and challenges to our Nation were growing 
rapidly. It was also clear that USSTRATCOM's legacy systems and 
organizational relationships were not suitable for meeting emerging 
challenges the Nation now faces. Our intent, this year, was to address 
nuclear issues in the QDR in order to rationalize them in the context 
of our overall capabilities. It is against this backdrop that we 
entered the dialog of the 2006 QDR.
    USSTRATCOM presented new ideas and concepts, which were widely 
debated during the course of review proceedings. We entered this review 
believing the New Triad concept was sound in principle, but that the 
pace of attaining the new construct was lagging the national need. With 
this in mind we focused on four objectives:

        <bullet> Determine which elements of our considerable nuclear 
        force structure are essential to future stability and which 
        might be retired in favor of more redundant and credible 
        conventional or non-kinetic capabilities called for by the 2001 
        Nuclear Posture Review (NPR) and 2005 Strategic Capabilities 
        Assessment.
        <bullet> Determine the next steps needed to fulfill our 
        commitment to an integrated missile defense capable of 
        defending the U.S., its deployed forces, friends, and allies.
        <bullet> Identify key enablers within the domains of 
        intelligence, surveillance, and reconnaissance; communications, 
        space, and collaborative planning that could rapidly improve 
        our agility and responsiveness.
        <bullet> Identify structural barriers to effective integration 
        and synchronization of DOD efforts to combat weapons of mass 
        destruction.

    The QDR served to remind us of two very important factors: first, 
that the United States is a nation engaged in a long war; and second, 
that our enemies in this long war seek weapons of mass destruction and 
will likely attempt to use them in their conflict with free people 
everywhere. Importantly, the QDR validated the need to adjust the U.S. 
global military force posture by moving away from a static defense in 
obsolete Cold War garrisons. While the review described many areas in 
which we must shift emphasis, we believe three are of particular 
importance to shaping our command and its approach to the future:

        <bullet> From nation-state threats--to decentralized networked 
        threats from non-state enemies.
        <bullet> From ``one size fits all'' deterrence--to tailored 
        deterrence for rogue powers, terrorist networks, and near-peer 
        competitors.
        <bullet> From a focus on kinetics--to a focus on effects.

    We have taken the QDR's imperative for change as validation of our 
desire to accelerate transformation in many areas. While we believe 
progress has been made, more can be done in selected areas to improve 
USSTRATCOM's posture and preparedness to respond to a wider range of 
traditional, irregular, disruptive, or catastrophic challenges. 
Beginning in 2007 we will take steps to:
    Improve USSTRATCOM's nuclear deterrence posture. Key initiatives 
include:

        <bullet> Reduce the number of deployed Minuteman III ballistic 
        missiles in order to provide assets to meet essential flight 
        test needs and ensure the viability of the Minuteman force. 
        This will better balance our legacy nuclear capabilities while 
        preserving our ability to reconstitute additional forces in 
        response to strategic surprise.
        <bullet> Study the requirement for a Minuteman III replacement. 
        We believe this is an essential step toward ensuring our future 
        national security needs.
        <bullet> Study the requirement for nuclear-armed cruise 
        missiles and look at alternative methods of storing these Cold 
        War era weapons. We believe that this study will provide 
        valuable input in support of developing an effective long term 
        strategy to maintain the nuclear stockpile.

    Develop a wider range of conventional deterrent weapons. USSTRATCOM 
championed the need for a prompt, precise conventional global strike 
capability, to bridge the gap between prompt nuclear weapons and less 
timely, but precise, conventional weapons. Key initiatives include:

        <bullet> Deploy an initial precision-guided conventional 
        Trident Sea-Launched Ballistic Missile capability within 2 
        years. The speed and range advantage of a conventional Trident 
        missile increases decision time and provides an alternative to 
        nuclear weapon use against fleeting, high value targets. The 
        conventional Trident missile would be particularly useful in 
        deterring or defeating those who seek to coerce or threaten the 
        U.S. with WMD.
        <bullet> Develop a new land-based, penetrating long-range 
        strike capability to be fielded by 2018.
        <bullet> Study alternative options for delivering prompt, 
        precise conventional warheads using advanced technologies such 
        as hypersonic vehicles from land, air, or the sea.

    Develop non-kinetic capabilities to expand the range of effects we 
can generate against certain targets. Without question we are on the 
verge of a major technology shift to the Network Age. We see an 
environment in which digital internet communication is more pervasive, 
reliable, efficient, cheap, and rapid--even with the enormous increase 
in volume, variety, and velocity of data. Key initiatives include:

        <bullet> Develop capabilities that promote the freedom of 
        action we enjoy in other mediums like, maritime and air.
        <bullet> Develop the doctrine, organization, training, 
        maintenance, logistics, personnel and facilities to defend our 
        Nation in this domain.
        <bullet> Enhance measures to improve information assurance and 
        network security.

    Improve integrated defenses against short, intermediate, and 
intercontinental range ballistic and cruise missiles, and develop 
complementary capabilities to combat weapons of mass destruction. Key 
initiatives include:

        <bullet> Develop and mature integrated air and missile defenses 
        that deter attacks, demonstrating the ability to deny an 
        adversary's objectives.
        <bullet> Integrate defensive systems among our international 
        partners in ways that promote assurance against attack.
        <bullet> Expand the Army's 20th Support Command's capabilities, 
        to enable it to serve as a Joint Task Force capable of rapid 
        deployment in support of WMD elimination.
        <bullet> Improve and expand U.S. forces' capabilities to 
        locate, track and tag shipments of WMD.
        <bullet> Expand our advanced technical render safe capacity and 
        implement measures to increase associated speed of response.

    Improve our nuclear infrastructure. USSTRATCOM recognizes the 
importance of an efficient and more responsive nuclear weapons 
infrastructure to the Department's strategy of tailored deterrence. We 
believe this is the essential element needed to ensure our weapons are 
safe, secure, and reliable, to ensure we can respond to both 
technological and political surprise, and to reduce our current 
stockpile of nuclear warheads.
    In May 2005, the Nuclear Weapons Council commissioned an 18-month 
study, to determine the feasibility of replacing some W76 warheads with 
a Reliable Replacement Warhead (RRW) and to examine the potential for 
using RRW in lieu of the W78 warhead. This U.S. Navy led study will 
include Air Force and Interagency participants and should issue a final 
report in November 2006. We believe this study will be a useful tool in 
addressing some of the concerns raised by the Report of the Defense 
Science Board Task Force on Nuclear Capabilities, dated January 2006. 
The key initiative is to:

        <bullet> Determine the feasibility of replacing existing 
        warheads with a RRW.

    Develop a more coherent global command and control capability and a 
network-enabled architecture that moves information to the user, rather 
than moving the user to the information. The New Triad needs a robust, 
resilient global C2 system that builds on our legacy nuclear C2 system 
and serves as the basis of a critical national-level capability 
suitable for use in emergencies range from terrorist attacks to natural 
disasters. Key initiatives include:

        <bullet> Transition the USSTRATCOM Mobile Consolidated Command 
        Center, providing a survivable and enduring nuclear command and 
        control capability, to a new network of distributed ground-
        based communications nodes; establishing a gateway to a robust 
        multi-functional global command and control capability.
        <bullet> Retire four National Airborne Operations Center (NAOC) 
        and upgrade the TACAMO command and control aircraft, to sustain 
        a survivable airborne link to strategic nuclear forces and 
        broaden our ability to support full functionality of the New 
        Triad.

    Transition intelligence, surveillance, and reconnaissance 
activities from a legacy approach, directed largely at monitoring 
nation states in two theaters, to a true global enterprise tailored to 
meet regional needs. Key initiatives include:

        <bullet> Implement a new global intelligence approach focused 
        on achieving persistent collection capabilities against legacy 
        and emerging threats, with our U.S. Government and allied 
        partners, and improved synergy with the Intelligence Community.
        <bullet> Increase investment in unmanned aerial vehicles (UAVs) 
        to provide greater dwell capabilities in the effort to identify 
        and track mobile targets globally.

    Improve space capabilities. The space mission area creates a 
decisive strategic advantage for our National security, empowering 
critical economic as well as defense related activities. Our dependence 
on space capabilities, coupled with recent significant advances in 
space operations demonstrated by others, establishes a true imperative 
to protect our space assets and our freedom of action in space. 
STRACTOM understands the need to stay at least one technology 
generation ahead of any foreign or commercial space power. We must 
improve space situational awareness and protection, and ensure 
unfettered, reliable, and secure access to space. Key initiatives 
include:

        <bullet> Improve responsive space access, satellite operations, 
        and other space enabling capabilities such as the space 
        professional cadre.
        <bullet> Integrate air and space capabilities to deliver 
        combined effects.
        <bullet> Realign resources to sustain existing space 
        surveillance capabilities.

    USSTRATCOM REQUESTS YOUR SUPPORT TO MEET THE CHALLENGES WE FACE

    Over the next 5 years, we must fully transform while remaining 
engaged in a conflict in which our enemies will use any and all means 
to achieve their objectives. We believe a more aggressive 
transformation schedule than envisioned 5 years ago is essential to 
maintain the strategic advantage needed to deter or defeat those who 
would do us harm. If we do not accelerate this transition, we will face 
these adversaries, who attack through asymmetric means, with the blunt 
weapons of last resort that won the Cold War. That alone will not 
preserve our future national security. In particular we are requesting 
your support in the following areas:
Prompt, Precision Conventional Global Strike
    Tailored deterrence requires a more complete range of capabilities 
to address the wide spectrum of challenges that confront us today. 
While the Department employs expeditionary forces around the globe, it 
is unlikely we will have forces in every place we need them at the 
crucial moment when we have an opportunity to stop a WMD-armed threat 
far from our shores. The United States has the capability to engage 
with high quality conventional forces around the world, given days or 
perhaps weeks to respond. But if our general-purpose forces are not in 
a position to respond rapidly, the need to defeat attacks against the 
United States may require USSTRATCOM to interdict fleeting targets at 
global range. We have the delivery capability on alert today, but 
configured only with nuclear weapons. This choice is not credible 
against many of the extremist adversaries we will face.
    We recommend proceeding with development of the responsive, 
conventional global strike alternative offered by the Conventional 
Trident Modification (CTM). The President's budget request includes 
funds for the modification of a number of submarine based Trident 
Missiles to deliver conventional warheads with precision over thousands 
of miles in tens of minutes.
Global Command and Control (GC2)
    We are now faced with the task of recapitalizing our aging, Nuclear 
Command and Control (NC2) network, which is a matter of prime 
importance. Capitalizing on advances in technology, we envision a 
transition from the single-purpose, stove-piped NC2 network that served 
us during the Cold War, to a multi-functional, distributed, survivable, 
and expandable Global Command and Control capability, leveraging the 
assets and resources of the Global Information Grid and serving the 
needs of our joint warfighters.
    With your support for the President's budget request, we can 
deliver a resilient air, land, and maritime GC2 capability that will 
tie together all elements of New Triad power. Fully developed, the GC2 
will enable collaboration between, and among, DOD and other government 
agencies and partners, providing the core of a National Command 
Capability to meet the broadening array of potential challenges we face 
as a nation. A true National Command Capability will only be effective 
with federally mandated standards for data tagging to facilitate 
enhanced information sharing.
Reliable Replacement Warhead
    Finally, if we are to break the cycle of maintaining and 
refurbishing large numbers of Cold War-era nuclear warheads to guard 
against uncertainty, we request your support to ensure a safe, secure, 
reliable nuclear stockpile, and in the process transform the nuclear 
weapons enterprise. Discussions over the past year within the executive 
branch and Congress have increased understanding of the role for 
nuclear weapons in our current environment, and the value of a 
responsive defense infrastructure. USSTRATCOM supports the RRW as the 
key to transforming our aging Cold War nuclear weapons stockpile. RRW 
will enhance our long-term confidence in the stockpile and reduce the 
need to retain high numbers of hedge weapons while exercising the 
people, science, technology base and facilities required for sustaining 
the nuclear weapons enterprise.
    Maintaining the current stockpile of Cold War era weapons is a 
challenge. If directed, we believe the time is right; the risk is 
manageable; and the opportunity is at hand to choose weapons that will 
best serve our future and allow us to further reduce our overall 
stockpile size, in order to transition to and maintain a smaller but 
safer, more secure, and more reliable nuclear weapon arsenal.
    usstratcom transformational vectors building strategic advantage
    USSTRATCOM plays an important role in leading national efforts to 
send an unambiguous message to our adversaries and friends alike--we 
will do whatever it takes, for as long as it takes, to ensure the 
forces of freedom possess a lasting strategic advantage against those 
who would deny citizens of America and the world the security to govern 
their own future. We will continue to be aggressive and resourceful in 
offering our best advice in the pursuit of capabilities needed to meet 
our National security requirements. With your help we can assure our 
allies, dissuade unhealthy competition, deter coercive or damaging 
acts, and above all else, defend our citizens and defeat our enemies. 
Thank your for your continued support.

    Senator Sessions. Thank you.
    Admiral Young.

 STATEMENT OF RADM CHARLES B. YOUNG, USN, DIRECTOR, STRATEGIC 
                        SYSTEMS PROGRAMS

    Admiral Young. Good afternoon, Senators. I do not have an 
opening comment. I have submitted a statement for the record, 
and I stand by to answer your questions.
    [The prepared statement of Admiral Young follows:]

            Prepared Statement by RADM Charles B. Young, USN

                              INTRODUCTION

    Chairman Sessions, Senator Nelson, and distinguished members of the 
Strategic Forces Subcommittee, thank you for the opportunity to testify 
regarding Navy's role in Global Strike.
    The hierarchy of policy documentation that reflects our National 
strategy identifies the need for precise Global Strike. The President's 
National Security Strategy (NSS) directs an active approach toward 
countering transnational terrorist networks, rogue nations and 
aggressive states that possess or are working to gain weapons of mass 
destruction or effect (WMD/E). The National Defense Strategy further 
charges the Department of Defense (DOD) to secure the United States 
from direct attack, and to counter, at a safe distance, those who seek 
to use WMD/E against us. To deter or otherwise prevent such an attack 
against the United States, its allies or its interests, our National 
Military Strategy emphasizes the need for rapid and accurate Global 
Strike, by both nuclear and conventional means.

                  THE 2006 QUADRENNIAL DEFENSE REVIEW

    In accordance with the aforementioned strategic policy, the 2006 
Quadrennial Defense Review (QDR 06) further explored the requirement 
for Global Strike.
    In particular, QDR 06 detailed the need for a Joint Maritime Force 
capable of ``conventional Global Strikes against time-sensitive targets 
. . . to counter political anti-access and irregular warfare 
challenges.'' Today's Navy provides this capability via flexible, 
forward-deployed assets such as Carrier Strike Groups, Expeditionary 
Strike Groups, and Guided Missile Submarines (SSGN). Yet among the key 
proposals made by QDR 06 was a refinement of our existing maritime 
capability to include ``a wider range of conventional and non-kinetic 
deterrent options.'' Specifically, QDR 06 proposed that a number of 
TRIDENT submarine-launched ballistic missiles be converted for use in 
conventional Global Strike.

                   CONVENTIONAL TRIDENT MODIFICATION

    Conventional TRIDENT Modification (CTM) adapts the TRIDENT II (D-5) 
missile system to deliver conventional (non-nuclear) effects at global 
ranges. The TRIDENT Weapon System and the D-5 missile are well suited 
for this role by virtue of the long range and payload capacity of the 
D-5 missile, and the responsiveness and survivability of the TRIDENT 
weapon system. Responsive, survivable and persistent, CTM will defeat a 
diverse set of unpredictable threats without visible presence or risk 
to U.S. forces, and with little or no warning prior to strike. CTM 
implements the New Triad envisioned by the Nuclear Posture Review, and 
is an evolution of deterrence toward conventional weapons. CTM CONOPS 
are currently under development at U.S. Strategic Command (USSTRATCOM).
    CTM will use existing D-5 missiles, MK4 reentry bodies equipped 
with aerodynamic controls, GPS-aided terminal guidance, and a 
conventional warhead. Advanced error-correcting reentry vehicles with 
GPS-aided Inertial Navigation Systems have been flight proven in a 
previous D-5 test program. Total time from decision to weapons-on-
target is about 1 hour. CTM technology can be rapidly developed and 
deployed within 24 months. The total cost of the program, including 
operations, training, and support is $503 million. The CTM program is 
fully funded, with $127 million budged in fiscal year 2007 and $376 
million budgeted through fiscal year 2010. The CTM program will 
leverage existing D5 investment and infrastructure to minimize risk to 
operations, training and support funding.

                        FURTHER NAVY INVESTMENT

    In addition to proposing a conventional Global Strike option, QDR 
06 called for the continued maintenance of our existing nuclear 
capability. Navy has several initiatives underway toward this end.
TRIDENT II D-5LE Program
    TRIDENT II (D-5) Submarine Launched Ballistic Missile Life 
Extension (LE) program will redesign and replace aging missile 
electronics and guidance systems. Under this program, 108 additional 
missiles will be procured in order to meet long-term inventory 
requirements associated with the life extension of the Ohio class 
Nuclear-Powered Ballistic Missile Submarine (SSBN) from 30 to 45 years. 
Redesign of missile electronics and guidance components is in progress, 
and procurement of new D-5 LE missiles begins in fiscal year 2008. The 
TRIDENT II (D-5) missile has been operational since 1990, providing the 
backbone of America's strategic deterrence. The low-rate production 
continuity procurement strategy has been extensively reviewed and 
approved by DOD and the Congress, and has been in execution for nearly 
15 years. This procurement strategy has proven successful, based on the 
demonstrated performance of the TRIDENT II D-5 weapon system. The Navy 
submitted a report to Congress in December 2002 that detailed the 
impact of alternative full-funded procurement strategies and 
recommended continuation of current production. Continued production of 
critical components represents the best balance of cost and risk to 
extend the life of the D-5 missile.
Tomahawk Cruise Missile
    There are currently four variants of the Tomahawk Cruise Missile in 
inventory-the Block II with a nuclear warhead, the Block III with 
either a conventional unitary warhead or sub-munitions payload, and the 
Block IV Tactical Tomahawk Missile (TACTOM) with the conventional 
unitary warhead. All four Tomahawk variants provide all weather long-
range precision strike capability, supporting Sea Strike as an enabler 
of Carrier and Expeditionary Strike Groups. The Block IV TACTOM 
provides greater flexibility and responsiveness, at significantly 
reduced life cycle cost, than previous Tomahawk variants. Significant 
Block IV upgrades include flex targeting (with up to 15 pre-planned aim 
points loaded prior to launch), in-flight retargeting, launch platform 
mission planning, and a two-way ultra-high frequency (UHF) satellite 
communications data link. The Tomahawk Block IV is currently in full 
rate production and the Navy is committed to supporting the Tomahawk 
Weapon System program. The fiscal year 2007 budget request supports 
continued procurement of this deep-strike weapon due to inventory 
reductions during Operation Iraqi Freedom (OIF)/Operation Enduring 
Freedom (OEF) combat operations. Tomahawk Cruise Missiles are currently 
being procured in a 5-year, multi-year contract that saves 
approximately 12 percent over annual procurement contacts.
SSGN Engineered Refueling Overhauls (EROs) and Conversions
    The Nuclear-Powered Cruise Missile Attack Submarine (SSGN) project 
refuels, overhauls, and converts the four oldest Ohio class SSBNs to 
SSGNs. These SSGNs will provide a transformational warfighting 
capability, carrying up to 154 Tomahawk cruise missiles and supporting 
deployed special operating forces. The new SSGNs will also have 
enhanced communication and improved masts and antennas for network 
centric operations. The SSGN conversions are being executed via a 
public-private partnership with Naval Shipyards. The first SSGN 
conversion, the U.S.S. Ohio (SSGN-726), was delivered in December 2005 
after 3 years in production. Future deliveries include the U.S.S. 
Florida (SSGN 728) in April 2006, the U.S.S. Michigan (SSGN 727) in 
December 2006, and the U.S.S. Georgia (SSGN 729) in September 2007.
SSBN Engineered Refueling Overhauls (EROs)
    The Ohio class SSBN remains the backbone of USSTRATCOM's nuclear 
strike capability. Comprised of 14 TRIDENT II D-5 configured hulls, the 
Ohio-class SSBN remains the most survivable nuclear deterrent in the 
U.S. strategic arsenal. In keeping with the Secretary of Defense's 
Nuclear Posture Review, the U.S.S. Alabama (SSBN 731) began its ERO (in 
conjunction with TRIDENT C4 to D-5 conversion). In fiscal year 2007, 
the U.S.S. Alaska (SSBN 732) will begin its ERO at Norfolk Naval 
Shipyard (NNSY). The Navy will continue with SSBN EROs at the rate of 1 
per year, alternating between NNSY and Puget Sound Naval Shipyard, in 
order to sustain our strategic deterrent capability well into the 
future.

                               INNOVATION

    The Navy received an fiscal year 2006 congressional plus-up of $7.2 
million to demonstrate the feasibility of the Submarine Launched 
Intermediate Range Ballistic Missile (SLIRBM). Navy will use this money 
to fabricate one launch chamber and one prototype full-scale rocket 
motor, and to fund a subsequent test firing. Emphasis of this 
demonstration will be on affordability, defined as the combination of 
the lowest projected boost motor subsystem development cost, and the 
lowest possible expected average unit cost for a notional inventory of 
100 missiles. This effort will demonstrate several innovative motor 
designs and manufacturing techniques in pursuit of an affordable SLIRBM 
system.

                                SUMMARY

    Our national strategic policy identifies the requirement for a 
broad range of Global Strike capabilities. Due to its unrivaled access 
to the global commons, the Navy is uniquely positioned to fulfill this 
requirement. In response to the need for conventional Global Strike, 
our CTM program is based on mature technologies and existing 
components. It is compliant with all arms control agreements, and can 
be developed and deployed within 24 months. Furthermore, we are 
redesigning and replacing aging missile systems and platforms in order 
to meet the long-term requirements of nuclear deterrence and Global 
Strike. In the meantime, Navy will continue to work closely with 
members of this subcommittee and Congress to refine our operational 
concepts and investments in order to deliver the dominant power our 
Nation expects. We look forward to our continued partnership in this 
endeavor.

    Senator Sessions. Thank you very much.
    General Gorenc.

    STATEMENT OF MAJ. GEN. STANLEY GORENC, USAF, DIRECTOR, 
OPERATIONAL CAPABILITY REQUIREMENTS, DEPUTY CHIEF OF STAFF FOR 
             AIR AND SPACE OPERATIONS, HEADQUARTERS

    General Gorenc. I'm the same way, actually. It's a pleasure 
to be here, and I look forward to answering your questions.
    [The prepared statement of General Gorenc follows:]

          Prepared Statement by Maj. Gen. Stanley Gorenc, USAF

                              INTRODUCTION

    Thank you for the opportunity to discuss Air Force capabilities 
with respect to Global Strike. It is important to pay tribute to the 
airmen who are currently engaged in operations around the globe 
projecting the full range of air, space, and cyberspace operations as a 
part of a true joint and coalition team, multiplying the effectiveness 
of our partners by providing sovereign options for the defense of the 
United States of America and its global interests. We fly and we 
fight--whether we are flying A-10s over Afghanistan; F-16s over Iraq; 
communications satellites in geosynchronous orbit; piloting Unmanned 
Aerial Systems (UAS) patrolling Baghdad; or maintaining vigilance over 
our Nation's homeland in an airborne warning and control system 
aircraft. All airmen, no matter what their specialty, contribute to 
this mission. Today there are approximately 30,000 Active-Duty, Air 
National Guard, and Air Force Reserve airmen deployed around the world, 
many in harm's way. These brave men and woman are performing what we 
would say are traditional Air Force missions, such as providing close 
air support for ground operations and intelligence, surveillance, and 
reconnaissance from air and space-based systems, or nontraditional 
duties, like convoy operations, provincial reconstitution teams, 
military transition teams, detainee operations, protective service 
details, and the list goes on. Your Air Force today is deployed to over 
100 forward operating locations touching all 7 continents. Our 
commitment to the combatant commanders extends well beyond airmen in 
the Central Command area of responsibility. We have nearly 210,000 
airmen actively supporting combatant commander operations worldwide. 
These include nuclear alert operations, satellite operations, global 
airlift, worldwide tanker operations, and Homeland defense obligations 
of approximately 40-50 fighter aircraft, Airborne Warning and Control 
System (AWACS), and a dozen tankers on duty protecting our skies. 
Beyond that, we have another 195,000 airmen available for ``Surge 
Operations,'' which are over and above planned deployments, the 
majority of these airmen are Guard and Reserve Forces.

                   MAINTAINING OUR NUCLEAR DETERRENT

    The Department of Defense's (DOD) new strategy of employing a 
capability-based vs. threat-based approach to planning led to the 
ongoing transformation of the existing triad of U.S. strategic nuclear 
forces. The old Triad, consisting of intercontinental ballistic 
missiles, sea-launched ballistic missiles, and bomber aircraft armed 
with cruise missiles and gravity weapons; is transitioning to become 
part of a New Triad composed of a diverse portfolio of capabilities. 
Elements of this New Triad will include nuclear and non-nuclear strike 
capabilities, active and passive defenses, and robust research and 
development programs and industrial infrastructure for developing, 
building, and maintaining offensive and defensive weapon systems, all 
tied together with advanced command, control, computers, 
communications, intelligence, surveillance, and reconnaissance 
capabilities. Maintaining and modernizing our traditional nuclear 
strategic forces, at lower numbers is a key component in an effective 
New Triad.
    The Minuteman III Intercontinental Ballistic Missile (ICBM), the 
backbone of our deterrent force, maintains its entire force on 
continuous alert. Elements of the Minuteman system were originally 
designed in the late 1950s and deployed operationally in October 1962; 
the Minuteman III was deployed beginning in 1975. Modernization 
programs have been crucial to this system, originally designed to last 
just 10 years. Service life extension programs, nine in all and well 
underway, ensure the ICBM force is reliable, survivable, safe, and 
secure through 2020 when the follow-on system, the Land-Based Strategic 
Deterrent (LBSD) becomes operational. Enhancements to LBSD will include 
improved accuracy, range, and security with a reduced cost of 
ownership.
    The Quadrennial Defense Review (QDR) directed the Minuteman force 
be reduced from 500 to 450 beginning in fiscal year 2007. This 
reduction will maintain an effective, balanced nuclear force for 
worldwide deterrence. The Air Force is currently evaluating which 50 
ICBMs will be deactivated. We estimate the cost of deactivation will be 
approximately $19.5 million. Post deactivation, around fiscal year 
2010, the Air Force estimates an approximate recurring savings of $3.5 
million. This figure does not include any manpower savings for the 
missile operators, maintainers, depot support and training personnel 
associated with the deactivation of a missile squadron, because these 
positions will be distributed elsewhere within the Air Force as part of 
rebalancing the Total Force.
    The continuing advancements in conventional weapons capability, 
specifically increased precision and stand-off weapon ranges, will also 
allow us to reduce the Total Aircraft Inventory of B-52s from 76 to 56. 
The savings from these reductions will be utilized to fund the 
remaining bomber modernization effort, known as Phase One of the Long-
Range Strike effort.

                           LONG-RANGE STRIKE

    Our forces must be simultaneously responsive to multiple combatant 
commanders and be able to strike any point on the planet. To further 
refine our rapid strike capabilities, the Air Force is transitioning to 
a long-range strike strategy focusing on effects instead of platforms. 
We view long-range strike as the capability to achieve desired effects 
rapidly and persistently on any target set in any operational 
environment. The Air Force has a three-phased approach to meet the 
Nation's longrange strike requirements. Today, we provide deep strike 
capabilities through a variety of platforms and weapons. In Phase One, 
we will continue to modernize the legacy bomber fleet to upgrade, 
strengthen and increase their combat effectiveness. Phase Two, what we 
call the Next Generation Long-Range Strike effort, leverages near-term 
technologies to start development of a long-range strike capability 
that augments the current fleet around fiscal year 2018. In this phase, 
we will develop and field a Regional Strike capability or set of 
capabilities, with an emphasis on survivability and lethality 
improvements. Phase Three encompasses the development of advanced 
technologies today that will allow us to enable advances needed for the 
envisioned capabilities in fiscal year 2035. These future capabilities 
must combine speed, stealth, and payload to strike hardened, deeply 
buried, or mobile targets, deep in enemy territory, in an anti-access 
environment, in adverse weather and with survivable persistence.

                          PROMPT GLOBAL STRIKE

    The New Triad requires the future force to provide a tailored and 
balanced deterrence capability that includes a wider range of 
conventional prompt, precise global strike systems more agile than 
current systems. This includes the ability to strike within hours, not 
days, any high value target, regardless of anti-access threats or 
denial of forward-based assets. To this end, United States Strategic 
Command and the Air Force have partnered to close the identified gaps 
with respect to this need. The effort is called Prompt Global Strike 
(PGS), and it can be accomplished in a variety of ways, through kinetic 
systems capable of placing conventional payloads precisely on target 
within minutes of release, to non-kinetic means, such as computer 
network attack. The initial capabilities document defining PGS was 
written in May 2005. On 16 February 2006 the Air Force Requirements for 
Operational Capability Council approved the PGS document. An analysis 
of alternatives will begin spring 2006.

                               CYBERSPACE

    Assured, rapid delivery of information to the right warfighters is 
the foundation for all Air Force operations. Cyberspace is a logical 
extension of our core competencies, enabling fast-moving effects across 
the spectrum of war nearly eliminating time and distance as obstacles. 
We must maintain our pre-eminence in cyberspace to ensure success in 
any future conflict. Preparing for the future, the Air Force is 
currently exploring innovative organizational constructs to ensure 
unity in the procurement, operation, sustainment and defense of 
information systems. This and other concepts are being explored by a 
Cyberspace Task Force.

                               CONCLUSION

    Your Air Force of today and of the future will strengthen the 
entire joint and coalition team. Dominance of air, space, and 
cyberspace paves the way to overall success. In keeping with the 
current emphasis on innovation and transformation, the future Air Force 
will be a more capable yet leaner force. As the keepers of our Nation's 
readiness, Congress is in a position to help reach these essential 
goals and for that we thank you for your unwavering support. For 
America to hold its military advantage, the Air Force must continue to 
improve its capabilities to keep pace with the realities of the future 
battlespace. The United States Air Force is proud to support the joint 
team and we look forward to addressing Air Force Global Strike issues 
with your committee.

    Senator Sessions. Well, good. Let me just pursue a little 
bit with Mr. Flory and General Cartwright the Global Strike 
concept. I know Senator Nelson is in a rush and now trying to 
finish up here, but you mentioned Prompt Global Strike, what is 
the difference from other Global Strike forces and under what 
circumstances is it that a Prompt Global Strike is better or 
necessary?
    General Cartwright. The differentiation between Global 
Strike and Prompt Global Strike, Global Strike today, we have 
fielded, as the Secretary laid out, a set of new capabilities 
in the past year that are very significant in Global Strike for 
the conventional side of the equation. We have fielded a new 
sea-launched cruise missile, the next generation of the 
Tomahawk cruise missile that is sea-launched. We have fielded a 
new air-launched cruise missile that goes on both our tactical 
aircraft and our bombers, and we have added in additional joint 
direct-attack munitions that were so effective in the last two 
conflicts that we have fought. We have increased the 
inventories there. Those have given us a Global Strike 
capability that is very significant and very capable. You will 
see this year two additional, what used to be SSBN-type 
submarines for ballistic missiles, two of the four that have 
been converted will field this year to SSGN, which allows 
Special Operations Forces and these new sea-launched cruise 
missiles to be used from that platform. So, we've added to the 
Global Strike capability.
    The difficulty here for Prompt Global Strike is, as I said, 
the adversary may not choose to act near our bases or our 
patrol areas. If that's the case, and we're dealing with 
targets that are associated with weapons of mass destruction, 
command and control, terrorist-type leadership targets, these 
targets tend to be fleeting. They don't present themselves for 
long periods of time. They tend to be targets that have great 
second and third order consequence or regret for the Nation. If 
it has to do with WMD and the delivery of WMD, say by a missile 
or by a terrorist group, et cetera, you want to have the 
opportunity to address these targets.
    In many cases, nuclear weapons are not going to be an 
appropriate choice for those types of targets. You want a 
conventional alternative. For that small, highly important set 
of targets, we are basically offering the capability to use a 
conventional ballistic missile to reach out anyplace on the 
face of the Earth, and a goal that we have set is to be able to 
address these targets in 1 hour. We are working our way towards 
that. The ability to have a command and control system that can 
work in those kinds of time lines, the intelligence that it 
takes to support that, and the planning factors and 
capabilities that it takes to support it are all things that we 
are now starting to field.
    Senator Sessions. The aircraft that launched our sea-based 
cruise missiles, are they just too slow?
    General Cartwright. Too slow. What we have seen, and there 
are numerous examples from the recent conflicts, first days of 
the Iraq War, of dealing in time lines of 4 to 10 hours in 
order to close on fleeting targets that are significant and 
important to the Nation. The activities that were associated 
with Afghanistan in trying to get up into the mountain areas, 
it took us several weeks to get the overflight clearances and 
all of the positioning of forces in order to be able to close 
with what turned out to be some very high-value targets had we 
been able to prosecute them.
    You never know. I mean, I'm not here to tell you that we 
missed a target, and that would have changed the whole shape of 
the conflict. But there are targets out there that you'd like 
to be able to get to very quickly that could potentially change 
the whole course of the conflict, and those are the types of 
things that we are looking at with this capability.
    Mr. Flory. Mr. Chairman?
    Senator Sessions. I can see that would be a benefit. 
Secretary Flory?
    Mr. Flory. If I could just add a general point, everything 
that General Cartwright says is, I think, just right. Looking 
at this from the perspective of the policymaker and looking at 
this from the perspective of giving the President options, I 
think it's helpful you focus on the promptness point and 
appropriately because that's an extremely important point. We 
have capabilities. We have capabilities that are accurate and 
that can do a lot of good things, but to date, we don't have 
anything that can get there quickly except for a nuclear 
weapon, which is not the appropriate weapon to use in every 
circumstance.
    If we go back, I think it's instructive to look at the 9/11 
Report and the discussion there of the difficulty that 
President Clinton and his people had dealing with the Osama bin 
Laden threat and dealing with particularly the period after the 
African Embassy bombings in August 1998, which had demonstrated 
that we were under attack from a very serious threat. They 
worked very hard. Very dedicated, diligent, professionals 
worked very hard to come up with options, to come up with 
opportunities to do something about that threat. If you read 
through the report, what you see constantly is concerns about 
boots on the ground, concerns about basing access, concerns 
about overflight, concerns about timing. Although less of an 
issue there, you could also have concerns about air defenses 
and all kinds of other things that could constrain the options 
that a President might have.
    I think the lesson we learned out of that is the need to 
try to come up with this full spectrum of options for the 
President so that in a difficult situation like that, and a 
challenging situation like that, where the traditional options 
for one reason or the other do not work or do not give him a 
risk benefit calculation that is acceptable, that we can try 
and fill in that gap, and that's the reason why we believe that 
this conventional Trident system is something worth pursuing.
    Senator Sessions. Senator Nelson?
    Senator Bill Nelson. Is the kinetic energy on an incoming 
D-5 warhead--is it such that it can penetrate the earth rather 
deeply?
    General Cartwright. We're still in the test phase, but as 
you know from your background, we're dealing in the 1,500 feet 
per second area. With a reentry vehicle, we're dealing 
somewhere between 14,000 and 20,000 feet per second. That 
energy is significant. We call them slumps. It's a shaped mass 
that we use which we intend to use here as one of the 
alternatives. With that kind of energy, the round survives, and 
it just penetrates. Now, you have to look at the geology and 
the continuity of the geologies to know how deep, but there's 
not much doubt in our mind that it will have applicability 
against hard targets, that it will have applicability against 
buried targets. We need to do further testing to understand how 
deep. Is that a fair interpretation?
    Admiral Young. Yes, sir. There's a lot of variables there, 
this round is not a penetrating warhead that we have read 
about, it is a warhead that does penetrate the earth, but not 
to significant amounts and certainly is dependent upon the type 
of soil, the type of area that it is.
    Senator Bill Nelson. So, this isn't the way you go at the 
deeply hardened targets?
    Admiral Young. No, sir, it is not.
    Senator Bill Nelson. This is just a quick reaction?
    Admiral Young. Yes, sir.
    General Cartwright. It probably would, though, have both 
the accuracy and the energy to close entrances and exits very 
efficiently.
    Senator Bill Nelson. Let's assume that this weapon is fired 
from a submarine in the Atlantic for a target in Afghanistan 
and you have a flight time of maybe 25 minutes. Now, how in the 
world are you going to convince Russia that that's not a 
nuclear weapon being fired at them since it's going to go right 
over Russia?
    General Cartwright. Two pieces: First, we'd have the option 
of using a different trajectory. In other words, as we go 
through the basing construct of where we would position the 
submarines, we intend to optimize that so that we do not have 
to do overfly, particularly of Russia. It's one of the things 
that certainly was a factor in deciding to move to the sea-
based and mobile platform, was to have that option. That's the 
first point. The second point--well, this is probably not the 
appropriate place to talk about the exact characteristics of 
what any country has in the way of warning. The Russians will 
know very quickly, as they have all the way through the Cold 
War and up to today, what the trajectory is and where the 
impact points will be. That is well within their technology.
    Senator Bill Nelson. So, that's the way then, Mr. 
Secretary, that you say that you can let other people know that 
this is not an incoming nuclear warhead?
    Mr. Flory. Sir, I think there are a number of ways. First 
of all, there are the observable characteristics, which, as 
General Cartwright said, would fairly quickly become clear, say 
to the Russians, that this was not something that was going to 
Russia. It would also be one or maybe two systems, two weapons 
coming at them, and I think that the Russians, first of all, 
would be able to discriminate that. They'd understand that this 
was a very small number of weapons, and I think they would 
understand, particularly in the context of a possible pre-
notification from the United States, that not only had we told 
them that this was not an all-out attack on Russia, but from 
the fact that there are only a couple of missiles in the air, 
that it wouldn't look like any kind of all-out attack that they 
might, it wouldn't look like the way they would imagine us 
conducting an attack against Russia if we desired to make an 
attack against Russia.
    Senator Bill Nelson. But if your protocol is to give the 
President the opportunity within 1 hour to hit a high-value 
target, you're not exactly going to want to have a lot of pre-
notification. So, how do you do that?
    Mr. Flory. Senator, I don't think you need a lot of pre-
notification. You obviously need to have enough notification so 
that it has the desired effect so that the message can be 
passed. On the other hand, I think it's also true that in a 
given situation, say an attack against a terrorist target in 
Afghanistan, this is not something just as a matter of Russia's 
policy. I don't think that Russia's going to have any objection 
to, and it's not something that I think the Russians would feel 
any particular inclination to want to warn the target about. I 
think these are all factors that would clearly have to be part 
of the decision. You're absolutely right in that the President, 
in looking at a launch of this type, would have to weight all 
of these factors, but I think there are things that can be 
dealt with and could be weighed out in the decisionmaking 
process at the time.
    Senator Bill Nelson. So, if you found Osama bin Laden in 
Chechnya, that'd be a more difficult decision?
    Mr. Flory. That would be more complex, Senator.
    General Cartwright. That's a fair assessment.
    Mr. Flory. A fair statement. But the Russians might want to 
handle that themselves.
    Senator Bill Nelson. With one of our D-5s?
    Mr. Flory. No, sir. However they chose to do it.
    Senator Bill Nelson. Not if you only have an hour's notice. 
If you have a high-value target that's going to move, you can't 
pass that off.
    Mr. Flory. I was responding to your second hypothetical.
    Senator Bill Nelson. General, what's the rationale for 
retiring the 37 B-52s since there has been an extensive 
upgraded program?
    General Cartwright. Twofold here, and then I'm certainly 
happy to allow the Air Force to speak also. The first is that 
as we move forward, originally we had thought about looking at 
replacements out in the 2025 time line, and the reality is the 
attributes that we are seeking for the next generation of 
strike capability, whether it's manned or unmanned, in order to 
continue to be survivable, in order to continue to deliver the 
sophisticated weapons that we want to deliver in the future, 
and in order to continue to be relevant with the three bombers 
that we have today, we have to start to think about where do we 
want to move, what kind of survivability characteristics do we 
want to have in that fleet, how much of it should be manned 
versus unmanned, how dynamic is the environment that the 
aircraft or vehicle will have to live in as to whether or not 
it could actually even be manned or unmanned, is it a family 
like we have today, with some of them being more survivable 
than others, some even have the longer range or different 
persistence characteristics. Clearly, we need to be able to 
move back and forth between conventional and nuclear if we are 
to retain both types of capabilities into the future, which 
right now I don't see any direction to move away from that.
    So, in order to start to experiment and to understand what 
the art of possible is, two things were decided in the QDR--one 
was 2020--2025 may be too late. Let's accelerate that up and 
get it closer to 2015 to 2020 timeframe, 2018 being an 
objective that we're looking at right now; second, start to 
explore what the attributes ought to be and what is doable in 
the technical side that could be achieved by that timeframe. As 
you indicated in the cruise missile activity and the RRW, 
finding resource to do that, understanding the resource that 
might be available, looking at the risks associated with what 
can I slow down or do less of in order to generate that 
resource. We have the B-1s. We have the B-2s. The B-2s have 
just finished an upgrade and are working on their next 
generation. The B-52s that we have are being upgraded, and we 
have new weapons for all these platforms. Those weapons have 
raised the efficiency of the platform, just like precision 
brought to us the ability to get to what we call number of 
targets per weapon and sortie versus number of sorties per 
target.
    The next generation weapons that we're fielding, these air-
launched cruise missiles, the joint direct-attack munitions, et 
cetera, are much more efficient than they were in the past. So, 
of the places that we had in order to take resource and to 
start to move us towards the next generation capabilities, we 
felt that we could take a reduction and take the risk in this 
area in order to move forward, given that we have now a year 
under our belt with these new weapons, and they're 
demonstrating their worth, that it was the appropriate time to 
take some risk.
    Senator Bill Nelson. Are you assuming that you will have a 
new bomber by 2018?
    General Cartwright. That is our objective. In order to 
protect against that assumption, we are only taking this many. 
We're not taking an entire class of bomber out, and we are 
continuing in the robust production of the new weapons.
    Senator Bill Nelson. Are all your remaining B-52s going to 
be at Barksdale?
    General Cartwright. No, they'll be split. We'll have two 
sites. The B-52s? Yes, two sites.
    Senator Bill Nelson. Mr. Chairman, I have a bunch of 
questions. I'm going to submit them for the record. If I may, 
since General Cartwright can't be here for next week's hearing 
on missile defense, I need to ask him this question--the 
Ground-based Midcourse Defense system was deployed starting in 
the fall of 2004, but it's not yet been put on constant 
operational alert. There are still a bunch of integration 
command and control issues being worked out, and you haven't 
had a single successful intercept test. You'd want the system 
to be placed on operational alert when it's ready and when it's 
operationally effective, but we don't have that demonstrated 
yet. So, before you put it on alert status 24/7, will you want 
to have the confidence from a number of successful intercept 
flight tests?
    General Cartwright. Those questions, Senator, are right on 
the mark. As we said last year when we went through this 
discussion, there were many objectives that we wanted to get 
highlighted and taken care of over the past year. We have had 
great success in operationally realistic tests. We have had 
operational tests across the face of the sensors, which was 
critical. We have tested the command and control. We have not 
had the successful intercept, but we now have a successful 
flight of the operational system. That occurred here just 
recently. We have two more tests that are scheduled this year, 
the second of which is to be an operational intercept.
    Senator Bill Nelson. Let me just cut to the chase.
    General Cartwright. Yes, sir.
    Senator Bill Nelson. What criteria are you going to use to 
judge that it's ready for operational alert?
    General Cartwright. We had what we called last year a 
shakedown, which I walked through with the committee last year, 
but it was putting operators on the system, getting the 
operationally realistic activities. All of the lessons learned 
that we went through are in the process of being incorporated 
into the command and control of the system, into the sensors 
and into the weapons. That upgrade is due to be completed 
sometime in the summer of this year. Then we need to make sure 
that it does what we want it to do--in other words, the command 
and control performance like the war fighter needs it to 
perform to give them the confidence the sensors do and the 
weapons. The long pole in the tent, as you indicate, is the 
intercept tests. But this summer, we should have a clear 
understanding of the command and control piece and the sensor 
piece. Then the weapon has to perform. We have to see 
intercepts.
    Senator Bill Nelson. So, it's possible that we won't have 
this weapon on operational alert for another year?
    General Cartwright. Yes, the Ground-Based Interceptor 
(GBI), if it doesn't perform.
    Senator Bill Nelson. Thank you, Mr. Chairman, I appreciate 
it.
    Senator Sessions. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. First of all, 
thank you for letting me listen in. We had a hearing this 
morning in the Appropriations Defense Subcommittee, and General 
Moseley was there as well as Secretary Wynne talking about a 
number of these issues. I wanted to come because I was 
specifically interested in the B-52 issue, but I am also 
intrigued about the cost of using an ICBM with a conventional 
weapon. I will probably deal with that later at some point in 
some other venue, but let me ask about B-52s if I might because 
my understanding is that we used about 140 B-52s in the first 
Gulf War. We had 82-84 B-52s cycle in and out of the 
Afghanistan-Iraq theater, and we are proposing to go to 56 B-
52s. I was looking and the B-52 obviously is a bomb truck, a 
platform, and it has great loiter time and has been used very 
effectively. But I was looking at the cost per aircraft on our 
bombers, and General Cartwright, you talked about it as did 
General Moseley and others about the lack of money to do all 
that we want to do. I mean, we have to economize, no question.
    Senator Sessions. Senator Dorgan, I'll just tell you they 
did start a vote a couple of minutes ago. Whatever your time 
is, I just want to give you that heads up.
    Senator Dorgan. I appreciate that. The average cost per 
year per aircraft on the B-1 is about $16 million, B-2 about 
$22.5 million, and the B-52 about $8 million. The B-52 has 
about a 35-year additional life. I think on average our B-52s 
have about 16, maybe 14,000 to 16,000 hours on them, probably a 
third or a fourth the hours of the commercial aircraft you 
board out here at National Airport, in most cases because they 
are running them up at 50,000, 60,000, 70,000 hours. The fact 
is it's an old carcass, but it's rejuvenated--new electronics, 
the whole thing, much less expensive than the rest of the 
bomber fleet. I wonder about the tension here between wanting 
to save money and deciding to retire a substantial portion of 
that part of the bomber fleet that is the least cost to 
maintain, having low hours and new electronics.
    General Cartwright. Sure.
    Senator Dorgan. I just wanted to ask about that. If this is 
a budget-driven decision, or if you had your druthers, would 
you think you'd need more than 56 B-52 bombers?
    General Cartwright. I'll give you my opinion.
    Senator Dorgan. Sure.
    General Cartwright. When we look at the bombers, cost is 
certainly one metric. Wearing this uniform, I never thought I 
would see a B-52 that was relevant in close air support, direct 
contact with troops in areas. Yet, given the weapons that we 
have today, the workhorse has, in fact, shown great utility. 
That's not arguable, that's fact. But in the period of time 
that you described, as we bring on these new weapons, the 
things that made the B-52 relevant--the precision, the number 
of munitions that could address a large number of targets and 
persist over the target area for many hours, which that 
airplane can do with tankers, now the weapons are becoming even 
more efficient so you can hold at risk even more targets, more 
diversity in the target sets.
    In the survivability side of the equation, in persisting in 
a target area, generally we look at two key attributes, that 
is, the stealth of the aircraft and the ability to evade radars 
and other types of sensors. Then generally, in times past, we 
also use speed. Speed is, as pilots tend to refer to it, speed 
is life because if you can go fast, you can also defeat a lot 
of enemy capabilities. So, it appeared to us, in looking at 
this as a judgment, that retaining the survivability attributes 
of the B-2, retaining the speed survivability attributes of the 
B-1, and retaining the equivalent efficiency of the B-52, but 
reducing the numbers because you had increasing capability 
across the munitions, gave us the best spread across the three 
platforms.
    Senator Dorgan. If I just observe the air-launched cruise 
missiles, of course, are standoffs, so there you're just 
dealing with the truck, and the most efficient truck there is 
the B-52 by far.
    General Cartwright. Right.
    Senator Dorgan. One third the cost, one half the cost 
comparing the other two bombers. In addition, I have been a big 
supporter of the F-22. The reason we want to do that is we want 
to clear the battlefield and clear the air above it and control 
it at which point you then loiter above it, in most cases, and 
use the bomb truck again with precision weapons such as Joint 
Direct Attack Munitions (JDAMs). It seems to me in those cases, 
it will almost always augur for the most efficient bomber for 
us, which is the B-52.
    I was here, of course. I've been here through the B-1 and 
the B-2. I understand why we built the B-2--low-level 
penetration of Soviet airspace, the stealth and so on, but I 
also think that we, at this point, are about to make a choice 
that is at odds and is with significant tension of the desire 
to save money and still accomplish the same mission. General 
Cartwright, I respect your answer, and I've heard that answer 
before, but I do think those of us that are pushing for the F-
22 are doing so for a reason and that is to control the 
airspace and control the battlefield above the battlefield at 
which point you bring in the bomber truck. I'm telling you, 
it's pretty hard to find a bomber truck that is more efficient 
than the B-52. If you want to save one third the money, you 
bring in the bomber truck that can loiter longer and has low 
hours and new avionics and costs one third the cost of the 
other bombers. So, I just make the point. I hope, as we think 
through this as a Congress and as a Pentagon, that we'll try to 
think through not only the considerations you just described, 
but the considerations that we're talking about with respect to 
trying to fund this F-22 in a robust way in order to control 
the airspace.
    General Cartwright. I think those are valid considerations. 
I would just lay out for you how, at least from my perspective, 
we thought through the equation.
    General Gorenc. Could I just add something also?
    Senator Dorgan. Yes.
    General Gorenc. With regards to this sir, I think you're 
absolutely right.
    Senator Sessions. Pull that microphone on up to you there. 
There you go.
    General Gorenc. What I was going to say, I think, sir, 
you're absolutely right in the sense of when you start 
comparing the different platforms and things of that sort, I 
mean it really is a combination of platforms that is going to 
give you the effect that you want on the battlefield. I think, 
with regards to the B-52, the issue with this one is that you 
have those weapons that, in fact, allow it to be more 
survivable, more effective in the battle space. Consequently, 
you may not necessarily need as many. It is a workhorse. We 
have always said it has been, and when we were fielding the 
Joint Air-to-Surface Standoff Missile (JASSM), basically a very 
precise munition.
    Senator Sessions. What would it be launched from?
    General Gorenc. The B-52.
    General Cartwright. And the B-2.
    General Gorenc. And the B-2.
    General Gorenc. It's advancing obviously to the others, but 
there is also a JASSM-extended range, which will give it a 5-
engine model capability. In other words, more capability, which 
will again make this platform more effective. I guess my point 
is, to kind of piggyback here, is yes, this platform has been 
with us for a long time. It's a great platform, but as the 
capabilities of the weapon systems get enhanced, and as we 
fight individuals who, in fact, need to be attacked from 
different perspectives, I think you'll find that a combination 
of platforms is the way to go.
    Senator Sessions. Yes. Senator Dorgan, I'm going to go and 
vote, and you take your time.
    Senator Dorgan. Mr. Chairman, just one point.
    Senator Sessions. Okay.
    Senator Dorgan. I think the precision weapons make the B-52 
much more useful and interesting to the Pentagon because you do 
the same thing as you do with other standoff trucks except at 
less cost. We do need to talk about new bombers and so on. We 
talked about it this morning. We have to find ways to fund all 
of this, which means, with respect to what we're doing current, 
that we need to find ways to save money.
    Senator Sessions. Thank you. Those are valuable comments 
because we all know there's that bow wave out there of 
procurement issues that are coming up, and some tough choices 
may have to be made. I am sorry, we do have a vote ongoing now, 
and there's about 5 minutes left. So, I'll need to rush down. 
We should be back within 10 or 12 minutes, and we'll be 
recessed until then.
    [Recess.]
    Senator Sessions. We'll call the meeting back to order. 
Thank you for staying with us, and I'm sorry to be called away. 
We have to do those things every now and then--vote, that's 
what they pay us for, I suppose. I'll ask whoever would want to 
take the lead on this to deal with it first, and if any of you 
might want to comment on it. The 2006 QDR recommends prompt 
high-volume Global Strike to deter aggression or coercion and 
if deterrent fails to provide a broader range of conditional 
response options to the President. The Trident modification 
entails the conversion of only 24 ballistic missiles. This is 
not the high-volume strike capability envisioned by the QDR, I 
don't think. Would you tell the committee about your respective 
Service plans to fulfill the high-volume Global Strike 
requirement of the QDR? Who wants to start?
    General Cartwright. If I could, Mr. Chairman, and then let 
the Services follow. But in the construct of Global Strike, we 
talked today about the attribute of prompt, which is a subset 
of the broader Global Strike capabilities. We also talked about 
the significant fielding capabilities that have occurred over 
the past year. In a concept format, the idea here is that there 
are a set of high-value, time-sensitive targets. It is not a 
large set, but there is a set of those. The Trident 
modification is designed to get at that subset.
    Following on behind that are these other capabilities that 
we described that are associated with sea-launched, air-
launched capabilities, tactical aircraft. Given their speed and 
range, they will, assuming you start from the same point, close 
at varying rates, but what you get is a constant building of 
pressure as you add the platforms and capabilities as they are 
able to close the conflict, and the volume comes from that 
ever-increasing additive value of platforms and capabilities 
that close the conflict. So, no, Trident is not high volume, 
but it gets at the key enabling targets that could potentially 
change the character of the conflict, could easily alter how 
long the conflict will go on, and it allows the time to hold 
the enemy at risk as you close the high-volume fires over time.
    Senator Sessions. The QDR actually called for high-volume 
prompt.
    General Cartwright. I understand.
    Senator Sessions. I don't know, maybe they should have 
written it like you just explained it.
    General Cartwright. I'm not going there, sir.
    Senator Sessions. Made good sense to me, but do you think 
maybe they misspoke there?
    General Cartwright. I'll give you my opinion. The question 
of volume has more to do with what is the capability that we 
want. The volume could, in fact, be reflective of how much you 
are able to leverage with just a few choicely-placed rounds, so 
to speak, versus large numbers of weapons being the volume side 
of this. In other words, we do what is called nodal analysis. 
If we hold a key point at risk, it holds the whole network at 
risk oftentimes.
    Senator Sessions. All right. Secretary Flory, do you want 
to follow up on that, please?
    Mr. Flory. I just was going to add the results, though, and 
this is a somewhat longer-term option, but it helps get to the 
high volume point. There are other systems that are in the 
works--the Army hypersonic system, the Navy's short-range 
ballistic missile system that's being looked at, and various 
Air Force systems that the Air Force is looking at, but none of 
them come online. The importance of the conventional Trident is 
it's something that we think we could field in 2 years, while 
these other systems I think the earliest one would come online 
in 2012 or so.
    General Cartwright. 2012 to 2015.
    Mr. Flory. 2012 to 2015.
    Senator Sessions. Let me just say this, Secretary Flory, 
we'll have the Army hypersonic, and the Navy is working on a 
different system? That would be a part of this mix.
    The Air Force also. I'll ask you to mention those, but as 
we do this in terms of cost, we need to ask ourselves do we 
need three different systems? General, I don't know where you 
all would do that, but let me ask about the other two Prompt 
Global Strike capabilities that other Services would be working 
on.
    Admiral Young. The Navy's Prompt Global Strike is the 
conventional Trident modification. We have no other program 
that's going after that capability. We do have a large number 
of other programs that are providing Global Strike capability: 
our Carrier Strike Groups, our Expeditionary Strike Groups, and 
our SSGN Strike Groups that are coming online. Their Strike 
Groups provide a large volume of strike capability around the 
areas where they are physically located. This goes to the point 
that General Cartwright made earlier. They cannot be everyplace 
where the adversary may be carrying out their actions. So 
today, the Prompt Global Strike program that the Navy has is 
the Trident conventional modification program.
    Senator Sessions. General Gorenc, do you want to add to 
that?
    General Gorenc. I would like to mention a couple of things 
actually. When you think about the high volume, you immediately 
would go into the constrict of the bomber-type force. We in the 
Air Force, of course, have that ongoing with the Phase I, which 
is the modernization of the B-52, the B-1, the B-2, and all the 
capabilities that have been highlighted that are enhanced and 
everything else.
    Of course, you are also looking at the 2018 timeframe with 
our Phase II of looking at what are the options that we have 
out there that explore the current technologies that would 
potentially give you the manned, unmanned, or maybe a 
combination of both.
    Then, obviously into the future, our Phase III look, which 
is, what else is out there that we really would like that maybe 
would enhance some of the capabilities and things we were 
looking at, which is speed and getting through an area very 
fast and launching from different locations that will give you 
that opportunity for the range and everything else. So, that is 
the normal way you would kind of think about it from the high 
volume.
    Of course, we are also looking at the exact Prompt Global 
Strike, which is the requirement for the promptness, which our 
bomber fleet may not provide in this context of Prompt Global 
Strike. Then you may be looking at some things like hypersonic 
vehicles and things of that sort that could be launched into a 
higher altitude and brought back much like an ICBM-type of a 
capability, but not necessarily. We are looking at that. We are 
exploring options and just seeing what we can, in fact, as an 
Air Force provide to the Prompt Global Strike portion, although 
we know the contribution that we normally have and provide in 
the Global Strike overall construct.
    Senator Sessions. I guess my question is, who is 
coordinating this? Is there someone saying this is too many 
different projects and we ought to all work together, or we 
need each one of them, and is there a coordinator?
    General Cartwright. As the advocate for this area, 
USSTRATCOM looks across the range of capability, looks at the 
risks attentive to not having a particular capability or the 
quantity of the capability and how that matches up with the 
risk and then acts as an advocate. In a business sense, we are 
a noisy customer, a demanding customer. We are looking to the 
Services and what they have in capability, what they have on 
the drawing boards of the future and looking at the feasibility 
and how well that matches up with what we think is our best 
assessment of what we will need in the future. We allow and 
really encourage tension in the system, competition in the 
system for the concepts--in this case, looking at the Army 
Advanced Hypersonic Weapon (AAHW) system versus what the Navy 
might be thinking about versus what the Air Force might look at 
in the next generation of their Minuteman or other systems. We 
try to get the knowledge points and not carry these programs 
any longer than we have to, but gain the knowledge necessary to 
make the best choices we can, knowing our crystal ball is not 
perfect. They have to have some flexibility to adapt to the 
future. From an advocacy standpoint, I see USSTRATCOM in that 
seat.
    Senator Sessions. It strikes me a bit like the unmanned 
aerial vehicles (UAVs). We ended up with all kinds of people 
doing research, spending lots and lots of money, buying very 
small numbers or too small numbers at pretty high rates per 
copy, when if we could figure out a way to have one or two and 
buy them at high volume, we would have probably saved a lot of 
money. Are we confident we won't be into that now, and who 
would be responsible for pulling the plug on the programs that 
are not the most competitive?
    General Cartwright. I certainly would be the first to stand 
up and give you today, as I did with the B-52, our best 
judgment and recommendation on that.
    Senator Sessions. Secretary Flory, you think you have 
sufficient review oversight in DOD to make sure that programs 
don't go too long and that we identify the most beneficial 
early?
    Mr. Flory. Senator, I think we do. As General Cartwright 
says, he is the consumer on this, and he is saying I want this 
capability and people can compete to deliver the capability in 
different ways. At some point the issue of duplication you 
point to is a real one. There would have to be a necking down 
decision of what, which of these things works best, which of 
these things meets the warfighters' needs, which of these 
things provide the most useful options for the President.
    Senator Sessions. I think there is a tendency for any 
Service to be working on something they want to be loyal to 
theirs and believe it's going to be the final solution, and 
they all may not be. With regard to AAHW, it flies within the 
upper atmosphere to its target, the Army is developing that. It 
could deliver lower cost per round of munition, a high-volume 
strike capability. How do you see that in the mix? What's your 
evaluation of that, and what are the other programs that are 
under consideration?
    General Cartwright. I'll take a whack at that. For the 
high-speed, long-range precise capabilities, we have started 
with the Trident modification, the D-5. But as we move forward, 
we want to be able to understand where are the limitations in 
our ability to carry that kind of strike forward into the 
future. What are the technical limitations, what are the 
operational limitations, policy limitations, et cetera? For 
vehicles that maneuver at hypersonic speeds, we have technical 
limitations today that need to be overcome. We are trying to 
encourage that the laboratories and the R&D houses, whether 
they be commercial or government, investigate from every angle 
that they can think of how to solve some of these technical 
challenges associated with these speeds. The Army Research Lab 
and the AAHW system concept, which is a concept right now, is 
one venue by which to do this that is offering promise. They 
have a concept that looks like if they can overcome what are 
common technical challenges across all of these programs, they 
may well be in a position to see that concept mature. It could 
also be that as they were to solve some of these technical 
challenges, the technology could be migrated to another 
platform. Then you start to look at cost versus schedule versus 
performance and the capabilities the country needs, and you try 
to, I don't want to say down-select, but you try to focus as 
quickly as possible on what you think will match your need. The 
Army concept is very attractive, but they must, like everyone 
else, conquer some of these technical barriers. The sooner that 
we can conquer them, then the sooner we can make decisions 
about investment.
    Senator Sessions. I know we're in a serious effort to 
modernize our nuclear forces. Admiral Young, what about the 
Navy force structure plans for sea-based deterrence? What do 
you see for the future there?
    Admiral Young. Sir, our program of record is the Trident D-
5 system. Our requirement is for 14 SSBNs that provide us with 
12 operational SSBNs. The Navy has a plan that will take these 
ships through a refueling cycle that will bring them into the 
shipyard essentially one per year starting in 2007.
    Senator Sessions. That will leave you how many deployed?
    Admiral Young. That leaves us with 12 operational SSBNs. 
We're taking these ships out to around the 2042 timeframe. My 
responsibility is to take the weapon system, the strategic 
weapon system, and have it meet that same operational 
timeframe.
    Senator Sessions. You're confident that these submarines 
will be solid until 2042?
    Admiral Young. Yes, sir.
    Senator Sessions. Isn't that great?
    Admiral Young. Yes, sir.
    Senator Sessions. How long will that be? How long will they 
have been in service?
    Admiral Young. That will be 45 years total. We have 
obviously done a lot of engineering analysis to support those 
findings. But my part of that is actually the D-5 system, and 
we have a D-5 life extension program which is going to take the 
D-5 missile and take the components on it that will be hit by 
obsolescence, the electronic components. There are essentially 
six packages on that system--two in the guidance and four in 
the missile. We are going through, right now, the design of 
those components so that in fiscal year 2008, we will start 
buying our first D-5 life extension missiles. We'll bring those 
online so they will Initial Operational Capability in 2013. 
Along with that, we are also through a modernization program 
continually modernizing the shipboard equipment. The fire 
control, which also has a great deal of electronics, we are 
upgrading that to put components on it that are supportable and 
also give us the capability that the President, through 
USSTRATCOM, needs to deploy the system through that timeframe.
    Senator Sessions. General Gorenc, what about you and Air 
Force plans for upgrading the nuclear land-based deterrent?
    General Gorenc. Obviously, we're working hard to make sure 
that we drop the weapons down or not the weapons necessarily, 
but the ICBMs from 500 to 450. We're going to make sure, as 
General Cartwright mentioned, that those get put into the 
proper locations and are held as necessary. We'll continue 
doing our testing as needed per year to make sure that the 
weapons in fact are viable, and we're looking forward to just 
continuing that modernization effort. Now, as we go forward and 
look at the replacement for the missile, for the Minuteman III, 
we are looking at all of those alternatives. We are studying 
those now. There has been money spent on looking at ways to 
continue making sure that we have a viable force for the future 
and that we can continue providing the capabilities that the 
commander needs out in the field, and we'll continue doing that 
of course.
    Senator Sessions. Did you express your view on the B-52 
reduction, and did you get to complete your thought on that?
    General Gorenc. I did.
    Senator Sessions. Your position of the Air Force.
    General Gorenc. I have to say, General Cartwright really 
hit the nail on the head with this as far as the B-52 and where 
we are going. In a sense, really what you are seeing here is 
actually a demonstration of what this committee and all of us, 
in fact, have done as we continue trying to enhance the 
capabilities out there for the warfighter.
    Senator Sessions. Are you talking about the way he 
expressed that?
    General Gorenc. Yes, the way he expressed it.
    Senator Sessions. The overall concept calls for jointness 
and analyzing the customer needs?
    General Gorenc. Yes, I think so. As we look at platform 
specifics, sometimes it's very easy for us to get so centric on 
the platform itself that we forget about what it does. I don't 
necessarily, for example, need 80 or 100 pieces of things to 
perform a particular function if I know that I can, in fact, 
perform that function with a little bit less because I have a 
great capability, and I thought that the B-52 is a classic 
example of a system that has proven very effective. Now, 
because of the capabilities that you have put onto that 
platform, you are able not necessarily to need as many. So, 
that was a very good explanation, I thought, as far as how we 
proceed and how we go forward.
    I think another thing that I am noticing is and it relates, 
in a sense, to your question earlier, Mr. Chairman, on how is 
the Department actually looking and trading capabilities off. I 
think that we, in fact, have a very good oversight on making 
sure that we hold each other accountable within the Services to 
make sure that we are not going and wasting resources in cases 
where an individual who may look at it from the outside would 
go jeez, I can't believe you're doing the same thing. There's a 
reason why that's happening at that stage of the development. 
In the future, when you actually procure, you'll find that 
you're going to whittle it down and actually choose the right 
thing. I think we're going in the right direction overall, sir.
    Senator Sessions. I just received notice of another vote 
that's started. We have a number of questions that are 
important. We may submit those to you in written form. General 
Cartwright and Secretary Flory, this is your second hearing 
today? Is that right?
    Mr. Flory. Yes, sir.
    Senator Sessions. Bless you. We thank you for your good 
humor, but it is important. Would either of you care to comment 
on the GBI sites that we may be looking at around the world, 
Europe or that region, or is that something that you prefer not 
to talk about at this time? I know that those matters involve 
sensitivity to nations who may not be ready to talk about it.
    Mr. Flory. Senator, I'll just leave it at this, we are 
consulting with some countries. We have had consultations in 
the past on this subject, possible third site deployment, and 
those consultations are continuing.
    Senator Sessions. All right. I want to thank you again for 
what you are doing. We are benefitting this very moment in Iraq 
in our strategic posture for decisions made 20 years ago. I 
think we will probably see a decision process and a production 
process get a little quicker than it has been over the past, 
but it still takes time to conceive and develop and deploy a 
complex weapon system. So, I am glad to hear your long-term 
thoughts, that you are thinking ahead and that you have a plan 
to get there. Congress may mess it up, but maybe not. We tend 
to value your advice and pretty regularly follow it. Are there 
any other comments you'd like to make for the record to clarify 
anything that's been said earlier in our hearing today?
    General Cartwright. No, sir.
    Senator Sessions. All right. Thank you very much. This 
subcommittee takes seriously our immense responsibilities and 
we rely so much on you and your advice. With no further 
business, we will be adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                        MINUTEMAN III REDUCTIONS

    1. Senator Sessions. General Cartwright and Secretary Flory, please 
explain the strategic rationale for reducing the Intercontinental 
Ballistic Missiles (ICBM) force structure from 500 single-warhead 
Minuteman III missiles to a force of 450?
    General Cartwright. A reduction from 500 to 450 Minuteman III 
missiles enables two efforts without affecting the deterrent value of 
our ICBM force. First, the reduction in operational Minuteman IIIs will 
provide test assets necessary for ensuring a reliable missile force 
into the future. Second, this reduction will preserve Multiple 
Independent Reentry Vehicle (MIRV) capability on the ICBM force in 
order to retain the capability and experience necessary to upload 
additional warheads in the event of an unanticipated change in the 
threat posture.
    Mr. Flory. During the recent Quadrennial Defense Review (QDR) the 
Department of Defense's (DOD) senior leaders reevaluated our strategic 
nuclear force posture in light of both our progress in making nuclear 
force reductions and in fielding New Triad capabilities. As a result, 
they determined that--with minimal risk--we could make a further, 
modest reduction in the number of nuclear-armed ICBMs by retiring 50 
Minuteman IIIs.
    With this reduction in ICBMs, the United States will continue to 
maintain an effective, balanced nuclear force posture that provides a 
secure deterrent while we continue to build the non-nuclear elements of 
the Global Strike force structure. In addition, the modest reduction in 
ICBMs will free up missiles for the flight test program.

    2. Senator Sessions. General Cartwright and Secretary Flory, what 
impact, if any, will this reduction have on the U.S. nuclear deterrent 
capability?
    General Cartwright. The reduction in the number of missiles will 
not affect the deterrent or warfighting value of our ICBM force. The 
number of ICBM warheads remains at 500, while allowing continued 
testing of missile assets to ensure reliability of the Minuteman III 
missile system.
    Mr. Flory. The 10 percent reduction in the size of the Minuteman 
III force will not affect the number of operationally deployed 
strategic nuclear warheads we are planning to deploy by 2012 (1,700-
2,200). The United States will continue to maintain an effective, 
balanced nuclear force that provides a secure deterrent, and the 
reduction of 50 Minuteman III ICBMs will not affect either the 
deterrent or the warfighting value of our ICBM force.

    3. Senator Sessions. General Cartwright and Secretary Flory, what 
are the international policy implications of placing multiple warheads 
on some of the remaining 450 Minuteman ICBMs?
    General Cartwright. There are no international policy implications 
in retaining a Multiple Independent Reentry Vehicle capability.
    Mr. Flory. The United States maintains a MIRV capability in a 
portion of the Minuteman III ICBM force as it is currently deployed. 
The Department foresees no international policy implications in 
retaining a MIRV capability in a portion of the Minuteman III ICBM 
force.

    4. Senator Sessions. General Gorenc, please explain how the 
reduction of 50 Minuteman missiles will be accomplished?
    General Gorenc. Air Force Space Command is currently studying the 
most cost effective, safe, and expeditious way to draw down 50 ICBMs as 
directed by the QDR.

    5. Senator Sessions. General Gorenc, from which ICBM sites will 
they be removed?
    General Gorenc. Once Air Force Space Command completes their study, 
they will propose a course of action to draw down the ICBM force in 
accordance with the QDR.

    6. Senator Sessions. General Gorenc, what are the costs or savings 
associated with this plan?
    General Gorenc. There is a $10.9 million operation and maintenance 
(O&M) cost in the fiscal year 2007 budget request to cover 
environmental cleanup actions, shipping and storage of removed 
boosters, and placing the launch facilities in minimal caretaker 
status. There are additional minor O&M costs expected in fiscal year 
2008 and fiscal year 2009 to complete the inactivation. Manpower 
savings of at least 135 spaces will be realized in fiscal year 2007, 
with additional savings in fiscal year 2008 and beyond. In addition, 
O&M and procurement savings are expected in future requests.

    7. Senator Sessions. General Gorenc, does the Air Force plan to 
place multiple warheads on some of the remaining 450 Minuteman 
missiles?
    General Gorenc. Yes, we will as long as U.S. Transportation Command 
(USTRANSCOM) war plans direct a multiple warhead configuration 
capability. USTRANSCOM will review targeting requirements and transmit 
that data to Air Force Space Command. Air Force Space Command will 
configure missiles with USTRANSCOM's force structure and warhead mix. 
All remaining missiles will be capable of carrying between one and 
three warheads.

    8. Senator Sessions. General Gorenc, is there funding in the budget 
request for this purpose?
    General Gorenc. Yes. There is $10.9 million (O&M) in fiscal year 
2007 to cover environmental cleanup actions, shipping and storage of 
removed boosters, and placing the launch facilities in minimal 
caretaker status.

           ALTERNATIVES TO CONVENTIONAL TRIDENT MODIFICATION

    9. Senator Sessions. General Cartwright and Secretary Flory, 
Secretary Flory's prepared statement notes that the DOD is studying 
other solutions, both sea- and land-based, for Prompt Global Strike. 
For example, the Air Force is undergoing an analysis of alternatives 
for the land-based strategic deterrent; the Army is studying a concept 
for fielding an advanced hypersonic weapon; and the Navy is studying 
the development of a conventionally-armed submarine launched ballistic 
missile (SLBM) with a range of about 1,500 miles. How do these options 
compare to Conventional Trident Modification (CTM)?
    General Cartwright. The CTM is a hedge capability. It will provide 
military utility across a range of target types and scenarios and is 
scheduled for initial operational capability in fiscal year 2009. 
Currently, competing systems will require technical advancements to 
refine the systems capabilities adding additional time before 
operational availability. The expected initial operational capability 
of alternatives is beyond fiscal year 2013.
    Mr. Flory. The Conventional Trident Missile is the only near-term 
option for addressing the existing capability gap for prompt, 
conventional Global Strike. The longer-term goal is to develop a range 
of Prompt Global Strike capabilities that can provide the President 
with a wider range of options for addressing the dangers of the new 
security environment. The studies currently underway regarding other 
options for conventional Global Strike capabilities have not been 
completed. However, we anticipate that these options would require 
significantly more time to develop and field than would the CTM.

    10. Senator Sessions. General Cartwright and Secretary Flory, why 
do we need CTM today when there are other, potentially less 
controversial options, just over the horizon?
    General Cartwright. Currently, there are no other available near- 
or mid-term Prompt Global Strike options that address the capability 
gap before fiscal year 2013 at the earliest.
    Mr. Flory. At any moment we could find ourselves in a situation for 
which a near real-time response with a conventional Global Strike 
capability could provide an important option for the President. 
Unfortunately, our current capabilities for prompt, conventional, long-
range strike are limited. There is no near-term alternative to 
Conventional Trident that can address the capability gap for prompt, 
conventional Global Strike.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                      DEFENSE SCIENCE BOARD REPORT

    11. Senator Bill Nelson. General Cartwright, the Defense Science 
Board completed a report in January on the nuclear weapons 
infrastructure at the DOD and Department of Energy (DOE). The report 
was classified but most of the recommendations and findings were not. 
There are two findings and recommendations that I would ask that you 
comment on. First, the recommendation that a new organizational 
structure is needed for the National Nuclear Security Administration 
(NNSA), and second, a need for greater clarity for requirements and the 
understanding and knowledge that leads to requirements development. I 
am concerned that at a minimum the recommendations on the 
organizational structure are unworkable. On the other hand, the second 
recommendation reflects a complaint that has existed for years and 
largely reflects a criticism of the effectiveness of the Nuclear 
Weapons Council. Would you please share your thoughts on this report?
    General Cartwright. The Defense Science Board report was thorough 
and thoughtful. U.S. Strategic Command (USSTRATCOM) defers to the 
Secretaries of Defense and Energy with respect to the management and 
organizational structure of the nuclear weapon enterprise. However, I 
am concerned about the long-term sustainability of the nuclear weapon 
enterprise and believe that it must be transformed to one that is more 
agile and sustainable to support current and future warfighter needs. I 
also agree that greater clarity is needed in defining requirements 
placed on the nuclear weapons enterprise.

                    ROBUST NUCLEAR EARTH PENETRATOR

    12. Senator Bill Nelson. General Gorenc, the Fiscal Year 2006 
Defense Authorization and Appropriations Acts included $4 million in 
the Air Force budget to conduct a sled test to study and understand the 
physics of penetrating geologic media. This is the sled test designed 
by the DOE Sandia National Lab as part of the Robust Nuclear Earth 
Penetrator study. What is the status of the sled test?
    General Gorenc. The Secretary of Defense has elected to have the 
Defense Threat Reduction Agency (DTRA) plan and conduct the penetrator 
sled test. The Air Force is participating in the test planning process 
at DTRA's request, but has only a limited role. Further, the $4 million 
appropriated (less congressionally-mandated rescissions) to the Air 
Force in fiscal year 2006 has been transferred to DTRA for execution. 
Questions concerning penetrator sled test specifics should be addressed 
to DTRA.

    13. Senator Bill Nelson. General Gorenc, Secretary of Energy Bodman 
said that the DOE would not conduct the sled test nor would it be 
conducted at a DOE facility, including the Sandia National Lab. He also 
said that if DOD wanted to conduct the sled test that Sandia would 
provide the equipment and technical expertise. Has the Air Force 
requested assistance and technical expertise from Sandia? If so, what 
assistance has been requested?
    General Gorenc. The Air Force has not requested any assistance or 
technical expertise from the Sandia National Laboratories. The 
Secretary of Defense has elected to have the DTRA plan and conduct the 
penetrator sled test. The Air Force is providing limited assistance to 
DTRA in the test planning process at their request.

    14. Senator Bill Nelson. General Gorenc, is there any money in the 
fiscal year 2007 Air Force budget request to support the sled test?
    General Gorenc. In coordination with the Office of the Secretary of 
Defense (OSD), the Air Force has requested $3.047 million in the Air 
Force Operations and Maintenance account for post-test data reduction 
and analysis of the data obtained from the fiscal year 2006 penetrator 
sled test. As agreed between OSD, DTRA, and the Air Force, these funds 
will be transferred to DTRA in fiscal year 2007 for execution.

    15. General Gorenc, will the Air Force pay Sandia for the equipment 
and technical expertise?
    General Gorenc. No, the Air Force will not spend any additional 
funds, other than the $4 million (less congressionally-mandated 
rescissions) appropriated and already transferred to DTRA, on the 
penetrator sled test in fiscal year 2006.

               CONVENTIONAL TRIDENT D-5 BALLISTIC MISSILE

    16. Senator Bill Nelson. General Cartwright and Admiral Young, a 
QDR decision is to field within 2 years an initial capability to 
deliver conventional warheads using Trident D-5 missiles on ballistic 
missile submarines to meet a prompt global strike mission. All the D-5 
missiles on Trident ballistic missile submarines today carry nuclear 
warheads.
    The current plan is to buy 533 upgraded D-5 missiles. The flyaway 
cost of a D-5 is approximately $32 million, when the research and 
development costs are added in and distributed among the total number 
of missiles the program acquisition unit cost is closer to $60 million 
a piece. The acquisition unit cost is the full cost of a system. In 
addition the cost to convert 24 of the missiles to a conventional 
warhead would be $500 million. With initial production costs, upgrade 
costs, and conversion costs, I estimate that per missile cost of the 
conventional Trident is $80 million. Do you agree with this rough 
estimate? If not, what is your estimate of the program acquisition cost 
for each converted D-5 missile with four warheads?
    General Cartwright. USSTRATCOM defers to the Navy Strategic Systems 
Programs.
    Admiral Young. While the Navy agrees with the $60 million and $80 
million cost estimates for a Trident missile as discussed in the 
question, we believe this is not an accurate measure for costing actual 
flyaway costs. If you consider the research and development costs more 
as sunk costs, the P-5 WPN budget exhibit includes a more 
representative number for a single missile called the Missile Flyaway 
Unit Cost. The fiscal year 2007 President's budget (PB) exhibit for 
Trident II (WPN Line Item 1150) includes cost for the last original 
(pre-LE) Trident II missiles procured in fiscal year 2005 reflecting a 
missile flyaway cost of $24.5 million. Additive to that is $8.0 
million, the cost of a full-rate production guidance system, for a 
total flyaway cost of $32.5 million. None of these unit costs include 
the warhead, which is funded by DOE.
    If you consider the comparable flyaway unit cost of a single 
flechette reentry body (RB), approximately $2.5 million, you could 
conclude a flyaway CTM missile unit cost will be approximately $42.5 
million [i.e., $32.5 million Missile and Guidance + $10 million RB (4 
RBs x $2.5 million)].

    17. Senator Bill Nelson. General Cartwright and Admiral Young, the 
current plan is to buy 533 D-5s, just enough D-5 missiles to meet the 
requirements of the nuclear mission. If 24 D-5 missiles are converted, 
will the Navy want to buy more D-5s to sustain the nuclear mission?
    General Cartwright. USSTRATCOM defers to the Navy Strategic Systems 
Programs.
    Admiral Young. No, the Navy has not requested an increase in 
inventory objective in the fiscal year 2007 President's budget. There 
is no plan to increase the inventory objective at this time.

    18. Senator Bill Nelson. General Cartwright and Admiral Young, what 
are the target scenarios for using a conventional D-5 missile?
    General Cartwright and Admiral Young. The target scenarios are 
based on mission requirements. Generally, the CTM is planned to be 
effective against high value, fleeting targets, such as weapons of mass 
destruction, terrorists, missiles, radars, and integrated air defense 
components to list a few. Any scenario that requires the need for a 
prompt (within an hour) response to a threat could require the need for 
CTM capabilities.

    19. Senator Bill Nelson. General Cartwright and Admiral Young, are 
there other scenarios--other than terrorists or weapons of mass 
destruction (WMD)--where you think long range ballistic missiles might 
come into play?
    General Cartwright and Admiral Young. High-value time-sensitive and 
emerging targets that cannot be held at risk with existing conventional 
capabilities due to staging, deployment time, range to effect, or the 
availability of specific weapon systems.

    20. Senator Bill Nelson. General Cartwright and Admiral Young, is 
the primary reason for development of a conventional D-5 a preemptive 
first strike mission?
    General Cartwright and Admiral Young. No. The primary reason 
USSTRATCOM requires the development and employment of the conventional 
D-5 is to provide the President with a broader range of options for a 
timely response in a crisis. A rapid response capability allows 
additional time to confirm intelligence sources and/or for 
consultation, prior to making a strike decision. Adversaries continue 
to increase their ability to leverage time, distance, and denied areas 
to limit our ability to respond. Capability to deliver a conventional 
payload nearly anywhere on the Earth will provide the President a 
viable option to assure allies, dissuade competition, deter attacks, 
and defeat threats, while simultaneously reducing our adversary's 
freedom of action.

    21. Senator Bill Nelson. General Cartwright and Admiral Young, 
doesn't the President already have options today--ones that are 
improving--to hit these fleeting targets with existing or planned 
weapons systems, including precision guided bombs and cruise missiles 
on strategic and tactical aircraft, attack submarines, and unmanned 
aerial vehicles?
    General Cartwright and Admiral Young. Current capabilities 
typically take hours to days to prepare and respond, to deliver desired 
effect(s). Given sufficient time to prepare and stage assets, current 
capabilities might well be the preferred option. There are 
circumstances, though, where all other advanced conventional 
capabilities fall short of prompt and responsive (closing in less than 
60 minutes).

    22. Senator Bill Nelson. General Cartwright and Admiral Young, in 
practice, how much ``quicker'' would it be to use a conventional long-
range ballistic missile rather than other conventional assets, given 
challenges associated with identifying and locating targets, receiving 
authority to fire, and having submarines in position to shoot?
    General Cartwright and Admiral Young. The challenges associated 
with identifying and locating targets, receiving authority to fire, and 
having sufficient capability in place to achieve the objective are all 
part of any strike decision calculus. The CTM requirement is driven by 
our inability to access denied areas with existing conventional 
capabilities and to hold fleeting high value targets at risk in a 
prompt manner. In a crisis, where we do not have forward forces in 
place, or are required to deploy forces to within striking distance, 
CTM would reduce our response time from execution to effects on target 
actually buys back decision time. Traditional air-breathing platforms 
fly at about 500 miles per hour and can require hours to days to 
prepare and deliver a strike. Conventional long-range ballistic 
missiles can cover over 5,000 miles in under an hour. The flexibility 
of the SSBN force allows them to operate freely around the world 
placing any point on the globe within reach within an hour.

    23. Senator Bill Nelson. General Cartwright and Admiral Young, can 
we develop the necessary intelligence support and command and control 
systems to both locate and effectively hit potential targets?
    General Cartwright and Admiral Young. Yes, but we must continue to 
transition intelligence, surveillance, and reconnaissance activities 
from a legacy approach, directed largely at monitoring nation states in 
two theaters, to a true global enterprise tailored to meet regional 
needs.

    24. Senator Bill Nelson. General Cartwright and Admiral Young, 
would this be a presidential decision to launch the $80 million 
conventional D-5?
    General Cartwright and Admiral Young. Yes, the President will 
authorize the use of a CTM capability.

    25. Senator Bill Nelson. General Cartwright and Admiral Young, the 
plan, as I understand it, is to have the Trident submarines carry a 
combination of 22 nuclear D-5 missiles and two conventional D-5 
missiles. It would be impossible to tell the difference between a 
nuclear D-5 and a conventional D-5 for most or all of the flight path 
if launched. How would other countries, notably Russia and China, but 
also including France and England, know the difference between a 
conventional and nuclear D-5 missile?
    General Cartwright and Admiral Young. Robust notification 
procedures would mitigate potential misinterpretation of U.S. 
intentions by those countries that possess the systems required to 
monitor ballistic missile in flight. Countries capable of monitoring 
ballistic trajectories would be able to quickly forecast the target 
area within tens of miles in seconds.

    26. Senator Bill Nelson. General Cartwright and Admiral Young, 
several weeks ago, Secretary Wynne testified that the Strategic Arms 
Reduction Treaty (START) notifications for test launches and 
inspections to count warheads would help solve this problem of 
distinguishing between a nuclear and non-nuclear D-5 missile launch. 
Please explain how either of these measures would assist Russia in 
determining that an operational launch from a U.S. SLBM was not a D-5 
with a nuclear warhead? Would the START even allow Russia to confirm 
whether a nuclear or non-nuclear warhead was on a D-5 at the dock?
    General Cartwright and Admiral Young. START notifications for test 
launches, and inspection to count warheads will not assist Russia in 
determining that an operational (combat) launch of a SLBM is not a D-5 
with a nuclear warhead.

    27. Senator Bill Nelson. General Cartwright and Admiral Young, if 
notification protocols were in place, how long would it take to provide 
notification and assurance that a launch was conventional?
    General Cartwright and Admiral Young. Notification protocols are in 
place. The United States has over a dozen existing direct 
communications links to counterparts in Russia. As an example, the 
Moscow-Washington Direct Communications Link Hotline has been in place 
since 1963 to affect 24/7 communications with the Russian Federation in 
real time to assure strategic stability.

    28. Senator Bill Nelson. General Cartwright and Admiral Young, if 
the whole goal of Prompt Global Strike is to be able to strike anywhere 
in the world in less than 60 minutes, would a notification protocol 
defeat the purpose of Prompt Global Strike?
    General Cartwright and Admiral Young. No. The need for a capability 
to strike within 60 minutes does not imply that only 60 minutes will be 
available in a crisis. It means that upon making a decision to strike 
it will take less than 60 minutes to place warheads on a target. 
Experience has shown that the time from preliminary warning to 
confirmation of an impending attack might be relatively fleeting, but 
details of the impending attack will likely emerge over a period of 
hours. The DOD will always seek to improve the responsiveness of its 
forces, in order to provide maximum flexibility, while details of the 
threat emerge. During this fluid period of hours, leading up to a 
strike decision, the President may choose to notify other world leaders 
of imminent U.S. defensive actions. Because it is more responsive, CTM 
buys time for consultation and intelligence confirmation before 
committing forces in a provocative fashion.

    29. Senator Bill Nelson. General Cartwright and Admiral Young, 
could you please tell me the status of the request to provide all 
studies and analyses that have been conducted by DOD addressing or 
discussing the issues associated with this proposal?
    General Cartwright and Admiral Young. USSTRATCOM defers the 
question to the OSD.

    30. Senator Bill Nelson. General Cartwright and Admiral Young, 
could you also provide a list of ongoing studies and any additional 
studies that are planned or will have to be completed in the future?
    General Cartwright and Admiral Young. Ongoing and additional 
studies included the following:

          (1) The Quadrennial Defense Review Report, February 2006
          (2) The Strategic Capabilities Assessment, April 2005
          (3) Defense Policy Board Study on Strategic Command 
        Initiatives, February 2006
          (4) U.S. Strategic Command Strategic Advisory Group (SAG), 
        74th SAG Plenary Policy Panel Report, December 2005
          (5) U.S. Strategic Command, Conventional Kinetic Options for 
        Global Deterrence, September 2005
          (6) Ballistic Missile ``Overflight'' An Assessment of the 
        Issues, Prepared for U.S. Space Command, December 2004
          (7) Next Generation Long-Range Strike Analysis of 
        Alternatives
          (8) Prompt Global Strike Analysis of Alternatives
          (9) Land Based Strategic Deterrence Initial Capabilities 
        Document

    31. Senator Bill Nelson. General Cartwright and Admiral Young, has 
anyone in the Department of State been consulted on this proposal and 
have they expressed any concerns or raised any issues with the 
proposal?
    General Cartwright and Admiral Young. USSTRATCOM has invited 
Ambassador Joseph to participate in a table top exercise highlighting 
the CTM on 20 April 2006.

    32. Senator Bill Nelson. General Cartwright and Admiral Young, will 
Congress be receiving a reprogramming request to begin work on 
conventionally armed D-5 missiles in fiscal year 2006?
    General Cartwright and Admiral Young. At this time the DOD has not 
submitted a request for reprogramming.

    33. Senator Bill Nelson. General Cartwright and Admiral Young, has 
any money already been spent in support of conventionally armed D-5 
missiles, and if yes, on what specific activities was the money spent 
and what was the source of the money?
    General Cartwright. USSTRATCOM defers to the Navy Strategic Systems 
Programs.
    Admiral Young. To date, no Navy funds have been allocated or 
expended in support of conventionally armed D-5 missiles.

    34. Senator Bill Nelson. General Cartwright and Admiral Young, 
would other countries who want to further develop long-range missiles 
find this proposal an incentive or cover to proceed with their missile 
programs?
    General Cartwright and Admiral Young. It is impossible to predict 
what other countries are going to do. There are over 30 countries with 
ballistic missile programs today. The development of ballistic missile 
technology will likely continue whether this initiative goes forward or 
not.

    35. Senator Bill Nelson. General Cartwright and Admiral Young, does 
this plan undercut U.S. efforts to discourage others from developing 
long-range ballistic missiles or lower the threshold for use of these 
missiles?
    General Cartwright and Admiral Young. No. This plan is being 
developed to provide a solution to the gap in prompt long-range 
conventional kinetic strike capabilities. It does not lower the 
threshold for use of other missile systems.

    36. Senator Bill Nelson. General Cartwright and Admiral Young, 
would this proposal increase the risk of accidental, mistaken, or 
unauthorized use of ballistic missiles by other countries if they too 
were to use the U.S. example and develop conventional long-range 
ballistic missiles?
    General Cartwright and Admiral Young. No. The United States is the 
only country out of the more than 30 that have ballistic missiles that 
does not have a conventional ballistic missile capability. Other 
countries will continue to develop their own ballistic missile programs 
independent of any U.S. example.

    37. Senator Bill Nelson. General Cartwright and Admiral Young, has 
any risk assessment been conducted to analyze the probability of a 
retaliatory nuclear strike being initiated as a result of a 
conventional D-5 operational launch?
    General Cartwright and Admiral Young. A disciplined risk assessment 
approach to achieve a robust misinterpretation mitigation plan is 
underway and will be validated through exercises and wargames.

                            B-52 RETIREMENTS

    38. Senator Bill Nelson. General Cartwright and General Gorenc, the 
QDR recommended reducing the B-52H fleet to 56 aircraft from 93 
aircraft. At a previous hearing, General Moseley and Secretary Wynne, 
in response to a question from Senator Levin, agreed to provide copies 
of all analyses and studies that have been conducted to support the 
decision to retire 37 B-52H aircraft. What is the status of this 
request?
    General Cartwright. USSTRATCOM is not witting of the request nor 
status.
    General Gorenc. The Air Force performed an operational risk 
assessment of the impact of a reduced B-52 force structure in light of 
planned/programmed modernizations and improvements across the entire 
Global Strike portfolio. This assessment concluded the proposed B-52 
force structure/Global Strike portfolio met any single Combatant 
Commander's Operational War Plan or Major Contingency Operation's 
requirements. The specific conclusions of this assessment are 
classified. We are prepared to discuss the assessment with the Senate 
Armed Services Committee professional staff members.

    39. Senator Bill Nelson. General Cartwright and General Gorenc, no 
documents have been produce to date. When can we expect the documents?
    General Cartwright. USSTRATCOM is not witting of the request nor 
status.
    General Gorenc. Air Force Space Command is currently studying the 
most cost effective, safe, and expeditious way to draw down 50 ICBMs as 
directed by the QDR.

    40. Senator Bill Nelson. General Cartwright and General Gorenc, 
what is the rational for retiring 37 B-52s, particularly as a fairly 
extensive upgrade program is well underway?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. The imperative for recapitalization to support the 
Air Force's transformation is at the forefront of our need to draw down 
the B-52 force structure. Retiring:

        - older aircraft enables reinvestment to modernize the 
        capability of the entire fleet. As we continue down the path of 
        transformation we are willing to accept
        - some near-term risk to field a more capable future force. The 
        modernized

                <bullet> bomber fleet will have greater lethality, be 
                more responsive and more survivable. There will be 
                improved lethality through numerous weapon
                <bullet> integration initiatives such as Joint Air-to-
                Surface Standoff Missile (JASSM), enhanced guided bomb 
                unit, and avionics mid-life improvements; increased 
                responsiveness through programs such as integrated
                <bullet> data link, combat network communications and 
                advanced high frequency radios; and ensured 
                survivability through threat awareness systems, low

        - observability upgrades and electronic counter-measure 
        improvements.

    The Air Force also continues development on a new land-based, 
penetrating long-range strike capability to be fielded by 2018. The Air 
Force remains committed to offset the B-52 reduction and mitigate the 
associated near-term risk by aggressively increasing the remaining 
bomber fleet's capabilities through modernization.

    41. Senator Bill Nelson. General Cartwright and General Gorenc, why 
was the decision made to terminate immediately the upgrade programs?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. The decision to exercise contract options for the 
Electronic Countermeasure Improvement (ECMI) program and the Avionics 
Midlife Improvement (AMI) program were required by the end of March 
2006. The Secretary of the Air Force, Michael Wynne, decided not to 
exercise the ECMI and AMI contract options in support of the 
President's budget. We have not terminated the program as ongoing kits 
installations continue. The B-52 program has currently procured 72 ECMI 
kits and 81 AMI kits. This decision allows the Air Force to avoid 
purchasing excess kits. Furthermore, it allows the Air Force to save 
$19 million between the ECMI and AMI options.

    42. Senator Bill Nelson. General Cartwright and General Gorenc, 
doesn't immediate termination of the upgrade programs presuppose 
congressional agreement to retire all 37 B-52Hs?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. The fiscal year 2007 President's budget draws down 
the B-52 fleet, retiring the 17 attrition reserve aircraft in fiscal 
year 2007, and reducing the total fleet size from 76 aircraft to 56 
aircraft in fiscal year 2008. The decision to exercise contract options 
for the ECMI program and the AMI program were required by the end of 
March 2006. The Secretary of the Air Force, Michael Wynne, decided not 
to exercise the ECMI and AMI contract options in support of the 
President's budget. This decision allows the Air Force to avoid 
purchasing excess kits, and to save $19 million between the ECMI and 
AMI options. We have not terminated the program as ongoing kits 
installations continue. The B-52 program has currently procured 72 ECMI 
kits and 81 AMI kits. The Congressional Defense Subcommittees were 
notified of the Air Force's intentions to not exercise the ECMI and AMI 
contract options on 14 March 2006. The vendors were formally told that 
the Air Force would not exercise the options on either contract on 31 
March 2006. Both the ECMI and AMI contracts can be renegotiated if 
additional kits are required.

    43. Senator Bill Nelson. General Cartwright and General Gorenc, the 
B-52 is often referred to as the ``workhorse'' of the bomber fleet and, 
according to Air Force analysis, can continue to fly until the late 
2030s, or earlier 2040s, largely because the flying hours are spread 
among a large number of airframes. With the reduction in the B-52 
fleet, won't the number of contingency flying hours increase for the 
remaining air frames thus hastening the time when the B-52 would 
otherwise have to be retired?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. Despite the reduction in the B-52 fleet, the 
programmed flying hours per aircraft will remain the same. As a result, 
the remaining aircraft would continue to fly at the same utilization 
(UTE) rate with the same expected service life.
    An increase in flying hours is not the key driver in decreasing 
service life. The key driver is how the aircraft is flown (i.e., 
usage). For example, in the past 5-6 years, Air Combat Command (ACC) 
has reduced the low-level flight portion of their training syllabus in 
favor of performing more high-altitude training. This shift in usage 
significantly reduced stress on the airframe and effectively increased 
the economic service life of the platform. Airframe health is 
continuously monitored via the Aircraft Structural Integrity Program 
(ASIP).
    The Air Force will continue to closely manage the B-52 flying hour 
and service life programs to yield the maximum years of service from 
this airframe.

    44. Senator Bill Nelson. General Cartwright and General Gorenc, 
with only 56 B-52 bombers, what is the anticipated retirement date?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. Current projections for the retirement of the B-52 
are beyond 2035 based on information known to date and coincident with 
the projected fielding of a transformational long-range strike 
capability. The reduction of B-52s from 76 total aircraft (not 
including the 18 excess attrition reserve) to 56 total aircraft will be 
accompanied by a proportional decrease in the annual flying hour 
program. As a result, the retirement projection remains unchanged. 
However, structural service life is only one factor in determining 
retirement date of a weapon system. Other considerations include future 
threats, unforeseen sustainment costs, and fielding of a replacement 
capability.

    45. Senator Bill Nelson. General Cartwright and General Gorenc, 
what studies have been done to examine B-52 economic life?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. For the B-52, the first economic life study was 
accomplished during the mid to late 1970s. The purpose was to determine 
if the B-52 platform was a viable ALCM carrier for the out-years. Since 
that initial study, economic life projections have been incorporated 
into the B-52 ASIP as a matter of routine. The ASIP Individual Aircraft 
Tracking Program performs this calculation using, as input, pilot usage 
forms from each sortie. Based on the most recent calculations, the B-52 
fleet has, on average, 18,516 hours of service life remaining for each 
aircraft.

    46. Senator Bill Nelson. General Cartwright and General Gorenc, the 
QDR also recommended development of a bomber alternative, referred to 
as a land-based penetrating long-range strike capability, by 2018. What 
additional capability could be developed and fielded by 2018 that 
justifies retirement of the B-52s from a cost and performance basis?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. Through its operational requirements process and 
the Joint Capabilities Integration and Development System process, the 
Air Force has identified and validated long-range strike capability 
requirements and shortfalls. These capabilities/effects-based processes 
help improve the long-range strike force over time to ensure it has the 
capabilities needed today and tomorrow. The Air Force plans to keep B-
52s as long as the capability/cost analysis justifies doing so; they 
will likely remain in the inventory for several more decades. At the 
same time, we are identifying and fielding new capabilities, such as 
the JASSM and a next generation long-range strike system, that will 
enable us to reduce/eliminate capability shortfalls so that we can 
operate effectively in future adversary environments. To that end, the 
Air Force has developed a three-phased long-range strike strategy:

        <bullet> Phase 1 - Continues the modernization of legacy bomber 
        fleet to upgrade, strengthen, and increase their combat 
        effectiveness

                <bullet> $3.98 billion (fiscal year 2007 President's 
                budget total for 3010/3600) to upgrade B-1, B-2, and B-
                52

        <bullet> Phase 2 - Leverages near-term technologies to start 
        development of a long-range strike capability that augments 
        current fleet in 2018

                <bullet> 2006 QDR directs Phase 2 effort
                <bullet> Considering manned, unmanned, and optionally 
                manned systems
                <bullet> ACC led Analysis of Alternatives (AoA) will 
                provide Air Force leadership with decision quality 
                information to support a Milestone A decision in early 
                2007

        <bullet> Phase 3 - Goes beyond 2018 with a system of systems 
        technology push for advanced improvements in speed, range, 
        accuracy, connectivity, and survivability in the 2035 timeframe

    47. Senator Bill Nelson. General Cartwright and General Gorenc, 
what are the options being considered for the bomber to be fielded by 
2018?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. The options being considered for the bomber to be 
fielded by 2018 are manned, unmanned, and optionally manned. As a 
result of a request for information from the Air Force, industry has 
responded with several propriety options including manned.

    48. Senator Bill Nelson. General Cartwright and General Gorenc, 
what is the anticipated cost of the 2018 bomber alternative per unit 
and annual operating costs?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. We do not have enough information to provide a 
specific answer at this time. The Air Force AoA will determine options 
to meet an anticipated capability shortfall in the 2015-2020 timeframe. 
The AoA is looking at a range of options, including modifications to 
existing systems and potential new platforms. The AoA is limited to 
technology mature enough to be fielded by 2018. The AoA is expected to 
provide data to support the fiscal year 2008 President's budget 
development. Full analysis and reports will be complete in the first 
half of 2007.

    49. Senator Bill Nelson. General Cartwright and General Gorenc, how 
does this compare to the B-52 flying hour cost of $11,384 per hour, the 
least expensive of the bombers?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. We do not have enough information to provide an 
answer at this time. The Air Force Next Generation Long Range Strike 
AoA will determine options to meet an anticipated capability shortfall 
in the 2015-2020 timeframe. The AoA is looking at a range of options, 
including modifications to existing systems and potential new 
platforms. The AoA is expected to provide data to support the fiscal 
year 2008 President's budget development. Full analysis and reports 
will be complete in the first half of 2007.

    50. Senator Bill Nelson. General Cartwright and General Gorenc, in 
2003, the Defense Science Board (DSB) recommended reengining the B-52H 
because the B-52H is ``the most versatile and cost effective weapon 
system in the bomber inventory.'' Moreover the DSB agreed with the Next 
Generation Bomber Study that ``aggressive modernization of bomber fleet 
will provide new bomber equivalent capability at significantly less 
cost.'' What has changed since then?
    General Cartwright. USSTRATCOM respectfully defers platform and 
system specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Gorenc. The Air Force must recapitalize and transform while 
modernizing legacy platforms. A reduction in the number of B-52H 
aircraft is possible given the enhanced conventional capabilities 
across the Air Force since 2003; for instance, the JASSM fielded on the 
B-1 and B-52 in the summer of 2005 and the 500# Joint Direct Attack 
Munition (JDAM) fielded on the B-2 in the winter of 2005. Further, 
JASSM fields on the B-2 and F-16 in summer 2006. The 2007 President's 
budget successfully balances the imperatives for recapitalization and 
transformation against the need for sustaining legacy force structure.

                          W-80 NUCLEAR WARHEAD

    51. Senator Bill Nelson. General Cartwright, Admiral Young, General 
Gorenc, and Secretary Flory, a study is currently underway to decide if 
the Navy and Air Force nuclear cruise missiles should be retired. In 
the meantime, the DOE is spending about $100 million per year to get 
ready to begin a life extension for the W-80 nuclear warhead, the 
warhead on the cruise missiles. Why not postpone the W-80 work until a 
final decision is made on whether the cruise missiles and W-80 are 
needed or not?
    General Cartwright and Admiral Young. The DOD, in conjunction with 
the DOE and the National Nuclear Security Administration, will examine 
the way forward pending completion of the study in May.
    General Gorenc. The DOD is in the final phase of a comprehensive 
study on the post-2007 cruise missile requirements that includes the 
current program of record for the W-80 nuclear warhead. Study findings 
may result in changes to both the Air Force and DOE programs. However, 
until the study is completed and results approved, any change to the 
program of record is premature.
    Mr. Flory. The W-80 life extension program has been underway since 
1998. We are working towards a quick resolution of the force posture 
issues associated with cruise missiles, which use the W-80 warhead. The 
issues relate to decisions about the type of cruise missile, their 
numbers, and length of time that we must retain cruise missiles to 
support our deterrence strategy. We are making every effort to support 
the current congressional budget deliberations on this matter.

    52. Senator Bill Nelson. General Cartwright, Admiral Young, General 
Gorenc, and Secretary Flory, would it make sense, if the life extension 
work on the W-80 is cancelled or postponed, to assign the first 
Reliable Replacement Warhead (RRW) to Livermore National Laboratory and 
let Los Alamos work on the very difficult W-76 life extension, the 
nuclear warhead for the D-5 missile?
    General Cartwright and Admiral Young. USSTRATCOM defers to the 
National Nuclear Security Administration.
    General Gorenc. The Nuclear Weapons Council established a joint Air 
Force-Navy-NNSA RRW Project Officers Group (POG) to examine the 
feasibility of the RRW concept. As an integral part of the joint 
effort, the NNSA laboratories are independently developing design 
concepts potentially applicable to both the SLBM and the ICBM. The POG 
will assess the feasibility of the respective design options, and 
present their findings and recommendations to the NWC in November 2006 
for a decision as to the next step for RRW.
    Mr. Flory. The primary linkage between the W-80 life extension 
program and the RRW program is the extent that each program may compete 
for limited resources in our stockpile transformation plan. The 
competition between the two national laboratories for the best RRW 
design should remain unbiased. A final decision is planned for late in 
2006.

    53. Senator Bill Nelson. General Cartwright, Admiral Young, General 
Gorenc, and Secretary Flory, wouldn't this be a more realistic option 
to ensure success for the RRW?
    General Cartwright and Admiral Young. The success of the RRW 
program is not dependent upon any one agency's efforts but on the 
development of an integrated DOD, DOE, and NNSA strategy to move from 
our legacy stockpile to a nuclear stockpile appropriate to the post-
Cold War security environment, with a foundation based on a 
revitalized, appropriately sized NNSA complex.
    General Gorenc. The joint Air Force-Navy-NNSA RRW POG is currently 
evaluating potential design options for the RRW. The POG is scheduled 
to present their findings and recommendations to the Nuclear Weapons 
Council this November for a decision as to the next step for RRW.
    Mr. Flory. Success of the RRW will depend primarily upon restoring 
the nuclear weapons infrastructure that furnishes the capacity to 
produce RRW designs in sufficient quantities to begin tranforming the 
nuclear stockpile in meaningful ways. If additional resources are 
needed for the RRW, options to provide the required resources will be 
developed.

    54. Senator Bill Nelson. General Cartwright, Admiral Young, General 
Gorenc, and Secretary Flory, what role does a decision to keep or 
retire the air launched cruise missiles play in the decision to retire 
37 B-52H bomber aircraft?
    General Cartwright and Admiral Young. USSTRATCOM respectfully 
defers platform and system specific questions to those Service 
representatives who maintain programmed funding and execution 
responsibilities. Existing or planned capabilities and decisions 
specific to the manning, training, and equipping of forces as part of 
Service programmed capabilities in support of the combatant commanders 
should be directed to the respective Service responsible for the 
capability in question.
    General Gorenc. USSTRATCOM operations plan requirements for air 
launched cruise missiles is a contributing factor in the Air Force's 
decision to retire 37 B-52H bomber aircraft. The remaining B-52H bomber 
aircraft provide delivery capacity for USSTRATCOM operations plan air 
launched cruise missile requirements.
    Mr. Flory. The reduction in the dual-capable B-52 force is not 
linked to a decision to keep or retire air-launched cruise missiles. 
The size of the B-52 force is driven primarily by conventional 
warfighting needs of regional combatant commanders and not by nuclear 
force requirements.

    55. Senator Bill Nelson. General Cartwright, Admiral Young, General 
Gorenc, and Secretary Flory, was the decision to retire in whole or in 
part made in anticipation of the nuclear air launched cruise missiles?
    General Cartwright and Admiral Young. The decision is pending, the 
study is ongoing.
    General Gorenc. USSTRATCOM operations plan requirements for air 
launched cruise missiles are a contributing factor in the Air Force's 
decision to retire 37 B-52H bomber aircraft. The remaining B-52H bomber 
aircraft provide delivery capacity for USSTRATCOM operations plan air 
launched cruise missiles requirements.
    Mr. Flory. The size of the B-52 force is driven primarily by 
conventional warfighting needs of regional combatant commanders and not 
by nuclear force requirements. Over the last decade, we have made 
significant advances in conventional weaponery. These advances have 
made the B-52 highly efficient in terms of the probability of defeating 
a target with a single advanced conventional weapon as compared to a 
large number of ``dumb'' bombs. These improvements have translated into 
improved efficiency and a reduced need for large numbers of the 
aircraft by the combatant commanders.

                  RETIREMENT OF 50 MINUTEMAN III ICBMS

    56. Senator Bill Nelson. General Cartwright, General Gorenc, and 
Secretary Flory, a decision in the QDR is to retire 50 Minuteman III 
ICBMs. There are currently 500 Minuteman III ICBMs being downloaded to 
one nuclear warhead per missile from multiple nuclear warheads. When 
the 50 are retired I understand that some of the remaining 450 
Minuteman III ICBMs will be uploaded or maintained with multiple 
nuclear warheads. Why is it necessary to retain multiple warheads on 
the Minuteman III ICBMs?
    General Cartwright. It is necessary to maintain the Nuclear Posture 
Review directed 500 warheads. Doing so allows us to keep 50 missiles in 
a Multiple Independent Reentry Vehicle configuration while freeing 
missiles/boosters to become test assets for the future.
    General Gorenc. USSTRATCOM determines targeting requirements and 
transmits that data to Air Force Space Command. As the force provider, 
Air Force Space Command configures the ICBMs in accordance with 
USSTRATCOM's warhead and force structure requirements.
    Mr. Flory. The DOD is in the process of reconfiguring the Minuteman 
III ICBM force with a mix of MIRVed and single-warhead systems while 
reducing our operationally-deployed strategic nuclear warheads to the 
Moscow Treaty limits (1,700-2,200). DOD has not reached a final 
decision on the precise number of warheads that will be retained in the 
Minuteman III force. However, a mix of ICBMs in both MIRVed and single-
warhead configurations will provide appropriate operational flexibility 
as we move toward a more tailorable deterrent posture appropriate for 
peer and near-peer competitors, regional WMD states, as well as non-
state actors.

                     NUCLEAR WEAPONS DISMANTLEMENT

    57. Senator Bill Nelson. General Cartwright and Secretary Flory, on 
many occasions administration witnesses talk about significant 
reductions in the nuclear weapons stockpile, and the 2001 Nuclear 
Posture Review (NPR) decision to ``transition from a threat-based 
nuclear deterrent with large numbers of deployed and reserve weapons to 
a deterrent based on capabilities, with a smaller nuclear weapons 
stockpile.'' What dismantlement decisions have been made and 
implemented since 2001 to achieve the reductions?
    General Cartwright. USSTRATCOM defers to the NNSA for the 
dismantlement schedule.
    Mr. Flory. By the end of this fiscal year 2006, we will have 
reduced the size of total stockpile by 25 percent since the conclusion 
of the 2001 NPR. Current policy states that weapons no longer required 
for deployment or for reliability replacements will be retired and 
dismantled. By 2012, we plan to retire almost 50 percent of the total 
stockpile that existed at the end of the NPR. Further reductions are 
possible. But, we can only achieve significant additional reductions 
through a capability to produce reliable replacement warheads. We need 
a restored nuclear weapons infrastructure to accomplish this.

    58. Senator Bill Nelson. General Cartwright and Secretary Flory, is 
the total nuclear weapons stockpile, not just the deployed stockpile, 
substantially smaller today than it was in 2000?
    General Cartwright. Yes. Since 2000, the total nuclear weapons 
stockpile has been reduced by about 21 percent.
    Mr. Flory. Yes. By the end of fiscal year 2007 we will have reduced 
the size of the total stockpile by 25 percent. We intend to reduce the 
total stockpile by almost 50 percent by fiscal year 2012.

    59. Senator Bill Nelson. General Cartwright and Secretary Flory, 
what part of the transition to a ``threat-based nuclear deterrent'' 
discussed in the 2001 NPR has occurred and what is planned?
    General Cartwright. The United States has invested heavily in a new 
generation of advanced conventional systems such as the JASSM and the 
Tactical Tomahawk and reconfigured four ballistic missile submarines to 
guided missile submarines, while retiring the Peacekeeper ballistic 
missile system and reducing the number of deployed ICBM and SLBM 
warheads. These actions, in combination with initial steps to deploy an 
integrated missile defense system, have prepared the DOD to respond to 
a wider range of potential adversaries while reducing reliance upon 
nuclear weapons.
    Mr. Flory. The NPR called for a transition to a ``capabilities 
based'' strategic force posture.
    In response to President Bush's call for a strategy that addressed 
today's threats while preparing to meet future challenges, the DOD 
presented a new defense strategy in its 2001 QDR. The new defense 
strategy employs a capabilities-based approach to planning. The essence 
of capabilities-based planning is to identify capabilities that 
adversaries could employ and capabilities that could be available to 
the United States, then evaluate their interaction. It replaces the 
traditional threat-based approach that focused on specific adversaries 
or regions of the world. Nuclear force planning employs the same 
capabilities-based approach.

    60. Senator Bill Nelson. General Cartwright and Secretary Flory, 
how many dismantlements are planned for fiscal year 2006 and for fiscal 
year 2007 and which weapons will be dismantled in each year?
    General Cartwright. The NNSA is responsible for scheduling and 
executing the dismantlement of weapons that have been approved for 
retirement.
    Mr. Flory. Projections of future dismantlement activity are 
classified. However, I can say that we have dismantled over 13,000 
warheads since the end of the Cold War. NNSA is responsible for 
scheduling and executing the dismantlement of weapons that have been 
approved for retirement and can provide the actual weapon quantities 
and types planned for dismantlement in fiscal year 2006 and fiscal year 
2007.

    61. Senator Bill Nelson. General Cartwright and Secretary Flory, 
currently there are roughly four weapons in reserve or inactive or 
other status in the stockpile for every weapon deployed. Under the 2001 
NPR is there a goal to reduce this ratio?
    General Cartwright. Yes. The overall goal is to reduce the size of 
the inactive stockpile.
    Mr. Flory. While I cannot address the specific figures used in your 
question, two factors that dominate the ratio of deployed and non-
deployed strategic warheads are worth noting. First, we must retain a 
responsive capability to deal with unexpected changes in the 
international environment. Second, we currently must retain--where it 
is possible--a number of specific types of warheads as a hedge against 
the failure of another specific type of deployed warheads. We must 
continue to maintain replacements until DOE has the infrastructure and 
the certified capability to replace failed legacy warheads. According 
to DOE plans, we do not anticipate a fully responsive infrastructure to 
become available until after 2022.

    62. Senator Bill Nelson. General Cartwright and Secretary Flory, 
will the reliable warhead program allow a reduction in this ratio?
    General Cartwright. USSTRATCOM believes the RRW will enable a 
reduction in the ratio. An objective of the RRW program is to improve 
the manufacturability of designs and promote a responsive 
infrastructure. Once this is achieved a reduction in the ratio between 
deployed warheads and those retained in a reserve or inactive status 
could be realized.
    Mr. Flory. Yes. Our goal is to eliminate warheads that no longer 
serve a significant role in U.S. national security strategy. When the 
nuclear weapons infrastructure is restored, we will also be able to 
retire warheads that are currently retained as reliability 
replacements. According to DOE plans, we do not anticipate a fully 
responsive infrastructure to become available until after 2022.

    63. Senator Bill Nelson. General Cartwright and Secretary Flory, 
what is the goal?
    General Cartwright. The goal is to retain the minimum number of 
weapons required to meet operational needs and to respond to 
technological or strategic surprises in a timely manner. This is done 
through a combination of a responsive infrastructure and retention of 
reserve/inactive weapons. The exact ratio of deployed to inactive/
reserve weapons is dependent upon the capability of the weapons complex 
to respond to these surprises.
    Mr. Flory. Our goal is to restore the nuclear warhead 
infrastructure and then make appropriate reductions in the stockpile in 
a way that manages risk for the Nation.

    64. Senator Bill Nelson. General Cartwright and Secretary Flory, 
what is a reasonable ratio?
    General Cartwright. The ratio is dependent upon the ability of the 
infrastructure to meet operational needs and to respond to 
technological or strategic surprises in a timely manner. This is 
reviewed during the annual nuclear weapons stockpile memorandum 
process.
    Mr. Flory. With a restored infrastructure and the ability to 
replace failed warheads or to respond quickly to negative shifts in the 
international environment, I would expect the ratio of non-deployed 
warheads to deployed warheads to drop significantly below current 
levels. In that situation, I expect that we will maintain only those 
non-deployed warheads in quantities necessary to support a responsive 
capability and pipeline logistics activities to support maintenance and 
modification activities.

    65. Senator Bill Nelson. General Cartwright and Secretary Flory, a 
decision to retire the W-62 warhead from the Minuteman III ICBM was 
made in the 2001 NPR. Has there been a decision made to dismantle the 
W-62? If so, when is the first dismantled scheduled?
    General Cartwright. Yes. The NNSA is responsible for scheduling and 
executing the dismantlement of weapons once they are retired therefore, 
I would defer to the NNSA for dismantlement information.
    Mr. Flory. Yes. We have already dismantled a number of W-62 
warheads and are intending to dismantle more.

    [Whereupon at 4:22 p.m., the subcommittee adjourned]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                         TUESDAY, APRIL 4, 2006

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 10:23 a.m. in 
room SD-138, Dirksen Senate Office Building. Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Roberts, 
Thune, Levin, Reed, and Bill Nelson.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Robert M. Soofer, 
professional staff member; and Kristine L. Svinicki, 
professional staff member.
    Minority staff member present: Richard W. Fieldhouse, 
professional staff member.
    Staff assistants present: Jessica L. Kingston and Jill L. 
Simodejka.
    Committee members' assistants present: Chris Arnold, 
assistant to Senator Roberts; Arch Galloway II, assistant to 
Senator Sessions; and William K. Sutey, assistant to Senator 
Bill Nelson.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The subcommittee will come to order.
    Good morning Gentlemen, I'm sorry, we've had a vote this 
morning that got us off to a little bit of a slow start. I 
think others will be joining us as the morning goes along.
    I'm pleased to welcome our witnesses today, Peter Flory, 
Assistant Secretary of Defense for International Security 
Policy; Lieutenant General Henry Obering, Director of the 
Missile Defense Agency (MDA); Lieutenant General Larry Dodgen, 
Commander of the U.S. Army Missile Defense Command who also 
appears before us today as U.S. Strategic Command's (STRATCOM) 
Joint Functional Component Commander for Integrated Missile 
Defense--that's a mouthful; and David Duma, Acting Director for 
Operational Test and Evaluation in the Department of Defense 
(DOD).
    Gentlemen, I thank you for your service to our Nation and 
for taking time to join us today as this subcommittee meets to 
receive testimony on the DOD fiscal year 2007 budget requests 
for the Missile Defense Program. We are primarily interested in 
the Department's progress toward building those missile defense 
capabilities directed for deployment by the President in 2002, 
including ground-based interceptors (GBIs), sea-based 
interceptors, and associated radar and sensors, all of which 
are essential components to a functioning system. In this 
respect, I would commend the DOD for providing, in just 3 short 
years, a measure of protection for the American people against 
long-range ballistic missile threats to our homeland. Clearly 
this initial defensive capability requires continued 
refinement, which is why Congress continues to place emphasis 
on an adequate testing program, a subject we hope to learn more 
about today.
    But perhaps, most important of all, I'll be interested to 
hear from General Dodgen, who speaks on behalf of the 
warfighters about the operational readiness of those missile 
defense capabilities currently fielded, and whether the current 
pace of deployment is adequate to stay ahead of the threat.
    I realize that I don't have to remind our witnesses about 
the ballistic missile threat, but for those less familiar with 
the compelling rationale for missile defense, allow me to 
paraphrase from the testimony before this committee of General 
B.B. Bell, Commander of U.S. Forces, Korea--who is arguably the 
combatant commander closest to the threat. General Bell notes 
that the North Korean ballistic missile inventory includes over 
600 short-range SCUD missiles, and as many as 200 medium-range 
No-dong missiles, capable of reaching Japan. North Korea is 
also preparing to field a new intermediate-range ballistic 
missile which could reach U.S. facilities in Okinawa, Guam, and 
possibly Alaska, and North Korea continues to develop a three-
stage missile which could reach the continental United States.
    This assessment reinforces, in my mind, the need to field a 
missile defense capability as promptly as possible, even while 
we continue to improve and test those systems over time. 
Senator Reed, do you have any opening comments?
    Senator Reed. No, Mr. Chairman. Senator Nelson will be here 
and I would just defer to him, to any statement he would make.
    Senator Sessions. Senator Roberts?
    Senator Roberts. No statement, thank you.
    Senator Sessions. Thank you, I'll recognize Senator Nelson, 
the ranking member of our subcommittee, when he arrives. I 
would like to ask each of you to give us an opening statement, 
if you choose, and would ask you to limit those remarks to 5 
minutes if you would, please.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    I am pleased to welcome our witnesses today: Peter Flory, Assistant 
Secretary of Defense for International Security Policy; Lieutenant 
General Trey Obering, Director of the Missile Defense Agency; 
Lieutenant General Larry Dodgen, Commander of the U.S. Army Space and 
Missile Defense Command--who also appears before us today as U.S. 
Strategic Command's Joint Functional Component Commander for Integrated 
Missile Defense; and David Duma, Acting Director for Operational Test 
and Evaluation in the Department of Defense (DOD). Gentlemen, I thank 
you for your service to our Nation and for taking the time to join us 
here today.
    The subcommittee meets today to receive testimony on the DOD fiscal 
year 2007 budget request for the Missile Defense Program. We are 
particularly interested in the Department's progress toward fielding 
those missile defense capabilities directed for deployment by the 
President in 2002, including ground-based interceptors, sea-based 
interceptors, and associated radars and sensors.
    In this respect, I would commend the DOD for providing, in just 3 
short years, a measure of protection for the American people against 
the long-range ballistic missile threat to our homeland. Clearly, this 
initial defensive capability requires continued refinement, which is 
why Congress continues to place emphasis on an adequate testing 
program, a subject we hope to learn more about today.
    But perhaps most important of all, I will be interested to hear 
from General Dodgen, on behalf of the warfighters, about the 
operational readiness of those missile defense capabilities currently 
fielded, and whether the current pace of deployment is adequate to stay 
ahead of the threat.
    I realize that I don't have to remind our witnesses about the 
ballistic missile threat, but for those less familiar with the 
compelling rationale for missile defense, allow me to paraphrase from 
the testimony before this committee of General B.B. Bell, Commander of 
U.S. Forces in Korea, who is, arguably, the combatant commander closest 
to the threat.
    General Bell notes that the North Korean ballistic missile 
inventory includes over 600 short-range SCUD missiles and as many as 
200 medium-range No Dong missiles capable of reaching Japan. North 
Korea is also preparing to field a new intermediate range ballistic 
missile which could reach U.S. facilities in Okinawa, Guam, and 
possibly Alaska; and North Korea continues to develop a three-stage 
missile which could reach the continental United States. This 
assessment reinforces in my mind the need to field missile defense 
capabilities as promptly as possible, even while we continue to test 
and improve these systems over time.
    Having said this, let me now recognize my distinguished ranking 
member, Senator Nelson of Florida, for any opening remarks he may have.

    Senator Sessions. I believe we will start with Secretary 
Flory.

  STATEMENT OF HON. PETER C.W. FLORY, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Flory. Chairman Sessions, thank you, Senator Reed, 
Senator Roberts, it's a pleasure to be before the subcommittee 
today to provide a policy perspective on our Ballistic Missile 
Defense (BMD) Program.
    BMD has been a top priority of the President, of his 
administration since day one, and it continues to be one today. 
At the beginning of the President's first term, the United 
States faced a very different security environment than the one 
we had faced during the four and a half decades of the Cold 
War. In the words of the former Director of Central 
Intelligence Agency (CIA), Jim Woolsey, words which have been 
cited quite frequently, ``With the demise of the Soviet Union, 
we found that while we had slain a great dragon, the dragon had 
been replaced by many dangerous snakes.'' In other words, the 
end of the Cold War did not mean that there was not a threat 
anymore, it simply meant that the United States would face 
different, and different kinds of threats. One particularly 
menacing such threat was the spread of weapons of mass 
destruction (WMD) and the means of delivering them, in 
particular, ballistic missiles.
    To deal with this threat, President Bush in 2001 and 2002 
took several bold steps. First, he announced that the United 
States would exercise its right to withdraw from the 1972 Anti-
ballistic Missile (ABM) Treaty. Second, he directed the DOD to 
begin fielding an initial set of missile defense capabilities 
for the United States by the end of the year 2004. What this 
did was to end what had been for decades, in effect, a research 
and development-only approach to BMD and direct us to proceed 
with deployment.
    I'm pleased to say that today the United States has all of 
the pieces in place needed to intercept an incoming long-range 
ballistic missile. GBIs in Alaska and California, and a network 
of ground, sea, and spaced-based sensors, a command and control 
network, and particularly important, trained service men and 
women who are ready to operate the system.
    Now, in 2002 we were well aware that what we fielded in 
2004 would be our initial capability, and that is why the 
President directed us to continue improving the capabilities 
every time through ongoing test and evaluation programs, 
through research and development of promising new technologies, 
and by making continuous improvements to the systems that we 
had already fielded. You will hear more of the technical and 
programmatic details of how we're going about this from our 
fellow panel members in a couple of minutes.
    First, I would like to take a few minutes to put the 
program in strategic context in terms of the evolving threat, 
and in terms of our overall defense strategy. Most important, 
the threat posed by ballistic missiles as perceived by the 
Nation in 2002 continues to grow, and the missiles we're 
talking about are growing in range, complexity, and the threat 
they pose. In 1990, around the time of the end of the Cold War, 
16 countries possessed ballistic missiles of varying ranges. In 
2006, 25 countries possessed these weapons, and the number of 
countries that possess longer range, i.e., medium/intermediate 
or intercontinental-range ballistic missiles of the kind that 
can threaten our friends and allies, or that can threaten the 
United States potentially, has increased from 5 to 9. Not only 
is the number of nations possessing these weapons increasing, 
but the group includes some of the world's most threatening and 
least responsible regimes, in particular, North Korea and Iran.
    As Lieutenant General Michael Maples, the Director of the 
Defense Intelligence Agency (DIA), recently testified in an 
unclassified session before this committee, North Korea 
continues to invest in ballistic missiles--this is not only for 
its own use, but for foreign sales as well. According to 
General Maples, Pyongyang is likely developing intermediate and 
intercontinental ballistic missile capabilities.
    Director of National Intelligence (DNI) Negroponte also 
testified before the committee that, ``North Korea claims to 
have nuclear weapons, a claim that we assess as probably true, 
and has threatened to proliferate these weapons abroad.''
    Turning to the Middle East, Iran represents a dangerous 
nexus, combining a vigorous ballistic missile program, a desire 
to develop nuclear weapons and a program to do so, and a 
history of support for international terrorism. Terrorism has 
been part of Iran's arsenal for decades, in fact, before the 
September 11 attacks, more Americans have been Iranian-backed 
terrorists like Hezbollah than by any other terrorist group. 
Iran has now made ballistic missiles an important part of its 
strategy as well.
    As DNI Negroponte testified before the committee, ``The 
danger that Iran will acquire a nuclear weapon and the ability 
to integrate it with ballistic missiles Iran already possesses 
is a reason for immediate concern. Iran already has the largest 
inventory of ballistic missiles in the Middle East, and Tehran 
views its ballistic missiles as an integral part of its 
strategy to deter, and if necessary, retaliate against forces 
in the region, including U.S. forces.'' In this environment, 
recent statements by Iranian President Ahmadinejad threatening 
the United States and its friends in the region, most notably 
Israel, are of particular concern. In October 2005 Ahmadinejad 
declared that, ``Israel must be wiped off the map, and God 
willing, with the force of God behind it, we shall soon 
experience a world without the United States and Zionism.'' The 
Iranian president also said that, ``Anyone who recognizes 
Israel will burn in the fire of the Islamic nations' fury.''
    As noted, Iran's ballistic missile forces already cast a 
shadow over U.S. friends and allies, and over our deployed 
forces in the Middle East. The Intelligence Community (IC) also 
assesses that Iran could flight test an ICBM by 2015. The 
addition of nuclear warheads in an ICBM that could reach the 
United States would further extend Iran's ability to coerce and 
threaten others, now to include the United States. There's a 
limit, Mr. Chairman, to the details we can get into on the 
actual threat here, but I would commend to the subcommittee 
members a recent National Intelligence Estimate (NIE) that was 
done on the ballistic missile threat which gets into these in a 
lot more detail and specificity.
    As we face these threats, BMDs remain an important part of 
our overall defense strategy. The 2001 Quadrennial Defense 
Review (QDR) outlined four broad defense policy goals--to 
assure, dissuade, deter, and if necessary, defend and defeat. 
Missile defenses support each element of this strategy: they 
can assure allies and friends that ballistic missiles in the 
hands of adversaries will not be able to deter the United 
States from fulfilling its security commitments, or coerce our 
allies, or to undermine the coalition; to dissuade potential 
adversaries from investing in or developing ballistic missiles 
by reducing the value of such programs; to deter ballistic 
missile attacks and threats by reducing an adversary's 
confidence that an attack would succeed; and lastly, by 
defeating missile attacks against the United States, its 
deployed forces, and its friends and allies in the event that 
deterrence fails.
    Last February, the DOD released the 2006 QDR. The 2006 QDR 
recognizes that since 2001, the United States has found itself 
engaged in a long war, a global conflict against violent 
extremists who use terrorism as their weapon of choice and who 
are actively seeking WMD. The QDR identifies a number of 
priorities to guide the Department as it makes choices about 
how best to defend the Nation and how best to help the Nation 
win the long war. These priorities include defeating terrorist 
networks, defending the homeland in depth, shaping the choices 
of countries at strategic crossroads, and preventing hostile 
states and non-state actors from acquiring or using WMD.
    BMD can make important contributions to each of these 
priorities. In particular, they can be used to defend the 
homeland, and defeat the actual use of a ballistic missile 
attack against the population in territory of the United States 
or its deployed forces or its friends and allies, and by making 
an adversary uncertain that an attack would succeed, that may 
dissuade others from investing in missiles or deter their use 
by those who have already acquired them--in other words, 
supporting the four elements of the strategy in the 2001 QDR.
    Mr. Chairman, some have questioned the attention and 
resources we have devoted to BMD in the years following the 
September 11 attacks. There's a concern that the main threat to 
the United States today is terrorism and that a ballistic 
missile attack against the United States is unlikely. The 
terrorist threat is clearly a very serious threat to the United 
States, but we believe it's important to develop capabilities 
to deal with all threats. The U.S. Government was criticized in 
the wake of the September 11 attacks for not, ``connecting the 
dots on the terrorist threat,'' and ``for failing to prevent 
the attacks.'' With respect to the ballistic missile threat, I 
think the quotes I've given you before make it quite clear that 
the dots are out there at this point for all to see, and to be 
connected. I would not care to be before this committee in the 
wake of a future ballistic missile attack on the territory and 
people of the United States explaining why--given all that we 
know today of ballistic missiles in the hands of dangerous 
regimes--we had not acted and continued to act to defend the 
American people.
    Senator Sessions. Mr. Secretary, we have a time limit, if 
you could wrap up as you choose.
    Mr. Flory. I will wrap up, Mr. Chairman, I'd be happy to 
answer questions briefly.
    In 2002, the President also directed us, in addition to 
fielding defenses for the United States, to cooperate with 
friends and allies to extend the benefit of missile defense to 
them. We are embarked upon a number of initiatives with 
partners including the United Kingdom (U.K.), Denmark, Israel, 
Germany, Australia, and Japan, which is our largest partner. We 
also continue to seek practical areas of cooperation with 
Russia on a bilateral basis as well as in the NATO-Russia 
context.
    Mr. Chairman, I will conclude on that note, and be happy to 
answer your questions.
    [The prepared statement of Mr. Flory follows:]
              Prepared Statement by Hon. Peter C.W. Flory
    Chairman Sessions, Ranking Member Nelson, members of the 
subcommittee, it is a pleasure to be with you today to provide the 
subcommittee with a policy perspective on the progress we've made to 
date in the area of ballistic missile defense (BMD) and where we are 
headed. BMD has been a top defense priority of the administration from 
day one, and it remains a top priority.
    I thought it might be useful to begin by reviewing how we got to 
where we are today.
    At the beginning of the administration, the United States faced a 
very different security environment from the one we faced during the 
4\1/2\ decades of the Cold War. Former Director of Central Intelligence 
James Woolsey has pointed out that with the demise of the Soviet Union, 
we found that while we had slain a great dragon, the dragon had been 
replaced by many dangerous snakes. In other words, the end of the Cold 
War did not mean that the United States no longer faced a threat; 
rather, it meant that the United States would face different kinds of 
threats.
    One such threat was the spread of weapons of mass destruction (WMD) 
and the means of delivering them, in particular ballistic missiles. 
Yet, the 1972 Anti-Ballistic Missile Treaty between the U.S. and the 
Soviet Union prohibited us from fielding an effective defense against 
this growing threat. Regimes in countries such as North Korea and Iran 
and, at the time, Iraq understood that while they could not hope to 
match the United States in conventional forces, they could gain 
strategic leverage by investing in ballistic missiles. The strategic 
wisdom of leaving the American people vulnerable to missile attack as a 
matter of policy during the Cold War was--at best--debatable. The 
wisdom of maintaining such a policy in the post-Cold War environment is 
not. Without a defense against ballistic missiles, the American people 
are vulnerable to the growing threat of missile attack. Without 
defenses, a U.S. President faced with a threat to vital U.S. interests 
from a rogue state armed with long-range missiles would have to take 
into account the fact that the United States homeland could be at risk.
    To deal with this threat, President Bush in 2001 and 2002 took 
several bold steps. First, he announced that the United States would 
exercise its right, which was enshrined in the Anti-Ballistic Missile 
Treaty, to withdraw from the treaty. Second, he directed the Department 
of Defense (DOD) to end what had been for decades a ``research and 
development only'' approach to BMD, and to begin fielding an initial 
set of missile defense capabilities for the United States by the end of 
2004.
    I am pleased to say that we have by and large met the goal set by 
the President. In 2002, Fort Greely, Alaska, was an inactive 
installation, having been on the 1995 Base Realignment and Closure 
(BRAC) list. Two years later, it was a missile defense interceptor 
site. The United States today has all of the pieces in place needed to 
intercept an incoming long-range ballistic missile: ground-based 
interceptors in Alaska and California; a network of ground, sea, and 
space-based sensors; a command and control network; and most 
importantly, trained servicemen and women ready to operate the system. 
Our BMD System today is primarily oriented toward continued development 
and testing. But we believe that, although the system's capability is 
limited and in its initial stage, the necessary elements are in place 
to intercept a long-range ballistic missile.
    Because of the importance of this mission, one of the first things 
I did upon assuming my current position in the DOD was to take a trip 
to Fort Greely. I want to tell you how impressed I was, not just with 
the site itself--the buildings, the silos, the command and control 
systems--but with the dedication, the professionalism, and the sense of 
mission of the men and women who stand ready to operate the system. I 
would encourage you all to visit Fort Greely. It is a long way for most 
of you. I know that the men and women stationed there would appreciate 
the visit, and that you will be as impressed as I was.
    Our BMDs are not as capable today as they will be in the future. 
The President knew in 2002 that what we fielded in 2004 would be our 
initial capabilities. This is why he directed us to continue improving 
these capabilities over time through an ongoing test and evaluation 
program, through research and development of promising new 
technologies, and by making continuous improvements to the systems we 
have already fielded. You will hear more of the programmatic details of 
how we are going about this from my fellow panel members in a few 
minutes.
    But first I would like to take a few minutes to put this program in 
its strategic context, in terms of the evolving threat, and in terms of 
our overall defense strategy.
    First and foremost, the threat posed by ballistic missiles is 
growing. The missiles we are talking about are growing in range, 
complexity, and the threat they pose. In 1990, around the end of the 
Cold War, 16 countries possessed ballistic missiles of varying ranges. 
In 2006, 25 countries have them. The number of countries that possess 
medium, intermediate, or intercontinental range ballistic missiles--
i.e., missiles that may reach our friends and allies, and in some cases 
the U.S. homeland itself has increased from 5 to 9.
    Not only is the number of nations possessing ballistic missiles 
increasing, but this group includes some of the world's most 
threatening and least responsible regimes, such as North Korea and 
Iran.
    As Lieutenant General Michael Maples, the Director of the Defense 
Intelligence Agency (DIA), recently testified in an unclassified 
session, North Korea continues to invest in ballistic missiles, not 
only for its own use but for foreign sales as well. According to 
Lieutenant General Maples, ``Pyongyang is likely developing 
intermediate and intercontinental ballistic missile capabilities.'' For 
over 50 years, U.S. servicemembers have stood on the border between 
North and South Korea. We have known that if North Korea decided to 
attack the South, these men and women would immediately be in harm's 
way. The prospect of long-range ballistic missiles in the hands of the 
North means that, for the first time, the American people too would be 
in harm's way.
    Iran represents a dangerous nexus, combining a vigorous ballistic 
missile program, a desire to develop nuclear weapons, and a history of 
support for international terrorism. The most recent edition of the 
State Department's Patterns of Global Terrorism (April 29, 2004) 
describes Iran as the world's most active state sponsor of terrorism.
    Terrorism has been part of Tehran's arsenal for decades. In fact, 
before the September 11 attacks, more Americans had been killed by 
Iranian-backed terrorists like Hezbollah than by any other terrorist 
group. Iran has now made ballistic missiles an important part of its 
defense strategy--scenes of Iranian missiles on display in military 
parades are reminiscent of the Soviet Union. Further, as Director of 
National Intelligence (DNI) John Negroponte recently testified before 
Congress, Iran has engaged in a clandestine uranium enrichment program 
for nearly two decades. It is the judgment of the Intelligence 
Community (IC) that Iran does not yet possess a nuclear weapon or have 
the necessary fissile material to do so, but the DNI testified that 
``the danger that it will acquire a nuclear weapon and the ability to 
integrate it with the ballistic missiles Iran already possesses is a 
reason for immediate concern.''
    In this environment, recent statements by Iranian President Ahmadi-
Nejad threatening the United States and its friends in the region, most 
notably Israel, are of particular concern. In October 2005, Ahmadi-
Nejad declared that ``Israel must be wiped off the map. God willing, 
with the force of God behind it, we shall soon experience a world 
without the United States and Zionism.'' He also said that ``anybody 
who recognizes Israel will burn in the fire of the Islamic nation's 
fury.''
    The IC assesses that Iran could flight test an ICBM by 2015. Iran's 
ballistic missiles already cast a shadow over U.S. friends and allies, 
and our deployed forces, in the Middle East. The addition of nuclear 
warheads and an ICBM that could reach the U.S. would further extend 
Iran's ability to coerce others and threaten the U.S.
    The United States continues to support efforts by the United 
Nations Security Council to reach a diplomatic solution to the issue of 
Iran's nuclear activities. But, we need to take steps to safeguard our 
interests and the interests of friends and allies in the event 
diplomatic efforts do not succeed. The Iranian case is just one example 
of a WMD proliferation problem that, thanks to ballistic missile 
technology, could directly threaten the American people. We must be 
prepared for this possibility, and for others to follow suit. The 
continued development and fielding of missile defenses is one vital 
step to defend against such threats, as well as to reduce the 
attractiveness, to other countries of concern, of such WMD and missile 
technology.
    As we face these threats, BMDs remain an important part of our 
overall defense strategy. The 2001 Quadrennial Defense Review (QDR) 
outlined four broad defense policy goals: to assure, dissuade, deter, 
and if necessary defend and defeat. Missile defenses help to:

        <bullet> Assure allies and friends that ballistic missiles will 
        not be able to deter the U.S. from fulfilling its security 
        commitments, coerce our allies, or undermine a coalition;
        <bullet> Dissuade potential adversaries from investing in or 
        developing ballistic missiles by reducing the value of such 
        weapons;
        <bullet> Deter ballistic missile attacks and threats by 
        reducing an adversary's confidence in the success of an attack; 
        and
        <bullet> Defeat missile attacks against the United States, its 
        deployed forces, and its friends and allies in the event 
        deterrence fails.

    In February, the DOD released the 2006 QDR. The QDR recognizes that 
since the 2001 QDR, the United States has found itself engaged in a 
``long war,'' a global conflict against violent extremists who use 
terrorism as their weapon of choice, and who are actively seeking 
weapons of mass destruction. We believe that ballistic missile defenses 
play an important part in this long war. The QDR identifies a number of 
priorities to guide the Department as it makes choices about how best 
to help the Nation win the long war. These priorities include: 
defeating terrorist networks; defending the homeland in depth; shaping 
the choices of countries at strategic crossroads; and preventing 
hostile states and non-state actors from acquiring or using weapons of 
mass destruction. Ballistic missile defenses can make a contribution to 
each of these important priorities. They can be used to defend the 
homeland and defeat the actual use of a ballistic missile against the 
population and territory of the U.S., its deployed forces, or its 
friends and allies. By making an adversary uncertain that a ballistic 
missile attack will succeed, missile defenses may dissuade others from 
investing in missiles, or deter their use by those who have already 
acquired them.
    Some have questioned the amount of attention we have paid to 
ballistic missile defense in the years following the September 11 
attacks, on the theory that the main threat to the U.S. is terrorism, 
and a ballistic missile attack against the United States is unlikely. I 
would turn that argument around somewhat. One of the lessons of 
September 11 is that nothing is unthinkable. The United States must and 
can prepare to defend itself against the widest range of threats 
possible. Leaving ourselves vulnerable to a type of attack will only 
increase the likelihood that an adversary will exploit that 
vulnerability to threaten or attack us.
    Further, the U.S. Government was criticized in the wake of 
September 11 for not ``connecting the dots'' on the terrorist threat 
and failing to act to prevent the attacks. With respect to the 
ballistic missile threat, the dots are out there for all to see. I 
would not care to be before this committee in the wake of a ballistic 
missile attack explaining why, given all we know of ballistic missiles 
in the hands of dangerous regimes, we had not acted to defend the 
American people.
    I spoke earlier about the ballistic missile defense goals laid out 
by President Bush in 2002. The President directed us then not only to 
field defenses for the United States, but also to cooperate with 
friends and allies to extend the benefits of missile defenses to them 
as well. Since then, we have embarked upon a number of important 
missile defense initiatives with international friends and partners. We 
have worked with the United Kingdom to upgrade the early warning radar 
at Fylingdales so it can perform a ballistic missile defense mission; 
we reached agreement with Denmark to allow us to upgrade the early 
warning radar at Thule, Greenland; we continue to work with Israel on 
the Arrow Ballistic Missile Defense Program; our own Patriot anti-
missile system is widely deployed and is available for export; Germany 
and Italy are our partners in the Medium Extended Range Air Defense 
System; after we signed a Framework Memorandum of Understanding on 
missile defense cooperation in 2004 with Australia, Canberra has 
expressed interest in cooperating on a number of potential missile 
defense projects; and we are negotiating a Defense Technical 
Cooperation Agreement with Russia to facilitate both government-to-
government as well as industry-to-industry missile defense cooperation, 
while we continue to seek practical areas of cooperation with Russia on 
a bilateral basis as well as in the NATO-Russia context.
    One particularly good news story in international BMD is our 
cooperation with Japan. Japan has committed to spending the equivalent 
of roughly 1 billion U.S. dollars on BMD, making it our largest 
international partner in missile defense. The United States and Japan 
have agreed to work together to develop a more capable sea-based 
interceptor that will improve the defense of both the U.S. and Japan. I 
am especially pleased by the recent announcement that Japanese 
officials have agreed to place of an X-band missile defense radar at 
the Shariki Air Defense Missile Station. I hope this will lead soon to 
a final agreement between our two countries to field this radar, which 
will help defend both the U.S. and Japan from ballistic missile attack. 
In addition, the U.S. and Japan are taking the steps necessary to share 
BMD information with one another.
    We also are considering fielding long-range missile defense 
interceptors and radars in Europe. There is roughly $120 million in the 
President's fiscal year 2007 budget request to begin work on this 
project. Such a site would house interceptors very similar to those we 
have currently fielded at Fort Greely, Alaska; and Vandenberg Air Force 
Base, California. Fielding such a capability would improve the defense 
of the United States against long-range missiles, especially those 
launched from the Middle East. It also would begin to extend missile 
defense to our European allies, protecting their populations from 
attack and reducing the risk of coercion or blackmail.
    The U.S. Government has held consultations with a number of Allies, 
beginning in 2002, about their willingness to host missile defense 
interceptors. We are continuing these consultations with allies who 
have expressed interest, and we intend to conduct site surveys as 
appropriate. We hope to be in a position to make an interagency 
recommendation to the President on the issue later this year.
    Thank you, Mr. Chairman. I look forward to answering your questions 
and those of the subcommittee members after my colleagues have 
presented their testimony.

    Senator Sessions. Thank you very much.
    Lieutenant General Obering, we're delighted to have you 
with us, Commander of the Army Space and Missile Defense 
Command.

  STATEMENT OF LT. GEN. HENRY A. OBERING III, USAF, DIRECTOR, 
                     MISSILE DEFENSE AGENCY

    General Obering. Good morning Mr. Chairman, distinguished 
members of the subcommittee, it's an honor to appear before you 
today. I've prepared a written statement that I ask be entered 
into the record.
    Senator Sessions. We'll be glad to do that, and Secretary 
Flory, we'll be glad to have your full remarks in the record 
also.
    Mr. Flory. Thank you, and I apologize for not asking for 
that.
    General Obering. Since I last addressed this committee 
we've made good progress developing and fielding an integrated, 
layered system to defend the United States, our deployed 
forces, allies and friends against ballistic missiles of all 
ranges, in all phases of flight. We have implemented improved 
mission assurance processes, established an increasingly robust 
and operationally focused test program, and continued the 
fielding of the system. With the 2007 budget request, we plan 
to expand the development, fielding, and verification of this 
critically needed defense.
    Proliferating ballistic missile systems increasingly pose a 
danger to our national security. Last year there were nearly 80 
foreign ballistic missile launches alone. Our program is 
structured to meet this evolving threat. We balance the early 
fielding of system elements with steady improvements through a 
spiral development and test approach. We use knowledge points 
to measure development progress by focusing on a set of 
critical activities that define the program's risk. This 
approach allows us to make informed decisions on whether and 
how the development activity should advance.
    2007 will be a very intense and demanding period for us. As 
such, we're requesting $9.3 billion to support our program of 
work, about $2.4 billion covers the continued fielding and 
sustainment of system components, including the long-range, 
ground-based, midcourse defenses; short- to intermediate-range 
defenses involving the sea-based interceptors; and all 
supporting radars, command, control, battle management, and 
communications capabilities.
    Approximately $6.9 billion will be invested in development 
for evolution and testing of the system. As I've detailed our 
request for 2007, though, I think it appropriate to review our 
work with the budget that you previously approved.
    Last year, members of the committee expressed significant 
interest in a better review of the ground-based midcourse test 
aborts and the future of our test program. The Independent 
Review Team concluded we are on the right track, but we needed 
to make adjustments in several areas including quality control, 
systems engineering, and test readiness. I established a 
Mission Readiness Task Force to assure these adjustments were 
made, and I delayed the interceptor deployment in 2005 
accordingly. We are now undertaking the additional 
qualification tests, and have implemented stronger engineering 
accountability, configuration management, and mission assurance 
processes. These comprehensive reviews and our recent test 
successes indicate that interceptor deployment should continue, 
but I will pause again, if necessary.
    We recently emplaced three more interceptors in Alaska on 
our way to 16 total, including the California site by December. 
This progress is critical, since we expect the Ground-based 
Midcourse Defense (GMD) element to be the backbone of our long-
range defense capability for years to come.
    Missile defense testing, based on event-driven results, 
continues to evolve to where ``we test as we fight and fight as 
we test.'' We cooperate fully with the operational test 
community and combatant commanders in their efforts to 
characterize system effectiveness and readiness. Last year I 
told you that we planned to conduct two long-range interceptor 
tests in 2005. That did not happen because we were implementing 
the recommendations of the Mission Readiness Task Force. With 
the successful December flight of our operationally configured, 
long range interceptor, we have resumed an aggressive test 
program that includes up to three more flight tests planned 
this year beginning this summer. These will include realistic 
targets, operational sensors, operational crews, and 
operational interceptors from operational silos, with two of 
them planned as intercepts. We will adjust this schedule as 
needed based on results. Overall, our program includes 38 major 
system tests in 2006, and 37 in 2007.
    Last year, Mr. Chairman, you voiced a concern about the 
ability of the Cobra Dane radar to support the fire control 
mission. I am pleased to say that this past September we flew a 
threat representative, air-launched target across the face of 
that radar, generating tracks that the operational fire control 
system then used to produce an intercept solution. We are 
confident in the capability of this radar. We also reached 
another major milestone last month when we successfully tested 
the upgraded Beale radar in California against a realistic 
ICBM-class target launched from Alaska. Again, the 
operationally configured fire control system generated an 
intercept solution from the track data. Later this year, we 
will deploy the first transportable Forward-Based X-Band Radar 
to our very important ally, Japan, where it will provide 
support for both a regional and homeland defense. In the U.K., 
we expect the upgraded Fylingdales radar to achieve initial 
capability this year.
    In our sea-based sensor program, we added 6 more Aegis 
Long-Range Surveillance and Track destroyers, for a total of 
11. We successfully tested this capability against targets 
launched from Hawaii and California. In one of our most 
ambitious efforts, I'm pleased to report that we completed 
construction of the world's largest Sea-Based X-Band Radar. It 
has completed extensive sea trials and high-power radiation 
testing, and is currently in the Hawaii area after its long 
journey from Texas this winter. Later this year, it will 
complete its integration and checkout and be stationed in 
Alaska.
    Of our total 2007 budget request, $2.7 billion would go 
towards long range midcourse defense. These funds would allow 
us to continue to improve and build additional interceptors, 
their silos, support equipment and facilities, as well as order 
long lead items for the next fielding increment. We plan to 
field and support up to a total of 22 interceptors and conduct 
two more flight tests by the end of 2007.
    We are also working hard to address the growing threat from 
Iran. By placing a third long-range interceptor site in Europe 
along with forward-based sensors in the region, we will meet 
two major objectives laid out by the President: improved 
coverage of the United States, and protection for our allies 
and friends in Europe from ICBM attack. Current plans are to 
deploy up to 10 interceptors in Europe by 2011, which will 
expand our total long-range interceptor inventory to 50. The 
2007 budget request covers funding for site surveys, planning, 
facility and support infrastructure design, as well as 
interceptor long lead items. For sensor coverage, we will 
deliver a second Forward-Based X-Band Radar and begin a major 
upgrade to Thule, Greenland radar.
    I would like to turn now to our most important area--
command, control, battle management, and communications. This 
infrastructure is the heart, soul, and brain of our defensive 
capability and without it, we simply cannot execute the 
mission. The global foundation we have established for our 
Nation's leadership and combatant commanders is unmatched in 
the world, but we have only just begun. We need to expand this 
to include the integrated fire control that will allow us to 
mix and match sensors and weapons as a significant force 
multiplier. We also continue to work closely with the combatant 
commanders to train and certify missile defense crews by 
exercising the system with launch-ready demonstrations. The 
$264 million we are requesting for these efforts is essential 
to ensuring an effective missile defense system (MDS).
    We are aggressively addressing threats posed by shorter-
range ballistic missiles. Nearly $2 billion in our 2007 budget 
request is allocated evenly between our Aegis BMD and Terminal 
High Altitude Area Defense (THAAD) programs to enable us to 
field capabilities to counter these threats.
    In addition to providing long-range surveillance and 
tracking support, Aegis is providing a flexible, sea-mobile 
intercept capability against shorter range ballistic missiles 
(SRBM). This past year we added a second Aegis engagement 
cruiser to our evolving architecture. In November, we 
successfully used an Aegis cruiser to engage a separating 
target carried on a medium-range ballistic missile. We plan to 
conduct two more intercept tests this year and two more in 2007 
using upgraded versions of the interceptor. By the end of 2007 
we expect to have three engagement cruisers and seven 
engagement destroyers available with up to 33 Standard Missile-
3 interceptors delivered.
    In our THAAD program, we are coming off a very encouraging 
flight test last November, when we put the redesigned 
interceptor through its paces. We will continue to characterize 
its performance and integrate this element into the system. We 
plan to conduct four more flight tests in 2006, including the 
first high endo-atmospheric intercept. In 2007 we plan to 
conduct four intercept tests in both the exo- and endo-
atmospheric regions. We will continue our development efforts 
and plan to field the first unit in Block 2008, with a second 
unit available in Block 2010.
    We have a plan, which we have submitted to the Under 
Secretary for Acquisition, Technology, and Logistics, that 
addresses a collaborative effort across the Department to 
transition BMD elements to the Services. The plan will provide 
information to the Services to facilitate their 2008 budget 
submissions.
    We have learned that there is no model that will fit all 
cases. We currently have lead-service agreements to cover 
Patriot Advanced Capability-3, Aegis BMD, THAAD, and the 
Upgraded Early Warning Radars. We continue to work with the 
Department on approval for the remaining elements. It is 
important to note that this is a continual process and that 
changes will occur based on capability maturity and fielding 
schedules.
    To keep ahead of future threats, there are several other 
important development efforts funded in this budget. We 
continue to follow a strategy of retaining alternative paths 
until capability is proven. It is a knowledge-based approach.
    Being able to address threats worldwide is vital and means 
moving to space with precision tracking sensors. In 2007, we 
plan to launch two Space Tracking and Surveillance System 
(STSS) demonstration satellites to begin critical 
experimentation. We have budgeted $380 million for this 
continuing development effort.
    The Airborne Laser (ABL) reached all of its knowledge 
points for last year when it achieved a full duration lase at 
operational power and completed initial beam control, fire 
control flight tests. Currently, we are installing the tracking 
and atmospheric compensation lasers and preparing the aircraft 
to accept the high-power laser modules in 2007.
    Senator Sessions. General Obering, we do have some other 
presentations, if you can begin to wrap up, but I am pleased.
    Senator Roberts. Mr. Chairman, would you yield?
    Senator Sessions. Yes.
    Senator Roberts. He's discussing the ABL, which is really 
very special and important to our national defense, I would 
give them another 30 seconds.
    Senator Sessions. Absolutely, we'll give them several 
minutes, but we do have a limit.
    Senator Roberts. I appreciate that.
    Senator Sessions. The laser, go on and fully explain that.
    General Obering. Yes, sir. We have planned a campaign of 
flight tests that will lead to a lethal shoot-down of a 
ballistic missile in 2008. Nearly $600 million of our budget 
request is for this revolutionary work.
    In our other boost phase development activity, the Kinetic 
Energy Interceptor (KEI), we have focused on demonstrating a 
mobile, land-based very high acceleration booster. This past 
January we completed the successful static firing of a second 
stage prototype and will continue static firing tests of the 
booster's first and second stages in 2007. We have requested 
almost $400 million for these efforts.
    As threats grow in complexity, we will continue a volume 
kill capability. The Multiple Kill Vehicle (MKV) program is a 
generational upgrade to our long range interceptors. In 2005, 
we made progress in the development of the seeker and made the 
decision to move to a lower risk propulsion system, which we 
plan to hover test in 2009.
    The committee members expressed interests last year in the 
international efforts. We have concluded formal agreements with 
four countries, and several more are pending. Japan continues 
to make significant investments in multi-layered missile 
defenses. Working closely with the Japanese since 1999 to 
develop advanced Standard Missile-3 components, we successfully 
flight tested a new nosecone just last month. In addition, 
we've embarked with Japan on the co-development of the 21" 
Standard Missile-3, which will have greatly expanded 
performance and defending area capability.
    If I turn our attention, finally, to our other allies, Mr. 
Chairman, we concluded an agreement with Australia to expand 
cooperative work on sensors. An agreement with Denmark allows 
us to upgrade the Thule radar and integrate it into the system 
by 2009, and we're undertaking a series of technical 
development efforts with the U.K. in addition to our ongoing 
work with Israel on the Arrow interceptor and will continue to 
enhance its missile defenses against emerging threats.
    Mr. Chairman, we certainly have our challenges, but for the 
most part, this program is on track. The successes we've had 
over the past year bear this out. I greatly appreciate the 
committee's continued support and patience, but I want to take 
this opportunity to thank the thousands of Americans and our 
allies, both in government and industry, that are working hard 
to make this missile defense a success. Thank you and I look 
forward to your questions.
    [The prepared statement of General Obering follows:]

       Prepared Statement by Lt. Gen. Henry A. Obering III, USAF

    Good morning, Chairman Sessions, Senator Nelson, members of the 
subcommittee. It is an honor to be here today to present the Department 
of Defense's (DOD) fiscal year 2007 Missile Defense program and budget. 
The Missile Defense Agency (MDA) mission remains one of developing and 
progressively fielding a joint, integrated, and multilayered Ballistic 
Missile Defense (BMD) system to defend the United States, our deployed 
forces, and our allies and friends against ballistic missiles of all 
ranges by engaging them in all phases of flight. I believe we are on 
the right track to deliver the multilayered, integrated capabilities 
that are necessary to counter current and emerging threats.
    As was the case last year, our program is structured to balance the 
initial fielding of system elements with steady improvements using 
evolutionary development and a test approach that continuously 
increases our confidence in the effectiveness of the BMD System. This 
budget balances our capabilities across an evolving threat spectrum 
that includes rogue nations with increasing ballistic missile 
expertise.
    We are requesting $9.3 billion to support our program of work in 
fiscal year 2007. The $1.6 billion increase from 2006 reflects a return 
to the annual investment level targeted by the Department for BMD and 
is indicative of the robust phase we are entering in the development 
and fielding of the integrated layered capability. Approximately $1 
billion of this increase will be applied to fielding and sustainment, 
and $600 million to continued development of the Ballistic Missile 
Defense System. $2.4 billion of the fiscal year 2007 request covers the 
continued incremental fielding and sustainment of long-range ground-
based midcourse defense components; our short- to intermediate-range 
defense involving Aegis ships with their interceptors; and the 
supporting sensors, command, control, battle management and 
communication capabilities. This increase in funding for fielding and 
sustainment of nearly a billion dollars from last year reflects the 
success we have had across the program. About $6.9 billion will be 
invested in continued component improvements, system capability 
development, and testing.
    I would like to review our accomplishments, as well as our 
shortfalls, over the past year, explain our testing and fielding 
strategies, and address the next steps in our evolutionary Ballistic 
Missile Defense Program.

                   THE EVOLVING SECURITY ENVIRONMENT

    Proliferating and evolving ballistic missile systems and associated 
technologies continue to pose dangers to our national security. In 2005 
there were nearly 80 foreign ballistic missile launches around the 
world. Nearly 60 launches last year involved short-range ballistic 
missiles, approximately 10 involved medium- and intermediate-range 
missiles, and about 10 involved long-range ballistic missiles.
    North Korea and Iran have not relented in their pursuit of longer-
range ballistic missiles. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats today for which we must be 
prepared, and there will be others in the mid- to far-term. We must be 
ready to operate the Ballistic Missile Defense System against new and 
unexpected threats.
    Our potential adversaries continue efforts to acquire ballistic 
missile systems and technology. Ballistic missiles were used against 
our forces, our allies and friends during the 1991 and 2003 Gulf Wars. 
When combined with weapons of mass destruction, they could offer our 
enemies an attractive counterbalance to the overwhelming conventional 
superiority exhibited by U.S. and coalition forces during those wars. 
We can expect that in the future our adversaries could use them to 
threaten our foreign policy objectives or pursue a policy of terrorism 
by holding our cities and other high value assets hostage. After all, 
those who support global terrorism can hide behind the threats posed by 
offensive missiles carrying highly destructive or lethal payloads. They 
will use them to try to deny our forces access to a theater of conflict 
or to coerce a withdrawal of our forces from that theater. Ballistic 
missiles provide a way for our adversaries to attempt to achieve some 
degree of strategic equality with us, especially at a time when 
ballistic missile defense is still striving to catch up with the 
progress made by ballistic missile offense over the past four decades.

               MISSILE DEFENSE APPROACH--LAYERED DEFENSE

    We believe that layered defenses integrated by a robust command and 
control system, will improve the chances of engaging and destroying a 
ballistic missile and its payload in-flight. This approach to missile 
defense also makes the effectiveness of countermeasures much more 
difficult, since countermeasures designed to work in one phase of 
flight are not likely to work in another. It is much harder to overcome 
a complex, multilayered defense. Layered defenses, a time-honored U.S. 
approach to military operations, provide defense in depth and create 
synergistic effects designed to frustrate an attack.
    With the initial fielding in 2004 of the Ground-based Midcourse 
Defense (GMD) components, the Aegis long range surveillance and track 
ships, and the first integrated command, control, battle management and 
communications (C2BMC) suites, we made history by establishing a 
limited defensive capability for the United States against a possible 
long-range ballistic missile attack from North Korea and the Middle 
East. With the cooperation of our allies and friends, we plan to evolve 
this defensive capability to make it more effective against all ranges 
of threats in all phases of flight and expand the system over time with 
additional interceptors, sensors, and layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor redundancy and sensitivity, interceptor 
capability and mobility, and increasingly robust C2BMC capabilities. In 
line with our multilayer approach, we will expand terminal defense 
protection and place increasing emphasis on boost phase defenses.
    We are effectively employing an evolutionary acquisition strategy 
to field multiple system capabilities while maintaining an aggressive 
test and development program. The Missile Defense Agency (MDA) 
continues to evolve and refine desired capabilities, based on 
warfighter need and technology maturity, through sound risk management. 
Our goal continues to be one of fielding the best capabilities 
possible, on schedule, on time, and within cost, in order to address 
current and emerging threats.

                 COMPLETING THE FIELDING OF BLOCK 2004

    Since I last appeared before this committee, we have made a number 
of significant accomplishments to complete initial fielding of the 
Block 2004 capability. We have also fallen short in some areas. When we 
rolled this program out in 2002, we set out to deploy 10 Ground-Based 
Interceptors (GBI) in 2004 and another 10 in 2005. A booster motor 
plant explosion in 2003, which had a major impact across the missile 
defense program, and the need to step back and undertake a mission 
readiness review of the GMD program following two test failures caused 
us to miss our fielding mark. I delayed the GBI deployment in 2005 and 
made changes based on the recommendations of the mission readiness 
review. I believe we are now back on track, but I will pause again if 
necessary. We recently emplaced three more GBIs in silos at Fort 
Greely, Alaska, for a total of nine, and two at Vandenberg Air Force 
Base in California. This progress is critical because we expect the GMD 
element to be the backbone of our national missile defense capability 
for years to come. Today we continue with interceptor fielding and plan 
to emplace additional GBIs, for a total of 16 by December of this year.
    This past year we also added a second Aegis engagement cruiser and 
delivered additional Standard Missile-3 interceptors to our evolving 
sea-based architecture to address short- and medium-range threats in 
the midcourse phase of flight. We did not advance as rapidly as we 
hoped. We needed to resolve technical issues associated with the third 
stage rocket motor and the solid divert and attitude control system to 
take full advantage of interceptor performance designed to pace the 
threat. However, we are close to the 10 to 20 sea-based interceptors we 
projected for delivery in our initial program. Right now, I am 
comfortable with where we stand in our sea-based interceptor deployment 
plans. We will continue to grow our inventory of Standard Missile-3 
interceptors for deployment aboard Aegis ships and, by the end of 2006, 
outfit three Aegis destroyers and one additional cruiser with this 
engagement capability. In addition to providing surveillance and 
tracking support to the integrated Ballistic Missile Defense System, 
Aegis provides a flexible sea-mobile capability to defeat short- to 
intermediate-range ballistic missiles in the midcourse phase.
    In our sensors program, we upgraded the Beale Early Warning Radar 
in California. The Beale radar complements and works synergistically 
with the surveillance and tracking capabilities of the fully 
operational Cobra Dane radar in Alaska, and together they will help us 
defend against the longer-range threats coming out of East Asia. The 
Beale radar will play an instrumental role in tests this year to 
demonstrate the system's ability to intercept intercontinental-range 
missiles using operationally configured assets.
    This past year we added 6 more Aegis Long-Range Surveillance and 
Track destroyers to our force, for a total of 11. These ships provide 
much sought-after flexibility in our architecture, giving us more time 
to engage enemy missiles and improving the performance of the entire 
system.
    We are making good progress in integrating the Sea-Based X-band 
radar into the system. It is the most powerful radar of its kind in the 
world and will provide the system a highly advanced detection and 
discrimination capability. This past January the radar completed its 
long journey from Texas, where it underwent extensive sea trials and 
high-power radiation testing in the Gulf of Mexico, to Hawaii. This 
spring its voyage continues to Adak, Alaska, where it will be home-
ported and put on station.
    This past year the Forward-Based Radar, our transportable X-band 
radar, successfully acquired and tracked intercontinental ballistic 
missiles in tests conducted at Vandenberg Air Force Base. We are now 
preparing to deploy the radar to provide precision track and 
discrimination capabilities, which will improve regional and homeland 
missile defense capabilities.
    We also completed subsystem checkout of the Fylingdales radar in 
the United Kingdom and achieved high-power radiation. We conducted the 
necessary operator training at that site and are now in the middle of 
completing an important series of ground tests that are necessary to 
verify this system's capability, tests that had been deferred on the 
recommendations of the Mission Readiness Task Force. We expect to 
complete testing at Fylingdales later this year.
    We have an extensive command, control, battle management, and 
communications infrastructure to support all these elements, and we are 
ready to provide complete operations and maintenance support to the 
warfighter. We have taken the first step in integrating the BMD System, 
which is necessary to establish an affordable and effective global, 
layered defense. We have installed hardware and software at the United 
States Northern Command (NORTHCOM), United States Strategic Command 
(STRATCOM), and United States Pacific Command (PACOM). C2BMC 
capabilities include basic deliberative crisis planning and common 
situational awareness at these combatant commands. In addition, we now 
provide common situational awareness directly to the President of the 
United States and the Secretary of Defense to aid in decisionmaking. In 
addition to fielding these suites, we also completed five major 
software release upgrades this past year, each improving the capability 
of the command, control, battle management and communications system.
    It is this global connective capability that allows us to combine 
different sensors with different weapons. For example, we are 
developing the Aegis BMD System so that it can support a ground-based 
interceptor launch by sending tracking information to the fire control 
system. A forward-deployed radar can cue and pass tracking information 
on to, for example, a Patriot Advanced Capability-3 unit, or a 
regionally deployed Terminal High Altitude Area Defense (THAAD) 
battery, or a GMD or Aegis BMD engagement ships. In other words, we 
want to be able to mix and match sensor and interceptor resources to 
give the system more capability by expanding the detection and 
engagement zones. Our ability to integrate all of the weapons and 
sensors into a single package that will use interceptors in the best 
location to make the kill gives us a critical multiplier effect.
    We work closely with STRATCOM and the combatant commanders to 
certify missile defense crews at all echelons to ensure that they can 
operate the Ballistic Missile Defense System. We have exercised the 
command, fire control, battle management and communication capabilities 
critical to the operation of the system.
    We also are continuing to exercise the system to learn how best to 
operate it, and we have demonstrated our ability to transition smoothly 
from test to operations and back. In our exercises and tests, we have 
worked through a number of operational capability demonstrations in 
order to increase operational realism and complexity, certify crews and 
safety procedures, and demonstrate the operational viability of the 
system. The MDA will continue to coordinate with the warfighter to 
implement developmental upgrades and improvements in the system to 
maximize system capability. This is very important since we will 
continue to improve the capabilities of the system over time, even as 
we remain ready in the near-term to take advantage of its inherent 
defensive capability should the need arise.

               BUILDING CONFIDENCE THROUGH SPIRAL TESTING

    We have consistently pursued a comprehensive and integrated 
approach to missile defense testing and are gradually making our tests 
more complex. Missile defense testing has evolved, and will continue to 
evolve, based on results. We are not in a traditional development, 
test, and production mode where we test a system, then produce hundreds 
of units without further testing. We will always be testing and 
improving this system, using a testing approach that cycles results 
into our spiral development activities. This approach also means 
fielding test assets in operational configurations. This dramatically 
reduces time from development to operations in a mission area where, 
until now, this nation has been defenseless.
    Last year, following the two launch aborts of the interceptor for 
the Ground-based Midcourse Defense element, I explained that we had 
several concerns with quality control and reliability; but we did not 
view the failures as major technical setbacks. In response to those 
failures, I chartered an independent team to review our test processes, 
procedures and management. The team concluded that the Ground-based 
Midcourse Defense program met the challenge of providing an initial 
defensive capability but found deficiencies in systems engineering, 
ground qualification testing, flight test readiness certification, 
contractor process control and program scheduling. The independent 
review team recommended that the MDA reorient the missile defense 
program to strengthen its emphasis on mission assurance.
    I established a Mission Readiness Task Force under Admiral Kate 
Paige to implement the corrective actions needed to ensure a return to 
a successful flight test program. The task force identified steps to 
strengthen our systems engineering and quality assurance processes and 
provide the reliability and repeatability necessary for operational 
success. As a result, we undertook a comprehensive review of these 
system processes at each step along the way. We are also undertaking 
the necessary ground and flight qualification tests to retire the risks 
uncovered by the independent review team and the Mission Readiness Task 
Force. To strengthen our test program, I diverted four long-range 
interceptors slated for operational use into testing, with the intent 
to replace them in 2007 if our test program was successful. Last year, 
I asked the committee to have patience, knowing that the system's basic 
functionality was not at risk. As a result of our aggressive actions, I 
believe that mission assurance and system reliability are now on track.
    We finished the year strongly with a string of test successes 
across the board. These successes continue to build confidence in our 
spiral development approach. In a major step forward, in September 
2005, we flew a threat representative target across the operational 
Cobra Dane radar and generated an intercept solution using the long-
range fire control system. We then flew the operational configuration 
of the long-range interceptor in December 2005 and put the kill vehicle 
through its paces. We not only achieved all of the test objectives for 
that flight, but we also accomplished many of those objectives we 
identified for the next flight test scheduled for this spring. Just 
last month, we exercised an engagement sequence that used the Upgraded 
Early Warning Radar at Beale Air Force Base in California to provide 
tracking information to a simulated long-range interceptor from an 
operational site at Vandenberg. Based on the many tests we have 
conducted to date, including three successful flight tests of the 
operational long-range booster now emplaced in Alaska and California, 
we maintain our confidence in the system's basic design, its hit-to-
kill effectiveness, and its inherent operational capability. We will 
continue to test this system to ensure it will remain mission ready.
    We continue to work closely with the Director, Operational Test and 
Evaluation, Operational Test Agencies, and combatant commanders to 
characterize the effectiveness and readiness of the system at every 
stage in its development and fielding. This year the fielded BMD System 
will undergo ever more challenging and operationally realistic testing.
    We will begin the important next step of testing our long-range 
ground-based defense with more operationally robust flight tests as a 
part of the integrated Ballistic Missile Defense System With the next 
tests involving the GBI, we will step up testing complexity and involve 
operational crews, operational interceptor launch sites, and 
operational sensors. These tests will involve an operationally 
configured interceptor launched from Vandenberg that will attempt to 
acquire and intercept a target missile launched out of the Kodiak 
Launch Complex in Alaska. With the last two tests in this series, we 
will demonstrate the ability of the system to perform more refined 
acquisition and discrimination functions and the ability of the exo-
atmospheric kill vehicle to divert toward the target and intercept it. 
We also plan to use tracking data from the Sea-Based X-band radar when 
it is available to feed its data into system tests and operations. In 
2007, as we return our focus to fielding long-range interceptors, we 
plan one system intercept test and two flight tests, all three of which 
will further demonstrate the operationally configured interceptor.
    In our sea-based midcourse defense element, we have continued to 
ratchet up the degree of realism and reduce testing limitations. This 
past November, for the first time, we successfully used a U.S. Navy 
Aegis cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. A separating target is 
more challenging to engage because it can fly faster and farther than 
the boosting missile. In order to increase operational realism, we did 
not notify the operational ship's crew of the target launch time, and 
they were forced to react to a dynamic situation. We are planning three 
more Aegis interceptor flight tests in 2006. Last month, we conducted a 
very successful cooperative test with Japan involving a simulated 
target to demonstrate the engagement performance of a modified SM-3 
nosecone developed by the Japanese in the U.S./Japan Joint Cooperative 
Research project. One of the upcoming U.S. Aegis intercept tests will 
again involve a separating warhead. In 2007 we plan to conduct two 
tests of the sea-based interceptor against short- and medium-range 
targets.
    Flight-testing involving the redesigned interceptor for the THAAD 
began last November when we successfully demonstrated the separation 
and operation of the production booster and kill vehicle. This year we 
will conduct four more tests to characterize performance of the new 
missile and the ability to integrate it into the BMD System. Later this 
year we will also conduct the first intercept test high in the 
atmosphere. In 2007 we plan to conduct four intercept tests as part of 
our THAAD flight test program.
    Also planned in 2007 are two Arrow system flight tests and one 
Patriot combined developmental and operational test. The command, 
control, battle management, and communications infrastructure will be 
exercised in all of our system level tests.
    Ground tests, wargames and modeling and simulation help demonstrate 
interoperability, assess performance and specification compliance, and 
develop doctrine, tactics, techniques and procedures. In 2007 we will 
continue with our successful ground-testing, which involves warfighter 
personnel and test hardware and software in the integrated system 
configuration to demonstrate system connectivity and interoperability. 
Upcoming tests will verify integration of the sea-based, forward-based, 
and Fylingdales radars. The funds we are requesting also will support 
additional capability demonstrations and readiness demonstrations led 
by the warfighting community.

               COMPLETING THE NEXT INCREMENT--BLOCK 2006

    To keep ahead of rogue nation threats, we continue to hold to the 
fielding commitments we made to the President for Block 2006, which 
include investment in the necessary logistics support and command, 
control, battle management and communications infrastructure. In 2006 
and 2007, we will build on the successes we had in 2005 to improve 
protection against a North Korean threat, provide protection against a 
threat from the Middle East, expand coverage to allies and friends, 
increase countermeasure resistance, and improve protection against 
short-range ballistic missiles. We are also planning to field more 
mobile, flexible interceptors and associated sensors to meet threats 
from unanticipated launch locations.
    For midcourse capability against the long-range threat, the GMD 
element budget request for fiscal year 2007 of $2.7 billion will cover 
continued development, ground and flight testing, fielding and support. 
This is about $125 million more than we budgeted for fiscal year 2007 
in last year's submission. The risk-reduction work prescribed by the 
Mission Readiness Task Force has caused us to reduce the number of 
interceptors fielded in 2007. This request includes up to 4 additional 
ground-based interceptors, for a total of 20 interceptors in Alaska by 
the end of 2007, their silos and associated support equipment and 
facilities as well as the long-lead items for the next increment. The 
increase in fiscal year 2007 funding from last year to this year is 
attributed, in part, to increased sustainment, logistics and force 
protection requirements, as well as to other needs associated with 
preparing the system for operations. This budget submission also 
continues the upgrade of the Thule early warning radar in Greenland and 
its integration into the system.
    The Royal Air Force Fylingdales early warning radar in the United 
Kingdom will be fully integrated for missile defense purposes by fall 
2006. It will provide sensor coverage against Middle East threats.
    As part of our effort to make the system more robust, improve 
defense of our allies, and address threat uncertainties, we are 
continuing discussions with our allies in Europe regarding the 
deployment of radars and a third site for ground-based interceptors. 
Later this year we will be able to give greater definition to this 
important evolutionary effort.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD terminal defense capability. System tests will involve 
further demonstrations of the sea-based interceptor, and we will 
continue enhancing the system's discrimination capability. We will 
continue Standard Missile-3 improvements. We added approximately $49 
million to the fiscal year 2007 request for Aegis BMD from last year to 
this year to address the Divert and Attitude Control System and other 
aspects of the system, including the development of a more capable 2-
color seeker for the SM-3 kill vehicle. We will continue purchases of 
the SM-3 interceptor and the upgrading of Aegis ships to perform the 
BMD mission. By the end of 2007 we will have three Aegis engagement 
cruisers, seven engagement destroyers, and seven Long Range 
Surveillance and Track destroyers. These sea-based sensors and weapons 
will improve our ability to defend the homeland and our deployed troops 
and our friends and allies. In fiscal year 2007 we will initiate work 
with Japan for follow-on SM-3 development in order to increase its 
range and lethality. We also will continue the THAAD development effort 
that will lead to fielding the first unit in the 2008-2009 timeframe 
with a second unit available in 2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target set in different phases of flight. In 2007, we will prepare a 
second forward-based X-band radar for operations. We also are working 
towards a 2007 launch of two Space Tracking and Surveillance System 
(STSS) test bed satellites. These demonstration satellites will perform 
target acquisition and handover and explore approaches for closing the 
fire control loop globally for the entire BMD System. In fiscal year 
2007 we will undertake initial satellite check-out and prepare for 
tests involving live targets. We are requesting approximately $380 
million in fiscal year 2007 to execute this STSS activity, and $402 
million for the Forward-Based Radar work.
    For the Ballistic Missile Defense System to work effectively, all 
of its separate elements must be integrated by a solid command, 
control, battle management and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space and several combatant command areas of responsibility. C2BMC 
allows us to pass critical information from sensors to provide input 
for critical engagement decisions. Combatant commanders can use the 
C2BMC infrastructure to enhance planning and help synchronize globally 
dispersed missile defense assets. These capabilities also can provide 
our senior government leadership situational awareness of ballistic 
missile launches and defense activities.
    This C2BMC capability allows us to mix and match sensors, weapons 
and command centers to dramatically expand our detection and engagement 
capabilities over what can be achieved by the system's elements 
operating individually. We cannot execute our basic mission without 
this foundation.
    With this year's budget request for $264 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements. We will 
press on with the development of the initial global integrated fire 
control to integrate Aegis BMD, the forward-based radar, and Ground-
based Midcourse Defense assets. We plan to install additional planning 
and situational awareness capabilities to facilitate executive 
decisionmaking among the combatant commanders.
    The MDA is committed to delivering the best capabilities to the 
warfighter in a timely manner, and warfighter participation and input 
is a critical part in the engineering process. Today, the Army National 
Guard's 100th Missile Defense Brigade, Air Force's Space Warfare 
Center, and Navy ships in the Pacific Fleet are on station and 
operating the system. Our fiscal year 2007 request continues to fund 
critical sustainment and fielding activities and ensure that system 
developers have financial resources to support fielded components. We 
will continue to work collaboratively with the combatant commanders and 
the military Services as the system evolves to define and prioritize 
requirements. Exercises, wargames, and seminars continue to be 
important collaboration venues. We will also continue to support 
training activities to ensure operational readiness, combat 
effectiveness, and high-level system performance.

            MOVING TOWARD THE FUTURE--BLOCK 2008 AND BEYOND

    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow. So it is important that we 
continue our aggressive parallel paths approach to building this 
integrated, multilayered defensive system. There are several important 
development efforts funded in this budget.
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach within certain periods of time. Knowledge points are not reviews, 
but discrete activities in a development activity that produce data on 
the most salient risks. The approach involves tradeoffs to address 
sufficiency of defensive layers--boost, midcourse, terminal; diversity 
of basing modes--land, sea, air, and space; and considerations of 
technical, schedule, and cost performance. This is fundamental to how 
we execute the development program, because it enables us to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element.
    For example, we are preserving decision flexibility with respect to 
our boost phase programs until we understand what engagement 
capabilities they can offer. We have requested approximately $984 
million for these activities in fiscal year 2007. This past year the 
revolutionary Airborne Laser (ABL) reached its knowledge points when it 
achieved a full duration lase at operational power and completed 
initial flight tests involving its beam control/fire control system. 
The program's knowledge points for 2006 include flight testing of the 
lasers used for target tracking and atmospheric compensation. This 
testing, which will test the entire engagement sequence up through the 
point where we fire the laser, will require use of a low-power laser 
surrogate for the high-power laser. Once we have completed modification 
of the aircraft which has begun in Wichita, Kansas, we will start 
installation of the high-power laser modules in 2007. This will provide 
us with the first ABL weapon system test bed and allow us to conduct a 
campaign of flight tests with the full system. In addition to 
installation of the high-power lasers, we will continue integration, 
ground, and flight test activities in fiscal year 2007 to support ABL's 
low-power beam control/fire control and battle management systems. We 
will be working towards a lethal demonstration of the weapon system 
against a boosting ballistic missile in 2008.
    We still have many technical challenges with the Airborne Laser. 
Yet the series of major achievements beginning in 2004, when we 
achieved first light and first flight of the aircraft with its beam 
control/fire control system, gives me reason to be optimistic that we 
can produce an effective directed energy capability. An operational 
Airborne Laser could provide a valuable boost-phase defense capability 
against missiles of all ranges.
    The Kinetic Energy Interceptor (KEI) is a boost-phase effort in 
response to a 2002 Defense Science Board Summer Study recommendation to 
develop a terrestrial-based boost phase interceptor as an alternative 
to the high-risk Airborne Laser development effort. Last year we 
focused near-term efforts in our kinetic energy interceptor activity to 
demonstrate key capabilities and reduce risks inherent in the 
development of a land-based, mobile, very high acceleration booster. It 
has always been our view that the KEI booster, which is envisioned as a 
flexible and high-performance booster capable of defending large areas, 
could be used as part of an affordable, competitive next-generation 
upgrade for our midcourse or even terminal interceptors. A successful 
KEI mobile missile defense capability would improve significantly our 
ability to protect our allies and friends.
    This past year we demonstrated important command, control, battle 
management, and communications functions required for a boost intercept 
mission, including the use of national sensor data for intercept 
operations in the field. The key knowledge point for this program is 
the demonstration of a very high acceleration booster. We began a 
series of static firing tests of the first and second stages of the 
booster and had a successful firing this past January. We plan a flight 
test to verify the new booster in 2008.
    Development of the Multiple Kill Vehicle (MKV) system will offer a 
generational upgrade to ground-based midcourse interceptors by 
increasing their effectiveness in the presence of multiple warheads and 
countermeasures. We are exploiting miniaturization technology to 
develop a platform with many small kill vehicles to engage more than 
one object in space. This effort will supplement other innovative 
discrimination techniques we are developing for use in the midcourse 
phase by destroying multiple threat objects in a single engagement. In 
2005 we made progress in the development of the MKV seeker, but 
resource constraints and technical shortfalls have caused a delay in 
this development effort. We are now planning to conduct the hover test 
in 2009. Our first intercept attempt using MKV is now scheduled for 
2012. We are requesting $162 million in fiscal year 2007 to continue 
the MKV development effort.

                      INTERNATIONAL PARTICIPATION

    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
We have made significant progress in fostering international support 
for the development and operation of a Ballistic Missile Defense System 
capable of intercepting ballistic missiles of all ranges in all phases 
of flight. We have been working closely with a number of allies and 
friends of the United States to forge international partnerships. I 
would like to highlight a few of our cooperative efforts.
    The Government of Japan continues to make significant investments 
toward the acquisition of a multilayered BMD System, with capability 
upgrades to its Aegis destroyers and acquisition of the Standard 
Missile-3 interceptor. We have worked closely with Japan since 1999 to 
design and develop advanced interceptor components. This project 
culminated in the flight test of an advanced SM-3 nosecone earlier this 
year and ended this phase of our joint cooperative research. 
Additionally, the MDA and Japan have agreed to co--develop a Block IIA 
version of the SM-3 missile, which will significantly improve the 
kinematics and warhead capability. We also have agreed to deploy an X-
band radar to Japan, which will enhance regional and homeland missile 
defense capabilities. In addition, Japan and other allied nations 
continue upgrading their Patriot fire units with Patriot Advanced 
Capability-3 missiles and improved ground support equipment.
    In addition to the Fylingdales radar development and integration 
activities, we are undertaking a series of cooperative technical 
development efforts with the United Kingdom. Newly installed 
situational awareness displays in the United Kingdom also are 
indicative of our close collaboration with our British allies in the 
missile defense area.
    Last year we signed an agreement with Denmark to upgrade the radar 
at Thule and integrate it into the system. This radar will play an 
important role in the system by providing additional track on hostile 
missiles launched out of the Middle East.
    We will continue to expand cooperative development work on sensors 
and build on our longstanding defense relationship with the government 
of Australia. In April 2005 we concluded a Research, Development, Test 
and Evaluation agreement to enable collaborative work on specific 
projects, including high frequency over-the-horizon radar, track fusion 
and filtering, distributed aperture radar experiments, and modeling and 
simulation.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in the Middle East. This past 
December Israel conducted a successful launch and intercept of a 
maneuvering target using the Arrow missile. The United States and 
Israel are coproducing components of the Arrow interceptor missile, 
which will help Israel meet its defense requirements more quickly and 
maintain the U.S. industrial work share.
    We also have been in discussions with several allies located in or 
near regions where the threat of ballistic missile use is high for the 
forward placement of sensors, and we continue to support our North 
Atlantic Treaty Organization (NATO) partners in conducting a 
feasibility study to examine potential architecture options for 
defending European NATO population centers against longer-range missile 
threats. This work builds upon ongoing work to define and develop a 
NATO capability for protection of deployed forces. We have other 
international interoperability and technical cooperation projects 
underway and are working to establish formal agreements with other 
governments.

                                CLOSING

    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. When I appeared before you last 
year, we faced numerous challenges. Over the past year, the dedicated 
men and women of the MDA and our industrial partners met these 
challenges head-on and overcame the difficulties we experienced in 2004 
and early in 2005. The result was that in 2005 we made significant 
progress. We had a series of successful tests that are unparalleled in 
our development efforts to date. In 2006 and 2007 I am confident that 
we will continue this success. I am proud to serve with these men and 
women, and the country should be grateful for their unflagging efforts.
    There have been many lessons learned, and I believe the processes 
are in place to implement them as we field follow-on increments of the 
system. I also believe that our program priorities foster long-term 
growth in multilayered and integrated capabilities to address future 
threats. There certainly are risks involved in the development and 
fielding activities. However, I believe we have adequately structured 
the program to manage and reduce those risks using a knowledge-based 
approach that requires each program element to prove that it is worthy 
of being fielded.
    Thank you and I look forward to your questions.

    Senator Sessions. Lieutenant General Dodgen, Commander of 
Space and Missile Defense Command, and responsible for 
Strategic Command's Integrated Missile Defense. So, you're the 
customer of General Obering's product?

  STATEMENT OF LTG LARRY J. DODGEN, USA, COMMANDER, U.S. ARMY 
 SPACE AND MISSILE DEFENSE COMMAND, U.S. ARMY FORCES STRATEGIC 
                            COMMAND

    General Dodgen. Yes, sir.
    Senator Sessions. We're pleased to hear from you.
    General Dodgen. Mr. Chairman, members of the Strategic 
Forces Subcommittee, thank you for your ongoing support of our 
military and for the opportunity to appear before this 
distinguished panel once again. This committee continues to be 
a great friend of the Army and the Missile Defense Community, 
particularly in the efforts to field missile defense forces to 
our Nation and our allies.
    I appear before this subcommittee in two roles, as stated 
by you Senator Sessions. The first is a warfighting member of 
the Joint Missile Defense Team, I am the Commander of the Joint 
Functional Component Command for Integrated Missile Defense 
(JFCC-IMD). Part of the United States Strategic Command, the 
JFCC-IMD is a joint user representative working closely with 
the MDA, other Services, and combatant commanders to ensure 
that our national goal of developing, testing, and deploying an 
integrated MDS are met. In other words, sir, we operationalize 
the system, and turn that over to the geographical combatant 
commanders.
    The second, as the Army proponent for missile defense and 
proponent for the GMD system. Today I will focus my remarks and 
my role as Commander of the JFCC-IMD, and also provide my view 
of the BMD threat.
    Regarding that threat, this committee has previously heard 
from other departments, civilian leaders, and combatant 
commanders about the need to ensure that our country has an 
operational, robust, and flexible and integratable BMD 
capability against a growing and increasingly complex ballistic 
missile. The pace of global proliferation of ballistic missile 
technology is increasing, as the IC notes several countries 
producing ballistic missiles are selling that technology to 
other countries that in turn are modifying, using increasingly 
sophisticated systems to fit their own needs. We must devalue 
ballistic missiles as tools of extortion and aggression, 
undermining any confidence our adversaries might have in 
threatening us or our allies. I strongly believe that continued 
development and fielding of our Nation's ballistic missile 
systems must stay ahead of the threat faced by combatant 
commanders.
    In my role as the JFCC-IMD Commander, I directly support 
the STRATCOM combatant commander in planning the global missile 
defenses. JFCC-IMD was established in January 2005, reaching 
full operational capability just this past February 28 as one 
of supporting STRATCOM's new triad concept. IMD is truly joint, 
manned by Army, Navy, Air Force, and Marine Corps personnel and 
is headquartered at the Joint National Integration Center at 
Shriever Air Force Base in Colorado. This arrangement allows us 
to leverage the existing robust infrastructure and our strong 
partnership with the MDA to execute the IMD mission.
    In the past year, the JFCC-IMD has aggressively executed 
the global mission to plan, coordinate, and integrate missile 
defenses. In collaboration with geographical combatant 
commands, we are developing IMD plans that integrate theater 
and national assets to provide the best protection.
    The STRATCOM, in partner with MDA and Service combatant 
commanders are setting the stage to evolve the Ballistic 
Missile Defense Systems (BMDS) beyond its current capability, 
to provide a more robust missile defense for homeland and 
deployed forces.
    Mr. Chairman, the Army is a full contributing member of the 
joint BMD team, Army soldiers are trained, ready, and operating 
the GMD System at Fort Greely, Alaska, and Schriever Air Force 
Base, Colorado. Just a couple of years ago, we activated the 
GMD Brigade in Colorado Springs, Colorado, and the subordinate 
battalion at Fort Greely. These soldiers, as part of the joint 
team, are our Nation's first line of defense against any launch 
of an intercontinental ballistic missile toward our homeland. I 
am proud to represent them along with other members of the 
Army's Air and Missile Defense Community to develop and field 
BMDs for our Nation, the deployed forces, friends, and allies. 
With the ongoing support of this committee, the Army will 
continue to transform to support the Army's future force, the 
Joint Integrated Air and Missile Defense System, and our global 
BMDS.
    I appreciate having the opportunity to speak of these 
important matters, and look forward to addressing any questions 
you or the members of your subcommittee may have. I also 
respectfully request that my written statement be submitted for 
the record. Thank you, sir.
    [The prepared statement of General Dodgen follows:]

             Prepared Statement by LTG Larry J. Dodgen, USA

                              INTRODUCTION

    Mr. Chairman, Senator Nelson, and members of the Strategic Forces 
Subcommittee, thank you for your ongoing support of our military and 
for the opportunity to appear before this distinguished panel, once 
again. This committee continues to be a great friend of the Army and 
the missile defense community, particularly in our efforts to field 
missile defense forces for the Nation and our allies. I consider it a 
privilege to be counted in the ranks with Mr. Flory, Mr. Duma, and 
Lieutenant General Obering as advocates for a strong global missile 
defense capability.
    I appear before this committee in two roles. The first is as an 
Army Commander for missile defense and a proponent for the Ground-based 
Midcourse Defense (GMD) System. The second is as a soldier in the Joint 
Missile Defense Team and Commander of the Joint Functional Component 
Command for Integrated Missile Defense (JFCC-IMD), a part of the United 
States Strategic Command (STRATCOM), and the joint user representative 
working closely with the Missile Defense Agency (MDA), other Services, 
and combatant commanders to ensure that our national goals of 
developing, testing, and deploying an integrated missile defense system 
(IAMD) are met.
    Mr. Chairman, as I reported last year, Army soldiers are trained, 
ready, and operating the GMD System at Fort Greely, Alaska, and the 
Joint National Integration Center (JNIC) at Schriever Air Force Base in 
Colorado. Just a couple of years ago, we activated the GMD Brigade in 
Colorado Springs, Colorado, and a subordinate GMD Battalion at Fort 
Greely. These soldiers, as part of the Joint team, are our Nation's 
first line of defense against any launch of an intercontinental 
ballistic missile (ICBM) toward our shores. I am proud to represent 
them along with the other members of the Army's Air and Missile Defense 
(AMD) community.

                          USSTRATCOM JFCC-IMD

    The JFCC-IMD was established in January 2005 as one element of 
USSTRATCOM and reached full operational capability on early in 2006. 
This organization complements the capabilities inherent in other 
STRATCOM JFCCs and Joint Task Forces (JTFs) which plan, coordinate, and 
integrate STRATCOM's other global missions of Space and Global Strike, 
Intelligence Surveillance and Reconnaissance (ISR), Net Warfare and 
Global Network Operations, and the newest element, the STRATCOM Center 
for Combating Weapons of Mass Destruction (WMDs).
    The JFCC-IMD is manned by Army, Navy, Air Force, and Marine Corps 
personnel. It is headquartered at the JNIC at Schriever Air Force Base, 
Colorado. This arrangement enables us to execute the IMD mission by 
leveraging the existing robust infrastructure and our strong 
partnership with our collocated MDA team.
    In the past year, STRATCOM, through the JFCC-IMD, has aggressively 
executed its mission to globally plan, coordinate, and integrate 
missile defense. In collaboration with geographic combatant commands, 
we are developing IMD plans within a regional area of operations in the 
context of STRATCOM's global mission instead of individual theater 
plans.
    Based on guidance from the Commander, STRATCOM, we have also 
developed plans to take existing MDA assets, currently in test and 
development status, and rapidly transition them, in an emergency, to an 
operational warfighting capability. This allows STRATCOM to provide 
additional critical IMD capabilities to the combatant commands in times 
of crisis. Examples of this capability include early activation and 
deployment of the AEGIS SM3 Missile and the sea-based and Forward Based 
X-band Transportable (FBX-T) Radar to operational locations in the 
Pacific region, where, by the end of 2006, they will join a global 
network of radars. STRATCOM initiated planning efforts to integrate the 
capabilities of all the JFCCs to support the ``New Strategic Triad,'' 
as it determines the next steps needed to fulfill our commitment to an 
integrated missile defense capable of defending the U.S., its deployed 
forces, friends, and allies.
    JFCC-IMD works closely with the other JFCC elements of STRATCOM and 
the combatant commands to make Offense-Defense Integration, ISR, and 
the other mission areas integral aspects of how we fight, to ensure the 
optimal application of limited resources.
    The IMD community, led by the STRATCOM Commander and his Unified 
Command Plan Authority, has conducted numerous capability and readiness 
demonstrations, integrated flight and ground tests, and combatant 
command exercises to develop and validate the operators' tactics, 
techniques, and procedures. As we work toward our system's future 
operational capability, increased warfighter involvement in the testing 
and exercising of the Ballistic Missile Defense System (BMDS) ensures 
both the viability of the defense and the confidence of its operators.
    STRATCOM, through the JFCC-IMD, is leading the planning of global 
missile defenses with the development of the global IMD Concept of 
Operations (CONOPs). The CONOPs relies on the development and 
coordination of engagement sequence groups (ESGs) and the advocacy of 
desired global missile defense characteristics and capabilities.
    STRATCOM-developed global IMD CONOPs serves as a roadmap for the 
warfighting community to guide the development of more detailed IMD 
planning and execution. These CONOPs contains two fundamental 
principles. First, the geographic component commanders execute the IMD 
fight within their Areas of Responsibility (AORs). Second, multi-
mission sensors are centrally tasked by STRATCOM Commander to optimize 
their use in forming ESGs.
    As a key requirement for IMD planning, the identification of ESGs 
as the optimal pairing of sensor and weapon capabilities required to 
provide active missile defense for the designated defended area is 
critical. The ESGs are a tool the IMD community uses to help operate 
the BMDS by balancing operational necessity with the realities of 
ongoing research, development, and testing in the near term. As more 
elements and components are made available, ESGs will serve to optimize 
our global missile defense system.
    The STRATCOM commander represents all the component commands as the 
advocate for IMD. He executes this responsibility at two levels. First, 
for those elements already deployed, headquarters, STRATCOM J8, in 
collaboration with the JFCC-IMD, conducts the Warfighter Involvement 
Process (WIP) to evaluate the adequacy of the current capabilities of 
the BMDS. This process can encompass anything from identifying simple 
human interface changes or modifications to developing refined planning 
tools. These needs are prioritized by STRATCOM for review and approval 
and are provided to MDA for consideration. The second level of advocacy 
focuses on future capability needs. These future elements and 
components will provide additional capabilities that enable a more 
robust, reliable, and capable system.
    The critical element that ties the entire BMDS system together is 
the Command and Control Battle Management Communications (C2BMC). C2BMC 
is an essential evolutionary component of the BMDS that will greatly 
enhance both planning and execution capabilities. C2BMC contributes to 
all phases of BMD from optimizing planning to synchronizing the 
automated execution of the BMDS. Upgrades to the Command, Control, 
Battle Management, and Communications System will extend situational 
awareness capability to Pacific Command (PACOM) and European Command 
(EUCOM) by the end of 2006.
    As our planning processes have matured over the past year, JFCC-
IMD's innovative use of new collaborative planning capabilities in 
major combatant command exercises has demonstrated the effectiveness of 
distributed crisis action planning. JFCC-IMD was able to support the 
combatant commands with development of new defense designs and 
optimized locations for BMDS in exercises such as STRATCOM's Global 
Lightning and PACOM's Terminal Fury.
    Through our partnership with MDA, the Services, and the warfighters 
at the combatant commands, STRATCOM is setting the stage to evolve the 
BMDS beyond its current capability to that of providing more robust 
missile defense for the homeland, deployed forces, friends and allies. 
We are actively engaged with MDA and the Services in the development 
and deployment of BMDS elements and components ensuring a layered, 
multi-phase operational capability for the combatant commands.
    Air and Missile Defense--an Overview of the Fiscal Year 2007 Army 
Budget Submission
    In addition to deploying a GMD system, MDA, the Services, and the 
combatant commanders are focused on improving Theater Air and Missile 
Defense (TAMD) capabilities within the context of the evolving BMDS in 
Integrated Air and Missile Defense (IAMD) Joint Integrating Concept. 
Both GMD and TAMD systems are vital for the protection of our homeland, 
deployed forces, friends, and allies. Air and missile defense is a key 
component in support of the Army's core competency of providing 
relevant and ready land power to combatant commanders.
    I would now like to focus on the Army's fiscal year 2007 budget 
submission for Air and Missile Defense (AMD) systems. The President's 
budget, presented to Congress on February 6, includes approximately 
$1.57 billion with which the Army proposes to perform current Army AMD 
responsibilities and focus on future development and enhancements of 
both terminal phase and short-range AMD systems. In short, the Army is 
continuing major efforts to improve the ability to acquire, track, 
intercept, and destroy theater air and missile threats.
    The Army, as part of the joint team, is transforming its AMD forces 
to meet the increasingly sophisticated and asymmetric threat 
environment encountered by the joint warfighter. The Army has the lead 
to conduct the IAMD Capabilities Based Assessment. This analysis will 
comprise the front end of the Chairman of the Joint Chiefs of Staff 
Joint Capabilities Integration Development System. The study will 
identify key joint, agency and combat command IAMD capability gaps and 
will recommend doctrine, organization, training, materiel, leadership 
and education, personnel and facilities (DOTMLPF) transformation 
actions. The document is envisioned to fulfill time-phased IAMD needs 
across the range of military operations.

                    INTEGRATED AMD SYSTEM OF SYSTEMS

    The Army is transforming its Air Defense Force from its current 
separate systems architecture to a component-based, network-centric, 
IAMD System of Systems (SoS). The IAMD SoS program focuses on systems 
integration, common battle command and control, joint enabling 
networking, and logistics and training, to ensure operational 
requirements, such as force protection, lethality, survivability, 
transportability and maneuverability are achieved. The IAMD SoS program 
will employ an evolutionary acquisition strategy consisting of a series 
of increments leading to the objective capability. This SoS approach 
calls for a restructuring of systems into components of sensors, 
weapons and Battle Management Command, Control, Communications, 
Computers, and Intelligence (BMC4I) with a standard set of interfaces 
among these components using a standardized set of networks for 
communication.
    Technology insertions to the IAMD SoS will continue throughout each 
increment as high-payoff technologies mature and are ready for 
integration. Incremental development of the IAMD SoS allows the Army to 
field new or improved capabilities to warfighters faster, by producing 
and deploying systems and components as the technologies mature. 
Funding in the proposed fiscal year 2007 President's budget supports 
the first steps in achieving an IAMD SoS architecture.

                   AIR AND MISSILE DEFENSE BATTALIONS

    As part of Air Defense Transformation, the Army is creating 
composite AMD battalions. These battalions address capability gaps, 
which permit us to defeat cruise missiles and unmanned aerial vehicles 
(UAVs) while maintaining our ability to defend critical assets from the 
ballistic missile threat. The composite AMD battalions will capitalize 
on the synergies of two previously separate disciplines: short-range 
air defense and high-to-medium altitude air defense. The current plan 
is to organize eight battalions as Patriot-pure units, four battalions 
as AMD battalions, and create one battalion, in Korea, as a maneuver 
AMD battalion. This transformation is underway.
    Within the context just provided, allow me to briefly discuss each 
of the programs that support the Army's AMD Transformation.

               TERMINAL PHASE BALLISTIC MISSILE DEFENSES

    The Patriot/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Theater High Attitude Area 
Defense (THAAD) System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
Patriot/PAC 3 and Meads Overview
    Mr. Chairman, since the combat debut of the Patriot AMD System 
during Operation Desert Storm, the Army has continued to implement a 
series of improvements to address the lessons learned. During Operation 
Iraqi Freedom (OIF), we saw the debut of the improved Patriot 
Configuration-3 system, including the effective use of the Guidance 
Enhanced Missile and the Patriot Advanced Capability 3 (PAC-3) Missile. 
PAC-3 is the latest evolution of the phased materiel improvement 
program to Patriot. Combining developmental testing and operational 
data, this program has enabled the development and deployment of a new 
high-velocity, hit-to-kill, surface-to-air missile with the range, 
accuracy, and lethality necessary to effectively intercept and destroy 
more sophisticated ballistic missile threats. Today's Patriot force is 
a mixture of PAC-2 and PAC-3 configured units. To maximize the full 
advantage of the PAC-3 capabilities, the Army is moving toward pure-
fleeting the entire Patriot force to the PAC-3 configuration.
    As I highlighted last year, Patriot saved many lives when defending 
against Iraqi ballistic missile attacks during OIF. However, there were 
some operational deficiencies. The Army has undertaken steps to correct 
them and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific OIF fixes and continued aggressive participation in joint 
interoperability improvements in situational awareness. All funded OIF 
fixes are on schedule to be completed by the end of fiscal year 2007, 
pending any materiel release issues.
    The Patriot system remains the Army's mainstay TAMD system and our 
Nation's only deployed land-based short-to-medium range BMDS 
capability. The current Patriot force must be maintained through 
sustainment and recapitalization efforts, until the MEADS is fielded, 
projected to begin in 2015.
    MEADS is a cooperative development program with Germany and Italy, 
to collectively field an enhanced ground-based AMD capability. The 
MEADS program, which supports the President's goal for international 
cooperation in missile defense, will enable the joint integrated AMD 
community to move beyond the critical asset defense designs we see 
today. MEADS will provide theater level defense of critical assets and 
continuous protection of a rapidly advancing maneuver force as part of 
a Joint IAMD architecture. Major MEADS enhancements include 360-degree 
sensor coverage, a netted and distributed battle manager that enables 
integrated fire control, and a strategically deployable and tactically 
mobile, AMD system. While the PAC-3 missile is the baseline missile for 
the international MEADS program, the Missile Segment Enhancement (MSE) 
missile is being developed to meet U.S. operational requirements. MSE 
will provide a more agile and lethal interceptor that increases the 
engagement envelope.
Combined Patriot/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path to merge the Patriot and MEADS programs, 
establishing the Patriot/MEADS Combined Aggregate Program (CAP) with 
the objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into Patriot. Patriot/MEADS CAP is an 
important capability that will operate within MDA's BMDS. It is in 
fact, the number one Army priority system for defense against short and 
medium-range Tactical Ballistic Missiles and air breathing threats 
(i.e. cruise missiles and UAVs). The Patriot/MEADS CAP will be capable 
of operating within a joint, interagency, and multinational 
interdependent operational environment. It will provide wide-area 
protection at strategic, operational, and tactical levels.
    Patriot/MEADS CAP will also provide BMC4I, introduce lightweight 
deployable launchers, upgrade the PAC-3 missile, and eventually provide 
the full MEADS capability to the entire force. The MEADS system offers 
a significant improvement in the ability to deploy strategically while 
maintaining tactical mobility. The system uses a netted and distributed 
architecture with modular and configurable battle elements, which 
allows for integration with other Army and Joint sensors and shooters. 
These features and capabilities will allow MEADS to achieve a robust 
360-degree defense against all airborne threats. By establishing the 
CAP, the joint integrated AMD architecture has become more robust. 
First, MEADS enhancements are integrated into the existing system. 
Second, as lessons are learned from the present missile defense 
capability, they will be incorporated into the MEADS follow-on system. 
We are confident that this path will provide our servicemembers, 
allies, friends, and the Nation with the most capable AMD system 
possible.
    The Army and the entire missile defense community continue to 
strive to improve our Nation's missile defense capabilities. The 
Patriot and PAC-3/MEADS CAP research, development, and acquisition 
budget request for fiscal year 2007 is approximately $916.5 million. 
This request procures 108 PAC-3 missiles, purchases spares for the 
system, and reflects the necessary Patriot development to keep the 
system viable as we pursue development of PAC-3/MEADS CAP capabilities.

                         CRUISE MISSILE DEFENSE

    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a WMD warhead, the effect of a cruise missile could be 
catastrophic. It is clear that the required systems and capabilities 
necessary to counter this emerging threat need to be accelerated to 
field a cruise missile defense (CMD) capability as soon as possible. 
The Army's CMD program is an integral piece of the Joint Cruise Missile 
Defense architecture, and we are proud of our contributions to this 
effort. Critical Army components of the Joint CMD architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor (JLENS), the Surface-Launched Advanced Medium Range Air-
to-Air Missile (SLAMRAAM), and an integrated fire control capability. 
We are also working closely with the Joint community to assure 
development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat.
JLENS Overview
    JLENS brings a critically needed capability to address the growing 
CM threat. To support an elevated sensor, the JLENS program is 
developing unique lightweight fire control and surveillance radars to 
detect, track, and identify CM threats. JLENS will support engagements 
using the SLAMRAAM/Complementary Low Altitude Weapon System (SLAMRAAM/
CLAWS), Navy Standard Missile, and Patriot/MEADS weapon systems. JLENS 
uses advanced sensor and networking technologies to provide precision 
tracking and 360-degree wide-area, over-the-horizon surveillance of 
land-attack cruise missiles. The fiscal year 2007 JLENS funding request 
of $264.5 million supports development of a full JLENS capability, with 
the first unit equipped by 2011.
SLAMRAAM Overview
    SLAMRAAM will provide a CMD system to maneuver forces with an 
extended battlespace and a beyond line-of-sight, non-line-of-sight 
engagement capability critical to countering the CM threat, as well as 
UAV threats. SLAMRAAM uses the existing Joint AMRAAM missile currently 
used by the Air Force and the Navy, thereby capitalizing on the Joint 
harmony that the Department of Defense (DOD) is striving to achieve. 
The Army and the Marine Corps are also executing a joint cooperative 
development for SLAMRAAM/CLAWS to meet the needs of soldiers and 
marines in homeland defense as well as overseas deployments. The fiscal 
year 2007 funding request of $49 million supports the scheduled Initial 
Operational Capability (IOC) target of 2011.
Sentinel Radar Overview
    The Sentinel Radar is an advanced, three-dimensional, phased array 
air defense radar and a critical component in the Army's ability to 
conduct air surveillance for the maneuver force. Sentinel is a small, 
mobile battlefield radar that supports the joint air defense sensor 
network in detecting cruise missiles, UAVs, and helicopter threats, 
thereby contributing directly to the overall Single Integrated Air 
Picture (SIAP) and supporting multiple Homeland Defense missions. Its 
Enhanced Target Range and Classification (ETRAC) radar upgrades will 
enable it to support engagements at extended ranges and reduce the time 
required to perform target classification. Additionally, these upgrades 
support next generation combat identification for friendly air, thereby 
reducing the possibility of fratricide and providing an enhanced 
positive friendly and civil aviation identification capability. The 
fiscal year 2007 funding request of $17.6 million provides for joint 
identification and composite sensor netting development efforts, four 
ETRAC system upgrade kits, and development and integration of 
improvements to support joint interoperability.

          AIR, SPACE, AND MISSILE DEFENSE COMMAND AND CONTROL

    The Army is increasing its command and control capabilities on the 
battlefield. The Army's Air and Missile Defense Commands (AAMDCs) will 
help integrate TAMD operations, by integrating, coordinating, and 
synchronizing Joint attack operations, active defense, passive defense, 
and C4 operations in the theater, and also globally tie into our JFCC-
IMD.
    Concurrent with the creation of AMD composite battalions, the Army 
has developed, and is now in the process of fielding, air defense 
airspace management (ADAM) cells throughout the force. ADAM cells will 
perform four missions: plan AMD coverage, contribute to third-dimension 
situation awareness and understanding, provide airspace management, and 
integrate operational protection. With an emphasis on receiving and 
sharing the joint air picture from multiple sources and assets through 
the battle command network, ADAM cells will provide commanders with 
situational awareness as well as the traditional friendly and threat 
air picture, enabling commanders to effectively manage their aerial 
assets. ADAM cells are already being fielded to the Army to meet 
modularity requirements, with two ADAM cells at the division 
headquarters and one to every brigade in the Army, to include both the 
Active and Reserve Forces. This high-priority system has been supported 
through supplemental appropriations to this point. The fiscal year 2007 
funding request of $49.5 million provides 15 ADAM Cells for the Active 
and Reserve components.
    Also in the past year, the Army activated the 94th Air and Missile 
Defense Command, supporting the U.S. Pacific Command (PACOM) theater of 
operations. With the 94th AAMDC activation, there are three Army AMD 
Commands; two in the active component and one in the Reserve component. 
The 94th AAMDC, designed for joint and multinational operations, will 
provide for missile defense in the Pacific theater and will assist in 
planning theater-level air and missile defenses. The 94th AAMDC will 
provide the PACOM commander with a more robust theater-based 
capability. Moreover, the unit's presence in the Pacific adds depth, 
because its capability will be readily available to the warfighting 
commander.
    The Joint Tactical Ground Stations (JTAGS), forward deployed today 
in European Command (EUCOM), Central Command (CENTCOM), and PACOM, are 
providing assured missile warnings to combatant commanders and assigned 
forces through a direct downlink from space-based infrared assets into 
the joint theater communications architecture. In addition to 
protecting the deployed force, these systems alert the BMDS 
architecture and enhance attack operations. The fiscal year 2007 
funding request of $24.9 million sustains the forward deployed JTAGS 
units supporting joint warfighters and postures the Army to participate 
with the Air Force in a future ground mobile system compatible with the 
Space-Based Infrared System (SBIRS) and follow-on sensors. The planned 
Multiple Mission Mobile Processor (MP3) Program is being restructured 
due to the delays in the SBIRS schedule.

               COUNTER-ROCKET, ARTILLERY, MORTAR (C-RAM)

    A significant danger in OIF/OEF today is posed by insurgents 
employing indirect-fire tactics of quick-attack, low-trajectory, urban-
terrain-masked rocket, artillery, and mortar (RAM) strikes against U.S. 
forward operating bases in Iraq. To combat this threat, the Army 
developed C-RAM, an integrated solution of capabilities to provide 
warning and intercept of RAM threats. C-RAM provides a holistic 
approach to the Counter-RAM mission. Horizontal integration across the 
core functions--command and control, shape, sense, warn, intercept, 
respond and protect--is providing an integrated modular and scalable 
capability. This capability provides timely warning of mortar attacks, 
intercept and defeat of incoming rounds, and accurate location of 
insurgent mortar crews, enabling a rapid, lethal response. C-RAM takes 
advantage of existing systems and capabilities, combining them in a SoS 
architecture to support the warfighter on today's battlefield. The 
current C-RAM solution is truly joint, in that it uses fielded systems 
from the Army, Navy and Air Force along with a commercial-off-the-shelf 
(COTS) system. C-RAM has been supported through supplemental 
appropriations. The Army will request funding for continued C-RAM 
fielding in the upcoming supplemental request, and the C-RAM program 
will be included in the Army's POM beginning in fiscal year 2008.

                      DIRECTED ENERGY INITIATIVES

    The Army continues to explore directed energy capabilities for 
weapon system development and integration into Army Transformation 
applications. High Energy Laser (HEL) systems have the potential of 
being combat multipliers, meeting air and missile defense needs in the 
future and enhancing current force capabilities, such as addressing the 
RAM threats. The ability of a HEL system to shoot down RAM targets has 
been repeatedly demonstrated, with mature chemical laser technologies 
proven by the Tactical High Energy Laser (THEL) program.
    Meanwhile, the Army's fiscal year 2007 science and technology 
funding request of $32.8 million supports HEL technology development 
focused on solid state laser technologies that will offer electric 
operation and compatibility with the Future Combat System (FCS) by the 
year 2018. The Army is participating in a Joint high-powered solid 
state laser program with the Office of the Secretary of Defense High 
Energy Laser Joint Technology Office and the other Services to pursue 
several candidate solid state laser technologies with the operating 
characteristics necessary for weapon system development. In fiscal year 
2007, while leveraging the Joint program, the Army is initiating a HEL 
Technology Demonstrator (HELTD) that will, by fiscal year 2013, have 
the ability to shoot down RAM threats as a stepping stone toward 
deployment of HELs in a FCS configuration. Ultimately, HELs are 
expected to complement conventional offensive and defensive weapons at 
a lower cost-per-shot than current systems.

                               CONCLUSION

    Mr. Chairman, the Army, a full contributing member of the Joint 
team, is relevant and ready, fighting the war on terrorism, deployed in 
Southwest Asia and elsewhere, and deterring aggression throughout the 
world, while transforming to meet future threats. With its 
responsibilities for GMD and Patriot/MEADS, the Army is an integral 
part of the Joint team to develop and field the BMDS in defense of the 
Nation, deployed forces, friends, and allies. In my role as the Joint 
Functional Component Commander for Integrated Missile Defense, I will 
continue the development of a Joint BMDS capability to protect our 
warfighters and our Nation. The Army has stepped up to the land-attack 
cruise missile defense challenge by aggressively developing the joint, 
integrated, and networked sensor-to-shooter architecture necessary to 
defeat the emerging threat. The fiscal year 2007 budget proposal 
continues the transformation of the Army's ASMD Force to support the 
Army's Future Force, the Joint Integrated Air and Missile Defense 
System, and our global BMDS, building on the ongoing success of our 
theater AMD force in Operation Iraqi Freedom. Transformation will 
continue to define the characteristics of the emerging ASMD force and 
determine how it can best support the Future Force operating in a 
joint, interagency, and multinational environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
committee members may have.

    Senator Sessions. Thank you, General Dodgen.
    Mr. Duma, you are responsible for the testing of the 
program. We are delighted to hear your remarks at this time, 
and we will make your full remarks a part of the record.

 STATEMENT OF DAVID W. DUMA, ACTING DIRECTOR, OPERATIONAL TEST 
             AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Duma. Thank you, Senator. Mr. Chairman, distinguished 
members of the subcommittee, I'm pleased to have this 
opportunity to speak with you about the BMDS test program.
    As requested by this committee, I will offer my insights on 
oversight, development, testing, and fielding of BMDs. In doing 
so, I will cover four areas.
    First, I will recap the MDA test accomplishments during the 
past year; second, I will discuss the organization and test 
philosophy changes within the MDA; third, I will give you a 
status of compliance with test requirements prescribed in the 
recent National Defense Authorization Acts (NDAA); and fourth, 
I will highlight future challenges facing the test program of 
the BMDS.
    First, the results. The MDA testing program during 2005 was 
adequate and appropriate to the developmental maturity of the 
BMDS. The results of ground tests demonstrated that integration 
into operability, tactics, doctrine, and procedures were 
adequate to increase confidence in those aspects of the system. 
For the first time, MDA successfully flew an operationally 
configured combination of a Raytheon Exoatmospheric Kill 
Vehicle, integrated onto an Orbital Sciences booster. The 
successful flight test of threat-representative targets across 
both the Cobra Dane and Beale Early Warning Radars demonstrated 
the capability to provide target acquisition, tracking, and 
queuing data. This test provided significant information 
regarding the Cobra Dane capabilities and limitations. The 
Aegis BMDS successfully completed two intercept missions with 
the new SM-3 missile. One of these flights included the 
intercept of a separating target. The ABL completed the passive 
phase of flight test of the Beam Control/Fire Control system, 
and completed the integration and operational demonstration of 
six Chemical Oxygen Iodine Laser modules.
    The THAAD executed its FT-1 in 5 years, it flew its 
redesigned missile on a non-intercept test to measure 
interceptor kinematics and demonstrate performance.
    Last year, the Forward-Based X-Band Radar Transportable 
(FBX-T) demonstrated its ability to track long-range ballistic 
missile launches. The Sea-Based X-Band Radar completed 
integration testing in the Gulf of Mexico, and has arrived in 
Hawaii to begin its checkout and integration into the BMDS test 
bed.
    Overall, the results of the integrated ground test, coupled 
with the success of other element-level ground and flight test 
events, indicate the BMDS system is maturing.
    Second, the approach. The Department is changing the 
oversight structure of the BMDS. A BMD Executive Board will 
replace the Senior Executive Council as the senior oversight 
body for missile defense activities. The board will review and 
make recommendations regarding the implementation of strategic 
policies and plans, program priorities, and investment options. 
In this new oversight structure, I am a member of that board.
    In addition, General Obering implemented several changes in 
organization and test philosophy during the past year. These 
changes more tightly integrate the developers, warfighters, and 
operational testers and should better integrate the system 
engineering functions with the test and evaluation functions 
within MDA. They will also address efforts to address priority 
items, such as validation and accreditation of models and 
simulations.
    Third, the NDAAs--over the last 2 years, Congress has asked 
MDA and my office to accomplish several specific initiatives 
with regard to operational testing of the BMDS. The NDAA for 
Fiscal Year 2004 required operationally realistic testing of 
the BMDS. This past year, MDA conducted numerous ground tests, 
war games, and capability demonstrations using trained 
warfighters to operate the systems. Incorporating trained 
warfighters into the testing program is added to the 
operational understanding of the capabilities, limitations, and 
maturity of the BMDS. In fiscal year 2005, Congress required 
the MDA to conduct an operationally realistic test of the BMDS. 
Following two launch failures of the GMD system, and 
recommendations from two independent review teams, General 
Obering restructured the flight test program. The restructured 
program includes two more risk-reduction flights--if they are 
successful, General Obering plans to conduct operationally 
realistic flight tests in fiscal year 2007.
    In fiscal year 2006 language, Congress required the 
operational test community to plan and conduct an operational 
test of the capability provided by each block of the BMDS, 
beginning with Block 2006. Toward this effort, MDA, the Joint 
Operational Test Agency, and my office will develop an 
integrated, evaluation-driven test strategy. This approach 
should increase the quantity and quality of data, while 
increasing the efficiencies of test resources. When the 
evaluation plan is finished, MDA will include these tests in 
the next revision to the Integrated Master Test Plan.
    Fourth, the challenges. The complexity of the BMDS is 
increasing, and testing the BMDS is becoming more challenging 
as the Agency adds elements and capability. Testers must assess 
performance and reliability during concurrent tests and 
operations of a layered BMDS. Integration of the BMDS elements 
and sensors that are still maturing, with operational legacy 
systems is a difficult task. Fusing the data from each element 
into a single, unambiguous operational picture is a significant 
software development, integration, and testing challenge. Range 
safety and environmental restrictions limit intercept 
geometries to only a few scenarios. Meeting each of these 
challenges requires a series of well-planned ground and flights 
tests.
    Over the long term, MDA should incrementally develop a 
capability to support concurrent testing and operations, 
including simulation over live testing to speed up the process. 
This is similar to how we upgraded and tested the Cheyenne 
Mountain without interfering with operations. When developed, 
this capability will augment the capability for system tests 
and evaluation to characterize operational effectiveness and 
suitability, using actual hardware and warfighters in the loop.
    Mr. Chairman, in conclusion, MDA experienced a difficult 
year with its GMD system, but ended the year on several high 
notes. Element successes indicate they are progressing toward 
maturity. Last year, warfighters demonstrated that they could 
operate the integrated ground system. The fact remains, 
however, that we ground test for discovery, but we must flight 
test to verify operational performance and validate 
simulations. Successful flight tests with repeatable results 
are the cornerstones for building confidence in the BMDS. 
Warfighters must have confidence that the system will defend on 
demand.
    Senator, this concludes my opening remarks, and I welcome 
your questions.
    [The prepared statement of Mr. Duma follows:]

                  Prepared Statement by David W. Duma

    Mr. Chairman, distinguished members of the subcommittee, I am 
pleased to have this opportunity to speak to you about the Ballistic 
Missile Defense System (BMDS) test program. As requested by this 
committee, I will offer my insights on oversight, development, testing, 
and fielding of ballistic missile defenses. In doing so, I will address 
progress toward fielding those capabilities mentioned for deployment by 
the President in 2002, including ground-based interceptors, seabased 
interceptors, and associated sensors. I will cover four areas. First, I 
will recap the Missile Defense Agency (MDA) test accomplishments during 
the past year. Second, I will discuss organization and test philosophy 
changes within MDA. Third, I will give you a status of compliance with 
test requirements prescribed in recent National Defense Authorization 
Acts (NDAA). Fourth, I will highlight future challenges facing the test 
program of the BMDS.
    The MDA testing program during 2005 was adequate and appropriate to 
the developmental maturity of the BMDS.

          1. The results of ground tests demonstrated that integration, 
        interoperability, tactics, doctrine, and procedures were 
        adequate to increase confidence in these aspects of the system.
          2. For the first time, MDA successfully flew an operationally 
        configured combination of a Raytheon Exoatmospheric Kill 
        Vehicle integrated onto an Orbital Sciences booster. While the 
        flight was successful, it did not evaluate the fixes to the 
        ground support system that caused the previous flight test 
        launch failures. Plans are to demonstrate the ground system 
        fixes in subsequent flight-testing.
          3. The successful flight of threat representative targets 
        across both the Cobra Dane and Beale Early Warning Radars 
        search and track volume demonstrated the capability to provide 
        target acquisition, tracking, and cuing data. MDA executed an 
        operationally realistic test scenario that provided significant 
        information regarding the Cobra Dane capabilities and 
        limitations. MDA also demonstrated they could successfully 
        launch a long-range threat representative target from an air 
        platform.
          4. The Aegis Ballistic Missile Defense System successfully 
        completed two intercept missions with the new SM-3 missile. One 
        of these flights included an intercept of a separating target.
          5. The Airborne Laser completed the passive phase of flight 
        test of the Beam Control/Fire Control system, and completed the 
        integration and operational demonstration of six integrated 
        Chemical Oxygen Iodine Laser modules.
          6. The Terminal High Altitude Area Defense (THAAD) system 
        successfully executed its first flight test in 5 years. It flew 
        its redesigned missile on a nonintercept test to measure 
        interceptor kinematics and demonstrate performance.
          7. Last year, two new sensors completed integration and some 
        combined developmental and operational testing. The Forward-
        Based X-band Radar-Transportable (FBX-T) demonstrated its 
        ability to track long-range ballistic missile launches. The 
        SeaBased X-band radar completed integration testing in the Gulf 
        of Mexico and has arrived in Hawaii to begin its checkout and 
        integration into the BMDS test bed.

    The results of the integrated ground tests, coupled with the 
success of other element-level ground and flight test events, indicate 
the BMDS is maturing.
    The Department of Defense (DOD) is changing the oversight structure 
of the BMDS. A Ballistic Missile Defense Executive Board will replace 
the Senior Executive Council as the senior oversight body for missile 
defense activities. It will not have the decision authority of the 
Senior Executive Council, however. The board will review and make 
recommendations regarding the implementation of strategic policies and 
plans, program priorities, and investment options. This change 
implements management and governance principles set for the in the 
Quadrennial Defense Review (QDR). In this new oversight structure, I am 
a member of the board. My Deputy for Missile Defense will co-chair the 
Test and Evaluation Standing Committee.
    In addition, General Obering implemented several changes in 
organization and test philosophy during the past year. These changes 
more tightly integrate the developers, warfighters, and operational 
testers. They should also better integrate the system engineering 
functions with the test and evaluation functions within MDA. These 
changes, coupled with improvements in test planning, execution, and 
analyses, should result in better definition of data requirements and 
better, more efficient test execution.
    As part of re-engineering his agency, General Obering established 
the Responsible Test Organization and Combined Test Force under the 
leadership and direction of his Deputy for Test and Assessment. The 
Combined Test Force will plan and execute tests, and collect and 
analyze data that will populate a database to support the technical and 
operational evaluations of BMDS performance. The Combined Test Force 
will include test personnel from each of the BMDS elements and the 
Operational Test Agencies.
    With the support of General Obering, I have commissioned the 
Institute for Defense Analyses to examine and recommend a construct 
that integrates the operational testers into the Combined Test Force. 
The goal is to maintain the operational testers' independence and 
credibility while economizing resources, eliminating duplication of 
effort, and supporting Combined Test Force mission and objectives. 
General Obering and I have also asked the Institute to investigate and 
recommend how to best integrate each stakeholder's assessment needs 
into the test planning, execution, data collection, analysis, and 
evaluation processes. This should further streamline the test and 
evaluation planning and execution process, while ensuring all 
stakeholders efficiently and effectively meet their objectives.
    Along with these organizational changes, MOA and the operational 
test community have agreed on an integrated test planning approach for 
future BMOS Blocks that supplements the Integrated Master Test Plan. 
The current Integrated Master Test Plan covers the next 2 years of 
testing and emphasizes BMOS testing that is operationally realistic. 
Beginning with Block 2006, MDA, the joint operational test agency, and 
my office will develop an integrated, ``evaluation-driven'' test plan. 
This test planning philosophy brings discipline and structure to 
planning Block testing based upon overall system evaluation needs, 
while concurrently addressing individual element test requirements. 
This approach should increase the quantity and quality of data while 
increasing the efficient use of test resources. It will also enhance 
efforts to address priority issues, such as verification, validation, 
and accreditation of models and simulations.
    Over the last few years, Congress has asked MDA and my office to 
accomplish several specific initiatives with regard to operational 
testing of the BMDS. The NDAA for Fiscal Year 2004 required 
operationally realistic testing of the BMDS. This past year, MDA 
conducted numerous ground tests, war games, and capability 
demonstrations using trained warfighters to operate the systems. These 
exercises included fully integrated ground and simulated missions 
designed by the operational testers and warfighters. This year's update 
to the Integrated Master Test Plan incorporates greater operational 
realism in the areas of increased warfighter involvement in flight 
tests; more end-to-end system testing; use of operationally 
representative missiles; employment of operational tactics, techniques, 
and procedures; and inclusion of more complex countermeasures. 
Incorporating trained warfighters into the testing program has added to 
the operational understanding of the capabilities, limitations, and 
maturity of the BMDS.
    In fiscal year 2005, Congress required the MDA to conduct a 
realistic operational test of the BMDS. Following two launch failures 
in the Ground-based Midcourse Defense system and recommendations from 
two independent review teams, General Obering restructured the flight 
test program. Flight-testing to date has not yet reduced the risk to 
the point where General Obering is ready to execute an operationally 
realistic flight test. The restructured program includes two more risk 
reduction flights. If they are successful, General Obering plans to 
conduct an operationally realistic flight test later this year.
    In fiscal year 2006, Congress required the operational test 
community to plan and conduct an operational test of the capability 
provided by each block of the BMDS beginning with Block 2006. I have 
taken action to begin this effort involving not only the operational 
test community, but also the warfighters and MDA. When the evaluation 
plan is finished, MDA will include these tests in the next revision of 
the Integrated Master Test Plan.
    The complexity of the BMDS is increasing. Elements are maturing and 
being integrated into the system. Consequently, testing the BMDS is 
becoming more challenging as the MDA adds elements and capability. 
Testers must assess performance and reliability during concurrent test 
and operations of a layered BMDS. Integration of the BMDS elements and 
sensors that are still maturing with operational legacy systems is a 
difficult task. Fusing the data that each element provides into a 
single, unambiguous operational picture is a significant software 
development, integration, and testing challenge. Range safety and 
environmental restrictions limit intercept geometries to only a few 
scenarios. Meeting each of these challenges is a big task--one that 
requires a series of well-planned ground and flight tests.
    Over the long term, MDA should incrementally develop a capability 
to support concurrent testing and operations, including simulation over 
live testing, to speed up the process. This is similar to how we 
upgraded and tested Cheyenne Mountain without interfering with 
operations. When developed, this capability will provide an alternative 
means for system test and evaluation to characterize operational 
effectiveness and suitability using actual hardware and warfighters in 
the loop.
    Mr. Chairman, in conclusion, MDA experienced a difficult year with 
its Ground-based Midcourse Defense system, but ended the year on 
several high notes. Element successes indicate they are progressing 
toward maturity. Last year, warfighters demonstrated they could operate 
the integrated ground system. The fact remains, however, that we ground 
test for discovery, but we must flight test to verify operational 
performance and validate simulations. Successful flight tests are the 
cornerstones for building confidence in the BMDS. Warfighters must have 
confidence the system will defend on demand.
    This concludes my opening remarks and I welcome your questions.

    Senator Sessions. Thank you, Mr. Duma. I will yield my time 
here to Senator Roberts, chairman of the Senate Select 
Committee on Intelligence, and a valuable member of our 
committee.
    Senator Roberts. Mr. Chairman, that's very kind of you.
    Gentlemen, we thank you all for the service you are 
providing to protect our country, we ask you to persevere. 
Thank you for taking the time out of your very valuable 
schedule to come before us, and thank you, Mr. Chairman, for 
holding this extremely valuable subcommittee meeting.
    The scene was the Emerging Threats and Capabilities 
Subcommittee--Mr. Chairman, it was before September 11--and we 
had a very prestigious panel, I think Jean Kirkpatrick was one, 
I'm trying to remember the others, and I asked them on emerging 
threats, as this was prior to September 11 you have to 
remember, ``what keeps you up at night?`` Of course, everybody 
was concerned after the U.S.S. Cole, and after the embassy 
bombings, and after the 1993 attempt on the World Trade Center 
about the attack on the Homeland. It was Jean Kirkpatrick who 
said ``access denial,'' in other words that a person who has a 
ballistic missile, or a person who has an intercontinental 
missile could basically tell the world, ``We have certain 
national objectives,''
    I think Iran would be a classic example, ``that if you 
cross into our territory, there will be hell to pay.'' Access 
denial was a big issue with me at that particular time, 
especially since Secretary Flory, you indicated now 25 
countries have that capability, and we're somewhere between 5 
and 9 and growing. In regards to an ICBM, when you get a guy 
like Ahmadinejad, the President of Iran, saying what he says--
which is rather incredulous to the western press--I think you 
have to take it seriously, I think we have a real problem.
    Now given that, General Obering, in regards to access 
denial and what we can do about it, I would like to start with 
the topic you and I have discussed, and that's the continued 
development of the ABL. Last year the MDA did decimate the 
ABLS, the primary boost phase system. What does it mean when 
the ABL is the primary boost phase interceptor?
    General Obering. Senator, what that means is that from a 
flexibility perspective, the ABL can address multiple ranges of 
missiles with that capability, that's very revolutionary 
capability. From operational standoff distances, that is an 
advantage that it has over the KEI, which is our other boost 
phase alternative, and so from a flexibility standpoint, it has 
the most capability overall. Also, it had demonstrated two 
basic technical capabilities to operate, otherwise it had 
achieved the full duration lase, it had reached an operational 
power setting, we had gotten the initial beam control/fire 
control flights on the aircraft, and so we felt like it was 
making sufficient technical progress based on the knowledge 
points we had designed for the system, that had become that 
candidate. The KEI, which was the alternative, was originated 
based on a Defense Science Board 2002 recommendation as an 
alternative for that.
    Senator Roberts. So you would still say the ABL is 
considered the primary boost phase interceptor?
    General Obering. Yes, I haven't changed from that.
    Senator Roberts. All right. Over the last couple of years, 
the ABL has met every major milestone, as you've indicated, 
you've tested many. But I sort of browbeat the chairman into 
letting you say, were the knowledge points scheduled, including 
the combining lasing power for all six laser modules extensive 
post-modification flight test and testing the laser at near 
full power, and your answer is yes, this is the case. I think 
I'm putting words in your mouth. Do you have any reason to 
believe the ABL will not continue to reach the scheduled 
milestone toward the knowledge points, up to and including the 
lethal shoot down in 2008?
    General Obering. At this time, no, sir, they are making 
steady progress through the installation of the lasers, and the 
preparation of the aircraft for the series of active ground 
tests that will start this summer and the flight tests in the 
fall. Having said that, we still have an awful lot of work to 
do, there are still some major integration challenges. There's 
two things that catch my attention when somebody says, ``Well, 
we're just re-using software,'' and ``all it is is 
integration,'' both of those should raise red flags. It's not 
that we have many red flags to raise, but we have a lot of 
integration activities to continue in that program, so I 
believe that there is still some, I would say, not uncertainty, 
but certainly. I think we have a lot of work ahead of us, and I 
wanted to make sure that we were able to take full advantage of 
the test schedule and the test program we've laid out for the 
next 2 years. That is why, in our budget, we deferred the 
purchase of the second aircraft.
    Senator Roberts. Wow, let's not throw any red flags, I 
don't like referees anyway. I'm concerned with the MDA's 
decision to delay funding on the second aircraft. That's going 
to have the effect of moving the shoot down for the second 
aircraft and the program out to 2018. Now, if you go from 2008 
to 2018, and then you look back at what your predictions are in 
regard to what our adversaries have, that's very disconcerting 
to me. If you have a 10-year delay from 2008, I don't know what 
we'd do with the highly-skilled engineers we have working on 
the first plane. There is going to be a dip in regards to that 
kind of expertise, there's going to be--I think--some cost, 
certainly, associated with reconstituting this workforce once 
development of the second plane picks up after the shoot down 
in 2008, we have sort of a one-shot Suzy. That was a 
firecracker that I used to set off back in my days when I was 
from a small town in Kansas, I don't want a one-shot Suzy, I 
want a sure-shot, two-shot Suzy if, in fact, that is what we're 
talking about. I know that you must defend the President's 
budget request, but would you be pleased, sir, to have any 
additional funds in the fiscal year 2007 budget to pull the ABL 
second aircraft schedule back to the left?
    General Obering. Sir, I would.
    Senator Roberts. Could you give the answer yes?
    General Obering. I would never turn down offers of 
additional funds. What we would do is try to buy back some of 
the risk that I think we still have laying ahead of us in the 
program, if that were the case. But I do share your concern 
with respect to the schedule. On the other hand, I want to make 
sure that we have allowed ourselves enough time to do a design 
turn on the aircraft. So a lot of those engineers you referred 
to will be fully employed, working on that design turn in that 
interim timeframe that we just discussed.
    Senator Roberts. I thank you for your time, and I thank you 
for your support. Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Roberts. Senator Reed, 
we appreciate you and your leadership, and your interest in 
these important issues.
    Senator Reed. Thank you very much, Mr. Chairman, thank you 
gentlemen, for your testimony.
    Mr. Secretary, I want to see if I can put in context one of 
your comments in your prepared testimony where you say the 
prospect of long-range missiles in the hands of North Korea 
means that for the first time, the American people, too, would 
be in harm's way. Aren't we forgetting the Soviet Union and the 
People's Republic of Chine in terms of having ICBMs with 
nuclear capacities that put the country at risk?
    Mr. Flory. Mr. Chairman, I don't have in front of me the 
draft prepared testimony I submitted, if it was not clear than 
the point would be, for the first time in a situation involving 
North Korea that the American people would be at risk from 
attack by North Korea.
    Senator Reed. Okay, but essentially we've had several 
decades in which we've had to wrestle with the very existential 
threat from long-range missiles with nuclear warheads?
    Mr. Flory. That is correct.
    Senator Reed. Thank you. General Obering, the Mission 
Readiness Task Force (MRTF) proposed and accepted and scheduled 
a new test plan, and scheduled to get the GMD program back on 
track, and frankly for many who were looking at the program, it 
looked until this reevaluation as a rush to failure, rushing 
through the gate very quickly. The proposal that the MRTF 
recommended was to ground test and flight test over the course 
of 1 year. The first two tests were intended to have no 
targets, but to test the interceptor-related portions of the 
system, first on Kwajalein and then from an operational site at 
Vandenberg Air Force Base. Only with the third test did the 
MRTF propose using a target, an outgoing intercept test instead 
of demonstrating the ability of the intercept to define and 
characterize the target, and only after all of these steps had 
been successfully accomplished did the MRTF propose to attempt 
to achieve an actual intercept in its tests.
    Now MDA plans to build a target into the second test, 
contrary to the MRTF plan, and to program the interceptor to 
hit the target. Even though it is not being called an objective 
of that test, as such, MDA is planning to track or intercept 
three tests earlier than recommended by the MRTF. Why aren't 
you adhering to the MRTF plan that you and DOD originally 
agreed to, and again, in the context of I think a fundamental 
attempt to reshape the program because of this tendency to rush 
forward and fail?
    General Obering. Okay, well there's a lot there, Senator, 
let me back up if I could. First of all, we lay out and we 
execute our testing based on results, and so what the MRTF 
recommended is exactly what you describe, which we began to 
execute. We got to our FT-1, and we actually had so much 
success with that FT-1 with a kill vehicle flight, it actually 
achieved many of the objectives we had slated for the second 
flight test that the MRTF had recommended. Because of that 
tremendous performance in the kill vehicle, we also went back, 
we conferred and consulted with the MRTF and they agreed as 
well that it was prudent to add a target to the second flight 
test because of the success we had on the first one.
    We are working very systematically through our ground 
tests, as you said, we've had successful static fires of the 
first stage, we've had additional qualification tests of the 
vehicle and so we're gaining more and more confidence as we go 
along. I feel comfortable that where we are right now in the 
test profile is about where we should be. We will accelerate 
and we will delay based upon the results as we go through. I 
wouldn't describe it as a rush to failure, what I would 
describe it as, as Secretary Flory pointed out, there is an 
urgency out there that we have to get a capability.
    I believe that we are moving ahead prudently, based on test 
results that we have seen to date. We flew intercepts 
successfully in 2001, with a prototype of the kill vehicle, and 
we actually flew successful flights of the operational booster 
that we have on the ground today in 2003 and that gave us the 
confidence to begin this initial deployment.
    Now one of the things the MRTF did cite is that we have 
become in some areas more schedule driven than we should be and 
that is why we took steps to adjust, that was not in any top-
down direction, though, that was all in how we were actually 
implementing the program. I believe, as many would agree, that 
the most expeditious schedule would be one in which you have 
good quality control built in so that it's easier, and it's 
always faster to do it right the first time than to have to do 
it over and over again.
    Senator Reed. Thank you, General. One of the points you 
make is that you have to learn from each test, and for example, 
the FT-2 test would be the first launch from Vandenberg, and 
that's been skipped, essentially.
    General Obering. No, sir. We actually have launched the 
booster from Vandenberg before, now what we haven't done is 
launched an interceptor with a kill vehicle from Vandenberg, 
and this will be the first time that we do that, in the FT-2 
that is coming up, and we will have a target from Alaska 
involved in this series. We still have a lot to learn, I'll 
grant that, in terms of overall, but we feel like we're at a 
pretty good level right now, in terms of our confidence and its 
performance.
    Senator Reed. One of the points that the MRTF made is that 
the flight test program can be broken down into specific 
pieces, and you can incorporate specific aspects to test out, 
but there's an overarching consideration that is getting to 
reliability and repeatability of these tests. So there's a 
logic to just having lots of tests, because if you can create 
an effect in one test, if you don't do it a second time then 
you might not be able to duplicate that, and that is one of the 
concerns I have is as you decide to just skip from these 
recommended tests, that you lose a little bit of that notion of 
repetitive reliability, and being able to do it again and 
again.
    General Obering. Yes, sir. Let me describe why we moved to 
Vandenberg to start with. We have flown the interceptor 
successfully out of Kwajalein, and as I said, that flight was 
so successful, we felt that we had achieved not only all of the 
technical objectives for that flight, but many of the original 
flight tests, too, as well.
    Senator Reed. Can I interject, because my time is almost 
up. Just for clarification, these were several tests that were 
different items, the previous tests had failed because I 
believe a fixture did not release the interceptor?
    General Obering. That was one of them, there was a software 
timing issue on the booster that was a fairly rare occurrence, 
and there was a support arm that failed to clear out of 
Kwajelein.
    Senator Reed. But in the test you're describing now, the 
support arm was illuminated, I believe.
    General Obering. In the FT-1, yes, sir, by design, because 
we're redesigning that ground support arm. The MRTF again 
recommended and we concurred, that it could be delayed because 
it is not considered a high-risk item.
    Senator Reed. Thank you, General, and I hope we have a 
second round, Mr. Chairman, because I have additional 
questions. Again, thank you for your responses.
    Senator Sessions. Thank you, Senator Reed.
    Secretary Flory, you talked about how the President 
directed the DOD to end what had been decades of research and 
development (R&D) to actually field an initial set of 
capabilities by the end of 2004. I remember we had a full 
discussion in the Senate in the late 1990s over that, and we 
passed the Cochran-Lieberman resolution to direct that we 
deploy as soon as practical, an MDS. Some observers directed 
that with nine GBIs now fielded, we should delay the deployment 
of additional GBIs until further operationally realistic 
testing has been completed. Based on your assessment of the 
threats, and we've heard others express comments about that 
today--would you share with us your concerns about delaying 
further deployment of GBI? I think this is a fundamental 
question and is a part of our whole funding process here. What 
is our evaluation of the threat, and what are our opportunities 
for deployment?
    Mr. Flory. Thank you, Mr. Chairman. I would say, with 
respect to stopping where we are, General Obering and Mr. Duma 
and General Dodgen have laid out in detail how the program is 
being managed, and the extensive testing and other measures 
that are being employed to ensure an increase in reliability of 
the system. I think we see a threat that is increasing, not 
decreasing. I think it's very unlikely that if we held off on 
deploying future interceptors that any of our adversaries would 
hold off on doing the things that are giving us concern, or as 
Senator Roberts said, keeping us awake at night.
    I think one particularly important point and I can just add 
to what I responded to Senator Reed earlier, it is true that 
for decades there was no MDS over the United States, and that 
at that time the Soviet Union and later, the People's Republic 
of China, had missile systems that could threaten the United 
States. What we did not have was regimes like the North Korean 
regime or the Iranian regime and, particularly, the new 
president of Iran, Ahmadinejad, who would eventually have 
control over weapons of this type.
    Senator Sessions. General Obering, briefly if we were to 
delay the production and deployment from the numbers we are now 
scheduled to carry out, that has a danger of increased cost 
from breaking the assembly line?
    General Obering. Yes, sir.
    Senator Sessions. Are there costs out there for delays 
also?
    General Obering. Yes, sir, and those typically can run as 
many as the equivalent of four or five interceptors in terms of 
those delay costs. But your point is a very, very good one, and 
it is one that I think we need to reinforce more and more, and 
that is we're not dealing in what we can put out the door 
today. We're dealing with what we can get out the door in the 
future--in 2 years from now, in 3 years from now, and so the 
pace that we're on, the test program we're on, the aggressive 
testing we're doing, I think will continue to support that type 
of deployment and that type of fielding in order to make sure 
that we have done as much as we possibly can do with the 
knowledge points that we have, and the money that we have to 
get the maximum capability that we can, and I think that we're 
on about the optimum balance in doing that right now.
    Senator Sessions. I think it is fair to say that we have a 
low production rate, we can't go much lower without shutting 
down the production system. Keeping at that system, in the long 
run, is going to provide us the missiles we need for our 
defense, and also keep costs per missile down.
    General Dodgen, do you believe as the combatant commander 
representative here that the delay in fielding of the GBI until 
more operationally realistic testing has occurred is a good 
idea?
    General Dodgen. Mr. Chairman, I do not think that's a good 
idea, I think where we are right now with the numbers of 
interceptors we have, our operationalizing of the system, our 
firing doctrine is more dictated by a limited inventory than it 
is by the effectiveness. We need two things to happen, and I 
think they're phased pretty well, we need the end-to-end test 
which MDA is planning for later this year, to narrow our 
uncertainty in the system, and then we need the increased 
number of interceptors to come on board, so we can start 
developing our firing doctrine to take full effect of those 
interceptors and achieve the desired kill effect that we want, 
as opposed to being limited by our inventory. Those things, I 
think, are pretty well synched up, so any delay of one would 
cause us not to be where we want to be.
    Senator Sessions. What are you hearing from the combatant 
commanders with regard to their concern about the threats 
they're facing, and the need for this system?
    General Dodgen. Senator, they've all been here and spoken 
for themselves, but I would tell you that when I think of both 
North Korea and Iran, I think there is great concern that they 
will need defensive capability for their own theaters, and it 
will have a part to play in the defense of their homelands, and 
I think there's great concern on their part, and that's very 
much reflected by the fact that there's still a considerable 
Patriot force that is stationed overseas.
    Senator Sessions. What about the status of Patriots and SM-
3 production, are we keeping pace with the needs there? Does 
this budget keep us on track, or do we need to do more?
    General Dodgen. We are comfortable, we have asked for 108 
PAC-3 missiles, we're comfortable with that, because that is 
complimented by PAC-2 gems, so we have a mix of missiles that 
gives us a robust number on the terminal force, and we will 
begin to build up PAC-3s in the out years. In addition to that, 
the number of PAC-3s is somewhat in the future, will be turned 
into THAAD missiles, and there will be a mix of those missiles 
when they're available.
    The SM-3 is just now starting to be operationalized, and 
we're doing a joint capability mixed study right now on future 
defense planning scenarios, both east and west to determine 
just how many sea-based missiles we have, it's a very exciting 
time, because the first time we'll be introducing a very 
capable maritime capability to the combatant commanders who are 
doing their operational concepts and concept of operations 
(CONOPs), so STRATCOM will do a joint capability mixed study, 
just to determine whether it's a mix of interceptors and 
systems we need for the future, and our thoughts are that will 
guide what we actually procure beyond where MDA is taking the 
numbers now.
    Senator Sessions. Thanks, General Dodgen.
    Senator Levin, I would recognize you.
    Senator Levin. Thank you, Mr. Chairman. Let me pick up on a 
question which Senator Reed was asking you, General Obering. It 
has to do with this FT-2, which is planned for later in the 
year. First of all, I believe it is different from the 
recommendation of your own MRTF in that there is going to be a 
real target in the test. I believe you were asked why you were 
doing that, if not, would you explain why you are not following 
the recommendation of your task force relative to that test?
    General Obering. Sir, as I told Senator Reed, we've learned 
quite a bit from the ground testing as well as the FT-1 we 
conducted. We also wanted to get ourselves into a posture where 
we could use an operational site, the operational configured 
interceptor, and operational radar at Beale. In the context, in 
the execution of the testing and because of the steps, all of 
the test results we've been able to analyze to date, it says 
that it is a prudent thing to do, and we have consulted with 
the task force in making those adjustments.
    Senator Levin. Did they agree with you after your 
consultation? They now agree with you?
    General Obering. Yes, sir.
    Senator Levin. Would they put that in writing? Would you 
get us their response on that?
    General Obering. Yes, sir.
    [The information referred to follows:]

    Based on assessments of the most recent Ground-based Midcourse 
Defense (GMD) flight test of the Ground-Based Interceptor (GBI) in 
December 2005, GBI ground tests, and the February 2006, flight test of 
a target across the Beale Upgraded Early Warning Radar (UEWR) test 
results, the Mission Readiness Task Force (MRTF) concurred with the 
recommendation to add a target missile to the upcoming GMD flight test 
provided that the appropriate Military Standard 1540 (MIL-STD-1540) 
qualification tests were successfully completed prior to the mission. 
MIL-STD-1540 establishes uniform definitions, environmental criteria, 
test requirements, and test methods for space vehicles, their 
subsystems, and components.
    Key to this decision was that many of the original flight test 
objectives of the upcoming test were already accomplished during the 
highly successful December and February missions. The MRTF unanimously 
agreed that the next flight test involving a GBI demonstrate 
performance of the GBI's Exoatmospheric Kill Vehicle (EKV) during the 
last few seconds prior to intercept (which can only be achieved with a 
target). The MRTF members felt adding a target to the upcoming flight 
test would allow the GMD program to gain as much knowledge as possible 
prior to the first intercept attempt (scheduled to occur later this 
year depending upon the results of the upcoming GMD flight test and the 
continued GBI ground testing).
    The members of the MRTF who participated in the decision to add a 
target to the upcoming GMD flight test of a GBI were as follows:

        <bullet> Brigadier General Pat O'Reilly
        <bullet> Mr. Don Mitchell
        <bullet> Mr. Charles A. Ordahl
        <bullet> Mr. John Silverstein

    Senator Levin. As I understand it, you are going to try, 
then, to intercept the target, is that correct?
    General Obering. No, sir. It is if an intercept occurs it 
will be a by-product of it. That it is the first time we are 
flying the interceptor out of Vandenberg. We have flown a 
target across the Beale radar, we have not flown the kill 
vehicle, this version of the kill vehicle against the target as 
it relates to the radar track information we get from the Beale 
radar, so that will be the primary objective.
    Senator Levin. I know that is your primary objective, but 
is it not an objective to intercept the target?
    General Obering. No, it is not at this time.
    Senator Levin. You are putting the target out there without 
any objective to intercept it?
    General Obering. We're putting a target out there because 
we want to be able to do the tracking of the target across the 
radar, feeding that track data into the fire control system, 
getting the interceptor into place, comparing that with the 
target characterization that is seen by the interceptor, and so 
an intercept could occur, yes, sir, but that is not the primary 
objective.
    Senator Levin. Is that a secondary objective?
    General Obering. Yes, sir, it would be.
    Senator Levin. A secondary objective?
    General Obering. Yes, sir.
    Senator Levin. That, to me, is an objective. It may be 
secondary, but it nonetheless is an objective. I think it's 
important that we note that.
    Mr. Duma, sometimes the Director of Operational Test and 
Evaluation (OT&E) is directed by Congress to certify that a 
weapons system is operationally effective. Can you certify 
today that the system that we have deployed is operationally 
effective?
    Mr. Duma. No, Senator, today I cannot do that. However, 
three tests that are upcoming for the GBS. One, as you just 
discussed, with a zero-offset fly by as the scenario, will be 
followed by two flight tests with planned intercept scenarios. 
If these three tests are successful, then I believe that we 
will have at least demonstrated the capability for the limited 
defensive operations that was discussed previously. That gives 
me some confidence that we have some repeatability, because you 
have, essentially, three very similar scenarios of increasing 
complexity.
    Senator Levin. If those tests are not successful?
    Mr. Duma. Then I would have to take a look at the test 
results. Failure would be an indicator that the system is not 
as mature as we think.
    Senator Levin. That you are not yet operationally 
effective?
    Mr. Duma. That could be an indicator, yes, sir.
    Senator Levin. Now is it possible that we are not going to 
ever be able to demonstrate operational effectiveness until 
have tests showing operational effectiveness?
    Mr. Duma. I'm sorry?
    Senator Levin. Is it possible that we are not going to be 
able to demonstrate the operational effectiveness of this 
system? Isn't that always a possibility?
    Mr. Duma. You'll never have 100 percent assurance that the 
system will work.
    Senator Levin. That is not my question. Is it possible you 
are never going to be able to certify operational 
effectiveness? Is it a possibility?
    Mr. Duma. I don't think so. I think the planned test 
program will build upon the test results and add that 
complexity so that you gain the confidence that we need to 
determine the system's operational effectiveness.
    Senator Levin. It is not possible that we will never have 
that confidence?
    Mr. Duma. As long as the program continues to develop and 
mature, we don't have that zero chance that you're asking for.
    Senator Levin. No, I'm asking whether there is a 100 
percent chance that you are going to certify that this system 
is operationally effective at some point? You're saying, yes, 
it's 100 percent chance you're going to certify this?
    Mr. Duma. I'm saying with the current program, and the test 
events scheduled, it's very likely that the system will 
demonstrate ultimately that it is effective. If those test 
results are not favorable, or the program changes direction, 
becomes unfunded and it not become a national priority anymore, 
than that's another ballgame that we're in.
    Senator Levin. Then the outcome of that ballgame would be?
    Mr. Duma. Then we wouldn't have an MDS.
    Senator Levin. We would not have an operationally effective 
MDS. It seems you're having trouble saying the words that it is 
possible that you may never be able to certify operational 
effectiveness, and it seems to me in your position, you always 
have to accept that as a possibility. It's not the goal; it may 
not be the likely outcome; but don't you have to, in your 
position, acknowledge at least the possibility that you're not 
going to be able to certify operational effectiveness of a 
system that has not gone through the test?
    Mr. Duma. Yes, I have reports I provide Congress, and if 
there are significant failures in those test reports when the 
system should be operationally effective, I can say in those 
reports that I don't believe it is operationally effective or 
suitable.
    Senator Levin. My time is expired, thank you.
    Senator Sessions. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman, and I thank the 
panel for being here today, and for your service to our 
country.
    General Obering, on page 3 of the MDA review, bullet five 
states, ''Proliferation continues in quantity and quality.`` 
Can you comment on what trends MDA is identifying to support 
that statement, and what level of sophistication of technology 
materials are being proliferated?
    General Obering. I can comment on it in general, I can't 
get into specifics because of the classification of that. I can 
tell you that we see increasing numbers of missiles that are 
being fielded, we are seeing increasing numbers of missiles in 
development, in threat or potential countries, we see 
qualitative improvements in what we believe to be the 
performance of those weapons, and we see cooperation among many 
nations that we would consider to be threatening to the United 
States' interest. That is of enough concern, and the timing of 
those, that I do believe, as I mentioned earlier in my 
testimony, there is a sense of urgency of how we're developing 
and fielding this program.
    Senator Thune. I believe that obviously missile defense 
plays an important role in our national security, and the 
concern to me is the threat that the U.S. faces from cruise 
missiles and medium-range targets. I guess it's a broader 
question, is the U.S. prepared to identify and destroy cruise 
missiles or medium-range threats that can be transported and 
launched within close proximity to the United States?
    General Obering. Sir, I cannot comment on the cruise 
missile mission because that's not my area, but on the medium-
range ballistic missiles (MRBM), that is a concern that we 
have. We believe that it is a very technically viable threat 
that we have to deal with. We are taking steps to provide us 
with sensor coverage to be able to meet that threat, and we are 
also fielding the interceptors that can handle that threat, and 
of course the positioning of those would be up to the 
warfighters and to the national leadership, but we certainly 
are building the tools to be able to address that.
    Senator Thune. I had the opportunity, General, not all that 
long ago, to go to Edwards and look at the ABL program, and 
obviously I think it's a platform that has great potential to 
deal with some of these threats we're talking about today. I 
know you covered some of this ground earlier with Senator 
Roberts, but if you could, I would be interested in knowing 
exactly what drove that decision and what impact that will have 
on the time line for fielding the system with a successful 
shoot down by 2008, and how does that effect the current cost 
projections on ABL?
    General Obering. Senator, first of all, the program has 
been making very good progress to the point where they achieved 
the knowledge points that we laid out for them in 2005. They 
have a very aggressive schedule over the next couple of years 
with the installation of the tracking laser, the airborne 
compensation laser and the high-energy modules themselves. We 
have a test program that gets the aircraft into ground testing 
this summer and flight testing with a surrogate of the high-
energy laser this fall, then we will actually modify the 
aircraft with the high-energy laser modules in 2007 for a 
resumption of flight testing, to lead to a shoot down in 2008.
    Now, having said all of that, I believe that we are going 
to learn more and more as we go along, as we have to date with 
the program. I think that there is a very high likelihood that 
while we will make steady progress, we're going to have to 
incorporate lessons learned. By the way, we're doing that right 
now, in the tearing down and re-assembling of the laser, we're 
going to have to make some adjustments based on the test 
program that we uncovered in 2005, and I wanted to make sure 
that we had allowed ourselves enough time to take advantage of 
all the lessons that we're going to learn between now and 2008, 
to be able to put that into a design package we can have 
available for the second aircraft, and that's why we thought it 
was prudent from that standpoint to delay the purchase order of 
that aircraft, in order to accommodate that design turn. What 
that means is that we will push out the availability of the 
second aircraft to about mid-decade, mid-next decade for test 
purposes, but we think it is a prudent thing to do in terms of 
being able to incorporate all the lessons learned we're going 
to be able to do over the next couple of years.
    In terms of costing, I will tell you that the ABL program 
is not mature enough at this point to try to estimate or 
guesstimate what an aircraft cost would be because of the 
modifications and the lessons we learn in the next couple of 
years and how that may effect that, and Senator, very frankly, 
we may get to a point where it is very technologically 
achievable and it's very viable technically, but we may have 
trouble making it operational. So, we have to learn that as 
well, so that's another reason why we felt it would be prudent 
to take our time as we do this.
    Senator Thune. I appreciate that answer. It seems to me 
that it's a technology that holds great promise. I know that 
we're learning more all the time.
    General Obering. Yes, sir.
    Senator Thune. My hope would be we could keep as close to 
schedule as possible, so that incorporating that technology and 
making this system--by the time we can get it rolled out and 
operational--it can do the job that it was intended to do. Like 
I said, it just seems to me, at least, that this is something 
that in light of the threats we've talked about today, it has 
great potential as a part of our readiness in the future. I 
commend you for the work that has been done on it to date, and 
encourage you to keep pressing forward with that, and let us 
know what we can do to be helpful in that regard. So thank you, 
and I thank you, Mr. Chairman.
    Senator Sessions. Thank you, we're glad to have Senator 
Nelson, a ranking member of this committee here with us. He's a 
great partner in these efforts, he understands them and cares 
about them.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. If I may have 
my opening statement entered into the record, I have been on 
the floor handling an amendment.
    Senator Sessions. We'd be delighted to make that part of 
the record.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Thank you, Mr. Chairman. Let me join you in welcoming our witnesses 
today.
    Last year, after two flight test failures, General Obering 
established an Independent Review Team and a Mission Readiness Task 
Force to help put the Ground-based Midcourse Defense (GMD) system and 
its testing program back on track. I want to commend you, General 
Obering, for taking that corrective step and for adopting their 
recommendations.
    It was the right thing to do because it is important to make the 
system work effectively. The Mission Readiness Task Force concluded 
that it was more important to use four interceptors for ground 
testing--to get the technology right--than for operational deployment. 
I agree.
    I think it is crucial that we adhere closely to their 
recommendations and plans, and not take shortcuts or diversions that 
could lead to a repeat of the problems that plagued the GMD system. As 
a recent Government Accountability Office (GAO) report points out, by 
accelerating the deployment schedule for GMD, the Missile Defense 
Agency (MDA) strayed from a knowledge-based and event driven 
acquisition program, and numerous problems resulted.
    There are three major topics I want to focus on today. First is 
testing of the Ballistic Missile Defense System. Congress has passed 
legislation for the past several years to improve our missile defense 
testing, to help ensure that the system will work in an operationally 
effective manner. That is why Congress has been pressing for more 
operationally realistic testing, and for testing that will allow us to 
characterize the operational capability of the system.
    Second, there are a number of issues relating to the GMD that need 
to be discussed. I would note that although the GMD element has not yet 
had a successful intercept test, and the Director of Operational Test 
and Evaluation says we don't have enough test information to have 
confidence in its capability, this budget request seeks long lead funds 
for the last of the 50 ground-based interceptors, which the Department 
plans to deploy in Europe.
    Third, we need to think about the issue of missile defense and 
space. Although funds are not requested in this year's budget, next 
year, the MDA expects to request funds for a space ``test bed.'' This 
issue needs to be explored deliberately and fully in public debate. 
There are a number of concerns about the potentially negative 
consequences of deploying missile defense weapons in space, and we 
should not back into such a policy by default.
    At the appropriate time, we will be able to determine if there is a 
need to go beyond our current terrestrial-based activities, whether it 
would improve our security, and whether going to space would be 
affordable. Knowing all the missile defense efforts we have under way 
now, and the threats we seek to counter, I remain deeply skeptical.
    I look forward to hearing from our witnesses.

    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Duma, last year Congress passed legislation to enhance 
the testing and evaluation of the BMD System. It is public law, 
and it requires the operational test components to create a 
plan to test and evaluate the operational capability of each 
block sequence of the BMD System, and it says that each plan is 
subject to your review and approval. It also requires that the 
Director of Operational Test and Evaluation shall report to 
Congress at the conclusion of test and evaluation for each of 
that block period of time with an assessment of the adequacy of 
the testing and the characterization of the operational 
effectiveness, the suitability, and the survivability of the 
system, and so if you would share with the committee the status 
of the implementation of this provision of the law, including 
whether the test and evaluation plan for block 2006--which 
started in January of this year and goes to the end of 2007--
whether the test and evaluation plan for that time period has 
been prepared and approved by you?
    Mr. Duma. The integrated master test plan has been 
updated--as a matter of fact, it was signed by all the parties 
concerned within the last 2 weeks. That test plan covers a 
period of 2 years, however we have been updating it on an 
annual basis. As General Obering stated, because the system is 
still in development, much of the test plan is based on the 
test results that we get, and so adjustments are made to the 
actual test events, and in some cases the objectives of those 
events, that test plan is signed.
    Now, that covers the period for the block 2006. There is 
still some work to be done in determining exactly the 
capability to be delivered in block 2006, and a CONOPs to 
employ that capability. Those efforts are still ongoing, I 
expect those to be completed, that involves the Joint 
Operational Test Agency, the MDA, and my office.
    The warfighters in STRATCOM are the ones working on the 
CONOPs. I expect at the end of the block 2006 phase, if you 
will, which will be December 2007, that we will have test 
results that I would be able to report in January of that year. 
That, I might point out that I also have two other reporting 
requirements for Congress, I submitted an unclassified report 
as part of my annual report which comes out about the same 
time, and I also have a reporting requirement that is due on 
February 15 of each year. So each year I have the ability to 
give you a status of the test program for the MDA in addition 
to the individual evaluations of a block.
    Senator Bill Nelson. Where is your characterization of the 
operational effectiveness, suitability, and survivability of 
the system that's supposed to be reported to us in Congress?
    Mr. Duma. That is due after the block 2006, which would be 
January 2008.
    Senator Bill Nelson. So you're not going to report that to 
us until that time?
    Mr. Duma. Not that particular one, but I will on an annual 
basis provide the unclassified report, part of my annual report 
and a classified report on February 15. I do that every year 
now, by a different law.
    Senator Bill Nelson. You're talking about the law on the 
Integrated Missile Test Plan?
    Mr. Duma. No, that section 234 is for block 2006. The test 
report is due to Congress upon the completion of block 2006.
    Senator Bill Nelson. Yes, and when is that test and 
evaluation plan for 2006 going to be done and reported to 
Congress?
    Mr. Duma. The test plan is prepared, that is what I just 
said, we signed within the last 2 weeks. The evaluation of the 
test results isn't due until January 2008.
    Senator Bill Nelson. Mr. Duma, you're missing the 
requirement of last year's law. You're talking about a former 
requirement of Integrated Missile Test Plan, last year's law, 
Public Law 109-163, section 234, requires the operational test 
components to create a plan to test and evaluate the 
operational capability of the BMD System, and that should be 
reported to this Congress.
    Mr. Duma. That plan is in work, that is what I said in my 
earlier statement, it involves the CONOPs, and what is 
specifically to be delivered in block 2006, that is being 
worked now. The Integrated Master Test Plan is what was just 
recently signed and approved by my office, and the Operational 
Test Agency of General Obering.
    Senator Bill Nelson. That was not my question, the 
Integrated Test Plan, the question was about the requirement of 
the law. So, you're saying you're preparing that plan now?
    Mr. Duma. That is correct.
    Senator Bill Nelson. You're going to report that plan, not 
until January 2008?
    Mr. Duma. No, no, no, no. That plan is being worked, the 
results of the test events from that plan will be reported in 
January 2008.
    Senator Bill Nelson. Okay, when are you going to report to 
this committee on when you've reviewed the plan, and assuming 
that you have approved it?
    Mr. Duma. That's in the works, I need a CONOPs from the 
warfighter, I need the capability to be delivered from the MDA. 
Those are two prerequisites to be able to complete that plan.
    Senator Bill Nelson. Okay, needless to say, you see there 
is a good deal of skepticism that we come to the table, because 
we've had people sit in front of us before and express that 
they're going to give us information, and then we don't get 
that information. I can tell you, this Senator on this 
committee is going to require that, and I will look forward, as 
you have offered in good conscience here to bring forth that 
information when you have evaluated it and share it with this 
committee.
    Mr. Duma. Senator, I'll be glad to do that.
    Senator Bill Nelson. All right.
    In a recent report on BMD, Mr. Duma, the Government 
Accountability Office (GAO) writes that, ``MDA cannot estimate 
the performance capability of block 2004 assets because it has 
not successfully completed an end-to-end test of the GMD 
element using production-representative hardware. Doubts about 
the rigor of the quality control procedures have also raised 
additional questions about the performance of the fielded GMD 
interceptors.'' Do you agree with that GAO report?
    Mr. Duma. I haven't seen that report, but I would say I do 
agree with that statement you just read. The quality control 
issues were raised at a hearing last year before this body, 
that is what caused General Obering to institute two 
independent reviews to look at that. He has taken actions to 
correct those quality problems, whether those actions are 
effective or not, we won't know until we complete the flight 
test. We had one flight test that was done in December which 
met its objectives, we have three more remaining to be able to 
complete that flight test program. There was essentially a 1-
year delay in the flight test program because of those two 
failed launches a little over a year ago.
    Senator Bill Nelson. General Obering, according to the 
recent GAO report on the BMD, because of the quality control 
problems, it's possible that unreliable parts or parts that 
were inappropriate for space applications were installed in the 
first nine interceptors that were deployed in Alaska and 
California. GAO reports that, ``An MDA audit found evidence 
that the reliability of the Exoatmospheric Kill Vehicle's (EKV) 
design could not be determined, and any estimates of its 
serviceable life are likely unsupportable, and that 
contractor's production processes are immature and that the 
contractor cannot build a consistent and reliable product.'' I 
quote, and I'm quoting the GAO report. ``This creates 
uncertainty about the performance of those interceptors, MDA 
has reportedly considered a number of options for dealing with 
this problem, including the possibility of using the missiles 
for reliability tests, or sending the interceptors back to the 
manufacturer for disassembly and re-manufacture.'' GAO reports 
that, ``Program officials have recommended that MDA remove the 
interceptors when theirs is scheduled for upgrades and replace 
any parts found to be faulty.'' So, is it possible the parts 
now in the first nine interceptors could hinder or degrade the 
performance of the interceptors if they were used 
operationally?
    General Obering. Senator, let me address that. First of 
all, I have the utmost respect for the GAO, but I will tell you 
I was not very impressed with that work. I thought that they 
extracted information and came to some conclusions that were 
not necessarily contiguous in that regard.
    Let me point specifically to the quality control issues. 
What we did was we went in and audited the contractor's 
facilities, as was indicated in the report. I have sent audit 
teams into the various plants facilities. We had one location 
that came back that was problematic and all the other ones 
across the BMD, seemed to be within reason of what you would 
expect. What we discovered in the one plant was that the EKV 
production facility was that we had a lot of what we call 
``scrap and rework.'' We would get parts and supplies in we 
would have to have reworked before they were acceptable.
    A couple of things to remember about this, first of all, 
every interceptor that is sitting in that silo in Alaska and 
California has been acceptance tested, in other words they are 
acceptance tested, the parts, before they were installed and 
before they were deployed into those silos. They were 
acceptance tested, what we call the ``maximum predicted 
environments,'' we did not do sufficient qualification testing 
for how much robustness in terms of added margin to those tests 
and that is what we've gone back through over the past year to 
go do.
    Now, to answer your question directly, anything is 
possible. Just within the last 2 months, I had all of the 
experts sitting around to include the quality control teams 
that did those audits and we walked through and said, ``Is 
there any reason why we have discovered anything that would 
cause us to begin to pull the interceptors out of the silos?'' 
The answer came back, ``No, there is not.'' We have some 
things, some processes, as I said, some accountability in terms 
of both systems, engineering, and the parts control and 
configuration management that we have much improved at the 
contractor's facilities, and better government insight into 
that. I think we've taken some steps there.
    Also, I will tell you that the FT-1, as I mentioned to 
Senator Reed, that kill vehicle and worked those up to war 
production representative, they were the configuration of 
exactly what we have in the audit today, and they performed 
exactly as we had hoped and had planned. I don't share the 
pessimism that came out of the conclusions that the GAO 
concluded from the same set of information that we had looked 
at within the agency.
    Senator Bill Nelson. You don't think there was any poor 
quality control at the manufacturing?
    General Obering. So there's no doubt, there was. There was 
poor quality control. But what I'm telling you, is I believe 
we've taken the steps and I think the contractor has taken the 
steps to address those.
    Senator Bill Nelson. Poor quality control of a critical 
component of the GMD system.
    General Obering. Yes, sir, which means we would have to go 
back and re-work that component to make sure that it met the 
acceptance test criteria before it was employed.
    Senator Bill Nelson. But as you fix this problem in the 
future, are you going to test the nonmissiles to see if they 
have the right parts installed?
    General Obering. Sir, that is part of the comprehensive 
reviews we have already been doing, they have been part of this 
process, this review, comprehensive review all along.
    Senator Bill Nelson. So the answer to that is yes?
    General Obering. Yes, sir, we know what the parts are that 
are on those vehicles.
    Senator Sessions. Mr. Duma, you might just share with us 
what your operation test and evaluation division is, and you're 
statutorily created, is that right? What are your 
responsibilities with regards to testing?
    Mr. Duma. The office was statutorily created in the mid-
1980s, I have three reporting requirements I have to oversee to 
ensure that operational testing is adequate, and that it's 
adequate to determine operational effectiveness and 
suitability. My office also received the live-fire test and 
evaluation office that was created separately by different law 
about 2 years later. That office was in a different part of the 
Department. In 1994, Congress passed a law that moved that 
office into the Operational Test and Evaluation Office. My 
responsibilities now are the adequacy of testing, operational 
effectiveness, operational suitability, and live-fire test and 
evaluation, which includes lethality and survivability.
    Senator Sessions. If you feel like a testing program is 
inadequate, is that part of the regular reports you submit to 
Congress?
    Mr. Duma. It is.
    Senator Sessions. General Obering, based upon your 
leadership on this system, do you doubt that we have a limited 
emergency capability at this point in time?
    General Obering. No, Senator, I don't doubt that, I believe 
that. Will it perform 100 percent precisely, as we had hoped? 
Not in all cases, but I believe that we do have sufficient 
confidence that the system will perform, yes, sir.
    Senator Sessions. The testing and development plans that 
you have in place were designed to make it more robust and more 
capable as the months and years go by?
    General Obering. Yes, sir. In fact, if we're successful in 
the next two flight tests, we plan to make the next one even 
more aggressive than we currently have laid out.
    Senator Sessions. Is there a CONOPs now in place for 
conducting limited defensive operations? I guess I would start 
with General Dodgen. What about that? What kind of concept do 
you have for conducting limited defensive operations?
    General Dodgen. CONOPs for limited defensive operation is 
in place, and that's been agreed to. Operational orders have 
been developed, actually the JFCC is now working on the CONOPs 
and how to fight the global system. Meaning when we have the 
extra components that are coming in the radars to the east, 
we're not building a CONOP on how to fight that system on a 
global basis. So, I think on a standpoint of limited defensive 
operation, those things have been set.
    But at this time, in answer to the question you asked me to 
address at the very beginning, which was an operational 
assessment of operational readiness, we've had the warfighters 
on the system for almost 2 years now, 24/7.
    Senator Sessions. Let's be plain, the warfighters on the 
system, that means if we detect a threat, a missile threat?
    General Dodgen. We have contingency capabilities.
    Senator Sessions. You have a system in place today?
    General Dodgen. That is correct.
    Senator Sessions. Excuse me, go ahead.
    General Dodgen. The warfighters have been on the system for 
some time. They've participated the viable piece of the way we 
work with the MDA that are operators, the soldiers and all the 
pieces of equipment are in every operational test, and every 
test that is done with the MDA, there is complete openness 
between the developmental operational activities and the 
operational activities. That creates a lot of confidence in the 
system, and the operators often identify some of the faults 
with the software that are regenerated in subsequent software 
builds. The soldiers are on the system, ready, and they 
understand the capability. A year ago, General Cartwright 
characterized the capability as a ''thin line of defense.`` 
This is all about getting better and continually getting 
better, and so software improvements into the system which 
allow us to bring extra sensors into the system, more 
interceptors into the ground, more knowledge about the 
capability of the systems add more robustness to where we are. 
I think we're at the point right now where we're getting ready 
to be able to separate developmental activities from 
operational activities because we have separated our command 
and control notes, or are getting ready to separate those 
things, that will allow us to add a great redundancy and 
robustness in very short order.
    The thing that is lacking to reduce some of the uncertainty 
so that we can gain full advantage of all of the improvements 
we've made in the system over the next year is that end-to-end 
test when that's done that will modify our operational posture. 
But we have capabilities that we have identified through the 
Secretary of Defense and the President that have called upon, 
that this Nation can act within the indications and warning, to 
safeguard us, if necessary.
    Senator Sessions. How long would it take to put the system 
on alert?
    General Dodgen. Senator, in private session I would 
certainly tell you.
    Senator Sessions. But you have those things in place? Have 
you determined what that is?
    General Dodgen. Those things are managed on an hourly 
basis, how far away you are from capability.
    Senator Sessions. I just want to drive home this issue and 
get straight to the American people, while this program is 
continuing to be developed and tested and verified, its 
capability is being determined, fully. It is now in place and 
operational and you, the combatant commander representative 
have the capacity to call on it if we're attacked by a missile, 
is that correct?
    General Dodgen. That is correct, Senator.
    Senator Sessions. General Obering, do you want to add 
anything to that?
    General Obering. No, sir, I think you said it very well, 
and General Dodgen answered it very directly.
    Senator Sessions. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. I want to 
associate myself with Senator Nelson's comments about the 
importance of stepping up to the last year's legislative 
initiatives with respect to oversight and testing. I also want 
to commend Senator Nelson because he was the architect of that 
language, thank you, Senator.
    Senator Bill Nelson. Gentlemen, if you understand some 
degree of skepticism, I want you to know General Obering, that 
your predecessor sat right there in front of this committee and 
told us at one point that we were going to have completely 
researched and developed and ready for operation an ABL, and, 
of course, that didn't turn out to be anywhere. He said within 
10 months, and that didn't turn out to be anywhere close. So 
thank you, Senator Reed, I just want you to understand some of 
the degree of skepticism.
    General Obering. Can I comment to that, please, Senator? 
That is the reason in my opening statements I hit, and why we 
have incorporated so hard, knowledge points in our program, and 
that is what we will continue to focus on and to achieve.
    Senator Reed. Thank you, General. Mr. Duma, I want to get a 
sense of where the system is today, the ballistic missile 
system. This is an operationally deployed system that has not 
been operationally tested, is that an accurate assessment?
    Mr. Duma. All of the pieces are in place, they are in the 
field, yes, sir, and it has not completed any operational 
testing.
    Senator Reed. Is there any other situation where we have 
declared a system to be operationally deployed, but we have no 
operational testing of the system?
    Mr. Duma. There are systems that have been deployed to 
tactical theaters like Iraq and Afghanistan that have been 
developed and fielded directly without operational testing. 
Those have not been what we would call Major Defense 
Acquisition Programs (MDAP).
    Senator Reed. Right, those were systems, in fact, I think 
we've deployed a lot of systems where, we tried to just drop 
counter IED and others that are just off the shelf, get it out 
there, try it--but I think that is what causes some question, 
criticism, and comment when it comes to this system. The mere 
fact that a major defense system was declared operationally 
deployed, but we haven't conducted one operational test. That 
seems to defy logic of perhaps not the experts, but certainly 
most people. There's also another clarification, the system is 
not on alert today, is that correct General Dodgen? It is not 
on alert?
    General Dodgen. It is not on alert.
    Senator Reed. So in your response to Senator Sessions, you 
would have to give warnings and indications, and then you would 
have to declare the system on alert to actually be in a posture 
to try to intercept a missile, is that correct?
    General Dodgen. I think when I say it's not on alert, what 
I say is that we haven't been ordered to alert by command 
authorities. I think we're watching indications and warning on 
a minute-by-minute basis on our operational view so we're 
getting a clear view and the combatant commanders can then 
request that it go on alert, or move to a more operationally-
ready posture.
    Senator Reed. Thank you, sir. Now let me get back to Mr. 
Duma. I think this was part of the discussion you were having 
with Senator Nelson. Even though you are the objective 
evaluator of the operational capacity of the system, the strap-
down commander could declare this even more operational 
independent of your judgment. He could say, ``Well, we're going 
to alert, and we're declaring another step.'' Is that true in 
terms of the breakdown of responsibilities?
    Mr. Duma. That is true. My role in this particular program 
is very unique. The statutes that Senator Sessions talked about 
that created my office require operational testings be 
completed on a system before it goes into full-rate production. 
Also, the Services are required to use low-rate initial 
production items that are production representative in 
operational testing. Those rules were suspended, or waived, for 
the missile defense program several years ago. In fact, the 
role of my office really is one of an advisory nature for the 
test program. Clearly they're in developmental testing, we're 
trying to make it as operationally realistic as possible.
    When the missiles failed to launch a little over a year 
ago, General Obering chartered the independent review teams and 
the Mission Readiness Task Force efforts. One of the 
realizations by the leadership in the MDA was just how early in 
development it really was. I credit them with taking a very 
prudent approach for corrective action on that, and that is 
what delayed the Flight Test Program by a year, in essence.
    But, having said all of that, there was a significant 
amount of ground testing that was done during that year. The 
most significant portion of that was involving the warfighters. 
That was one of the things that I felt needed to be done that 
was done during this last year. As I said in my opening 
statement, the warfighter understanding of the capabilities, 
the limitations, and the actual maturity of the system was 
enhanced through that ground testing. What we lack is that 
final end-to-end operational test through intercept. That just 
hasn't happened yet.
    Senator Reed. Let me ask you another question, Mr. Duma. 
That final operational test, would essentially be a salvo of at 
least two interceptors per target, handling a multiple 
engagement, maybe several warheads coming in. Is that a fair 
description of a baseline operational test?
    Mr. Duma. As the system matures, that certainly would be 
something in the realm of possibility, but what we're looking 
at to declare the limited defensive operations is something 
less than that, it is a single incoming missile with a simple 
missile, if you will. Okay, that is what the next three tests, 
that is the scenario that you're looking at, but the system is 
going to mature. For instance, there are already discussions 
going on that if those tests are successful, maybe even that 
third test in that series, we ought to be adding counter 
measures to it already, those discussions are ongoing General 
Obering and I have had those discussions, they are active in 
the test community with the MDA, and so to get to more advanced 
countermeasures, multiple launches, that's part of that 
maturation process and that is beyond the limited defensive 
operations that the next series of tests is designed to look 
at.
    General Dodgen. Senator Reed, could I draw an analogy to 
the PAC-3 system, if I may? When the PAC-3, we're going to 
constantly test our system, it could be driven by future 
threats we want to be addressed and what to go against. When 
Operation Iraqi Freedom hit, the PAC-3 system had not been 
certified for release by the operational tester, it had done 
some operational testing. The warfighter, Commander of CENTCOM 
commanded those missiles go forward to Kuwait and a conditional 
release was granted because they had not been certified. They 
went immediately into theater the next day, and were very 
successful, particularly in protecting the land component 
commanders in Kuwait. Now, I think that's an example where 
there actually had been some operational testing, but it had 
not been certified by the tester to go forward, but the 
combatant commander said, ``There's military utility here, and 
we need to deploy this.''
    Senator Reed. Expediency will always require us to do what 
we have to do, but I would be much more comfortable in a 
situation where we have some operational testing, at least, 
before we declared the system operational, and also I think 
PAC-3 is an example where Mr. Duma's agency was involved as a 
major defense acquisition, step-by-step with a robust valor. I 
think, and I must say, one of the reasons this program has 
suffered is because we have decided to do something unusual and 
take out the desk agencies from the contractor supervision. My 
time has expired, I want to thank the chairman for his 
patience.
    Senator Sessions. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Mr. Duma, this system has not had any operational testing 
and an operationally configured system has never had a 
successful intercept test. We have had a number of test-like 
failures. I understand that you have reported, and tell me if 
I'm accurate in this, that there is ``insufficient evidence to 
support a confident assessment of the systems capabilities.'' 
Is that inaccurate?
    Mr. Duma. Yes, Senator, that is accurate. The February 
report that my office submitted a year ago evaluated the 
engagement sequence groups, there were point estimates and had 
confidence intervals on them. These estimates are in the report 
that I submitted to Congress. In my report this year, I 
indicated that I couldn't change my assessment from what I 
reported a year ago, because I had no additional flight testing 
with which to change either those point estimates or those 
confidence intervals on the performance.
    Senator Levin. So, OT&E says insufficient evidence to 
support a confident assessment. That is still their position? 
Secretary Flory, you, in front of the House, said last month 
that we are confident that it could intercept a long-range 
ballistic missile. Now your OT&E Acting Director says there is 
insufficient evidence to support a confident assessment, but 
you told the House that you are confident. How do you square 
those two statements?
    Mr. Flory. Senator Levin, I looked at this question 
yesterday in preparing for this hearing, and I recall the 
discussion that took place at the last hearing, and 
particularly the testimony that was given after I testified in 
the last hearing where the word ``confidential'' was used by 
Mr. Duma, General Obering, and it became apparent that I'd used 
a word that was a term of art in the technical and testing 
community. So I decided in my testimony today not to use that 
phrase again, because I realized I had given the impression 
that I was, in effect, making a technical judgment, and what I 
said today was, based upon that reflection, that the elements 
were in place to intercept the missile.
    Senator Levin. The elements are in place where intercept is 
possible?
    Mr. Flory. Where intercept is possible. I don't have my 
exact statement in front of me.
    Senator Levin. But in terms of your confidence level, you 
are not saying you are confident that it will happen?
    Mr. Flory. I'm not making a tester's or operational 
judgment on confidence. I believe the elements are in place, I 
think it can be done, but I'm not making that kind of formal 
assessment.
    Senator Levin. First of all, I'm glad to hear that. I think 
there has been too much hype, too much exaggeration about the 
system and what it will do. It is a system which has not yet 
been operationally tested. Hopefully it will be able to have a 
capability. But in terms of confidence level that it will do 
so, that level of confidence has not been expressed yet by your 
technical people. I think it is important that you make that 
modification which you just described.
    In terms of the production of the missiles, the 
interceptors, what is the inventory objective? Objective, I 
think is the right word, I'm not sure which of our two Generals 
I should look to with that question.
    General Obering. Sir, I can tell you what we have 
programmed, we have a total of 50 interceptors programmed in 
inventory, 10 of which we would deploy to a third site.
    Senator Levin. Then it is your current plan to then 
terminate production at that point?
    General Obering. We would level off, we would not terminate 
production, we would have to continue to produce, because we're 
going to take those missiles and we're going to fire them out 
of the silos and test and replace them in their silos, so we 
would continue a production program to be able to do that.
    Senator Levin. So except for some test interceptors to fill 
the place of the ones that had been used, production would end 
in terms of regularly deployed interceptors?
    General Obering. Yes, sir, but we would keep the line such 
that if we needed to ramp up for threat reasons or for 
contingencies we could do so.
    Senator Levin. How many interceptors a year would you need 
to keep the line open? Keep it warm?
    General Obering. We're producing at about the rate of one 
every 2 months or one every month and a half, something like 
that, and that would be a warm level that we could continue to 
sustain.
    Senator Levin. You mean the current level?
    General Obering. Yes, sir.
    Senator Levin. So you would maintain the current level to 
keep the base warm?
    General Obering. That depends upon how many tests we want 
to continue to do, how many modifications we want to include. 
There are several things we are going to plan for this, we're 
going to upgrade the kill vehicle on these interceptors so we 
will have a multiple kill vehicle capability that would go on 
to the boosters that we have in the silos today and so I'm sure 
there's going to be a test program that will accommodate that. 
We'll double ramp-up our testing.
    Senator Levin. Do you know what the minimum number of 
missiles is that is required to keep the base warm?
    General Obering. We're about there, we're about there right 
now, sir.
    Senator Levin. So, you have to produce a missile and a half 
a month in order to keep your base warm?
    General Obering. Not a missile and a half a month, it would 
be about a missile every 2 months.
    Senator Levin. I'm sorry, a missile every 2 months in order 
to keep your production base warm. Which means forever, because 
if you always want to be ready then you are going to have to 
continue to have to produce one every other month.
    General Obering. As long as we want to continue that 
testing profile and continue that contingency profile, yes, 
sir.
    Senator Levin. What do they cost, these missiles?
    General Obering. They are roughly about $40 million an 
interceptor.
    Senator Levin. Okay, my time is up, thank you. Thank you, 
Mr. Chairman.
    Senator Sessions. I would like to see if we can clarify 
what we mean by not having an operational testing of this 
system. That does not mean that component parts of it haven't 
been tested, but that the system is now deployed in Alaska with 
the advanced radar warning system and that the entire system 
has not been tested as of yet, is that correct?
    General Obering. Senator, if I could answer that, and maybe 
Mr. Duma would like to chime in. Here's what we've done: We 
have successfully intercepted four or five times with the 
prototype of the kill vehicle we have in the ground, the basic 
functionality, the basic technology. We believe we've proven 
the processing power, we have the margin on the divert system, 
we have demonstrated the algorithms, we've demonstrated that 
when we put this kill vehicle in its terminal game it does a 
pretty good job.
    Senator Sessions. Now those were tests that occurred in 
October 2002?
    General Obering. 2001, 2002, in that timeframe, yes, sir.
    Senator Sessions. You actually did a hit-to-kill an 
incoming missile? Missile-to-missile?
    General Obering. Yes, we did.
    Senator Sessions. It impacted and destroyed?
    General Obering. Yes, sir, we did.
    Senator Sessions. That's exactly the same system we now 
have deployed to Alaska?
    General Obering. No, sir, we actually improved and upgraded 
the kill vehicle to make it more robust, to make it more 
producible, to make it easier to produce, obviously. We flight 
tested the booster that is in the ground, we did that 
successfully in 2003. We put it together, the kill vehicle and 
the booster for a flight test last December. So, we have done 
the fly-out of the interceptor from the silo, into the terminal 
game and that was a successful flight test in December, as I 
mentioned earlier, so successful we decided to accelerate our 
test program.
    But we had two other very important tests this past year we 
haven't really emphasized enough. One, we air-launched a target 
out of the back of a C-17 over the face of the Cobra Dane 
radar. There were many that were skeptical that we could use 
this radar in our MDS. This was an operationally realistic test 
in terms of the threat representation of the target in 
actuality, it was even more challenging than we would have 
outlined, probably, in an operationally realistic test, because 
of what the threat target represented to the radar. The radar 
performed, the operational fire control system performed, that 
is the hardware and the software that makes up the fire control 
system, and we generate a weapons test plan to intercept 
solutions on this track.
    Another major test we did against the Beale radar where we 
flew a target out of Alaska, across the face of that radar, 
just this year, in 2006--in fact, we were more than surprised 
in the sense of how much more accurate that radar was than we 
had anticipated in real-life testing. So, while we have not put 
it all together as we have said, end-to-end, we have taken the 
major functional steps of all of these components, and 
exercised or tested them at any one time.
    One thing that Mr. Duma pointed out also, I think very 
accurately, is a key element of this is the operative sitting 
of the council, how comfortable they feel with the system and 
its ability and its performance. We have done testing and 
transitioning of the system many, many times with the 
warfighter, exercised those in war games as well as exercises 
and ground tests and that is one reason they also feel 
comfortable. So, while we have not done all of the end-to-end 
testing we need to do with the operationally realistic testing 
we plan to do this year, we've certainly done as much testing 
as I believe that we needed to do to give us confidence to 
proceed. We have deployed weapons into combat before without 
even some of the level of testing we're talking about, in 
recent conflicts.
    Senator Sessions. If an incoming missile is coming, I'm 
glad you're there and we have a realistic possibility of seeing 
that missile knocked down rather than successfully hitting the 
United States.
    General Dodgen, the operational command forces are working 
with General Dodgen's team now at the T sites?
    General Dodgen. Absolutely, Senator.
    Senator Sessions. The goal would be eventually that General 
Dodgen's people would depart, and it would be operational 
completely, is that correct? I mean, that's the general 
concept?
    General Dodgen. I think given the nature of this system, I 
think there will always be a partnership between the MDA and 
the soldiers that man the system, and that partnership mandates 
that complete openness going back and forth, and I would just 
echo what General Obering said that we have transitioned this 
system to a ready state many times. We know how to do this as a 
team, so we're confident in those procedures, we have done the 
tests together and I think there is a shared confidence in the 
system.
    Senator Sessions. Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, you said that you were 
glad that they are there, and my response would be I hope 
they're there, but what I've always been taught is that you go 
through research and development first, before and then do your 
testing before something is declared operational. I hope 
they're there. General Dodgen, a few minutes ago in response to 
a question, gave another example of taking the PAC-3 and 
deploying it while it was still being tested. General Dodgen, 
that was the third generation of the Patriot missile, was it 
not?
    General Dodgen. It had been through some operational 
testing and it was fairly mature. But my point was that it had 
not been certified for release by the testing community.
    Senator Bill Nelson. But a lot different from developing a 
BMD System from scratch?
    General Dodgen. Senator Nelson, I will tell you that the 
end-to-end test for later this year is important to 
understanding our capabilities and to further our capabilities 
and increase our capabilities, and the warfighter is very much 
focused on being a part of that and understanding our 
capabilities after that.
    Senator Bill Nelson. Look, all of us want to get in the 
same place at the end of the day and that's to have a 
successful system. We're here to try to help you try to get 
there, but I want to see us come along and get to it without a 
bunch of obfuscation and false promises, which is what we seem 
to have had in the past several years.
    General Obering, before we can build a deployment site in a 
European nation, we have to first select a host nation, reach a 
formal agreement with that host nation, work out the details of 
the deployment--I understand that we have not reached such an 
agreement yes, since we have not chosen a host nation for a 
third deployment site. The GAO notes that although MDA planned 
to install a web browser in the United Kingdom in 2005 to 
provide them with situational awareness, the installation was 
delayed because DOD did not complete final policy agreements as 
scheduled. Similarly, there has been a delay in the deployment 
to Japan of the Forward-Based X-Band Portable Radar because of 
delayed negotiations with Japan on the location of the radar. 
Now, these are less complex matters than the building of an 
MDS, and the deployment of a base like Fort Greely. Tell me, is 
it possible that we will not reach agreement with a European 
nation this year on deploying the GBIs on their soil?
    General Obering. Senator, I will answer part of that, and 
then maybe Secretary Flory can answer part of that as well, and 
what I would like to do is focus on the technical aspect of 
your question. By the way, you brought up a very good point on 
the deployment of the Japanese radar, it's one thing that the 
GAO report totally failed to address. They ignored almost a 
billion dollar program in our scope of work on our sensors in 
these forward-deployed radars, and in fact we accelerated the 
deployment of the Forward-Based X-Band Radar that originally 
was based on our initial conjecture was going to be in block 6. 
We actually accelerated the delivery of that into the block 4 
timeframe. I believe that our allies, Japan, have really done a 
great job in working with us and it shows what teamwork and 
partnership can do to accelerate a program like that because of 
what we both perceive the urgency to be.
    Now, having said that, to be very honest, nobody has 
accused MDA of not being able to spend money, and we have a 
program of work loaded in the 2007 budget request that would go 
to the third site you just talked about. I believe that we can 
certainly--given the go-ahead--expend the money that we have 
planned for 2007 to do the site planning, the soil sampling, 
the facility design and layout, the legacy we have here, as you 
have said, is we've done this at Fort Greely, we've done this 
at Vandenberg, so this is not starting from scratch, we're 
hitting the ground running, here. So we have a lot of 
experience under our belt in this regard. We do have several 
nations that have expressed a strong desire to work with us on 
this, and I will let Secretary Flory answer the likelihood of 
whether we would have a decision this year.
    Mr. Flory. Thank you, General. Senator Nelson, I don't 
know, I'm not going to give you a likelihood in terms of a 
percentage, I would say that it's conceivable we might not have 
agreement, but it's not what I expect to happen. We have 
consulted with a number of countries since 2002, we are 
continuing to consult, and we're certainly working hard to have 
a decision this year.
    Senator Bill Nelson. Mr. Secretary, don't we have a problem 
that we need a third site system to be effective in defending 
Europe against an Iranian medium-range or intermediate-range 
missile?
    Mr. Flory. Senator, I'll defer to General Obering on the 
specific technical capabilities. The primary, the goals of 
deploying a system would be both to improve the defense of the 
United States, and to extend the missile defense protection to 
the countries of Europe. General Obering, if you want to get to 
the specific capabilities.
    General Obering. Yes, sir, we do need a third site to be 
able to protect our deployed forces in the region, our allies 
and our friends from an ICBM class target or a high 
intermediate-range missile class target, yes, sir, we do.
    Senator Bill Nelson. I think it's interesting to note that 
the Director of the DIA did not even mention anything about 
working on ICBMs. He said at a worldwide threat hearing in 
February that Iran's efforts were on a regional ballistic 
missile that could reach Tel Aviv. If Iran wanted to strike 
targets in Europe with ballistic missiles, it appears much more 
likely that they would develop a regional missile before they 
would develop an ICBM.
    Mr. Flory. Senator, if I could just say a word on the 
threat. The IC has assessed that Iran could develop and could 
flight test an ICBM in 2015. I mentioned earlier there's a new 
national intelligence testimony that gets into a lot more of 
the details of this in a way we can't discuss here, but we do 
have serious concerns, and I think it was the DNI who testified 
before this committee, I'd have to double-check that, about the 
serious concern posed by Iran's pursuit both of nuclear 
capability and long-range ballistic missiles.
    Senator Sessions. I think you've given us the rationale of 
the deployment of a European-based missile. I would just say 
that Iran or any other hostile nation in that area needs to 
know that the United States and its allies are not going to 
remain vulnerable to attack, from that kind of missile attack 
that can include a WMD as a part of it, and that we have that 
capability. I think we will have support in Europe to do that 
and I think as a matter of policy we have to continue to 
proceed with that concept. Secretary Flory, I guess, would you 
have any comments about that?
    Mr. Flory. Mr. Chairman, I agree fully with what you said, 
and I would make the point that we have concerns about Iran's 
missile capabilities on several levels: its regional 
capabilities, its capabilities that could allow it to threaten 
Europe, its capabilities that could allow it to threaten the 
United States. It's important to recognize the capability, 
assuming Iran continues to move in the direction it's going of 
developing greater and greater capabilities.
    Iran's ability to threaten Europe would also be a threat 
both to European populations and European countries, it would 
also be a threat to the United States and our ability to 
conduct a robust foreign policy in defense of our interests. 
For example, if the Iranian government were able to hold Europe 
at risk, it wouldn't be necessary to hold the U.S. itself at 
risk, in order to have a significant deterrent effect on the 
United States in trying to blackmail the United States from not 
carrying out any particular action or set of actions that we 
might feel we needed to carry out in order to defend out 
interests in the Middle East. So, the gradual extension of the 
Iranian missile shadow, eventually the Iranian nuclear shadow, 
is something that every time it moves outward, it further 
threatens our friends and allies. Also, it further constraints 
our ability.
    Senator Sessions. Thank you, you said that very well, and 
that is the way I see it, and we don't need our friends and 
allies held hostage to the legitimate national security of the 
United States. Senator Nelson, do you have some more? Then 
we'll wrap up.
    Senator Bill Nelson. Yes, sir. General Dodgen, could you 
tell us the remaining issues that need to be resolved before 
the system would be placed on alert?
    General Dodgen. I would say that as a minimum the software 
build we are currently in which would allow us to expand the 
system and create a redundancy needs to be completed and that 
will be done very quickly. There are other considerations, 
whether or not a complete end-to-end test needs to be done 
before we put in on full-time alert is a different matter but 
what I am telling you is the command and control issues, the 
ability to go to that full-time alert posture will be set very 
quickly and then I think that's the minimum that is probably 
necessary. But the system will always get better, Senator, and 
I appreciate your interest in pushing us down that road.
    Senator Bill Nelson. What about the sensor integration 
issues?
    General Dodgen. I think that is tied to the software 
pieces, I think when you have the software ready, then you can 
bring the forward-deployed sensors in and get those tested and 
when those things are done, I include that as a part of that 
command and control software build, when that is done, I 
consider that the minimum to move forward.
    Senator Bill Nelson. So your conclusion is that you get the 
software development like you want it and then General 
Cartwright is going to be ready to recommend that the system be 
placed on alert?
    General Dodgen. I can't speak for General Cartwright, but I 
would say that. In my opinion, those things of getting those 
extra sensors in and creating that look east and west, and 
having that redundancy in our command and control system so we 
can continue concurrent development and operations is vital to 
us going to full-time defensive operations. The qualitative 
piece will always be debated, Senator.
    Senator Bill Nelson. We will follow that up with General 
Cartwright all right.
    General Obering, I want to talk to you about space-based 
interceptors. In your March 20 presentation to a conference, 
you asked, ``Do we need to go to space with interceptors?'' 
Then you also asked if a space layer would significantly 
enhance system performance and responsiveness. Will 
terrestrial-base BMD assets be sufficient to deal with 
increasingly sophisticated and shifting threats? I think these 
are legitimate questions, this is a significant issue. Now, the 
question is, can we afford it? We already have a great deal of 
missile defense activity taking place to handle the threats, 
we're concerned about the possibility of North Korea and Iran 
developing, as we discussed here, long-range ballistic missiles 
and deploying a limited number of the missiles. If long-range 
ballistic missile threat remains limited, and if we're not 
trying to build a capability to defeat the ballistic missiles 
of Russia and China, do you think that the terrestrial-based 
system should be adequate to accomplish the mission? Instead of 
a space-based?
    General Obering. Sir, that's a good question. The reason 
why we would add a space-based layer, first of all, we think it 
is very important that we have the sensing layer in space. 
Because we believe it is the most cost-effective way to go 
where you can get precision-tracking sensors in space to allow 
you the flexibility to cover the globe, so to speak, with 
respect to any emerging threat in the future.
    The next question becomes, if you think you can predict 
with certainty what threats we're going to face over the next 
20 or 30 years, then we can certainly keep populating the world 
with terrestrial-based and fixed-site interceptors and sensors. 
If we believe that we're not going to be able to do that very 
accurately, then we believe that a very modest space-based 
layer may be the way to go there. But there are some questions 
to ask and there are some questions to answer about the 
technical viability of that, and that is why we believe that 
before we take that step we ought to do some experimentation to 
understand what it is capable and what it is not capable of in 
that regard.
    Senator Bill Nelson. Is it U.S. policy to have a system to 
defeat the long-range missiles of Russia and China?
    General Obering. Sir, the system we have fielded today does 
not address a threat from Russia nor Chinese missiles, it does 
not do that. We believe in our development program it's always 
prudent because you make sure that you can at least understand 
where these various countries are headed from a technical 
perspective, and we try to make sure that we do that in a 
development program, but we're not fielding a system today to 
address those countries.
    Senator Bill Nelson. So the present system is not part of a 
U.S. policy that would defeat the long-range missiles of Russia 
and China?
    General Obering. No, sir.
    Senator Bill Nelson. General, in your prepared statement, 
you discuss examining tradeoffs to determine what to fund, and 
that is what we're basically trying to get to here. What's 
Congress going to decide with regard to the funding of all of 
this? One of the areas to examine is the diversity of basing 
modes, including space. Does your statement imply that you're 
already planning on using those layers in space as a basing 
mode for the missile defense?
    General Obering. No, sir. It does imply that from a 
sensor's perspective as well as from whether you're talking 
about sea or land-based as well, but we do not have a space-
based interceptor program laid into our program today.
    Senator Bill Nelson. Can you assure this subcommittee that 
you do not have any plans to place a BMD in space?
    General Obering. As we're sitting here today, Senator, I do 
not. Now, that does not mean that we may not come back to you 
tomorrow, based upon where we would like to take this 
capability, but as we're sitting here today, no, we do not.
    Senator Bill Nelson. Do you have any plans to put a kill 
vehicle in a N-Fire satellite?
    General Obering. I wish we could have, sir, but we're not 
going to be able to. The kill vehicle we were going to put on 
that experimental platform was not mature enough and was not 
ready, so we replaced it with a communications terminal.
    Senator Bill Nelson. Last year, I asked the Under Secretary 
for Acquisition to explain the unbudgeted out-year funding 
wedge that appeared in fiscal year 2006. His answer was 
basically that the projected funds would be paid by the 
Services for deployment of certain systems. This year we see 
the deployment funding wedge again, starting in 2008 with a 
notation that it suggest it will be for deployment. Can you 
explain what the funding line is supposed to represent? Whether 
it's actually budgeted or programmed?
    General Obering. Yes, sir. What that's supposed to 
represent is a departmental commitment that anywhere from $1.5 
to $2 billion in that vicinity will be allocated for deployment 
and for fielding and sustainment of the system and that is 
about what we've been targeting and what we've been tracking, 
too, but the Department also likes to make us work for our 
money, so that is why you see that notation like that, is 
because we have to achieve our knowledge points and achieve the 
progress we need to before they allocate that to our budget.
    Senator Bill Nelson. You are a key person in this whole 
thing, and you posed the question at the March conference that 
you spoke to, saying how much defense is enough? So, what is 
your sense of how much is enough?
    General Obering. Senator, for what we are facing today, and 
from where I sit today, the perspective lies, I think that the 
allocation by the Department, by the President, the missile 
defense is about right. I think it will allow us to keep pace 
with the rogue nation threats we've talked about, that we see 
developing on our TVs every day. I believe that we have it 
about right with respect to the balance between fielding, 
sustainment, and development of future capabilities for the 
system, but we will have to continually evaluate that as we go 
along, but from where I sit today I am pretty comfortable with 
where that investment is, which is not a very large percentage 
of our overall defense budget.
    Senator Bill Nelson. This committee wants to see that 
successful test.
    General Obering. Yes, sir, so do I.
    Senator Sessions. Thank you, Senator Nelson.
    Mr. Flory. Just to make it clear, I do too.
    Senator Sessions. Mr. Duma, you're an objective evaluator.
    Mr. Duma. I'll take the results of the test and report it.
    Senator Sessions. This has been a very good hearing. I 
think we've had a very interesting interchange about a part of 
our defense posture that is very important. We thank you, each 
of you, for the time and commitment you have given to it. It's 
important, I believe, to our national defense, and I believe 
we're on track. I believe the fundamentals of this program have 
been clearly proven and that the technology is there, it's just 
going to be a challenge of bringing it all together in this 
system and proving the system is workable, and continuing to 
enhance that capability as the threats continue to increase. 
So, we thank you for that, we will keep the hearing open for 
written questions for 48 hours.
    Senator Sessions. I would note, General Obering and General 
Dodgen, that I will be submitting some questions concerning 
BRAC and how we're moving along with that, we've talked about 
that previously. Personally, I appreciate your forthcoming 
attitude about that. We would like to see BRAC, once we've made 
these commitments, stay on track to full completion.
    Thank you, if there's nothing else, we will adjourn.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                           TRANSITION ISSUES

    1. Senator Sessions. General Dodgen and General Obering, a 
September 2005 Government Accountability Office report notes that 
``there is uncertainty as to which assets may eventually be transferred 
to each military Service and under what conditions those transfers 
should occur. This uncertainty makes it difficult for the Services to 
plan to address the requirements of Department of Defense (DOD) 
acquisition regulations and realign their budgets to support the 
missile defense mission.''
    This uncertainty has implications for the fielding of missile 
defense capabilities to the warfighter. For example, the Missile 
Defense Agency (MDA) plans to build only 48 Theater High-Altitude Area 
Defense (THAAD) missiles, with the assumption that the Army will 
procure further missiles. Yet the Army has no funding for THAAD in its 
Future Years Defense Plan (FYDP). Likewise, the MDA has reduced its 
deliveries of the sea-based interceptor (SM-3) from 100 to 
approximately 80 over the FYDP, yet there is no sign that the Navy 
plans to procure additional SM-3 missiles.
    If the Services don't start to budget for missile defense, the MDA 
will have its research and development budget increasingly whittled 
down as deliveries of missile defense capabilities capture a larger 
share of the missile defense budget. Who in the DOD can assure us that 
the Services will start to budget for the procurement and operations of 
missile defense capabilities?
    General Dodgen. The Department continues to work through the 
decisions to ensure an effective layered missile defense system is 
fielded to protect our Nation and deployed forces. Many critical 
decisions have already been decided and major accomplishments have been 
realized. For instance, funding for manning and maintenance of the 
Ground-Based Midcourse Defense System at Fort Greely as well as the 
initial fire units of the Terminal High Altitude Air Defense 
Operational System are part of the Army's FYDP. Total funding 
requirements for these programs will continue to be a shared MDA and 
Army responsibility.
    Using its Unified Command Plan authority to advocate for 
warfighters' missile defense capability, United States Strategic 
Command (STRATCOM) has initiated the Joint Capability Mix (JCM) study 
to determine the optimal mix of sensor and weapon assets to achieve 
desired operational effects necessary for an effective global missile 
defense. The JCM study, which will be updated annually to identify 
necessary capability mixes need by the warfighters, is supported by the 
Geographical Combatant Commands (GCC), Joint Staff, and the Services.
    A major goal of the initial JCM is to address the most pressing 
funding issues in the 08-13 FYDP. While this year's JCM is still being 
worked, the emerging results indicate the significant value of the 
upper-tier systems (SM-3 and THAAD) in all GCCs' areas of 
responsibility. While the exact details of transition may not be 
finalized in this budget cycle, JCM results will be used to ensure we 
have continuity in these programs as we build a robust capability.
    General Obering. I can assure you that the Department, MDA, and the 
Services are analyzing what capabilities to buy, when to transition 
them, and when to program the resources necessary to do so. General 
Dodgen initiated a capability mix study last year to determine the 
right combinations of missile defense capabilities we should buy. The 
Joint Functional Component Command-Integrated Missile Defense is 
conducting the study and we expect their results later this year. The 
study analyzes both the threat and the appropriate combinations of 
interceptors and sensors necessary to counter that threat in 2012, 
2015, and 2020. The study will also identify key decision points to 
influence budgeting for the fiscal years 2008-2013 FYDP and the fiscal 
years 2010-2015 FYDP.
    Since January 2005, we have aggressively engaged our Ballistic 
Missile Defense System (BMDS) stakeholders--the Services, the combatant 
commands, and Office of the Secretary of Defense (OSD) staff, regarding 
when to transition and when to program the resources. We have developed 
our first transition plan that addresses the sufficient lead time 
necessary for the Services to procure, operate, and sustain the BMDS. 
In April 2006, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics requested the Services concur with the plan 
and identify issues needing further resolution.

                       KINETIC ENERGY INTERCEPTOR

    2. Senator Sessions. General Obering, your testimony notes that MDA 
is requesting $984 million in fiscal year 2007 to preserve decision 
flexibility with respect to the two boost phase programs, Airborne 
Laser (ABL) and Kinetic Energy Interceptor (KEI). If both ABL and KEI 
achieve their key knowledge points, how do you decide which system to 
buy?
    General Obering. If both ABL and KEI succeed in achieving their key 
knowledge points, and if they both prove to be cost effective, ABL will 
become the boost phase element of the BMDS and land-based KEI with 
Multiple Kill Vehicle (MKV) will become the mobile upgrade to the 
midcourse element.

    3. Senator Sessions. General Obering, would you consider going 
forward with both?
    General Obering. If both ABL and KEI succeed in achieving their key 
knowledge points, and if they both prove to be cost effective, ABL will 
become the boost phase element of the BMDS and land-based KEI with MKV 
will become the mobile upgrade to the midcourse element.

    4. Senator Sessions. General Obering, could one consider KEI in a 
broader context as the block upgrade to current interceptors like 
Ground-Based Interceptor (GBI) and SM-3?
    General Obering. The mobile KEI capabilities complement our fixed 
site GBI and sea-based SM-3 interceptor investments. The MDA is 
pursuing the KEI to fill BMDS boost/ascent and midcourse phase 
performance gaps that require a mobile, high acceleration and heavy 
lift booster as an enabling capability. Our initial focus is a land-
based KEI with a future evolution option of sea-basing. We are working 
with the Navy in fiscal year 2006 and fiscal year 2007 to select the 
best value sea-based platform for KEI integration. This mobile booster 
capability cannot be achieved via modifications to the existing GBI or 
SM-3 systems. We need a new design, based on mature component 
technologies, to perform the boost/ascent phase mission; we also need a 
range of high-payoff mobile midcourse defense responses, such as a 
forward-based KEI to deliver heavy payloads such as MKV or other 
advanced discrimination payloads that engage the threat early in its 
flight prior to subsequent GBI or SM-3 shots. The early boost/ascent 
and midcourse shots that the KEI capability offers is an important 
evolutionary element or our layered defense strategy to keep pace with 
the threat.

    5. Senator Sessions. General Obering, the fiscal year 2007 budget 
request for KEI ($406 million) is almost double last year's 
appropriation. Can you execute such a steep increase?
    General Obering. Yes. I am very confident we can execute the budget 
request and deliver the promised products. The KEI program enters a 
period of significant hardware development and test next year. Booster 
flight detailed design, long lead procurements, avionics ground tests, 
and four rocket motor static fires account for a significant portion of 
the 2007 budget request. We are also continuing a series of important 
fire control tests to prove out our capability to engage ballistic 
missiles with kinetic weapons in the boost and ascent phases of flight. 
In addition, the program is executing critical systems engineering and 
test infrastructure work across all the integrated product teams 
leading to a System Design Review event in July 2007. Our KEI team 
(Government, prime contractor, and suppliers) has a detailed plan in 
place for executing the fiscal year 2007 work packages. All fiscal year 
2007 activities and risk reduction tie to the agency's 2008 knowledge-
based decision point.

                     CONCURRENT TEST AND OPERATIONS

    6. Senator Sessions. Mr. Duma, today, if we need to bring the 
Ground-Based Missile Defense (GMD) system into alert status, this means 
the system cannot be used for testing. Maintaining both alert status 
and a testing program places increasing strain on man and machine. Your 
written testimony notes that ``Over the long term, MDA should 
incrementally develop a capability to support concurrent testing and 
operations. . .'' Why do you say that?
    Mr. Duma. The capability to test and train on the operational 
configured GMD system as it evolves is critical to ensuring the 
effectiveness, suitability, and readiness of the integrated fielded 
capability. Currently, MDA has funded additional equipment in fiscal 
year 2006 that will allow the GMD element to achieve a limited initial 
concurrent test and operations capability. Collectively, we must 
define, fund, develop, and employ a concurrent test and operations 
capability for the full BMDS. The full BMDS capability should be 
similar in concept to the capability that the Cheyenne Mountain Upgrade 
program acquired and used for training and testing the ``on-line'' 
Integrated Tactical Warning and Attack Assessment mission capability. I 
support a solution that provides robust end-to-end system-level testing 
that evaluates the full tactical hardware and software. The concurrent 
test and operations solution should allow MDA to test the fully 
integrated operational system, flight test interceptors, and launch 
equipment using warfighters and operational tactics, techniques, and 
procedures, while the combatant commands maintain an on-alert posture 
for the BMDS.

    7. Senator Sessions. Mr. Duma, shouldn't we have this capability as 
soon as possible to ensure the operational effectiveness of the GMD 
system, even while we continue to test to improve the system?
    Mr. Duma. Yes. In fact, the GMD element has funded additional 
equipment in fiscal year 2006 that will allow the GMD element to 
achieve a limited initial concurrent test and operations capability. 
However, as MDA integrates additional defensive capability into BMDS, a 
corresponding concurrent test and operations capability should be 
developed and employed. This concurrent test and operations capability 
must reflect the operational configuration of the full BMDS capability.

              BASE REALIGNMENT AND CLOSURE RELATED EFFORTS

    8. Senator Sessions. General Dodgen, please provide me a current 
status of your base realignment and closure (BRAC) related efforts and 
your move to Redstone Arsenal.
    General Dodgen. We are making rapid progress in complying with the 
BRAC directive to relocate the U.S. Army Space and Missile Defense 
headquarters element to Redstone Arsenal, Alabama. Since the command 
presently occupies the initial facility at the Von Braun Complex on 
Redstone Arsenal, our relocation is not slowed due to construction or 
leasing of necessary facilities. We have developed an implementation 
plan that takes care of our employees and ensures continuity of 
operations for the command. Rotating military personnel, along with 
civilians desiring to move with the command, will start to report to 
Redstone this summer. We anticipate compliance with the BRAC directive 
by 30 September 2007.

    9. Senator Sessions. General Obering, would you comment on the 
current status of BRAC preparation undertaken by the MDA. I know your 
task is much larger than General Dodgen's. Specifically, are you aware 
of a special emergency military construction (MILCON) supplemental 
designed to provide you more funds for your projects in the FYDP? I do 
not believe there is such a thing.
    General Obering. The MDA is committed to implementing the BRAC 
initiatives. We are working with the DOD and the Army Corps of 
Engineers to develop a realistic BRAC MILCON funding request to support 
the necessary construction at Redstone Arsenal, Alabama and Fort 
Belvoir, Virginia to accommodate BRAC move requirements. We are not 
aware of any special emergency military construction supplemental 
designed to provide MDA more funds for BRAC projects.

    10. Senator Sessions. General Obering, what are your MILCON 
concerns at this time impacting execution in fiscal year 2008?
    General Obering. The MDA is committed to implementing its BRAC 
recommendation within the statutory 6-year implementation period. We 
are working with the DOD and the Army to develop an implementation plan 
to both define the requirement and establish its phasing.

    11. Senator Sessions. General Obering, you and I work closely 
together, can we expect to have all the money we need in the fiscal 
year 2008 MILCON budget to cover the three buildings required to house 
the MDA and Redstone Arsenal?
    General Obering. The Department is committed to fully funding all 
BRAC recommendations.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
             possibility that gmd testing will not succeed
    12. Senator Levin. Mr. Duma, at the hearing there was some 
confusion about a question I asked concerning whether it is possible 
that the GMD test program will not demonstrate success, and thus will 
not provide confidence that the system is operationally effective. Just 
as there is a possibility that the testing will prove successful, is 
there a possibility that it will not prove successful, and that it will 
not demonstrate that it is operationally effective?
    Mr. Duma. Yes, there is always a possibility that testing of any 
acquisition program will show that it is not effective and suitable.

                      DOD INSPECTOR GENERAL REPORT

    13. Senator Levin. General Obering, a recent DOD Inspector General 
(IG) report concluded, among other things, that the MDA ``had not 
completed a systems engineering plan or planned fully for system 
sustainment. Therefore, the MDA is at risk of not successfully 
developing an integrated BMDS.'' There are other findings and 
recommendations in the report. Given the hundreds of millions of 
dollars that the MDA spends on systems engineering, and the primacy of 
the objective to develop an integrated missile defense system, this 
appears to be a remarkable finding. Can you explain how these lapses in 
system engineering planning occurred and what you are doing to resolve 
them?
    General Obering. The MDA takes seriously the recommendations 
contained in the DOD IG's report. In our reply of 3 April 2006, MDA 
noted that MDA Systems Engineering developed an initial BMDS Systems 
Engineering Process to reflect a capability-based, spiral acquisition 
methodology--quite unlike other traditional processes. The DOD IG 
concurred with our comments and stated MDA provided systems engineering 
guidance to the elements of the BMDS.
    This process was implemented for the BMDS as part of Block 04. In 
collaboration with the BMDS elements, this process was modified, 
through the MDA Configuration Control Board, for BMDS Block 06 and is 
being documented in the BMDS System Engineering Plan that will be 
released this spring. When released, the plan will be distributed 
agency-wide to reestablish consistent guidance across the BMDS.

    14. Senator Levin. General Obering, have you provided your 
responses to the IG's office, as was requested by April 3?
    General Obering. Yes. On 3 April 2006 MDA provided a full response 
to the DOD IG to the Final Audit Report #D-2006-060 for the Audit of 
Systems Engineering Planning for the BMDS.

    15. Senator Levin. General Obering, the report also indicates that 
MDA revised its ``policy so that auditors from the DOD Office of IG 
receive expeditious and unrestricted access to documents in future 
audits.'' Was it MDA policy previously not to provide such expeditious 
and unrestricted access to IG auditors?
    General Obering. No. MDA policy is, and has always been, to 
cooperate with audit agencies, respond constructively and promptly, and 
take appropriate corrective actions based on audit agencies' reports. 
Additionally, it is MDA policy that all MDA staff cooperates with 
auditors and provides accurate, complete information pertinent to the 
subject under review and responds expeditiously to audit agencies' 
requests.

                        SPACE-BASED BMD WEAPONS

    16. Senator Levin. General Obering, does the planned funding for 
the space ``test bed'' put the country on a course to deploy weapons in 
space?
    General Obering. Developing a space test bed does not necessarily 
put the United States on a course to deploy weapons in space. We need 
to integrate space capabilities into the BMDS in order to ensure global 
access and meet the evolving threat. The space test bed will allow us 
to assess the ability of existing and future space systems to support 
the missile defense mission area, particularly in the areas of global 
communications and sensor capability. These systems will have value to 
the BMDS regardless of any particular interceptor basing mode.
    We also plan to explore the addition of a space-based defensive 
layer to complement the evolutionary BMDS. We believe that a mix of 
terrestrial and space-basing offers the most effective global defense 
against ballistic missiles. Initially, funding will be used to conduct 
focused sensor and communications experiments demonstrating the 
viability of space based capabilities for the BMDS. MDA believes it is 
prudent to conduct experimentation to understand what it is capable and 
what is not capable in that regard.

                        COOPERATION WITH RUSSIA

    17. Senator Levin. Secretary Flory, your prepared testimony states 
that ``we are negotiating a Defense Technical Cooperation Agreement 
with Russia to facilitate both government-to-government as well as 
industry-to-industry missile defense cooperation, while we continue to 
seek practical areas of cooperation with Russia on a bilateral basis as 
well as in the NATO-Russia context.'' We have not yet had any 
substantial success in such cooperation. Section 1226 of last year's 
National Defense Authorization Act expressed the support of Congress 
for such cooperation, and suggested a number of specific ideas. What 
has the Department done on those ideas, and what progress do you expect 
from the current efforts?
    Mr. Duma. The Russian Government has told us that they do not want 
to agree to any missile defense cooperative projects until both sides 
agree on a Defense Technical Cooperation Agreement. The USG has 
respected those wishes.
    In the meantime, the DOD has pursued several transparency 
initiatives. In September 2005, we informed the Russian Government 
about an upcoming test of the U.S. missile defense system because the 
flight path of the test missile was relatively close to Russian 
territory. DOD invited the Russian Government to send an official to 
observe the test and to receive a briefing. Defense Minister Ivanov 
subsequently sent a message to Secretary Rumsfeld thanking him for 
inviting an observer and stating that such concrete steps demonstrated 
a new level of trust in the relationship between the two armed forces. 
In addition, DOD has regularly briefed senior Russian officials on our 
missile defense programs.
    DOD has also pursued a series of missile defense exercises with the 
Russian armed forces. These exercises alternate between Moscow and the 
United States. Their purpose is to establish procedures that will allow 
both militaries to operate missile defenses cooperatively in the event 
that they deploy under combat conditions in the same theatre. Hundreds 
of military personnel have participated in these exercises on both 
sides.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                         SECTION 234 TEST PLAN

    18. Senator Bill Nelson. Mr. Duma, at the hearing there seemed to 
be some confusion on the issue of the question on the status of section 
234 of Public Law 109-163. My question related to the status of 
implementation of the test plan for Block 2006, as required by section 
234, rather than the Integrated Master Test Plan. Since we are already 
in Block 06, the test plan should be available to influence the testing 
activities for Block 2006. What is the current status of the effort to 
prepare the test plan and who is participating?
    Mr. Duma. The Service Operational Test Agencies prepared the 
Ballistic Missile Defense Operational Assessment Plan, in coordination 
with my office and the MDA. I approved the plan on June 30, 2006, and 
sent copies to the Secretary of Defense and the Defense Committees.

    19. Senator Bill Nelson. Mr. Duma, is there any current holdup to 
the preparation of the plan? If so, what is it?
    Mr. Duma. No. The Service Operational Test Agencies prepared the 
Ballistic Missile Defense Operational Assessment Plan, in coordination 
with my office and the MDA. I approved the plan on June 30, 2006, and 
sent copies to the Secretary of Defense and the Defense Committees.

    20. Senator Bill Nelson. Mr. Duma, when do you expect to receive 
the plan for your review and approval? Please notify the committee when 
you have received the plan, when you have approved the plan (assuming 
you do), and please send a copy of the approved plan.
    Mr. Duma. The Service Operational Test Agencies prepared the 
Ballistic Missile Defense Operational Assessment Plan, in coordination 
with my office and the MDA. I approved the plan on June 30, 2006, and 
sent copies to the Secretary of Defense and the Defense Committees.

                     EUROPEAN ``THIRD SITE'' ISSUES

    21. Senator Bill Nelson. General Obering, the fiscal year 2007 
budget request includes $119 million in funding for a number of 
activities associated with designing and building a third deployment 
site for GBIs for the GMD system, including long-lead funds for 10 
interceptors to deploy in Europe (GBIs 41-50). What is the total 
estimated cost of building the third site, building and deploying the 
10 interceptors, and deploying the associated radars that would operate 
in conjunction with the interceptors?
    General Obering. Total costs associated with the planned European 
Activities are:

        <bullet> $1,650 million for European Missile Field including:

                <bullet> $317 million for Launch Complex Hardware and 
                Site Activation Support (Procurement and Installation 
                of Silos, Launch Support Equipment), Interceptor 
                Emplacement
                <bullet> $141 million for Communications Equipment and 
                Connectivity to the GMD Fire Control/Communication 
                Network to Include Satellite and Secure Communication
                <bullet> $669 million for Missile Field Construction: 
                Planning and Design of the Site, Site Preparation, 
                Construction of Supporting Facilities and Primary 
                Mission Facilities
                <bullet> $358 million for Government Furnished 
                Equipment, Services, Management, and Program Protection
                <bullet> $165 million for System Engineering, Sub-
                System Checkout Testing, Embedded Test Node, and System 
                Test Lab Upgrade

        <bullet> $484 million for Block 2010 GBIs (Procurement and 
        Integration of 10 Kill Vehicles and 10 Boosters)
        <bullet> $603 million is the current estimated costs for C2BMC, 
        from fiscal years 2008-2011. This cost includes development of 
        the site; equipment installation costs; procurement or 
        connection of the Defense Satellite Communication System 
        (DSCS); and operation and support costs
        <bullet> $220 million is the current estimated costs to 
        upgrade, transport, and site the GBR-P to the European Site. 
        However, funding for this effort is not contained in the fiscal 
        year 2007 President's budget submit
        <bullet> $46.4 million is the current estimated costs to 
        deployment and site construction of FBX-T

    Finally, the success of the European Site requires the use of a 
midcourse sensor (GBR-P) or a forward based radar (FBX-T) working in 
concert with forward deployed interceptors. Optimally, all three 
elements, the European Site interceptor field, the midcourse sensor, 
and a forward-based radar, provide the best missile defense coverage 
for the U.S. and European friends and allies. However, a forward based 
radar, deployed in the European area of operations as a stand-alone 
system, still significantly enhances U.S. based interceptor fields' 
(Fort Greely and Vandenberg Air Force Bases) ability to defend against 
emerging ballistic missile threats within the region.

    22. Senator Bill Nelson. General Obering, is it correct that the 
United States is expecting to pay for these costs, other than some in-
kind contributions provided by the relevant host nation?
    General Obering. Yes. The costs for the missile defense site in 
Europe we have provided you will be paid by the United States.

    23. Senator Bill Nelson. General Obering, which nations is the 
system supposed to protect against a potential future Iranian long-
range missile threat?
    General Obering. A European third GBI site will protect the United 
States against a potential future Iranian long-range ballistic missile 
threat (range greater than 5,500 kilometers) and Europe against both a 
potential future Iranian intermediate range ballistic missile threat 
(range from 3,000 to 5,500 kilometers) and also some medium-range 
ballistic missile threats (approximate ranges of 2,500 to 3,000 
kilometers). The amount of protection is dependent both on the 
placement of the site and on the placement of a search and track sensor 
on the European continent.

    24. Senator Bill Nelson. General Obering, is it the U.S., is it 
part of Europe, or a combination?
    General Obering. It is a combination of protection of both the 
United States and Europe. A European third GBI site will protect the 
United States against a potential future Iranian long-range ballistic 
missile threat (range greater than 5,500 kilometers) and Europe against 
both a potential future Iranian intermediate range ballistic missile 
threat (range from 3,000 to 5,500 kilometers) and also some medium 
range ballistic missile threats (approximate ranges of 2,500 to 3,000 
kilometers). The amount of protection is dependent both on the 
placement of the interceptor site and on the forward placement of a 
search and track sensor on the European continent.

          EUROPEAN GBI EFFECTIVENESS AGAINST A THEATER MISSILE

    25. Senator Bill Nelson. General Obering, if Iran wanted to strike 
targets in Europe with ballistic missiles, it appears that they could 
develop a regional missile before they would develop an 
intercontinental missile. Would the GMD/GBI third site system be 
effective in defending Europe against Iranian medium-range or 
intermediate-range missiles?
    General Obering. It is reasonable to expect that Iran would develop 
a regional ballistic missile before they would develop an 
intercontinental ballistic missile (ICBM) (range greater than 5,500 
kilometers). A regional ballistic missile would be the equivalent of 
what MDA defines as intermediate range ballistic missiles (range from 
3,000 to 5,500 kilometers) and medium range ballistic missiles (range 
from 1,000 to 3,000 kilometers). A European GBI site would be effective 
in defending Europe against Iranian regional ballistic missiles 
depending on the range. The GBI could defend against Iranian 
intermediate range ballistic missiles (range from 3,000 to 5,500 
kilometers) and some medium range ballistic missiles (approximately 
2,500 to 3,000 kilometers). Other BMDS assets such as THAAD and Aegis 
BMD do provide defense against medium-range ballistic missiles 
including those in the range of 1,000 to 2,000 kilometers.

    ROGUE INTERCONTINENTAL BALLISTIC MISSILE THREAT TO UNITED STATES

    26. Senator Bill Nelson. General Obering and General Dodgen, at our 
worldwide threats hearing in February, the Director of National 
Intelligence (DNI), Ambassador Negroponte, and the Director of the 
Defense Intelligence Agency (DDIA), General Maples, did not even 
mention in their prepared testimony the efforts of North Korea or Iran 
to develop long-range ballistic missiles. They did discuss their 
efforts to develop regional missiles. In answer to a question about 
North Korea, General Maples said: ``We assess that they are in the 
process of developing an ICBM that would be capable of delivering a 
nuclear warhead, but they have not done so yet, nor have they tested 
it.''
    At a later hearing, General Bell, Commander of U.S. Forces Korea, 
said that he agreed with General Maples' characterization of North 
Korea's ballistic missile programs, and added that: ``Up through the 
late 1990s, there was a fairly active program in North Korea to develop 
that missile technology and potentially to test it. In the years since 
the late 1990s, the last 6 years, 7 years, we have seen very little 
activity by the North Koreans to actively continue to develop and test 
long-range missile systems. There is no doubt in my mind that they have 
the capability to begin more technological investigation and to begin a 
regimen to lead to testing and potentially to lead to fielding. But 
there's no evidence of it right now.'' Do you agree or disagree with 
these assessments of the DNI, DDIA, and the Commander of U.S. Forces 
Korea?
    General Obering. MDA has no basis upon which to disagree with the 
DNI, DDIA, and General Bell's intelligence assessments. MDA relies on 
Intelligence Community (IC) assessments as one portion of the range of 
threats that the BMDS is designed to protect against. As the system 
developer, MDA is not in a position to provide or assess intelligence, 
or to generate requirements. Rather, MDA must develop the BMDS based on 
current assessment of not only what is intelligence based, but what is 
within the realm of the possible engineering so as not to be surprised. 
The BMDS must look beyond assessments of current potential adversary 
capabilities to ensure the ability of the United States to deal with 
unforeseen future threats. MDA's evolutionary acquisition program, 
therefore, addresses the evolving ballistic missile threat.
    General Dodgen. I concur with the threat assessments made by 
Ambassador Negroponte, General Maples, and General Bell during their 
recent testimony concerning North Korea's ICBM development efforts. In 
August 1998, North Korea did demonstrate a rudimentary capability to 
launch a long-range ballistic missile airframe. Although we have seen 
very little activity to actively develop and test an ICBM since that 
event, we believe the North Korean regime still continues to pursue and 
develop ballistic missile/space launch technology that can be used to 
advance their long-range missile capabilities. From a warfighter 
perspective, it cannot be overlooked that North Korean has recently 
developed and tested other classes of ballistic missiles and have 
continued to pursue opportunities to export these capabilities to other 
countries on numerous occasions. The significant evidence of a 
continuously improving North Korean ballistic missile capability, with 
the added intent to export, certainly should continue to motivate our 
desires to stay ahead of the proliferating threat with our missile 
defense programs.

                 CHANGING DOD OVERSIGHT OF BMD PROGRAMS

    27. Senator Bill Nelson. General Obering, Mr. Duma's prepared 
testimony described briefly a changing DOD oversight structure for the 
BMD System and program, consistent with the Quadrennial Defense Review. 
His statement mentions a new BMD Executive Board. Could you describe 
the proposed new structure and your role in implementing it?
    General Obering. This Executive Board, with membership drawn from 
OSD, the Services, Joint Chiefs of Staff (JCS), and STRATCOM, will 
recommend and oversee implementation of strategic policies and plans, 
program priorities, and investment options to protect our Nation and 
our allies from any form of ballistic missile attack. The Board will 
provide guidance to MDA as it develops and fields initial capabilities 
and conducts spiral development to upgrade the elements and components 
that make up the BMDS. The Board will also consider the evolving 
priorities and requirements of the warfighting community as it 
formulates recommendations on the way forward in missile defense.
    The BMD Executive Board will enhance the DOD's decisionmaking 
process by focusing exclusively on issues related to the BMDS. The 
precise details of the charter, including the membership and decision 
authority of the BMD Executive Board, are still being determined.

    28. Senator Bill Nelson. General Obering, how do you believe it 
will improve oversight of the BMD program, and when do you expect the 
new Executive Board will be in place?
    General Obering. In 2001 the Secretary of Defense formed the Senior 
Executive Council (SEC) to provide counsel on the application of sound 
business practices across the DOD. BMD is one of a broad range of 
mission areas overseen by the SEC. The BMD Executive Board will not 
have decision authority like the SEC, but it will help enhance the 
Department's decision making process by focusing exclusively on issues 
related to the BMDS.
    The Board, with senior official membership drawn from OSD, the 
Services, JCS, and STRATCOM, will recommend and oversee implementation 
of strategic policies and plans, program priorities, and investment 
options to protect our Nation and our allies from any form of ballistic 
missile attack. The Board will incorporate evolving requirements into a 
comprehensive acquisition strategy to develop and field operational 
missile defense capability. It will improve information flow among key 
stakeholders: the MDA, Office of the Secretary of Defense, combatant 
commanders, DOD components, the Joint Staff, and the National Security 
Council and IC. The Board will establish a viable means to achieve our 
goals within the context of technical capability and established 
resource levels.
    The Board will guide new ideas and technologies as they develop 
into initial capabilities, and subsequently into fully mature solutions 
ready for fielding and inclusion into the missile defense system. The 
Board will also consider the evolving priorities and requirements of 
the warfighting community as it formulates recommendations on the way 
forward.
    I expect the BMD Executive Board will be in place by some time this 
summer.

                u.s.-israel missile defense cooperation
    29. Senator Bill Nelson. General Obering, for years, the United 
States has been concerned with the aggressive nature of Iran and its 
desire to develop a nuclear weapons capability and the missile systems 
to deliver it. Israel, in partnership with the United States, has been 
focused on the advanced development, production, and deployment of an 
anti-ballistic missile system called the Arrow. I understand that the 
Arrow is the only Israeli system deployed that can address this threat. 
Given the growing missile threat in the Middle East, can we do more to 
accelerate the production of the Arrow anti-ballistic missile system, 
increase deterrence in the region, and help stabilize the situation?
    General Obering. Since 1986, the United States and Israel have 
jointly developed the Arrow Weapon System (AWS) to provide Israel an 
indigenous capability to defend against short- and medium-range 
ballistic missiles. The current focus of the Arrow System Improvement 
Program (ASIP) is to upgrade the AWS to counter evolving longer-range 
and more challenging ballistic missile threats. The current ASIP 
program ends in fiscal year 2008.

        <bullet> Israel seeks to develop a ``hermetic'' or zero leakage 
        defense system. The Israeli Ministry of Defense has identified 
        new threats in the region with non-conventional capabilities. 
        While the current Israeli Missile Defense Architecture has some 
        capability against these emerging threats, it does not provide 
        an adequate number of opportunities to ensure a zero leakage 
        defense.
        <bullet> The Israel Missile Defense Organization wants to start 
        discussions in fiscal year 2007 regarding a possible post-ASIP 
        program to counter emerging threats. They have requested an 
        additional $8 million to start a joint study and conceptual 
        design of the necessary enhancements. The proposed post-ASIP 
        program, Arrow Missile Segment Enhancement program, will add an 
        upper-tier level of defense to the current Arrow II interceptor 
        to provide additional engagement opportunities.
        <bullet> MDA has expected a follow-on program to begin at the 
        conclusion of the current ASIP agreement. This program is 
        outlined in the President's budget as ``Arrow Block 5'' and 
        includes $55.0 million in fiscal year 2009, $57.7 million in 
        fiscal year 2010, and $59.4 million in fiscal year 2011. While 
        MDA plans for a follow-on program to continue Arrow 
        enhancements, there are indications that the ASIP program may 
        slip into fiscal year 2009 and recommends focusing on the 
        current Arrow program vice beginning any follow-on program. 
        Additionally, MDA recommends looking at U.S. systems (like 
        THAAD) to satisfy the Israeli requirements for an upper tier 
        system to meet this growing threat.

    30. Senator Bill Nelson. General Obering, if Congress were to 
authorize and appropriate additional funds for Arrow coproduction, is 
there the necessary production capability to execute the program?
    General Obering. Yes.
    Background: Since 2004, this program has enabled Boeing to support 
Israel Aircraft Industries (IAI) in producing components for the Arrow 
interceptor, increasing monthly production capabilities by 300 percent 
and thus drastically shortening the acquisition time line for reaching 
Israeli Air Force's operational requirements. Components produced by 
Boeing are shipped to IAI for final integration and assembly. On 29 
September 2005, the first coproduced Arrow Interceptor was delivered to 
the Israel Missile Defense Organization.

        <bullet> The State of Israel has requested an additional $50 
        million for fiscal year 2007. This would be an addition to the 
        $13 million from the President's budget request for Arrow 
        Weapon System coproduction to make further progress towards 
        meeting Israel's defense requirements. Each Coproduced Arrow II 
        Interceptor costs $2.6 million.
        <bullet> MDA has budgeted $13 million in fiscal year 2007 for 
        coproduction. Israel plans to contribute $6 million (should 
        additional U.S. funding be provided), Israeli will increase 
        their contribution to maintain the 67 percent/33 percent cost 
        share. If Israel receives this add, this will be the last year 
        for the coproduction program as Arrow II interceptor inventory 
        will meet Israeli Air Force requirements. Due to this, there is 
        minimal benefit to increasing production to reduce the 
        acquisition time line.

    31. Senator Bill Nelson. General Obering, research and development 
on technologies that protect against additional threats such as shorter 
range ballistic missiles and cruise missiles may also benefit from 
Arrow's mature capability. I understand MDA has programmed $2.0 million 
for fiscal year 2007, in addition to funds already provided by Congress 
for fiscal year 2006. What would this funding accomplish by the end of 
fiscal year 2007 and what is the plan to continue this research in 2008 
and beyond?
    General Obering. These funds were to be used in the U.S. for a 
study to explore possible U.S. benefits from the Israeli Short Range 
Ballistic Missile Defense (SRBMD) system. At this time MDA has not 
committed to the SRBMD program and is not seeking funding for this 
effort.
    Background: In March 2005, Israel initiated an 18-month feasibility 
study of a low-cost SRBMD capability as an enhancement to the AWS. 
Israel requires a wide-area active defense system against the current 
and growing threat to Israeli civilians from short-range, relatively 
low-tech, and inexpensive ballistic missiles. The current Israeli 
Missile Defense Architecture (Patriot and Arrow) has capability against 
some of these short-range missile threats but does not provide a cost-
effective defense. The goal is $300,000 per missile cost vs. the $2-3 
million per Arrow or Patriot missile. For fiscal year 2006, Congress 
made $10 million available for a joint feasibility study designated the 
SRBMD initiative.

        <bullet> For fiscal year 2007, Israel requested an additional 
        $25 million to begin the first phase of Full Scale Development 
        of a short-range BMDS. The goal for fiscal year 2007 is to 
        complete the Preliminary Design Review.
        <bullet> For fiscal year 2008 and beyond, Israel plans on 
        requesting $40 million a year to continue Full Scale 
        Development. Additionally, MDA's independent cost analysis 
        estimate of total research and development and production costs 
        for this proposed short-range system is $500 million.

    [Whereupon at 12:44 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                                U.S. Senate
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 3:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Thune, Reed, 
and Bill Nelson.
    Majority staff member present: Robert M. Soofer, 
professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Arun A. Seraphin, professional staff 
member.
    Staff assistants present: Jill L. Simodejka and Pendred K. 
Wilson.
    Committee members' assistants present: Arch Galloway II, 
assistant to Senator Sessions; Clyde A. Taylor IV, assistant to 
Senator Chambliss: Mieke Y. Eoyang, assistant to Senator 
Kennedy; Erik Raven, assistant to Senator Byrd; and William K. 
Sutey, assistant to Senator Bill Nelson.

          STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The hearing will come to order.
    Senator Reed, we're glad you're with us, and I think 
Senator Nelson will join us. I'm pleased to welcome our 
witnesses today, the Honorable Ronald M. Sega, Under Secretary 
of the Air Force and Department of Defense (DOD) Executive 
Agent for Space, a dual hat there; Lieutenant General Kevin P. 
Chilton, USAF, Strategic Command's Joint Functional Component 
Commander for Space and Global Strike; Lieutenant General 
Michael A. Hamel, USAF, Commander of the Air Force Space and 
Missile Systems Center; Rear Admiral Kenneth W. Deutsch, USN?
    Admiral Deutsch. Sprechen sie Deutsch, sir.
    Senator Sessions. Deutsch. Right? Nein. [Laughter.]
    You're the Director of the Net-Centric Warfare Division for 
the Navy.
    Admiral Deutsch. Yes, sir.
    Senator Sessions. Ms. Cristina T. Chaplain--and that's the 
correct pronunciation?
    Ms. Chaplain. Yes.
    Senator Sessions. Ms. Chaplain is the Acting Director for 
Acquisition and Sourcing Management for the United States 
Government Accountability Office (GAO). So, you're the 
independent evaluator here, and we appreciate your report and 
opinion.
    I thank the witnesses for taking time to be with us, and 
for their continuing commitment to our Nation's security.
    The subcommittee today meets to receive testimony on the 
military space programs of the DOD in review of the National 
Defense Authorization Request for Fiscal Year 2007. The 
subcommittee intends to address the budgetary and programmatic 
aspects of satellite and space launch programs and to 
investigate the progress that has been made by the DOD to 
improve the space acquisition process that had some 
difficulties, for sure.
    The fiscal year 2007 budget request for all nonclassified 
military activities is approximately $10.5 billion, of which $6 
billion is for research and development (R&D), a large sum, 
$2.3 billion is for procurement, and $2.2 billion for 
operations and maintenance. The current generation of military 
space systems is being modernized in virtually every mission 
area: strategic missile warning, assured communications, 
navigations, and intelligence and surveillance.
    I would just note that satellite capabilities are 
absolutely critical to the defense of our country, for the 
operation of all our military Services, effectively. Even the 
Army now, with their Future Combat Systems (FCS), is utterly 
dependent upon the capabilities that you procure and produce 
for us. But, at the same time, virtually all of our 
modernization programs have suffered substantial problems with 
regard to cost, schedule, and technical performance, which has 
been estimated to cost the taxpayers some $1.7 billion in 2007 
alone, so that's a lot of money, and it's a problem we need to 
address.
    We welcome the new leadership in the Air Force space 
community and understand that this problem has been taken 
seriously, that you have moved quickly to effect reforms in the 
acquisition process. We hope to hear more about these reforms, 
in the hope of restoring congressional confidence in the 
acquisition of our military space programs. We want our 
Congress to feel confident about that when these budgetary 
requests come forward.
    Finally, we intend to review the current state of U.S. 
military space capabilities in support of the warfighter, and, 
related to this, the progress and potential for smaller, less 
expensive, and less complex space assets to support the theater 
warfighter in a timely manner.
    [The prepared statement by Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    The hearing will come to order. Senator Nelson, welcome. I am 
pleased to welcome our witnesses today: the Honorable Ronald M. Sega, 
Under Secretary of the Air Force and Department of Defense (DOD) 
Executive Agent for Space; Lieutenant General Kevin P. Chilton, USAF, 
Strategic Command's Joint Functional Component Commander for Space and 
Global Strike; Lieutenant General Michael A. Hamel, USAF, Commander of 
the Air Force Space and Missile Systems Center; Rear Admiral Kenneth W. 
Deutsch, USN, Director of Net-Centric Warfare for the Navy; and Ms. 
Cristina T. Chaplain, Acting Director for Acquisition and Sourcing 
Management for the U.S. Government Accountability Office. I thank the 
witnesses for taking time to be with us and for their continuing 
commitment to our Nation's security.
    The subcommittee meets today to receive testimony on the military 
space programs of the DOD in review of the National Defense 
Authorization Request for Fiscal Year 2007. The subcommittee intends to 
address the budgetary and programmatic aspects of satellite and space 
launch platforms and investigate the progress that has been made by the 
process.
    The fiscal year 2007 budget request for all nonclassified military 
space activities is approximately $10.5 billion, of which $6 billion is 
for research and development, $2.3 billion for procurement, and $2.2 
billion for operations and maintenance.
    The current generation of military space systems are being 
modernized in virtually every mission area: strategic missile warning; 
assured communications; navigation; and intelligence and surveillance. 
At the same time, virtually every modernization program has suffered 
substantial problems with regard to cost, schedule, and technical 
performance, which will cost the taxpayer some $1.7 billion in fiscal 
year 2007 alone.
    We welcome the new leadership in the Air Force space community and 
understand they have moved quickly to effect reforms in the acquisition 
process. We hope to hear today more about these reforms in the hope of 
restoring congressional confidence in the acquisition of our military 
space programs.
    Finally, we intend to review the current state of U.S. military 
space capabilities in support of the warfighter and, related to this, 
the progress and potential for smaller, less expensive, and less 
complex space assets to support the theater warfighter in a timely 
manner.
    Let me now recognize my distinguished ranking member, Senator 
Nelson of Florida, for any opening remarks he may have.

    Senator Sessions. Senator Reed, if you would like to make 
some opening comments now, I'd be glad to receive those.
    Senator Reed. Thank you, Mr. Chairman. No, I don't. Senator 
Nelson might have some opening comments, but I'm interested in 
hearing the witnesses and thank them for being here today.
    Senator Sessions. Well, good, and we appreciate you.
    Someone has said, when you deal with programs, there are 
some questions that need to be asked. Is it a need or a want? 
We want a lot of things, but we may not need them all. If it is 
a need, when do we need it, and how much will it cost? How 
vital is that need compared to other needs that may be as 
vital, or more so? What are we going to have to give up to meet 
that need? So, those are some questions I think most of you 
understand and recognize as you do your jobs, but questions 
that are important.
    Secretary Sega, we're delighted to have you with us. We'd 
be delighted to hear your comments at this time. We have about 
a 5-minute round for each of you to speak. You can also make 
your remarks a part of the record and make more limited 
remarks, if you choose.
    Mr. Secretary?

 STATEMENT OF HON. RONALD M. SEGA, UNDER SECRETARY OF THE AIR 
                             FORCE

    Dr. Sega. Thank you. Mr. Chairman, Senator Reed, and 
distinguished members of the committee, I'm honored to appear 
before you today to discuss national security space. I thank 
you for allowing the written statement to be included as part 
of the record.
    As Under Secretary of the Air Force and the DOD Executive 
Agent for Space, I am committed to improving space capabilities 
upon which our commanders and forces depend to conduct their 
missions. I thank this committee and the entire Congress for 
your support to national security space efforts.
    Today, I want to outline the importance of space to our 
warfighters, and focus on three key areas for national 
security, and actually highlighting, principally, one, in terms 
of acquisition.
    During the last hurricane season, we witnessed weather 
satellites tracking hurricanes and rescuers using global 
positioning systems (GPS) and satellite imagery to direct 
relief efforts to the hardest hit areas, Hurricanes Katrina and 
Rita being the clearest examples.
    I'd like to relate two lesser known examples of the 
effectiveness of space systems. My first example concerns space 
support to the humanitarian missions in the Philippines. Space 
capabilities played a key role in our relief effort for a 
massive mudslide that buried an entire village on the island of 
Leyte. Within hours of the disaster, a Hawaii Air National 
Guard Combat Communications Unit that was in the area on an 
exercise, and switched into real-world humanitarian relief. 
They used an Eagle Vision system to quickly merge some archival 
commercial satellite imagery with mapping software, called 
Falcon View, and produced photos and gridded maps of the area, 
enabling them to locate fields that aircrews could, in fact, 
operate out of. Then they used the Eagle Vision to order, 
collect, and process new commercial imagery of the affected 
area, and they shared this information with U.S. responders, as 
well as the Philippine government agencies. This included 
images that compared the area before and after the mudslide, 
and enabled the authorities to move effectively to plan the 
rescue and relief operations. This same Guard unit returned to 
Hawaii shortly thereafter and began, immediately, rescue and 
recovery efforts in the island of Kauai.
    The second example comes from Operation Iraqi Freedom (OIF) 
specifically in March 2003. It was a planned night parachute 
drop by the Army's 173rd Airborne Brigade. Weather was rough 
during that time. Of course, the mountains in northern Iraq are 
also very rough, and Captain--now a Major-select--John Roberts 
was very concerned. I had the privilege of talking to him just 
a few weeks ago. He was at an undisclosed location in Iraq. His 
10 years in Air Force service included 9 of which were directly 
assigned to U.S. Army units. He's eight jumps away from master 
jump wings. In March 2003, he was assigned to the 173rd 
Airborne Brigade in Italy. The plan was to jump into northern 
Iraq to secure that area.
    The week prior, all predictions were the weather was going 
to be horrible on the planned jump night. Brigade Commander 
Still said, ``This is the night, and got to make it work.'' 
John spent the week studying model satellite photos, talking to 
his counterparts in the weather area in U.S. Central Command 
(CENTCOM) and U.S. Air Force, Europe (USAFE). All the 
information was bad. On March 26, 2003, which is jump day, he 
was now down to using satellite imagery to review the predicted 
weather window, which he saw as 1 hour in length as a front 
would move past.
    As he told me, he was betting his bars that day that the 
predicted short window of opportunity would lift and convinced 
the folks to change the takeoff time to match this weather 
time. Brigade in flight was on 16 C-17s. First 10 included 
troops numbering over 1,000, as I understand it, and the second 
group of, in this case 6, was with the equipment. An hour out, 
the ground team said the weather was still no-go, 800-foot 
ceilings, blowing snow. John came on the satellite phone to the 
brigade commander in the C-17 and convinced him to proceed, 
obviously keeping an eye on this weather satellite imagery. 
Thirty minutes out, the weather's still bad. Fifteen minutes 
out, the sky begins to clear, the jump happens on time. One 
hour after the jump, the weather closes back in. John landed 
the next day, the C-17, with this unit. For the Army folks, he 
could do no wrong.
    So, that's one example of someone that has used satellites 
to full advantage to effect military operations. Major-select 
John Roberts will be heading in June to Alabama to teach at 
Maxwell Air Force Base.
    Senator Sessions. That's a fabulous story. It's a life-and-
death question, many times, with that capability. That's a good 
story.
    Dr. Sega. Thank you.
    The satellite assets, as you have mentioned, Mr. Chairman, 
are essential at various levels of military in planning and 
operations, but clearly are also important to our economy, 
homeland security, and other disaster response activities.
    I would like to focus on three areas of national security 
space. The first is to improve the integration of space 
capabilities across the national security space community, as 
well as with the air, land, and sea capabilities. The second 
area is to get back to basics in acquisition. I will go into 
that in a bit more detail. The third is to ensure the viability 
and proficiency of our space professionals and the science and 
technology workforce.
    I would like to refer to this one chart I have over my 
right-hand shoulder.
    The approach is a ``back to basics'' approach, and it has 
several components, one of which is to look at acquisition in 
terms of stages. This case, from the lower left of science and 
technology, building in technology maturity to a stage of 
technology development, to a next stage of systems development 
and systems production. The approach is to lower the risk in 
the system production phase while, at the same time, increasing 
risk that we take to push the frontiers hard in the science and 
technology, and, to a certain extent, the technology 
development phase.
    The goal is to identify clearly the requirements and the 
technologies available as you start block one. So, as we build 
in maturity of the technologies from this lower stage and 
moving on up this chart, science and technology, technology 
development, systems development, reaching a stage of roughly 
technology readiness level six as we begin block one, but also 
we need to work with the users, very continuously, in a 
collaborative way as we identify what is in block one. As we 
ask the users, ``What do you need?'' we are now in dialogue. 
They're asking, ``What do you have?'' and converging on, ``What 
is important that will meet needs in a specific time, with 
specific capability, with what we know we can build?'' So, the 
end result should be a decrease of the acquisition cycle time.
    Looking at program managers staying on for that reduced 
time through the extent of the block-one approach, technologies 
that are not ready for block one, we've relegated to later 
blocks. So, the requirements process is important, technology 
maturity is important, fundamentals in systems engineering are 
important, cost estimation and schedule.
    If I could give one example of this, is--what we have in 
the President's budget request in fiscal year 2007, is 
Transformational Satellite Communications System (TSAT). 
Through the Quadrennial Defense Review (QDR) process, the 
warfighters, combatant commanders (COCOMs), and folks in the 
Office of the Secretary of Defense (OSD) and the Services did 
an extensive review of what we should have, going forward, in 
the DOD. One of those capabilities was satellite 
communications.
    It was determined, through that process, that the 
technologies that were identified as matured, not only 
identified by us internally, but also by GAO and Congress, 
constitute a block one.
    Senator Sessions. Would you, we assume that those that are 
listening may understand what TSAT is, and most of us do, but 
maybe you can give us a quick synopsis of what you plan for the 
TSAT program. What its capabilities are?
    Dr. Sega. I certainly will.
    Its name is derived from Transformational Satellite 
Communications System, and the main features that TSAT has that 
other satellites do not have includes a laser communications 
crosslink. So, with a laser communications crosslinks, the 
bandwidth, the capacity on that communications channel, is much 
higher than you can do with radio frequency (RF). The second 
major feature on that satellite is a router. It becomes a part 
of a network now in space. We have other pieces of our larger 
network that are being built that also provide the structure 
and the framework for network-centric operations. One of those 
would be the Joint Tactical Radio System (JTRS). It's becoming 
more of a communications node on the network.
    The TSAT is a sophisticated communications system enabling 
us to more effectively communicate with Army forces, FCS, when 
they're on the move, and to bring the information back, as you 
would in a more modern Internet protocol packet-based system. 
Our current systems are like a switch, like the old operator 
that used to plug in from one wire of one person that wanted to 
communicate, and connect them to someone else with another wire 
at the operator station. What we have in space, is this switch 
of an operator connecting one to another. TSAT provides us a 
router in space at high bandwidth. That is a fundamental change 
from what we have done in the past, and it is an enabler for 
what we want to do in the future.
    Now, we also, then, by reducing what we are expecting out 
of block one, reduce the weight of the satellite's estimate 
from over 5,000 pounds in the payload to less than 3,500 
pounds. So, we began a more conservative approach of building 
this on time and on schedule.
    Now, working with the warfighters, we also increased the 
bandwidth capacity on systems that we're well familiar with, KA 
band. Capability of the satellite actually was increased by a 
factor of two in this trade space that the technical community, 
the acquisition community, was making with the warfighters. In 
the budget request in 2007 is block one and some money that'll 
continue the systems development phase that will continue 
working on that technology that wasn't right, and then, when it 
is ready, move into satellites three, four, and beyond.
    We also looked at the cost estimation. Consistent with GAO 
recommendations, the Young panel and others, what you see in 
the budget in fiscal year 2007 is an 80 percent confidence 
figure in terms of our budget estimates, as well. So, more 
conservative approach into the systems production phase of 
TSAT, as one example coming out of this budget request the 
block approach and incremental approach to continuing providing 
increased capability for the warfighter.
    So, they will be getting a increased capability in a rhythm 
of arrival at fielded capabilities as we move on in time. The 
production base will also see a rhythm of production occurring 
in time, so there'll be more stability from a production 
standpoint.
    We need to also be careful on how our investment portfolio 
looks, in terms of what is in the next-generation systems 
development, the one after that, technology development, and 
still the generation after that, science and technology, so it 
fits together? So, we're maturing technology as we move forward 
up the chart. We're also maturing our people, giving our folks 
more opportunity to get hands-on experience in these lower 
levels of this staged development. So, when they also are 
moving up in experience, they will have the technical instincts 
to be experienced managers as they move up to managing some of 
these more sophisticated systems.
    So that's the block approach, going forward. That's an 
example, on the very large side.
    On the smaller side is a renewed emphasis in smaller 
satellites. Here we're looking at going forward in a strategy 
of bringing together more of our laboratories and our product 
centers. So we have an example of that in XSS-11, that was 
scheduled to be built from start to finish in 36 months and 
around $80 million. It was bumped onto a couple of different 
boosters, and it ended up at 39 months. It's been on orbit for 
almost a year now, and working quite effectively with the Air 
Force Research Laboratory at Kirtland Air Force Base, Space and 
Missile Systems Command, working there, and contractor 
Lockheed-Martin, being flown there, out of Albuquerque.
    So, small satellites, and a subset of those are TacSats, 
tactical satellites, will be part of our future, going forward. 
It fits very well in this construct, also.
    I've certainly taken quite a bit of time here.
    Space is clearly important. I think we all share that. Mr. 
Chairman, I appreciate the continued support of Congress and 
this committee to ensure we have what is necessary to deliver 
vital capabilities to our warfighters. I thank you for the 
opportunity to appear before you today. I look forward to your 
questions.
    [The prepared statement of Dr. Sega follows:]

               Prepared Statement by Hon. Ronald M. Sega

                              INTRODUCTION

    It is my distinct honor to appear before the committee today to 
discuss our National Security Space activities as Under Secretary of 
the Air Force and Department of Defense (DOD) Executive Agent for 
Space. As the DOD Executive Agent for Space, my role is to ``develop, 
coordinate, and integrate plans and programs for space systems and the 
acquisition of DOD space Major Defense Acquisition Programs to provide 
operational space force capabilities to ensure the United States has 
the space power to achieve its national security objectives.''
    The President's budget, released on February 6, 2006, ``focuses 
taxpayer resources on national priorities like the war on terrorism, 
health care, energy research and strengthening our global 
competitiveness,'' and includes defense spending to ``maintain a high 
level of military readiness, develop and procure new weapon systems to 
ensure U.S. battlefield superiority, and support our service members 
and their families.'' This budget ``reflects the Department's continued 
shift in emphasis away from the static posture and forces of the last 
century toward the highly mobile and expeditionary forces, and 
accompanying warfighting capabilities, needed in the century ahead.''
    As discussed in the Secretary of the Air Force's and Chief of Staff 
of the Air Force's testimony in the 2006 Air Force Posture Statement, 
``The U.S. depends upon the Air Force to supply critical space 
capabilities to meet the needs of Joint operations worldwide, and also 
the needs of national missions across the instruments of diplomatic, 
informational, military and economic power.'' These space capabilities 
enable the U.S. to assure allies, dissuade military competition, deter 
threats and decisively defeat adversaries. The National Security Space 
community must address the 21st century defense challenges by 
``modernizing critical capabilities across the spectrum of global 
strike, navigation, weather, communication, missile warning, launch, 
surveillance, counterspace and ground-based space systems.''
    Today, I want to outline the importance of space to our warfighters 
and then focus on three key areas for national security space. The 
first is to improve the integration of space capabilities across the 
national security space community, as well as with air, land, and sea-
based capabilities. The second area is to get ``back-to-basics'' in 
space acquisition. The third is to ensure the viability and proficiency 
of our space professionals and science and technology (S&T) workforce.
    Before I discuss each of these areas, it is important to reiterate 
the importance of space capabilities to our Nation. Space pervades many 
aspects of everyday life in America. Space services enter homes, 
businesses, schools, hospitals, and government offices to affect 
transportation, health, telecommunications, weather forecasting, 
education, commerce, agriculture, and energy. Space services are 
transforming major aspects of commercial and social activity and will 
continue to do so as emerging technologies increase the satellite 
capabilities. Our Nation's ability to respond to events around the 
world is heavily enabled by space-based capabilities whether defending 
our borders, facilitating disaster assistance at home or aiding 
disaster victims in the Far East.
    From a military standpoint, leveraging our space capabilities 
provides the U.S. with an asymmetric advantage over our adversaries in 
our fight to win the ``Long War,'' the global war on terror. Today's 
fast-paced military environment requires global connectivity between 
many fast-moving elements. Satellite communications (SATCOM) is the 
backbone that connects forces to allow an intercontinental flow of 
information whether in remote deserts or crowded urban terrain.
    Space-based warning systems help to defend our forces abroad as 
well as the American homeland from ballistic missile attack. Successful 
cueing of defensive systems allows timely responses to attacks. This 
past December, the Under Secretary of Defense, Acquisitions, Technology 
and Logistics certified and restructured the Space Based Infrared 
System (SBIRS) High program. As part of the certification, it was 
determined that this program is essential to national security, there 
are no other lower cost alternatives, the program cost estimate is 
reasonable, and the management structure is adequate. The first 
Geosynchronous Earth Orbit satellite (GEO-1) is now planned to launch 
in fall 2008. Given the continued importance of the missions, the 
Department will work with Congress to initiate a new, competitor 
capability in parallel with the SBIRS program to ensure that the 
Nation's missile warning capability is sustained and that support to 
theater and strategic missile defense, technical intelligence, and 
battlespace characterization is also achieved. This proposed program 
should exploit new technologies to provide the Department with 
additional options for making decisions related to these mission areas. 
The Department will also conduct enhanced oversight of the SBIRS 
program to ensure that cost, schedule, and performance are closely 
monitored.
    Battle-space awareness, coupled with precision weapons such as 
those guided by Global Positioning System (GPS), allows our forces to 
successfully engage enemy targets with a minimal number of weapons and 
limited collateral damage. In fact, precision strike is no longer just 
a goal; it is an expectation.
    Space-based ISR systems, by providing global presence and 
increasing persistence, provide data that make it possible for military 
commanders and national decision makers to lift the fog of war over the 
battlespace. Detailed information from space systems helps us utilize 
limited national resources more effectively. Only with space systems 
can we consistently observe remote or denied areas to help us better 
prepare for and respond to threats. In addition to military 
applications, space-related capabilities also help national leaders 
make foreign policy decisions by supplying key data for diplomatic 
decisionmaking, helping verify treaty compliance, and monitoring 
diplomatic crises.
    Future ISR systems, such as Space Radar, will give users more 
persistent, worldwide, day, night, and all-weather knowledge of enemy 
movement. When integrated with other space-based systems and 
terrestrial systems, this additional source of information will provide 
more robust battle space awareness.
    Space capabilities also play an important role in disaster response 
and homeland security. For example, our weather satellites observed 
Hurricanes Katrina and Rita and provided data for forecasting their 
strengths and impacts. After these storms disrupted many normal means 
of navigation and communication, response teams relied on GPS for 
precise navigation and used SATCOM to coordinate their efforts. Space-
derived data aided the disaster response in many ways to help alleviate 
the severity of these disasters.
    Aside from commercial industries that use space services directly, 
space has a pervasive economic and social impact. Many banking and 
financial firms employ GPS timing to synchronize their encrypted 
computer networks. With the rise of computer-based stock trading and e-
commerce, precise timing of transactions is becoming more important, 
and GPS is a key mechanism for distributing these necessary timing 
signals.
    Maintaining the asymmetric advantages we enjoy today in space will 
continue to be vital to U.S. national security in the future. 
Operations in Afghanistan and Iraq clearly demonstrate that space-
enabled warfare is the way we will fight current and future battles. 
Plans for future military capabilities across the entire DOD reflect 
this new reality. For example, the Army's Future Combat System (FCS) 
will operate in more complex battle environments requiring a mix of 
manned and unmanned systems connected by a network. To provide global 
connectivity, that network will rely on space-based communication 
systems. The Transformational Satellite (TSAT) Communications Program 
is being developed to support the extension of the Global Information 
Grid (GIG) to deployed and mobile users, allowing the warfighter and 
other users increased agility and effectiveness in dispersed, 
decentralized and constantly changing environments.
    In order to provide continuous, reliable space services, we must 
ensure access to space. This past year I had the opportunity to witness 
the final Titan IV launch. Culminating a nearly 50 year history of the 
Titan program, this launch out of our West Coast facility at Vandenberg 
Air Force Base, extended a record 44 consecutive successful national 
security launches. We are maintaining this assured access to space by 
using the Evolved Expendable Launch Vehicles (EELV) as we 
simultaneously investigate new Operationally Responsive Space (ORS) 
launch options.
    The Air Force is continuing its pursuit of ORS small satellite 
capabilities with the potential to rapidly deploy and employ 
communication, ISR, and other space capabilities. The range of 
opportunities for small satellites includes not only rapid response 
capabilities such as TACSATs, but also development of small satellites 
as standard elements or backups for global constellation operations, 
and as enablers for more aggressive S&T and technology/system 
development programs.
    Since space capabilities are so vital to our defense as well as our 
everyday life, they must be protected. As we become more operationally 
tied to space systems, future adversaries will try to deny us the 
asymmetric advantages that space provides us. The Space Commission 
pointed out in 2001 that the U.S. is an attractive candidate for a 
``Space Pearl Harbor.'' We saw the beginnings of this with GPS jamming 
in Operation Iraqi Freedom (OIF). While the United States supports the 
peaceful use of space by all, it has been our Nation's policy since 
1996 to ensure hostile forces cannot prevent our own use of space, and 
to counter, if necessary, space systems and services used for hostile 
purposes, preferably using temporary or reversible manners.
    The first step in protecting our space capabilities is improving 
our Space Situation Awareness (SSA). SSA forms the foundation for all 
of space control and includes traditional space surveillance, 
collection and processing of space intelligence data, analysis of the 
space environment, and the fusion of these elements to contribute to a 
better understanding of the space domain.
    Space control activities also emphasize the protection of our 
national security interests against potential vulnerabilities and 
rapidly evolving threats. We are increasing our focus on ensuring our 
assets will meet operational requirements in a growing and changing 
threat environment.
    Our DOD Space areas of emphasis--integration, acquisition basic 
back to basics, and workforce development--are aimed at continued 
access and successful exploitation of space in support of our 
warfighters.

          INTEGRATION OF NATIONAL SECURITY SPACE CAPABILITIES

    Efficient operation of on-orbit and ground assets requires 
integrating space capabilities with other operational military systems 
and between the military and intelligence communities. While our space 
systems function well individually, we need them to work together for 
maximum effect on the battlefield. We have learned from our experience 
integrating air and space operations into Combined Air Operations 
Centers (CAOC) that our systems should complement one another rather 
than compete against each other. The best overall effect should be 
realized by a mix of integrated systems; combining orbiting platforms 
with manned and unmanned aircraft, ground-based assets, and other 
systems, linked together so they share data, and cue one another.
    Space capabilities serve the interests of a wide array of 
stakeholders: the DOD, including the combatant commanders and fielded 
forces; the Department of State (DOS); the Department of Commerce; and 
the Director of National Intelligence (DNI) and the Intelligence 
Community. As the DOD Executive Agent for Space, I have had the 
opportunity to visit five of the combatant commands--Pacific Command 
(PACOM), Northern Command (NORTHCOM), Strategic Command (USSTRATCOM), 
Central Command (CENTCOM), and Special Operations Command (SOCOM)--to 
discuss first-hand their needs and requirements. I also work with the 
Joint Staff and the Army, Navy, and Air Force space components to gain 
similar insights. Through ongoing interaction with the Defense space 
acquisition community, government laboratories, Defense Advanced 
Research Projects Agency (DARPA), Federally Funded Research and 
Development Centers (FFRDCs), industry, academia, and the Director of 
the National Reconnaissance Office (DNRO), we are enhancing links 
between the warfighters and the acquisition community. In particular, 
the activities of the DOD Executive Agent for Space and the DNRO, Dr. 
Don Kerr, must be coordinated. I assure you that Don Kerr and I work 
closely together to provide continuity and focus to the overall 
National Security Space portfolio. This is especially important as we 
consider the need to improve planning, development, acquisition, and 
management of our space capabilities.
    The government relies on a robust space industrial base to provide 
the systems, technologies, and services necessary to maintain our space 
capabilities. A good example is the commercial SATCOM industry. The DOD 
depends on a vast network of commercial ground and space-based systems 
to meet its telecommunications needs. In particular, commercial SATCOM 
is a large part of the space communication system that supports the 
warfighter. Current estimates are that commercial SATCOM provided about 
60 percent of the wideband SATCOM during Operation Enduring Freedom and 
up to 80 percent of the SATCOM during OIF.
    The strategic relevance of space as a force multiplier underscores 
the necessity for government to ensure we have a strong industrial base 
that will satisfy our requirements now and in the future. The Space 
Industrial Base Council, co-chaired by Dr. Kerr and myself, is a forum 
to address space industry issues and bring together stakeholders from 
across government to provide coordinated attention and action on space 
industrial base issues. We have also taken steps to include industry 
and academia to help inform and implement our initiatives.

                  BACK TO BASICS IN SPACE ACQUISITION

    My second area of emphasis is to get ``back to basics'' in space 
acquisitions to maximize the probability for success in our space 
acquisition programs. Acquisition links technology with operations--
turning ideas into real, tangible items and delivering those items to 
the field. It is a continuous process with four distinct but 
interrelated stages. The first stage is S&T, where we conduct basic 
research and explore the possibilities of new technologies. In the 
second, technology development, we evaluate the utility of discoveries 
made in the S&T stage. The third stage is systems development. Here, we 
take the most promising technologies and mature them to higher 
readiness levels so they can be integrated into operational platforms 
in the fourth stage, system production.
    In this acquisition construct, technology is matured through the 
four stages to move from the lab bench to the test range to operations. 
We are emphasizing early technology development to ensure mature 
technology is available for our production systems. Basic research in 
science and technology generates knowledge and helps develop our 
scientists and engineers in our laboratories, universities, and 
research centers. This kind of cutting-edge work is inherently high 
risk--discoveries take hard work and insight but are not predictable--
but we want to take risk in the earlier stages. For instance, the Air 
Force Research Laboratory is exploring everything from material 
properties of beryllium-aluminum alloys, ceramic-matrix composites, and 
``aerogel''-based thermal insulation, to the operating characteristics 
of components and systems such as spinning disk lasers, and on-orbit 
vibration isolation systems. The DOD investment in space-related S&T 
has doubled over the last 4 years.
    Once we find a promising technology, we investigate its utility in 
the Technology Development stage. For example, back in September, the 
STP-R1 experimental satellite--the ``Streak''--launched from Vandenberg 
Air Force Base on a Minotaur rocket. It has a payload that will study 
the low Earth orbit environment, but also has an objective to 
demonstrate an approach of rapid response, short duration missions. It 
is one of many projects sponsored by the DARPA and run by the Air Force 
Space Test Program office at Kirtland.
    Thus, in the two supporting stages of science and technology and 
technology development, the approach is to take more risk and push the 
frontier harder. We will allow those that are creating new ideas and 
exploring new technologies greater opportunity to push their ideas 
forward.
    After we prove a concept or demonstrate the technology, we mature 
it until we are confident it will work reliably in space. We build that 
confidence and performance during the Systems Development stage, where 
we get new technologies ready to incorporate into operational systems.
    The XSS-11, built at Kirtland Air Force Base and launched from 
Vandenberg Air Force Base last April, is an excellent example of a 
space Systems Development effort. The XSS-11 did more than prove a 
concept and check out technology and techniques for future space 
missions; it also helped improve the quality, experience and knowledge 
of our workforce. The program managers and engineers operated on a 
tight schedule and budget, and even after several technical problems 
and three different launch platforms they had the vehicle ready to 
launch within 3 months of the original 36-month development timeline 
and within a few million dollars of the original budget estimate. 
Finally, once we have mature technology, we move into the fourth stage, 
System Production. As an example, we launched the first modified Global 
Positioning System (GPS) IIR (GPS IIR-M) satellite in September 2005. 
It will provide the same GPS signals as earlier GPS IIRs, plus two new 
military signals and another civilian signal. Since the early GPS I 
series, the program has evolved through a block approach where each 
increment has provided additional capabilities. GPS satellites are 
operational assets used by troops in the field. We must minimize the 
risk involved as we produce these systems and in the System Production 
stage, we want to integrate mature technologies while employing a 
disciplined systems engineering process. We must also design in 
testability and modularity so that we have a path to spiral newly 
matured technologies into operational systems. We are reducing the risk 
in that final stage of System Production by starting with more matured 
technologies, more stable requirements, and more discipline in the 
systems design.
    This idea of managing the risk, or apportioning risk in a more 
controlled manner is important. You can view it as a redistribution of 
risk where the higher risk is in those beginning stages while we lower 
the risk in System Production, incorporating only proven technologies 
and focusing on taking smaller, more manageable steps. By doing so, we 
allow a constant, ongoing rhythm of design, build, launch, and operate. 
I believe that developing this rhythm of activity will reduce the 
acquisition cycle time, insert stability into our production lines and 
workforce, and enable us to field better systems over time, all while 
increasing confidence in our production schedule and cost. Ultimately, 
the warfighter should receive a rhythm of needed, timely, affordable 
capability.
    The restructured TSAT program reflects this new approach to meeting 
warfighter requirements through major discrete increments or blocks. 
The Quadrennial Defense Review (QDR) endorsed this TSAT approach as the 
way to begin accelerating some needed network capability for the 
warfighter. Consistent with congressional inputs, we have focused on 
technology maturity to define the first block for TSAT. The new program 
will reduce the risk for the first two satellites by providing basic 
laser communications capabilities and processor/routers in a Block 1 
configuration. Higher risk technologies such as a more capable laser 
communication capability and more capable Internet Protocol Packet-
based processing can be incorporated into later blocks of satellites. 
Block 1 directly corresponds to those technologies that the TSAT 
Program Office and Government Accountability Office agreed are mature 
consistent with this phase of the program. We also have increased the 
budgetary confidence levels of TSAT from 50 percent to 80 percent.
    In addition, we recently announced an award of the TSAT Mission 
Operations System (TMOS) contract--the ground segment for TSAT. Going 
forward with TMOS allows for better development and horizontal 
integration with other GIG systems. The networking capabilities 
provided by TMOS are the cornerstone to the future Military 
Communications Satellite architecture (AEHF and TSAT) and its interface 
with the GIG. Since the space segment interface requirements will be 
consistent with the TMOS design, our approach simplifies design trades 
for the space segment contractors. The TMOS contract source selection 
criteria also reflected a decision process which weighted proposal risk 
and contractor past performance over system mission capability and 
cost.
    This overall approach reduces technology and integration risk and 
increases our confidence in timely delivery of capabilities to the 
warfighter--an approach consistent with the 2003 Young Panel 
recommendations. We are exploring this same approach for Space Radar 
and GPS III.
    We also need to get back to basics in our acquisition practices. A 
back-to-basics approach hinges on: first, managing risk better; 
strengthening collaborations between the players involved in the 
acquisition process; implementing more rigorous systems engineering 
processes; and, improving the way we recruit and train our acquisitions 
workforce.
    I previously mentioned the various National Security Space 
stakeholders. As we get back to basics, we need to strengthen 
collaboration across the space community between technical experts, 
acquisition personnel, logisticians, and operators to ensure we are 
developing the systems we really need. There must be an early, detailed 
dialogue between all the players on warfighters needs balanced against 
a realistic assessment of what capability can be provided. We are 
working with the Joint Staff and combatant commanders to implement this 
approach. We should be able to provide significant new capability 
quicker and be more cost effective while continuing to work towards the 
full stated objectives in later generations. For example, deliver a 
first increment/block of system capability that meets 70-80 percent of 
the original stated objectives in a more timely fashion while working 
toward greater capability in future blocks. Key to this effort is to 
implement and maintain strong discipline in developing and stabilizing 
system requirements--another facet of sound system engineering.
    A critical part of implementing the back to basics philosophy is a 
heavy emphasis on applying proven systems engineering practices and 
raising the expertise of our systems engineers. The Air Force's Space 
and Missile Systems Center (SMC) has instituted a rigorous training 
program that includes classroom time, hands-on laboratory experience, 
Master's level courses, and education with industry. SMC has also 
captured best practices from across the community while working with 
the NRO, industry, FFRDCs, and technical societies to develop interface 
standards. One key aspect of improving the way we manage acquisition 
risk, and a key facet of our continuous emphasis on system engineering, 
is to better estimate the cost and schedule through a stronger cost 
estimation team and applying a more conservative approach in the System 
Production stage. If we have high confidence in the success of an 
acquisition program because we matured the technology starting with a 
strong S&T base, then we also have more confidence in our production 
cost and schedule estimates.

          SPACE PROFESSIONALS/SCIENCE AND TECHNOLOGY WORKFORCE

    We have a great team of space professionals in the military, civil 
service, and industry. We know that many of our experienced people are 
retiring and we need to focus on the basics of recruiting, training, 
and mentoring to balance out our space workforce and maintain a strong, 
dynamic cadre of space professionals--innovators, original thinkers, 
and people with solid engineering instincts.
    To continue to develop, attract, and retain top talent, I urge you 
to continue supporting programs such as the National Defense Education 
Program (NDEP)--which started as a pilot program in fiscal year 2005 
called the Science, Mathematics and Research for Transformation 
(SMART). NDEP targets undergraduates and graduate students studying 
science, math, and engineering. The President's fiscal year 2007 budget 
request (DOD-wide budget line) for NDEP is roughly twice that of the 
fiscal year 2006 request.
    As important as it is to recruit and train talented performers, it 
is also important for us to give them the opportunity to work with 
increasing levels of technology, consistent with the four stages in the 
space acquisition framework. They should have the opportunity to 
develop program management and systems engineering skills and gain 
experience on progressively more complex systems. This will teach them 
what risks to take, how to make tough decisions, and expand their 
knowledge base. Science and Technology and Technology Development 
efforts provide excellent opportunities for this kind of growth.
    Our efforts to increase the expertise of the space force are 
comprehensive. We provide oversight of the space cadre through the 
Space Professional Oversight Board, co-chaired by the DNRO and myself, 
which includes representatives from all military services. In addition, 
AFSPC's National Security Space Institute is expanding and recently 
completed checkout and startup of their 300 level training course, with 
the first offerings including students from all Services, National 
Aeronautics and Space Administration (NASA), and the National 
Reconnaissance Office (NRO).
    Finally, we recently held the first National Security Space Program 
Manager's Conference to discuss, analyze, and exchange best practices 
and experiences. It was hosted by the Air Force's Space and Missile 
Center and attended by space acquisition officers from the Air Force, 
NRO, DARPA, Army, Navy, and the laboratories.
                               conclusion
    Space capabilities are essential at all levels of military planning 
and operations. To win the long war, we must leverage our space 
contributions along with all elements of national power. As the DOD 
Executive Agent for Space, I am confident that the directions outlined 
here will help us improve the way we use existing space assets, acquire 
new capabilities, and integrate with other stakeholders relying on the 
National Security Space community today and into the future. Thank you 
for the opportunity to present our approach and our emphasis on 
integration, back to basics in acquisition, and our space workforce.
    I appreciate the continued support Congress and this committee have 
given to help deliver vital space capabilities, and I look forward to 
working with you.

    Senator Sessions. Thank you.
    Next is, I believe, Admiral Deutsch.
    Admiral Deutsch. Thank you, sir. If I may, I'd like to just 
ask that my comments be introduced into your record, and unless 
you have any questions or a response that you'd like from me 
now, I'll save my comments for later.
    [The prepared statement of Admiral Deutsch follows:]

           Prepared Statement by RADM Kenneth W. Deutsch, USN

    Mr. Chairman, distinguished members of the committee, I am honored 
to appear before you today to address Navy space activities. As the 
acting Deputy Chief of Naval Operations for Communications Network, we 
provide the space and cyberspace capabilities necessary to support the 
warfighting efforts of the long war against terrorism and to support 
the naval forces of the future.
    Space and cyberspace are critical to FORCEnet. FORCEnet, the means 
by which the power of sensors, networks, weapons, warriors and 
platforms are networked in a combat force, integrates Sea Strike, Sea 
Shield, Sea Basing, and Sea Shaping, the pillars of Sea Power 21. 
FORCEnet is the catalyst that makes naval transformation possible and 
will allow the Navy to support the long war against terror, defend the 
homeland, and counter potential adversaries.
                  space support to the navy warfighter
    The 21st century environment is one of increasing challenges and 
complex environments, requiring greater speed of decision and precision 
in action. Warfare today and in the future is about speed--acting 
quickly in the global commons of the seas, space, and cyberspace before 
an adversary saturates or even penetrates our defenses. It will also be 
about persistence--having the duration and vantage point to find 
threats and counter them with precision. In the future, assured access 
to the spectrum of space capabilities will be the key to giving 
decision makers the advantage of speed and the forewarning of 
persistence to respond to the full range of military operations, from 
the global war on terror to major combat operations.
    Admiral Spruance once defined Sea Power as ``pushing our front 
lines as far forward as possible.'' In addition to integrating space 
capabilities throughout the naval forces and shaping joint 
deliberations to assure combat effectiveness, we will work to push our 
front lines into space in order to meet future challenges. Navy ships 
at sea are extremely dependent on space-based assets for beyond line of 
sight communications, threat information and situational awareness. We 
want to be able to operate from the commons--sea, cyberspace and 
space--with a continuum of affordable options. The Navy is interested 
in space as a key part of FORCEnet. Integrating space capabilities, 
particularly military satellite communications, Intelligence 
Surveillance, and Reconnaissance (ISR), environmental sensing, and 
position, navigation, and timing throughout the naval force to make 
space tactically relevant is fundamental to our Sea Power 21 vision.

                         THE NAVY'S INVESTMENT

    The Navy's space investment portfolio reflects our partnership with 
the Department of Defense's (DOD) Executive Agent for Space and the 
rest of the National Security Space community--as well as our maritime 
responsibilities. We rely on the Air Force and National Reconnaissance 
Office (NRO) to acquire most of the major space platforms, 
collaborating on the required capabilities, and then we purchase user 
equipment for the fleet. The Navy's Space Cadre works closely with 
these entities, providing the leadership and technical expertise 
necessary to leverage the Navy's interests in space throughout the 
entire acquisition process. We also take the lead in tackling maritime 
challenges through our participation in the Science and Technology/
Research and Development (S&T/R&D) process.

                      MOBILE USER OBJECTIVE SYSTEM

    The Navy's major space segment responsibility to the joint 
community is the narrowband satellite communications constellation. 
Today it consists of Ultra-High Frequency (UHF) Follow-on UFO and will 
be replaced by Mobile User Objective System (MUOS) in 2010. The MUOS 
program is preparing for the Key Decision Point (C) Defense Space 
Acquisition Board in July 2006. The program is currently on cost and on 
schedule for an initial operational capability (IOC) in 2010. MUOS will 
provide ``communications on the move'', through double canopy foliage 
and in urban environments to small antennas used by disadvantaged 
users. MUOS is the common denominator for command and control providing 
the capability to communicate from tactical to theater levels, to 
allies and coalition partners and between defense and non-defense 
agencies. MUOS will allow a more comprehensive and coordinated approach 
to regional engagement, providing the capability to synchronize efforts 
with other Services, agencies, and allied nations.
    MUOS is critical to satisfying the demand for tactical satellite 
communications. During Operation Enduring Freedom, UFO and LEASAT 5 
were unable to support 20 percent of narrowband tactical UHF satellite 
communication requirements. Additionally, in the 2010 timeframe, LEASAT 
5 will reach end of its service life and UFO is expected to reach an 
unacceptable level of availability in August 2009 leaving a potential 
gap before MUOS is operational. Complete loss of these UHF satellite 
communication resources would have a significant impact on combat 
operations if not replaced by MUOS. Today, UFO supports approximately 
500 accesses worldwide. Based on evolving future warfighting concepts 
in support of the Defense Planning Guidance (DPG), access requirements 
have grown by at least a factor of four and MOUS as envisioned will be 
able to support that requirement. As Lockheed Martin refines its 
design, we expect this capacity to grow.

                                  ORS

    Keeping with the objective to maximize space support to the Navy 
Warfighter, we are interested in Operationally Responsive Space (ORS) 
because of its potential to provide a more affordable way to get beyond 
the line of sight of communication capabilities and rapid-reaction ISR 
sensors, on orbit, in a tactically relevant timeframe to respond to 
asymmetric challenges and hedge against uncertainty. In a resource-
constrained environment, it is crucial to not over match capability to 
requirement. It is equally important to not under match capability to 
requirement, putting mission accomplishment and lives at risk. 
Increasing the options available for the warfighter with a balanced, 
tiered architecture for space capabilities increases the warfighter's 
ability to get exactly the right capability to match his need.
    The Joint Task Force Commander needs a wide spectrum of options, 
capabilities, and timeframes to choose from to meet his operational 
requirement. ORS could offer an additional element in a tiered system 
that includes unmanned aerial vehicles, manned aircraft, high altitude 
air ships and traditional big space systems. It is a potentially cost 
effective way to provide the connectivity that the Sea Base needs to 
mass distributed forces effects. ORS can fill in gaps and provide 
options for space support in areas that lack sufficient coverage from 
national systems or reduce the vulnerability and uncertainty of 
depending on commercial satellite communications or sensors during 
times of conflict. ORS will be particularly useful for equipping the 
littoral combat ship with increased capability to monitor netted 
undersea sensors from standoff distances. It also offers potential for 
improving Maritime Domain Awareness (MDA). By working with existing 
space systems, ORS can help increase the revisit rate for contacts, 
which is the key to tracking in dense maritime shipping environments.
    As part of the joint TacSat and ORS effort, the Office of Naval 
Research is investing $15 million of S&T funds each year in moderate-
to-high-risk projects that result in significant prototypes through the 
Space Innovative Naval Prototype program. Investments are focused on 
naval capability gaps that space can fill such as ship tracking, data 
exfiltration from buoys, submarine detection and cueing and littoral 
characterization. In addition to the Space Innovative Naval Prototype 
investment, Navy actively participates in the joint TacSat efforts 
along with Air Force Space Command, Air Force Research Lab (AFRL), U.S. 
Strategic Command (USSTRATCOM), Army and Marine Corps. Naval Research 
Lab (NRL) in coordination with the Office of Force Transformation built 
TacSat-1 with a shiptracking payload in less than 12 months for $9.3 
million plus $5 million in space parts. It is awaiting launch on a new 
commercial launch vehicle from SpaceX this year. In coordination with 
AFRL, NRL is providing secondary payloads for TacSat-2 and TacSat-3. As 
the result of a joint selection process, NRL is designing and building 
TacSat-4 to provide communications on the move, data exfiltration from 
buoys and blue force tracking over a theater size area. The TacSat 
experiments are already making significant progress on developing 
consensus on standards and novel approaches to reduce costs for small 
satellites. The true test will be when the fleet and other users start 
to experiment with TacSats in an operational environment.
    ORS also has the potential to change future space acquisition by 
introducing a new business model for space. The current TacSat series 
of S&T experiments, and the potential for a small satellite operations 
capability, can be viewed as an acquisition experiment. ORS cycle times 
dictate an acquisition business rhythm that acquires and delivers a 
capability quickly and is flexible enough to adapt to operator feedback 
to improve the next capability iteration. Development and acceptance of 
standards, use of a cyclical business process and cultivation of 
multiple vendors are all likely outcomes from ORS that have the 
potential to positively impact the Navy and joint warfighters.

                              SPACE CADRE

    The Navy's success in effectively integrating space assets to 
enhance our naval force depends on the experience and the skill of the 
Navy Space Cadre. Vice Admiral McArthur, Commander, Naval Network 
Warfare Command, provides strategic guidance on priorities for the 
development and employment of the Navy Space Cadre as the Navy's Space 
Cadre Functional Authority. As a leader on the National Security Space-
Space Professional Oversight Board (the senior officer forum for the 
discussion and resolution of matters concerning space professional 
development within the DOD), he led Navy participation in the 
development of the National Security Space Human Capital Strategy. He 
is updating the Navy Space Cadre's Strategy for Our People, which 
outlines our vision and way ahead.
    The Navy Space Cadre is a distinct body of expertise horizontally 
and vertically integrated within the Navy's Active-Duty, Reserve, and 
civilian components organized to operationalize space. Members of Navy 
Space Cadre are assigned to the NRO, the National Security Space 
Office, USSTRATCOM, several Joint Program Offices, and throughout the 
fleet. The Space Cadre will continue to provide the critical insight 
and technical expertise necessary to leverage Navy, DOD, and other 
agency investments in space and optimize warfighting capabilities.
    The Navy Space Cadre Advisor is working closely with her Service 
counterparts to meet both Navy and National Security Space goals and 
ensure that the Space Cadre is equipped with the proper balance of 
education and experience. The Naval Postgraduate School (NPS), Space 
Systems Operations and Space Systems Engineering curricula continue to 
provide the Navy and other Services graduate education, post-graduate 
(Engineer) degrees and doctoral degrees. Additionally, NPS offers an 
online Space Systems Certificate Program in which participants receive 
instruction on the integration of space capabilities across joint 
forces and a better understanding of what space effects can 
realistically provide with reference to networks, sensors and weapons. 
The Navy sends select Space Cadre members to courses offered by the 
National Security Space Institute that focus on the application and 
employment of space capabilities at the tactical and operational levels 
as a force enhancer and multiplier. We also have a formal Educational 
Alliance with the Air Force through a memorandum of agreement between 
NPS and the Air Force Institute of Technology, with the goal of 
leveraging strengths and eliminating duplication in space education.

                                SUMMARY

    Our mission remains bringing the fight to our enemies. The 
increasing dependence of our world on the seas, coupled with growing 
uncertainty of other nations' ability or desire to ensure access in a 
future conflict, will continue to drive the need for naval forces and 
the capability to project decisive joint power by access through the 
seas, space and cyberspace. Accordingly, we will continue to fight the 
global war on terror while transforming for the future fight. We will 
continue to refine our operational concepts and appropriate technology 
investments to deliver the kind of dominant military power from the sea 
envisioned in Sea Power 21. We will continue to pursue the operational 
concepts--such as MDA--even as we invest in technology and systems to 
enable naval vessels to deliver decisive, effects-based combat power in 
every tactical and operational dimension. We understand that space 
capabilities will be critical to our efforts and must be integrated 
throughout the naval force . . . and we understand that because the 
future of the Navy is tied to space, we must succeed in growing and 
maintaining our space cadre. We also look forward to continuing our 
strong partnership with our Joint Brethren--a relationship that has 
brought us many successes to date.
    Fully integrating the warfighting capabilities that space systems 
present to our warfighters is one of my priorities. To that end, Navy 
will continue to be a full joint partner in space.

    Senator Sessions. Very good.
    Next is Lieutenant General Chilton.

STATEMENT OF LT. GEN. KEVIN P. CHILTON, USAF, JOINT FUNCTIONAL 
COMPONENT COMMANDER FOR SPACE AND GLOBAL STRIKE, U.S. STRATEGIC 
                            COMMAND

    General Chilton. Thank you, Mr. Chairman, Senator Nelson, 
Senator Reed.
    It's really a pleasure for me to be here today to represent 
the men and women of U.S. Strategic Command (STRATCOM) on 
behalf of General Cartwright, who sends his regrets for not 
being able to join us today.
    My job at STRATCOM is Commander of the Joint Functional 
Component Command for Space and Global Strike. In addition, I 
have the privilege of being the Commander of the ``Mighty 
Eighth'' Air Force in the United States Air Force. I have the 
great privilege to serve in those capacities.
    Today, though, I'd like to, of course, speak about my role 
in STRATCOM.
    I think it would be hard to argue against the fact that we 
have great capabilities in space today in the DOD. Indeed, some 
might argue that we have space superiority today. I believe 
there's a compelling need for us to maintain and sustain this 
superiority as we move off into the future. When you consider 
who our ultimate customers are, this is an easy argument to 
support, I would suggest, because our customers, ultimately, 
are the soldiers, sailors, airmen, and marines who rely on 
these space assets day in and day out to conduct operations in 
defense of our country.
    Our warfighters have grown used to using the assets that 
space brings to the fight today. They certainly deserve to 
continue to have those assets available to them, as well as 
improvements and new and better capabilities.
    The soldier in the trench ought to be able to find out and 
know on demand who is on the other side of the hill that he's 
going to face. The sailor ought to have insight into what 
forces are hulled down over the horizon to his force. The 
airman should know what's going on below that cloud deck below 
him, and have that information readily available to him. These 
are the kind of capabilities that we need to continue to 
enhance and bring forward for our warfighters, in addition to 
sustaining such capabilities that the GPS constellation brings 
today, the ability to precisely locate yourself on the barren 
wasteland of a desert or in the densest jungle of the world or 
out on the open sea. Perhaps even more importantly now, after 
the latest weapons that we've seen developed, to be able to 
leverage the precision guidance capability that GPS brings to 
the weapons systems that we can bring to bear on our 
adversaries.
    Our warriors also need voice and data connectivity so that 
they can receive orders up and down their chain and communicate 
horizontally within their organizations at the tactical, 
operational, and strategic levels, so that we can stay one step 
ahead of our adversaries in the battlefield of the future.
    Dr. Sega gave a great example of how we can understand, 
observe, and predict weather with our space assets, a 
capability that can really have an important and dramatic 
impact on the outcome of an operation. We need to be able to 
continue to make sure we have this knowledge and insight so 
that we can use weather to our advantage in the future, and to 
the disadvantage of our adversary.
    Of course, we've grown accustomed to missile warning, not 
only at the strategic level for our Nation, but at the tactical 
level, as well, in theater. Our troops deserve to have that 
capability provided to them, so that they know exactly what 
protective measures to take when they come under attack.
    Our space assets today remain a key enabler for many of 
these capabilities; in some cases, the only provider of these 
capabilities to our warriors.
    A good military person always tries to put on the hat of 
the adversary and reflect back on how you would fight that 
particular individual when you go to combat. If I were to put 
on the hat of adversary and look at the U.S. dependence on 
space and how accustomed we have grown to using it, I would 
also be tempted to look at that as a vulnerability that I may 
want to try to exploit to help level the playing field in any 
future conflict. Indeed, it is not only our warriors who would 
be affected by attacks on our space infrastructure, but the 
economy of the United States and the quality of life that we've 
come to enjoy just day in and day out in our daily lives, from 
GPS to satellite communications and more.
    So, our adversaries, I suggest, understand our dependence. 
From that perspective, I think it's important that we pay 
attention to defense--not only increasing the capabilities we 
have, but defending those capabilities now and into the future. 
We have to be equipped to assure our allies and to deter and 
defeat our adversaries, should they decide to go after our 
space capabilities.
    The QDR gave us a good look into the future of what our 
needs might be when it said future forces will place a premium 
on capabilities that are responsive and survivable. So, I'd 
like to talk a little bit about responsive space operations.
    Now, Senator Nelson, I know your background, having flown 
on the space shuttle. It's a marvelous vehicle that can do 
incredible things even today that are hard to imagine. But to 
call it responsive in getting off the launch pad, I think you 
would probably agree that responsive probably is not the right 
adjective for it, given the number of times that you scrubbed, 
getting ready to fly. This fact doesn't diminish the importance 
of that capability.
    On the other hand, what the military would like to see, and 
what we'd like to have as a capability in the future, is a 
truly responsive capability to put assets into space, something 
that takes hours, not months, to launch; a satellite that can 
be put up quickly and then made to operate quickly. There's 
several elements of this concept. We have to address how we 
launch satellites. We have to address the booster to make sure 
it's responsive, as well. We have to address satellite design 
to make sure once it's up on orbit it doesn't take 3 months to 
check out, but just hours or minutes. Then we have to address 
the command and control of those constellations if they're 
truly going to be responsive, so that they can serve our 
purposes when they're up.
    STRATCOM is a big advocate for what we call responsive 
space operations, or you may have heard it called operationally 
responsive space, or several other acronyms, but all are names 
for this capability to put up small constellations of 
satellites quickly, in an affordable manner.
    To what purpose? A couple of scenarios I can think of. One 
might be where there are activities that we are suspicious of 
going on over what we would call ``denied airspace'' today, 
deep inside a country where we could not bring to bear air-
breathing assets to focus intelligence, surveillance, or 
reconnaissance (ISR) on. It may be that we want to increase the 
amount of intelligence we're gathering on that particular area 
for that particular crisis period or to defuse a potential 
crisis. This would be a good opportunity to be able to launch a 
small, relatively inexpensive constellation that could increase 
our ISR coverage in that particular area of concern.
    Also, with the global war we're fighting today against 
terrorists, one cannot predict where next the crisis will 
develop around the globe. In this regard, there could be a 
scenario where multiple crises develop that could put stress on 
our current capability to surveil and keep track of those 
crises. Again, another scenario where perhaps a responsive 
space capability to supplement or augment our current 
capabilities, whether they be in surveillance or 
communications, could be advantageous to the warfighter.
    Shifting back here to the concept of space defense, and 
XSS-11, which Dr. Sega brought up, responsive space capability 
might be good for the case where one of our satellites on orbit 
has something go wrong with it, and we don't know what caused 
the problem. Having the capability to quickly launch a small 
satellite that could go up and surveil our own satellites to 
determine if that damage to the satellite or the reason it 
became inoperative, was caused by a systems failure, a natural 
failure, or by the actions of an adversary, could be very 
important in defusing a potential crisis situation in the 
future.
    The capabilities that we have today, and the ones that we 
see on the drawing board in the future that Dr. Sega has 
painted here on acquisition, make these exciting times to be 
involved in the space business. The challenges we have in front 
of us, too, also make it a very exciting time for me to be a 
part of this. I'm very appreciative of that opportunity.
    I look forward to our working together to meet both these 
challenges and explore new opportunities as we move forward. 
Mr. Chairman, I thank you very much for giving me the 
opportunity to make these opening remarks, and I look forward 
to answering your questions.
    [The prepared statement of General Chilton follows:]

         Prepared Statement by Lt. Gen. Kevin P. Chilton, USAF

    Mr. Chairman, Senator Nelson, and members of the subcommittee: 
Thank you for this opportunity to review U.S. Strategic Command's 
(USSTRATCOM) and specifically Joint Functional Component Commander 
Space and Global Strike's (JFCC- S&GS) progress during the past year 
and to present our plan for the future. 2006 is a year of unprecedented 
change. Our ultimate goals are driving the pace of change: building 
strategic advantage, ensuring the security of the American people and 
strengthening the community of free nations.

      ADAPTING TO THE NEW ENVIRONMENT--TRANSFORMING WHILE WE FIGHT

    One year ago, we spoke of global interdependence and its impact on 
how we organize, plan and operate. We emphasized developing strong 
links between U.S. strategic objectives and regional operations, as our 
adversaries were employing asymmetric means to strike well beyond the 
battlefields of Iraq and Afghanistan. We also spoke of our new mission 
assignments and the steps we had undertaken to transform our command 
into an agile 21st century organization capable of deterring our 
adversaries and bringing the full range of global strike, defensive, 
command and control (C2), and intelligence, surveillance, and 
reconnaissance (ISR) capabilities to bear against them if necessary. We 
outlined an enormous transformational effort that had to be 
accomplished in the context of an ongoing global conflict with active 
combat operations and without the luxury of an operational pause.
    Throughout the last year, the men and women of USSTRATCOM have 
engaged in that global conflict, often employing means not visible 
either to the average American or to our adversaries. They met this 
day-to-day challenge with professionalism and commitment while they 
were also restructuring our organization to focus our efforts, conserve 
our resources, and streamline support to other combatant commanders 
around the world. I come to you today gratified by the progress these 
fine men and women have made and energized to complete the task before 
us.

                   USSTRATCOM TRANSFORMATION VECTORS

    The Department of Defense (DOD) budget you enacted for 2006 enabled 
a string of organizational and operational successes along all of 
USSTRATCOM's transformation vectors.
    We changed the way we are organized and operate. We implemented, 
and by the end of 2006 will refine, the redistributed and functionally 
aligned command structure described last year. This new structure is 
already paying off in terms of decentralized operational employment and 
increased operational speed.

        <bullet> Our efforts resulted in four interdependent Joint 
        Functional Component Commands (JFCCs): Intelligence, 
        Surveillance and Reconnaissance (ISR); Network-Warfare (NW); 
        Integrated Missile Defense (IMD) in addition to Space and 
        Global Strike. Day-to-day operational planning and execution of 
        specialized global capabilities now reside at the component 
        level, where commanders are able to maintain focus on their 
        primary mission and not be distracted by staff support 
        activities.
        <bullet> As Commander, JFCC-S&GS, I am responsible to the 
        Commander, USSTRATCOM to integrate all elements of military 
        power to conduct, plan, present global strike effects and also 
        direct the deliberate planning and execution of assigned space 
        missions. * One of JFCC-S&GS significant accomplishments last 
        year was the establishment of a collaborative Joint Space 
        Operations Center (JSpOC) to deliver select DOD space 
        capability to U.S., Allied, and other national users. When 
        fully operational, JSpOC will provide the full range of DOD 
        space capabilities.

    By making this unique organizational transformation we also 
strengthened our operational relationships with the Defense 
Intelligence Agency (DIA), Defense Threat Reduction Agency (DTRA), 
Defense Information Systems Agency (DISA), and National Security Agency 
(NSA) in order to leverage the tremendous resources and capabilities 
resident in these organizations. Now we effectively bridge many 
artificial barriers to communications and information sharing, and 
bring enhanced combat power to the regional combatant commanders.
    We made progress in our drive toward a New Triad of capabilities. 
The New Triad is comprised of offensive and defensive capabilities 
enabled by persistent global command and control (C2), intelligence, an 
agile planning system, and a responsive defense infrastructure. The New 
Triad provides improved flexibility in dealing with a wider range of 
contingencies, while reducing our dependence on nuclear weapons, in 
order to assure our allies, dissuade competitors, and deter those who 
plan to harm us, particularly with weapons of mass destruction (WMD). 
Space is integral to many of the capabilities represented in the New 
Triad.
    Efforts to improve conventional global strike capability focused on 
generating effects without being hindered by factors of time, distance, 
basing rights, over-flight considerations or undue risk to American 
service men and women. Recently the Department:

        <bullet> Bolstered the number of Joint Direct Attack Munitions 
        (JDAM) in the inventory, providing all weather, precision 
        strike in a smaller weapon footprint.
        <bullet> Fielded Tactical Tomahawk (TACTCOM) and the Joint Air 
        to Surface Stand-off Missile (JASSM), providing strike weapons 
        that operate from ranges outside enemy point defenses.

    During the past year non-kinetic capabilities became an 
increasingly important tool to deny our adversaries the opportunity to 
communicate easily or to manipulate information in ways that further 
their efforts to undermine stability around the world. We seek better 
non-kinetic capabilities to improve our freedom of action at the lowest 
level of conflict; to enhance deterrence; and support the sustained 
ability to use our networks while denying the adversary a similar 
capability. In this area we:

        <bullet> Expanded development of the applicable tactics, 
        techniques, and procedures to support use of information and 
        networks--cyberspace--as an environment for integrated 
        exploitation, offensive, and defensive operations.
        <bullet> Improved integration of non-kinetic effects into 
        operational planning, on a limited basis, in support of forces 
        involved in the global war on terrorism.

    The President has committed the United States to sustaining a 
credible nuclear deterrence capability with the lowest possible number 
of nuclear weapons consistent with national security. USSTRATCOM's task 
is to ensure our nuclear force remains ready to meet any contingency 
while the nuclear stockpile remains safe, secure, and reliable as we 
prudently achieve the thresholds specified in the Moscow Treaty. To 
this end we:

        <bullet> Sustained a safe and reliable nuclear stockpile in 
        cooperation with the national laboratories and the National 
        Nuclear Security Administration (NNSA).
        <bullet> Took steps to improve the security and safety of the 
        deployed nuclear force.
        <bullet> Retired the last Peacekeeper Inter-Continental 
        Ballistic Missiles (ICBM) from service.
        <bullet> Reduced the number of operationally deployed strategic 
        nuclear warheads on the Minuteman III ICBM force.
        <bullet> Transferred the final ballistic missile submarine 
        scheduled for reconfiguration to carry conventionally armed 
        cruise missiles.

    At the heart of the New Triad are the key enablers of command and 
control, intelligence, and planning. Through these enablers, and our 
broad array of space capability, we create the agility to respond to a 
wide range of global challenges. During 2006 we will:

        <bullet> Evolve the renovated USSTRATCOM Global Operations 
        Center to enhance collaboration among all geographically 
        distributed USSTRATCOM elements--defining the first step toward 
        a Global C2 capability for all New Triad forces.
        <bullet> Complete preparations for opening the first node in a 
        network of ground entry points designed to serve a nationally 
        distributed ground, air and sea network capable of providing 
        the diverse connectivity requirements of the New Triad and DOD 
        support to a broader national command capability using all 
        elements of national power.
        <bullet> Capitalize on the longer dwell time of unmanned and 
        unattended sensors to produce greater persistence in global war 
        on terrorism operations.
        <bullet> Initiate a pilot program to determine essential global 
        strike command and control services with an explicit objective 
        of delivering a distributed, collaborative product. The pilot 
        program will take advantage of the Department's Data Strategy, 
        which calls for visible, accessible and understandable data, 
        and uses Services Oriented Architectures (SOA) to promote 
        flexibility and agility.
        <bullet> Initiate efforts to transition from a limited space 
        surveillance architecture to a more fully integrated 
        terrestrial and space-based approach to situational awareness.
Improve Space Capabilities
    The space mission area creates a decisive strategic advantage for 
our national security, empowering critical economic as well as defense 
related activities. Our dependence on space capabilities, coupled with 
recent significant advances in space operations demonstrated by others, 
establishes a true imperative to protect our space assets and our 
freedom of action in space. USSTRATCOM understands the need to stay at 
least one technology generation ahead of any foreign or commercial 
space power. We must improve space situational awareness and 
protection, and ensure unfettered, reliable, and secure access to 
space. Key initiatives include:

        <bullet> Improve responsive space access, satellite operations, 
        and other space enabling capabilities such as the space 
        professional cadre.
        <bullet> Integrate air and space capabilities to deliver 
        combined effects.
        <bullet> Realign resources to sustain existing space 
        surveillance capabilities.
        <bullet> Improve warfighter access to the Nation's full 
        spectrum of space capabilities.

    USSTRATCOM REQUESTS YOUR SUPPORT TO MEET THE CHALLENGES WE FACE

    Over the next 5 years, we must fully transform while remaining 
engaged in a conflict in which our enemies will use any and all means 
to achieve their objectives. We believe a more aggressive 
transformation schedule than envisioned 5 years ago is essential to 
maintain the strategic advantage needed to deter or defeat those who 
would do us harm. If we do not accelerate this transition, we will face 
these adversaries, who attack through asymmetric means, with the blunt 
weapons of last resort that won the Cold War. That alone will not 
preserve our future national security. In particular we are requesting 
your support in the following areas:
Prompt, Precision Conventional Global Strike
    Tailored deterrence requires a more complete range of capabilities 
to address the wide spectrum of challenges that confront us today. 
While the Department employs expeditionary forces around the globe, it 
is unlikely we will have forces in every place we need them at the 
crucial moment when we have an opportunity to stop a WMD-armed threat 
far from our shores. The United States has the capability to engage 
with high quality conventional forces around the world, given days or 
perhaps weeks to respond. But if our general-purpose forces are not in 
a position to respond rapidly, the need to defeat attacks against the 
United States may require USSTRATCOM to interdict fleeting targets at 
global ranges. We have the delivery capability on alert today, but 
configured only with nuclear weapons. This choice is not credible 
against many of the extremist adversaries we will face.
    We recommend proceeding with development of the responsive, 
conventional global strike alternative offered by the Conventional 
Trident Modification (CTM). The President's budget request includes 
funds for the modification of a number of submarine based Trident 
Missiles to deliver conventional warheads with precision over thousands 
of miles in tens of minutes.
Global Command and Control (GC2)
    We are now faced with the task of recapitalizing our aging, Nuclear 
Command and Control (NC2) network, which is a matter of prime 
importance. Capitalizing on advances in technology, we envision a 
transition from the single-purpose, stove-piped NC2 network that served 
us during the Cold War, to a multi-functional, distributed, survivable, 
and expandable Global Command and Control capability, leveraging the 
assets and resources of the Global Information Grid and serving the 
needs of our joint warfighters.
    With your support for the President's budget request, we can 
deliver a resilient air, land, and maritime GC2 capability that will 
tie together all elements of New Triad power. Fully developed, the GC2 
will enable collaboration between, and among, DOD and other government 
agencies and partners, providing the core of a National Command 
Capability to meet the broadening array of potential challenges we face 
as a nation. A true National Command Capability will only be effective 
with federally mandated standards for data tagging to facilitate 
enhanced information sharing.
Reliable Replacement Warhead
    Finally, if we are to break the cycle of maintaining and 
refurbishing large numbers of Cold War-era nuclear warheads to guard 
against uncertainty, we request your support to ensure a safe, secure, 
reliable nuclear stockpile, and in the process transform the nuclear 
weapons enterprise. Discussions over the past year within the executive 
branch and Congress have increased understanding of the role for 
nuclear weapons in our current environment, and the value of a 
responsive defense infrastructure. USSTRATCOM supports the Reliable 
Replacement Warhead (RRW) as the key to transforming our aging Cold War 
nuclear weapons stockpile. RRW will enhance our long-term confidence in 
the stockpile and reduce the need to retain high numbers of hedge 
weapons while exercising the people, science, technology base, and 
facilities required for sustaining the nuclear weapons enterprise.
    Maintaining the current stockpile of Cold War era weapons is a 
challenge. If directed, we believe the time is right; the risk is 
manageable; and the opportunity is at hand to choose weapons that will 
best serve our future and allow us to further reduce our overall 
stockpile size, in order to transition to and maintain a smaller but 
safer, more secure, and more reliable nuclear weapon arsenal.

    USSTRATCOM TRANSFORMATIONAL VECTORS BUILDING STRATEGIC ADVANTAGE

    USSTRATCOM plays an important role in leading national efforts to 
send an unambiguous message to our adversaries and friends alike--we 
will do whatever it takes, for as long as it takes, to ensure the 
forces of freedom possess a lasting strategic advantage against those 
who would deny citizens of America and the world the security to govern 
their own future. We will continue to be aggressive and resourceful in 
offering our best advice in the pursuit of capabilities needed to meet 
our national security requirements. With your help we can assure our 
allies, dissuade unhealthy competition, deter coercive or damaging 
acts, and above all else, defend our citizens and defeat our enemies. 
Thank your for your continued support.

    Senator Sessions. A good presentation, General Chilton.
    General Hamel.

STATEMENT OF LT. GEN. MICHAEL A. HAMEL, USAF, COMMANDER, SPACE 
      AND MISSILE SYSTEMS CENTER, AIR FORCE SPACE COMMAND

    General Hamel. Thank you very much, Mr. Chairman, Senator 
Nelson, Senator Reed. It is a true privilege for me to be able 
to appear before this committee today. I am pleased to be able 
to represent the Air Force's Space and Missile Systems Center. 
I would like to say that we have a critically important 
mission, a very proud heritage, and a highly-skilled workforce 
of some 4,500 people that are performing our space acquisition 
mission.
    Space has evolved since the mid-1950s as a fledgling 
research effort to the point today where it has been pointed 
out that we are an indispensable element of our Nation's joint 
warfighting capabilities. I'm privileged to serve as the 
Commander of the Space and Missile Center, as well as the Air 
Force's Program Executive Officer for Space, and, in that 
capacity, have responsibility for developing, acquiring, 
fielding, and supporting a broad set of satellites, launch 
vehicles, missile systems, radars, ground systems, and user 
equipment for joint force operators.
    Now, we are very proud of the accomplishments over the 
years which we have been able to achieve, including, most 
recently, having set the longest successful string of 
successive launch missions in the history of the military space 
business. We have the most robust set of satellites on orbit, 
performing missions, and, as you pointed out here, they are 
truly integrated into every aspect of air, land, and maritime 
warfare on a global basis. We also have a fantastic set of 
products that are in the development pipeline.
    We also recognize that we have problems. I would like to, 
today, be able to reassure you that we are addressing these 
problems with full focus and determination.
    If I might, just in a minute here, give you an idea of the 
kind of things that we're doing to get acquisition on track. 
Our overarching strategy, as Dr. Sega said, is really based 
upon the idea of getting back to basics. We are reestablishing 
structure and discipline and rigor by applying strong systems 
engineering principles across all of our programs and 
processes. We're ensuring that we have testing built into the 
systems from very early on, that we have mission assurance 
processes that are to be applied from the very beginning of a 
program. Likewise, we understand that it's not just about the 
technical aspects of the program, but it's also about how it is 
we manage costs and schedule and risk throughout. In that vein, 
we are actually improving our cost-estimating capabilities so 
we have higher confidence, when we propose programs, that, 
indeed, we can deliver on our promises.
    Another focus of our ``back to basics'' process is 
redefining and renewing partnerships across the space 
community. That means developers such as the organization that 
I am in charge of, and our operators that are represented by 
General Chilton and other users out there, soldiers, sailors, 
airmen, and marines across the joint force operations, and 
industry, whom we depend upon to actually produce the systems 
that will be put into operations. As I refer to it, space is a 
team sport, and it requires all players play with high 
efficiency and effectiveness to deliver a winning score.
    Another priority is to make sure that we get an absolutely 
top quality acquisition workforce. People are our most 
important asset. We are going about a revitalization of the 
workforce that includes military, civilians, federally-funded 
R&D centers, as well as working with industry to ensure that we 
have the right skill sets. We're trying to attract, retain, 
train, educate, and mentor a whole new generation of space 
acquisition professionals to ensure that, indeed, we're up to 
the task. As I like to say it, we know what the recipe is, but 
we also have to make sure that we have the right cooks in order 
to be able to produce the products that we expect.
    Another thing we're doing at the Space and Missile Center 
is presenting a horizontal integration capability. What I mean 
by that is, is that instead of having individual stovepipe 
programs, we are trying to build in cross-program capabilities 
and engineering architectures, program management, acquisition 
strategies in contracting, so that we learn across the many 
programs and actually apply the best practices, and, likewise, 
reach to other organizations and agencies, such as the National 
Reconnaissance Office (NRO), as well as National Aeronautics 
and Space Administration (NASA) and others, to really apply 
best practices across all of our programs so that we are, 
indeed, a learning organization.
    Dr. Sega talked extensively about the incremental block 
development approach, and we are applying that to programs 
across the board. He spoke about the TSAT, but we are, 
likewise, applying this to the GPS program to space-based space 
surveillance and other programs to ensure that we take this 
very measured, deliberate approach in developing and fielding 
capabilities.
    I'll tell you, sir, that it's going to take time to achieve 
full results, but we really are making significant progress in 
rebuilding our acquisition and development capabilities, 
getting our troubled programs on track, and ensuring that new 
programs that we're pursuing are going to have the full rigor 
and discipline to be able to deliver the capabilities that we 
promise from the very beginning.
    We appreciate very much the support we have from Congress 
for the programs, as well as the budgets we're requesting, 
because we believe that these are essential for ensuring that 
our Nation and its military forces will retain their unique 
advantages in the battlefield from space.
    I appreciate the opportunity for a few opening remarks, and 
will submit my formal statement for the record, sir.
    [The prepared statement of General Hamel follows:]

          Prepared Statement by Lt. Gen. Michael A Hamel, USAF

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, it's a 
great honor to appear before you today to represent the Air Force (AF) 
Space and Missile Systems Center (SMC) and discuss the budgets and 
progress of AF space acquisition programs. SMC has a critically 
important mission, a proud heritage and a highly-skilled force of some 
4,500 space acquisition professionals. Our roots date back to 1954 when 
the U.S. Air Force activated the Western Development Division under the 
leadership of Brigadier General Bernard Schriever to develop 
intercontinental ballistic missiles (ICBMs) for the Nation. Ultimately, 
those early innovations laid the foundation for our Nation's entire 
military space program. Now, more than 50 years later, we are leading 
the development and acquisition of critical military space capabilities 
for the 21st century. The space frontier is critical to our Nation's 
warfighters and SMC delivers the operational capabilities to control 
and exploit the ultimate high ground of space.
    Space has evolved since the mid-1950s from a fledgling research 
organization to an indispensable element of our Nation's joint 
warfighting capabilities. I am privileged to serve as the Commander of 
SMC and the AF Program Executive Officer (PEO) for Space and am 
responsible for developing, acquiring, fielding and supporting a 
comprehensive set of satellites, launch vehicles, missiles, radars, 
ground systems, and user equipment. SMC has been the premier space 
development and acquisition organization within the Department of 
Defense (DOD), and provides the majority of space operational 
capabilities for the AF and DOD.

                               SMC TODAY

    Today, SMC is simultaneously supporting and sustaining current 
operational capabilities in-orbit, developing the next generation of 
space and ground systems, and demonstrating advanced systems and 
technologies that will transform future military operations. The 
progress and accomplishments we've achieved in the recent past are most 
impressive. In the launch business, we have successfully transitioned 
from our legacy launch systems to the new, more flexible family of 
reliable launch vehicles. The last of the Titan launch vehicles 
thundered into the history books in October 2005 setting the new record 
for consecutive major launch successes at 43 in a row. The new evolved, 
expendable launch vehicles--Atlas V and Delta IV--are proving their 
value with every new launch--the most recent being National Aeronautics 
and Space Administration's (NASA) New Horizons Pluto mission to space 
on 19 January 2006.
    Our satellite constellations are capable and robust, performing 
well beyond their designs. For example, our defense weather satellites 
were designed for 3 years of life, yet Flight Vehicle 13 just reached 
11 years of on-orbit service. These systems continue to provide 
operational service which we've come to depend on, and sometimes take 
for granted.
    Although the Space Based Infrared Systems (SBIS) program has 
experienced significant difficulties, we have recently delivered two 
sensors to fly on host satellite platforms and are well along in 
testing of the geostationary orbit sensor and satellite bus. This 
system promises to provide much improved capabilities to detect, warn 
and defend against ballistic missiles, as well as provide new 
battlefield and intelligence information. We're looking forward to 
launching this very important system within a few years.
    The Global Positioning Satellite (GPS) constellation has 
transformed military operations, as well as civil transportation, 
banking, communications, energy and many other aspects of modern life. 
Last fall we launched the first modernized GPS satellite, which 
provides important new signals and services for both military and civil 
users, and have improved accuracy to users by some 15 percent. While we 
continue to improve on orbit capabilities and user services, the GPS 
constellation is aging. We are aggressively working to develop and 
deploy new GPSIIF satellites and to pursue the next generation system, 
GPSIII.
    We are developing a full array of advanced satellite communications 
systems that will provide wideband, protected, broadcast, tactical and 
data relay capabilities for joint expeditionary operations. Modern 
military operations requires massive quantities of information and 
communications across the battlefield and around the globe--space based 
communications systems provide the rapid, responsive means to link 
commanders, combat forces and information across the battlespace. We 
have a number of developmental products in the pipeline. The Advanced 
Extremely High Frequency satellite, the Wideband Gapfiller Satellite 
and the Transformational Satellite program will offer combatant 
commanders options unthinkable only a few years before.
    In addition to individual programs, SMC is also realigning its 
organization and processes to improve program development and execution 
across the space enterprise. We are reinstituting our space 
developmental planning organization to better refine concepts, 
technologies and future programs. We are restoring our systems 
engineering, architectures, program management, cost estimating, test 
and evaluation and program control capabilities across the entire 
center. These efforts will ensure better understanding of the costs, 
risks, and performance of new concepts and technologies before 
committing to major acquisition programs and improve execution of 
system developments and procurements.
    We're proud of our accomplishments but also recognize we have 
problems, which we are addressing with full focus and determination. 
We've experienced cost overruns and schedule slips in too many of our 
space programs, which has delayed delivery of operational capability to 
the Warfighter, undermined our credibility, and reduced confidence in 
the space development community. There are many underlying causes for 
the erosion of our space acquisition performance, which have been 
identified in various DOD studies and reviews and there is clear 
consensus on steps we need to take to restore acquisition performance. 
We know the ``recipe for success'' in space acquisition and have a 
comprehensive plan to get space acquisition back on track.

                             BACK TO BASICS

    Our overarching strategy to restore acquisition performance is to 
get ``back-to-basics.'' We're reestablishing structure and discipline 
by applying strong systems engineering practices in the early stages of 
each program; by addressing mission assurance from the beginning; and 
by thorough testing of components and systems early and often. We are 
reestablishing standards and specifications in our contracts to insure 
common language and expectation with industry. A rigorous mission 
assurance process is being applied to all launch and satellite programs 
to insure strict adherence to design, parts, testing and quality 
control standards from system development through on-orbit checkout.
    Cost estimating is a critical element of the space acquisition 
process. We're working hard to improve schedule planning, cost 
estimating and risk assessment on all programs to better forecast how 
many taxpayer dollars will be needed for each mission. It is critical 
that we provide lawmakers with accurate estimates to increase 
confidence when making decisions on these systems. We must better 
understand cost, schedule, requirements and risk trades if we are to 
make informed program decision and better assure mission success. We're 
also restoring strong program control functions and expertise within 
our systems program offices. This will allow us to more effectively 
plan, monitor and assess contactors' cost, schedule and technical 
performance in individual programs and across families of systems. The 
program control function is critical to maintaining a true picture of 
program status and baseline control.
    Another focus area of SMCs ``back to basics'' strategy is renewing 
and redefining partnerships across the space enterprise--developers, 
operators, users and industry. Space is a ``team sport'' and every 
member of the team must perform to their highest level if we are to be 
successful. The stakes are high and the environment is unforgiving--we 
do not get two chances to do it right. We have established a 
``benchmarking'' process with all our major contractors to provide 
candid two-way feedback to foster ''best practices'' and continuous 
improvement. The space enterprise is founded on a healthy set of checks 
and balances that are focused on mission success. Personal initiative 
and accountability are essential at all levels since a single lapse in 
attention to detail can spell the difference between success and total 
failure. Effective teamwork between government and industry--prime 
contractors, subcontractors and suppliers--is essential. We can't 
succeed without each other.
    SMC is increasingly focused on our customers--space operators, 
joint warfighters and civil partners. We must understand their needs in 
an unpredictable world, filled with uncertain threats and rapidly 
changing situations. SMC strives to meet their needs with responsive 
development processes and the timely fielding of capabilities. We 
increase our ability to respond by partnering with the Air Force 
Research Lab, Air Force Material Command, U.S. Strategic Command 
(STRATCOM), and other Services and agencies to ensure we provide for 
their needs technically and operationally. The space community will 
achieve its full potential only if we reduce fragmentation and 
conflicting agendas. As the use and dependence on space grows across 
the military, it is imperative that the national security space 
community work in a more coordinated, collaborative, and interdependent 
fashion.
    Last month, Under Secretary of the Air Force, Dr. Ronald Sega, and 
SMC co-sponsored a National Security Space Program Managers' Conference 
to expand teamwork and lines of communication between program managers 
across the National security space community--NRO, MDA, Electronics 
Systems Center (AFMC) and Navy and Army space organizations. This 
collaboration helps share experiences and ``best practices'', provides 
more problem-solving resources, and promotes cross-flow of experience 
and workforce. Instead of competing for valuable resources, such as 
dollars and personnel, we leverage what we have across the space 
enterprise.
    Reductions in the space acquisition workforce of the past decade 
and the loss of critical skills have had direct and significant impacts 
on mission success and program performance. A top priority for the AF 
and SMC is to rebuild the space acquisition workforce. We depend on a 
mix of military, civilian, federally-funded research and development 
contractors (FFRDC) and other support contractors to manage the complex 
developments and contracts. SMC has aggressive efforts underway to 
improve recruiting, retention, education, training, and mentoring of 
our workforce. Through partnerships with the educational, industrial, 
and governmental institutions, we are working to increase the cadre of 
highly talented and experienced space acquisition people to meet the 
needs across the community. SMC is working to attract more officers and 
civilians with technical degrees and higher levels of experience. We 
have established educational programs with universities, military 
institutes (such as the Air Force Institute of Technology (AFIT) and 
the Naval Postgraduate School (NPS)) and defense contractors to enhance 
understanding of system engineering and program management. Assignment 
length for military personnel has been extended from 3 to 4 years to 
insure they gain increased depth of experience, and that we improve 
continuity and accountability in programs. We've also created 
opportunities for leadership development, assigning more civilians as 
deputy program managers, sending greater numbers to Squadron Officers 
School, Air Command and Staff College and the Air War College.
    We depend upon the Aerospace Corporation and other FFRDCs to 
provide deep technical and engineering expertise and continuity in our 
programs. We also augment our workforce with other systems engineering 
and technical assistance (SETA) contractors. We cannot do our job 
without these critical partners. Continued tight budgets will likely 
increase pressures to limit or reduce support contracts--we will work 
to be more efficient, but it is essential that we maintain critical 
skills if we are to effectively manage the billions of dollars in 
development programs.
    Another priority for SMC is to improve horizontal integration 
across our programs and the broader space enterprise. This includes 
organizing to enhance engineering and architectural standards and 
processes; implement best business practices for contracting, 
incentives, and budgeting; improve development planning, modeling and 
analysis and technology planning. Horizontal integration of expertise 
across the space acquisition enterprise creates efficiencies of 
resources and mission accomplishment using ``best practices'' and 
world-class processes across the portfolio. Understanding mission 
requirements and common architectural solutions will allow individual 
program offices to share experiences, resources, and solutions based on 
common systems engineering principles. The payoff of this horizontal 
integration is that the systems SMC delivers to space operators and 
joint commanders will enable more integrated and responsive air, land, 
maritime, space and cyberspace operations.
    Another key to improving acquisition performance in space programs 
is the AF's effort to implement a new business model for space 
acquisition. We are establishing and applying a block or incremental 
approach to developing, acquiring and fielding space systems across the 
Air Force. The objective of this approach is to reduce program cycle 
time and redistribute risk across a program's life cycle, from early 
phases of technology maturation through system development and 
operational system procurement. We'll more consciously allocate risk 
across different phases in the life cycle of programs. The highest risk 
will be in the earliest stage of science and technology--production 
programs will be based on mature technology for the lowest risk. We 
will insure more mature technologies, more stable requirements, and 
more discipline in end-to-end systems design. The expectation is that 
cycle times will be reduced and that we'll be able to maintain cost and 
schedule with higher confidence, and produce more effective 
capabilities sooner by synchronizing science and technology, technology 
development, systems development and demonstration, and systems 
production. The Global Positioning System, Space Based Radar, Space 
Based Space Surveillance System, and Transformational Communication 
Satellite programs are pioneering the process now.

                               CONCLUSION

    Space capabilities have become an integrated and indispensable 
element in virtually all joint military operations. They provide the 
means to plan and execute operations across the globe, and enable 
unprecedented speed, precision and effectiveness. Today the U.S. enjoys 
an asymmetric military and national security advantage from these 
cutting edge systems. Further, space is increasingly important in civil 
and commercial applications and serves as an engine of economic and 
technological leadership. Maintaining our military advantage demands 
that we continue to develop and field the most advanced and affordable 
space capabilities possible. We have experienced many problems in space 
acquisition in the Air Force and across the government and industry. We 
know the root causes of these problems and have a comprehensive, ``back 
to basics'' strategy for restoring our space acquisition performance. 
It will take time to achieve full results, but we are making 
significant progress in rebuilding our capabilities, getting troubled 
programs on track and insuring important new programs are set on a 
solid foundation from the beginning. We appreciate the support from 
Congress for the programs and budgets that are essential to insuring 
our Nation and its military forces retain the unique advantages we 
derive from space. SMC and its partners in government and industry are 
committed to making space acquisition the model across the DOD and to 
provide our military forces the finest space capabilities possible.

    Senator Sessions. Thank you, we'll make those a part of the 
record. Ms. Chaplain, GAO.
    Ms. Chaplain. GAO.

STATEMENT OF CRISTINA T. CHAPLAIN, ACTING DIRECTOR, ACQUISITION 
 AND SOURCING MANAGEMENT TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Sessions, Senator Nelson, and 
Senator Reed, thank you for inviting me to participate in this 
afternoon's hearing on DOD space acquisitions. Today, I'll be 
discussing why we need to improve DOD's return on investment in 
space, and how we can do so.
    DOD space systems play an increasingly critical role in 
supporting military operations and our economy, but the 
programs focused on acquiring these systems are experiencing 
problems that are driving up costs by billions of dollars, 
stretching schedules by years, and increasing performance 
risks. Outcomes have been so disappointing in some cases that 
DOD has had to go back to the drawing board to consider new 
ways to achieve the same capability. It is in such a position 
today with its new missile detection and its weather monitoring 
satellite programs.
    Taken together, acquisition problems are having a dramatic 
effect on DOD's space investment portfolio. Over the next 5 
years, there'll be about $12 billion less available for new 
systems, as well as for the discovery of promising new 
technologies, because of cost growth.
    While DOD is pushing to start new highly ambitious 
programs, such as the TSAT or Space Radar, broader analysis of 
the Nation's fiscal future indicate that spending for weapons 
systems may need to be reduced, rather than increased, to 
address growing deficits.
    This investment picture makes it critical to address root 
problems that make space programs unexecutable. These include 
competition for funding, which encourages low-cost estimating, 
optimistic scheduling, and overpromising, and also a tendency 
to start programs too early--that is, before there is assurance 
that design capabilities can be achieved within available 
resources and time constraints.
    Our previous recommendations have focused on addressing 
these and other root causes, but DOD has chosen not to fully 
implement them on large acquisitions. Recently, however, with 
new leadership, the Air Force has embraced adopting the best 
practices we have recommended. In Dr. Sega's view, they 
represent a common-sense approach that was followed in much 
earlier space efforts.
    The Air Force has also recently taken steps to put its TSAT 
program on a more executable track. It has reduced its 
expectations in the level of sophistication of its first two 
satellites so that it can meet schedule goals. It is also 
holding off on entering formal acquisition of the program until 
critical technologies are proven.
    These are good steps when looking at TSAT as an individual 
program. It is important, however, that the Air Force ensure 
warfighters accept lower capability and that it makes sense to 
pursue the current approach versus the alternative of buying 
additional communications satellites that are further along in 
production.
    On the broader scale, there are steps that can be taken to 
facilitate the Air Force's ``back to basic'' approach for all 
space programs. First, the Air Force, with others, can develop 
an overall investment strategy that identifies funding 
priorities. This will help balance investments between legacy 
programs and new programs, as well as between science and 
technology activities and acquisition activities. Optimally, 
DOD would do this for its entire weapons system investment 
portfolio so that it can assure that all new programs are 
affordable.
    Second, the Air Force can change policies to adopt best 
practices. For example, the Air Force's space acquisition 
policy could be further revised to ensure that a true 
evolutionary approach is being pursued, and that blocks, or 
increments, will include only technologies that have been 
sufficiently matured.
    Other steps, which range from enhancing workforce capacity 
to increasing opportunities for testing new technologies in 
space, are detailed in my written statement.
    In closing, implementing best practices for space 
acquisitions will not be an easy undertaking. DOD, as a whole, 
still operates in an environment that encourages competition 
for funding, and, thus, behaviors that have been detrimental to 
meeting cost and schedule goals. Moreover, the changes being 
proposed will require significant shifts in thinking about how 
space systems should be developed and changes in incentives.
    Lastly, while it may be easier to focus on bringing change 
program by program, it is important to ensure that change occur 
within the context of the entire space investment portfolio. 
This will require tough tradeoff decisions, but it'll ensure 
that the right mix of programs are being pursued, and that user 
needs can be met in a timely and cost-effective fashion.
    This concludes my statement. I respectfully request that my 
written statement be submitted for the record, and I'll be 
happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]

               Prepared Statement by Cristina T. Chaplain

    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Department of Defense's (DOD) space 
acquisitions. Each year, DOD spends billions to acquire space-based 
capabilities to support current military and other government 
operations as well as to enable DOD to transform the way it collects 
and disseminates information, gathers data on its adversaries, and 
attacks targets. In fiscal year 2007 alone, DOD expects to spend almost 
$20 billion to develop and procure satellites and other space systems, 
including nearly $7 billion on the major space systems.\1\ Despite its 
growing investment in space, however, DOD's space system acquisitions 
have experienced problems over the past several decades that have 
driven up costs by hundreds of millions, even billions of dollars, 
stretched schedules by years, and increased performance risks. In some 
cases, capabilities have not been delivered to the warfighter after 
decades of development.
---------------------------------------------------------------------------
    \1\ Estimates of fiscal year 2007 spending are based on DOD's 
Fiscal Year 2006 Future Year Defense Program (FYDP) plan. The fiscal 
year 2007 FYDP plan was not available to us at the time of this 
testimony.
---------------------------------------------------------------------------
    As a result of these problems, DOD is now contending with important 
trade-off decisions such as whether to continue investing in long 
beleaguered efforts or undertake more promising alternatives. At the 
same time, leadership now recognizes the need to substantially change 
DOD's current space acquisition approach and the value of adopting 
practices that will lay a better foundation for program execution. 
Within this context, I will discuss our findings on space acquisition 
problems, recent steps DOD has taken in an effort to address these 
problems, and the changes that still need to occur if DOD is to break 
the cycle of acquisition problems.
                   space acquisition problems persist
    The majority of satellite programs we have reviewed over the past 2 
decades experienced problems during their acquisition that drove up 
costs and schedules and increased technical risks. Several programs 
were restructured by DOD in the face of delays and cost growth. At 
times, cost growth has come close to or exceeded 100 percent, causing 
DOD to nearly double its investment in face of technical and other 
problems without realizing a better return on its investment. Along 
with the cost increases, many programs are experiencing significant 
schedule delays--as much as 6 years--postponing delivery of promised 
capabilities to the warfighter.
    Outcomes have been so disappointing in some cases that DOD has had 
to go back to the drawing board to consider new ways to achieve the 
same capability. It is in such a position today, with its Space-based 
Infrared System (SBIRS)-High program and possibly its National Polar-
orbiting Operational Environmental Satellite System (NPOESS) program, 
both of which have been mired in expanding cost and schedule setbacks.
    More specifically, DOD's investment in SBIRS-High, a critical 
missile warning system, has been pushed to over $10.5 billion from the 
initial $4.1 billion estimate made over 9 years earlier. This 160-
percent increase in estimated costs triggered a fourth Nunn-McCurdy \2\ 
breach (see 10 U.S.C. 2433), requiring a review by the Secretary of 
Defense and a report to Congress, and resulted in the program being 
restructured for a third time, in late 2005. With costs and timelines 
spiraling out of control, DOD reduced the number of satellites it plans 
to procure--pushing the average per unit procurement cost up to 224-
percent above 2002 baseline costs--and is now pursuing an alternative 
to SBIRS-High while it continues with the scaled back program.
---------------------------------------------------------------------------
    \2\ 10 U.S.C. Sec. 2433. This oversight mechanism originated with 
an amendment to the Department of Defense Authorization Act, 1982. It 
was made permanent in the following year's authorization act and has 
been amended several times. Generally, the law requires DOD to review 
programs and report to Congress whenever cost growth reaches specified 
thresholds. The statute is commonly known as the Nunn-McCurdy amendment 
based on the names of the sponsors of the original legislation.
---------------------------------------------------------------------------
    Initial cost and schedule estimates for NPOESS--a new satellite 
constellation intended to replace existing weather and environmental 
monitoring satellites--have also proven unreliable. NPOESS is managed 
by a tri-agency Integrated Program Office consisting of DOD, the 
National Oceanic and Atmospheric Administration, and National 
Aeronautics and Space Administration. In January 2006, the program 
reported a Nunn-McCurdy unit cost breach, at the 25-percent threshold, 
due to continuing technical problems, including problems with the 
development of key sensors. Specifically, in early 2005, DOD learned 
that a subcontractor could not meet cost and schedule targets due to 
significant technical issues on an imaging sensor known as the visible/
infrared imager radiometer suite (VIIRS) sensor--including problems 
with the cryoradiator, excessive vibration of sensor parts, and errors 
in the sensor's solar calibration. These technical problems were 
further complicated by subcontractor management problems. To address 
these issues, DOD provided additional funds for VIIRS, capped 
development funding for other critical technologies, and revised its 
schedule to keep the program moving forward. We also reported that 
based on our own analysis of contractor trends, the program will most 
likely overrun costs by $1.4 billion.\3\ Given the challenges currently 
facing the program, the scheduled first launch date slipped 17 months 
to September 2010.
---------------------------------------------------------------------------
    \3\ GAO, Defense Acquisitions: Assessment of Selected Major Weapon 
Programs, GAO-06-391 (Washington, DC: March 31, 2006).
---------------------------------------------------------------------------
    Another recent example of problems is evident in the Advanced 
Extremely High Frequency (AEHF) program. We reported in the past that 
this program experienced cost increases due to requirements changes, 
inadequate contract strategies, and funding shortfalls. We also 
reported that DOD had to cut back its planned purchase of satellites 
from five to three as a result. The outcome has been an 84-percent unit 
cost increase--each AEHF satellite is now estimated to cost about $2.1 
billion. More recently, we reported that scheduling delays and the late 
delivery of cryptographic equipment have culminated into nearly a 3-
year delay in the launch of the first satellite and that the program 
still faces schedule risk due to the continued concurrent development 
of two critical path items managed and developed outside the program.
    Acquisition problems have not been limited to the development of 
home-grown systems. DOD's purchase of an ostensible commercial 
satellite for the use of communications, the Wideband Gapfiller 
Satellite (WGS), is experiencing about a 70-percent cost growth, due in 
part to the problems a subcontractor was experiencing in assembling the 
satellites. Improperly installed fasteners on the satellites' 
subcomponents have resulted in rework on the first satellite and 
extensive inspections of all three satellites currently being 
fabricated. The cost for WGS has increased about $746.3 million but DOD 
estimates that about $276.2 million of this amount is largely due to 
cost growth associated with a production gap between satellites three 
and four. The launch of the first satellite has now been delayed for 
over 3 years and is currently scheduled for June 2007. The delay will 
increase program costs and add at least 22 months to the time it takes 
to obtain an initial operational capability from the system.
    Figure 1 shows that, overall for fiscal years 2006 through 2011, 
estimated costs for DOD's major space acquisition programs have 
increased a total of about $12.2 billion--or nearly 44-percent in 
total--above initial estimates. Figure 2 breaks out this trend among 
key major space acquisitions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As both figures illustrate, cost increases have had a dramatic 
impact on DOD's overall space portfolio. To cover the added costs of 
poorly performing programs, DOD has shifted scarce resources away from 
other programs, creating a cascade of cost and schedule inefficiencies. 
For example, to fund other space programs, DOD has had to push off the 
start of a new version of the Global Positioning System (GPS), which 
has forced costs to increase for the current version under development. 
Meanwhile, DOD is also contending with cost increases within its 
Evolved Expendable Launch Vehicle (EELV) program. These are largely due 
to misjudgments about the extent to which DOD could rely on commercial 
demand to leverage its investment. Nevertheless, the resulting $12.6 
billion increase has added pressures to make tradeoffs.
    At the same time that DOD is juggling resources on existing 
programs, it is undertaking two new efforts--the Transformational 
Satellite Communications System (TSAT) program and Space Radar 
program--which are expected to be among the most ambitious, expensive, 
and complex space systems ever. Moreover, DOD is relying heavily on 
their planned capabilities to fundamentally enable DOD to transform how 
military operations are conducted. In fact, many other weapon systems 
will be interfaced with these satellites and highly dependent on them 
for their own success. Together, these systems have been preliminarily 
estimated to cost about $40 billion. While DOD is planning to undertake 
the new systems, broader analyses of the Nation's fiscal future 
indicate that spending for weapon systems may need to be reduced, 
rather than increased, to address growing deficits.

               UNDERLYING CAUSES OF ACQUISITION PROBLEMS

    Our reviews have identified a number of causes behind the problems 
just described, but several consistently stand out. First, on a broad 
scale, DOD starts more weapon programs than it can afford, creating a 
competition for funding which encourages low cost estimating, 
optimistic scheduling, over promising, suppressing bad news, and for 
space programs, forsaking the opportunity to identify and assess 
potentially better alternatives. Programs focus on advocacy at the 
expense of realism and sound management. Invariably, with too many 
programs in its portfolio, DOD and even Congress are forced to 
continually shift funds to and from programs--often undermining well-
performing programs to pay for poorly performing ones.
    Second, DOD starts its space programs too early, that is, before it 
has assurance that the capabilities it is pursuing can be achieved 
within available resources and time constraints. This tendency is 
caused largely by the funding process, since acquisition programs 
attract more dollars than efforts concentrating solely on proving out 
technologies. Nevertheless, when DOD chooses to extend technology 
invention into acquisition, programs experience technical problems that 
have reverberating effects and require large amounts of time and money 
to fix. When programs have a large number of interdependencies, even 
minor ``glitches'' can cause disruptions.
    A companion problem for all weapon systems is that DOD allows new 
requirements to be added well into the acquisition phase. Many times, 
these significantly stretch the technology challenges (and 
consequently, budgets) the program is already facing. This was 
particularly evident in SBIRS-High up until 2004. While experiences 
would caution DOD not to pile on new requirements, customers often 
demand them fearing there may not be another chance to get new 
capabilities since programs can take a decade or longer to complete.
    Third, space programs have historically attempted to satisfy all 
requirements in a single step, regardless of the design challenge or 
the maturity of the technologies to achieve the full capability. 
Increasingly, DOD has preferred to make fewer, but heavier, larger, and 
complex ``Battlestar Galactica-like'' satellites, that perform a 
multitude of missions rather than larger constellations of smaller, 
less complex satellites that gradually increase in sophistication. This 
has stretched technology challenges beyond the capability of many 
potential contractors and vastly increased the complexities related to 
software--a problem that affected SBIRS-High and AEHF, for example.
    Our reviews have identified additional factors that contribute to 
space acquisition problems, though less directly affecting cost and 
schedule problems we have reported on. For example, consolidations 
within defense supplier base for space programs have made it more 
difficult for DOD to incorporate competition into acquisition 
strategies. Since 1985, there were at least ten fully competent prime 
contractors competing for the large programs and a number that could 
compete for subcontracts. Arguably today, there are only two 
contractors that could handle DOD's most complex space programs. DOD 
has exacerbated this problem by not seeking opportunities to 
restructure its acquisitions to maximize competition, particularly for 
the small suppliers who have a high potential to introduce novel 
solutions and innovations into space acquisitions. In the 1990s, DOD 
also structured contracts in a way that reduced oversight and shifted 
key decisionmaking responsibility onto contractors. DOD later found 
that this approach--known as Total System Performance Responsibility 
(TSPR)--magnified problems related to requirements creep and poor 
contractor performance.
    Another factor contributing to problems is the diverse array of 
officials and organizations involved with a space program, which has 
made it even more difficult to pare back and control requirements. The 
Space Radar system, for example, is expected to play a major role in 
transforming military as well as intelligence-collecting operations and 
other critical governmental functions, such as homeland security. As a 
result, its constituency includes combatant commanders, all of the 
military services, intelligence agencies, and the Department of 
Homeland Security (DHS). The GPS not only serves the military, it 
provides critical services to civilian users, the transportation 
sector, the information technology sector, among many other industries.
    In addition, short tenures for top leadership and program managers 
within the Air Force and the Office of the Secretary of Defense (OSD) 
has lessened the sense of accountability for acquisition problems and 
further encouraged a short-term view of success, according to officials 
we have interviewed. Though still in a pre-acquisition phase, TSAT and 
Space Radar have already had one program director each. The SBIRS-High 
program, meanwhile, has seen at least three program directors. At the 
highest levels of leadership, for many years, DOD did not invest 
responsibilities for its space activities in any one individual--
leaving no one in charge of establishing an integrated vision for space 
or of mediating between competing demands. In 1994, it established such 
a position within the OSD, but dissolved this position in 1998. In 
2002, DOD established a space leadership position within the Under 
Secretary position in the Air Force, combined it with the directorship 
of the National Reconnaissance Office in order to better integrate DOD 
and intelligence space activities, and allowed the Under Secretary to 
have milestone decision authority for major space systems acquisitions. 
After the first Under Secretary of the Air Force in charge of space 
retired in 2005, DOD split these responsibilities and temporarily 
reclaimed milestone decision authority for all major space programs. 
Changes in leadership and reorganizations are common across DOD, but 
again, they make it more difficult to enforce accountability and 
maintain the right levels of support for acquisition programs.
    Lastly, there are capacity shortfalls that have constrained DOD's 
ability to optimize and oversee its space programs. These include: 
shortages in the pipeline of scientists and engineers, shortages of 
experts in systems and software engineering, and uneven levels of 
experience among program managers. Contractors are also facing 
workforce pressures similar to those experienced by the government, 
that is, not enough technical expertise to develop complex space 
systems. In addition, we have reported that there is a lack of low-cost 
launch opportunities, which are needed to increase the level of 
experimental testing in space.

   DOD HAS EXPRESSED ITS COMMITMENT TO IMPROVE ITS APPROACH TO SPACE 
                              ACQUISITIONS

    DOD has recently expressed a commitment to improve its approach to 
space acquisitions and embrace many of the recommendations we have made 
in the past.
    Our previous recommendations have been focused on providing a sound 
foundation for program execution. Namely, we have recommended that DOD 
separate technology discovery from acquisition, follow an incremental 
path toward meeting user needs, match resources and requirements at 
program start, and use quantifiable data and demonstratable knowledge 
to make decisions to move to next phases. In addition, we have called 
on DOD to develop an overall investment strategy for space in order to 
help DOD rebalance its investments in space acquisition programs as it 
continues to contend with cost increases from its programs.
    These recommendations are based on a body of work that we have 
undertaken over the last several years that examines weapon acquisition 
issues from a perspective that draws upon lessons learned from best 
product development practices. Leading commercial firms expect that 
their program managers will deliver high-quality products on time and 
within budget. Doing otherwise could result in the customer walking 
away. Thus, those firms have created an environment and adopted 
practices that put their program managers in a good position to succeed 
in meeting these expectations. Collectively, these practices comprise a 
process that is anchored in knowledge. It is a process in which 
technology development and product development are treated differently 
and managed separately. The process of developing technology culminates 
in discovery--the gathering of knowledge--and must, by its nature, 
allow room for unexpected results and delays. Leading firms do not ask 
their program or product managers to develop technology. Rather, they 
give responsibility for maturing technologies to science and technology 
organizations. The process of developing a product culminates in 
delivery and, therefore, gives great weight to design and production. 
The firms demand--and receive--specific knowledge about a new product 
before production begins. A program does not go forward unless a strong 
business case on which the program was originally justified continues 
to hold true.
    While the practices we have recommended represent commonly accepted 
sound business practices, until recently, they have not been accepted 
by DOD's space acquisition community for large space acquisitions. By 
contrast, these practices were implemented for the development of a 
small, experimental satellite, intended for direct use by a combatant 
command, (known as TacSat 1). We recently reported that by including 
only mature technologies and limiting new requirements, DOD was able to 
develop the satellite for less than $10 million (including surplus 
hardware valued at $5 million) and within 12 months.
    In disagreeing with our recommendations, DOD asserted its desire to 
push programs to advance technologies as far as possible. Other reasons 
that space officials have given for extending technology development 
into acquisition include the greater ability to secure funding for 
costly technology development within an acquisition program versus a 
science and technology program, a belief among the acquisition 
community that labs in charge of developing space technologies do not 
understand their needs, as well as communication gaps between the S&T 
and acquisition communities.
    Moreover, while DOD officials told us they were pursuing 
evolutionary development for space systems, we found that they were 
beginning programs by challenging programs managers to achieve 
significant leaps in capability with the intention of abandoning those 
efforts later in the development cycle should too many problems be 
encountered. This is not a true evolutionary approach, as it leaves DOD 
facing increased technical challenges at the beginning of a program and 
thus, increased risks, and it raises the expectations on the part of 
stakeholders who may be unwilling to accept less capability later on. 
Two of the systems we were most concerned about in this respect were 
and TSAT and Space Radar--they were already expected to cost about $40 
billion. DOD was planning to start these acquisitions even when many of 
their critical technologies were still immature and it was pursuing a 
highly ambitious path in terms of the technology push. Given that these 
systems were among the most complex programs ever undertaken for space, 
they were being counted on to enable wider DOD transformation efforts, 
and DOD was already contending with highly problematic space efforts, 
we believed DOD could not afford to pursue such risky approaches for 
TSAT and Space Radar.
    Since we last testified before this subcommittee in July 2005, DOD 
has appointed a new Under Secretary of the Air Force to be in charge of 
space acquisitions, who, in turn, has embraced adopting best practices, 
or, as he terms it, ``going back to the basics.'' Specifically, the 
Under Secretary has expressed a desire to

        <bullet> Delegate the maturation of technologies--to the point 
        of being tested in a relevant environment or operational 
        environment, if appropriate--to the S&T community.
        <bullet> Adopt an evolutionary development approach in which 
        new systems would be developed in a series of increments, or 
        blocks. Any desired technology that is not expected to be 
        matured in time to start a new block would be assigned to a 
        later block. Each block would have a discrete beginning and end 
        point.
        <bullet> Fund S&T appropriately so that significant technology 
        breakthroughs can be continually pursued.
        <bullet> Improve collaboration on requirements--consulting with 
        warfighters on the content of each new block.

    In addition, the Under Secretary is focused on estimating cost and 
funding new acquisitions to an 80-percent confidence level; 
strengthening systems engineering and strengthening the acquisition 
workforce.
    Aspects of this approach have recently been incorporated in to 
DOD's TSAT program. For the first block, satellites 1 and 2, the Air 
Force has reduced its expectations in the level of sophistication of 
these satellites to increase the confidence in the schedule for 
launching the first satellite in 2014. Higher performing levels of the 
technologies to support laser communications and an Internet-like 
processor router will be pushed off to a subsequent block, along with 
the multi-access laser communications--a more robust laser capable of 
transmitting vast amounts of data within seconds. Program officials 
have also stated that the TSAT program will not enter into product 
development, that is, formal acquisition, until its critical 
technologies are proven.
    These are good steps when looking at TSAT as an individual program. 
It is important, however, that the Air Force ensure warfighters accept 
lower capability and that it makes sense to pursue the current approach 
versus the alternative of buying more Advanced Extremely High Frequency 
(AEHF) or Wide Gapfiller Satellites (WGS).

        KEYS TO REALIZING DOD'S NEW GOALS FOR SPACE ACQUISITIONS

    DOD's desire to adopt best practices for space acquisition is a 
positive and necessary first step toward reform. However, these changes 
will not be easy to undertake. They require significant shifts in 
thinking about how space systems should be developed; changes in 
incentives and perceptions; as well as further policy and process 
changes. Moreover, they will need to be made within a larger 
acquisition environment that still encourages a competition for funding 
and consequently pressures programs to view success as the ability to 
secure the next installment rather than the end goal of delivering 
capabilities when and as promised. In addition, DOD's space leaders 
will be challenged to sustain a commitment to adopting best practices, 
given the myriad of missions and programs that compete for the 
attention of DOD's leadership and resources, frequent turnover in 
leadership positions, and potential resistance from the many diverse 
organizations involved with space acquisitions.
    There are steps, however, that DOD can take to substantially 
mitigate these challenges.

        <bullet> First, DOD can guide its decisions to start space 
        acquisition programs with an overall investment strategy. More 
        specifically, DOD could identify overall capabilities and how 
        to achieve them, that is, what role space will play versus 
        other air-, sea-, and land-based assets; identify priorities 
        for funding space acquisitions; and implement mechanisms that 
        would enforce the strategy and measure progress. Optimally, DOD 
        would do this for its entire weapon system investment portfolio 
        so that space systems that are expected to play a critical role 
        in transformation could be prioritized along with other legacy 
        and transformational systems and so that DOD could reduce 
        pressures associated with competition for funding. But in the 
        absence of a department-wide strategy, DOD could reexamine and 
        prioritize its space portfolio with an eye toward balancing 
        investments between legacy programs and new programs as well as 
        between S&T programs and acquisition programs. In addition, DOD 
        could prioritize S&T investments. This is particularly 
        important since DOD is undertaking a range of initiatives--
        collectively known as operationally responsive space (ORS)--
        designed to facilitate evolutionary development, more testing 
        of technologies before acquisition, and ultimately enable DOD 
        to deliver space-based capabilities to the warfighter much 
        faster and quicker. While ORS investments hold great potential, 
        there are other S&T projects competing for the same resources, 
        including those focused on discovering and developing 
        technologies and materials that could greatly enhance future 
        capabilities, reduce costs, and maintain U.S. superiority in 
        space.
        <bullet> Second, DOD could revise policies and processes 
        supporting space as needed to adopt the best practices being 
        embraced. For example, DOD's space acquisition policy could be 
        further revised to ensure that a true evolutionary approach is 
        being pursued and that blocks, or increments, will include only 
        technologies that have been sufficiently matured. DOD could 
        also implement processes and policies, as needed, that 
        stabilize requirements, particularly for acquisitions that are 
        being shared with other stakeholders, such as the Intelligence 
        Community, and that ensure warfighters are bought into 
        capabilities being pursued for each new system increment. In 
        recent years, it has instituted processes for some individual 
        systems, such as SBIRS-High, that could serve as a model.
        <bullet> Third, DOD could continue to address other capacity 
        shortfalls. These include shortages of staff with science and 
        engineering backgrounds; shortages of experience within the 
        program manager workforce; limited opportunities and funding 
        for testing for space technologies; and the lack of low-cost 
        launch vehicles. At the same time, DOD could continue to work 
        toward strengthening relationships between the S&T and 
        acquisition communities and coordination within the S&T 
        community. The Under Secretary is uniquely positioned to do 
        this given his previous position as DOD's Director of Defense 
        Research and Engineering and his participation in previous 
        efforts to develop a strategy for space S&T.
        <bullet> Fourth, we have recommended that DOD take steps 
        departmentwide to hold people and programs accountable when 
        best practices are not pursued. This will require DOD to 
        empower program managers to make decisions related to funding, 
        staffing, and moving into subsequent phases and to match 
        program manager tenure with development or delivery of a 
        product. It may also require DOD to tailor career paths and 
        performance management systems to incentivize longer tenures. 
        Until these actions have been taken, space leaders could take 
        steps now to ensure space program managers have the right 
        levels of experience to execute large programs and have 
        sufficient authority so that they can be held accountable. 
        Likewise, DOD's space leaders can take steps to hold its 
        contractors accountable by structuring contracts so that 
        incentives actually motivate contractors to achieve desired 
        acquisition outcomes and withholding award fees when those 
        goals are not met.

    In closing, we are encouraged with the acquisition approach being 
embraced by DOD's space leadership. It can enable DOD to begin to match 
resources to requirements before starting new programs and therefore, 
better position programs for success. Successful implementation, 
however, will hinge on the ability of DOD's current space leaders to 
instill and sustain commitment to adopting best practices over the 
short and long term. In doing so, best practice approaches should be 
reflected in policy and manifested in decisions on individual programs 
or reform will be blunted. They should also be accompanied by an 
investment strategy for space, and ultimately DOD, to separate wants 
from needs and to alleviate longstanding pressures associated with 
competition within DOD to win funding. By embracing a model that 
incorporates all these elements, DOD can achieve better outcomes for 
its space programs.

                         SCOPE AND METHODOLOGY

    In preparing for this testimony, we relied on previously issued GAO 
reports on assessments of individual space programs, incentives and 
pressures that drive space system acquisition problems, common problems 
affecting space system acquisitions, space science and technology 
strategy, and DOD's space acquisition policy, as well as our reports on 
best practices for weapon systems development. We also analyzed DOD's 
Selected Acquisition Reports to assess cost increases and investment 
trends. In addition, we met with the Air Force Under Secretary to 
discuss his ``back to basics'' approach. We conducted our review 
between March 6 and April 3, 2006, in accordance with generally 
accepted government auditing standards.

                      CONTACTS AND ACKNOWLEDGMENTS

    For future information, please contact Cristina Chaplain at 202-
512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482b202938242921262b082f2927662f273e66">[email&#160;protected]</a> Individuals making contributions to this 
testimony include, Art Gallegos, Robert Ackley, Maricela Cherveny, 
Sharron Candon, Jean Harker, Leslie Kaas Pollock, and Karen Sloan.
    Table 1 highlights recent findings from our reports on cost and 
schedule overruns for DOD's current and planned space programs. The 
table also notes that many programs are still addressing past mistakes 
in acquisition approaches and contractor oversight as well as 
technical, design, and manufacturing problems.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. Thank you. We'll make that a part of the 
record. We appreciate your work and evaluation.
    It's great to have the ranking member, Senator Nelson, 
here. I've had some opening comments. I'll let him make his 
comments now, and do his round of questioning if he's ready.
    Senator Bill Nelson. Thank you, Mr. Chairman. I'll just 
submit the opening statement for the record.
    Senator Sessions. We'll make your statement a part of the 
record.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    I join Senator Sessions in welcoming our witnesses this afternoon 
and I look forward to a good discussion on a number of key space 
issues. We have a late start today, as a result of the committee's full 
hearing schedule, so I will be brief in highlighting just a few issues.
    Serious problems with most of the space acquisition programs 
continue, although some improvements are being seen, notably in the 
Transformational Communications Satellite Program (TSAT).
    As the Government Accountability Office has noted, the bow wave of 
funding increases in the space programs in the next 5 years brought 
about as a result of cost overruns in the space acquisition program is 
$12 billion--a staggering amount. This shortfall comes on top of 
significant projected growth in the same period in the Space Radar, 
TSAT, and other new programs. As the Nation most dependent on space 
systems for military as well as for civilian use, paying for the space 
programs is important but it is going to be difficult. These programs 
have to have discipline, stable, realistic requirements, realistic 
budgets and schedules, and mature technology to be sustained. There 
will continue to be a reluctance to start very costly new space 
programs if Congress doesn't have confidence in the requirements, the 
technology, the cost and the schedule.
    In the TSAT program, there are improvements but they are recent and 
fragile, however, and there is a long way to go, and a lot of work to 
be done, before the TSAT hoped-for launch date at the end of 2014. I 
remain concerned that terminating the Advanced Extremely High Frequency 
satellite early, in anticipation of a successful TSAT launch in 2014, 
may still be overly ambitious.
    In addition to TSAT, I look forward to hearing about the Space 
Radar program and the status of the United Launch Alliance, the Boeing 
and Lockheed Martin joint venture for the Evolved Expendable Launch 
Vehicle program, the Navy's program for ultra high frequency 
communications and plans to minimize any potential gaps in that 
capability, and the status of the designation and training of Services' 
space cadres.
    In closing, I urge our witnesses to look seriously at less costly 
options for meeting space capabilities. These ideas, such as the notion 
of operationally responsive space, and smaller, less sophisticated 
satellites that can be replaced and upgraded on a more frequent basis, 
should also be explored.
    Thank you each for appearing here today. I look forward to a good 
discussion. Thank you, Senator Sessions.

    Senator Bill Nelson. Shall I get into the questions?
    Senator Sessions. I would be pleased if you can start.
    Senator Bill Nelson. Thank you.
    Mr. Secretary, it's good to see you again. Let's talk, you 
and General Chilton, about the operationally responsive space 
for some missions--preassembled, modular, assembled on demand, 
launched within hours. They could be commercial satellites for 
a focused short term. There are many options here to explore. 
Let me ask you all some questions.
    Is TacSat-2 fully funded?
    Dr. Sega. Sir, my understanding is, TacSat-2 is fully 
funded. The launch portion will be fully funded by, I believe, 
the end of this fiscal year. We do have a reprogramming 
activity to fully fund the launch of TacSac-2.
    Senator Bill Nelson. TacSat-3?
    Dr. Sega. I may need some help with that.
    General Hamel. Yes, sir, if I might. In both cases, the 
TacSat-2 and TacSat-3 are fully funded, and, in fact, are well 
along in their development.
    Senator Sessions. Would you explain TacSat?
    General Hamel. Excuse me, sir, yes. TacSat is the acronym 
for tactical satellites, and these are a series of families of 
experiments that are being pursued by the DOD. They are being 
done by various laboratories. The first one of these vehicles 
would be flying later this year. TacSat-1 is being sponsored by 
the Naval Research Lab. TacSat-2 and TacSat-3 are being done, 
led by the Air Force's Research Lab. As I say, both of those 
are well along in their development. We are, in fact, now 
soliciting for the actual launch contract being ordered, some 
year in advance for that. So, we are, indeed, on course for 
that.
    Senator Bill Nelson. How about number 4?
    General Hamel. Sir, that has not yet been awarded. We will 
be looking at that as a future year commitment, in terms of the 
budgets.
    Senator Bill Nelson. What is the future vision for this 
operationally responsive space?
    Dr. Sega. I could start the answer to that question, 
Senator Nelson, and then hand it off, because it involves the 
operational concepts from the warfighter. It involves a robust 
science and technology program to continue new ideas coming 
forward. It involves the acquisition strategy, so that the 
design is correct to allow a modular approach to building the 
satellites. So, there's a technical aspect, an acquisition 
aspect, as well as operations and how you would actually employ 
them.
    If I can go back to my previous 4 years as Director of 
Defense Research and Engineering, we had several initiatives. 
One of those was the National Aerospace Initiative (NAI) to 
frame the technology development, going forward. It had three 
pillars: a high-speed hypersonics portion, space access, and 
space technology. Out of the space access portion came a joint 
program between Defense Advanced Research Projects Agency 
(DARPA) and the Air Force, called Falcon. One aspect of Falcon 
was small launch vehicles. So, we're looking at the 
underpinnings of providing the launch capacity to enable 
operational response to space through that program. So, an 
effort was established for the booster phase.
    The third phase in space technology was responsive 
payloads. As General Chilton mentioned, if you have a 
responsive booster, it's important that when the satellite gets 
to orbit, you don't have an extensive checkout time, you don't 
have an extensive time for it to outgas and those things that 
many satellites have had to do in the past. So, responsive 
payload technologies was also worked over the previous several 
years.
    I would view this area in terms of a small-sat strategy. 
One part of that is TacSats that can be deployed quickly for 
the tactical commander. Another part is to look at smaller 
satellites to perform some of the missions that we're currently 
performing. So, they would be an integral part of our 
constellations, and we replenish them as necessary in time, but 
we'd also have the capacity of replenishing rapidly, if that 
was the case. We also have the opportunity in the small 
satellites to wring out some systems in technology development, 
as well as science and technology.
    So, these pieces, I believe, fit together. If we design 
these properly and TacSat-3 is a great example, and I'd invite 
those that can to visit Air Force Research Laboratory in 
Albuquerque to look at the modular approach to some of this, 
the systems design to enable some of the attributes in which 
you've just mentioned. We're putting together a strategy for 
this small-sat efforts to include the laboratories, the product 
centers, the users, Army, Navy, and Air Force, across the 
board.
    General Chilton. Sir, I think Dr. Sega gave a good summary 
of that. I could just refer back to the scenarios that I 
addressed earlier, and also point out that if tomorrow we were 
to go to war in another part of the world, we would go to war 
with what we have in space today, and there is no option to 
launch an additional satellite quickly to supplement it. We 
could perhaps adjust our constellations if we needed to focus 
additional capability in that area. What we don't have is a 
quick-response capability that could augment where there are 
shortfalls. As I mentioned, inspect where we had questions, or 
perhaps even replace, should an adversary just decide to take 
out one of our current capabilities.
    These are the operational concepts that we have in the back 
of our minds when we think about having that capability for the 
warfighter.
    Senator Bill Nelson. General, a priority of the STRATCOM is 
putting a nuclear detection sensor on the GPS system. What are 
your plans for those sensors to be on future GPS satellites?
    General Chilton. Sir, I'll have to take that question for 
the record.
    What I can say is that we do have this requirement for the 
capability to be able to do nuclear detection from orbit, so we 
can determine if a nuclear device has gone off anywhere on the 
planet. Personally, I'm agnostic as to the platform it's on, so 
long as the capability is there.
    But let me take that for the record, sir, to get back to 
you with regard to the GPS constellation, specifically.
    [The information referred to follows:]

    STRATCOM has a requirement to be able to do nuclear detection from 
orbit so that a determination can be made as to whether a nuclear 
device has been detonated anywhere on the planet. Air Force Space 
Command is our force provider for nuclear detonation detection, and 
Space and Missile Systems Center, our acquisition arm for nuclear 
detonation sensors. STRATCOM is agnostic as to the platform this sensor 
will be placed upon, so long as the capability exists within a timely 
manner.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you 
all for your testimony this afternoon.
    Secretary Sega, this week we had a subcommittee hearing on 
missile defense, and one of the topics that we discussed was 
the future space programs of the Missile Defense Agency (MDA). 
Today, MDA has the Space Tracking and Surveillance System 
(STSS) program for warning and sensing, the N-FIRE for plume 
characterization. But MDA is looking at other potential space 
programs, beginning in 2008. Will those programs be coordinated 
with you, or are they operating on their own space and own 
direction?
    Dr. Sega. Senator Reed, as we move forward we're working on 
integration across space, how different space systems will 
interact better than they have in the past. There's work to be 
done to fully integrate how we are developing and operating 
space systems across space, as well as how they would interact 
with air and surface and sometimes subsurface assets. So, 
that's a work in progress.
    Senator Reed. So, they do not fall under your capacity as 
DOD Executive Agent for Space. Is that officially?
    I must say, I'm encouraged by your acquisition policy 
discussions. I think it's sensible. You've taken the 
suggestions of GAO and other outside stakeholders. I presume, 
also, that MDA is not part of this acquisition policy, because 
they don't fall within your purview.
    Dr. Sega. The concept of going back to basics is one that I 
think is going beyond the programs that we are discussing today 
within this portfolio. I think that it's one that I meet with 
General Obering and the MDA folks. My deputy, Gary Payton, who 
came from MDA can apply this type of approach. I think we would 
be better off. I do believe the integration and coordination is 
important, not only for MDA, but also the NRO.
    Senator Reed. But at this juncture it's more of cooperation 
and collaboration, rather than being within your authority for 
space acquisition?
    Dr. Sega. That's correct, sir.
    Senator Reed. A final question with respect to this set of 
issues. MDA is going to report to a board of directors. That's 
one of the things they indicated to us. Will you be part of 
this board of directors?
    Dr. Sega. I have to see how that forms out.
    Senator Reed. All right. Very good.
    There is another aspect at MDA that I think touches on 
space, and one that could potentially raise concern. That is 
the proposed space test bed that they are talking about. There 
is no funding requested in fiscal year 2007, and MDA officials 
have said that no decision will be taken on whether to pursue 
the space test bed until 2008. The budget documents state that 
the space test bed is, ``an essential element of the Ballistic 
Missile Defense System (BMDS) acquisition plan,'' and that 
would assume, to me, if it is an essential element of the 
acquisition plan, that they have made more decisions than they 
are indicating in their documentation.
    You are the DOD Executive Agent for Space. Can you explain 
the status of the test bed, your role in the decision, what 
it's going to do? It seems to me this could be a very central 
part of our space policy. If you're the space executive, you 
should know.
    Dr. Sega. As we go forward and settle these areas in test 
and one of those is a capacity to test on the ground, the 
capacity to test with air simulators, if you will for example, 
Space Radar, to test them there, as well as the ability to test 
assets, with space as part of the component--is one that we're 
in the process of working through. If there's any further 
follow-on?
    General Hamel. Sir, if I might. We have a good 
relationship, if you will, in terms of executing the many of 
these space programs with the MDA. In fact, the Space Tracking 
Surveillance System, as well as N-FIRE, is actually managed by 
people that are co-located in my organization. In fact, I 
support them with contracting and engineering and the like. 
Much of the program direction and the architectures are 
actually directly overseen by General Obering. As a result, we 
have a less active role in terms of that, but it's certainly in 
terms of the lessons learned and how we're actually going about 
executing the programs. Such things as target vehicles are 
actually provided by my organization, so we have very much an 
execution-level support, our relationship with them.
    Senator Reed. I appreciate that. It seems to me, though, 
the essence of your position as the Executive Agency for Space 
is that you would have significant influence on all these 
programs, particularly one that could essentially establish 
literally a test bed in space, which might imply even testing 
things other than satellites, testing weapons, et cetera. I 
respect your comments today, but there is this lack of clarity 
as to exactly where the central point is. Are these agencies 
coordinating with you because they feel like it, or because you 
have the responsibility and the authority to make them 
coordinate? I think that's an issue that we have to look at 
much more thoroughly.
    I appreciate your comments today, both of you.
    General Chilton, a final question. In your key initiatives 
for Strategic Command for Space, you have a couple of concepts 
which roll right off the tongue, but I'm not quite sure I know 
what they mean. ``Integrate air and space capabilities to 
deliver combined effects.''
    General Chilton. We're doing that today already with the 
Joint Direct Attack Munition (JDAM), you may have heard of 
that?
    Senator Reed. Yes.
    General Chilton. JDAM is essentially a package, a tail-fin 
configuration and a GPS receiver and an Inertial Navigation 
System (INS) package that we can put on one of our bombs, 
either a 2,000-pound class or 500-pound class bomb. The bomb is 
guided to the target using information that was relayed from 
the airplane platform that drops it. Then the bomb is updated 
inflight from the satellite information. This is a good example 
today of where we're integrating space capabilities with our 
air-breathing assets and those type weapons.
    Senator Reed. Great. I have two others, which you might 
answer and those are precisely what helps us understand realign 
resources to sustain existing space surveillance capabilities.
    General Chilton. Today, with regard to the discussion on 
vulnerabilities, my belief is, one of the first things you need 
to do to understand how vulnerable we are, and to understand 
the environment that we're operating in, is to have a good 
capability to surveil that environment and understand what's up 
there.
    Senator Reed. Okay.
    General Chilton. Classically, we've done a great job of 
keeping track of things in space, debris, so that when the 
space shuttle launches, or we launch a commercial satellite, 
even before we launch, we run computer programs that are 
tracking the debris up there to make sure we launch between the 
debris, or aren't going go up into a position where we could be 
struck. We even maneuver, on occasion, the International Space 
Station to avoid debris that we detect up there.
    So, we have a good capability to count the dots up there, 
if you will. But to really understand the environment, you need 
to know what those dots are. What is that satellite that just 
was launched by another country? What is its true purpose and 
capability? Ultimately, through surveillance and what we call 
``space situational awareness development,'' you, hopefully, 
can divine intent. A very similar scenario that you could 
imagine in an airplane environment is where you're trying to go 
surveil enemy territory or even international territory to 
understand the environment, how many dots are out there. Are 
those dots civilian airplanes? Are those dots military 
airplanes and what is their intent? Similar thing in space. So, 
we need to take the step beyond counting what's up there and 
cataloging it and tracking it, to understanding its purpose and 
intent and capability. That's what we mean by ``increasing our 
surveillance capability.''
    Senator Reed. Thank you very much for all of your testimony 
today.
    Thank you, Mr. Chairman. You're very gracious. Thank you.
    Senator Sessions. Thank you.
    Dr. Sega, we've recently heard reports of continuing 
problems on the highly-expensive and time-consuming efforts on 
such programs as Space-Based Infrared Radar System (SBIRS)-
High, our early warning launch satellite, and NPOES, the 
weather satellite. The DOD is paying a considerable price for 
mistakes we made some years ago, mistakes largely rooted in 
optimistic assumptions about cost, technological maturity, and 
the time needed to get the job done.
    How is the Air Force and DOD applying the lessons learned 
from those mistakes?
    Dr. Sega. Mr. Chairman, those are two of the examples that 
led us to the ``back-to-basics'' approach and the block 
approach. The technologies were not mature in either of the 
cited programs when they began. The requirements were many, in 
terms of what the expectation of the satellite would perform. 
The role of government was a bit reduced as these programs 
started in the mid-1990s.
    The lessons learned from those two programs, and 
recommendations that have been forwarded by internal/external 
groups, including GAO, have formed the basis of the principles 
by which we are going forward. General Hamel mentioned many of 
those, in terms of the discipline, in terms of management and 
the systems engineering, testability, and going through solid 
technical side. There's also better cost estimation in simply 
not taking on more than what we know how to do, so that 
acquisition time is reduced. I believe you also will find 
increased accountability. As those requirements are stable, the 
time to complete is identified, and the tasks at hand are 
known, and the starting point is matured technologies. So, I 
think they formed part of the thought process that led to a 
``back-to-basics'' approach, a block incremental approach, 
going forward.
    Senator Sessions. With regard to the Space Radar, TSAT--can 
you guarantee us or give us some confidence that those programs 
are not likely to suffer the same kind of difficulties?
    Dr. Sega. We have put in the principles for example, in 
TSAT, the technologies are either at the five or six level, 
currently, with the next year is to mature the remaining ones 
that are at the technology readiness level five or six. At that 
point, we enter into the competition to, in fact, go to what 
would be, in this approach, the beginning point, if you will, 
of a block one.
    Senator Sessions. Let me just see if I can put this in 
plain English. Not that you're not, but what you've decided 
with TSAT is that the first one, you're going to put in it the 
capabilities that you have great confidence in, that's mature. 
As time goes by, and as the technology matures, the next 
satellites can be more sophisticated and have more capability. 
Is that the way this acquisition block approach is?
    Dr. Sega. Yes.
    Senator Sessions. Is that what it boils down to?
    Dr. Sega. Yes. So, incrementally, building in there, but 
each step of the way--and, in fact, a continuous process. I 
view it as important to have the users, the warfighters 
involved from day one, all the way through the process, as well 
as the technical people, the acquisition folks, the logistics 
folks, operators, so that as we identify what should be in 
block one. We're also engaged as to have the needs changed for 
a block two from what we had previously thought would be in 
block two.
    Senator Sessions. Needs are based on the warfighter or the 
customers' needs will also impact what you put in the next 
block.
    Dr. Sega. Correct. We will converge on what is in a block 
two, from a user standpoint, as well as a provider standpoint. 
So, we will work hard on that systems development for what 
would be available for a block two, as well as what needs are 
available, and then we define that as well.
    We have a sense of where we want to go on TSAT for block 
two, as we had a bit more aggressive goals, in terms of the 
capacity of the laser communications and the capacity of the 
router.
    Senator Sessions. What about the Space Radar? How are you 
coming along in setting your goals and expectations there?
    Dr. Sega. In Space Radar, currently, we are going through 
the Joint Staff and through Vice Admiral Chanik to these 
process leading up to an assessment by the Joint Requirements 
Oversight Council (JROC) process, in conjunction with our folks 
on the acquisition, to identify what would be available in a 
block one, and what its value would be. It's only after that 
convergence view that we lock in what we want to do on a block 
one.
    Senator Sessions. Ms. Chaplain, you've evaluated this. The 
``back to basics'' program, the acquisition stages, block 
approach that's been described. Is that responsive to the 
concerns GAO has stated? How would you evaluate the situation 
today?
    Ms. Chaplain. The approach that Dr. Sega described, that 
he's taking with TSAT and wants to take with other programs, 
aligns with the best practices we recommend. One of the most 
critical things we think programs need to do is match resources 
with requirements before they ever start. One of the most 
important aspects of that is making sure you've proved out your 
technologies before you ever start, before you make that 
commitment to spend large amounts of money on a program.
    For many years, space programs have not been doing that, 
and--as have another number of other weapons systems. So this 
is like the first biggest step that needs to be made to get a 
program on a more executable track.
    That said, we have concerns about both TSAT and Space Radar 
that need to be addressed. TSAT, the spending's going to go up 
some $400 million next year. We are still trying to find out 
exactly where that money's going to be spent in enough detail 
to give us assurance that the spending is wise. Warfighter 
acceptance: we are still hammering that down through 
discussions with the Air Force, to the extent the warfighters 
have accepted the trades that have already been made on TSAT.
    The effect of the new TSAT capabilities on systems like 
Space Radar and Future Combat Systems (FCS): the Army's FCS is 
going to depend highly on the environment that TSAT supports to 
send information to among all these Army systems. If there's 
less capability than accepted, is FCS going to still work in 
that environment? Same with Space Radar. If Space Radar can't 
quite use all of the TSAT as it's laid out now, what's going to 
be used in its place to make sure Space Radar can still send 
that kind of information?
    Then, of course, we have the larger question of 
affordability. We have cost overruns on a lot of these other 
programs. Can we afford TSAT now? This kind of question really 
needs to be looked in the larger DOD weapons system portfolio 
for trades.
    Space Radar, we're still looking at this system, and we 
plan to do some more detailed review on it. But we have a 
number of questions at this point that we've been asking 
ourselves. Again, affordability. This is going to be a very 
expensive program, and is this affordable within the context of 
the whole portfolio? Requirements: are there too many on the 
program right now, or do we have just the requirements we need? 
Cost sharing: has that been worked out with the Intelligence 
Community and DOD? We're still looking into that question. We 
would like to also understand what the level of 
sophistication's going to be in the first increment of Space 
Radar, and I don't think we've learned that yet. Again, the 
trades between TSAT and Space Radar, is this going to all work 
out as planned?
    The schedule at our first preliminary review looks kind of 
ambitious, so we would like to learn more about the schedule 
and what exactly it's going to involve and how DOD's really 
going to achieve all the milestones it intends to achieve once 
it starts its acquisition.
    Those are a lot of questions, and they make us wonder, is 
it time now to start a Space Radar acquisition, or do we need 
to step back and think through it more and what it means in the 
larger context of the entire space investment portfolio?
    Senator Sessions. Let me just briefly, Dr. Sega, ask you on 
the Space Radar, how much will it cost, and do we have an 
agreement with the Intelligence Community on cost sharing?
    Dr. Sega. We have an agreement with the Intelligence 
Community. This would be a joint program. The financial 
contributions from the Intelligence Community are still being 
worked. The cost of the Space Radar program, if I could kind of 
frame this up, in terms of the capability and the 
sophistication of block one, is in the process of being 
defined. That will be done in a similar way that we did TSAT, 
with the users and acquisition people working together. In that 
case, it was the QDR. In this case, the combatant commands and 
through the JROC process will be involved on the requirements 
and also on the technology side.
    We will take advantage of the technology we've been 
developing for decades in phased arrays. They have been 
developed on a ground-based system. We have sophisticated 
electronically steerable arrays in our F-18, our F-22, Joint 
Strike Fighter (JSF). So, the basis of the technical piece has 
been worked for decades now.
    Senator Sessions. What about on the cost? What can you tell 
us, as specifically as you can, what cost you're projecting?
    Dr. Sega. I appreciate the question.
    Senator Sessions. Ultimately, we may not know what all 
we'll utilize and how much, but what can you foresee now?
    Dr. Sega. A misperception is the number of satellites that 
would be needed in Space Radar. That's why some of this 
architectural piece will be done. Some of the numbers end up 
very large if your assumption is a large number of satellites. 
If it's more in the eight to nine kind of category of 
satellites, obviously the cost is much less than 20-some 
satellites. So, that architectural trade, in terms of the use 
of Space Radar to not only cue other assets in space, but also 
cue airborne platforms, some of which have radars on them--
Joint STARS, our other airplanes have a lot of radars--and to 
help them in the overall awareness and battlespace 
characterization, is going to be important. So, how it is used, 
and what value it has, in terms of leveraging a radar image 
from space in some of the denied areas that General Chilton 
talked about, and how it interacts with the other system, 
determine the number of radars that are needed and the 
sophistication that you'd need on block one. So, I'd like to 
give you a solid number, but there's a lot of variables right 
now that prohibit that.
    Senator Sessions. What is just the numbers, as you recall, 
for the fiscal year 2007 request? What do you project through 
the Future Years Defense Plan (FYDP). The 5-year projection?
    Dr. Sega. Yes. The numbers are roughly in the $260 to $270 
million in fiscal year 2007--I can get the exact number--and a 
bit over $4 billion over the FYDP.
    [The information referred to follows:]

    The President's budget for fiscal year 2007, as submitted on 
February 6, 2006, included $266.4 million in research, development, 
test, and engineering funding for Space Radar across the FYDP, which 
covers fiscal years 2007-2011.

    Senator Sessions. Ms. Chaplain, just briefly, your concern 
is that it may be higher than that before the 5 years is up?
    Ms. Chaplain. Yes.
    Senator Sessions. $4 billion?
    Ms. Chaplain. Our concern is, we don't know how much it 
costs, and that won't be known until the architecture's defined 
and all the trades are made.
    Senator Sessions. This basically represents what we might 
call a ``guesstimate''?
    Ms. Chaplain. Right.
    Senator Sessions. Because it is based on 20 or 9 
satellites, Dr. Sega? Or do you know yet? So you can't really 
be specific, because the technology is not there, and you've 
not made a firm decision?
    Dr. Sega. Right.
    Senator Sessions. Capabilities are per satellite?
    Dr. Sega. That is correct.
    Senator Sessions. That's how sometimes we get into 
problems, I guess, Ms. Chaplain would say, because we are not 
real sure. I won't pursue that in more depth, but I think it 
does point out the difficulties you face. We can't dismiss the 
fact that some of these things need to get started, and they 
need to be produced, and you can't know all the difficulties 
until you get into it. We know that. But to the extent to which 
we can be more predictive and act on more mature technology, as 
you have said you intend to do, I think that can eliminate some 
of the surprises that hit the budget awfully hard. Would you 
agree, just briefly?
    Dr. Sega. Absolutely. That definition is critically 
important to us, maintaining cost and schedule and discipline 
in the programs going forward.
    Senator Sessions. Congress has the responsibility. It's the 
taxpayers' money. You're talking about $1 billion here and $1 
billion there. It's real money, and there are other programs 
that desperately need resources.
    Senator Thune, thank you for coming, and thank you for your 
active participation in our committee.
    Senator Thune. Thank you.
    Senator Bill Nelson. Mr. Chairman, just on that, there are 
some estimates as high as $40 million on that program. Can we 
afford that, Mr. Secretary?
    Dr. Sega. Senator Nelson, in the smaller constellations, I 
have not seen a number that high. I'd like to have General 
Chilton address this a bit, because the recent inputs from the 
combatant commanders, in terms of needs for night, all-weather 
capability, is one of the principal reasons that's driving us 
toward bringing on this capability.
    General Chilton. I'd be happy to.
    I think one of the things we learned back in Operation 
Desert Storm, and we all saw on our televisions, was the 
spectacular advantage we had over our adversary back in 1991 in 
being able to fight at night. Night-vision goggle technology, 
stealth technology, going in at night, those visions over 
Baghdad of pilots going downtown and coming out unscathed were 
pretty spectacular.
    As we move forward to later conflicts in the 1990s, on into 
Bosnia or Kosovo there, I think what we learned the advantages 
of the technologies I talked about earlier, with the JDAM and 
space integration, but also the shortfalls of operating in a 
nondesert environment, where there's real weather and you don't 
necessarily own the night as well as you do when you have 
favorable weather conditions. We learned the leveraging 
advantage of being able to see through the weather with this 
radar imaging technology that we have fielded on some of our 
airplanes, to include the B-2 bomber and the F-15E and the F-18 
now being able to have that capability from space, where you 
could see, with good resolution, day, night, all weather, into 
enemy territory, would be a tremendous leveraging advantage for 
our warfighters in the field.
    I'd just kind of walk you through these technological 
breakthroughs or identifications that I think really do give us 
a great capability.
    In the past, the combatant commanders have not had as much 
of an input into the requirements for these types of systems. 
That's started to change over the past year. General 
Cartwright, along with the Commander of the Joint Forces 
Command, General Smith, co-chair a forum called the Senior 
Warfighters Forum, where they get together the vice commanders 
of all of the combatant commands from around the world--
CENTCOM, Southern Command, Pacific Command, et cetera--and they 
sit down, and work to help define the requirements for where we 
need to go forward in the future.
    It is this type of forum that will be working in close 
concert with the developers to lay out the requirements that we 
would need to define what that radar satellite ought to look 
like and the numbers that you would need to support it.
    So, that work is ongoing, but a good bit of work is still 
in front of us, as mentioned.
    Senator Thune. Mr. Chairman, I want to thank the members of 
the panel for being with us today, and for your insights on a 
lot of these issues.
    Secretary Sega, I do have a question that pertains to 
something I was involved with in the National Defense 
Authorization Bill for Fiscal Year 2006, and that required the 
Department to submit to the committees a report on the 
feasibility and advisability of using the Space Radar for 
topographical mapping for scientific and civil purposes. My 
understanding is that work is underway, and is there an interim 
report that has been prepared or anything you might be able to 
share with us?
    Dr. Sega. Senator Thune, I'd characterize it as a rough 
draft now, but it should be in final form. As I understand it 
from our folks, I think the due date is by May 1, as I recall 
the due date on the report. They have worked through various 
examples where an X-band radar is quite useful. So, there's 
also a forum that is in place for those to look at the needs 
across the community. The representative for civil needs is, I 
think, out of the U.S. Geological Survey (USGS) office that 
attends these meetings. So, there is input into the process in 
development of the radar, but there's also examples, I believe, 
that will be present in the report as it comes forward.
    Senator Thune. Is that something that you say is in draft 
form. By May 1, would we have access to something that we could 
see?
    Dr. Sega. That's my understanding.
    Senator Thune. Okay, good.
    Do you think that it would be worthwhile to establish 
another unclassified frequency for Space Radar, where other 
agencies, such as Department of Agriculture, Department of 
Energy, USGS, as you mentioned, et cetera, could use, 
especially if they were willing to help with cost sharing?
    Dr. Sega. At this point, having not done the analysis, I 
don't know what the level of need is and whether the frequency 
that we are focusing on, X-band, is the correct one for that 
community. So, I'd allow that process to work out and 
understand what the needs are and how they would be addressed 
by radar as we have examples of other radars that have 
different frequency bands for example, the Canadian radar sat, 
I believe, is a C-band-based radar. So, I think understanding 
the needs and how they would be addressed would be the next 
step.
    Senator Thune. Yes, if they were willing to participate in 
the cost, if there's a capacity to do it, there are a lot of 
needs that I think are--and I'm just giving you a couple of 
areas, in the area of agriculture, vegetation classification, 
vegetation land cover, crop identification, forest health, 
things that could really be--the technology could be enormously 
helpful in some of these other civilian areas. It's something 
that we've had some folks in my State who have had an interest 
in pursuing, and I would encourage and welcome your input and 
consideration of that as a possibility, as well. It's something 
that I think has some value, obviously, to the other agencies 
that would benefit from it.
    General Chilton, changing gears for just a minute, one of 
the joint command components under your command is Integrated 
Missile Defense. In your statement, you say that the United 
States is reducing our dependence on nuclear weapons in order 
to assure our allies and dissuade competitors, and deter those 
who plan to harm us, particularly with weapons of mass 
destruction. Now, while we may be reducing our dependence on 
nuclear weapons, it appears evident that nations hostile to us 
are embracing a reliance on nuclear weapons. I guess I'm 
interested in knowing what your assessment is of the nuclear 
delivery capabilities of countries like North Korea and Iran, 
and are we able and in a position to counter those threats?
    General Chilton. Sir, first of all, if I could make one 
minor correction, my boss, General Cartwright, oversees me, as 
the Space and Global Strike Commander, and my colleague, 
Lieutenant General Larry Dodgen, is the Commander for 
Integrated Missile Defense (IMD). General Dodgen does not work 
for me. So, we're peers in the organization. I hesitate to 
tread into his area for IMD.
    I could comment, though, on a couple of areas with regard 
to reliance on nuclear weapons and options with regard to 
global strike that General Cartwright has expounded on and that 
fall right in my lane.
    The change in the Cold War paradigm and the fact that we've 
gone from a military posture and national military strategy, 
vis-a-vis the Soviet Union, where nuclear weapons were what we 
used to deter their activities. We've found today that there 
are adversaries out there, two of which you've named, that 
perhaps may not be deterred by our nuclear might, and to that 
group I'd add, the fellows in organizations like al Qaeda, who 
couldn't care less whether or not we have nuclear weapons. So, 
with regard to that, STRATCOM is looking for other 
alternatives, be they conventional, kinetic, nonkinetic 
options, to deter, dissuade, and then ultimately defeat our 
adversary, weapons that would not be what you might call self-
deterring in their use. Would you really commit a nuclear 
weapon against that target, or can you better, or perhaps 
equally, service that target with a conventional weapon that 
may be more acceptable to the international community, and, 
indeed, to the American public to employ? Those kind of 
philosophies is what we're talking about in that particular 
statement with regard to reliance on nuclear weapons.
    A little bit on the adversary and threat, certainly in my 
lane, in Space and Global Strike. When you look at a country 
like North Korea, who claim they have a nuclear program, and 
you look at their capability and their missile development 
technology through Scuds, Nodongs, and the Taepo Dong missiles, 
you have to be concerned. Even recently, in the newspaper 
you've seen Iran come out touting the improvements in their 
ballistic missile capabilities publicly, and advertising those 
capabilities, and how capable they are, and intend to become. 
So, certainly along those lines, when you look at those 
capabilities, you have to take that into account.
    The New Triad that is discussed in the DOD talks not only 
about offensive capabilities and flexible infrastructure, but 
also about a defensive capability to help us give the same 
certainty that we had back when it was us and the Soviet Union 
just holding nuclear weapons over each other. We now have this 
concept that you not only have to have a credible striking 
capability that has to be both nuclear, conventional, and 
nonkinetic, but you also have to have a credible defense, and 
then a flexible infrastructure that could respond to an attack 
and continue to sustain our way of life and our operations.
    I hope I've answered your questions along those lines of 
the statement. If I haven't, sir, I'd be happy to expand some 
more on those.
    Senator Thune. I think that gets to the heart of what I was 
asking. They've handed me my note that says my time's expired. 
I will yield back to the chairman.
    Thank you very much.
    General Chilton. Yes, sir.
    Senator Sessions. Senator Nelson.
    Senator Bill Nelson. Admiral, is the Navy interested in 
space? [Laughter.]
    The answer is yes. I'll answer for you. I want to 
compliment you that your Multiple User Objective System (MUOS) 
program is on budget and on schedule.
    Admiral, answer for us how does the Navy remain fully 
engaged in space programs, or does it just become a user of 
space technology?
    Admiral Deutsch. Senator Nelson, thank you and yes is the 
answer. We are very much interested in space. I will take that 
compliment on MUOS, but I'll be much more comfortable when the 
first satellite is launched in 2014. I'll finally open up that 
bottle of champagne when all five are in orbit.
    The Navy is very much interested in space, and I think we 
are very engaged, as we talked earlier. Our requirements 
process is rather robust. We make sure that what we need is 
injected in the joint system. As far as what we would like to 
have in areas like operationally responsive space (ORS), we 
remain engaged very robustly with our fellow warfighters. I'm 
fairly confident that we remain engaged, and we will in the 
future.
    Senator Bill Nelson. Okay. So, you're definitely interested 
in ORS?
    Admiral Deutsch. Sir, we are very interested in the 
capabilities that ORS provides.
    Senator Bill Nelson. Okay.
    Mr. Secretary, let's talk about EELV. What's the status of 
the merger process?
    Dr. Sega. The United Launch Alliance proposal was submitted 
to the Federal Trade Commission (FTC), a request from the FTC 
to the DOD to provide information, and that has----
    Senator Sessions. Let me just interrupt. We're dealing with 
the launch vehicle that--the numbers expected to be needed were 
reduced, and two providers have discussed merger. So, we'll 
have a single source, rather than two sources on the vehicle. 
So, maybe you, from there, can give us the status of where that 
process is today, as Senator Nelson asked.
    Senator Bill Nelson. Do you support the access to space 
through two launch providers?
    Dr. Sega. Let me just segment the questions up here a 
little bit.
    The two boosters, for medium and heavy launch, are the 
Delta 4 and Atlas 5, different propellants, different engines 
in the two systems. With the proposed merger of the Boeing and 
Lockheed Martin launch teams to one, they still will be 
providing two different propulsion systems and propellant 
combinations as we go forward. Both of them are relatively new 
boosters, Delta 4 and Atlas 5. Both have been very successful 
in their early launches. We are providing our inputs. We are 
positive toward the concept, but there are a lot of details. We 
are not the deciding authority in the U.S. Government on that 
merger, but, rather, the FTC. So, in the Air Force, we provide 
our information and answer the questions that are asked to the 
Office of Secretary of Defense, who in turn meets with the FTC, 
answers their questions, and they're working through the proper 
process, and the FTC will be the deciding party.
    Senator Bill Nelson. Are you providing the FTC with the 
information it needs?
    Dr. Sega. I believe so.
    Senator Bill Nelson. We need to get on with it. It'll solve 
a lot of the EELV issues, won't it?
    Dr. Sega. We believe that the two teams will, in fact, be 
able to share some of the expertise knowledge that they have in 
a positive way. But there are many considerations, and I need 
to leave those decisions to the folks that are supposed to make 
them.
    Senator Bill Nelson. Let's assume that the FTC approves the 
merger. Then are you satisfied, as the Secretary, that you're 
going to have the assured access to space through two launch 
providers?
    Dr. Sega. Assured launch--assured access to space is the 
principle which we will hold firm to. It is an enabler for us 
to get space capabilities on orbit and serve the warfighter. 
The details of how we get that are also very important, so I 
would wait until seeing how the outcome turns out before giving 
an assessment.
    Senator Bill Nelson. Now, are you raising the question here 
before our committee as to whether or not there should be a 
merger?
    Dr. Sega. I'm saying that the folks that you have in front 
of you right now are not the ones that are deciding it. We've 
provided the information to it. I'm positive, as is the Air 
Force, on the concept of bringing these two launch providers 
together. The assumption, as we develop the EELV program, and 
potentially--and General Hamel could comment on this as well on 
some of the details--but it was assuming a commercial market 
which did not occur. So, there's a limited number of launch 
needs that our Nation has for medium- and heavy-lift launch 
vehicle. So, it's important that we focus on assured access to 
space. This may be an opportunity that, in fact, aids us in 
getting that assured access to space. It has many positive 
features, but we have to do due diligence on a merger so it is 
in the best interest of the U.S. Government that other people 
in that industry, as well as those that want to provide 
satellites for launches. I remain positive on this concept.
    Senator Bill Nelson. Who makes the policy decision that the 
merger will give us assured access to space?
    Dr. Sega. Our input on the national security aspects of 
this merger are from the DOD. I would consider one of the prime 
inputs, but not the only one, to the FTC.
    Senator Bill Nelson. Are we relying on the FTC to make the 
policy decision that the merger gives us assured access to 
space? Are we relying on you? Are we relying on the Secretary 
of the Air Force? Are we relying on Secretary Rumsfeld?
    Dr. Sega. The organization within the DOD that has been the 
lead in providing that input to the FTC has been the Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics. The Air Force has been the prime supporter of data 
required to make the decision that is the right one. Our 
concern is access to space. We make the case. We have made the 
case, in terms of what we believe is the pros and cons of this 
particular proposal.
    Senator Bill Nelson. So, are we relying on Secretary Krieg 
for that input? Who do we bring to this committee to give us 
the answer to the policy question that the merger is going to 
give us, in their opinion, assured access to space?
    Dr. Sega. I would view that we look at the risk, we look at 
mission assurance and I will turn this over to General Hamel 
here in a bit in terms of what they have done at SMC to enable 
us to have 43 successful operational launches. If you count the 
test flight out of Florida, in the Delta 4, it's 44. The 
mission assurance process and what they see day-to-day, in 
terms of what enables us to have the mission assurance in the 
launch business.
    General Hamel. Sir, if I might just add a bit to this, that 
currently we have two separate launch vehicle providers for the 
Atlas 5 and the Delta 4. We are taking those from previous 
commercial contracts now to government-managed efforts. Our 
national policy is, we will have assured access. We will do 
that with the two independent companies, if need be, and that's 
the basis of our budget request. However, if it turns out the 
FTC, based upon inputs from all parties, including the 
companies, DOD, concludes that it's in the best interest to 
allow this merger to proceed, then we'll be in a position then 
to continue to have assured access with a single joint venture, 
but, by the same token, we can maintain the assured access by 
having two independent contracts. We do see benefits, in terms 
of efficiencies and mission assurance benefits, under a joint 
venture, but, again, that is subject to other people's 
decision.
    Senator Bill Nelson. Who are those other people?
    General Hamel. Sir, it would be the FTC, as Dr. Sega says. 
Clearly, the DOD is going to be making inputs, and is in 
consultations at this point. But there will be competitiveness 
questions, and other issues will be brought before the FTC.
    Senator Bill Nelson. I think what our committee would like 
to know is, who, at the end of the day, is going to be 
responsible, and is going to sign off that this merger between 
two companies in this new kind of venture, called United Launch 
Alliance, is, in fact, going to give us the assured access to 
space? Not the vehicles. We know the vehicles work. We're 
talking about the new kind of arrangement of operations. Is 
that a decision that's already made?
    Dr. Sega. Senator Nelson, I'm concerned that the processes 
are good, and that General Hamel and his organization assures 
us that each and every booster is ready to go. So, we can't not 
pay attention to the details of every booster. We look at the 
overall processes. I think there are different business models 
that would still allow us to have the highest quality booster 
possible for the particular launch, and give us the mission 
assurance that is our bottom line.
    Senator Bill Nelson. General Hamel, let me ask you how does 
the Air Force intend to implement block three?
    General Hamel. Sir, as I mentioned, the original concept of 
the program for EELV was a joint government/industry 
partnership. As a result, it was done as a commercial 
development. As a result of the collapse of the commercial 
satellite communications market, there's no longer as much 
demand for commercial launch services. So, we are transitioning 
these contracts from--which had previously been commercial 
contracts, now to a more classical defense contract. We're 
going from what's referred to as a Federal Acquisition 
Regulation (FAR), FAR Part 12, to a FAR Part 15 contract. So, 
our intent here is with each of the two companies, Lockheed 
Martin and Boeing, to put in place contracts that will allow us 
to manage the engineering workforce, the supplier chain, and 
the infrastructure to assure that we maintain critical skills, 
and then separate contracts would be let with each of the two 
companies in order to buy, on a firm, fixed-price basis, the 
individual boosters, as we order them.
    Our intent, as I say, is to move to a government-managed 
launch capability, as well as a launch booster procurement 
basis. That's what we're in the midst of, at this time.
    Senator Bill Nelson. For example, how far in advance does a 
launch vehicle have to be assigned to a particular satellite?
    General Hamel. Sir, typically, under our current 
arrangements, we will order specific launches for specific 
satellites 24 months in advance of the need date.
    Senator Bill Nelson. Will the new United Launch Alliance 
give you more flexibility in assigning those launch vehicle 
assignments?
    General Hamel. Sir, I don't believe that it's going to make 
a material difference. We will still look at what is the best 
provider, whether it's done as two separate contracts or if 
it's merged together under the United Launch Alliance.
    Senator Bill Nelson. The concept behind EELV is to give you 
the flexibility that you could launch on short notice. So, what 
is ``short notice''?
    General Hamel. Sir, typically we'll order a launch, as I 
said, 2 years in advance. In some cases, we may choose to do 
all of the integration work. In other words, understanding the 
loads and the electrical interfaces for both a Delta 4, as well 
as an Atlas 5. If we actually did the integration work for a 
particular satellite for either vehicle, we could go as close 
as 10 to 12 months in advance of a launch of actually planning 
which of the two boosters we would fly on. This is 
significantly shorter-term decisions than what we currently 
have, where you typically are years in advance of having to 
select a particular booster. We will have much greater 
flexibility with the EELV.
    Senator Bill Nelson. Does this cut out a third party, like 
Space-X, that might want to develop a heavy booster?
    General Hamel. No, sir, absolutely not. As we've said, that 
any qualified provider that can meet our mission requirements 
and has requisite demonstrated success, we will make calls, on 
an annual basis, as to who would be able to provide us a launch 
option. Again, that would be ordered up 2 years in advance.
    Senator Sessions. All right. We talk about the commercial 
satellite services. I believe that commercial satellites 
provide about 80 percent of our communication needs during OIF. 
Will the DOD continue to rely on commercial satellite 
communications in the near- and mid-term? What steps are you 
taking to ensure that the commercial satellite services the 
Government needs will be there when we need it? Are we in 
pretty good shape there, or are you--do you have serious 
concerns there?
    Dr. Sega. Senator Sessions, we are using commercial 
satellite providers. Communications, as you mentioned, is, I 
would say, about the 80 percent figure in OIF. It is our 
planning, going forward, is it'll be an integral part of our 
communications architecture. So, we do work with the satellite 
providers, com providers. The actual ordering of satellite 
services from the commercial providers is through the Defense 
Information Systems Agency, not through our offices, but though 
a defense agency for the actual contracts with the commercial 
providers. But we also work with them and try to be helpful, in 
terms of information exchange that their product to us is the 
best it can be. But it's an integrated part of our 
communications architecture going forward.
    Senator Sessions. I notice that Ms. Chaplain noted in her 
testimony that over 5 years, $12 billion less has been 
available to spend on acquisition and development as a result 
of cost overruns, I guess costs and expenses on these kind of 
programs that were not anticipated. Now, I know that happens in 
private business. It happens anywhere. We need to do a better 
job about that.
    Probably you may have some counterpoints that you would 
make to say $12 billion may not be perfectly accurate. I don't 
know. Usually there are two sides to those kind of issues. But 
I would just note that I do think, and I am pleased to hear, 
that you're beginning to address the root causes of this, as 
GAO has pointed out, and that apparently your predecessors were 
not so sensitive to the recommendations that the GAO has 
recommended, and that you are addressing these issues by 
lowering technical risk, assuring realistic cost estimates, and 
not biting off more than you can chew. Those are things that 
just have to be done, because we do face a dangerous time that 
has been referred to as a bow wave of demands coming upon us in 
not too many years. So, we're interested in that.
    I hope that this will continue to be a high priority of 
yours. The Secretary of Defense--I assume that's why he put you 
there, to make sure that we address this issue in an effective 
way. In fact, I think it was.
    Ms. Chaplain, let me just ask these questions about the 
general program, and then I think we'll wrap it up. We've had a 
good exchange this afternoon.
    One of the suggestions and concerns expressed by GAO was 
that competition for funding among good ideas--a lot of people 
have a lot of good ideas in Air Force, the whole DOD, and the 
other branches of the Government--and that DOD has had a 
difficult time in prioritizing and setting priorities for which 
ones need to be given funding. So, do you concur with that, Dr. 
Sega, that that has been one of our problems? Can we develop 
not only an Air Force-wide, but a DOD-wide process to help 
eliminate that problem that seems to be a driving factor in 
cost overruns?
    Dr. Sega. Mr. Chairman, when resources are limited and 
there are several options on the table, then there'll be a 
competition. But I believe that as we look at what is most 
effective for the joint warfighter and what, as General Chilton 
said, effects you're trying to achieve, then you look at the 
trades of different ways of solving that problem. So, their 
involvement is absolutely crucial in us identifying an 
investment portfolio in the acquisition community that's 
bringing the maximum result and effect to their needs.
    Senator Sessions. General Chilton.
    General Chilton. Yes, I'd agree completely. I'd just 
highlight that at this point in time, we're in a difficult 
situation in space with regard to recapitalization. I can't 
think of a single constellation that we have up there now, 
whether it be the early warning satellite constellation or the 
GPS constellation or a communications constellation, the Ultra 
High Frequency (UHV) the Navy uses, or the Super High Frequency 
(SHF) that the Army uses. I can't think of a single one that we 
don't have a program in development to replace them right now, 
all coming together at exactly the same time.
    Yet, every one of these things is important to the 
warfighter. We've become accustomed to using them. We've 
tailored the way we fight our fights around these things, and 
we need them.
    So, these are tough times to make these hard decisions, and 
I, for one, am very encouraged by the steps that I've heard 
that the Air Force is taking to bring cost and schedule and 
risk under control, as Dr. Sega has laid out here, because I 
think that is going to be very important if we're going to 
deliver these capabilities to the warfighter in a timely 
manner.
    Senator Sessions. You've made clear what the soldier and 
the sailor and the airman and marine need to see over that 
hill, across the horizon, see where those threats are. It's 
absolutely a critical part of our Nation's defense capability. 
It's part of our strength, and we never want to commit our 
personnel in harm's way and have them blindsided when we could 
well have protected them from those kind of threats. I really 
do believe this is a critical area.
    We have the operationally responsive space, which allows 
for capability of bringing in some lower-cost services that can 
be available to us. We will hopefully see, as time goes by, 
that, in some things, in terms of satellites, costs have gone 
down. But one reason we have so few commercial launches is that 
the satellites are lasting longer than were projected, and one 
satellite can do what it used to take multiple satellites to 
do. They're lasting longer, and they do what four of them used 
to do. Now you don't need to launch as many. So, those kind of 
cost savings also need to be a part of our future.
    The capability must be there, and we need to make sure that 
it's met. You can count on this subcommittee to be responsive 
to your reasonable requests to make sure that this Nation has 
preeminent capabilities in space.
    Dr. Sega?
    Dr. Sega. Mr. Chairman, I have one correction for Senator 
Thune that was passed up I think. Apparently, I was a little 
optimistic on the report that I know is in draft. To answer his 
question, the interim results will be available June 1, rather 
than what I said. I wanted to put that in the record.
    Senator Sessions. I will make that part of the record.
    Does anyone else have anything to add before we adjourn? 
[No response.]
    Thank you very much for your service to your country. It's 
obvious to me, and, I think, to anyone who's observed this 
hearing, that you are people of great capability and 
experience, and we're glad you're there providing for the 
defense of America.
    We are adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

          BASICS APPROACH VS. CURRENT SPACE ACQUISITION POLICY

    1. Senator Sessions. Dr. Sega, with your emphasis on returning 
space programs ``back to basics,'' should the National Security Space 
(NSS) acquisition policy be revised so that it is more closely aligned 
with the ``back to basics'' approach?
    Dr. Sega. The fundamental tenets of the ``back to basics'' approach 
are consistent with NSS Space Policy 03-01. Specifically, NSS 03-01 
states that Evolutionary Acquisition, of which a bloc or incremental 
approach is one process, is the preferred strategy for the acquisition 
of mature technology. The repositioning of the System Design Review 
(SDR) before Key Decision Point B (KDP-B) in the 27 December 2004 
iteration of NSS 03-01 was an important step to improve risk 
management. NSS 03-01 requires capability documents to be updated 
before each KDP to strengthen collaboration between the requirements 
and acquisition communities. Finally, NSS 03-01 directs program offices 
to elevate system engineering principles to the same level as cost and 
schedule programmatic considerations.

                              SPACE RADAR

    2. Senator Sessions. Dr. Sega, Congress has been concerned about 
the ambitious nature of the Space Radar program, its potential costs, 
and requirements coordination with the Intelligence Community (IC). How 
will the Air Force integrate the ``back to basics'' approach on Space 
Radar?
    Dr. Sega. The Department of Defense (DOD) and the IC have already 
begun a common path towards requirements definition. The Initial 
Requirements Document for Space Radar was validated by both the IC's 
Mission Requirements Board (MRB) and by the Joint Requirements 
Oversight Council (JROC) in February 2006. This provides top-level 
qualitative requirements for the program. The Capability Development 
Document, which specifies the quantitative detailed requirements, is in 
development between DOD and IC user communities and on schedule to 
support Key Decision Point B.
    The Space Radar plan is not to proceed into Phase B until 
technology is mature. We have incorporated lessons learned (from the 
Young Panel report, and other space programs) into the Space Radar 
acquisition strategy and cost estimating to provide more accurate 
assessments of Space Radar program cost and risk.
    To implement a ``back to basics'' approach, the Space Radar program 
is developing an evolutionary acquisition approach that would reduce 
program risks. Results of this work will include definition of a Block 
1 satellite program, with an estimated cost of the first satellite, a 
total estimated cost for Block 1, and a life cycle cost estimate for 
developing, building, and operating the constellation.

    3. Senator Sessions. Dr. Sega, what is the basic architecture for 
Space Radar? For example, how many satellites do you anticipate for the 
entire constellation?
    Dr. Sega. In response to the Initial Capabilities Document (ICD), 
validated by the JROC and the MRB and the Draft Capabilities 
Development Document requirements, we have identified a Government 
Reference Architecture which contains nine satellites in low earth 
orbit (plus one spare) and an interdependent ground capability which 
will interface with other space and airborne systems to support the 
horizontal integration of intelligence, surveillance, and 
reconnaissance capabilities.

    4. Senator Sessions. Dr. Sega, how much do you estimate it will 
cost to develop and acquire the full Space Radar capability?
    Dr. Sega. We are developing the program in measured steps, in order 
to reduce early program risks. Results of this work will include a 
total estimated cost for nine satellites in low earth orbit (plus one 
spare) and investment in the ground segment. We continue to work on an 
updated cost estimate (the initial program office estimate falls in the 
range of $20-$25 billion) of the Government Reference Architecture 
(GRA) as it is refined by the JROC and the MRB processes.

    5. Senator Sessions. Dr. Sega, what guarantees do we have that the 
IC will share in the development costs?
    Dr. Sega. In January 2005, the Secretary of Defense and Director of 
Central Intelligence committed to pursue a common Space Radar designed 
to satisfy needs of both the National Intelligence Community and the 
joint warfighter. In recent Space Radar Executive Committee meetings, 
senior Office of the Director of National Intelligence staff have 
reiterated their support for the Secretary of Defense/Director of 
Central Intelligence agreement.

    6. Senator Sessions. Dr. Sega, when can we expect a concrete cost 
share agreement?
    Dr. Sega. The January 2005 Secretary of Defense/Director of Central 
Intelligence agreement directed the Under Secretary of Defense for 
Intelligence and Deputy Director of Central Intelligence for Community 
Management to recommend an approach for cost sharing of program 
acquisition in the fiscal year 2008 budget deliberations. Once the 
acquisition approach is further defined, an estimate supporting this 
approach will be used for initial cost sharing discussions between the 
DOD and the IC. Final cost sharing allocations will be based on a 
single agreed upon Independent Cost Estimate, at which point discrete 
costs can be allocated and programmed by the appropriate agency.

                         SPACE INDUSTRIAL BASE

    7. Senator Sessions. Dr. Sega and General Hamel, there have been 
concerns in recent years about consolidations within the space 
industrial base, the decreasing pipeline of scientists and engineers, 
and even concerns about whether large space contractors have the 
capability to get the job right. Is the current and projected U.S. 
space industrial base sufficient to meet national security requirements 
for the next 15 years?
    Dr. Sega. Attracting and retaining well-qualified scientists and 
engineers into the National Security Space (NSS) community, both within 
the government and among our many industry partners, is one of the 
critical areas which we are addressing. More and more, our Tier 1 
(prime) contractors depend on our equally vital Tier 2/3/4 suppliers. 
Data concerning the availability of scientists and engineers is 
limited.
    The NSS Space Industrial Base Council, which I co-chair, is in the 
process of addressing some of these issues. Among the specific 
initiatives now underway is the development and population of an 
enduring data base by the Aerospace Corporation to be used to assess 
the availability of key space professionals within industry, starting 
first with the Tier 1 members and then moving on to Tiers 2/3/4. We 
have tasked the National Security Space Office (NSSO) to work with 
senior leaders in both the government and industry to follow-up on key 
recommendations contained in many of the recent space studies. The 
``back to basics'' acquisition approach emphasizes the commitment to 
recruit and train a strong space workforce.
    General Hamel. The current and projected U.S. space industrial base 
is sufficient to meet national security requirements for the next 15 
years; but it needs our continued attention.
    Due to the unique aspects of the space environment, space system 
components and parts often require uniquely designed, manufactured and 
tested products/practices not typical of terrestrial and aeronautical 
commercial and military systems. Consequently there are numerous niche 
suppliers whose business base is primarily space and subject to ups and 
downs of the overall space market. Several component and part suppliers 
have expressed concerns with their financial viability in the space 
market and the ability to provide a reasonable return on investment, as 
well as the ability to properly capitalize and invest in the 
development of advanced products for future systems.
    The NSS community emphasizes Government investments (e.g., Title 
III; Mantech; S&T) to facilitate a strong and responsive industrial 
base with respect to technology and industrial needs; however, the 
available funds are limited. The Space Industrial Base Council, 
established, and chaired by DOD Executive Agent for Space, proactively 
identifies and addresses NSS industrial base concerns, and includes 
subcontractors and major vendors. NSS is establishing policies to 
address strategic technologies and sound source/make-or-buy analyses. 
Additionally, we emphasize to prime contractors their responsibility to 
enhance their own subcontractor management planning and surveillance.
    With respect to people and skill base, the prime contractors are 
able to staff the necessary personnel to meet needs, but depth of 
experience is a challenge. However, they expressed concerns about the 
health of their subcontractors and major vendors and potential 
personnel lay-offs if future programs do not materialize. Challenges 
exist in the areas of systems and software engineering, but all of our 
contractors have comprehensive programs in place to address this 
concern. They are actively working with universities to ensure key 
skills are available; using mentoring programs to ensure knowledge 
transfer, and retaining older workforce and employing knowledge 
transfer processes.

    8. Senator Sessions. Dr. Sega and General Hamel, are contractors 
sufficiently motivated to get the job right?
    Dr. Sega. Our industry partners are motivated to engage in 
activities that not only ensure corporate, shareholders, and market 
expectations, but also to deliver world-class space systems that meet 
or exceed our requirements. The government motivates industry by using 
past performance as a factor in the source selection process and 
appropriately applying incentives and award fees during the life cycle 
of the program. The current emphasis on ``back to basics'' is re-
energizing the space acquisition community to consider contractor 
incentives more vigorously early in program development.
    General Hamel. We are working to improve the Government/contractor 
relationship, via the type of contract used, so we sufficiently 
motivate the contractor to achieve total mission assurance. We have 
used Cost-Plus-Award-Fee (CPAF) contracts to motivate contractor 
performance. Unfortunately, we found CPAF contracts did not work in 
many instances because award fee often focused on processes rather than 
product. As a result, we are beginning to change our contract incentive 
structures by increasing the use of Cost-Plus-Incentive-Fee (CPIF) 
contracts and tying the amount of fee earned to measurable performance 
objectives. In addition to the use of objective performance incentives, 
we will ensure a rigorous linkage between the incentive fees earned by 
contractors and the performance assessments we input into the 
Contractor Performance Assessment Reporting System (CPARS). These 
performance assessments evaluate contractor past performance, a key 
factor in determining whether or not a contractor will be awarded 
future contracts. The strong linkage between objective contract 
performance incentives, past performance, and mission assurance is the 
best way to hold contractors accountable to consistently provide 
quality, on-time products and services to support our warfighters.

                 THE NEED FOR BETTER PROGRAM MANAGEMENT

    9. Senator Sessions. General Hamel, how is the Air Force Space and 
Missiles Systems Center (SMC) assuring that program managers have the 
right expertise and experience to manage their programs?
    General Hamel. We are assuring program managers have the right 
expertise and experience to manage their programs by providing 
increased opportunity for education and training, creating a forum to 
exchange a body of knowledge, and utilizing the space professional 
database to identify/assign personnel with the right experience from 
across the Air Force.
    SMC has developed a ``schoolhouse'' capability to provide space 
acquisition training that augments training available through the 
Defense Acquisition University, Air Force Institute of Technology, and 
other non-space specific sources. We are training our folks through the 
Space 100 and Space 200 course provided through the National Security 
Space Institute, as well. We have identified our best and brightest to 
participate in a Naval Post Graduate School systems engineering 
distance learning program.
    In February 2006, Dr. Sega instituted a National Security Space 
Program Manager's Conference to create a forum for program managers 
across space acquisition to share best practices and exchange lessons 
learned. This cross-flow of ideas and experiences is a great first step 
in creating a body of knowledge that our program managers can rely on 
to increase their expertise and bolster their own experiences.
    Finally, Air Force Space Command is chartered with Space 
Professional Development. Part of this effort identified those 
military/civilians across the Air Force with space experience. We are 
now able to target acquisition professionals with maximum space 
experience to come to SMC. Recruiting these people raises the average 
experience level of our workforce as well as providing mentoring for 
our more junior space professionals.

    10. Senator Sessions. General Hamel, is SMC attracting the best and 
brightest in the field?
    General Hamel. We are doing all we can to attract the best and the 
brightest by exploiting as many recruiting tools as we can, creating 
more opportunities for stable civilian positions, and making SMC a 
great place to work.
    SMC is utilizing recruiting tools like the Presidential Management 
Fellows, Intergovernmental Personnel Act assignments, retired 
annuitants, and intern programs such as Palace Acquires and Copper 
Caps. We are also visiting Air Force professional developmental 
education venues like Air Command and Staff College and the Air Force 
Institute of Technology to advertise the great opportunities in space 
acquisition. Our system program directors are personally recruiting, 
making by-name requests for experienced and talented officers.
    To create more opportunity for top-notch civilians to advance and 
to keep transitioning military at the Center, we are actively pursuing 
military to civilian position conversions. Additionally, we are 
exploring the potential to convert Assistance and Advisory Service jobs 
to civilian positions.
    Finally, we are working hard to make SMC a great place to work so 
we can attract and retain the best and brightest. We have brand new 
facilities--the Schriever Space Complex--which offer a consolidated and 
modern work environment. We maximize the use of annual retention 
allowances and civilian hiring/compensation (e.g., bonuses, locality, 
housing, etc.) to offset the higher cost of living in the Los Angeles 
area.

    11. Senator Sessions. General Hamel, do SMC program managers have 
enough control over resources and decisions to be held accountable for 
meeting cost, schedule, and performance goals?
    General Hamel. Our program managers do have enough control over 
resources and decisions to be held accountable for meeting cost, 
schedule, and performance goals; but we have to make sure we don't 
commit to more than we can deliver when setting program requirements, 
strategies, plans and goals.
    We capture all previous acquisition results/lessons learned during 
our Acquisition Review Processes (i.e. Strategy Review, Source 
Selections, Program Reviews, Proposal Developments) and incorporate 
them into subsequent acquisitions. In doing so we attempt to ensure 
cost realism, create conservative schedules, mature requirements, and 
solid risk management/mitigation practices and create balanced program 
oversight. We collect and distribute, in conjunction with the Aerospace 
Corporation, management watch list items during pre-award activities 
and Independent Program Assessments. We evaluate accuracy of cost 
estimates, planning for integration/interfaces, software complexity, 
SPO staffing, adherence to proven policies and processes, and test 
rigor. SMC incorporates, across the portfolio, Defense Acquisition 
Performance Assessment recommendations and USECAF block/incremental 
acquisition approach, Lean Initiatives, and SMART OPS 21 
recommendations to ensure we set our programs and program managers up 
for success.

    12. Senator Sessions. General Hamel, in what ways can you, as 
Commander of SMC, instill and sustain tenure and accountability of your 
program managers?
    General Hamel. Space and Missile Systems Center has programs 
underway to recruit, attract, retain, reward, and better educate/train 
the space acquisition workforce. Specifically, we have extended tour 
lengths for acquisition personnel to 4 years, we actively recruit 
people with substantial expertise in space development and ensure 
stability of our people in key program leadership positions. We are 
also reinvigorating processes and competencies in core functions--
systems engineering, cost/pricing, test planning and execution, program 
and technical reviews, scheduling, mission assurance--to improve our 
program managers' tool sets and bring consistency and predictability 
back into space acquisitions. Extensive benchmarking across the space 
portfolio and a newly established National Security Space Program 
Managers Conference are providing our program managers forums for 
sharing lessons learned and reinvigorating capabilities via best 
practices. I've also focused on dialogue between acquirers and 
warfighters to help us look beyond individual programs and consider 
mission area effects. Making program managers responsible for this 
``horizontal integration'' empowers them to look for opportunities for 
synergies, multiplier effects, and cost avoidances. All these efforts, 
aimed to help our program managers be successful, are vital both to 
reinvigorating space acquisition/innovation and to sustaining tenure/
accountability in our space professional.

    13. Senator Sessions. General Hamel, how does SMC gain early 
knowledge about impending problems in acquisition programs?
    General Hamel. We've put several tools in place to help us gain 
early knowledge about impending problems on our programs. One of the 
most important tools are technical Program Management Reviews to focus 
on changes in cost, schedule, and technical baselines, as well as 
managing realized risks. We have been doing this for about a year now, 
and we review one program each week, which allows me and my key 
functional experts to see each program in detail three to four times 
per year--greatly increasing our situational awareness. As the reviews 
mature we are working on making them more metrics-based to help us 
identify and address problems in our ``headlights'' rather than after 
they develop.
    We also rely heavily on our Aerospace Corporation partners. Each 
week, Aerospace briefs SMC senior leadership and program directors on 
an overarching ``watch list.'' The ``watch list'' includes both 
program-specific and cross-cutting risks that Aerospace helps us track 
and mitigate.
    Another ``early warning'' area that we are committed to improving 
is earned value management. Hand-in-hand with reinvigorating our cost 
estimating function, we are working to make earned value management a 
viable program management tool. SMC now has earned value experts on 
staff to provide education and assistance to the program offices. We've 
also teamed more tightly with the Defense Contract Management Agency to 
ensure that our industry partners earned value management systems are 
in-place, certified, and being utilized to track progress.

    14. Senator Sessions. General Hamel, can you describe what is 
currently being done and what shortcomings remain in estimating costs 
for space systems?
    General Hamel. I have centralized cost estimating and assessment at 
SMC by creating a new Cost Analysis Division within my Financial 
Management Directorate. This organizational structure provides for 
independent reviews and a center of expertise for consistent cost 
analysis throughout SMC. Updated Program Office Estimates (POEs) are 
required at each major milestone. The new centralized Cost Division 
executes independent assessments of these POEs. In addition, I direct 
Independent Cost Assessments (ICAs) to be conducted from time to time 
on specific areas/programs of concern. These ICAs are also led by the 
new Center Cost Division, teaming at times with AFCAA and the OSD CAIG. 
In addition, we have instituted an IPT arrangement with AFCAA, NRO, and 
Navy Space programs to share best practices within the cost 
communities.
    We have not completely restored our organic cost expertise--this 
will take some time--with robust recruiting and training--to fix 
completely. Also, we continue to work to improve the fidelity of the 
data in our cost models. My Cost IPT is working more closely with 
industry to improve our data collection efforts but this, again, will 
take time as well as resources to remedy.

    15. Senator Sessions. Ms. Chaplain, according to the Government 
Accountability Office's (GAO) recent survey, what are the top obstacles 
to achieving program success from the point of view of program 
managers?
    Ms. Chaplain. As part of a 2005 review \1\ on program management 
best practices, we surveyed DOD's major weapon program managers, 
including some managing space programs, who cited the following as 
``top'' obstacles to achieving successful outcomes in an open ended 
question:
---------------------------------------------------------------------------
    \1\ GAO, Best Practices: Better Support of Weapon System Program 
Managers Needed to Improve Outcomes, GAO-06-110 (Washington, DC: Nov. 
30, 2005).

        <bullet> funding instability (about 36 percent),
        <bullet> requirements instability (13 percent),
        <bullet> staffing problems (8 percent),
        <bullet> excessive oversight (7 percent), and
        <bullet> inexperienced leadership (7 percent).

    Although the majority of respondents to our survey believed that 
the initial baselines of their programs were reasonable, a significant 
group, about 24 percent, responded that their program parameters were 
not reasonable at the start, and 45 program managers responded that 
their program had been rebaselined one or more times for cost and 
schedule increases. In addition, 18 percent said one or more key 
technologies fell below best practice standards for maturity.
    Our reviews of space programs are consistent with these views--we 
have found technologies to be immature at program start for major space 
programs. Further, in delving deeper into the root causes behind these 
problems, we have found that competition for funding has incentivized 
programs to produce optimistic cost and schedule estimates, over 
promise on capability, suppress bad news, and forsake the opportunity 
to identify potentially better alternatives. In addition, because DOD 
starts more weapons programs than it can afford, it invariably finds 
itself in the position of having to shift funds to sustain programs--
often to the point of undermining well-performing programs to pay for 
poorly performing ones. We also have found that DOD starts its space 
programs too early, that is, before it has assurance that the 
capabilities it is pursuing can be achieved within available resources 
(time, money, technology, people, etc.) and time constraints, and it 
allows new requirements to be added well into the acquisition phase, a 
course of action that can further stretch technology challenges. This 
is encouraged by the funding process, as acquisition programs tend to 
attract the majority of research, development, test, and evaluation 
(RDT&E) dollars. Many officials working within the space community 
agreed that these were key underlying causes of acquisition problems 
during a review we conducted last year.\2\ In addition, officials we 
spoke with also cited pressures resulting from having a diverse array 
of officials and organizations involved with the space acquisition 
process, tensions between the science and technology (S&T) and 
acquisition communities as to who is better suited to translate 
technology concepts into reality, pressures resulting from short 
tenures among staff critical to achieving acquisition success, and 
difficulties in overseeing contractors.
---------------------------------------------------------------------------
    \2\ GAO, Defense Acquisitions: Incentives and Pressures That Drive 
Problems Affecting Satellite and Related Acquisitions, GAO-05-570R 
(Washington, DC: June 23, 2005).

    16. Senator Sessions. Ms. Chaplain, do you believe the Air Force is 
addressing these obstacles?
    Ms. Chaplain. The Air Force has recently taken steps to put is 
Transformational Satellite Communications System (TSAT) program on a 
more executable track by reducing its expectations in the level of 
sophistication for the first two satellites so that it can meet its 
schedule goals. It is also holding off entering product development of 
the first increment until critical technologies are proven. If the Air 
Force adheres to this commitment for TSAT and applies it to Space 
Radar, as it has also informally committed to do, then it would be 
addressing some of the obstacles noted above. For example, it would 
reduce the risk of funding instability since cost estimates would be 
more realistic. In addition, the Air Force has committed to estimating 
cost and funding new acquisitions to an 80-percent confidence level, 
strengthening systems engineering, and strengthening the acquisition 
workforce. For some specific programs, the Air Force has applied 
additional mechanisms to regulate requirements. These actions could 
also remove obstacles, if effectively implemented.
    However, as we testified, such actions should be accompanied by an 
investment strategy for space, and ultimately DOD's entire weapons 
portfolio, to separate wants from needs and to alleviate longstanding 
pressures associated with competition within DOD to win funding. DOD 
could also instill the best practices it is now embracing into its 
space acquisition policy. In addition, we have recommended that DOD, as 
a whole, take steps to hold people and programs accountable when best 
practices are not pursued. This will require DOD to empower program 
managers to make decisions related to funding, staffing, and moving 
into subsequent phases and to match program manager tenure with 
delivery of a product. It may also require DOD to tailor career paths 
and performance management systems to provide incentives for longer 
tenures. By embracing a model that incorporates all these elements, DOD 
can achieve better outcomes for its space programs. By not doing so, 
there will still be incentives and allowances to overpromise 
capability, underestimate cost and schedule, and to start programs 
prematurely, which, in turn, can eventually undo other improvement 
efforts.

                        SATELLITE COMMUNICATIONS

    17. Senator Sessions. General Chilton, as DOD's operational manager 
for satellite communications, U.S. Strategic Command (STRATCOM) plays a 
lead role in coordinating the use of both military satellite 
communications and leased commercial satellite communications assets. 
What steps could we take to better use the available commercial 
satellite fleets?
    General Chilton. DOD is currently conducting an analysis of the 
commercial satellite procurement process which will result in specific 
recommendations to improve DOD's strategic partnership with the 
commercial satellite industry. However, providing centralized funding 
would enable long-term global procurement of bulk commercial satellite 
bandwidth. Such contracts could include provisions to ensure rapid 
redeployment and resizing of bandwidth as mission requirements change. 
Long-term bulk procurements will allow DOD to develop long-term 
relationships with industry and leverage the cost benefits of being a 
high-priority, high-volume, high-value customer. Any centralized 
funding plan must provide for a means to scale the capabilities of DOD 
gateways to meet warfighter needs and include provisions for satellite 
network planning, management, and control.

    18. Senator Sessions. General Chilton, what additional tools does 
STRATCOM need to improve the acquisition and planning process for using 
commercial satellite capacity?
    General Chilton. The DOD has designated the Defense Information 
Systems Agency (DISA) as the acquisition and planning agent for 
commercial satellite bandwidth. To realize improved commercial 
satellite service, DISA requires centralized funding to acquire, 
manage, plan, monitor, and assess the utilization of leased commercial 
bandwidth. In addition to leased bandwidth, this effort would require 
the following tools: (1) a Bandwidth Management and Scheduling Tool; 
(2) a Local and Remote Terminal Modeling Tool; (3) a Specific Real-Time 
Remote Spectrum Monitoring Capability Tool; (4) a Real-time Assessment 
Tool for determining Reserve and unused satellite bandwidth; and (5) a 
Schedule Mission Planning Tool for military and commercial satellite 
resources.

                 SPACE CAPABILITIES FOR THE WARFIGHTER

    19. Senator Sessions. General Chilton, what are the warfighter's 
priorities with respect to needed improvements to our space 
capabilities?
    General Chilton. Warfighter priorities include capability 
enhancements to:

        <bullet> Space Situational Awareness (SSA). SSA is the Space 
        Control mission foundation, enabling an understanding of the 
        space environment (rapid acquisition and fielding of 
        capabilities that can detect, geolocate, and characterize 
        threats to space systems will provide the unambiguous 
        distinction between hostile action and natural environmental 
        space effects).

                <bullet> Without adequate SSA there is increased risk 
                of on-orbit collision, unnecessary orbital maneuvers, 
                ineffective overflight warning, sluggish attack/anomaly 
                detection/resolution, unfocused intelligence 
                collection, lack of timely predictive battlespace 
                awareness, and ineffective space control prevention/
                negation operations.

        <bullet> Responsive access to space (a new business model, next 
        generation boosters and more efficient launch operations, 
        launch-on-demand and store-on-orbit concept development).
        <bullet> Technological advances in miniaturization, materials, 
        production, and automation (make payloads smaller with more on 
        each booster and reducing vulnerability to loss).
        <bullet> Automation and integration of space command and 
        control capabilities.
        <bullet> Integration of all current and future SSA capabilities 
        into a common user defined operational picture.

    20. Senator Sessions. Admiral Deutsch and General Hamel, would you 
care to add anything from the perspective of the Navy and Air Force?
    Admiral Deutsch. The Navy is interested in space as a key part of 
FORCEnet. Our priority is to integrate space capabilities, particularly 
military satellite communications: intelligence, surveillance, and 
reconnaissance (ISR); environmental sensing and position, navigation, 
and timing (PNT) throughout the naval force to make space tactically 
relevant. Wide-area surveillance capabilities, both active and passive, 
as well as robust communications, including comms-on-the-move, will 
support tactical strike, anti-submarine warfare, mine warfare, special 
operations, Maritime Domain Awareness (MDA), and other high priority 
mission areas. An emerging priority, which cuts across all warfare 
areas, is data exfiltration (e.g. the capability to move data from 
distributed sensors to command and control (C2) nodes).
    The Navy also wants to see improvements in Space Situational 
Awareness (SSA) and protection. The Navy needs greater fidelity in the 
Common Operational Picture (COP) including SSA. Integrating SSA data 
into the COP is crucial to dynamically adapting to changes in space 
system availability (e.g. ISR, SATCOM, etc.) to maintain warfighting 
effectiveness.
    Keeping with the objective to maximize space support to the Navy 
warfighter, we are interested in Operationally Responsive Space (ORS) 
because of its potential to provide a more affordable way to get beyond 
the line of sight of communication capabilities and rapid-reaction ISR 
sensors, on orbit, in a tactically relevant timeframe to respond to 
asymmetric challenges and hedge against uncertainty.
    General Hamel. While there are many areas for improvement in our 
space capabilities, I would defer to our users to determine 
warfighter's priorities. Faster, better, cheaper, persistent, and more 
reliable are always desirable--responsiveness is key. We're very proud 
that we're able to launch rockets into space, but the fact remains, 
simply launching hardware to space does nothing to enable America's 
joint warfighters. It's only after the systems are switched-on, 
checked-out, and given thumbs-up that the payoff begins. The mission of 
the Space and Missile Systems Center is to deliver operationally 
responsive systems to the warfighter and our Nation. Delivering these 
integrated warfighting effects and capabilities is part and parcel to 
our existence. By enabling and being responsive to the needs of 
warfighters we contribute to the Air Force's primary focus: winning the 
global war on terror. Through innovative use of heritage systems and 
evolving technologies, we remain committed to providing the world's 
finest space capabilities to the world's finest warfighters. To that 
end, it's incumbent on us to remain receptive to the needs of combatant 
commanders leveraging our resources to satisfy their requirements.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    21. Senator Bill Nelson. Dr. Sega and General Hamel, the next batch 
of Evolved Expendable Launch Vehicles (EELV) launches to be put on 
contract, the Buy III has been delayed, as I understand it, largely as 
a result of the delay in Federal Trade Commission (FTC) approval of the 
United Launch Alliance. Are there any other factors in the delay and 
when will the Buy III launches be put on contract?
    Dr. Sega. The timing in the Buy III EELV Launch Services (ELS) 
contract awards is not related to the FTC's approval of ULA. The Buy 
III contracts will be awarded regardless of FTC's approval or 
disapproval of the ULA proposal. Implementing the new EELV acquisition 
strategy involves moving from a commercial-based procurement program to 
a more traditional government procurement program and has been 
challenging. The contracts require a government standard accounting 
system that was not used by either contractor under the previous 
commercial services contracts. All Buy III contracts are being audited 
by the Defense Contract Audit Agency (DCAA) to ensure full compliance 
in this transition. We expect to award our Buy III ELS contracts in the 
near future as these audits are completed.
    General Hamel. The delay in the Buy III contract awards are not 
related to the FTC's approval of United Launch Alliance (ULA). The Buy 
III contracts must be awarded regardless of ULA's approval or 
disapproval by the FTC. The delays in Buy III are due to the complexity 
of implementing the new EELV acquisition strategy. Specifically, moving 
from a commercial based procurement program to a more traditional 
government procurement program has been extremely challenging. The 
contracts require a government standard cost accounting system that was 
not used by either contractor under the previous commercial services 
contracts. All Buy III contracts are being audited by the Defense 
Contract Audit Agency (DCAA) to ensure full compliance with this 
requirement. We expect to continue awarding our Buy III contracts over 
the next few months as these audits are completed.

    22. Senator Bill Nelson. Dr. Sega and General Hamel, the Fiscal 
Year 2006 Defense Appropriations Act Statement of Managers language 
directs the Air Force to eliminate multi-year allocations, pre-awards, 
and block buys from Buy III. Could you explain how the Air Force plans 
to implement Buy III and could you discuss the issues that the 
Appropriations Committee was attempting to address in its language?
    Dr. Sega. The Air Force is implementing Buy III in compliance with 
the fiscal year 2006 congressional language. We will award the EELV 
launch capability contracts for a 2-year period and will award on an 
annual basis, without multiyear allocation, pre-awards and block buys. 
The annual call for proposals for EELV launch services will allow any 
potential EELV certified provider the opportunity to compete in the 
program.
    General Hamel. The Air Force is fully compliant with the Fiscal 
Year 2006 DOD Appropriations Conference Report. Per the conference 
report, the Air Force fully intends to assign and procure the remaining 
19 Buy III EELV launch services on an annual basis. This means that 
every year through the projected 4 years of Buy III launches, the USAF 
will assign and procure only the launch services that must be ordered 
in the next fiscal year for launch 2 years later. No additional action 
is required to comply with the conferees' language because the 21 Apr 
05 EELV Launch Services Request for Proposal notified the contractors 
that ``The Government Reserves the right to award, reallocate, and/or 
reschedule these unawarded launch service missions, or to not make any 
launch service awards.''

    23. Senator Bill Nelson. Dr. Sega and General Hamel, how far in 
advance does a launch vehicle have to be assigned to a particular 
satellite or satellite program and why?
    Dr. Sega. The EELV program funds the launch service 2 years prior 
to the launch date. In some cases, with a very complex satellite type 
that has not been previously integrated, the initial satellite 
integration work is begun prior to this 2-year period. However, the 
final allocation is done on an annual basis 2 years prior to launch.
    General Hamel. The EELV program funds the launch service 2 years 
prior to the launch date. In some cases, with a new satellite type that 
has not previously been integrated, the initial satellite integration 
work is begun prior to this 2-year period. The final allocation is done 
at least 2 years prior to launch to allow sufficient time to fully 
integrate the spacecraft and the chosen launch vehicle.

    24. Senator Bill Nelson. Dr. Sega and General Hamel, will the 
United Launch Alliance result in a more flexible approach to launch 
vehicle assignments?
    Dr. Sega. We believe it will. The efficiencies gained in 
engineering, manufacturing, and operations under the United Launch 
Alliance joint venture will continue EELV's progress to obtain a 
standard interface to the satellites. Launch vehicle assignment will 
continue, however, to be assigned 2 years prior to launch.
    General Hamel. Yes, we believe it will. The efficiencies gained in 
engineering, manufacturing, and operations under the United Launch 
Alliance joint venture will continue EELV's drive for a standard 
interface to the satellites. However, launch vehicle assignment will 
continue to be assigned 2 years prior to launch for the foreseeable 
future.

                        SPACE ACQUISITION POLICY

    25. Senator Bill Nelson. Ms. Chaplain, first I want to thank GAO 
for its excellent discussion of the problems and progress in space 
acquisition programs. That some programs have exceeded 100 percent cost 
growth and have been delayed for more than 6 years is an 
extraordinarily troubling circumstance. On page 4 of your statement 
there is a chart that shows the difference between initial and most 
recent cost estimates for space programs. The difference is on the 
order of more than $2 billion per year. GAO highlights three key issues 
that I would like to walk through.
    The first problem is that DOD starts more space and weapons 
programs that it can afford, ``which pressures programs to 
underestimate costs and over promise capabilities.'' Can you provide a 
few examples of this problem in space programs and if and how the 
problem is being addressed?
    Ms. Chaplain. Actual costs for nearly every major space acquisition 
we review each year as part of our annual weapon system assessment have 
greatly exceeded earlier estimates--a clear indication that programs 
consistently underestimate costs. For example, the Space Based Infrared 
System (SBIRS)-High cost estimate climbed from about $4 billion as of 
October 1996 to over $10 billion in September 2005, and costs are 
expected to increase further. Estimated costs for the Evolved 
Expendable Launch Vehicle (EELV) program have climbed from about $15 
billion in October 1998 to $27 billion in August 2005 with 43 fewer 
launches to be purchased than anticipated. Estimated costs for the 
Advanced Extremely High Frequency Satellite program (AEHF) increased 
from $5.6 billion as of October 2001 to $6.2 billion as of August 2005, 
with quantities decreasing from five to three satellites. Estimated 
costs for the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) grew from $5.9 billion in August 2002 to 
nearly $8 billion in September 2005. Our past reports have also 
identified cases where programs have overpromised capabilities. For 
example, the SBIRS-Low program started under the assumption that the 
satellites would be able to detect and track multiple objects and 
differentiate a threatening warhead from decoys, even though that 
technology challenge was exceedingly high. In fact, the program was 
never able to achieve this capability. It was eventually shutdown in 
the face of cost and schedule overruns that came with addressing 
technology challenges. The SBIRS-High program began with the assumption 
that there would be four satellites in geosynchronous orbit, but more 
than 10 years later, DOD plans to reduce the number of satellites it 
will procure and still does not have the assurance it needs that the 
missile detection capability can be achieved in time to replace the 
existing detection system. In addition, DOD has initiated efforts to 
develop a parallel competing capability with the SBIRS-High program. 
Similarly, the NPOESS program is now considering dropping some of its 
planned capability because of technology and design-related challenges.
    DOD has been taking actions to improve cost estimating and we are 
in the process of assessing these actions. As mentioned above, for 
example, it has committed to estimating cost and funding new 
acquisitions to an 80-percent confidence level. In addition, the Air 
Force is requiring the use of independent cost estimates--rather than 
estimates produced by a program office or a contractor. It is also 
committed to strengthening its cost-estimating capabilities--in terms 
of people, methodologies, and tools. In regard to the issue of 
overpromising capability, the Air Force has deferred pursuing some of 
its more ambitious capabilities on its TSAT program, so that the 
program can be better positioned to meet its schedule. We do not know 
at this point whether it will be doing the same for its new Space Radar 
program. As we underscored in our testimony, it is important that these 
and other individual actions be made within a framework of broader, 
systemic improvements to DOD's overall acquisition process, the 
acquisition workforce, and an overall investment strategy.

    26. Senator Bill Nelson. Ms. Chaplain, the second problem is that 
DOD ``starts its space programs too early, that is, before it is sure 
the capabilities it is pursuing can be achieved within available 
resources and time constraints.'' Can you provide a few examples of 
this problem in space programs and if and how the problem is being 
addressed?
    Ms. Chaplain. Many of our annual reviews of major space 
acquisitions show that programs have started with relatively low levels 
of technology maturity--meaning DOD does not have assurance that the 
technologies can work as intended. This includes, AEHF, NPOESS, SBIRS-
High, and SBIRS-Low--now known as the Space Tracking and Surveillance 
System. Exceptions include the Navy's Mobile User Objective System 
(MUOS) (though the program later added two additional technologies that 
did not meet best practices standards for maturity) and the Global 
Positioning System Block IIF. At times, we have found that key sensors 
to be included in new satellites were not fully tested, or even 
prototyped, before being included in a program. In other cases, 
technologies used to support the health of the overall satellite, such 
as cooling systems, were immature. In other cases, software needs were 
vastly underestimated. In the case of AEHF, technical resources to 
support security needs were underestimated.
    Many programs we have studied felt the need to start the 
acquisition process before such needs were better understood because 
acquisition programs tend to attract more funding than science and 
technology efforts. In addition, in the case of space, programs have 
historically attempted to satisfy all requirements in a single step, 
regardless of the design challenge or the maturity of the technologies 
to achieve the full capability. While this is partly attributable to a 
desire to speed delivery of capability, it has perversely slowed down 
programs, since programs were at increased risk of facing costly and 
disruptive technical and design problems.
    As noted previously, DOD has committed to delay the development of 
one new major space program--TSAT--until technology needs are better 
understood. It has also committed to deliver new space-based 
capabilities in an incremental fashion so that acquisition efforts can 
be more executable and the science and technology base can be more 
engaged in major space programs. It has not taken such action yet on 
other new programs, notably Space Radar, though it has informally 
committed to. In addition, DOD's space acquisition policy still allows 
major acquisitions to begin without demonstrating that technology can 
work as intended.

    27. Senator Bill Nelson. Ms. Chaplain, the third issue is the DOD 
has ``allowed new requirements to be added well into the acquisition 
phase.'' I would also add that sometimes the original requirements may 
be unrealistic or unaffordable and that this too may be part of the 
problem. Can you provide a few examples of the requirements problem in 
space programs and if and how the problem is being addressed?
    Ms. Chaplain. Our past reports have pointed to requirements setting 
problems in the AEHF, NPOESS, and SBIRS-High programs. In the case of 
SBIRS-High, we pointed to problems related to not adequately defining 
requirements upfront. These were further detailed in subsequent DOD 
studies, including those by the SBIRS-High Independent Review Team and 
the Defense Science Board. Both noted that the acquisition approach the 
Air Force was following, known as Total System Performance 
Responsibility, placed too much responsibility on the part of the 
contractor to negotiate requirements, and that the process eventually 
broke down. In the case of NPOESS, we reported in the early phases of 
the program that the Air Force and the National Oceanic and Atmospheric 
Administration had difficulty resolving diverging requirements. In the 
case of AEHF, we reported that DOD substantially and frequently altered 
requirements and design in the early phases of the program. While 
considered necessary, some changes increased costs by hundreds of 
millions of dollars and caused scheduling delays on a program that DOD 
was trying to accelerate in order to address a potential capability 
gap. DOD has since rejected the acquisition approaches that led to 
requirements-setting problems on both SBIRS-High and AEHF. It has also 
instituted control mechanisms to regulate requirements on SBIRS-High. 
In our testimony, we noted that DOD could take further steps to 
strengthen requirements setting by implementing processes and policies, 
as needed, which stabilize requirements for acquisitions, like NPOESS, 
that are being shared with other agencies.
    We have also reported on programs that took on unrealistic or 
potentially unaffordable requirements. The SBIRS-Low program's pursuit 
of discrimination capability is an older example of such a program. 
More recently, we have pointed to affordability and feasibility issues 
related to Space Radar and the TSAT programs, which together, have been 
preliminarily estimated to cost about $40 billion. Specifically, we 
have stated that DOD was planning to start these acquisitions even when 
many of their critical technologies were still immature, and it was 
pursuing a highly ambitious path in terms of the technology push. Given 
that these systems were among the most complex programs ever undertaken 
for space, they were being counted on to enable wider DOD 
transformation efforts, and DOD was already contending with highly 
problematic space efforts, we believed that DOD could not afford to 
pursue such risky approaches for TSAT and Space Radar. As noted 
earlier, DOD has taken steps to ensure it is pursuing realistic 
requirements for TSAT, and it has informally committed to do the same 
for Space Radar.

    28. Senator Bill Nelson. General Hamel, the Young Panel, which 
reviewed space acquisition programs, also identified the manner in 
which space programs are funded as a reason for cost growth. The Young 
Panel believed that the programs should have a sufficient contingency 
to address small issues, while they are still small, and that programs 
should be funded at the 80 percent confidence level. Which Air Force 
programs are funded at the 80 percent level?
    General Hamel. TSAT is the only program in my portfolio currently 
funded at the 80 percent confidence level. In general, we work very 
hard in the Air Force to preserve appropriate management reserve for 
our program managers--depending on the program's level of risk, 
relative priority, and the pool of available funding. Funding all 
programs to an 80 percent confidence level would be extremely 
challenging.

    29. Senator Bill Nelson. Dr. Sega, do you plan to make this a 
requirement for all space acquisition programs?
    Dr. Sega. We will fund programs at an increased confidence level 
based on our assessment of the program's risk. For example, the TSAT 
program was funded to a higher confidence level in the fiscal year 2007 
President's budget request.

    30. Senator Bill Nelson. Dr. Sega, in your testimony you state that 
you want to adopt a ``back to basics'' approach to space acquisition 
and you talk about four distinct stages. The third stage is where the 
technology is matured ``until we are confident it will work reliably in 
space.'' Does this include full systems testing?
    Dr. Sega. Our intent is that when we enter stage four in the 
acquisition process (Systems Production), we will have reduced the 
technical risk to an acceptable level and the cost and schedule risk 
will have fallen commensurately. Stage four is when full system testing 
will occur. For the most part, entering the fourth stage from the third 
stage (Systems Development) with TRL-6 technologies is sufficient to 
reduce and manage program risk.

    31. Senator Bill Nelson. Dr. Sega, is the integration issue 
resolved?
    Dr. Sega. For space systems there is little opportunity for a test 
flight to identify and resolve problems that arise during assembly of 
the asset. However, we are taking steps to minimize integration risk. 
First, the incorporation of mature technology and good systems 
engineering will reduce risk in production of space systems. For 
example, manufacturing and integration of proven technologies allows 
more controlled risk management. Systems that can interface with common 
test equipment will simplify and speed up qualification testing. 
Second, we are putting a greater emphasis on industry standards for 
space components. Space certified parts and components that are tested 
and certified as space-worthy can be confidently used without extensive 
follow-on testing and should be easier to integrate into space-rated 
subsystems.

                              SPACE RADAR

    32. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
Admiral Deutsch, and Ms. Chaplain, is there a clear definition of each 
Technical Readiness Level (TRL) that all of you agree on and that 
exists in writing and that clearly applies to space programs?
    Dr. Sega. The Defense Acquisition Guidebook, table 10.5.2.1, 
defines the TRLs as shown in the table below.

----------------------------------------------------------------------------------------------------------------
                                                                      Technology Readiness
    Technology Readiness Level          Description                           Level              Description
----------------------------------------------------------------------------------------------------------------
1. Basic principles observed and   Lowest level of                    6. System/subsystem   Representative model
 reported.                          technology                         model or prototype    or prototype
                                    readiness.                         demonstration in a    system, which is
                                    Scientific research                relevant              well beyond that of
                                    begins to be                       environment.          TRL 5, is tested in
                                    translated into                                          a relevant
                                    applied research                                         environment.
                                    and development.                                         Represents a major
                                    Examples might                                           step up in a
                                    include paper                                            technology's
                                    studies of a                                             demonstrated
                                    technology's basic                                       readiness.
                                    properties.
2. Technology concept and/or       Invention begins.                  7. System prototype   Prototype near, or
 application formulated.            Once basic                         demonstration in an   at, planned
                                    principles are                     operational           operational system.
                                    observed, practical                environment.          Represents a major
                                    applications can be                                      step up from TRL 6,
                                    invented.                                                requiring
                                    Applications are                                         demonstration of an
                                    speculative and                                          actual system
                                    there may be no                                          prototype in an
                                    proof or detailed                                        operational
                                    analysis to support                                      environment such as
                                    the assumptions.                                         an aircraft,
                                    Examples are                                             vehicle, or space.
                                    limited to analytic
                                    studies.
3. Analytical and experimental     Active research and                8. Actual system      Technology has been
 critical function and/or           deveiopment is                     completed and         proven to work in
 characteristic proof of concept.   initiated. This                    qualified through     its final form and
                                    includes analytical                test and              under expected
                                    studies and                        demonstration.        conditions. In
                                    laboratory studies                                       almost all cases,
                                    to physically                                            this TRL represents
                                    validate analytical                                      the end of true
                                    predictions of                                           system development.
                                    separate elements
                                    of the technology.
4. Component and/or breadboard     Basic technological                9. Actual system      Actual application
 validation in laboratory           components are                     proven through        of the technology
 environment.                       integrated to                      successful mission    in its final form
                                    establish that they                operations.           and under mission
                                    will work together.                                      conditions, such as
                                    This is relatively                                       those encountered
                                    ``low fidelity''                                         in operational test
                                    compared to the                                          and evaluation.
                                    eventual system.
5. Component and/or breadboard     Fidelity of
 validation in relevant             breadboard
 environment.                       technology
                                    increases
                                    significantly. The
                                    basic technological
                                    components are
                                    integrated with
                                    reasonably
                                    realistic
                                    supporting elements
                                    so it can be tested
                                    in a simulated
                                    environment.
----------------------------------------------------------------------------------------------------------------

    General Chilton. The Defense Acquisition Guidebook, table 10.5.2.1, 
defines Technology Readiness Levels. There is common agreement that for 
a satellite program, the ``operational environment'' referenced in the 
definition of TRL 7 is space (i.e., on orbit).
    General Hamel. There are common descriptions of Technology 
Readiness Levels in the Defense Acquisition Guidebook, but they are 
overarching for all technologies--not specific to space technologies. 
There is common agreement that the ``operational environment'' in TRL 7 
is ``on-orbit'' for space systems.
    For reference, the following Technology Readiness Levels apply:

         TRL 1: Basic principles observed and reported.
         TRL 2: Technology concept and/or application formulated.
         TRL 3: Analytical and experimental critical function and/or 
        characteristic proof-of-concept.
         TRL 4: Component and/or breadboard validation in laboratory 
        environment.
         TRL 5: Component and/or breadboard validation in relevant 
        environment.
         TRL 6: System/subsystem model or prototype demonstration in a 
        relevant environment (ground or space).
         TRL 7: System prototype demonstration in a operational 
        environment.
         TRL 8: Actual system completed and ``flight qualified'' 
        through test and demonstration.
         TRL 9: Actual system ``flight proven'' through successful 
        mission operations.

    Admiral Deutsch. The National Security Space Acquisition Policy 
(0301, 27 December 2004) uses the definitions of Technology Readiness 
Levels in the Department of Defense Instruction (DODI) 5000.2 
Acquisition System Guidebook, which it specifically references. Per the 
DODI, it applies to ``The Office of the Secretary of Defense, the 
Military Departments, the Chairman of the Joint Chiefs of Staff (Joint 
Staff), the Combatant Commands, the Office of the Inspector General of 
the Department of Defense, the Defense Agencies, DOD Field Activities, 
and all other organizational entities within the Department of Defense 
(hereafter referred to collectively as ``the DOD components'').
    While TRL definitions are clear, they are subject to interpretation 
in the context of assessing technology maturity and design risk.

------------------------------------------------------------------------
        Technology Readiness Level                   Description
------------------------------------------------------------------------
1. Basic principles observed and reported.  Lowest level of technology
                                             readiness. Scientific
                                             research begins to be
                                             translated into applied
                                             research and development.
                                             Examples might include
                                             paper studies of a
                                             technology's basic
                                             properties.
2. Technology concept and/or application    Invention begins. Once basic
 formulated.                                 principles are observed,
                                             practical applications can
                                             be invented. Applications
                                             are speculative and there
                                             may be no proof or detailed
                                             analysis to support the
                                             assumptions. Examples are
                                             limited to analytic
                                             studies.
3. Analytical and experimental critical     Active research and
 function and/or characteristic proof of     development is initiated.
 concept.                                    This includes analytical
                                             studies and laboratory
                                             studies to physically
                                             validate analytical
                                             predictions of separate
                                             elements of the technology.
                                             Examples include components
                                             that are not yet integrated
                                             or representative.
4. Component and/or breadboard validation   Basic technological
 in laboratory environment.                  components are integrated
                                             to establish that they will
                                             work together. This is
                                             relatively ``low fidelity''
                                             compared to the eventual
                                             system. Examples include
                                             integration of ``ad hoc''
                                             hardware in the laboratory.
5. Component and/or breadboard validation   Fidelity of breadboard
 in relevant environment.                    technology increases
                                             significantly. The basic
                                             technological components
                                             are integrated with
                                             reasonably realistic
                                             supporting elements so it
                                             can be tested in a
                                             simulated environment.
                                             Examples include ``high
                                             fidelity'' laboratory
                                             integration of components.
6. System/subsystem model or prototype      Representative model or
 demonstration in a relevant environment.    prototype system, which is
                                             well beyond that of TRL 5,
                                             is tested in a relevant
                                             environment. Represents a
                                             major step up in a
                                             technology's demonstrated
                                             readiness. Examples include
                                             testing a prototype in a
                                             high-fidelity laboratory
                                             environment or in simulated
                                             operational environment.
7. System prototype demonstration in an     Prototype near, or at,
 operational environment.                    planned operational system.
                                             Represents a major step up
                                             from TRL 6, requiring
                                             demonstration of an actual
                                             system prototype in an
                                             operational environment
                                             such as an aircraft,
                                             vehicle, or space. Examples
                                             include testing the
                                             prototype in a test bed
                                             aircraft.
8. Actual system completed and qualified    Technology has been proven
 through test and demonstration.             to work in its final form
                                             and under expected
                                             conditions. In almost all
                                             cases, this TRL represents
                                             the end of true system
                                             development. Examples
                                             include developmental test
                                             and evaluation of the
                                             system in its intended
                                             weapon system to determine
                                             if it meets design
                                             specifications.
9. Actual system proven through successful  Actual application of the
 mission operations.                         technology in its final
                                             form and under mission
                                             conditions, such as those
                                             encountered in operational
                                             test and evaluation.
                                             Examples include using the
                                             system under operational
                                             mission conditions.
------------------------------------------------------------------------

    Ms. Chaplain. The National Aeronautics and Space Administration 
(NASA) developed the original ranking and definitions of technology 
maturity levels. GAO and DOD agree on the TRL definitions--in its 
reports, GAO continues to reference the TRL scale for assessing 
critical technologies from DOD's Interim Defense Acquisition Guidebook 
(app 6, dated October 30, 2002). However, for space system 
acquisitions, GAO and DOD have disagreements on what the TRLs should be 
at major decision points. According to our work on best practices, 
product development should be initiated after critical technologies 
have been incorporated into a system prototype and tested in an 
operational environment--meaning the cold-radiated vacuum of space. Our 
prior reports have recognized that space systems are uniquely difficult 
to test in a true operational environment. However, DOD has found ways 
to test sensors and other critical technologies on experimental 
satellites. Nonetheless, DOD continues to stand up formal space system 
acquisitions too early--before critical technologies have been tested 
in operational or relevant environments--that is, before DOD has 
assurance that the capabilities it is pursuing can be achieved. This 
causes DOD to extend technology invention to its acquisitions, which 
have reverberating effects and require large amounts of time and money 
to fix. In these cases, DOD points to its National Security Space 
Acquisition Policy, which allows it to take such an approach--unlike 
DOD's acquisition policy for non-space acquisitions, where TRL 7 
(testing in an operational environment) is preferred before product 
development is initiated (TRL 6 is required). As long as GAO continues 
to base its reviews of space programs on best practices and DOD 
continues to use the wide leeway afforded in its space acquisition 
policy regarding critical technologies and their maturity levels to 
initiate product development, GAO and DOD will continue to have 
disagreements in this area.

    33. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
Admiral Deutsch, and Ms. Chaplain, what is the difference between TRL 6 
and 7 and what is the advantage or disadvantage of being at level 6 or 
7 of the Conceptual Design Review (CDR)?
    Dr. Sega. TRL 6 refers to a representative model or prototype 
system that has been tested in a relevant environment. This relevant 
environment can be a high-fidelity laboratory (e.g. Thermal Vacuum 
Chamber) or a simulated environment. TRL 7 refers to a prototype 
similar to the operational system tested in the operational environment 
(i.e. on orbit). Traditionally, successful space programs have achieved 
TRL 6 by Critical Design Review through space qualification of 
components and selected subsystems.
    General Chilton. TRL 6 refers to a system/subsystem model or 
prototype demonstration in a relevant environment, such as a high 
fidelity laboratory or simulated operational environment. TRL 7 refers 
to a system prototype demonstration in an operational environment, in 
the case of space systems, in space, and represents a major step up 
from TRL 6. Because TRL 7 may only be properly achieved through test on 
orbit, most programs have not pursued TRL 7 by CDR.
    General Hamel. TRL Level 7 requires the demonstration of an actual 
system prototype in an operational environment, where as TRL level 6 is 
a representative model or prototype in a relevant environment. CDR is 
the primary review gate to assure the design is adequate to meet system 
performance needs before starting the manufacture of the system and its 
components. The advantage of a technology or technologies being at TRL 
level 7 at CDR is the increased degree of confidence the system 
solution will perform as intended in its application and environment.
    The challenging aspect of space acquisition is that satellites 
cannot be proven in an operational environment until they are on orbit, 
so reaching TRL 7 at CDR is not practical. However, we have been 
successful in achieving TRL 6 (tested in a relevant environment) 
through space qualification of components and selected subsystems, and 
with prototype systems that represent the functional capability of the 
system.
    Admiral Deutsch. The definitions for TRL 6 and 7 are provided. The 
main difference is that TRL 7 represents a capability that has been 
proven in an operational environment using a system prototype (near 
flight-like engineering design model).


6. System/subsystem model or prototype      Representative model or
 demonstration in a relevant environment.    prototype system, which is
                                             well beyond that of TRL 5,
                                             is tested in a relevant
                                             environment. Represents a
                                             major step up in a
                                             technology's demonstrated
                                             readiness. Examples include
                                             testing a prototype in a
                                             high-fidelity laboratory
                                             environment or in simulated
                                             operational environment.
7. System prototype demonstration in an     Prototype near, or at,
 operational environment.                    planned operational system.
                                             Represents a major step up
                                             from TRL 6, requiring
                                             demonstration of an actual
                                             system prototype in an
                                             operational environment
                                             such as an aircraft,
                                             vehicle, or space. Examples
                                             include testing the
                                             prototype in a test bed
                                             aircraft.


    GAO normally looks for a minimum of TRL 6 at CDR. The advantage of 
TRL 7 at CDR is that program risk has been further reduced, and cost 
and schedule information are more accurate.
    Ms. Chaplain. The main difference between TRL 6 and 7 is the 
testing environment. For TRL 6, the testing environment would be a 
laboratory or a simulated operational environment, and for TRL 7, the 
testing environment would be an operational environment--meaning in 
space. According to GAO's work on best practices, achieving a high 
level of technology maturity at program start is an important indicator 
of whether available resources in terms of knowledge, time, money, and 
capacity match the customer's requirements. In addition, the key 
measure for a successful critical design review (CDR) is when 90 
percent of the design drawings have been submitted to manufacturing. 
When space programs reach CDR and TRLs are below 6, it is unlikely that 
a high percentage of design drawings would have been released to 
manufacturing, thereby increasing program risk at this juncture. 
Another key point to remember is that CDR is the point at which 
programs begin ordering long-lead parts to build the first few 
satellites. This investment in hardware is at risk if the technologies 
do not prove out to work as intended. Achieving TRL 6 or 7 by CDR is a 
matter of risk--if the critical technologies in question are supremely 
important and have no space-based heritage, then it is warranted to 
test the technologies in space before proceeding through CDR. For TSAT, 
some critical technologies have a heritage of being tested or operated 
in space, and they are all slated to be at TRL 6 at the time of CDR--an 
approach that GAO did not fault.

    34. Senator Bill Nelson. General Chilton, could you talk about the 
requirement for Space Radar, and how STRATCOM coordinates or interacts 
with the IC in identifying the requirements?
    General Chilton. STRATCOM has consistently identified and 
documented enhanced capabilities which would allow advanced threat 
tagging, tracking, and location. These capabilities have been 
documented through the DOD Readiness Reporting System (DRRS). The 
command utilizes Senior Warfighter Forums (SWARF) to identify, 
consolidate, and resolve combatant commander capability requirements, 
co-leading DOD working groups with the Under Secretary of Defense for 
Intelligence. STRATCOM advocates requirements for combatant commanders 
through the Intelligence Technologies Investment Program (ITIP).
    STRATCOM's participation in requirements development for the Space 
Radar system takes place at the Space Radar Executive Steering Group 
(ESG), Executive Committee (EXCOM), and Requirements and Capabilities 
Group (RCG). Representation at each level includes DOD and ODNI 
participants who come together in support of the 13 Jan 05 Joint 
Secretary of Defense--Director of Central Intelligence memorandum in 
which they committed to pursue a Space Radar capability that ``will 
satisfy the needs of both the national Intelligence Community customers 
and the joint warfighters; fully integrate with other national and 
joint intelligence, surveillance, and reconnaissance capabilities.'' 
Additionally, STRATCOM in coordination with the RCG membership, is 
planning experimentation and demonstrations to develop a responsive 
Concept of Operations.

    35. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Hamel, an additional concern about Space Radar is how much will it 
cost. The Space Radar, if successful, would provide substantial new 
capability to find, identify, track, and monitor moving and stationary 
targets. What is the best ballpark cost of the system--there have been 
estimates as high as $40 billion--can we afford this capability? Is 
there any alternative?
    Dr. Sega. We are developing the program in measured steps, in order 
to reduce early program risks. Results of this work will include a 
total estimated cost for nine satellites in low earth orbit (plus one 
spare) and investment in the ground segment. We continue to work on an 
updated cost estimate of the Government Reference Architecture (GRA) as 
it is refined by the JROC and the MRB processes. The initial program 
office estimate falls in the range of $20-$25 billion.
    Several studies in the past have looked at alternatives for a Space 
Radar capability, some included participation of the IC. Results of 
these studies concluded that a single low earth orbit constellation for 
national and military users was the most cost-effective solution, and 
the planned Electronically Scanned Array technology provided the best 
cost benefit tradeoff.
    General Chilton. STRATCOM respectfully defers platform and system 
specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Hamel. The Space Radar program is not within my portfolio 
and, therefore, it is inappropriate for me to comment.

    36. Senator Bill Nelson. Dr. Sega, the Space Radar Integrated 
Program Office has improved the overall management of the program. I 
remain concerned, however, that all potential users of Space Radar have 
not committed to utilize the program and to jointly fund the program. 
What is the process to have this program jointly funded and utilized?
    Dr. Sega. All Space Radar stakeholders are jointly developing 
requirements and concept of operations (CONOPs). Recently, both the DOD 
and IC validated the ICD. In response to the validated ICD, we have 
identified a Government Reference Architecture which contains nine 
satellites in low earth orbit (plus one spare) and an interdependent 
ground capability which will interface with other space and airborne 
systems to support ISR horizontal integration.

               TRANSFORMATIONAL COMMUNICATIONS SATELLITE

    37. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
and Ms. Chaplain, the TSAT program, though still very early in the 
process, appears to have begun to adopt some of the recommendations of 
the GAO as well as the Young Panel and is focusing on technology 
maturity. Integration of the satellite appears to be the next difficult 
step for the TSAT program. What plans are in place to ensure successful 
integration?
    Dr. Sega. Integration and testing is indeed a critical step 
forward. We are planning for it by incorporating lessons learned from 
other space programs and from independent voices. The restructured 
block-build TSAT is funded at a higher confidence level, providing 
added risk margins throughout the cost estimate for unforeseen problems 
that will be encountered in development and integration. Similarly, the 
program schedule has been adjusted to accommodate more measured 
progress, specifically to provide additional time for integration 
efforts. The block approach reduces integration risk by reducing 
critical technologies that need to be integrated into the satellites. 
Lessons learned from the integration efforts on the TSAT Block 1 
satellites will be used to improve the integration effort on the TSAT 
Block 2 satellites.
    General Chilton. The TSAT Program Office has been organized with a 
Systems Engineering and Integration (SE&I) section to work the 
integration of the spacecraft contractor, the Mission Operations System 
contractor, and the terminal program offices. Overall system 
requirements documents are developed first. These system requirements 
documents drive the requirements documents for the spacecraft, 
operations system, and terminals that the contractors design to. Key 
events in the TSAT schedule include program reviews, where all TSAT 
components are examined to ensure interoperability with associated 
components and within the overall system.
    General Hamel. Integration and testing of subsystems and at the 
system level are indeed critical steps. We plan for it by incorporating 
lessons learned from other space programs and from independent voices. 
The restructured Block TSAT is funded at a higher confidence level, 
providing added risk margins throughout the cost estimate for 
unforeseen problems encountered in development and integration. 
Similarly, we adjusted the program schedule to a slower, more measured 
progress specifically to provide additional time for the engineering 
development and integration efforts. In itself, the block approach 
reduces integration risk by reducing the weight and capacity, and thus 
the complexity, of the initial satellites. We will capture lessons 
learned from the integration efforts on the Block 1 satellites and use 
them to improve the integration effort of the Block 2 satellites.
    We have invested significantly in the key technology and systems 
for TSAT to reduce risk. Detailed engineering, design, and 
manufacturing of subsystems lie ahead.
    Ms. Chaplain. The TSAT program is taking several steps to ensure 
its integration efforts are successful. First, according to program 
officials, the plan is to demonstrate critical technologies at TRL 6 
when key integration tests are conducted in fiscal year 2007. Second, 
the program plans to use the results of its first round of integration 
tests to refine the testing to be conducted during a second round of 
more comprehensive integration testing. Third, the program is 
conducting a series of independent tests to verify results of 
contractor testing as it incrementally builds toward the two main 
integration tests facing the program-tests of the Next Generation 
Processor Router and Optical Standards Validation Suite. The program 
office plans to have knowledge on how these two major subcomponents 
work to reduce risk by uncovering technical problems before awarding 
the space segment contract for the design and assembly of the 
satellites. Finally, the TSAT program also plans to assess the results 
of the main integration tests before making a decision to enter the 
production development phase.

    38. Senator Bill Nelson. Ms. Chaplain, what actions would you 
recommend to the program managers to ensure successful integration?
    Ms. Chaplain. According to GAO's prior work on best practices, 
leading firms ensure that (1) the right validation events--tests, 
simulations, and other means for demonstrating product maturity--occur 
at the right times, (2) each validation event produces quality results, 
and (3) the knowledge gained from an event is used to improve the 
product. Fully disclosing the results of tests (from low-level brass 
board tests to the main integration tests) and documenting the actions 
taken to address shortcomings further validates product knowledge. It 
is imperative that problems are fully addressed before rushing efforts 
to begin the next round of testing. It is also important that program 
managers use the test and evaluation parameters originally established, 
and any changes should be fully disclosed along with the reasons for 
doing so. Finally, the program manager needs assurance that all testing 
that has been done is reflective of the capabilities that the program 
is trying to deliver. Rigorous and sophisticated testing early and 
often will uncover problems when they are relatively easy and 
inexpensive to fix. Waiting too long to fully stress and test 
components will put the program in a risky position.
    In preparing answers to your questions, we relied on our prior work 
on DOD's space acquisition policy, best practices in weapon system 
acquisitions, and our reviews of specific space acquisitions as well as 
DOD studies. In addition, for specific space systems development and 
cost growth, we relied on our annual assessment of selected major 
weapon programs. Because we relied on previously issued work, we did 
not obtain comments from DOD on a draft of this letter. We conducted 
our work from April 2006 through May 2006 in accordance with generally 
accepted government auditing standards.

    39. Senator Bill Nelson. Dr. Sega, General Chilton, and General 
Hamel, I understand that the decision has been made to terminate the 
Advanced Extremely High Frequency (AEHF) program early, and substitute 
TSAT for the AEHF satellites 4 and 5. What is the last date to buy the 
fourth AEHF satellite without a production break if there is an issue 
with the first TSAT?
    Dr. Sega. To avoid a production break, advanced procurement for 
AEHF 4 needed to be included in the fiscal year 2006 appropriated 
budget. No advanced procurement money was included.
    General Chilton. The last date to program for the fourth AEHF 
satellite was in the fiscal year 2006 program objectives memoranda. 
There is already a production break for making a fourth AEHF satellite.
    General Hamel. To avoid a production break AEHF 4 required advanced 
procurement funding in fiscal year 2006 and production funding in 
fiscal year 2007. The advanced procurement funding was not included in 
the Fiscal Year 2006 Appropriations Bill.

   national polar orbiting operational environmental satellite system
    40. Senator Bill Nelson. Dr. Sega and General Hamel, the NPOESS is 
a joint NASA, DOD, and NOAA program with the funding equally divided 
between the Department of Commerce and the DOD. There are serious 
problems with several of the sensor development programs, which 
resulted in a Nunn-McCurdy breach in November. Program certification, 
required as result of the breach, is due in June. Do you believe that 
the program will be recertified, and that funding for the program will 
continue to be split equally between DOD and Commerce?
    Dr. Sega. All three agencies--DOD, Commerce, and NASA--actively 
participated in the Office of the Secretary of Defense-led Nunn-McCurdy 
certification process. The NPOESS program was recertified on June 5, 
2006, by the Under Secretary of Defense for Acquisition, Technology, 
and Logistics. Funding for the program will continue to be split 
equally between DOD and Commerce.
    General Hamel. The NPOESS program is not within my portfolio and, 
therefore, it is inappropriate for me to comment.

                    SPACE-BASED INFRARED SYSTEM-HIGH

    41. Senator Bill Nelson. General Hamel, could you please provide an 
update on the status of the Geosynchronous Earth Orbit (GEO) segment of 
the SBIRS-High system, and the new contracting approach? I note that 
the two High Earth Orbit (HEO) sensors have been delivered.
    General Hamel. We continue to make good progress on the GEO 
segment. The GEO 1 payload completed its first thermal-vacuum test in 
January 2006 and the hardware continues testing roughly running on 
schedule. GEO 1 spacecraft functional test officially started on 18 
April 2006 with the first Safe-to-Mate activities at the Lockheed 
Martin facility in Sunnyvale, California. Other GEO 1 hardware (star 
trackers, communication and power system components, etc.) are also 
making progress in multiple locations. The various flight software 
products are also progressing, but exhibit the typical first-time 
development/integration challenges. Status of these efforts is a 
continuing focus item at all the senior reviews and several independent 
assessments have been conducted. However, all discrepancies currently 
identified can be resolved.
    As a result of the December 2005 certification decision, the SBIRS 
program was restructured and is authorized to complete the current 
contract (2 HEO, 2 GEO, and all associated ground systems). The 
production decision, in fiscal year 2007, for procurement of an 
additional GEO satellite (GEO 3) is predicated on confidence the first 
GEO satellite can perform its mission. If USD(AT&L) directs the 
procurement of a SBIRS GEO 3, then the implementing details, i.e. 
contract type, profit, incentives, required contractor reports, 
incorporation of military standards and specifications, etc., will be 
finalized.
    An additional result of the December 2005 certification decision 
was an USD(AT&L) direction to establish an alternative program 
capability to ensure that the Nation's missile warning capability is 
sustained. The Acquisition Decision Memorandum stated that ``the 
parallel program will pursue an approach with acceptable technical risk 
that offers DSP-like missile warning capability and can ensure a launch 
availability date of fiscal year 2015.'' This program will start in 
fiscal year 2006 using warfighter rapid acquisition funds; the fiscal 
year 2007 President's budget includes $103 million for technology 
development for the parallel program.
    As you noted, both HEO sensor payloads were delivered for 
integration on the host spacecraft. The sensitivity of the delivered 
payloads is greater than required and is expected to provide a 
significant increase in capability to the warfighter.

    42. Senator Bill Nelson. Dr. Sega and General Chilton, the SBIRS-
High program is a companion program to the Space Tracking and 
Surveillance System (STSS) program in the Missile Defense Agency (MDA). 
How closely coordinated are these two programs?
    Dr. Sega. Although program management direction and funding for 
STSS comes directly from MDA, MDA routinely provides program updates to 
Air Force leadership (SMC and Air Force Space Command) and is planning 
to eventually transition the STSS Block 2012 program to the Air Force. 
Programmatically, both the SBIRS-High and STSS programs are physically 
colocated in the same building at the SMC, in Los Angeles, enabling 
close technical interaction and sharing of lessons learned between the 
two programs. In fact, the same System Program Director who reports to 
both MDA and Air Force leadership leads SBIRS-High and STSS.
    General Chilton. The SBIRS-Low program was transferred from the Air 
Force to the MDA in December 2002. MDA restructured SBIRS-Low into the 
STSS to meet Ballistic Missile Defense System (BMDS) requirements. STSS 
is fundamentally different from the old SBIRS-Low program. STSS will 
require cueing from SBIRS-High and other BMDS sensors to achieve its 
global midcourse tracking objectives. The SBIRS-High program and the 
STSS program are beginning the initial transition planning phase. MDA 
is coordinating the initial STSS transition plan with the Air Force. 
The transition planning should ensure close coordination between the 
two programs.

    43. Senator Bill Nelson. Dr. Sega and General Chilton, the ground 
station designed and built to fly the two satellite systems is 
operational. Will the STSS still be flown from the recently completed 
ground station?
    Dr. Sega. The STSS Block 2006 satellites will be flown from the 
Missile Defense Space Experimentation Center (MDSEC) located at the 
Joint National Integration Center (JNIC) at Schriever Air Force Base. 
Since the Block 2006 satellites are R&D BMDS test bed assets, they will 
be flown from the MDSEC, which operates all of MDA's R&D space assets. 
MDA and Air Force Space Command (AFSPC) are currently developing and 
finalizing a transition plan for the STSS Block 2012 satellite 
constellation. The initial satellites in this constellation will likely 
also be flown out of the MDSEC but will transfer to an Air Force ground 
station of choice--to be determined at a future date. As part of this 
transition, MDA has made space available at the MDSEC for AFSPC 
operators to begin to learn to operate the STSS Block 2006 satellites 
so that a smooth transition of the STSS Block 2012 satellites can 
occur.
    General Chilton. The STSS Block 2006 satellites will be flown from 
the MDSEC located at the Joint National Integration Center at Schriever 
AFB, Colorado. The MDA and AFSPC are developing the initial transition 
plan for the STSS Block 2012 satellites. The transition plan will 
detail the STSS location upon completion.

                     OPERATIONALLY RESPONSIVE SPACE

    44. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
and Admiral Deutsch, the idea of ORS is that for some missions, or to 
augment some requirements, it might be possible to use small, 
commercial-like satellites that could be quickly launched with small 
launch vehicles. These satellites could be preassembled, or modular and 
assembled on demand, and launched within hours or days. Or they could 
be small commercial-like satellites for a focused short-term mission 
that could be designed, built, and launched within a year or two. While 
there are many options to explore, the capability to quickly and 
cheaply build and launch the small satellites must be established. Some 
progress has been made but much remains to be done. Is TacSat-2 fully 
funded, both launch and satellite development?
    Dr. Sega. TacSat-2 satellite development and launch are fully 
funded. The launch vehicle for the planned November 2006 launch was 
funded in fiscal year 2006 budget.
    General Chilton. STRATCOM respectfully defers platform and system 
specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Hamel. The payload development for TacSat-2 and TacSat-3 is 
fully funded; however, there is a $3.5 million shortfall in fiscal year 
2006 for the development of the satellite bus. The Air Force has a 
below threshold reprogramming solution and is implementing that now. 
There is also an fiscal year 2007 $9.0 million shortfall for TacSat 
launches that the Air Force will correct with an additional below-
threshold reprogramming next fiscal year.
    The funding for TacSat comes from several sources--Air Force 
Research Laboratories, National Reconnaissance Office, AFSPC, Naval 
Research Lab (NRL)/Office of Naval Research (ONR), as well as the Army. 
The Air Force recognizes that multiple stakeholders require increased 
attention to coordination and mission partnering efforts. In the fiscal 
year 2007 President's budget, with the formation of the ORS program 
element, the Air Force is attempting to consolidate funding for 
responsive payloads, spacelift, and launch/traffic control to address 
this challenge.
    Admiral Deutsch. Air Force is responsible for TacSat-2 and Navy 
fully funded its portion of a secondary payload in accordance with the 
TacSat-2 Advanced Concept Technology Demonstration (ACTD) Memorandum of 
Agreement (MOA). Air Force Research Lab and the Space and Missile 
Center Detachment 12--Space Test Program also contributed funding for 
payload development and integration onto the satellite, per the ACTD 
MOA. Air Force is responsible for launch.

    45. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
and Admiral Deutsch, is TacSat-3 fully funded, both launch and 
satellite development?
    Dr. Sega. TacSat-3 payload development is fully funded. However, 
there is a $2.5 million shortfall in the TacSat-3 bus development and 
the Air Force is reprogramming to resolve this shortfall. The launch 
acquisition will require an additional $19.0 million in a fiscal year 
2007 reprogramming adjustment to be handled within the Air Force.
    General Chilton. STRATCOM respectfully defers platform and system 
specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective service responsible for the capability in question.
    General Hamel. The payload development for TacSat-2 and TacSat-3 is 
fully funded; however, there is a $3.5 million shortfall in fiscal year 
2006 for the development of the satellite bus. The Air Force has a 
below threshold reprogramming solution and is implementing that now. 
There is also a fiscal year 2007 $9.0 million shortfall for TacSat 
launches that the Air Force will correct with an additional below-
threshold reprogramming next fiscal year.
    The funding for TacSat comes from several sources--Air Force 
Research Laboratories, National Reconnaissance Office, AFSPC, NRL/ONR, 
as well as the Army. The Air Force recognizes that multiple 
stakeholders require increased attention to coordination and mission 
partnering efforts. In the fiscal year 2007 President's budget, with 
the formation of the ORS program element, the Air Force is attempting 
to consolidate funding for responsive payloads, spacelift, and launch/
traffic control to address this challenge.
    Admiral Deutsch. Air Force has overall responsibility for TacSat-3 
and Navy fully funded a secondary payload. Air Force is responsible for 
launch.

    46. Senator Bill Nelson. Dr. Sega, General Chilton, General Hamel, 
and Admiral Deutsch, what is the funding plan for TacSat-4?
    Dr. Sega. The funding for the TacSat-4 launch vehicle is part of 
the AFSPC fiscal year 2008 budget proposal currently being evaluated at 
Headquarters Air Force. NRL is the lead for production of the TacSat-4 
satellite. The ONR is funding spacecraft development and integration, 
AFSPC and SMC, Detachment 12 (Det 12) are funding the launch vehicle, 
and the Office of the Secretary of Defense's Office of Force 
Transformation (OFT) is funding the modular bus.
    General Chilton. STRATCOM respectfully defers platform and system 
specific questions to those Service representatives who maintain 
programmed funding and execution responsibilities. Existing or planned 
capabilities and decisions specific to the manning, training, and 
equipping of forces as part of Service programmed capabilities in 
support of the combatant commanders should be directed to the 
respective Service responsible for the capability in question.
    General Hamel. The funding for the TacSat-4 launch vehicle is part 
of the AFSPC fiscal year 2008 budget proposal currently being evaluated 
at Headquarters Air Force. NRL is the lead for production of the 
TacSat-4 satellite. The ONR is funding spacecraft development and 
integration, AFSPC is funding the launch vehicle, and the Office of the 
Secretary of Defense's OFT is funding the modular bus.
    Admiral Deutsch. TacSat-4 is a joint effort with Navy funding 
payload development and 1 year of operations, the OFT funding the 
standard satellite bus and Air Force funding launch. Navy fully funded 
TacSat-4 payload development at $20 million over 2\1/2\ years beginning 
in fiscal year 2006 through the ONR's Space Innovative Naval Prototypes 
program. Navy is also funding $2.8 million for ground station 
infrastructure and 1 year of satellite operations.

                        FUTURE SPACE INITIATIVES

    47. Senator Bill Nelson. Dr. Sega, the Strategic Forces 
Subcommittee held a hearing on missile defense on Tuesday of this week. 
One of the topics that we discussed briefly was the future space 
program at the MDA. Of course, today MDA has the STSS program for 
warning and sensing, and N-fire for plume characterization, but the MDA 
is looking at other potential space programs beginning in 2008. Will 
those programs be coordinated with you?
    Dr. Sega. Yes. The Director, MDA, the Assistant Secretary of the 
Air Force for Acquisition, and the Under Secretary of the Air Force 
have established an MDA-AF Board of Directors (BoD) to resolve 
acquisition and operational issues, which is being superseded by the 
MDA-Joint Service BoD. The BoD interacts during the development, 
transition, production, and deployment of Air Force air and space 
missile defense capabilities. In addition, an Air Force liaison team 
was formed, and made resident in MDA, to support bilateral coordination 
and communication.

    48. Senator Bill Nelson. Dr. Sega, will they fall under your 
capacity as the DOD Executive Agent for Space?
    Dr. Sega. Space efforts under MDA are the responsibility of the 
Director of MDA. Once these efforts transition to the military, the 
programs will fall under the DOD Executive Agent for Space.

    49. Senator Bill Nelson. Dr. Sega, will the National Space 
Acquisition Policy apply to those programs?
    Dr. Sega. As long as these efforts are under MDA management they do 
not fall under the National Security Space Acquisition Policy. Once 
these efforts are transitioned to a Service depending on the program, 
they will be consistent with the National Security Space Acquisition 
Policy.

    50. Senator Bill Nelson. Dr. Sega, will they be consistent with 
current space policy that effects are reversible and temporary?
    Dr. Sega. The current MDA programs are outside of my direct 
responsibilities as the DOD Executive Agent for Space and Under 
Secretary of the Air Force. Lieutenant General Obering can provide more 
details on these programs.

    51. Senator Bill Nelson. Dr. Sega, specifically I am curious about 
the proposed space test bed at MDA. While there is no funding for the 
space test bed requested in fiscal year 2007, and MDA officials have 
said that no decision will be taken on whether to pursue the space test 
bed until 2008, the budget documents state that the space test bed is 
``an essential element of the BMDS acquisition plan.'' This would 
indicate that a decision has been made. As the DOD Executive Agent for 
Space can you explain the status of the test bed and your role in the 
decision?
    Dr. Sega. The space test bed you are referring to is a MDA program 
and outside of my direct responsibilities as the DOD Executive Agent 
for Space. As a member of MDA's BoD, I do provide advice and counsel to 
Lieutenant General Obering on space systems and activities. I also 
review MDA's plans and programs to ensure that we are adequately 
leveraging MDA's R&D efforts as well as ensuring we are adequately 
integrating future BMD operational systems into our capabilities. This 
involvement supports a consistent approach across all the national 
space systems.

    52. Senator Bill Nelson. Dr. Sega, in addition, the MDA budget 
request for the micro satellite project lists three experiments, one of 
which is the target risk reduction experiment. The purpose of this 
experiment is described as a demonstration ``of the ability of micro 
satellites to serve as cooperative targets for the ballistic missile 
defense system.'' Given that a micro satellite's characteristics are 
quite different from those of an Intercontinental Ballistic Missile, 
what is the purpose of the experiment?
    Dr. Sega. The program you are referring to is an MDA program and 
outside of my direct responsibilities as the DOD Executive Agent for 
Space. Lieutenant General Obering can provide more details on this 
program.

    53. Senator Bill Nelson. Dr. Sega, wouldn't hitting a micro 
satellite with an interceptor be the equivalent of an anti-satellite 
weapons test?
    Dr. Sega. The program you are referring to is a MDA program and 
outside of my direct responsibilities as the DOD Executive Agent for 
Space. Lieutenant General Obering can provide more details on this 
program.

    54. Senator Bill Nelson. Dr. Sega, who is the milestone decision 
authority for this project?
    Dr. Sega. In accordance with DODD 5134.9, MDA, the milestone 
decision authority for the Micro Satellite Targets Systems--Risk 
Reduction project is the Director, MDA.

    55. Senator Bill Nelson. Dr. Sega, what is your role in this 
program?
    Dr. Sega. As the DOD Executive Agent for Space, I coordinate with 
the MDA on space projects. My role is to examine how best to apply 
potential technology applications that are being studied.

    56. Senator Bill Nelson. Dr. Sega, recent press reports indicate 
that the MDA is going to report to a BoD. Will you be part of this BoD? 
If not, how do you exercise your DOD Executive Agent for Space 
authority in conjunction with MDA?
    Dr. Sega. The Director of the MDA reports to the USD (AT&L). As a 
member of MDA's BoD, I do provide advice and counsel to Lieutenant 
General Obering on space systems and activities. As with other MDA 
programs that relate to space, my job is to maintain a high level of 
awareness of those programs through staff involvement.

    [Whereupon, at 5:23 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
